<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-439]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-439
 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2012 

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2596/S. 1572

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF COMMERCE AND 
 JUSTICE, AND SCIENCE, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING 
               SEPTEMBER 30, 2012, AND FOR OTHER PURPOSES

                               __________

                         Department of Commerce
                         Department of Justice
             National Aeronautics and Space Administration
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

64-591 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi, Ranking
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

    Subcommittee on Commerce, Justice, Science, and Related Agencies

                BARBARA A. MIKULSKI, Maryland, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 MITCH McCONNELL, Kentucky
DIANNE FEINSTEIN, California         LAMAR ALEXANDER, Tennessee
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey      RON JOHNSON, Wisconsin
BEN NELSON, Nebraska                 SUSAN COLLINS, Maine
MARK PRYOR, Arkansas                 LINDSEY GRAHAM, South Carolina
SHERROD BROWN, Ohio                  THAD COCHRAN, Mississippi (ex 
                                         officio)

                           Professional Staff

                            Gabrielle Batkin
                            Jessica M. Berry
                             Jeremy Weirich
                            Jean Toal Eisen
                         Art Cameron (Minority)
                        Allen Cutler (Minority)
                       Goodloe Sutton (Minority)

                         Administrative Support

                              Michael Bain
                         Katie Batte (Minority)



                            C O N T E N T S

                              ----------                              

                        Thursday, March 10, 2011

                                                                   Page

Department of Justice: Attorney General..........................     1

                        Thursday, April 7, 2011

Department of Justice: Federal Bureau of Investigation...........    75

                         Monday, April 11, 2011

National Aeronautics and Space Administration....................   131

                        Thursday, April 14, 2011

Department of Commerce: Secretary of Commerce....................   201
Material Submitted Subsequent to the Hearing.....................   285
Nondepartmental Witnesses........................................   287


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, MARCH 10, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Lautenberg, Nelson, Pryor, 
Brown, Hutchison, and Murkowski.

                         DEPARTMENT OF JUSTICE

                            Attorney General

STATEMENT OF HON. ERIC H. HOLDER, JR., ATTORNEY GENERAL


            opening statement of senator barbara a. mikulski


    Senator Mikulski. Good morning, everybody. The Commerce, 
Justice, Science, and Related Agencies Subcommittee of the 
United States Senate Committee on Appropriations will come to 
order.
    This is our first hearing on the fiscal year 2012 of the 
agencies within the portfolio of this subcommittee.
    Today, we welcome the Attorney General of the United 
States. And Mr. Attorney General, we are just so glad to see 
you.
    Before we turn to you, first of all, the subcommittee would 
like to note, because of our responsibility for the National 
Aeronautics and Space Administration (NASA), the joy that we 
feel on the safe return of the Discovery. It has been on its 
final journey, and sometimes I feel this appropriations 
subcommittee is there as well. But we were so glad that they 
returned safely, and we salute them.
    On a more melancholy note, on behalf of this Committee, 
this subcommittee, and, I believe, the Senate, we would like to 
express our condolences to the United States Marshals Service 
(USMS) and to the families of those who--particularly of the 
deputy who was killed in a shootout with the fugitive. We also 
understand another marshal has been, indeed, gravely wounded. 
We express our condolences and our sympathies there.
    We also want to note that this is the third Federal agent 
killed in the line of duty in recent weeks. And we want to 
acknowledge that our Federal law enforcement is in harm's way 
every single day protecting this Nation.
    When we talk about numbers and statistics and cuts and 
shutdowns and showdowns, we need to know that there are 
consequences to this, and that there are people every single 
day out there, putting themselves in harm's way not only to 
protect us overseas--and we salute those troops there--but we 
have boots on the ground in the United States of America. And 
they are in our streets and our neighborhoods.
    This man died serving a warrant. We know that we ask people 
to serve warrants every single day under the Adam Walsh Act, 
going after the despicable, reprehensible sexual predators.
    We also note that in local law enforcement--well, eight 
Federal law enforcement agents died last year in the line of 
duty--eight. Also we were told through the National Law 
Enforcement Officers Memorial Fund that 160 police officers 
died nationwide. That is a 40 percent jump in our thin blue 
line from what it was in other years. Forty percent more police 
officers have died.
    We are a Nation at risk, and our law enforcement is at 
risk. Now, there will be appropriate memorial services, which 
we salute. But we have to protect those who protect us. And 
that means adequate pay--first of all, let us start with 
respect. Let us realize that there are many people who are 
called to defend and protect the United States, and many are in 
our Federal law enforcement.
    So I am going to be asking you questions today about what 
is going to happen in terms of what you see in 2012 and the 
consequences to the continuing resolution.
    I also want to note that my new ranking member, Senator Kay 
Bailey Hutchison, will be joining us shortly. She is at a 
Commerce Committee hearing for which she is the ranking member. 
She has significant responsibility. She will be joining us. She 
will have her own statement, and we will interrupt any 
proceedings so that she can move to the head of the line.
    I want to thank you for all that you are doing. And I am 
mindful that we are in a tough spot. I am mindful that we 
haven't finished our appropriations on 2011.
    You were here last year. You very clearly, specifically, 
and aptly and ably outlined the needs of the Department of 
Justice of the United States of America. We tried to give you 
the right stuff so that they could do the right job.
    Now, we are facing a continuing resolution where I don't 
know where we stand. I don't know where we are going, and I 
don't know what to tell you, what we are going to do. But I 
sure would like to hear from you about where you are in terms 
of managing the Department of Justice.
    I want you to know that I am absolutely on your side. In 
terms of community security, I want to make sure that our 
streets and neighborhoods and the people who live in them are 
safe.
    I want to be clear that our national security is protected. 
And what the Department of Justice is doing there, not only 
through the able work of the Federal Bureau of Investigation 
(FBI), but what they do--I read the article about you being a 
nighthawk, staying up and getting those 3 a.m. calls, standing 
sentry over the predators that threaten the safety and well-
being of the American people.
    Well, if you stay up all night, I think we ought to stay up 
all night to make sure you get funded. And in terms of 
oversight and accountability, yes, there are some yellow 
flashing lights, and you and I are going to talk about it. But 
I believe we need to put our Federal checkbook where our values 
are. We are a Nation of a rule of law. Therefore, we need to 
support an independent judiciary. And we need to support a 
Department of Justice, both to enforce our laws and also to 
prosecute those who break our laws.
    My priorities--and I know your highlights--will be in 
protecting our Southwest Border, which will have an additional 
$2 billion; funding for State and local law enforcement, 
something all of us enthusiastically support, for $3 billion; 
fighting mortgage fraud and white-collar crime, close to $1 
billion; tackling civil rights and discrimination; and also 
strengthening our national security and counterterrorism 
efforts for $5.4 billion.
    I am very concerned that for those that want to cut law 
enforcement, it will have a draconian effect. This subcommittee 
and the current Justice Department have locked arms and 
committed to reinvesting resources for the State and local 
areas. We want to make sure violent crime rates drop.
    This is the time that we know we must be frugal, but we 
think we also need to make these public investments that keep 
our Nation straight. You can't have a strong economy if you are 
worried about break-ins, whether it is through cyber crime or 
people on the street.
    The Justice Department requests $3 billion for State and 
local tribal partners supporting grant programs. But we will 
also--I understand you are going to consolidate 35 programs.
    We know that you have got your hands full tackling fraud 
cases, and that you are teaming up with the FBI agents, U.S. 
Attorneys, and legal divisions to really go after the Ponzi 
schemes, mortgage and healthcare fraud. We wonder why more of 
those who broke the law aren't in orange jumpsuits and either 
paying restitution or paying with time in jail. We know that 
you have requested close to--through the President--$978 
million to go after financial fraud.
    We hear from families everywhere that they want their 
children to be protected. This is why we so strongly support 
the Adam Walsh Act. We are concerned that it received no 
additional funding in 2011, but yet the list of sexual 
predators grows. And we ask that our marshals enforce them. We 
want to be sure that this year, we invest $370 million in going 
after the sexual predators.
    I know that Senator Hutchison will talk about our Southwest 
Border effort. She and I have had extensive conversations about 
it. She and I will be joined together in our effort to protect 
our Southwest Border. Because if our Southwest Border is at 
risk, the entire United States of America is at risk.
    And the Southwest Border should not be a gateway for drug 
cartels, illegal guns, and a variety of other despicable 
activity. So we want to be able to support the $2 billion 
request to target and dismantle drug cartels. I know Senator 
Hutchison will speak more to that, but I want you to know I 
regard this as a bipartisan effort to protect our borders.
    Something that is very specific in my interest is in the 
area of cybersecurity. I believe, Mr. Attorney General, we have 
four wars. We have Iraq. We have Afghanistan. We have the war 
at our very own border, the Southwest Border war. And I believe 
we have an enduring war in cybersecurity.
    As we speak, the United States of America is under attack. 
Today, at the end of the day, there will be 2,000 attacks on 
the Pentagon from sovereign states and organized crime.
    Also, we now know that even something as important to our 
economy as NASDAQ had a cybersecurity intrusion. Thanks to the 
collaborative work of our own Government and the outstanding 
work of the FBI, we thwarted the bring-down of NASDAQ. Well, it 
could happen again, and you need a very sophisticated workforce 
to deal with this.
    We are going to discuss a variety of issues with you, but I 
am going to turn to Senator Hutchison. Senator, we welcome you, 
and then hear from you. But we need to know, how is the 
Department of Justice protecting the Nation, what does fiscal 
year 2012 mean, and how do you see the consequences of this 
really foggy ``never-neverland'' of the continuing resolution 
affecting your ability to protect the Nation?
    Senator Hutchison, I am going to turn to you for your 
opening statement. And I would like to say, I really, with 
warmth and enthusiasm, welcome you as my ranking member.
    We have worked together on so many issues, from the space 
program to women's health, and now we look forward to working 
with you here. And again, a very cordial and collegial welcome, 
and with that, we turn to you for such remarks that you choose 
to make.


               statement of senator kay bailey hutchison


    Senator Hutchison. Well, thank you, Madam Chairman.
    And let me say that I can't think of anyone with whom I 
would rather work on a bipartisan basis than you, because we 
have worked together on so many issues of mutual concern, and I 
know that you are a straight shooter. And I know that you want 
to do the things that are right for our country, and I look 
forward to us pursuing those things together. And we do have a 
lot of mutual interests, in space, as well as certainly in the 
Justice Department.
    I do want to welcome you, Mr. Attorney General. You have a 
very tough job, and I understand that. And I have looked at the 
beginnings of the budget request that you have made.
    I will just make a few points. And I will say I am late 
because I am the ranking member on the Commerce Committee, and 
we had nomination hearings this morning at 10 a.m., and it ran 
over. So I do apologize.
    Let me just make some of the points, because Senator 
Mikulski was talking as I came in about the war on our border, 
and it is true. It is there. Just yesterday, I was meeting with 
the people from Laredo--actually, the day before yesterday. The 
police chief was here, the mayor, the council. And when I go to 
El Paso or Laredo or Brownsville or many of our border cities, 
I see what they are dealing with at a local level.
    And I will tell you what every one of them says to me, and 
that is the most valuable thing that they have is the 
interagency information cooperation. And they believe that is 
working pretty well, and that is very important to them because 
their local police on the streets need to know if we have drug 
cartel information or drug gang information. And there is no 
question in my mind that we have got to have a firm stand on 
the border to completely stop the corruption from coming 
across.
    And there is drug activity connected with the Mexican 
cartels in our major cities and in our border communities. And 
there are efforts to recruit 12-year-olds and 13-year-olds by 
the cartels. They are poor kids. They have never had money, and 
they are offered enormous sums of money to do terrible things. 
So we have a problem and we must use the resources that we 
have.
    Your budget does have support for State and local law 
enforcement. One of the things that I am very concerned that 
you have cut is the State Criminal Alien Assistance Program 
(SCAAP) funding. That is the funding for the local people to 
house illegal alien criminals. People who have committed 
crimes, they have to go to a jail, and the jails are overrun. 
These are county jails and city jails, and they are overrun.
    SCAAP funding helps offset the expenses of housing 
criminals who are also illegal aliens, and your budget cuts 
that by $194 million. And I am very concerned about that, I 
will tell you, because we need to support those local law 
enforcement officials throughout the Arizona and California 
borders as well. Senator Feinstein, Senator Kyl, and I have 
worked on this, and I hope that we can use that priority.
    I think that the Community Oriented Policing Services 
(COPS) hiring funding, in my opinion--and according to The 
Washington Post, your Department didn't put that forward as a 
request in your budget, but OMB did. And so, it is in your 
request. I don't--I think that it is important to have police 
on the streets everywhere. But is it the priority use of your 
funding? I don't think so.
    And I think perhaps you didn't think so since you didn't 
ask for it. But that is an area where, if I were going to do it 
at all, it would be on the border to help local law enforcement 
officers deal with issues that are beyond just their purview, 
but are because of people coming across the border and these 
terrible drug fights.
    Number two, Mr. Attorney General, Guantanamo--I know we are 
in disagreement about Guantanamo. I welcomed the President, 
even though he was critical of the Congress, in his statement 
that we would not be able to pursue trials of these terrorists 
on American soil. He was not happy about it, but I am glad that 
we are not going to be bringing those people from Guantanamo, 
where there has yet to be an escape, into our 49--well, 48 
States anyway, certainly. And I don't want it to be in Hawaii 
or Alaska either. But I don't think it is in the security 
interests of U.S. citizens to have these people on our soil 
where there could be attacks to try to free them or other 
issues.
    So I think that many in the Congress hope that you will not 
be pursuing that further. But I think there will be efforts to 
keep there from being money in your budget to pursue trying 
these people on American soil with all the rights of American 
citizens in our court system.
    I have been to Guantanamo Bay, and I think that it is the 
right place for these people to be held. And I think that I 
will just quote one of our intelligence community followers to 
just give some statistics that assess how many of the people 
who have actually been released from Guantanamo have been 
confirmed or suspected of re-engaging in terrorist or insurgent 
activities after their transfer out. Thirteen percent are 
confirmed and 69 percent--or 13 percent are confirmed and 11 
percent more are suspected of re-engaging where they are now in 
terrorist and insurgent activities. In addition to that, 13 are 
dead, 54 are in custody again, and 18 remain--83 remain at 
large.
    So we have got information that says that there is a high 
recidivism rate for people who have been in Guantanamo and 
released. So I just hope that we will be a little more 
protective of our American soil than to talk about bringing 
them home.
    The Immigration and Customs Enforcement (ICE) agent 
shooting in Mexico--there are disturbing reports. First of all, 
let me say, I appreciate that you have established an 
investigation that encompasses the organizations that could 
contribute to this. I give you the credit for doing that.
    I want to add to your area of investigation that there are 
disturbing reports that the weapons that have been used in the 
killing of a Border Patrol agent in Arizona and the ICE agent 
from Texas in Mexico City, that the guns used were smuggled in 
from America. And the reports are that perhaps Bureau of 
Alcohol, Tobacco, and Firearms and Explosives (ATF) agents knew 
of that smuggling.
    I would like to ask you--and I will, in my question 
period--if you will add that to your area of investigation.
    So I will stop there. I will just say one last thing, and 
that is, the Southwest Border efforts that you are making and 
are in your budget I do appreciate. I think the increase in the 
Drug Enforcement Administration (DEA) intelligence center in El 
Paso is very important. And I think that Project Gunrunner is 
something that I support, but I do want to make sure that the 
ATF agents are also supporting that. And so, we can talk more 
about that.
    But thank you, Madam Chairman, for having this hearing and 
giving us this opportunity to talk to the Attorney General, and 
I thank you for giving us the time.
    Senator Mikulski. Thank you, Senator Hutchison.
    Colleagues, I want to note that we started our hearing at 
an unusual time to accommodate Senator Hutchison, which we were 
delighted to do. But the Attorney General has to leave at 12:30 
p.m.
    So instead of asking for your opening statements, why don't 
we get right into the testimony? If any of you have to leave, 
if you could tell me, because I want to protect your rights as 
well.
    Mr. Attorney General, why don't you go right ahead with 
your testimony, and let us get into it.


                summary statement of eric h. holder, jr.


    Attorney General Holder. Thank you.
    Well, good morning, Chairwoman Mikulski, Ranking Member 
Hutchison, and other distinguished members of the subcommittee.
    I want to thank you for this opportunity to discuss the 
President's fiscal year 2012 budget for the Department of 
Justice.
    And on behalf of my colleagues, the more than 117,000 
dedicated men and women who serve our Nation's Justice 
Department in positions and in offices all around the world, I 
want to thank you for your support of the Department's critical 
work.
    Now, as I have said often, no aspect of our work is more 
important or more urgent than protecting the safety of the 
American people and strengthening our national security. As 
Attorney General, this is my paramount obligation. And at every 
level of the Justice Department, this is our primary focus.
    In recent years, we have confronted some of the most 
significant terrorist threats to the homeland since the 
September 11 attacks, and the Justice Department has played a 
vital role in combating these threats.
    Just yesterday, outside of Spokane, Washington, we arrested 
a United States citizen on charges of attempted use of a weapon 
of mass destruction. We allege that in January, this individual 
placed a bomb along the route of a Martin Luther King Jr. Day 
unity march.
    Now, had it been successful, this alleged bomb plot could 
have been extremely deadly. But thanks to the help of alert 
citizens and the outstanding work of FBI agents and their 
Federal, State, and local law enforcement partners, it was 
foiled. And this morning, that individual is in custody.
    On Tuesday of this week, United States citizen Jamie 
Paulin-Ramirez pleaded guilty in Federal court in Philadelphia 
to conspiracy to provide material support to terrorists and 
admitted to traveling overseas with the intention of 
participating in violent jihad.
    And 2 weeks ago, Zachary Chesser, a resident of northern 
Virginia and, again, a United States citizen, was sentenced to 
25 years in prison for attempting to provide material support 
to the terrorist organization Al-Shabaab, communicating threats 
against Americans and encouraging violent jihadists to impede 
and to obstruct law enforcement activities.
    Now despite the many forms of national security threats 
that we have faced, I am proud to report that over the last 2 
years, the Justice Department has charged more defendants in 
Federal court with the most serious terror-related offenses 
than at any other time since 9/11.
    Now beyond our essential national security work, the 
Department has made extraordinary progress in fulfilling the 
pledge that I made before this subcommittee nearly 2 years ago: 
that under my leadership, every decision made and every policy 
implemented would be based on the facts, the law, and the best 
interests of the American people, regardless of political 
pressures or consequences.
    Now I am proud of the work that has been done to honor this 
promise and to advance the Department's other critical 
priorities. In the last 2 years, we have taken meaningful steps 
to safeguard civil rights and to utilize the new tools and 
authorities that the Congress provided to combat hate crimes.
    We have worked to protect our environment and to respond to 
the largest oil spill in United States history by seeking 
justice for victims and working to make certain that American 
taxpayers don't foot the bill for restoring the gulf coast 
region.
    We have launched historic efforts to expand access to legal 
services, to strengthen our corrections system, and to combat 
child exploitation, human trafficking, prescription drug abuse, 
and gun, gang, and drug-fueled violence.
    The Department has collaborated with governments worldwide 
not only to combat international crime networks, but also to 
identify and to disrupt drug cartel operations, intellectual 
property thefts, and a broad range of cyber crimes.
    We have strengthened relationships with colleagues across 
Federal, State, local, and tribal governments as well. And we 
have focused in particular on finding innovative, effective 
ways to protect the safety of our law enforcement partners.
    From our bulletproof vest initiative to cutting-edge 
training programs and information-sharing platforms, we will 
continue to do everything we can to ensure officer safety and 
to reduce the rising tide of gun violence against law 
enforcement that has devastated too many families and 
communities in recent months.
    I also want to note that we have brought our Nation's fight 
against financial and healthcare fraud to a new level. In fact, 
in the last year, the Department has announced the largest 
financial and healthcare fraud takedowns on record. And in 
fiscal year 2010, the Department's Civil Division secured the 
highest level of healthcare fraud recoveries in history, $2.5 
billion, as well as the second-largest annual recovery of civil 
fraud claims.
    Our Criminal Division has seen similar success in fiscal 
year 2010. The Criminal Division participated in efforts, 
including joint enforcement actions with our U.S. Attorneys' 
offices throughout the country, that secured more than $3 
billion in judgments and in settlements.
    Now, in addition to our work to secure these recoveries, we 
have made strategic investments and taken unprecedented actions 
to serve as sound stewards of precious taxpayer dollars.
    The President's fiscal year 2012 budget for the Department 
of Justice reflects our ongoing commitment to identifying 
savings and efficiencies. It also reflects a willingness to 
make difficult, but necessary choices, such as program 
reductions, in order to focus resources on our highest-priority 
programs and to respond to current fiscal realities.
    Although the current cost of operations and staffing is 
considerably higher than it was last year, the fiscal year 2012 
budget request represents an increase of less than 2 percent 
more than the fiscal year 2011 continuing resolution. Without 
question, the continuing resolution has presented significant 
budget challenges for the Department and resulted in financial 
restrictions, including a temporary hiring freeze and the 
curtailing of nonessential spending.
    I have had to make some tough choices, and I have asked my 
colleagues to do more with less. They have risen to the 
occasion, and they are working harder and more collaboratively 
than ever before.


                           prepared statement


    It is on their behalf and on behalf of the American people 
that we are privileged to serve that I submit to you the 
Department's fiscal year 2012 budget request.
    Thank you.
    [The statement follows:]
               Prepared Statement of Eric H. Holder, Jr.
    Good morning Chairwoman Mikulski, Ranking Member Hutchison, and 
members of the subcommittee. Thank you for this opportunity to meet 
with you today to discuss the President's fiscal year 2012 budget 
request for the Department of Justice (DOJ) and to provide an update on 
the Department's progress, key priorities, and future plans. I 
appreciate your recognition of the Department's critical mission, and I 
thank you, in particular, for your support of the fiscal year 2010 
Supplemental Emergency Border Security Act and the fiscal year 2010 
Supplemental Disaster Relief and Summer Jobs Act. These measures 
provided essential resources for our law enforcement and litigation 
operations. I look forward to your continued partnership and support.
    When I appeared before this subcommittee last May, I testified that 
the Department had made historic progress in meeting its strategic 
goals under this administration:
  --to protect our national security;
  --to reinvigorate the Department's traditional missions and to 
        restore integrity; and
  --have transparency at every level of the Department's work.
    I also pledged that, under my leadership, all decisions and 
policies would be based on the facts, the law and the best interests of 
the American people, regardless of political pressures or political 
consequences.
    Almost 1 year later, I am pleased to report that--even at a time of 
financial challenge--we continue to make progress in meeting these 
ambitious goals. We remain dedicated to protecting the American people 
through the use of every lawful instrument to ensure that terrorists 
are brought to justice, held accountable for their actions, and can no 
longer threaten American lives. Over the past year, we also continued 
to defend the safety and best interests of both consumers and the 
United States. We sought to ensure the strength and integrity of our 
most essential healthcare programs through enforcement actions that 
helped control healthcare costs and reduce fraud. We worked to 
safeguard the public against threats foreign and domestic. We 
collaborated with local law enforcement to investigate January's tragic 
shootings in Tucson, Arizona, and we continue to utilize every resource 
necessary to deliver justice for those killed and injured. We also led 
Federal efforts to prevent and control crime by taking aggressive steps 
to combat the serious proliferation of violence along the Southwest 
Border and to combat the nationwide epidemics of gang- and drug-fueled 
violence, human trafficking, hate crimes, and child exploitation.
    Today, I affirm these commitments--and pledge also to act as a 
sound steward of taxpayer funds. The Department will continue to 
explore ways to assess the effectiveness of our investigations and 
prosecutions; to reduce duplication of efforts and realign 
investigative resources; and to promote effective, fiscally sound 
alternatives to incarceration consistent with public safety. I will 
continue to make targeted investments that render communities safer for 
all Americans and to work with our many partners to strengthen critical 
State, local- and, tribal-assistance initiatives.
    As you are aware, the fiscal year 2011 continuing resolution 
presents significant budget challenges for the Department, as the 
current cost of operations and staffing is considerably higher than it 
was last year. Given the size of our Department--and the scope of its 
many responsibilities--I have announced financial restrictions that are 
difficult but, under these circumstances, necessary. One of the 
measures that I recently announced was a temporary freeze on hiring. I 
have also directed components to immediately curtail nonpersonnel 
spending unless it is necessary for essential operations. These 
actions--and others--are designed to increase overall efficiency and to 
keep the Department solvent and operating effectively. We take these 
steps now in order to avoid more severe measures in the future, such as 
staff furloughs.
    But even with these directives in place, it is critical to our 
national security--and to our law enforcement work--that the Department 
obtains adequate funding in fiscal year 2011 and that this 
subcommittee, and the 112th Congress, approves the President's fiscal 
year 2012 budget request.
    The President's fiscal year 2012 budget request for the DOJ totals 
$28.2 billion, which represents a 1.7 percent increase in gross 
discretionary budget authority compared to the fiscal year 2011 
continuing resolution level. This budget reflects our key priorities of 
strengthening national security, preserving the Department's 
traditional missions, maintaining safe prison and detention facilities, 
assisting our State, local and tribal law enforcement partners, and 
identifying savings and efficiencies that promote fiscal 
responsibility. In addition to addressing my key priorities, the budget 
enhances the Department's ability to focus on recovering assets 
obtained through financial fraud, drug trafficking, and other criminal 
activity. In fiscal year 2010, the Department's Asset Forfeiture 
program obtained more than $1.6 billion in forfeited assets and 
distributed more than $674 million to victims of financial crimes and 
our State and local law enforcement partners. The Department also 
collected and disbursed more than $4.7 billion related to civil debt 
collection in fiscal year 2010. Of this amount, $3.7 billion was 
returned to Federal agencies; $494.5 million was returned to the 
Treasury; $391.2 million was paid to non-Federal recipients; and $101.8 
million was retained for debt collection efforts within the Department. 
This budget continues our emphasis on fiscal accountability and 
oversight.
                      strengthen national security
    Preventing, disrupting, and defeating terrorist acts before they 
occur remain the Department's highest priority. National security 
threats are constantly evolving, requiring additional resources to 
address new critical areas. The increase in global access to 
technological advancements has only compounded this problem, resulting 
in new vulnerabilities that must be addressed.
    The President's budget request demonstrates this administration's 
steadfast dedication to protecting our national security and a 
commitment to using every instrument within our power to fight 
terrorism and keep America safe. The Department plays a critical role 
in the Government's national security and intelligence efforts, and it 
is essential that the Department's budget maintain the capabilities we 
have developed even in these difficult fiscal times. Moreover, the 
budget requests $128.6 million in program increases and 170 additional 
positions to strengthen national security and counter the threat of 
terrorism. The requested increases would provide the essential 
technological and human capital to detect, disrupt, and deter threats 
to our national security.
    More specifically, the administration supports critical national 
security programs within the Department, including $122.5 million in 
program increases for the Federal Bureau of Investigation (FBI) and 
$729,000 in program increases for the National Security Division. This 
figure includes resources that will enable the FBI to enhance national 
security related surveillance capabilities and enhance its Data 
Integration and Visualization System; expand the Operational Enablers 
program and Weapons of Mass Destruction/Render Safe capabilities to 
strengthen our ability to diffuse, disrupt, or destroy weapons of mass 
destruction; and expand the Computer Intrusion initiative to increase 
our capabilities to detect and counter cyber intrusions.
    To address the growing technological gap between law enforcement's 
electronic surveillance and the number and variety of communications 
devices available to the public, the request also includes $17 million 
in program increases to improve the Department's lawful Electronic 
Surveillance Capabilities for the FBI, Drug Enforcement Administration, 
Bureau of Alcohol, Tobacco, Firearms and Explosives, and the U.S. 
Marshals Service.
                     preserve traditional missions
    At the Department, we continue America's greatest tradition of 
protecting the promise of justice and helping bring justice to those in 
need. Enforcing the law and ensuring the fair and impartial 
administration of justice for all requires resources to both 
investigate and litigate on behalf of the American people. The request 
provides $57.4 million in program increases to expand the Department's 
enforcement litigation capacity and its ability to protect vulnerable 
populations.
    These resources will enable the Department to continue to fulfill 
its historic role in fighting crime, protecting civil rights, 
preserving the environment, and ensuring fairness in the marketplace, 
while responding to new and unprecedented challenges such as the 
Deepwater Horizon oil spill. And they will support continued robust 
efforts to crack down on financial fraud, which have already resulted 
in charges for fraud schemes that have cost victims more than $8 
billion in estimated losses nationwide. The budget also includes 
funding to continue the implementation of the Hate Crimes Prevention 
Act of 2009, which helps communities prevent and respond to violent 
hate crimes committed on the basis of gender, gender identity, sexual 
orientation, religion, and disability in addition to race, color, and 
national origin.
    To respond to mounting demands, we have also requested $15 million 
for the Executive Office of Immigration Review, including funds for 21 
new immigration judge teams, additional attorneys for the Board of 
Immigration Appeals and funds to expand our Legal Orientation program.
             maintain safe prison and detention facilities
    It is important for the Department to maintain the appropriate 
balance of resources within core Departmental functions. Successful 
investigations lead to arrests, prosecutions, and convictions. They 
also lead to a greater need for prison and detention capacity. More 
than 5,000 new Federal inmates and 6,000 detainees are projected to be 
in custody in 2012, which means adequate funding for prison and 
detention operations is critical. The budget requests a total of $8.4 
billion to maintain basic prison and detention operations.
    The budget request includes $224 million in prison and detention 
resources to maintain secure, controlled detention facilities and 
$461.4 million for program increases to ensure the growing numbers of 
offenders are confined in secure facilities. The Department is 
committed to strengthening current efforts to improve inmate re-entry 
and recidivism rates, and the proposed budget includes $22 million for 
second chance initiatives that would allow for enhanced inmate re-entry 
programs, specifically vocational training, education, and drug 
treatment programs.
    In addition, the budget addresses the Federal prison population 
through sentencing reform. Such reform is anticipated to help stabilize 
the growth of the prison population and ensure fundamental fairness in 
our sentencing laws, policy, and practice. One outcome of these changes 
would be to address associated long-term costs.
    We are also continuing our efforts to combat sexual abuse in 
correctional settings. Simply put, sexual abuse is a crime, not a 
punishment for a crime. Last month, we published a proposed rule 
pursuant to the Prison Rape Elimination Act (PREA) that contains 
national standards aimed at combating sexual abuse in adult prisons and 
jails, juvenile facilities, lockups, and community confinement 
facilities. In addition to preparing the rule, the Department has been 
working to ensure that, once promulgated, the national standards are 
successful. The Department is uniquely positioned to serve as a force 
multiplier, enabling best practices to gain recognition and enabling 
correctional systems to benefit from the PREA efforts of other 
jurisdictions. The Bureau of Justice Assistance has entered into a 3-
year cooperative agreement for the development and operation of a 
Resource Center for the Elimination of Prison Rape. The Resource 
Center, which was established with fiscal year 2010 funding, will 
provide additional training and technical assistance to States and 
localities to assist in the identification and promulgation of best 
practices and promising practices. The Department's request will 
supplement our efforts by enabling the Bureau of Justice Statistics to 
continue its work conducting surveys examining the incidence and 
consequences of sexual abuse in confinement settings.
        assist state, local, and tribal law enforcement partners
    The President's budget also requests a total of $3 billion for 
State, local, and tribal law enforcement assistance. These funds will 
allow the Department to continue support to State, local, and tribal 
law enforcement agencies that fight violent crime, combat violence 
against women, and support victim programs.
    The Department recognizes that many tribal law enforcement agencies 
face unique obstacles to effectively promote and sustain community 
policing. Unlike municipal police agencies, many tribes still lack 
basic technology to modernize their departments, such as laptops 
installed in police vehicles. The budget requests $424.4 million in 
total resources for public safety initiatives in Indian country.
    In addition, the Department continues to build and maintain key 
partnerships with State, local, and tribal law enforcement officials as 
well as community members. These partnerships include Community 
Oriented Policing Services hiring program, which enables State, local, 
and tribal police agencies to increase the number of officers available 
for targeted patrol and other proven strategies designed to prevent and 
reduce crime. In addition, the Office on Violence Against Women (OVW) 
supports numerous grant initiatives that provide communities with 
resources to combat sexual assault and other forms of violence against 
women. These include the Legal Assistance for Victims program, Sexual 
Assault Services program, and the new OVW Consolidated Youth Oriented 
Grants program.
    The budget request includes resources for new programs for the 
Office of Justice programs, including the Race-to-the-Top style 
Juvenile Justice System Incentive Grant program and the Byrne Criminal 
Justice Innovation program. And it includes funding to continue 
implementation of the Adam Walsh Act of 2006 to protect children from 
exploitation; assist children exposed to violence; and implement a 
smart policing initiative. These programs--and our relationships with 
State, local, and tribal law enforcement agencies--will maximize the 
Federal Government's ability to fight crime and to promote justice 
throughout the United States.
    In that spirit, although violent crime has decreased nationwide, 
the Department remains committed to tackling a disturbing countertrend: 
the number of law enforcement officers killed in the line of duty has 
surged. Last year, 162 law enforcement officers were lost--61 of them 
were killed by gun-violence--an increase of nearly 40 percent from the 
previous year, and the highest level of gun-related officer deaths in 
nearly two decades. So far in 2011, the number of officers killed by 
gunfire is 60 percent higher than last year's level at this time.
    To combat this unacceptable trend, the Department hopes to be able 
to continue our critical investments to expand our bulletproof vest 
initiative and our cutting-edge officer safety training programs and 
information-sharing platforms. This much we owe to those who put 
themselves in harm's way, day after day, to protect their fellow 
citizens.
                        savings and efficiencies
    The President's fiscal year 2012 budget request represents a 
fiscally responsible approach to funding the Department's critical 
missions. The budget proposal also places a premium on achieving 
savings and efficiencies. It includes broad savings to be gained from 
improved IT project management, smarter travel policies, better space 
utilization, and other cost-saving measures. We have also made hard 
choices in program reductions in order to focus our resources on our 
highest-priority programs. These are just a few of numerous proposed 
efforts to respond to the fiscal realities that we face today--and to 
act as sound stewards of taxpayer dollars.
    As we move forward with the tough choices necessary to reduce our 
national deficit and put the country on a sustainable fiscal path, we 
must never compromise our core mission--to protect the American 
people--and to ensure justice for all.
                               conclusion
    Chairwoman Mikulski, Ranking Member Hutchison, and members of the 
subcommittee, thank you again for this opportunity to discuss the 
Department's priorities and detail new investments sought for fiscal 
year 2012.
    Today, I have highlighted critical areas that require attention and 
resources so that the Department can continue to enforce the Nation's 
laws and protect our national security. I hope that you will support 
the Department in the execution of these worthy efforts. In this age of 
limited budgets and growing demands, the Department's leadership has 
already made many tough choices in preparing this budget, significantly 
reducing funds requested in certain areas in order to focus our 
resources on national security and core law enforcement and litigation 
responsibilities. I urge you to support these priorities.
    In this time of unprecedented challenges, new threats, and ongoing 
war, such support will remain critical in enabling the DOJ to meet its 
goals and obligations. As we move forward, I look forward to working 
with you and your colleagues.
    I am now happy to answer any questions you may have.
    Thank you.

    Senator Mikulski. Thank you very much, Mr. Attorney 
General.
    We are going to follow pretty closely the 5-minute rule and 
go in the order of arrival.
    I am going to use my first 5 minutes and then, if you are 
still able to stay, focus also on 2012. But I am very deeply 
concerned about the consequences of the continuing resolution 
on the safety and functioning of the United States of America.
    We know that Homeland Security and the Department of 
Defense are off the table. But I would like to know, what are 
the consequences of the continuing resolution to you--not to 
you, but to the Department of Justice?
    We have already cut--or at least the Senate was willing--
many in the Senate were willing to cut up to $50 billion. Now 
we are going to be asked to cut another--go another 2 weeks and 
cut another $4 billion, and then maybe another 2 weeks and 
another $4 billion while we keep doing this.
    As the CEO of DOJ, what could you tell us about the 
consequences on the functionality of DOJ? And also, I know that 
you are going to pay the FBI and make sure they are on the job. 
But I would presume you have to recycle, reprogram, and move 
money around.
    Could you tell us what this means in terms of the safety 
and security of the people who work for us, and then also the 
consequence to local communities? And what does this also mean 
to morale? I am not hearing good things in Maryland about 
morale and this continuing resolution.

       EFFECTS OF FISCAL YEAR 2011 CONTINUING RESOLUTION--MORALE

    Attorney General Holder. Yes. I will go in reverse order. 
But I would start with morale, and that is not an insignificant 
concern. And I think you are right, that the uncertainty that 
this process has entailed has had a negative impact on morale 
throughout the Department.
    As I have visited, up to now, about 38 U.S. Attorneys' 
offices, as I talk to the people who are in the components here 
in Washington, DC, the lack of certainty with regard to the 
amounts of money that we are going to have, the ability to do 
the programs that we want to do, the question of whether or not 
they are going to continue to have their jobs, be furloughed, 
pay cuts, all of these things have had a negative impact on 
morale.
    People are fighting through those morale concerns and still 
doing a good job. But it is, nevertheless, a concern that I 
have.
    If we look at the funding levels under the current 
continuing resolution, I know that certain accounts, such as 
prisons, detention, some of our legal divisions, will 
ultimately be deficient without further funding. And I am 
greatly concerned about that. This has a negative impact on our 
ability to do the job that the American people expect from the 
Department of Justice.
    If you look at the possibilities that exist here, I am very 
concerned that, too often, our funding is considered 
discretionary. Well, there is nothing discretionary about 
protecting the national security, protecting the lives of the 
American people, making sure that we adhere to the rule of law.

      EFFECTS OF FISCAL YEAR 2011 CONTINUING RESOLUTION--FURLOUGHS

    Senator Mikulski. Would you anticipate furloughs?
    Attorney General Holder. I don't think so. I think that 
with the hiring freeze that we have in place, we are going to 
be okay. But I have to say that if we continue with these 2-
week cycles or 3-, 4-week cycles, we are ultimately going to 
reach a position where we are going to have to consider that.
    That is not something that people in the Department of 
Justice are going to want to hear, and it is something that I 
would certainly like to avoid. But I am very concerned that 
unless we have additional funding, that might be something that 
we will have to consider.

   EFFECTS OF FISCAL YEAR 2011 CONTINUING RESOLUTION--PRISON FUNDING

    Senator Mikulski. And these cuts, is it possible that you 
will run out of money in certain key areas at certain times in 
the year?
    Attorney General Holder. Yes. If you look at the level of 
funding that we are getting with regard to the prisons, we are 
taking in prisoners all the time. We have about 200,000 now. We 
expect to take in about another 11,000 this year.
    We need additional funds beyond that which we have in order 
to do the work of keeping prisoners and keeping them off the 
streets. We will potentially run out of money in that regard.
    Senator Mikulski. What would that also mean in terms of 
your ability to--for example, in terms of the way we reimburse 
on detention? Does that mean we could no longer provide funds 
to State and local governments to hold prisoners that we have 
asked them to hold, and that would fall on local people?
    Attorney General Holder. We have made tough decisions in 
the budget, cognizant of the fact that we are not going to have 
as much money as we would like, and we have had to cut the 
SCAAP program. As this budgetary process goes through and we 
look for cuts that we have to make, I think that is one of the 
things that would have to be on the table.
    It is not something I would want to do, but as I am trying 
to restrict my focus on what I consider core functions of the 
Department of Justice, that is something that I think would 
potentially be at risk.

       EFFECTS OF FISCAL YEAR 2011 CONTINUING RESOLUTION--FUNDING

    Senator Mikulski. So this is pretty serious. And am I 
correct, from our conversation before the hearing, that a cut 
at this stage of the year has almost a--it has a different 
consequence than if you could spread it out over the year? How 
would you see that?
    Because, first of all, know that I don't want to cut more. 
I believe in a more frugal Government. I believe we will have 
to look to other sources, like oil and gas subsidies, the $30 
billion farm subsidy, et cetera--that we can't do all this on 
discretionary spending.
    I worry about if this subcommittee has to take more, we 
would have to go to the Justice Department, the space program, 
important economic development initiatives in the Department of 
Commerce. Can you take more?
    Attorney General Holder. I don't think that we can. I think 
that we, in the very, very short term, can come up with 
creative ways in which we can deal with this. That is why I 
have instituted this hiring freeze, stopped all kinds of what 
we call ``nonessential'' spending, but we are pretty close to 
the bone. And----
    Senator Mikulski. So you have already taken those steps at 
where we are now?
    Attorney General Holder. Yes, those steps have been in 
place.
    Senator Mikulski. I am going to stick to the 5-minute rule. 
I am going to stop and want to pursue 2012.
    Senator Hutchison.

                           PROJECT GUNRUNNER

    Senator Hutchison. Yes, thank you, Madam Chairman. I will 
try to--I will stick to the 5-minute rule.
    Let me ask you about the ATF issue that I mentioned in my 
opening statement, that there are reports that there was 
actually knowledge by ATF of the sales that were going on of 
the arms out of America, illegally out of America into Mexico, 
purportedly, I think, to be able to trace them, but after the 
shooting of the agent in Mexico, traced to those arms and also 
the shooting of the agent in Arizona.
    What is your view now on that particular program? And I 
know that you have asked for an Inspector General study of it, 
but tell me if you think that program should be continued. Is 
it the correct use of the Project Gunrunner subprogram, I 
guess? Because, of course, it is a great concern.
    Attorney General Holder. First, I would say that the 
mission of the ATF and the mission to which they are dedicated 
is to stop the flow of guns into Mexico and to people who 
shouldn't have guns here in the United States. And that is the 
focus of the ATF, that it is why the ATF agents serve bravely 
in Mexico and in this country, and, I think, do a great job.
    It is true that there have been concerns expressed by ATF 
agents about the way in which this operation was conducted. And 
on that, I took those allegations, those concerns very 
seriously and asked the Inspector General to try to get to the 
bottom of it. An investigation--an inquiry is now underway.
    I have also made clear to people in the Department that 
letting guns walk is not something that is acceptable. Guns are 
different than drug cases or cases where we are trying to 
follow where money goes.
    We cannot have a situation where guns are allowed to walk, 
and I have made that clear to the United States Attorneys, as 
well as the agents in charge in the various ATF offices.
    Senator Hutchison. Thank you.

                         GUANTANAMO BAY TRIALS

    On Guantanamo Bay trials, in the President's budget, there 
is a $72.8 million request for the Department's anticipated 
increases in security and prosecutorial costs associated with 
high-security trials. And it is a variety of things that you 
would need if you are going to bring known and reputed 
terrorists to trial in the United States.
    Mr. Attorney General, do you think that is the right 
priority for the expenditure of your very scarce and important 
dollars for FBI, ATF, the many areas of law enforcement that 
you are responsible for? Do you really--I mean, I will say, is 
it still going to be the policy that you will continue to 
pursue having trials on American soil, even in spite of the 
protests that you have heard from Members of Congress?
    Attorney General Holder. First, in this fight, we have to 
use all the tools that we have. The use of Article III courts 
and our Federal courts has proven to be extremely effective 
over the years. Hundreds of people have been convicted of 
terrorist offenses in these cases.
    We have shown that the Bureau of Prisons is capable of 
handling them, holding onto them. There is not one report--one 
report--of anybody ever escaping from a maximum-level Federal 
penitentiary who has been convicted of a terrorist offense. I 
think we can handle these cases. We have done so in the past.
    There is, with regard to the budget that we have submitted 
in 2012, no trial money with regard to these Guantanamo 
detainees. I think that the restrictions that the Congress has 
placed on our use of funds in that regard, as I indicated in a 
letter that I sent to Majority Leader Reid, as well as to 
Speaker Boehner, are unwise.
    The President indicated in his signing statement when he 
signed the Defense authorization bill that he thought this was 
not a wise thing to do as well. And we both indicated that we 
will try to unravel or unwork the restrictions that have been 
placed on us because I think it hampers us and our ability to 
handle the terrorism problem by taking a tool away from us that 
has proven to be very useful in the past.
    Senator Hutchison. Well, my time is up, and I will adhere 
to the 5-minute rule.
    Thank you, Madam Chairman.
    Senator Mikulski. Senator Nelson.
    Senator Nelson. Thank you, Madam Chairman.
    Attorney General Holder, it is good to have you here. First 
of all, I want to thank you and all those who work within your 
agencies for the fine work on behalf of the security and 
justice for all Americans, and we appreciate those efforts so 
much.

                      FISCAL YEAR 2012 BUDGET CUTS

    This is the time to have a candid conversation, of course, 
about budgets and the expenditure of taxpayers' dollars, and it 
is not something new for me. As Governor, I had to make the 
tough decisions about tough times when revenues didn't 
necessarily match the need for the outflow of expenditures to 
take care of the needs of the people.
    So I am hoping that we can work cooperatively in this 
effort, and I know we can. Cuts are coming, and what I would 
like to know is as you look at your budget, it requests a 1.7 
percent increase in new budget authority. And the increase in 
parts of your budget, outside of State and local grants, which, 
I think, have been reduced by 16 percent, the budget actually, 
outside of those cuts, goes up 4.4 percent.
    I am hopeful that you will be able to take a look at that 
budget in light of where we are today, recognizing that we have 
to do more with less. And I know that is easy to say and hard 
to do, but it is essential that you could take a look to see 
where you could begin to trend down the expenditures in the 
2012 budget.
    I understand the challenge you have with the continuing 
resolution--continuing resolutions, I guess; we just keep doing 
it--for 2011. I understand that challenge. But in 2012, we are 
looking at a 12-month period, not cutting in the middle of 
programs, but at the beginning.
    If you would, tell me where you could look to cut 1, 2, or 
3 percent, or some area of reduction. We are expecting that 
from the Department of Defense. I am on the Armed Services 
Committee. And so, if you would, give me your thoughts.
    Attorney General Holder. We are mindful of the financial 
situation that our Nation confronts, and we have submitted a 
budget for 2012 that I think walks that fine line between 
understanding the financial situation that we are in and making 
sure that we are still capable of doing what the American 
people expect of the Department of Justice.
    As I look at the places that we have made cuts--everything 
from dealing with ballistics tracing, radios, and technology--
we have made very substantial cuts. We have looked at what we 
call DOJ-wide cross-cutting efficiencies and cut about $57 
million there.
    We have looked at a whole variety of things that, frankly, 
have been really difficult to identify and difficult to 
implement. I have pushed people to make sure that we are not 
doing things for financial purposes that will have a negative 
impact on our ability to do our jobs, and we have come up, as I 
said, with a variety of things that are reflected in the budget 
that I think take into account those dual responsibilities: The 
financial situation and our obligation to keep the American 
people safe.
    Senator Nelson. To distinguish myself from those who have 
been running around with percentages looking for plans for 
cuts, the reason that I am focused on this is Admiral Mullen, 
Chairman of the Joint Chiefs, when asked the question, ``What 
is the biggest threat to America?'' It wasn't Iran. It wasn't 
North Korea. It wasn't even the border. Although those are 
important challenges that we face, it was the national debt.
    So if that is the biggest threat to our country, then we 
must, in fact, find ways to trend down spending, increase 
prosperity to both cut and grow our way out of the situation we 
are in, and that means that everybody has to do more with less. 
We can't do--we can't ignore that reality. And so, that is why 
I hope we can work cooperatively to try to find a way to make 
those reductions.
    It is a categorical imperative that we are facing right 
now, based on the threat that debt and the growing deficit is 
to our future. Not just our future, but to future generations 
as well.
    Attorney General Holder. No, I agree with you, Senator. We 
have to find a way in which we deal with that debt problem that 
is, in fact, a threat to the welfare of our Nation, while at 
the same time coming up with ways in which we do the things 
that are expected of the Department.
    You know, we are not the biggest agency. We have a proposed 
budget of about $28 billion. But the responsibilities that we 
have are fairly enormous with regard to everything from 
protecting the American people from outside threats to dealing 
with the crime situation that we find within the United States.
    And we have tried in this budget to allow us the ability, 
the tools so that we can make sure that we keep the American 
people safe, that we promote civil rights, that we protect the 
environment, all of the things that are our responsibility, 
while being mindful, as you correctly say, of the crisis that 
we face on the budget side.
    Senator Nelson. Well, I appreciate it, and I know that we 
can work together. And I look forward to that as we move 
forward with this new budget. Obviously, the continuing 
resolution saga is going to plague us, but we are going to have 
to find ways to make that work as well and find some spirit of 
consensus to get it moving forward so we are not doing it every 
2 weeks.
    Thank you very much.
    Thank you Madam Chairman.
    Senator Mikulski. Thank you, Senator Nelson.
    I am going to turn to Senator Murkowski and then Senator 
Pryor.
    Before you go, I found what you said about Admiral Mullen 
very interesting. When did he say that?
    Senator Nelson. Within the last 6 months.
    I will get you the quote.
    Senator Mikulski. Well, I would like to hear the quote 
because then if he feels that--did he also say that he was 
willing to give at the office and that Department of Defense 
should----
    Senator Nelson. Oh, absolutely.
    Senator Mikulski [continuing]. Now be on the table?
    [The information follows:]

    Admiral Mullen. ``I think the biggest threat we have to our 
national security is our debt.''

    Senator Nelson. What I can say is that Secretary Gates has 
begun the process out there of trying to cut back and look for 
duplication and reduce the growth in their budget as well. So 
they are on board. They are on board.
    Senator Mikulski. And that is why we need to go not for the 
2 weeks, but we need to put all things on the table and come to 
a rational, orderly way to do this, because it is not good for 
anyone with boots on the ground.
    Senator Nelson. Absolutely.
    Senator Mikulski. Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman.
    And Attorney General Holder, welcome.
    Attorney General Holder. Good morning.
    Senator Murkowski. Thank you for your leadership. Good 
morning.

                         BILL ALLEN ALASKA CASE

    I am going to change the subject a little bit here. I would 
like to bring up with you the issue of Mr. Bill Allen, a name 
that I am sure you are familiar with from Alaska.
    For the benefit of my colleagues, Mr. Allen pled guilty in 
2007 to multiple Federal offenses, including bribery and 
extortion. He subsequently became a key witness for the Justice 
Department in the trials of the late Senator Ted Stevens and 
several Alaskan legislators. Mr. Allen is presently serving 
time at the Federal Corrections Institute in California.
    Back in 2008, the Anchorage Police Department received 
information that Allen had paid a young Alaska Native woman for 
sex. She was 15 years old at the time. The young woman then 
later moved to Seattle, and he sought to continue that 
relationship. We learned--the law enforcement folks learned 
that Allen had transported this young woman between Seattle and 
Anchorage with the intent to engage in prostitution on multiple 
occasions.
    The Anchorage Police Department brought in the FBI. The 
case was presented to the Child Exploitation and Obscenity 
section for prosecution. We understand that there were multiple 
trips with the trial attorney from Washington, DC, to Alaska to 
work with our law enforcement. We later learned that the trial 
attorney, as well as the section chief, had recommended that 
the case be presented to the grand jury, and yet Mr. Allen has 
never been charged with these crimes.
    It was reported that the charges were never presented to 
the grand jury, and it appears that the Justice Department 
simply declined prosecution.
    I wrote you expressing my concerns back in August, and I 
received a reply from your Assistant Attorney General, Mr. 
Welch, back in October. I think you knew that I was not 
satisfied with Mr. Welch's response to my concern, and Alaskans 
were certainly not satisfied with the response.
    I have indicated to Alaskans that I would follow up 
directly with you. So, at this time, I would ask you, Mr. 
Attorney General, if you can explain, as specifically as you 
can, why the Justice Department did not pursue an indictment 
against Mr. Allen on these charges. And if you could, 
specifically address the proposition that the Justice 
Department did not prosecute him on the sex abuse charge on 
account of his cooperation in other cases.
    Attorney General Holder. With regard to the exploitation 
matter, I would say that the Department certainly has a very 
good record of vigorously investigating and trying these kinds 
of matters. I was just looking at the numbers here. We have 
about 4,000 of these offenders who, within the last 3 years, we 
have investigated.
    Our caseload in that regard is up more than 1,000 percent 
since fiscal year 2001. So we are vigorous in our prosecution 
of those cases.
    In making the determination as to what happens in any 
particular case, we are guided by the principles of Federal 
prosecution, and we take into consideration a number of 
factors, among them being the age of the case, the reliability 
of the witnesses, the ability to say that we have a better than 
50 percent chance of winning a case.
    Decisions to decline prosecutions or not go forward with 
cases are made strictly on that basis, not with regard to 
political persuasion or the role somebody has played. If a case 
could be made, a case would be brought. The basis for the 
declination would be rooted only in that which is governed or 
set out in the principles of Federal prosecution.
    Senator Murkowski. Given the circumstances of this 
particular matter and, again, this proposition that the failure 
to prosecute was based on cooperation, and that has been 
repeated and repeated, do you think I would be out of line if I 
were to ask the Office of the Inspector General and the Office 
of Professional Responsibility to examine the Department's 
handling in the Bill Allen case?
    Attorney General Holder. Well, that certainly would be 
within your discretion to do that. I don't think that is 
necessarily warranted on the basis of the decision here. I am 
confident that the decision was made, or all of these decisions 
were made, on the basis of the appropriate guidelines.
    We can certainly say that with regard to the case that I 
have not shown an unwillingness to do things that might have 
been a little controversial, maybe even unpopular, with regard 
to matters in Alaska, you know, the Stevens dismissal.
    Senator Murkowski. And I appreciate that.
    Attorney General Holder. And the decision here, as I said, 
I am confident follows the rules that always apply.
    Senator Murkowski. Well, Mr. Attorney General, I appreciate 
your comments, and I certainly appreciate your actions with the 
Ted Stevens matter. This is something that has so troubled 
Alaskans to the core, that you have an extremely high-profile 
political figure, extraordinarily wealthy, truly abusing in a 
very terrible way a 15-year-old girl over a period of years. 
The assumption is just that, you know, the wealthy politician 
or the wealthy guy with the political connections is able to 
get away with a level of criminality that simply would not be 
accepted elsewhere.
    I will tell you that we are not done attempting to resolve 
this issue, and I will be asking for your support as we try to 
pursue this.
    Attorney General Holder. Okay. I just want to assure you, 
Senator Murkowski, I have great respect for you--we have always 
had, I think, good interactions--and the people of Alaska, that 
you might not agree with the decisions that have been made in 
connection with cases that have come before the Department of 
Justice, but the decisions had nothing to do with political 
connections, whether somebody has cooperated in a case, or 
anything like that.
    The decisions were made only on the basis of the facts, the 
law, and the principles that we have to apply. And nothing 
beyond that entered into any decisions that we have made.
    But I understand the concerns that you have expressed and 
that people in Alaska have. I can't get into much detail with 
regard to why particular decisions are made in particular 
cases, but I really do want to assure you and the people of 
your State that the extraneous things that you mentioned did 
not factor into that decisionmaking.
    Senator Murkowski. Well, we will keep working with you on 
this.
    Thank you, Madam Chairman.
    Senator Mikulski. Senator Pryor, thank you for your 
patience.
    Senator Pryor. Thank you, Madam Chair.
    General Holder, it is always good to see you, and thank you 
for being here today.

                     DEFENSE OF MARRIAGE ACT (DOMA)

    I want to start with a question about your responsibilities 
as Attorney General. And I know you have a lot of 
responsibilities. You have to balance a lot of things. I had a 
little taste of that when I was my State's Attorney General a 
few years ago.
    But one of the things we were very committed to in my 
office was always trying to follow the law. And with that said, 
I am curious about your decision recently with regard to the 
DOMA. My view would be that even if you have concerns about the 
constitutionality, et cetera, the Congress has passed it. It is 
the law until the court--in this case, maybe the U.S. Supreme 
Court--tells you it is not.
    I am curious about your legal rationale. And again, I don't 
really want to get into the details of DOMA, the policy. I 
happen to support it, but I am not even really talking about 
DOMA itself. I am talking about the process that you all went 
through to come to a decision to basically stop defending one 
of the laws that we have on the books.
    Attorney General Holder. Sure. As a general principle, this 
Department of Justice takes seriously its responsibility to 
defend acts of the Congress where reasonable arguments can be 
made with regard to their constitutionality, and we have done 
that. There come rare circumstances where a decision is made 
within the Department when that cannot be done, and that was 
the case with regard to DOMA.
    We were faced with a situation that was, in some ways, 
different. We had defended DOMA in those circuits where the 
rational basis standard was the standard. We were faced in the 
Second Circuit with a circuit where no determination had been 
made as to what was the appropriate standard to judge the 
constitutionality of the statute.
    We looked at the facts. Given the history of discrimination 
that gays and lesbians have experienced in this country, it was 
our belief the President accepted the recommendation that I 
made to him--that a heightened level of scrutiny was 
appropriate.
    Under that heightened level of scrutiny, the determination 
that we made was that the statute was unconstitutional. And as 
a result, we made the determination that we would not defend 
the constitutionality of the statute. But we will continue to 
enforce the statute until it is either repealed by the 
Congress, or the Supreme Court makes the determination that it 
is, in fact, unconstitutional.
    Senator Pryor. You mentioned that this is a rare decision 
by the Justice Department. What are the other recent instances 
where your administration or previous Justice Departments have 
made a decision to not defend a Federal statute?
    Attorney General Holder. Yes, I have in front of me a 4-
page document that has 10 to 15 cases in which that has 
occurred. I know that Chief Justice Roberts, when he was the 
acting Solicitor General in the Metro Media case, made a 
determination not to defend the constitutionality of a statute.
    There are other instances that I would be more than glad to 
share with you and provide you with this document. It is, as I 
said, something that is rare. It has happened during the course 
of this administration probably about eight or nine times or 
so, more often than not for technical reasons that we decide 
not to defend a statute.
    What we did with regard to DOMA was extremely unique and 
not indicative of any desire or lack of desire on the part of 
the Department to do what it traditionally has done, which is 
defend the constitutionality of statutes.
    Senator Pryor. I would like to look at those because I have 
the concern about future Presidents that may disagree with some 
act of the Congress and just decide, ``Hey, you know, we are 
not comfortable with this, and so we are not going to defend 
it.'' And I think that part of the checks and balances is that 
the Justice Department and the administration should defend the 
laws that the Congress puts on the books, regardless of what 
their personal views may be on those.

                 BUREAU OF PRISONS CONSTRUCTION FUNDING

    Let me go to my next question, if you will. I noticed that 
in one of the accounts that you have for building of prisons, 
for the Bureau of Prisons, my understanding is that there is 
some money to build prisons. But I am concerned that there may 
not be enough there to build the adequate bed space that you 
need. Do you have any comments on that?
    Attorney General Holder. Yes. That is something I am very 
concerned about. We have really gotten as low as we possibly 
can get. We have the need for additional bed space. It is a 
question of safety not only for the prisoners, but for also the 
guards who work in these facilities.
    With overcrowding comes insecure conditions, and we want to 
build new prisons to the extent that we can. We want to acquire 
the Thompson facility, for instance, in Illinois, that would be 
used to house high-security prisoners, where we have a 
particular problem.
    We want to expand the facility that we have in Arkansas. We 
think we have had a good experience there, and there is a high-
security facility that we would like to put there. But we would 
need the support of the Congress not only this year, but in 
subsequent years so that we can, in fact, construct these 
facilities, which I think are very much needed. Because the 
reality is that as we are successful in doing our jobs, there 
are increasing numbers of prisoners who come into the system.
    Senator Pryor. Right. Yes, I think the Federal prison 
system is fairly overcrowded at this point. So we need more bed 
space.
    Madam Chair, thank you. Thank you.
    Senator Mikulski. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Mr. Holder, good to see you. We both spent time at Columbia 
University. I don't remember seeing you around the campus, 
but----
    Attorney General Holder. I was there.
    Senator Lautenberg. Yes. Maybe it was before I was there.
    You didn't have President Eisenhower give you your diploma, 
did you? I did.
    Attorney General Holder. No, I did not. I did not.

                   EFFECT OF CUTS TO THE COPS PROGRAM

    Senator Lautenberg. You have had a lot of experience in all 
kinds of criminal prosecutions and white collar prosecutions. 
And I know how arduous you are, how you want to catch them. But 
you know, the one thing we know is, that you can't try 
criminals or offenders if you don't first arrest them. And you 
can't arrest them if we don't have the police on the streets 
and in the communities.
    And we see the cuts in the COPS program. It is such a good 
program, and they wanted to decimate it, the Republican side. 
And there was an amendment offered to restore some of the 
funding.
    But I want to tell you, I am pleased that the President's 
budget included a substantial increase in funding for the COPS 
program. But then the House Republicans stepped in and 
eliminated the program altogether.
    In the city of Camden, New Jersey, poor city, cops can't 
even answer burglary calls. They have to put them on a list. 
They can't answer car thefts. They don't have enough manpower. 
Laying off more than 100 policemen, city of Newark, I mean, we 
have to do the things in those cities that can make them safer 
than they presently are.
    Now what is the effect of a combination of layoffs and 
eliminations that the COPS program has on safety in the 
streets?
    Attorney General Holder. I think that you are exactly 
right, Senator. I have great concern about proposed levels of 
funding with regard to the COPS program.
    Our budget asks for $600 million. That is an increase of 
$302 million from that which had previously been put in the 
COPS program. That is a vital tool for not only the State and 
local forces that benefit from the money, but also from us in 
the Federal Government.
    We are only as effective as the partnerships that we try to 
construct with our State and local counterparts. I am greatly 
concerned by the situation, certainly, in Camden, that has been 
widely reported. But I am also concerned about the inability of 
other departments to do all the things that we expect them to 
do.
    And it is beyond that which people traditionally think 
about our State and local partners. They are our eyes and ears. 
They are also the people who feed to us information that helps 
us on the national security front when it comes to terrorist 
threats. They are frequently the people who first see things 
that are reported to us on the Federal side.
    So I think that if we want to keep the American people 
safe, we have to fund COPS at the level that we have suggested, 
and also support the $3 billion that is in our budget for aid 
more generally to our State and local counterparts.
    Senator Lautenberg. Thanks.
    I want to get to a couple things, if you can give me a 
quick answer.

                   HIGH-CAPACITY AMMUNITION MAGAZINES

    The Tucson shooter's high-capacity ammunition clip that 
killed 6 people and wounded 13 others: the clips were banned 
until 2004 as part of the assault weapons ban. And even former 
Vice President Dick Cheney, who strongly supports gun 
availability, has suggested it may be appropriate to reinstate 
the ban of that kind of thing.
    Is it time to once again ban high-capacity ammunition 
magazines?
    Attorney General Holder. I think that given what we saw in 
Tucson and the impact that these kinds of magazines can have, I 
think we should examine whether or not we want to go back to 
the ban that we had on them previously. So that is something 
that I think we should be looking at and working with the 
Congress in trying to determine if, in fact, the reinstitution 
of that ban is appropriate.
    Senator Lautenberg. Do I take it that you are saying yes?
    Attorney General Holder. I think that we should certainly 
look at this and make sure that we are doing all that we can to 
protect the American people.

                           GUN SHOW LOOPHOLE

    Senator Lautenberg. I hope we can. Nearly 12 years ago, the 
Senate passed my legislation to close the gun show loophole. It 
went to the House, and it died there.
    And at the time, you were a Deputy Attorney General and 
urged the House to follow the Senate's lead and close this 
loophole. Recent polls found that 69 percent of NRA gun owners 
and 89 percent of all Americans support closing the gun show 
loophole.
    I think everybody knows what that loophole is. It permits 
people to buy guns without identifying themselves. It could be 
Osama bin Laden. You don't ask the questions about where, do 
you live, what is your name? Put the money on the table, you 
get the bullets. Or you get the guns.
    Don't you think it is time for the Congress to close the 
gun show loophole, once and for all?
    Attorney General Holder. Again, I think we need to look at 
the existing laws that we have and the situation that we face. 
I am very concerned, as the chair was saying, in terms of the 
numbers of law enforcement officers who have been gunned down 
over the last 2 years. And I think we have to come up with 
meaningful, effective ways to protect their lives, as well as 
the American people.
    And so, we are looking in the administration now at ways in 
which we can make sure that we respect the second amendment 
rights that people have, but come up with effective measures 
that will protect our law enforcement colleagues and, as I 
said, the American people. This is a process that is ongoing 
within the administration.
    Senator Lautenberg. Well, I would hope we can get it 
solved, and I would hope that we could get a permanent ATF 
Director. The post has been open since 2006, and I think we 
ought to try to take care of that.
    Madam Chairman, thank you.
    Senator Mikulski. You have been a staunch champion on these 
issues.
    Senator Lautenberg. Thank you very much.
    Senator Mikulski. And we have noted the crisis that New 
Jersey is in.
    So, Senator Brown, one of our newest members----
    Senator Brown. Thank you, my first subcommittee hearing.
    Senator Mikulski. So we want to say hi.
    Senator Brown. Thank you, Madam Chair.
    And Mr. Attorney General, thank you. And I would have been 
here at the beginning, but I presided today. So Mr. Attorney 
General, thanks for your service, and thank you for what you 
are doing.
    Attorney General Holder. Good morning.

                 FUGITIVE SAFE SURRENDER (FSS) PROGRAM

    Senator Brown. An announcement came out of USMS earlier 
this week, late last week that they were terminating the FSS 
program, which I know you are familiar with. FSS started in 
Ohio. It is a pioneering program that has made a huge 
difference in encouraging mostly those who have committed 
misdemeanors--and it is 10 percent or so felons, that committed 
felonies--to get them to voluntarily surrender.
    They meet in a church for 2 or 3 days. Judges, prosecutors, 
and police officers are there. Those people with outstanding 
warrants voluntarily come and turn themselves in and are 
generally--their warrants and all are generally disposed of. It 
is a prime example of how law enforcement officials work 
together with the local community to create a safer environment 
for everyone.
    I understand the importance of prioritizing limited 
budgets, but FSS is a program with relatively little expense 
that has made a huge difference. Nationally, some 35,000 
individuals have voluntarily surrendered. It makes police 
officers' jobs a lot safer because they are not arresting 
someone for a traffic violation and that person panics and 
injures or kills a police officer.
    Seven thousand people in Cleveland alone in 2010 turned 
themselves in. I was there one of those days. I had been there 
earlier in the program at another church. It has made such a 
difference.
    I have written to Director Stacia Hylton and asked that you 
continue to work with us to restore the program. Can we 
expect--what can we expect?
    Attorney General Holder. I agree that the program has a 
clear record of benefit to the courts, to law enforcement, and 
to the communities in which it has operated. There are 
thousands of people who have surrendered across the country 
without violence, without danger to officers.
    There are decisions that we have to make with regard to how 
we can support a program that I think has worked well. I 
actually think this is more a State and local responsibility. 
It is best a State and local program versus a Federal 
responsibility.
    On the other hand, I do think that we should try to find 
ways in which we can support the program. And so, I would like 
to work with you to see if there are grant-making 
opportunities, things that we might be able to do that will 
support a program that has proven to be beneficial.
    Senator Brown. Okay. Thank you.
    I understand it is mostly local and State. And I mean, 
there are judges, prosecutors, all State, county, city 
officials there. I think the beauty of it, in part, is where 
after Cleveland began it, it began in Arizona. It was done 
other places.
    And you know, just the imprimatur of the U.S. Justice 
Department with USMS can encourage local communities to do this 
with minimal, relatively minimal Federal assistance and 
involvement and resources and encouraging local governments to 
do that.

                    PRESCRIPTION DRUG ABUSE PROGRAMS

    Let me talk about one other issue or, actually, two other 
issues, both the pill mills and what has happened around the 
country. Ohio has seen huge increases and larger than the rest 
of the country, or larger than many places in the rest of the 
country, abuse of, particularly, morphine-based drugs--
OxyContin, Oxycodone, Percocet, Vicodin, a whole bunch of 
drugs.
    We have, working with the Medicaid director in Ohio, 
established a lock-in program for high-risk individuals. My 
understanding is that there are currently--but, you know, we 
need law enforcement help in this, obviously, as we are doing 
in the State, too. There are currently 37 operational tactical 
diversion squads nationwide, not one of them based in Ohio, the 
seventh-largest State in the country.
    Can we work together with local law enforcement to perhaps 
create that in Ohio so that we can join much of the rest of the 
country in that kind of assistance?
    Attorney General Holder. Sure. I would be glad to work with 
you about how we have deployed our resources. That is something 
that we have devoted a great deal of attention to and have come 
up with ways in which we are fighting a problem that exists in 
a great many States.
    But I would be glad to sit down and talk to you about ways 
in which we might help you deal with the problem, the issue in 
Ohio.

                               METH LABS

    Senator Brown. Okay. And last point, Madam Chair.
    On meth labs, DOJ nationally has stopped State funding for 
meth lab cleanups. Is that a permanent decision, or is that 
something you are looking at again?
    Attorney General Holder. That was one of those tough ones. 
As we looked at the budget situation and had to make the 
decision about what we are going to do with regard to the 
cleanup of these meth labs when it comes to State and local 
operations, and it is something that we have cut in our budget 
request for 2012.
    All I can say is that it is just one of those tough 
decisions that we had to make, given the monies that are 
available to us. It is not something that I particularly like 
doing, but it is something that I think we have to do if we are 
going to try to deal with the financial situation that we find 
ourselves in.
    Senator Brown. Okay. Thank you, Madam Chair. Thanks.
    Senator Mikulski. Thank you, Senator Brown, for those 
excellent questions.
    Mr. Attorney General, we will have additional questions 
that we will submit to the record.
    We want to assure you this subcommittee will be working on 
a bipartisan basis with you. We also want to assure you we hope 
to go to a quick resolution of this gray area with the 
continuing resolution.
    I think we have to come to closure on this, and I think the 
2-week uncertainty and the death by a thousand cuts every 2 
weeks is just terrible. And it is terrible in terms of the 
morale. You cannot, as the chief executive officer, 
appropriately plan. The FBI doesn't know if it can bring on 
people along with our Federal law enforcement. So we want to 
move to resolving this.
    We will be turning to you for additional information, and 
we will welcome a muscular approach by the President to help us 
with this.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions this morning, all 
Senators may submit additional questions for the subcommittee's 
official record. We request that DOJ respond within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
           Questions Submitted by Senator Barbara A. Mikulski
         consequences of fiscal year 2011 continuing resolution
    Question. The House-passed continuing resolution for wrapping up 
2011 cuts the Justice Department (DOJ) $2.6 billion below the 
President's request and $833 million below 2010 levels. The Senate 
alternative cuts DOJ $2.4 billion below the President's request and 
$656 million below 2010 levels. We're in a holding pattern and the 
House Republicans want us to cut $4 billion every 2 weeks. Currently, 
we are under a 3-week continuing resolution that cuts $470 million 
below fiscal year 2010 levels in funding that would have helped State 
and local communities combat violent crime and improve criminal 
justice.
    What would the cuts proposed in the House-passed continuing 
resolution and the Senate alternative mean for DOJ? What are the 
consequences? Is there anything else that DOJ can cut?
    Answer. DOJ was very concerned about funding levels proposed in the 
House-passed and Senate alternative continuing resolutions for fiscal 
year 2011. At a minimum, certain accounts, such as prisons, detention, 
and some of our legal divisions, would have faced possible deficiency. 
While considered ``discretionary'' in appropriations parlance, much of 
DOJ's work is not discretionary and is impacted by factors outside our 
control. There is nothing discretionary about protecting the American 
public against terrorism and criminal threats, defending civil rights 
and liberties, and upholding the rule of law.
    DOJ's fiscal year 2011 enacted budget (Public Law 112-10) is $26.9 
billion, which is $806.2 million less than the fiscal year 2010 enacted 
budget. Under these levels, DOJ will sustain its core national security 
and law enforcement functions, but must reduce critical funding to 
State and local grants, juvenile justice programs, litigating 
components, and technology programs.
    Some programs, such as the Integrated Wireless Network, DOJ's 
strategic initiative for upgrading DOJ law enforcement tactical mobile 
communications, received significant and unanticipated cuts, which will 
be difficult to plan for and execute in the remaining 6 months of the 
fiscal year. In addition, funding requested for new positions just 
appropriated in fiscal years 2009 and 2010 for DOJ's core mission 
areas, as well as for the continuation of financial fraud and Southwest 
Border enforcement activities, is not provided in the fiscal year 2011 
budget. DOJ will need to closely examine existing operations and 
continue to implement savings and efficiencies to ensure that we can 
absorb the increased and unfunded costs of maintaining our current 
program efforts in fiscal year 2011.
    DOJ understands the need to promote fiscal restraint and pursue 
savings and efficiencies. To keep DOJ operating effectively within 
constrained funding levels, we instituted a temporary hiring freeze in 
January 2011 and suspended all nonessential travel, training, and 
conferences. In addition, all expenditures across the board, including 
vehicles, employee moves, information technology (IT) process, 
equipment, supplies, and contracts, are being held to essential needs.
    Wherever possible, DOJ has implemented management and 
administrative efficiencies to generate savings, which help to support 
existing priority programs and maintain current efforts. DOJ has 
generated creative ideas to achieve efficiencies, which have been 
included in the fiscal year 2011 and fiscal year 2012 President's 
budgets. But we cannot afford additional substantial cuts while 
preserving DOJ's ability to fulfill its core law enforcement.
    Question. How is this affecting morale?
    Answer. As I stated during the Senate Appropriations Committee 
hearing, employee morale associated with a long-term continuing 
resolution is a significant concern. The uncertainty of the fiscal year 
2011 budget process has had a negative impact on morale throughout DOJ. 
In conversations I have had with personnel in the field and with staff 
here in Washington, DC, uncertainty exists with regard to the amount of 
funding enacted for the fiscal year, the ability of DOJ to conduct the 
programs we want to implement, and the question of whether or not 
employees will continue to have their jobs or face furloughs or pay 
cuts. These have all had negative impacts on morale.
    Despite these morale concerns, the dedicated staff at DOJ continue 
to do a good job for the American people. Some of their concerns have 
been mitigated with the enactment of the full-year appropriation; 
however, employee morale will suffer again if we are required to 
operate under long-term continuing resolutions in future fiscal years.
    Question. What difficulties does DOJ face when it has to operate on 
short-term continuing resolutions like the five we have had to pass 
since October 1, 2010? Particularly the continuing resolutions that 
cover only 2 or 3 weeks at a time?
    Answer. In addition to the morale concerns created by the 
uncertainty of repeated, short-term continuing resolutions, this method 
of funding also creates significant operational challenges. The way in 
which continuing resolutions affect DOJ often depends on the specific 
language in the continuing resolution and the way ``current rate'' is 
calculated. If, for example, we are limited to funding provided in the 
previous fiscal year (the ``current rate'') and we are required to fund 
pay raises during the continuing resolution period, components will be 
strapped for operational funds until further appropriations, if any, 
are enacted. This results in a need for limiting hiring and restricting 
operational spending. In the absence of a full-year appropriation, DOJ 
exercises particular caution in the execution of resources and closely 
monitors the status of funds through various reporting mechanisms. In 
some instances where solvency becomes a concern during the continuing 
resolution period, DOJ takes immediate action to remedy the situation 
through transfers, reprogrammings or the deferral of costs until a 
full-year appropriation has been enacted.
    Overall, the activities most affected by continuing resolutions 
include contracting practices, hiring, training, and procurement of IT 
and other major purchases. For example, a continuing resolution creates 
significant uncertainty at every step of the procurement process, from 
budgeting through contractor performance and invoicing. Because 
continuing resolutions limit the funding available to a specified 
period of time, annual contracts must be carefully scrutinized by 
program and procurement officials. Depending on the type, some 
contracts must be fully obligated upon award. These include fixed price 
contracts and subscriptions. The need to obligate a large contract up 
front, at the beginning of the year, can result in funding shortfalls 
for other needs such as payroll and operations. Other contracts, such 
as labor hour contracts, can be segmented. In such cases, the 
contract's period of performance is limited to the portion of the year 
that is funded. When the continuing resolution is extended or a full-
year appropriation is enacted, these contracts must be modified. This 
can be a huge workload burden for program and procurement staffs, as 
well as the contractors, with no value-added.
    Question. How would public safety be impacted by these proposed 
cuts at each of the Federal, State, and local law enforcement levels?
    Answer. At the fiscal year 2011 enacted level, DOJ will sustain its 
core national security and law enforcement functions, but must reduce 
critical funding to State and local grants, juvenile justice programs, 
litigating components, and technology programs. With the exception of 
the Federal Bureau of Investigation (FBI), which received an increase 
above the fiscal year 2010 enacted level, all law enforcement 
components are funded at fiscal year 2010 levels. The Bureau of Prisons 
and Office of the Federal Detention Trustee also received increases 
above the fiscal year 2010 level. However, even though the budget is 
essentially held flat for our law enforcement agencies, the cost of 
doing business-as-usual is higher this year as a result of requirements 
to support increased health insurance premiums, retirement 
contributions, rent and move expenses, and second-year costs associated 
with new staff appropriated in last year's budget. Funding to support 
these ``mandatory'' expenses will have to come from management and 
administrative efficiencies, and possibly scaled-back operations. DOJ 
will do all it can, however, to ensure minimal disruption to core law 
enforcement and public safety initiatives.
    Both the House-passed continuing resolution and the Senate 
alternative included significant cuts to our State, local and tribal 
assistance programs, and the enacted budget includes a 25 percent 
reduction to these programs. Although DOJ certainly appreciates the 
gravity of the strain on State, local and tribal budgets, we will need 
to implement the difficult decisions reflected in the final funding 
levels for our State, local, and tribal partners. We will continue to 
award grant funding so that innovative and effective law enforcement 
solutions are realized and will provide whatever technical assistance 
possible, but our focus must also be on ensuring the availability of 
sufficient resources to successfully execute Federal law enforcement 
programs and responsibilities.
    Question. How will these cuts impact DOJ in 2012?
    Answer. The cuts enacted in the fiscal year 2011 appropriation will 
have a significant adverse impact on DOJ in fiscal year 2012. For 
example, I implemented a Department-wide hiring freeze in January 2011, 
which means components are unable to replace staff leaving through 
attrition. The funding levels provided in the fiscal year 2011 
appropriation, which are in most cases less than the fiscal year 2010 
level, are not sufficient for components to afford to ``buy back'' 
those lost positions. As a result, DOJ is directing components to 
eliminate these ``hollow'' or unfunded positions from their authorized 
position levels. DOJ's workforce will be smaller in fiscal year 2012 
than it is in fiscal year 2011, although the workload is likely to stay 
the same or increase. In addition to staffing efficiencies, DOJ is also 
implementing management and administrative cost savings measures, such 
as reductions to travel and training. DOJ's workforce will be required 
to do more with less. Given the current fiscal outlook for fiscal year 
2012, this trend will likely continue for some time.
    Further, some program reductions proposed in the fiscal year 2012 
President's budget were enacted in fiscal year 2011. For example, both 
the National Drug Intelligence Center and the Integrated Wireless 
Network program saw considerable cuts in the fiscal year 2011 
appropriation, which will be difficult to plan for and execute in the 
remaining 6 months of the fiscal year.
    Overall, most components will need to closely re-evaluate their 
allocation of resources to support continued base requirements, such as 
increased health insurance premiums, retirement contributions, rent and 
move expenses, and second-year costs associated with new staff 
appropriated in last year's budget. This re-evaluation may mean that 
operational funding previously available for law enforcement or 
litigation activities will be adversely impacted.
                cops and byrne grant funding reductions
    Question. The 2011 House continuing resolution proposes drastic 
cuts in funding for programs like Community Oriented Policing Services 
(COPS) and Byrne grants, which will result in fewer police officers to 
protect our communities, help victims recover, and combat crimes like 
violence against women. State and local agencies would be hamstrung as 
partners of Federal law enforcement, but also increasingly turn to 
Federal agencies to meet needs they no longer have the capabilities to 
address themselves.
    What concerns do you have about what these cuts will do to State 
and local law enforcement agencies around the country?
    Answer. DOJ understands that it is operating in an age of 
austerity, and that tough choices are necessary to rein in the Federal 
deficit and put the country on a sustainable fiscal path. However, 
these cuts threaten the hard-won historic crime reductions achieved by 
State and local law enforcement over the past decade. They also add 
another measure of difficulty for those agencies that support State and 
local law enforcement, several of which have suffered from nearly 3 
years of budget cuts.
    State, local, and tribal public safety agencies across the country 
face significant budget-related challenges that threaten their ability 
to deliver core services and maintain public safety. According to a 
December 2010 report released by the Police Executive Research Forum, 
more than one-half of the 608 law enforcement agencies surveyed 
experienced budget reductions in 2009 and 2010. Six out of 10 of these 
agencies have experienced additional reductions in 2011. Many of these 
agencies serve areas--both urban and rural--that face persistent 
problems with gangs, guns, and drugs.
    Numerous law enforcement agencies have been forced to lay off sworn 
and civilian personnel, while others are disbanding specialized units, 
reducing or eliminating training, forgoing important technology 
acquisitions, and limiting on-scene responses to various categories of 
service calls. One of the most severe cases is Flint, Michigan. Despite 
a murder rate higher than Newark, St. Louis, New Orleans, or Flint has 
been forced to lay off two-thirds of its force over the past 3 years.
    After years of increasingly progressive policing that contributed 
to record crime reductions, many agencies are forced to retreat to the 
1970s, allocating the bulk of their resources and personnel to answer 
calls for service. When departments run from call to call, the gains 
attributed to community policing, improved analysis, and data-driven 
crime prevention efforts are jeopardized.
    Instilling trust in crime-prone neighborhoods takes time and 
patience. Maintaining safe and nurturing schools often involves a 
stable law enforcement presence. Preventing retaliatory violence 
requires substantial law enforcement resources and attention. These 
activities, whether framed as community policing, quality of life 
enforcement or broken windows theory, play an important part in 
protecting the individual rights and liberties guaranteed by the 
Constitution. Despite their importance to neighborhoods across America, 
these programs are less tangible, produce less hard data and are very 
difficult to defend during a budget crisis.
    The Office of Justice Programs (OJP) provides training on effective 
responses to such emerging and long-standing threats. OJP develops and 
shares knowledge about ``what works'' in preventing and controlling 
crime, funds important innovations, and provides cost effective and 
supportive training and technical assistance. OJP also funds technology 
and equipment acquisitions that can help agencies struggling with 
reduced budgets to operate more efficiently.
    Considering the tremendous need for DOJ's leadership and resources 
among its State, local, and tribal partners in the current economic 
climate, the President's fiscal year 2012 request reflects an earnest 
effort to maximize Federal resources, achieve efficiencies, and make 
the difficult decisions necessary to respond to current fiscal 
realities. These programs and our relationships with State, local, and 
tribal law enforcement agencies maximize the Federal Government's 
ability to fight crime and promote justice throughout the United 
States.
    DOJ shared your concerns over the proposed cuts to the COPS office 
programs, but we were pleased to see that the final fiscal year 2011 
budget included these much needed resources for our partners in State, 
local, and tribal law enforcement. While the hiring program and other 
COPS office grant programs were cut to ensure a budget could be passed, 
they were manageable reductions and we're looking forward to opening 
the hiring solicitation later this spring.
    Question. When police departments cannot afford to put officers on 
the beat to prevent and combat violent crime, what impact does this 
have on families and communities?
    Answer. In every corner of this country, State, local, and tribal 
police departments are laying off officers and civilian staff, or 
modifying their operations as a result of budget cuts. Police 
departments are now required to do more with less in this economy, 
especially when there are reductions in much needed Federal resources. 
The practice of policing has become more automated with technology 
filling in the gaps left by fewer cops on the beat. Law enforcement 
agencies have learned to better combine resources and create regional 
multi-agency partnerships to better address public safety issues. 
Recognizing these partnerships is a priority for COPS and DOJ's grant 
making agencies, as they too must do more with less. The challenge will 
be balancing the public's expectations and demands on police with a 
department's fiscal capacity to perform its core mission.
    The impact on families and communities is being felt in cities and 
counties across the country as government executives are cutting 
policing services to fill budget gaps. There are reports each week of 
cut backs including a city in the mid-west that is looking to cut 
municipal services to more than 20 percent of its 139 square mile 
jurisdiction. Other cities have resorted to laying off sworn police 
officers, which has a direct impact on the ability to patrol 
neighborhoods and respond to service calls. The ripple effect of 
shrinking budgets is being felt nationwide.
    Question. If State and local agencies are forced to reduce their 
numbers because of this funding reduction, do you anticipate a greater 
burden placed on Federal law enforcement agencies to fill gaps in 
policing?
    Answer. The economic crisis has taken a heavy toll on State and 
local budgets, and public safety agencies are suffering. Last summer, 
the city of Oakland, California laid off 80 police officers, 
representing 10 percent of its force. In January, more than 160 
officers in Camden, New Jersey--one-half of the police department--were 
forced to turn in their badges. In Cincinnati, Ohio, officers are 
facing massive lay-offs and demotions. These are just a few of the 
historically high-crime cities that have seen critical public safety 
jobs sacrificed to shrinking municipal budgets. While OJP does not have 
evaluations available through its National Institute of Justice to 
measure the impact of these challenges, it seems inevitable that in 
this environment there will be increased calls for assistance to 
Federal law enforcement from State and local law enforcement agencies.
    It is difficult to predict the impact on Federal law enforcement 
agencies at this stage. What we do know is that there is an ever-
increasing demand for scarce Federal funding to supplement public 
safety initiatives. For example, when the COPS office opened the 
solicitation for the COPS Hiring Recovery program in 2009, which was 
part of the American Recovery and Reinvestment Act, the demand far 
outweighed the funding available with more than $8 billion in requests 
for the $1 billion that was appropriated. This demonstrates that the 
States' need for financial assistance outstrips what the Federal 
Government can provide.
    Question. Which Federal law enforcement agencies would State and 
local police turn to and would those agencies have the capabilities to 
help?
    Answer. Based on historical experience with DOJ programs, the Drug 
Enforcement Administration (DEA), the United States Marshals Service 
(USMS), the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), 
and the FBI all have ongoing and cooperative relationships with State 
and local law enforcement. These agencies would be most likely to 
receive increased calls for assistance from State, local, or tribal 
agencies.
    The FBI actively provides assistance to Law Enforcement Agencies 
(LEAs) through a variety of programs such as SSTFs, JTTFs, the National 
Academy, etc. To the extent possible, the FBI provides assistance to 
LEAs on an ad hoc basis through its field offices and the local 
relationships it has established.
    While ATF and DEA will continue to work with State, local, and 
tribal law enforcement the anticipated fiscal year 2012 funding levels 
will result in reduced funding to support investigative and other 
activities. ATF, for example, may be forced to reduce funding to 
program areas like the National Integrated Ballistics Imaging Network, 
the National Tracing Center, as well as State and local training. Under 
level funding DEA will be forced to manage hiring, including Special 
Agent hiring, and will likely be unable to backfill positions at the 
rate of attrition.
    Question. Are Federal LEAs set to receive any additional resources 
to deal with additional demand from State and local partners?
    Answer. With the exception of the FBI, which received an increase 
above the fiscal year 2010 enacted level to sustain its current 
services, all DOJ law enforcement components are funded at fiscal year 
2010 levels. DOJ will need to find additional management and 
administrative efficiencies and possibly re-prioritize operations in 
order to maintain core national security and law enforcement functions, 
while absorbing increases in ``mandatory'' expenses such as health 
insurance premiums, retirement contributions, and rent. DOJ appreciates 
the gravity of the strain on State, local and tribal budgets, and we 
will need to implement the difficult decisions reflected in the final 
funding levels for our State, local, and tribal partners. We will 
continue to award grant funding so that innovative and effective law 
enforcement solutions are realized, and we will continue to provide 
necessary and appropriate technical assistance.
                        stopping child predators
    Question. The National Center for Missing and Exploited Children 
(NCMEC) there are more than 100,000 noncompliant sex offenders at-large 
in the United States. The Adam Walsh Child Protection and Safety Act of 
2006 (Public Law 109-248) gives the USMS the authority to treat 
convicted sex offenders as fugitives if they fail to register, as well 
as to assist jurisdictions to locate and apprehend these individuals.
    USMS estimates it needs a dedicated force of 500 deputies to fully 
implement the Adam Walsh Act. Currently, there are 177 deputy marshals 
on board. No additional funds have been requested for Adam Walsh Act 
implementation and enforcement in fiscal year 2012.
    If USMS estimate they need 500 deputies to fully enforce the Adam 
Walsh Act and keep our children safe, why has DOJ failed to request 
additional resources in fiscal year 2012 for USMS to hire more deputies 
to meet this need?
    Answer. The Adam Walsh Child Protection and Safety Act is a 
landmark piece of legislation that considerably enhances the ability of 
DOJ to respond to crimes against children and vulnerable adults and 
prevent sex offenders who have been released back into the community 
from victimizing other people. DOJ and USMS fully support the mandates 
of the Adam Walsh Act. The fiscal year 2012 President's budget for USMS 
requests $57 million for Adam Walsh Act related activities, an increase 
of $9 million (19 percent).
    Question. If more resources cannot be devoted to enforcing this 
act, what other measures could the Congress adopt which would improve 
the effectiveness of the investigators? Specifically, would DOJ support 
documentary administrative subpoena power for the USMS in its 
investigative capacity?
    Answer. Additional tools, such as the ability of the USMS to secure 
its own documentary administrative subpoena authority, would help make 
sex offender investigations more robust. DOJ supports a grant of such 
authority. DOJ will consider and inform the subcommittee if there are 
other nonmonetary measures that would enhance DOJ investigations.
                   financial fraud--predatory lending
    Question. Predatory lenders across the United States continue 
destroying families and communities, and undermine faith in our 
financial systems. DOJ's financial fraud workload continues increasing 
as more predatory lenders are exposed. Last year, the Congress gave you 
an estimated $865 million, including resources to hire 54 new agents, 
165 new attorneys, and 142 new professional support staff dedicated to 
investigating financial fraud. This brings the total number working on 
this problem to more than 4,700 Federal personnel.
    When provided the resources to hire and equip full task force teams 
of agents, forensic accountants, analysts, and attorneys to work on the 
financial fraud case workload, what exactly does this mean DOJ is able 
to do?
    Answer. These resources allow DOJ to prosecute financial fraud 
aggressively. Many of the financial fraud crimes that DOJ investigates 
are increasingly sophisticated and involve complex schemes, numerous 
asset transfers, and tens of thousands, if not millions, of pages of 
documents. Investment frauds can involve a significant money laundering 
component as well, and victim funds are often secreted away in numerous 
accounts. In order to successfully prosecute these crimes and to obtain 
recovery of the assets for victims, prosecutors and agents are often 
required to sort through voluminous bank records and other documents, 
and to trace fund flows into and out of bank accounts, including 
overseas accounts.
    Similarly, many financial fraud crimes involve the use of 
sophisticated accounting gimmicks, joint partnerships, fraudulent 
accounts, and corporate shell entities. In order to pierce these 
schemes, investigators are required to analyze numerous records and 
understand accounting rules. Forensic accountants and analysts may be 
asked to apply their expertise in reviewing accounting records, sales 
agreements, third-party transactions, partnership and corporate 
records, and bank records.
    Question. The phrase ``economic fraud'' covers a broad range of 
financial crimes. What types of economic fraud investigations and 
prosecutions are DOJ's teams of FBI agents, U.S. Attorneys, legal 
divisions, and the inspector general (OIG) tackling? With each type of 
fraud case, give examples using successfully prosecuted convictions and 
recoveries.
    Answer. DOJ investigates and prosecutes a wide range of crimes that 
could be characterized as economic fraud. For example, DOJ's economic 
crime prosecutions include investment fraud, bank fraud, mail fraud, 
wire fraud, securities fraud, and mortgage fraud. These schemes can 
bring economic devastation to their victims.
    One case in particular serves as an example of DOJ's efforts to 
prosecute each of these types of fraud cases: the April 19, 2011, 
conviction of Lee Bentley Farkas, the former chairman of a private 
mortgage lending company, Taylor, Bean & Whitaker (TBW). In that case, 
in connection with a $2.9 billion fraud scheme, a Federal jury in 
Alexandria, Virginia, convicted Farkas of one count of conspiracy to 
commit bank, wire, and securities fraud; six counts of bank fraud; four 
counts of wire fraud; and three counts of securities fraud. Farkas and 
his co-conspirators engaged in a scheme that misappropriated more than 
$1.4 billion from Colonial Bank's Mortgage Warehouse Lending Division 
in Orlando, Florida, and approximately $1.5 billion from Ocala Funding, 
a mortgage lending facility. The scheme led to the collapse of TBW, one 
of the largest private mortgage lending companies in the United States, 
and Colonial Bank, 1 of the country's 25 largest banks in 2009.
    DOJ's prosecution of two brothers, Matthew and Lance La Madrid, is 
another recent example of its efforts to prosecute mortgage-related 
fraud. On January 3, 2011, both defendants pleaded guilty in the 
southern district of California to mail fraud charges pertaining to a 
$30 million mortgage fraud and investment fraud scheme. As part of the 
scheme, the brothers used false borrower information to obtain millions 
of dollars in mortgages, which they then used to fund a real estate 
investment fraud scheme.
    DOJ has prosecuted numerous other economic fraud cases that involve 
investment, bank, and securities fraud. For example:
  --On March 12, 2009, Bernard Madoff pleaded guilty to 11 felony 
        counts, including counts for securities fraud and investment 
        adviser fraud, in connection with perhaps the largest 
        investment fraud scheme in history. On June 29, 2009, Madoff 
        was sentenced to 150 years' imprisonment;
  --On January 27, 2010, Scott Rothstein, the former managing partner 
        of a Florida law firm, pleaded guilty to orchestrating a $1.2 
        billion fraud scheme. On June 9, 2010, Rothstein was sentenced 
        to 50 years imprisonment;
  --On December 2, 2009, Thomas Petters was convicted after trial for 
        masterminding a $3.7 billion investment fraud scheme that 
        defrauded thousands of investors. On April 8, 2010, Petters was 
        sentenced to 50 years imprisonment; and
  --On May 11, 2009, Marc Dreier--the founder of Dreier LLP, a law firm 
        with more than 250 employees--pleaded guilty to a securities 
        fraud scheme which caused approximately $400 million in losses. 
        On July 13, 2009, Dreier was sentenced to 20 years 
        imprisonment.
    Recoveries from these cases have been substantial. In December 
2010, for example, DOJ announced that the estate of Jeffrey Picower, a 
Madoff investor, had agreed to forfeit to the United States more than 
$7 billion, representing all the profits that Picower had withdrawn 
from Madoff's fraudulent investment advisory business.
    Question. Since DOJ ramped up its crackdown on economic fraud, how 
many cases has the Justice Department successfully prosecuted? How many 
convictions have resulted? What did those schemes cost victims and how 
much in losses have been recovered?
    Answer. DOJ has aggressively prosecuted cases involving economic 
fraud. According to DOJ statistics, in fiscal year 2009, the 94 U.S. 
Attorney's Offices (USAOs) charged at least 4,704 defendants with 
crimes concerning financial fraud, and obtained at least 4,091 guilty 
convictions against individual defendants in such cases. In fiscal year 
2010, those numbers increased: the USAOs charged at least 5,459 
defendants with crimes concerning financial fraud, and obtained at 
least 4,423 guilty convictions against individual defendants in such 
cases. These frauds have cost victims, and resulted in losses of, 
billions of dollars.
    At the same time, through both criminal and civil enforcement 
efforts, we have sought to recover billions of dollars. DOJ estimates 
that in fiscal year 2010, $4.8 billion in losses were recovered in 
criminal financial fraud related cases. According to the United States 
Sentencing Commission, in fiscal year 2010, courts ordered $6.6 billion 
in restitution to victims of Federal fraud related crimes. DOJ also 
seeks to forfeit funds where appropriate. In December 2010, as just one 
example, we announced that the estate of Jeffrey Picower, a Bernard 
Madoff investor, had agreed to forfeit more than $7 billion to the 
United States, representing all the profits that Picower withdrew from 
Madoff's fraudulent investment advisory business.
    Question. How much does it cost DOJ to successfully prosecute an 
economic fraud case, ranging from the lowest of recoveries to the 
highest? Describe the resources--including personnel, time, and other 
tools--required to successfully prosecute this range of crimes.
    Answer. It is difficult to quantify how much any particular 
financial fraud case costs DOJ to prosecute successfully. We 
investigate thousands of fraud cases every year, and individual 
prosecutors and agents work on multiple cases at any given time. 
Nevertheless, the component costs are identifiable as:
  --personnel, including attorneys, paralegals, agents, and support 
        staff;
  --IT resources;
  --electronic document collection, storage, management, and review 
        tools; and
  --litigation support for trial.
    The expenses vary depending upon the size and complexity of a case. 
Many cases are prosecuted by one prosecutor and one agent, working with 
minimal administrative support. These prosecutors and agents are also 
working on other cases. The larger the fraud scheme, however, the more 
likely the case is to involve large numbers of documents, bank records, 
and witnesses, and therefore to require additional prosecutors, agents 
and litigation support resources.
    Complex fraud cases, including large-scale investment fraud schemes 
and corporate fraud cases such as the Farkas, Petters, and other cases 
discussed in response to question 14, are extremely resource-intensive 
and cannot be successfully prosecuted and investigated without a 
substantial resource commitment by DOJ. These cases typically involve 
tens of thousands, if not millions, of pages of documents to review; 
numerous company and third-party witnesses, including accountants and 
analysts; and substantial travel.
    Question. Neither the Senate nor the House 2011 continuing 
resolution provides additional funds in 2011 for FBI, U.S. Attorneys, 
and DOJ's litigation divisions. How will this impact DOJ's ability both 
this year and in 2012 to conduct fraud investigations?
    Answer. DOJ is committed to investigating and prosecuting all forms 
of financial fraud aggressively, and we will continue to do so with 
existing resources. To the extent that the Congress appropriates 
additional funds for the Justice DOJ to use in prosecuting financial 
fraud cases, we will use those resources to bolster our already 
vigorous efforts in this critical area.
    Question. How can DOJ better help State and local officials 
investigate predatory lenders?
    Answer. DOJ currently works closely with its State and local law 
enforcement partners on financial fraud cases in numerous ways, 
including through regional mortgage fraud task forces and working 
groups; through the coordinated efforts of the Financial Fraud 
Enforcement Task Force, which includes many State and local enforcement 
officials; and through the National Association of Attorneys General 
and the National District Attorneys Association. DOJ will continue to 
use these and other avenues to work with its State and local partners 
in the future.
                             cyber security
    Question. Cyber intrusions are increasing and threaten the U.S. 
economy and security. Foreign firms are hacking into our corporate 
networks, stealing trade secrets, and reducing our competitiveness. 
Terrorists and foreign nations with advanced cyber intrusion abilities 
could shut down power grids and financial systems, and steal U.S. 
counterterrorism information, like IED jammer technology.
    DOJ requests $167 million to combat computer intrusions, including 
$129 million for FBI's Comprehensive National Cybersecurity initiative 
and $38 million for digital forensics in fiscal year 2012, an increase 
of $18.6 million compared to current services and equal to the fiscal 
year 2010 enacted level. FBI, in particular, has unique authorities to 
collect domestic intelligence and investigate foreign intrusions to 
Government and private networks.
    Describe the Justice Department's efforts--particularly those of 
the FBI--to protect cyberspace.
    Answer. FBI maintains a comprehensive cyber program to pursue cyber 
threats. This program is driven by investigative and intelligence 
goals, focusing on the actors and organizations behind computer 
intrusions. FBI has had several well-publicized arrests of criminal 
cyber threat actors, including extraditions and foreign government 
arrests of actors operating abroad. FBI's cyber program also provides 
insight into the tactics, techniques, capabilities, and targets of 
cyber threat actors, allowing FBI to share timely and actionable 
information to net-defenders who might otherwise be unaware of the 
network vulnerabilities discovered by our adversaries.
    FBI is also responsible for operating the National Cyber 
Investigative Joint Task Force (NCIJTF), a multi-agency national focal 
point for coordinating, integrating, and sharing pertinent information 
related to cyber threat investigations. NCIJTF is the day-to-day 
workplace for 18 member organizations that collectively identify and 
prioritize cyber threat actors. NCIJTF participants work in concert to 
design and implement operations that mitigate the threat through any of 
their combined counterterrorism, counterintelligence, intelligence, and 
law enforcement authorities. NCIJTF focuses primarily on national 
security and significant criminal threats, helping to coordinate 
domestic operations among members and integrate these operations with 
intelligence activities conducted outside the United States. NCIJTF has 
demonstrated numerous positive outcomes in the areas of attribution and 
advance indications and warnings that help targeted victims mitigate 
the consequences of cyber exploitation or avoid attack altogether.
    Other DOJ components, including the Criminal Division, National 
Security Division, and the 94 USAOs, through the national Computer 
Hacking and Intellectual Property coordinator program, collaborate with 
the FBI in securing lawful authority to obtain electronic evidence to 
assist in the investigation and prosecution of cybercrime, cooperate 
internationally on evidence collection and extradition, and, when 
appropriate, lead prosecutions against those who have used computer 
networks to commit crimes. DOJ also engages regularly with partner 
agencies, including the Departments of Defense (DOD), Homeland 
Security, and State, to ensure that the Department's response mission 
is appropriately coordinated with the protection, warning, and defense 
missions of other agencies.
    Question. How will the 2011 continuing resolution impact DOJ's 
ability to protect U.S. information and technology networks from cyber 
attacks?
    Answer. The fiscal year 2011 President's budget request included 
$45.9 million in enhancements to combat cyber attacks against the U.S. 
information infrastructure. The fiscal year 2011 full year 
appropriation does not fund this request, thus limiting FBI's ability 
to evolve its cyber program, enhance personnel efforts against emerging 
cyber terrorist and critical infrastructure threats, and resource 
NCIJTF facilities and technology requirements.
    Question. Although the 2012 budget request to detect and combat 
computer intrusions is $18.6 million more than current services, it is 
actually a request equal to the fiscal year 2010 enacted budget for 
this purpose. Given that President Obama has identified cybersecurity 
as an imperative of national security, and DOJ and FBI are recognized 
as the leaders in cybersecurity among civilian agencies, why were no 
increases above fiscal year 2010 enacted levels requested in the fiscal 
year 2012 budget? Are you seeking the necessary resources in the fiscal 
year 2012 budget for this?
    Answer. DOJ requests program increases for computer intrusions in 
its fiscal year 2012 budget to:
  --provide increased coverage of terrorists seeking to use cyber as a 
        means of attack;
  --enable the National Cyber Investigative Joint Task Force (NCIJTF) 
        to have 24/7 operations; and
  --add capacity to FBI-wide electronic surveillance and digital 
        forensics programs.
    The fiscal year 2012 budget requests an 8 percent increase in 
agents assigned to the FBI's CNCI program. The request level in dollars 
is the same as fiscal year 2010 enacted because of some changes in 
resource mapping in the financial system; however, the program will be 
enhanced by the resources requested.
    Question. How can Justice and FBI possibly expand their cyber 
security capabilities in future years when faced with 2011 continuing 
resolution impacts?
    Answer. Unfortunately, the fiscal year 2011 full-year appropriation 
fails to fund $46 million in important improvements to FBI's CNCI 
program. As a result, strategic development is stalled and the program 
will be forced to delay making long-term investments, as limited fiscal 
year 2011 funds will be reprioritized for existing infrastructure, 
technical contract services, or other core items as needed. The 
capacity to expand the program will remain constrained while funding 
levels remain constant.
                    uncollected court-ordered fines
    Question. In the last decade, Federal courts have ordered roughly 
$65 billion in fines and restitution from schemers and scammers who 
prey on hard working, U.S. middle class families. But the Federal 
Government has collected only 2 cents for every $1 owed, totaling an 
estimated $3.5 billion collected to date. These fines are mainly 
supposed to compensate crime victims.
    Who at DOJ is responsible for collecting court-ordered 
compensation?
    Answer. Pursuant to 28 C.F.R. Sec. 0.171, each USAO is required to 
have a Financial Litigation Unit (FLU) to enforce and collect civil and 
criminal debts owed to the United States and victims of crime. There 
are 93 FLUs (Guam and the Mariana Islands are combined). The FLU is 
responsible for handling civil claims and ``activities related to the 
satisfaction, collection, or recovery of fines, special assessments, 
penalties, interest, bail bond forfeitures, restitution, and court 
costs arising from the prosecution of criminal cases . . . by the 
United States Attorneys.'' 28 C.F.R. Sec. 0.171(a).
    Question. How many agents, prosecutors, and support staff collect 
owed fines and restitution?
    Answer. Approximately 350 positions in USAOs are dedicated to the 
collection of debts owed the United States and victims of crime.
    Question. What are the obstacles standing in the way of collecting 
these fines? What can we do to fix those problems? What tools does DOJ 
need to ensure that it can aggressively collect the fines an 
restitutions criminals owe?
    Answer. There are a number of obstacles to collecting court ordered 
fines and restitution:
  --Under current law, there are no statutory provisions that require a 
        defendant charged with an offense for which restitution is 
        likely to be ordered to preserve their assets for restitution. 
        In other words, under current law, we cannot start collecting 
        or even ensure that any money that the defendant does have is 
        preserved for victims until after the defendant is sentenced 
        and restitution has been ordered. White collar fraud activity 
        may take years before being discovered, investigated, and 
        successfully prosecuted. In a January 2005 report (GAO-05-80), 
        GAO found that in the cases they reviewed, anywhere from 5 to 
        13 years had passed since the time of the criminal activity 
        before an order of restitution was entered, leaving a 
        significant period of time for defendants to dissipate their 
        assets.
  --The orders of restitution many times tie the Government's hands. 
        That is, courts are ordering the full amount of restitution; 
        however, they are then adding a very small payment schedule 
        governing the payment of the restitution by the defendant. For 
        example, the court will order $1 million in restitution and 
        then go on to say that the defendant shall pay the restitution 
        at $100/month. Additionally, courts often fail to order payment 
        immediately. For example, the court will order that payment is 
        not due until after the period of incarceration.
  --Under The Mandatory Victims Restitution Act (MVRA), not only must 
        restitution be ordered for the full amount of the loss, but 
        judges cannot take into consideration the defendant's ability 
        to pay. As a result, financial penalties are imposed on 
        individuals with no resources, no incomes, or have limited 
        incomes while incarcerated, and thus this population does not 
        effectively have a means to pay the imposed debts.
  --Under MVRA, courts must impose restitution for the full amount of 
        the victims' losses. However, this often has no correlation to 
        the actual benefit to the defendant. In other words, 
        restitution is not based on how much the defendant made on the 
        fraud, (it is not a disgorgement of the defendant's gain), but 
        rather on the loss to the victims. This disparity can 
        especially be seen in security fraud cases. As a result, even 
        if the Government recovered the full amount of the defendant's 
        gain (and took every asset the defendant possessed), we would 
        still not recover an amount close to satisfying the restitution 
        order.
  --In a July 2001 report (GAO-01-664), GAO indicated that a lack of 
        asset investigators, as well as the limited number of 
        collection staff (in relation to the number of criminal debt 
        collection cases), presents an obstacle for the USAOs in the 
        effective collection of criminal debt. MVRA mandated that the 
        U.S. Attorneys collect restitution on behalf of non-Federal 
        victims of crime. While the Congress recognized the importance 
        of ensuring that these non-Federal victims be compensated, no 
        additional resources were given to the USAOs to carry out this 
        mandate.
    Question. If more court fees were recovered, would DOJ receive a 
portion of those collections?
    Answer. No. While the total outstanding criminal balance is 
approximately $65 billion, the amount of criminal debt collected over 
the past decade is approximately $15 billion. Criminal debt is made up 
of several components:
  --special assessments ($100 for every count of conviction);
  --fines; and
  --restitution (Federal and non-Federal).
    With limited exceptions, collections of both special assessments 
and fines are deposited into the Crime Victims Fund. These monies are 
subsequently disbursed by OJP to the States to fund State-run victim 
assistance and compensation programs. Restitution collections are 
disbursed directly to the victims of the crime for which the 
restitution was ordered. Victims can be either the United States or, 
for the most part, non-Federal individuals or entities. An increase in 
collections would not result in additional monies coming to DOJ for law 
enforcement purposes. In order for DOJ to retain a portion of criminal 
collections, there would need to be legislation authorizing the 
Department to do so.
              task forces--state and local law enforcement
    Question. Joint Terrorism Task Forces (JTTFs) are Federal, State, 
and local police and intelligence agencies that work together to 
identify and respond to terrorist threats at the local level. There are 
now more than 100 task forces led by FBI, with 4,400 participants.
    These teams have been front and center in recent failed bombing 
attempts on a military recruiting station in my own home State of 
Maryland, former President Bush's home in Texas, and a holiday tree-
lighting ceremony in Oregon. Their efforts have prevented what could 
have been deadly attacks on Americans.
    How beneficial are the Task Forces in responding to terrorist 
threats? What unique role do they play in terrorism investigations?
    Answer. JTTFs are highly beneficial and play an essential role in 
responding to terrorist threats and protecting the United States from 
attack:
  --they enhance communication, coordination, and cooperation among the 
        Federal, State, local, and tribal agencies (by sharing 
        information regarding suspected terrorist activities and/or 
        subjects on a regular basis and providing access to other 
        investigative databases to ensure timely and efficient vetting 
        of leads);
  --they provide a force multiplier in the fight against terrorism; and
  --they enhance FBI's understanding of the threat level in the United 
        States.
    Currently, FBI leads 104 JTTFs:
  --One in each of the 56 field office headquarter cities; and
  --Forty-eight in various FBI resident agencies.
    In addition to the FBI, 688 State, local, and tribal agencies, and 
49 Federal agencies have representatives assigned to JTTFs. FBI is the 
lead Federal agency with jurisdiction to investigate terrorism matters, 
and JTTFs are the FBI's mechanism to investigate terrorism matters and 
protect the United States from terrorist attack.
    Question. Why have the number of Task Force participants been 
declining since 2009? What does it mean for DOJ when the number of 
Federal, State, and local participants decreases? What does it mean for 
your State and local partners?
    Answer. Overall, JTTF participation has declined since 2009 from 
4,597 to 4,506 members. Since 2009, State and local JTTF participation 
has declined by 60 full-time and 26 part-time members. During this same 
time period, FBI increased assigned personnel to JTTFs, and 
participation by other Federal agencies has increased by 20 full-time 
members and declined by 97 part-time members.
    JTTF membership decline can be attributed to current Federal, 
State, and local budgetary constraints that have created manpower 
issues for agencies and caused them to pull back personnel from JTTFs. 
Federal, State, and local agency full-time and part-time JTTF 
participation comes at a great manpower staffing cost to participating 
agencies and it will likely become increasingly difficult for agency 
executives to detail personnel to JTTFs due to budgetary constraints. 
FBI will continue to support the ability of its State and local law 
enforcement partners to participate in JTTFs, including by paying for 
overtime of State and local task force officers with funding provided 
by the Assets Forfeiture Fund.
    It is important to ensure the overall decline in Federal, State, 
and local JTTF participation does not negatively impact interagency 
coordination, cooperation, and information sharing at all levels. 
Defeating terrorism cannot be achieved by a single organization. It 
requires collaboration with Federal, State, local, and tribal partners 
to identify suspicious activity and address it. Given the persistent 
and growing threat posed by terrorists, JTTFs require an enhanced 
presence of other law enforcement and intelligence entities on task 
forces. JTTFs cover thousands of leads in response to calls regarding 
counterterrorism-related issues. These leads address potential threats 
to national security and require a significant amount of coordination 
and resources.
    Question. Do you anticipate expanding Task Forces in the future if 
funds are available? Or would you recommend that funding go to another 
priority area?
    Answer. As noted in the response to question 27, JTTFs are 
extremely effective in investigating terrorism matters and protecting 
the United States from terrorist attacks. JTTFs enhance communication, 
coordination, and cooperation amongst the Federal, State, local, and 
tribal agencies, and provide a force multiplier in the fight against 
terrorism. Additional resources would help FBI and other Federal, 
State, local, and tribal agencies increase participation on the JTTFs, 
and thus assist in combating terrorism.
    Question. What additional resources would you need to expand the 
program?
    Answer. In order to expand JTTFs, funding for personnel (FBI and 
task force officers), overtime, space, equipment, and other items would 
be necessary.
                   violence in fugitive apprehension
    Question. Over the past few months, there has been an alarming 
increase in the number of deputy marshals and State and local law 
enforcement officers who assist USMS task forces critically injured or 
killed while pursuing dangerous fugitives. Just days before this 
subcommittee's hearing with the Attorney General, a deputy marshal was 
shot and killed, and another deputy marshal and a task force officer 
were shot, as they attempted to catch a violent fugitive.
    These recent acts of violence against law enforcement officers, 
including deputy marshals, serve as a reminder that law enforcement 
personnel put their lives on the line every day to keep our communities 
safe. Fugitive apprehension is always dangerous, as these individuals 
are often known to be violent and make concentrated efforts to avoid 
capture. When faced with the prospect of answering for their crimes, 
some lash out. The brave work of our deputy marshals and their partners 
in State and local law enforcement is vital to bringing criminals to 
justice. They are on the front lines of keeping us safe, so we must arm 
them with resources to apprehend these fugitives as safely as possible.
    Recent tragedies in Missouri, West Virginia, Florida and 
Washington, DC, involving injuries and deaths of deputy marshals and 
task force officers suggest an increase in violence shown by fugitives. 
Why have we seen this rise in violence?
    Answer. The National Law Enforcement Officers Memorial Fund reports 
that as of April 19, 2011, 29 officers have been killed in the line of 
duty as a result of gunfire, compared to 17 through the same date in 
2010. Two of the slain officers were Deputy U.S. Marshals and another 
six were USMS task force officers. These statistics are sobering, but 
also somewhat perplexing, as a review of the FBI's Uniform Crime 
Reports indicates that violent crime has actually decreased in recent 
years. Although the violent crime rate fell 6.2 percent between 2009 
and 2010, law enforcement firearm fatalities increased by 24 percent 
over this same time period.
    Many factors potentially contribute to the increase in violence 
shown by fugitives. Although there is no specific explanation for the 
rise in violence against law enforcement personnel, one factor may be 
that USMS has been confronting an increasing number of violent 
fugitives over the past decade with the expansion of Violent Offender 
Task Forces (VOTF). In fiscal year 2001, VOTFs were responsible for 
clearing approximately 21,000 felony State and local warrants. In 
fiscal year 2010, more than 118,000 violent fugitives were arrested by 
VOTFs. It stands to reason that as encounters with violent fugitives 
increase, the chances of violence and risk to law enforcement personnel 
also increase. It is the very nature of law enforcement operations that 
officers are placed in the arena of violence.
    However, DOJ and USMS continue to make every effort possible to 
mitigate the risk our officers face when arresting these individuals. 
Risk mitigation takes place in many forms--before, during, and after 
the arrest--and is responsible for the many hundreds of safe 
apprehensions that take place every day. In fact, in response to the 
recent tragic events, the USMS Director assembled a team of senior law 
enforcement officials--known as the Fugitive Apprehension Risk 
Management Assessment Team (FARMAT)--to review current training and 
operations procedures in an effort to reduce the serious risks inherent 
in performing fugitive apprehension mission. This group reports 
directly to the USMS Director. While the tragedies suffered in 
Missouri, West Virginia, Florida, and Washington, DC, have brought 
increased attention to violence against law enforcement in recent 
months, it is important to note that Federal, State, and local agents 
and officers arrest tens of thousands of violent felons each month 
without incident.
    Question. What can DOJ, as well as the Congress, do to help our law 
enforcement officers stay safe and apprehend these dangerous criminals?
    Answer. In response to this increase in law enforcement officer 
fatalities, DOJ launched a law enforcement officer safety initiative, 
directing every U.S. Attorney to meet with Federal, State, and local 
law enforcement officials in their districts to ensure the Department's 
resources are made available to help stem officer deaths. In addition, 
DOJ convened a meeting of law enforcement officers in Washington, DC, 
to solicit input for further action to improve officer safety. DOJ's 
Officer Safety initiative's focus is three-pronged:
--Communicate with local prosecutors to ensure that cases involving the 
        ``worst of the worst'', repeat offenders who cycle in and out 
        of local jails and State prisons, are evaluated to determine 
        whether the offender may instead be prosecuted under Federal 
        law for offenses that often carry stiffer penalties.
--Ensure that State and local law enforcement partners are fully 
        informed about the resources available to help protect 
        officers.
--Ensure that all Federal task forces make effective use of 
        deconfliction systems.
    DOJ believes risk mitigation is one of the most effective methods 
of keeping law enforcement officers safe. Law enforcement officials can 
identify gaps, make the appropriate adjustments, as well as highlight 
effective techniques or tools by assessing their agency's policies, 
procedures, training, and tactics. Most risk mitigation assessments 
will point to improvements in training and equipment.
--Tactical training is an integral element of DOJ component operations 
        and is performed on a recurring basis within budgeted levels. 
        Training helps ensure that disparate agency personnel serving 
        in Task Forces are familiar with the lead agency's procedures, 
        and helps reinforce critical elements that promote officer 
        safety: preparation and planning, standard operating 
        procedures, best practices, and team cohesiveness.
--Additionally, equipment such as for electronic surveillance can be a 
        critical factor in reducing violence towards law enforcement 
        officers serving arrest warrants. Electronic surveillance 
        increases and enhances the investigator's ability to pick and 
        choose when and where a fugitive will be contacted for arrest 
        (many of this year's fatal shootings occurred as law 
        enforcement officers approached locations in an attempt to 
        contact residents while looking for a wanted suspect). A 
        proactive electronic surveillance posture also minimizes the 
        officer's ``time on target,'' which reduces an investigator's 
        exposure to hostile threats and gun fire. Leveraging technical 
        surveillance resources exponentially increases the odds for a 
        safe, successful arrest.
    The Bureau of Justice Assistance's (BJA) Officer Safety Training 
and Technical Assistance program also has specific grant programs 
designed to address officer safety. They include the programs listed 
below.
      International Association of Chiefs of Police (IACP) Center for 
        the Prevention of Violence Against the Police.--In response to 
        the need for critical information on violence against the 
        police, a BJA grant was awarded in fiscal year 2010 to IACP to 
        launch the Center for the Prevention of Violence Against the 
        Police. The Center is designed to reduce the frequency and 
        severity of felony assaults on law enforcement officers by 
        providing data collection on the key variables that are present 
        when a felony assault on an officer occurs; analysis of why the 
        felonious incidents occur; and a translation of the data and 
        analysis into guidance on the steps officers can take to avoid 
        injury or death. This data analysis and research will also be 
        used to inform Federal, State, local, and tribal law 
        enforcement policies and training that will prevent or mitigate 
        officer injuries. Designed as a multiyear effort, the Center is 
        anticipated to reduce the number of felony assaults on 
        officers, reduce costs to governments, and increase community 
        safety.
      Bulletproof Vest Partnership (BVP) Program.--This program 
        provides funds that enable law enforcement agencies to acquire 
        bullet-resistant body armor for their personnel. Following 2 
        years of declining law enforcement officer line-of-duty deaths, 
        the country saw a dramatic 37 percent increase in officer 
        deaths in 2010. Fifty-nine of the 160 officers killed in 2010 
        were shot during violent encounters; a 20 percent increase more 
        than 2009 numbers. Due to this increase and our renewed efforts 
        to improve officer safety jurisdictions must certify during the 
        application process that all law enforcement agencies 
        benefiting from the BVP program have a written ``mandatory 
        wear'' policy in effect for uniformed officers.
    Question. With deep cuts facing State and local and budgets, will 
USMS be able to maintain robust task forces?
    Answer. Maintaining robust task forces requires both Federal and 
State and local participation. While USMS hopes that State and local 
participation will continue at current levels, there is no guarantee 
that it will given current funding constraints. That being said, USMS 
is vested in maintaining robust task forces. USMS will support State 
and local participation where it can, including paying for overtime of 
State and local task force officers with the limited funding made 
available through the Asset Forfeiture Fund. Like State and local 
budgets, USMS budget is also constrained. The fiscal year 2011 USMS 
appropriation is $12 million less than the fiscal year 2010 enacted 
level, which means that mandatory expenses, such as health insurance 
premiums, retirement contributions, and rent, must be absorbed.
                      funding for terrorist trials
    Question. Continuing to loom over the Commerce, Justice, Science, 
and Related Agencies (CJS) spending bill this year is the debate over 
the transfer of Guantanamo Bay detainees to stand trial in U.S. 
civilian courts. In November 2009, Attorney General Holder announced 
DOJ's intentions to bring five 9/11 terrorist suspects to New York City 
for trial, but that plan is now in limbo. However, the Ike Skelton 
National Defense Authorization Act for fiscal year 2011 (Public Law 
111-383) included language to restrict Guantanamo Bay detainees from 
coming into the United States, even for prosecution. The House-passed 
2011 continuing resolution reiterates that language.
    DOJ does not request funds in 2012 for security costs civilian 
trials. But DOJ has said that if trials become necessary, they will 
``identify funding'' for trials.
    What authority would allow DOJ to ``identify funding'' for 
something that is arguably a new purpose and prohibited under current 
law?
    Answer. DOJ executes critical law enforcement and national security 
missions every day that are vital to the Nation's health and economic 
well-being. DOJ does not consider prosecuting terrorism cases a new 
mission. During the 24-month period from 2009 through 2010, more 
defendants were charged in Federal court with serious terrorism 
violations--offenses directly related to international terrorism--than 
in any similar period since 2001. More than 120 defendants were charged 
with such violations in 2009 and 2010. That is more than double the 
number charged with such offenses in 2001 (post-9/11) and 2002. Since 
9/11, hundreds of defendants have been convicted of terrorism or 
terrorism-related violations in Federal court.
    Although DOJ has a well-established record of successfully 
prosecuting hardened terrorists in Federal court, the Department is not 
currently pursuing prosecutions against the September 11 conspirators 
in U.S. civilian courts. On April 4, 2011, the Attorney General 
announced that the cases involving Kahlid Sheikh Mohammed and the four 
other GuantanamoBay detainees accused of conspiring to the commit the 
September 11 terror attacks had been referred to DOD to proceed in 
military commissions and that the Federal indictment against these 
detainees--which had been returned under seal by a grand jury in the 
southern district of New York on December 14, 2009--had been unsealed 
and dismissed.
    The fiscal year 2012 budget does not request additional funds for 
increased security and prosecutorial costs typically associated with 
high-threat terrorist trials. However, the administration proposes to 
delete division B, title V, Sec. 532 of the Consolidated Appropriations 
Act, 2010 (Public Law 111-117), which, by its terms, limits the 
President's discretion regarding the disposition of detainees at 
Guantanamo Bay Naval Base. Further, the administration proposes to 
continue Sec. 505 of the act. This general provision would allow 
agencies, including DOJ, to reprogram funds for obligation or 
expenditure upon advance notification to the Congress.
    Question. Even if funds were identified, wouldn't current law be an 
obstacle for DOJ to pursue such controversial, high-threat trials on 
U.S. soil?
    Answer. The administration proposes to delete division B, title V, 
Sec. 532 of the Consolidated Appropriations Act, 2010 (Public Law 111-
117), regarding the disposition of detainees at Guantanamo Bay Naval 
Base because the language seeks to limit the President's discretion in 
this national security matter.
    Question. What unique costs are associated with these trials 
compared to other trials held in Federal courts? What costs has DOJ 
estimated for all years the trials would take? What is the range of 
costs depending on location?
    Answer. As explained earlier, DOJ has referred the September 11 
conspirators to the DOD to proceed in military commissions, and the 
Department is not currently pursuing prosecutions against the September 
11 conspirators in U.S. civilian courts.
    The categories of costs for the 9/11 trials or trials of other 
Guantanamo detainees would be similar to those for other trials held in 
Federal courts. These categories include transportation and prisoner 
production, prisoner housing, security, and litigation costs. However, 
the security requirements associated with trying these suspects would 
likely have been higher than the requirements associated with most 
other trials.
    The $73 million requested for DOJ in the fiscal year 2011 
President's budget reflected the estimated additional assets (human 
capital and infrastructure) needed to manage the risks associated with 
trying the September 11 conspirators. Specifically, the funding would 
have been used to harden cell blocks, housing facilities, and 
courthouse facilities; to increase electronic surveillance capability; 
and to provide increased protection for judges and prosecutors. The 
additional security requirements took into consideration the safety of 
the communities in which the trials would have occurred.
    DOJ anticipated the costs for future years would have been similar 
to the fiscal year 2011 request, with adjustments for pay raises and 
other annualization costs. In developing the estimate, DOJ made certain 
assumptions, including the location of the trials. The location can 
have a significant impact on the scale and type of assets currently 
available and the subsequent need for additional assets. Therefore, 
location was an important determinant underlying the development of the 
planning estimates. The allocation of costs among the various functions 
(transportation, housing, security, litigation, etc.) may also have 
changed depending on location.
    Question. Under what circumstances would DOJ be able to conduct 
Article III court trials at the Guantanamo Bay detention facility?
    Answer. Under current law, we do not believe Article III trials 
could be conducted at the GuantanamoBay detention facility.
                         project gunrunner--atf
    Question. ATF's Project Gunrunner combats illegal gun trafficking 
and violence along the Southwest Border. Since 2005, Gunrunner teams 
have seized 10,000 illegal firearms and 1 million rounds of ammunition 
destined for Mexico. Yet violence continues spreading out and away from 
the Southwest Border and into the United States and Mexico.
    ATF's gun tracing intelligence is critical to target and dismantle 
the infrastructure supplying guns to Mexican drug cartels. That is why 
I am troubled by reports that the ATF allowed assault rifles to be sold 
to suspected straw buyers who transported them into Mexico. Two of 
those weapons turned up at the scene of a fatal shooting of a U.S. 
Border Patrol agent in December 2010, although it is unclear if either 
of those guns was used to kill the agent. When an Immigration and 
Customs Enforcement agent was killed last month, ballistics tests and a 
partial serial number traced the weapon used in the shooting to a north 
Texas smuggling ring that was under ATF observation.
    How is DOJ responding to these allegations?
    Answer. I take these allegations seriously and have referred them 
to the acting inspector general of DOJ for investigation. I have also 
made it clear to our law enforcement personnel and prosecutors working 
on the Southwest Border that the Department should never knowingly 
permit illegally trafficked firearms to cross the border.
    Question. What safeguards do you have in place to ensure that the 
ATF is not letting assault weapons slip across the Southwest Border and 
into the hands of drug cartels?
    Answer. Since 2006, Project Gunrunner has been ATF's comprehensive 
strategy to combat firearms-related violence by the cartels along the 
Southwest Border. It includes special agents dedicated to investigating 
firearms trafficking on a full-time basis and industry operations 
investigators responsible for conducting regulatory inspections of 
FFLsalong the Southwest Border. Since 2006, ATF's Project Gunrunner and 
other investigative efforts along the Southwest Border have resulted in 
the seizure of thousands of firearms and more than 1 million rounds of 
ammunition destined for Mexico.
    I have made it clear to DOJ's law enforcement agencies and 
prosecutors working along the Southwest Border that the Department 
should never knowingly permit firearms to illegally cross the border. I 
have also asked DOJ's Acting Inspector General to investigate the 
allegations concerning ATF's actions in the firearms trafficking 
investigation known as Operation Fast and Furious.
    Question. ATF's 2012 budget request includes $19 million to make 
Project Gunrunner's nine teams permanent. In the face of these 
allegations that ATF may not be implementing Project Gunrunner most 
effectively, what assurances can you give the Congress that more 
aggressive oversight of and safeguards for Project Gunrunner operations 
will be done to continue ensuring this funding is merited?
    Answer. Project Gunrunner remains an important investigative 
strategy to combat the flow of guns to Mexican drug cartels. However, I 
take these allegations seriously and have made it clear to our law 
enforcement personnel and prosecutors working on the Southwest Border 
that DOJ should never knowingly permit illegally trafficked firearms to 
cross the border. I will determine what additional oversight actions 
are needed once the Acting Inspector General has completed her 
investigation.
                              atf director
    Question. I am concerned by reports on allegations by 
whistleblowers that ATF allowed known straw purchasers to buy guns from 
United States dealers and then transported those firearms across the 
border to Mexico. A thorough investigation is necessary to address 
these serious allegations, and Attorney General Holder moved quickly to 
request that OIG conduct a thorough investigation of these alleged ATF 
activities.
    It also seems to me that this is another indication that ATF is in 
serious need of real leadership. ATF has not had a confirmed Director 
for over 5 years, which hamstrings the Bureau's ability to seek 
appropriate funding levels and ensure proper oversight of these complex 
investigations.
    Do you agree that it is crucial for the Senate to hold a hearing 
soon on Andrew Traver, to keep the process moving on his nomination?
    Answer. I urge prompt Senate consideration of all DOJ nominations, 
including the nomination of Andrew Traver to be Director of the ATF.
    Question. Why do you believe it is important to have a confirmed 
Director leading the ATF? How does it impact the ATF when there is only 
an Acting Director?
    Answer. In the 5 years since the Congress enacted legislation 
designating the ATF Director as subject to confirmation, the Senate has 
never confirmed a nominee to serve in this position. The confirmation 
of a Director would strengthen the agency's ability to carry out the 
tasks the Congress has assigned to it.
                        atf long guns reporting
    Question. In December 2010, ATF proposed a new rule to issue 
``demand letters'' to require gun dealers located in States along the 
Southwest Border--specifically California, Arizona, New Mexico, and 
Texas--to report multiple sales of certain ``long guns'' favored by 
Mexican drug cartels. This rule is meant to help the ATF stem the flow 
of guns over border and into Mexico. ATF already collects these 
multiple sales reports for handguns. In 2008, they generated 300 
criminal investigations connected to 25,000 illegal firearms.
    What value do these multiple sale reports provide to law 
enforcement in pursuit of cartel gun traffickers? How would this data 
collection help in preventing gun trafficking?
    Answer. The goal of the current proposal is to ensure that ATF 
receives multiple sale reports on a narrowly defined specific category 
of long guns favored by drug-trafficking organizations (DTOs) in Mexico 
and along the Southwest Border. These reports will help law enforcement 
agencies detect and disrupt firearms trafficking before the firearms 
are used in a violent crime, whether in the United States or in Mexico.
    Multiple sales reporting for the specified rifles will help us 
identify those conspiring with the DTOs by trafficking firearms to 
Mexico. While investigating violence in Mexico, Mexican law enforcement 
officials have recovered thousands of certain types of rifles with 
regularity, suggesting that violent criminals, including drug 
traffickers, favor these rifles. As part of our partnership with Mexico 
in the fight against cartel violence, ATF has traced a significant 
portion of the recovered firearms. This has yielded significant 
intelligence, which multiple sales reporting will enable ATF to develop 
more fully and proactively.
    The trace results have shown a short time between the first 
individual retail purchase and recovery, and a preponderance of first 
retail sales in the Southwest Border States. Thus, ATF believes that 
firearms traffickers who bring rifles to Mexico are targeting FFLs in 
the Southwest Border States as their preferred source of the rifles. 
ATF will use multiple sale reports of the rifles to discern patterns in 
the purchases of the specified rifles, which will in turn enable us to 
narrow the field of FFLs that the DTOs are targeting. Moreover, with 
the identity of the purchasers known, we can conduct investigations to 
determine whether the purchasers are associated with DTOs or other 
criminal activity and develop further investigative leads.
    Multiple sale reports are entered into the ATF Firearms Tracing 
System (FTS) and are available to all ATF field divisions via ATF's 
eTrace system. Investigators review the reports daily in conjunction 
with firearms trace data, analyzing the data for repeat purchasers and 
recoveries in crimes, as well as other information that may disclose 
trafficking patterns. This routine practice of evaluating multiple sale 
reports and the leads that they generate frequently results in 
initiation of criminal investigations, disruption of illegal firearms 
trafficking, and convictions. If multiple sale reports generate no 
investigative leads, they will be purged after 2 years.
    Question. Does ATF already have the authority to issue ``demand 
letters'' seeking information without requiring any further action by 
the Congress?
    Answer. Yes. ATF has authority under 18 U.S.C. Sec. 923(d)(5) to 
issue demand letters to licensees requiring them to submit ``on a form 
specified by the Attorney General, for periods and at the times 
specified in such letter, all record information required to be kept by 
this chapter or such lesser record information as the Attorney General 
in such letter may specify.'' ATF has used this ``demand letter'' 
authority to require FFLs to submit to ATF certain information in their 
required records that they otherwise are not expressly required to 
provide, including firearm purchase information. The nature and scope 
of this authority has been examined in litigation and, on each 
occasion, upheld in court decisions. See, e.g., RSM v. Buckles, 254 
F.3d 61 (4th Cir. 2001); Blaustein & Reich v. Buckles, 365 F.3d 281 
(4th Cir. 2004); J&G Sales v. Truscott, 473 F.3d 1043 (9th Cir. 2007).
    To address the problem of illegal gun trafficking into Mexico, ATF 
will send a letter requesting multiple sales reports for certain rifles 
to FFLs in the four Southwest Border States:
  --Arizona;
  --California;
  --New Mexico; and
  --Texas.
    The notice relating to multiple sales reporting for rifles is 
posted on the Federal Register Web site: http://www.ofr.gov/
inspection.aspx?AspxAuto DetectCookieSupport=1. The information request 
will be tailored to address the threat along the Southwest Border. It 
only applies to firearms dealers in the four border States, because 
those States have a significant number of crime guns traced back to 
them from Mexico. The prospective reporting requirements apply only if 
a firearms dealer sells within 5 business days to a single individual 
two or more long guns having all of the following characteristics:
  --semi-automatic action;
  --a caliber greater than .22 (including .223/5.56 caliber); and
  --the ability to accept a detachable magazine.
    Question. Where is the White House's Office of Management and 
Budget (OMB) in its review process of this information collection 
request regarding long guns?
    Answer. As required under the Paperwork Reduction Act, ATF 
published the second notice for the information collection request in 
the Federal Register on April 29, 2011. The purpose of this notice is 
to allow for an additional 30 days for public comment--during the 30 
days following publication, any interested person may comment on the 
proposed collection of information. This proposed information 
collection was previously published in the Federal Register Volume 75, 
Number 242, page 79021 on December 17, 2010, allowing for a 60-day 
comment period. ATF received 12,680 comments from this collection 
(8,928 commenters supported the collection, and 3,752 commenters 
opposed the collection).
    The 30-day public comment period ended on May 28. OMB is reviewing 
the public comments received and will determine whether the collection 
of information should be approved in accordance with the law.
                federal courthouse and judicial security
    Question. DOJ's fiscal year 2012 budget would cut the USMS 
courthouse account by $11 million. These funds make security 
improvements (x ray machines, prisoner movement hallways, and secured 
prisoner elevators) to aging infrastructure, as well as handle a 
growing prisoner population in Federal courthouses. The current backlog 
is 150 courthouse projects costing $120 million. Old and dated 
infrastructure in Federal court facilities has dangerous effects on 
judicial security. These problems grow worse with time as courthouses 
age and more facilities need immediate attention.
    Judicial security is a major concern, yet the 2012 budget request 
designates only $3 million to Federal courthouse security improvements. 
Does DOJ really believe this funding is adequate to provide security 
for the judiciary?
    Answer. Fiscal realities dictate that difficult decisions must be 
made. The Full-Year Continuing Appropriations Act, 2011 (Public Law 
112-10) includes a $10 million reduction to the amount enacted in 
fiscal year 2010 for the USMS construction appropriation, which funds 
Federal courthouse security improvements. So $10 million of the $11 
million reduction for USMS construction proposed in the fiscal year 
2012 President's budget has already been cut. USMS will continue to 
improve its security for the judiciary by researching and implementing 
new technologies and equipment, continuing our training programs with 
the judiciary, and providing timely information on security awareness 
issues.
    Question. Are more resources needed to ensure the safety of all 
employees of the Federal judiciary and U.S. Attorneys? What gaps in 
security measures are still present?
    Answer. Additional resources requested in the fiscal year 2012 
President's budget will enhance DOJ's ability to ensure the safety of 
the Federal judiciary and U.S. Attorneys. The fiscal year 2012 
President's budget requests nearly $482 million for judicial and 
courthouse security in the USMS' salaries and expenses account, which 
is an increase of $32 million, or 7 percent, more than the fiscal year 
2010 enacted level. These resources will support USMS base operations. 
USMS strives to enhance the level of security for the Federal judiciary 
and U.S. Attorneys by researching new technologies and equipment and 
deploying those new technologies and equipment across the country as 
funding allows. USMS's Technical Operations Group (TOG) also provides 
direct support to Federal courthouses and enhances judicial security by 
providing technical assistance (e.g., maintaining technical integrity 
and ``sweeping'' for devices). USMS constantly reviews its equipment, 
personnel requirements, and training procedures to stay ahead of any 
potential gaps in judicial and courthouse security, such as those 
previously identified by OIG. USMS is working within its current 
resources to implement and resolve OIG recommendations to the extent 
possible.
    Question. Given this already substantial--and growing--backlog, why 
did DOJ's request decrease funding for the USMS aimed at addressing 
this issue of securing Federal courthouses?
    Answer. Fiscal realities dictate that difficult decisions must be 
made. The Full-Year Continuing Appropriations Act, 2011 (Public Law 
112-10) includes a $10 million reduction to the amount enacted in 
fiscal year 2010 for Federal courthouse security improvements. So $10 
million of the $11 million reduction proposed in the fiscal year 2012 
President's budget for USMS construction has already been cut. USMS 
will continue to improve its security for the Judiciary by researching 
and implementing new technologies and equipment, continuing our 
training programs with the judiciary, and providing timely information 
on security awareness issues.
    Question. DOJ's inspector general issued a December 2009 report on 
protection of the judiciary and U.S. Attorneys that found that Federal 
judges, U.S. Attorneys, and Assistant U.S. Attorneys (AUSAs) were 
inconsistently reporting threats on a timely basis to the USMS and, 
more troubling, not reporting threats at all in some instances. Does 
DOJ continue to have concerns that the Federal judiciary and USAOs may 
fail to participate in security and threat training? What can be done 
to improve communications between USMS and their protectees to clarify 
the categories of security threats and coordination to ensure that 
reporting and response processes are in place?
    Answer. USMS has improved the training materials provided to the 
judiciary and U.S. Attorneys to better emphasize the importance of 
quickly reporting threats and inappropriate communications, as well as 
the ramifications of not doing so. Increasing awareness and 
disseminating this information to the Judiciary and U.S. Attorneys has 
lessened concerns that they may fail to participate in security and 
threat training. Also, the Executive Office for United States Attorneys 
has provided explicit instructions to every employee in the U.S. 
Attorney community on how to report threats and why it is important to 
do so, even if the employee does not believe the threat is serious.
    Over the last 12 months, USMS has increased its efforts to provide 
training at U.S. Attorneys' Conferences and Judicial Conferences 
regarding security threats. In addition, a Memorandum of Understanding 
(MOU) between USMS and the Executive Office for U.S. Attorneys has been 
completed. This MOU delineates the responsibilities for each agency 
regarding the reporting of threats and threat awareness.
                       southwest border violence
    Question. I continue to be concerned that DOJ lacks sufficient 
resources to combat violence related to drug and gun trafficking on the 
Southwest Border. If the current wave of violence isn't contained, 
cartel-related crime will most likely expand to major metropolitan 
areas, including areas like Atlanta, Chicago, and even Baltimore.
    Violence is caused by large, sophisticated, and vicious criminal 
organizations--not by isolated, individual drug traffickers. DOJ's 2012 
request includes $2 billion to support investigations and prosecutions 
relating to border violence.
    How will DOJ deal with increased violence along the Southwest 
Border both this year and in 2012 when no additional funds are provided 
in the 2011 continuing resolution for the DEA, ATF, FBI, USMS, and 
their Federal, State, and local law enforcement partners to expand 
investigations and prosecutions?
    Answer. Because the enacted fiscal year 2011 appropriation funded 
all DOJ components, except for the FBI, BOP, and Office of the Federal 
Detention Trustee, at the fiscal year 2010 level or below, new funding 
that was requested to increase and sustain our ability to address 
violence along the Southwest Border will not be available to us. 
However, DOJ will still have base resources of approximately $1.86 
billion in fiscal year 2011 to continue law enforcement, prosecutorial, 
and detention functions on the Southwest Border. Additionally, DOJ will 
continue to expand its efforts to address violence along the Southwest 
Border in fiscal year 2011 with funds from the border security 
supplemental that was enacted in August 2010, which provided $196 
million to DOJ for Southwest Border enforcement activities.
    The President's fiscal year 2012 budget includes $134.7 million to 
annualize the border security and other prior-year Southwest Border 
supplementals, including funding to sustain more than 400 positions. 
Program enhancements to increase the OCDETF program's Southwest Border 
prosecutorial activities and to provide additional capacity at DEA's El 
Paso Intelligence Center (EPIC) have also been requested. This funding 
will be an important component of DOJ's ability to continue to address 
the challenges posed by the Mexican drug cartels and violence along the 
Southwest Border.
    Question. How concerned should communities along the border--and 
throughout the United States as a whole--be about cartel-related 
violence?
    Answer. Other than isolated incidents, ``cross-over'' cartel 
violence from Mexico into the United States is minimal. The reason for 
this is two-fold. First, the United States has not witnessed the same 
turf battles over supply and distribution routes that are occurring in 
Mexico. In fact, local crime reports submitted by DEA offices located 
along the Southwest Border show most categories of crime decreasing 
from 2009 to 2010.
    Second, the cartels already have enormous influence in the U.S. 
drug trade and control the vast majority of wholesale markets, as well 
as many retail markets, for drugs in the United States. To engage in 
violence on the U.S. side of the border would be detrimental to the 
cartels' business because it would invite additional scrutiny at the 
border and increased law enforcement attention within the United 
States. This does not negate the fact that cities and communities in 
the United States should remain vigilant against the threat of violent 
cartel-related crime.
    Question. How is DOJ working with the Mexican Government to 
dismantle these violent cartels?
    Answer. DOJ has engaged the Government of Mexico in a variety of 
ways, as discussed below, in an effort to combat drug trafficking and 
its associated violence--and will continue to do so. DOJ recognizes 
that the drug-related violence along the Southwest Border and in Mexico 
remains significant and the Department will need to both continue its 
current efforts, as well as respond to emerging drug-trafficking 
threats to combat these problems. Considering this, DOJ will continue 
to partner with the Government of Mexico and Mexican law enforcement 
partners in efforts to dismantle DTOs and curb drug trafficking-related 
violence in the hopes of achieving long-term success against the 
violence perpetrated by DTOs and Transnational Criminal Organizations 
(TCOs). In spite of ongoing challenges, DOJ is optimistic that its 
efforts will ultimately result in reducing violence related to drug 
trafficking.
    The progress made against the cartels in Mexico by the Calderon 
administration is admirable. President Felipe Calderon has taken a 
strong, proactive stance against drug traffickers and the associated 
violence and he has shown an extraordinary commitment to address the 
problems of the drug cartels and police corruption. Under his 
leadership, DOJ's bilateral inter-agency cooperation with the 
Government of Mexico has also continued to develop in a positive 
manner. Under the Calderon administration, DOJ has experienced 
unprecedented levels of cooperation and solidarity with Mexico in 
combating DTOs.
    DOJ personnel in Mexico work closely with our counterparts in the 
Mexican Government and together we have made significant progress in 
disrupting and dismantling the cartels. The noteworthy achievements by 
the Government of Mexico in recent years were supported, in many cases, 
by the information sharing and assistance of the DEA. One example was 
the dismantlement of the Arturo Beltran-Leyva (ABL) cartel, which took 
place on December 16, 2009. Information shared between DEA, the Mexican 
Federal Police, and the Mexican Naval Secretariat (SEMAR) facilitated 
the Government of Mexico's efforts in this investigation and resulted 
in the apprehension of 23 individuals and four deaths, including 
Consolidated Priority Organization Target (CPOT) Beltran-Leyva. 
Subsequently, DEA's Special Operations Division (SOD), in coordination 
with the USMS, provided information regarding ABL second-in-command 
Edgar Valdez Villareal, aka ``La Barbie'', to DEA's Mexico City country 
office. This information was shared with the Government of Mexico and 
resulted in the arrest of La Barbie on August 30, 2010 in Mexico City. 
Another example of the cooperation between DEA personnel and SEMAR was 
an enforcement operation on November 5, 2010, which resulted in the 
death of CPOT Antonio Ezequiel Cardenas Guillen, aka ``Tony Tormenta'', 
in Matamoros, Tamaulipas.
    The most recent example of cooperation between DOJ and the Mexican 
authorities was the arrest of Julian Zapata Espinoza, aka ``Piolin'', 
and three other criminal associates on February 23, 2011. Piolin has 
been detained by the Mexican authorities and is being investigated in 
connection with the murder of Immigration and Customs Enforcement (ICE) 
Special Agent Jaime Zapata. These are but a few examples of the 
outstanding coordination and cooperation being carried out between DOJ 
and the Government of Mexico on a daily basis.
    DOJ's close relationship with the Government of Mexico is also 
exemplified by our joint effort to restructure the Mexican Sensitive 
Investigative Unit (SIU) program, led by DEA with crucial support from 
DOJ's Criminal Division. The SIU is composed of individuals from 
Mexico's Ministry for Public Security (SSP) and Office of the Attorney 
General (PGR). Every member has been vetted and trained by DEA and 
assigned to autonomous groups that are tasked with pursuing a specific 
Mexican cartel. The Mexican SIU plays an important role in Western 
Hemisphere drug enforcement efforts and they are working to increase 
collaboration with counterparts in Colombia through an exchange of SIU 
personnel.
    DEA has also applied many of the lessons learned in Colombia to our 
efforts in Mexico, including areas such as judicial wire intercepts, 
extradition programs, methamphetamine trafficking, and joint targets. 
Additionally, DEA has participated in several joint meetings with the 
leadership of Colombian and Mexican law enforcement and security forces 
to examine the best practices which could assist the Government of 
Mexico in combating drug cartels. These efforts have focused on 
conducting complex narcotics and financial investigations, which have 
enhanced information-sharing protocols. Since 2007, DEA has sponsored 
eight Tripartite meetings between Colombia, Mexico, and the United 
States. These meetings have included the Mexican PGR and SSP, the 
Colombian National Police, the Minister of Defense of Colombia, and DEA 
Principals. The ninth Tripartite Meeting is tentatively scheduled for 
October 2011.
    A key component of DOJ's efforts to address violent cartels along 
the Southwest Border is EPIC. EPIC is a national tactical intelligence 
center that supports law enforcement efforts throughout the Western 
Hemisphere and it is DEA's long-standing and most important 
intelligence sharing organization focusing on the Southwest Border. 
Through its 24-hour watch function, EPIC provides immediate access to 
participating agencies' databases to law enforcement agents, 
investigators, and analysts at all levels of government throughout the 
United States and with some foreign nations. Much of EPIC's success can 
be attributed to the strong partnerships forged among the more than 20 
agencies represented at the Center, including representatives from 
foreign police organizations in Mexico and Colombia.
    The Government of Mexico has three representatives permanently 
assigned to EPIC as Liaison Officers. The first representatives from 
Mexico's federal investigative organizations, SSP and PGR, were 
assigned to EPIC in 2007 and 2008 respectively. A third representative 
from the Mexican Military (SEDENA) joined EPIC in 2010. While not 
permitted unescorted access to the entire center, the representatives 
have extensive access to EPIC staff and tailored database access that 
permits the exchange of information and intelligence on a daily basis. 
The presence of the Government of Mexico representatives at EPIC has 
enhanced the center's capabilities to develop intelligence on criminal 
activities, both along the border and in Mexico, using resources of 
both the United States and Mexico.
    Additionally, ATF has cooperated with Mexico in a variety of 
practical ways to combat the threat posed by the cartels. Consistent 
with ATF and DOJ strategies, ATF has expanded our presence in the U.S. 
Embassy and consulates in Mexico to assist and work side-by-side with 
Mexican law enforcement; expanded the use of eTrace throughout Mexico, 
including training more than 130 Mexican officials (as of May 6, 2011) 
in the use of this technology; begun the expansion of ballistic 
technology to increase information sharing between our governments; and 
developed specialized teams with Mexico addressing firearms and 
explosives investigations. ATF works every day with our Federal law 
enforcement and Mexican partners to cooperate in investigations and 
share information and intelligence to target the cartels responsible 
for drug and firearms trafficking that is at the roots of the violence.
    Finally, the United States and Mexico both benefit from an 
excellent extradition partnership. In 2009, Mexican authorities 
extradited 107 individuals to the United States, including several 
high-ranking cartel members. This was a record number for the eighth 
consecutive year. In 2010, 94 individuals were extradited from Mexico 
to the United States. This includes the extradition of a CPOT, a 
lieutenant in the Sinaloa Cartel, and a former Mexican state governor.
                 danger pay for dea and usms in mexico
    Question. Violence in Mexico, targeted at law enforcement 
personnel, has intensified in recent years. The very real and present 
danger faced by United States personnel working in Mexico is evident in 
recent deaths of consulate employees and ICE agents in Mexico. DEA and 
FBI receive danger pay for their personnel in Mexico due to prior 
authorizations, but the USMS and ATF lack the same authorization even 
though they face the same risks as their DEA and FBI counterparts in 
Mexico.
    Why does the President's budget not provide for danger pay 
increases to USMS and ATF personnel working in Mexico?
    Answer. Increases associated with danger pay allowances are 
traditionally absorbed by a component's existing base resources. Due to 
the potentially fluid nature of danger pay authorities, which are 
established by the Secretary of State, permanent resources for danger 
pay authority in Mexico were not requested for USMS or the ATF in the 
fiscal year 2012 President's budget.
    Question. Given the rise in violence due to the Mexican drug wars, 
targeted attacks against United States law enforcement, and the fact 
FBI and DEA have danger pay in Mexico, shouldn't the USMS and ATF 
receive the same sort of compensation?
    Answer. The authority to initiate and terminate danger pay 
allowances rests with the Secretary of State in accordance with title 
5, U.S. Code (5 U.S.C.), Sec. 5928. The Department of State regulation 
implementing this authority states that ``a danger pay allowance is 
established by the Secretary of State when, and only when, civil 
insurrection, civil war, terrorism or wartime conditions threaten 
physical harm or imminent danger to the health or well being of a 
majority of employees officially stationed or detailed at a post or 
country/area in a foreign area.''
    The Secretary of State's authority with regard to danger pay 
allowances was modified through several public laws related to DEA and 
FBI. These modifications do not permit the Secretary of State to deny a 
request by DEA or FBI to authorize a danger pay allowance for any 
employee of either DOJ component. Consequently, DEA and FBI employees 
may receive danger pay allowances in posts that are not designated 
danger posts by the Secretary of State. Other similarly-situated 
employees, particularly DOJ employees in USMS and ATF, do not receive 
danger pay allowances unless the Secretary of State has approved the 
post for such allowances.
    As of March 14, 2010, the Department of State has extended equal 
danger pay allowances to all U.S. Government personnel serving in 
certain posts in Mexico, which currently mitigates the pay disparity 
that had previously existed between the FBI and DEA employees in those 
posts, and similarly situated employees from other agencies, including 
other DOJ components. Mexican posts for which danger pay allowances 
were announced on March 14, 2010, include:
  --Ciudad Juarez;
  --Matamoros;
  --Monterrey;
  --Nogales; and
  --Nuevo Laredo.
    However, at this time, a pay disparity still exists for DOJ 
personnel stationed in Mexico City and Merida; in Mexico City, FBI and 
DEA employees are authorized danger pay, while ATF, the USMS and other 
United States Government personnel are not eligible. In Merida, DEA 
employees are authorized danger pay while ATF employees and other 
United States Government personnel are not eligible. The Department of 
State has not extended danger pay allowances equivalent to those 
authorized by the FBI and DEA to these posts in Mexico.
    DOJ considers danger pay disparity to be a core compensation 
inequity. That is, United States Government employees serving our 
national interests in the same overseas locations, many times working 
side-by-side on critical criminal investigations and law enforcement 
issues, should be compensated similarly.
    Question. When can we expect to see proposed legislation to remedy 
this issue from DOJ?
    Answer. On April 13, 2011, the Border Security Enforcement Act of 
2011 (S. 803) was introduced, which contains a provision authorizing 
danger pay for the USMS and ATF law enforcement personnel working in 
Mexico. This legislation would remedy this disparity.
               afghanistan--fighting narco-terrorism--dea
    Question. DEA plays a critical role in combating narco-terrorism by 
helping the Afghan Government establish drug enforcement institutions 
and capabilities to enforce the rule of law. This means successfully 
identifying, disrupting, and dismantling major DTOs that fuel the 
insurgency and profit from the narco-economy. Were DEA to expand its 
operations in Afghanistan, the focus will be on high-value targets, 
including members of the Taliban, who use the heroin trade to fund 
insurgents' attacks on U.S. military forces.
    What is DEA's current role in Afghanistan? Do you expect those 
operations to be expanded in the future and, if so, how?
    Answer. DEA supports the U.S. Ambassador's Counternarcotics (CN) 
Strategy in Afghanistan through close partnership with the Department 
of State and DOD. DEA is helping Afghanistan by training, mentoring 
Afghan law enforcement partners and units, as well as building a 
sustainable capacity within those entities to investigate, disrupt, and 
dismantle DTOs fueling the insurgency. DEA is also working to help 
establish drug enforcement institutions and capabilities to enforce the 
rule of law. This means working bilaterally with host nation 
counterparts to identify, investigate, and bring to justice the most 
significant drug traffickers in Afghanistan and the region. These 
operations disrupt and deny the insurgents' ability to derive revenue 
from opiate production and distribution.
    In fiscal year 2010, DEA completed a significant expansion effort 
in Afghanistan. DEA now has 82 permanent positions assigned to 
Afghanistan for 2-year tours of duty, including 62 agents and 7 
intelligence analysts. In addition to these positions, the Kabul 
Country Office (KCO) is augmented by the Foreign-Deployed Advisory and 
Support Teams (FASTs), which provide intensive training for the Afghans 
and operational support to KCO. Furthermore, the KCO is supported by 
three temporary duty (TDY) Special Agent pilots.
    A FAST deploys to Afghanistan every 120 days. Each FAST team 
consists of a Group Supervisor, eight Special Agents, and one 
Intelligence Research Specialist. DEA's FAST teams advise, train, and 
mentor their Afghan Minister of Interior (MOI) counterparts in the 
National Interdiction Unit (NIU) of the Counter Narcotics Police--
Afghanistan (CNP-A). The NIU, which currently has 538 officers, is a 
tactical unit capable of conducting raids, seizures, and serving Afghan 
search and arrest warrants in a high-threat environment, much like a 
U.S. Special Weapons and Tactics (SWAT) team. Furthermore, FAST teams 
are the enforcement arm of DEA's Drug Flow Attack Strategy and Campaign 
Plan in Southern Afghanistan.
    In addition, DEA Special Agents advise, train, and mentor their 
Afghan CNP-A counterparts in the Sensitive Investigative Unit (SIU) and 
the Technical Investigative Unit (TIU). DEA's Afghan SIU is comprised 
of 85 vetted and DEA-trained officers who conduct complex drug 
conspiracy and high-value target (HVT) investigations. These bilateral 
investigations focus on national and international level DTOs. TIU 
includes 9 officers selected from the SIU and 200 vetted Afghan 
civilian polyglot translators who conduct court ordered judicial 
telephonic intercepts pursuant to Afghan law.
    DEA's Regional Training Team (RTT) has conducted effective training 
of Afghan law enforcement officers in hundreds of courses. RTT has also 
developed a highly skilled Afghan training cadre capable of carrying 
out not only their own organic training programs, but also of 
developing their own trainers. To ensure Afghan and regional stability, 
effective Afghan law enforcement institutions must be in place. DEA's 
training programs and bilateral initiatives in Afghanistan are 
specifically designed to accomplish this goal.
    DEA, in conjunction with other United States Government agencies 
and the Afghan MOI, has also developed the only Afghan MOI judicially 
authorized wire intercept program (JWIP) in Afghanistan, which allows 
the use of intercepts as evidence in court. Afghan law enforcement 
counterparts are able to lawfully intercept the criminal communications 
of not only narcotics traffickers, but also terrorists, insurgents, 
kidnappers, criminal financiers, and corrupt officials. Since its 
inception in December 2008, the JWIP has lawfully intercepted more than 
15 million telephone conversations. As of December 31, 2010, 2,135 
wiretaps have been performed and used to develop bilateral 
investigations.
    DEA is also the lead agency in the Afghan Threat Finance Cell 
(ATFC), which is intended to identify, disrupt, and interdict the 
sources of funding for insurgent and terrorist organizations operating 
in Afghanistan. The Department of the Treasury and DOD act as co-
deputies for the cell. The ATFC Director from DEA oversees all 
investigative, intelligence, and administrative activities of the ATFC, 
while the Treasury deputy coordinates intelligence matters and the DOD 
co-deputy coordinates operational matters. In addition to these 
agencies, ATFC is comprised of U.S. and coalition partner law 
enforcement and military officials and conducts its investigations and 
initiatives jointly with Afghan law enforcement, banking, and 
regulatory officials. ATFC also works closely with the SIU and other 
Afghan vetted units to conduct these complex financial investigations.
    DEA's Special Operations Division (SOD) also plays a significant 
role in DEA's efforts in Afghanistan. SOD has the unique capability to 
identify investigative links between individuals and organizations 
involved in criminal/insurgent activity via domestic intercepts in 
support of bilateral Afghan-led investigations. Information obtained 
through these intercepts routinely has direct implications on force 
protection, anti-corruption efforts, and support for Afghan rule of 
law, as well as disrupting the material support of the insurgency 
fueled by drug and weapons trafficking and money laundering activities. 
With the assistance of SOD, DEA Special Agents in Afghanistan and their 
Afghan counterparts conduct enforcement efforts against identified High 
Value Targets (HVTs). These HVTs provide support to the Taliban and 
other insurgent groups that threaten the coalition and Afghan efforts 
to provide the citizens of Afghanistan with a strong central 
government.
    Currently, DEA has no plans to further expand operations in 
Afghanistan.
    Question. Are there any limits on DEA operations and capabilities--
funding, policy or otherwise--that may hinder DEA's ability to carry 
out its mission in Afghanistan?
    Answer. DEA has approximately $19.2 million in direct base 
resources for ongoing DEA efforts in Afghanistan. This funding supports 
13 positions and associated operating costs, three DEA FAST teams, and 
three TDY pilots. The rest of DEA's permanent presence in Afghanistan, 
including funding for 69 positions and associated operating costs, is 
funded through transfers from the State Department as part of a State 
Department-led civilian staffing uplift in Afghanistan. Currently, the 
State Department has committed to providing $50.8 million in resources 
for DEA's Afghanistan activities for fiscal year 2011.
    DEA's success depends on the commitment, willpower, and tenacity of 
the Afghan Government. DEA personnel operate in conjunction with and 
largely under the authorities of Afghan law enforcement. In terms of 
policy, although there is not a formal bilateral extradition 
relationship between the United States and Afghanistan, DEA has 
successfully brought a number of significant Afghan traffickers to the 
United States to stand trial before U.S. courts. This was accomplished 
by lawful means, including extradition by Afghanistan under the 1988 
U.N. Drug convention, extradition from third countries, expulsion, and 
voluntary travel to the United States. Working in consultation with the 
Department of State, we are continuing our efforts with Afghanistan to 
regularize our use of existing legal authorities for the return of 
defendants for trial in the United States.
    Question. How are DEA's activities coordinated with those of the 
United States and Afghan military, as well as other United States 
agencies operating in Afghanistan? Is what DEA can dedicate in direct 
resources to Afghanistan sufficient to cover its personnel, operations, 
and other mission responsibilities there? Are the resources transferred 
to DEA from other United States Federal partners in Afghanistan 
sufficient to cover its personnel, operations and other mission 
responsibilities there? What is the impact if insufficient resources 
are not transferred to DEA from other agencies?
    Answer. DEA's KCO has built successful relationships with DOD, the 
Central Intelligence Agency (CIA), the National Security Agency (NSA), 
North Atlantic Treaty Organization/International Security Assistance 
Force (NATO/ISAF), the State Department, DOJ, Department of Homeland 
Security (DHS), Office of National Drug Control Policy (ONDCP), and 
U.S. military, to include the 101st Airborne Division, 82nd Airborne 
Division, First Marine Expeditionary Force, and Combined Joint Special 
Operations Task Force (C-JIATF). These enhanced relationships have led 
to successful operations through battle space deconfliction; 
utilization of unmanned aerial vehicles, quick reaction forces, close 
air support, and medical evacuation; development of concepts of 
operation; provision of logistical life support to DEA. DEA's FAST 
units also regularly conduct operational missions along with the U.S. 
military and their Afghan host country counterparts.
    Question. Is what DEA can dedicate in direct resources to 
Afghanistan sufficient to cover its personnel, operations, and other 
mission responsibilities there?
    Answer. DEA's base salaries and expenses budget includes 
approximately $19.2 million for ongoing DEA efforts in Afghanistan. 
This funding supports 13 positions and their associated operating 
costs, three DEA FAST teams, and three pilots. The rest of DEA's 
expanded presence in Afghanistan, including funding for 69 positions 
and their associated operating costs, has been funded through transfers 
from the State Department as part of a State Department-led civilian 
staffing uplift in Afghanistan. In addition to transfer funding 
received from the State Department, DOD has provided significant 
financial, logistical and operational support for DEA's counter-
narcotics mission in Afghanistan. DOD has provided training, equipment, 
infrastructure, and airlift to the Afghans supporting the counter-
narcotics mission. Operational support provided by DOD, including air 
mobility support, troop support, and interagency intelligence sharing 
and targeting, has led to several successful investigations against 
identified High Value Targets. Such support from DOD has been and 
continues to be vital for DEA's expanded mission in Afghanistan.
    Question. Are the resources transferred to DEA from other United 
States Federal partners in Afghanistan sufficient to cover its 
personnel, operations and other mission responsibilities there? What is 
the impact if insufficient resources are not transferred to DEA from 
other agencies?
    Answer. DEA, as well as other DOJ entities participating in the 
State Department-led civilian staffing uplift in Afghanistan, do not 
have base funding to cover the cost of the expanded presence and 
mission in Afghanistan. Sufficient support for personnel and operations 
connected to the civilian staffing uplift must be provided by the State 
Department. The appropriate level of support required will vary 
depending upon the level of staffing required and the operational needs 
determined to be in support of the U.S. Afghan Strategy. In fiscal year 
2010, the State Department transferred $58.6 million to DEA for 
activities in Afghanistan. The State Department has committed to 
provide $50.8 million to DEA in fiscal year 2011.
    Question. DEA plays the lead role in investigating and alerting 
U.S. military about High Value Targets (HVT) and has identified 13 such 
individuals who are Taliban members or have close ties. Does DEA have 
the resources it needs to continue to track down these high-value 
targets?
    Answer. As of April 2011, DEA had identified 17 High Value Targets 
(HVTs), all of whom have ties to, or are members of, the Taliban. The 
HVT list is constantly reviewed and updated by DEA in coordination with 
other U.S. Government and Coalition elements. Additionally, DEA has 
identified more than 30 Priority Targeted Organizations (PTOs), almost 
all of which have ties to the insurgency. Through focused mentoring of 
elite Afghan counternarcotics forces and an operational presence that 
works in tandem with Afghan partners, DEA's Afghanistan expansion, 
which was completed in fiscal year 2010 as part of the State 
Department-led civilian staffing uplift in Afghanistan, has been 
focused on the support of major investigations directed at HVTs, 
including members of the Taliban involved in the drug trade, and those 
traffickers supporting the Taliban and other insurgents. DEA's base 
salaries and expenses budget includes approximately $19.2 million for 
ongoing DEA efforts in Afghanistan. The State Department provides 
resources to cover the cost of DEA's expanded presence and mission in 
Afghanistan. In fiscal year 2010, the State Department transferred 
$58.6 million to DEA for activities in Afghanistan. The State 
Department has committed to provide $50.8 million to DEA in fiscal year 
2011.
                            healthcare fraud
    Question. Now that the historic healthcare reform legislation is 
law, we must do more to combat healthcare and insurance fraud that cost 
U.S. citizens more than $60 billion annually. We need to make sure law 
enforcement has the resources it needs to investigate these crimes and 
prosecute the scammers.
    What role does DOJ play in healthcare fraud investigations and 
prosecutions?
    Answer. DOJ has committed to fighting healthcare fraud as a 
Cabinet-level priority, both at DOJ itself and in cooperation with the 
Department of Health and Human Services. Through the creation of the 
Health Care Fraud Prevention and Enforcement Action Team (HEAT), a 
senior-level joint task force, we are marshalling the combined 
resources of both agencies in new ways to combat all facets of the 
problem. Our Medicare Fraud Strike Force prosecutors and agents are 
using billing data to target a range of fraudulent healthcare schemes, 
deploying appropriate criminal and civil enforcement tools in hot spots 
around the country. In fiscal year 2010, DOJ charged 931 defendants 
with criminal healthcare fraud. This was a record--an approximately 16 
percent increase more than fiscal year 2009. We also convicted more 
than 725 healthcare fraud defendants--another record and a nearly 25 
percent increase more than fiscal year 2009.
    DOJ has also brought successful civil enforcement actions to 
protect taxpayer dollars and the integrity of government programs from 
fraud. In fiscal year 2010, we obtained record recoveries of more than 
$2.5 billion in healthcare fraud matters pursued under the False Claims 
Act. In the 2-year period beginning in January 2009, DOJ has won or 
negotiated healthcare fraud recoveries in False Claims Act matters 
totaling nearly $5.4 billion. During that same period, DOJ won or 
negotiated restitution, fines, forfeitures and penalties in Food, Drug 
& Cosmetic Act matters that exceed $3.3 billion.
    Question. How is DOJ carrying out new responsibilities placed on it 
by the Patient Protection and Affordable Care Act in terms of 
healthcare fraud?
    Answer. The Patient Protection and Affordable Care Act of 2010 
provides several additional statutory tools that will enhance Federal 
law enforcement's ability to combat healthcare fraud. Among the most 
significant for criminal enforcement is the directive to the U.S. 
Sentencing Commission to amend the Sentencing Guidelines with respect 
to calculating loss in healthcare fraud cases and increase the 
guideline ranges for healthcare fraud schemes involving losses of $1 
million or more. DOJ has worked closely with the commission to develop 
guideline amendments to:
  --provide for tiered sentence enhancements beginning at loss amounts 
        of $1 million or more; and
  --provide that the aggregate dollar amount of fraudulent bills 
        submitted to the Government healthcare program constitutes 
        prima facie evidence of the defendant's intended loss.
    The commission promulgated the amendments on April 6, and the 
Congress has 180 days to review them. The amendments have a designated 
effective date of November 1, 2011, unless the Congress acts 
affirmatively to modify or disapprove them. On the civil side, the act 
made several amendments to section 3730(e)(4) of the False Claims Act 
(commonly known as the public disclosure bar), including authorizing 
the Government to ``oppose'' a defendant's motion to dismiss a qui tam 
action under this provision. The Supreme Court has held that these 
changes to the public disclosure bar are not retroactive, and thus DOJ 
has not yet had an occasion to exercise its authority to oppose a 
defendant's public disclosure motion.
    The Affordable Care Act also makes other changes. Among other 
things, the act:
  --Clarifies that use of the term ``willfully'' in the healthcare 
        fraud and anti-kickback statutes does not require proof that 
        the defendant knew of the existence of, or intended to violate, 
        those specific statutes.
  --Amends the anti-kickback statute to provide that a claim that 
        includes services or items resulting from a violation of the 
        statute would constitute a false or fraudulent claim for 
        purposes of the False Claims Act. The act also adds the anti-
        kickback statute to the definition of ``Federal health care 
        offense'' in 18 U.S.C. 24.
  --Clarifies that the obstruction of justice statute, 18 U.S.C. 
        1510(b), applies to healthcare fraud subpoenas issued pursuant 
        to 18 U.S.C. 3486.
  --Confers new subpoena power on the Attorney General to demand 
        records and access to institutions when investigating claims 
        under the Civil Rights of Institutionalized Persons Act.
  --Makes several significant changes to the law governing employee 
        group health benefit plans subject to title I of the Employee 
        Retirement Income Security Act of 1974 (ERISA) and multiple 
        employer welfare arrangements (MEWAs) regulated by ERISA by 
        prohibiting false statements in the sale or marketing of 
        employee health benefits by MEWAs and adding certain ERISA 
        offenses concerning the sale and marketing of employee group 
        health benefit plans to the definition of ``Federal health care 
        offense'', 18 U.S.C. 24.
    DOJ has distributed guidance to our agents and prosecutors about 
these statutory revisions and we expect they will assist many current 
investigations and case development efforts.
    Question. How is the role DOJ plays in the Health Care Fraud 
Prevention and Enforcement Action Team (HEAT) initiative evolving and 
do you expect an expansion of the HEAT initiative in coming years?
    Answer. DOJ has expanded the number of Strike Force locations from 
two to nine cities since announcing our HEAT initiative in May 2009. In 
February, we announced the two newest locations, Chicago and Dallas. 
Since HEAT's inception, the Medicare Fraud Strike Force has charged 
more than 660 defendants with seeking to defraud Medicare of more than 
$1.3 billion taxpayer dollars. In fiscal year 2010, the Strike Force 
secured 240 criminal convictions--217 guilty pleas and 23 defendants 
convicted at trial--the most since the Strike Force was created in 
2007, and both numbers almost double those from the prior fiscal 
year.\1\ In the 4 years since launching the Strike Force in May 2007, 
prosecutors from DOJ Fraud Section and USAOs have filed criminal 
charges against more than 1,000 defendants for a variety of healthcare 
fraud offenses that collectively exceed $2.3 billion in fraudulent 
billings to Medicare.
---------------------------------------------------------------------------
    \1\ The Strike Force conviction statistics are included among the 
overall number of defendants convicted during fiscal year 2010 cited in 
response to the healthcare fraud question posed earlier by Chairwoman 
Mikulski.
---------------------------------------------------------------------------
    We will continue to expand to additional cities to the extent 
additional funding becomes available. In fiscal year 2011, DOJ 's 
discretionary funding, which is used to support HEAT expansion, was 
funded at the fiscal year 2010 level, thus hampering the Department's 
ability to expand to additional Strike Force locations, or expand 
HEAT's civil fraud enforcement. The fiscal year 2012 budget contains a 
$63 million increase in funding for HEAT, which would allow for 
expansion of DOJ's criminal and civil healthcare fraud efforts.
     Question. DOJ's efforts to combat healthcare fraud are funded by 
the Health Care Fraud and Abuse Control account, administered by HHS. 
The fiscal year 2012 request has $300 million for these activities. How 
does DOJ use these funds to stop fraud in Medicare, Medicaid, and other 
healthcare benefits programs?
    Answer. In fiscal year 2012, DOJ is requesting a total of $283.4 
million to investigate and prosecute healthcare fraud. This funding 
request includes both mandatory and discretionary Health Care Fraud 
Abuse and Control (HCFAC) account funding, as well as mandatory funding 
provided to FBI through the Health Insurance Portability and 
Accountability Act. This request represents a $63.5 million increase 
more than the fiscal year 2011 enacted funding level of $219.9 million.
    The fiscal year 2012 requested funding increase will allow DOJ to 
expand the number of Medicare Fraud Strike Force locations beyond the 
current nine locations. The Strike Forces are an essential tool for DOJ 
in addressing criminal fraud in locations where fraudulent billing is 
rampant. In addition to supporting an expansion of criminal enforcement 
efforts, the fiscal year 2012 increase will support additional civil 
enforcement efforts, such as addressing pharmaceutical fraud, off-label 
marketing, and other fraud schemes.
    The requested resources will support additional attorneys, support 
staff, and special agents, which are essential for expanding DOJ's 
efforts in addressing fraud in the Medicare program. The increase in 
HCFAC discretionary resources has allowed for the expansion of DOJ's 
healthcare fraud enforcement efforts, and the additional resources 
requested in fiscal year 2012 will allow us to continue to expand our 
efforts.
               earmarks ban--congressional communications
    Question. Pursuant to Executive Order 13457, ``Protecting American 
Taxpayers from Government Spending on Wasteful Earmarks,'' issued on 
January 29, 2008, DOJ took steps to postcongressional communications 
recommending that funds be committed, obligated or expended for an 
earmark. DOJ has on its Web site a page where such communications is 
supposed to be posted. The most recent communication posted on that Web 
page from a Member of Congress regarding earmarks is dated May 11, 
2010.
    Since the earmark moratorium was put in place--first by the House 
on November 18, 2010, and then by the Senate on February 1, 2011, how 
many communications has DOJ received from Federal lawmakers who appeal 
to the Department to fund their earmarks with available funds? Please 
provide the subcommittee with a list of those lawmakers along with the 
accompanying communication or request, whether it be via post, email, 
telephone, or other means of communication.
    Answer. Since the earmark moratorium was fully put in place by the 
Congress, we are aware of only one communication from a Federal 
lawmaker regarding earmarks. As you know, Executive Order 13457 
provides guidance on how agencies should interpret and execute 
earmarks, and requires agencies to make public within 30 days of 
receipt any congressional communications from Federal lawmakers or 
their staffs regarding earmarks. Since DOJ began implementing Executive 
Order 13457 in 2009, there have been a total of 23 communications from 
Federal lawmakers regarding earmarks; this is current as of May 9, 
2011. The majority of these communications seek to clarify the intent 
of an earmark included in a previously enacted appropriations bill or 
to make technical changes, such as updating the name of the grant 
recipient. These communications are related to earmarks already 
included in enacted appropriations bills, and do not request DOJ to 
fund or augment earmarks with other resources.
    The complete and up-to-date list of congressional communications 
related to earmarks can be found at http://www.justice.gov/jmd/ccre/. 
This site contains the requesting Member of Congress or office, the 
date of the communication and a link to the communication received.
    Question. A March 16, 2011, New York Times piece titled, 
``Lawmakers Find a Path Around an Earmarks Ban'', detailed that--under 
the earmark ban--not only have lawmakers been appealing directly to 
Federal agencies to push them to direct available funds to their 
preferred projects, but also agency officials may be responding 
positively to those requests, despite the Executive Order 13457. Has 
DOJ received requests of this type to fund Member's pet projects and 
how does the Department respond to such pressure?
    Answer. Since the earmark moratorium was implemented, we are only 
aware of one communication from a Federal lawmaker appealing for DOJ to 
direct available resources to a preferred project not otherwise funded. 
DOJ adheres to the principles outlined in Executive Order 13457, and 
executes resources only for earmarks written in the appropriations bill 
language. However, DOJ often works with the committees on 
appropriations and individual Member offices to ensure that 
appropriately designated earmarks are executed per the intent of the 
requesting member.
    Question. Who at DOJ is responsible for updating the congressional 
communications Web page? Why has DOJ's congressional correspondence Web 
page not been updated since May 11, 2010? In a time when the President, 
the Congress and the American public are calling for more oversight and 
accountability in how and where taxpayer dollars are spent, don't you 
believe DOJ should do a better job keeping this Web page up-to-date in 
order to help transparency?
    Answer. The process of keeping the congressional correspondence Web 
page updated involves several components and offices in DOJ. The 
recipient of a congressional correspondence regarding earmarks--
typically one of the Department's grant components, i.e., OJP, the 
Office of Community Oriented Policing Services or the Office on 
Violence Against Women (OVW)--forwards any correspondence they believe 
is subject to Executive Order 13457 to the Justice Management 
Division's (JMD) budget staff. The budget staff works with JMD's Office 
of General Counsel and the Assistant Attorney General for 
Administration to determine whether the correspondence meets the 
criteria established in Executive Order 13457 and gain approval to post 
it. If it is determined that a piece of correspondence should be posted 
pursuant to Executive Order 13457, budget staff removes all personally 
identifiable information, or PII, as appropriate and provides the 
redacted correspondence to the Office of the Chief Information 
Officer's e-Government staff to post to DOJ's Congressional 
Communications Web site. Last, JMD makes efforts to notify the 
recipient component and the Committees on Appropriations staffs at 
least 24 hours prior to the cleared correspondence going ``live'' on 
the Web site (http://www.justice.gov/jmd/ccre/).
    DOJ understands the subcommittee's desire for transparency and 
timely reporting, and we work very hard to make these types of 
communications public as soon as possible. Only three communications 
have been submitted after the May 11, 2010, correspondence was posted. 
We will continue to ensure that all stakeholders in this process are 
aware of the requirement to postcongressional communications regarding 
earmarks and that we are efficient in our processing and posting of 
such information.
    Question. Would DOJ support a new Executive order--similar to 
Executive Order 13457, with the goal of seeking transparency--that 
would require Federal agencies to post on their Web sites a list of any 
meetings with registered lobbyists, a synopsis of what was solicited by 
those lobbyists, and the Department's response to those lobbyists?
    Answer. DOJ appreciates the subcommittee's interest in increased 
transparency and accountability, and we always strive to uphold the 
tenets espoused in recent efforts to increase transparency and 
accountability. We defer to the administration, however, on 
predecisional matters regarding possible new Executive orders.
                        curbing lavish spending
    Question. The previous administration exercised lavish spending at 
DOJ. There was one instance when the Department spent $1.4 million to 
host a single conference, and another report of spending $4 on Swedish 
meatballs. In the wake of such extravagant spending, I required the 
Justice Department to create uniform, internal guidelines on conference 
spending to avoid irresponsible spending.
    What steps has DOJ already taken and continues taking to ensure 
that it is following requirements to avoid lavish spending and cost 
overruns so that the American people's tax dollars are not being 
squandered?
    Answer. The Justice Management Division issued policy guidance in 
April 2008 on Conference Planning, Conference Cost Reporting, and 
Approvals to Use Non-Federal Facilities. This guidance outlines a 
uniform policy for all components within DOJ to follow, and sets limits 
on the amount that may be spent on meals and refreshments. It also 
provides guidance for selecting appropriate venues, appropriately 
handling non-Federal attendees, and reporting costs in a timely manner.
    Since that guidance was written, the Assistant Attorney General for 
Administration issued a memorandum to DOJ's component heads in June 
2008, and the Deputy Attorney General issued a similar memo in May 
2009, highlighting the importance of fiscal responsibility with respect 
to conferences sponsored by the Department. In January 2011, the 
Attorney General issued a memorandum to DOJ's Component Heads that re-
emphasized the need for fiscal responsibility particularly with respect 
to conferences and training. The following summarizes the relevant 
parts of these memoranda:
  --Conference locations are to be selected based on business need and 
        minimization of travel and other costs.
  --Lavish or resort-type locations and accommodations should be 
        avoided. Component heads are required to approve in writing if 
        the facility gives the appearance of being lavish or is a 
        resort location, and this Component Head approval cannot be 
        delegated.
  --Components must restrict the number of people traveling to 
        conferences to the minimum necessary to accomplish the official 
        purpose.
  --Components must ensure the selected lodging location is within per 
        diem rates.
  --Meals should be provided on an infrequent basis and only as a 
        working meal when necessary to accomplish the purpose of the 
        event. Refreshments should be kept to an absolute minimum. 
        Grantmaking organizations should instruct grant recipients that 
        DOJ grant funding is not be used for lavish food, refreshments, 
        or entertainment purposes.
  --Components must ensure that travelers are aware of their 
        responsibility to reduce per diem when meals are provided at 
        the conference.
  --Components must ensure that reporting of costs for all non-Federal 
        facility events and conferences are submitted by Component 
        Heads no later than 45 days following the close of each fiscal 
        quarter.
    In addition, my office submits to the inspector general a report of 
conferences held by DOJ. The report is submitted on a quarterly basis. 
OIG is concluding an audit of DOJ's fiscal year 2008 and 2009 
conference reports. DOJ will address any areas of weakness identified 
by this internal review.
    By establishing a uniform policy across DOJ, regularly reminding 
senior management and staff of the importance of fiscal prudence, and 
reviewing past performance, the Department is able to assure the 
American people that their money is being well spent.
    Question. American families are tightening their belts in this 
tough economy. What are other ways that DOJ can tighten its belt and 
clean up waste, fraud, and abuse?
    Answer. Within DOJ, we regularly examine opportunities for savings 
and efficiencies as part of our day-to-day operations. In addition, DOJ 
instituted a formal review of savings and efficiencies in fiscal year 
2010. On July 22, 2010, the Attorney General established a Department 
Advisory Council for Savings and Efficiencies (SAVE Council). The SAVE 
Council develops and reviews Department-wide savings and efficiency 
initiatives and monitors component progress to ensure positive results 
for cost savings, cost avoidance, and efficiencies. In addition, the 
SAVE Council has provided a framework to identify and implement best 
practices for saving taxpayer dollars, realizing efficiencies, and 
monitoring our savings progress. The SAVE Council institutionalizes 
DOJ's pilot savings efforts that began in June 2009. Through fiscal 
year 2010 the SAVE Council has directed more than $39 million in 
savings throughout DOJ in areas ranging from double-sided printing to 
consolidated procurements which have leveraged the Department's buying 
power.
    The fiscal year 2012 budget funds DOJ's critical missions in a 
fiscally responsible manner. Resources requests for the Department's 
highest-priority programs have been offset by administrative and 
programmatic savings. In total, $1.9 billion in program and management 
offsets and rescissions were identified so as to lower our bottom line 
without impacting mission or capability.
    These offsets include administrative efficiencies and savings, task 
force and space consolidations, a reduction of DOJ's physical 
footprint, component-specific program savings, IT project management 
efficiencies, relocation efficiencies, reductions to less effective 
grant programs, elimination of earmarks, and rescissions of prior year 
balances.
    Beyond DOJ internal operations, the Attorney General chairs the 
Financial Fraud Enforcement Task Force, an interagency task force 
established by Executive order of the President to combat financial 
crime and fraud. It is the broadest coalition ever brought to bear in 
confronting fraud. The mission of the Task Force is to improve efforts 
across the Government and with State and local partners to investigate 
and prosecute financial fraud, recover proceeds for victims, and 
address discrimination in the lending and financial markets.
    DOJ will use all of the enforcement tools at our disposal to combat 
financial crime and fraud in all its forms, including mortgage fraud, 
securities and investment fraud, and procurement fraud, and to stop 
fraudsters who would attempt to take advantage of our efforts at 
economic recovery.
    The Congress' financial support of our criminal and civil 
enforcement is critical to protecting the American taxpayer's hard 
earned money. Moreover, the amount of taxpayer money restored to the 
United States Treasury through our criminal and civil enforcement 
efforts far exceeds what we spend to recover that money.
                   prisons--thompson prison facility
    Question. The 2012 budget request has $67 million for the Federal 
Prison System to get up and running the Thomson Correctional Center in 
Illinois, which assumes that the Congress will be able to provide $170 
million this year to buy the facility. Under the continuing resolution, 
buying Thomson is in jeopardy due to the rapidly dwindling availability 
of funds.
    I support our Federal investigators and prosecutors who are so very 
successful. But this means Federal prison inmate population grows 
exponentially. In fact, growth in that population has far outpaced 
growth in prison capacity and reached grave proportions.
    What are DOJ's plans for the immediate future--to relieve dangerous 
overcrowding now--not only this year but beyond?
    Answer. At the same time, DOJ has proposed sentencing reforms that 
will slow the rate of Federal inmate prison population growth in the 
long-term. The legislative proposals continue to provide inmates with 
incentives for good behavior as well as to participate in programming 
proven to reduce the likelihood of recidivism. The proposed sentencing 
reforms include an increase in the amount of credit an inmate can earn 
for good behavior and a new sentence reduction credit, which inmates 
can earn for participation in education and vocational programming.
    Question. How would purchasing the Thomson facility--or any other 
prison facility--address BOP crowding?
    Answer. In general, increasing capacity--either by acquiring and 
renovating existing structures, expanding existing facilities where 
infrastructure permits, or constructing new prison facilities--reduces 
crowding. In particular, the Thomson acquisition will allow BOP to add 
high-security administrative bed space expeditiously and at a lower 
cost than construction of a new administrative/high-security facility.
    Acquisition and full activation of the Thomson facility by fiscal 
year 2012 would reduce inmate crowding in BOP high-security 
institutions from the current 51 percent to 38 percent over rated 
capacity. Without the acquisition, crowding in BOP high-security 
institutions would increase to 63 percent over rated capacity. The 
Thomson facility is unique and suitable for the BOP's needs since it 
was built specifically to house maximum security inmates. The number of 
Administrative Maximum (ADX) beds available in BOP facilities has not 
increased since ADX Florence was activated in 1994, when the total 
inmate population was 95,000. Thus, in addition to housing general 
population high-security inmates, USP Thomson would also be used by the 
BOP to house a number of inmates with ADX custody, other inmates who 
have proven to be difficult to manage and inmates who are designated 
for Special Management Units (SMUs). Conditions of confinement for SMU 
inmates are more restrictive than for general population inmates. The 
Thomson facility would provide the physical structure and security to 
appropriately house inmates who are designated for SMU placement. The 
Thomson facility has 1,600 cells, of which the BOP anticipates using 
400 for ADX type inmates (400 single-bunked beds). The remaining cells 
would yield 1,500 beds at high-security rated capacity. However, the 
actual number of SMU inmates housed there would probably be much higher 
given the current and projected crowding levels.
    Question. The fiscal year 2011 budget request had $170 million to 
purchase Thomson, but now I'm told the facility could cost upwards of 
$220 million, simply to buy. What is the actual cost to buy the Thomson 
facility and on what is this cost based? What factors have contributed 
to the cost difference between what DOJ estimated in the fiscal year 
2010 budget request to purchase the Thomson facility and what 
subsequent appraisals done by both the State of Illinois and the 
Federal Government now estimate the cost to be? Will the increase in 
cost to buy the facility increase the amount needed to make the 
necessary renovations and outfitting for it to meet Federal 
requirements for an ADX USP?
    Answer. The cost to buy the Thomson Correctional Center has been 
negotiated by DOJ and State of Illinois representatives; $165 million 
has been agreed upon. The negotiated cost is based on current 
professional appraisals ordered by the U.S. Government.
    The main factor contributing to the cost difference is that the 
fiscal year 2011 budget request was an estimate based on previous 
construction cost rather than current professional appraisals of the 
actual value of the Thomson facility, which were not available at the 
time the budget was developed.
    No, the cost identified in the fiscal year 2011 budget included the 
estimated cost to purchase Thomson, an estimate of the amount necessary 
to renovate it and also an estimate to begin activation of the 
facility. An increase in the purchase price will not cause the cost of 
renovations or the activation to increase or decrease. However, the 
length of time that Thomson remains inactive may impact renovation 
costs. We note that BOP has a critical need for penitentiary prison 
capacity and this is an extremely cost advantageous means of acquiring 
that critical bedspace.
                         prisons--overcrowding
    Question. I understand that DOJ would house at the Thomson 
facility--once purchased, renovated, and outfitted as an ADX USP--high-
security inmates, some Supermax inmates, and inmates designated for 
Special Management Units (SMU). I am also concerned about the current 
crowding rate at high-security institutions. By the end of 2012, DOJ 
expects 227,000 inmates incarcerated in BOP institutions nationwide.
    What is the current crowding rate in Federal prisons?
    Answer. As of April 21, 2011, BOP institutions are operating at 37 
percent over rated capacity system-wide and at the following rates by 
security level:
  --High security, 51 percent over rated capacity;
  --Medium security, 42 percent over rated capacity;
  --Low security, 39 percent over rated capacity; and
  --Secure female, 47 percent over rated capacity.
    Question. What does it mean for staff and inmate safety?
    Answer. BOP faces continued challenges as the inmate population 
continues to grow. BOP facilities are operating at 37 percent above 
rated capacity system-wide. More than 174,000 Federal inmates (81.5 
percent of the total inmate population) are imprisoned in BOP-operated 
facilities intended to house about 127,000 inmates. The remainder, more 
than 39,500 inmates (18.5 percent), are in contract care, including 
privately operated secure facilities, facilities managed by State and 
local governments, residential re-entry centers, or home confinement.
    A 2006 BOP study found that an increase in prison crowding (the 
percentage of inmates above rated capacity) could lead to increases in 
serious assaults. The study concluded that an increase of one inmate in 
a Federal prison's inmate-to-custody staff ratio increases the prison's 
annual serious assault rate, by 4.5 per 5,000 inmates. The fiscal year 
2012 President's budget supports both system capacity expansion and 
staffing increases, which are important tools in addressing crowding 
and providing safer environments for both staff and inmates.
    Further, it is critical to acquire high-security bed space, such as 
that potentially provided by Thomson, to alleviate crowding at the 
upper security levels (42 percent and 51 percent over rated capacity at 
medium- and high-security facilities, respectively). The combined 
inmate population confined in medium- and high-security facilities 
represents nearly 40 percent of the entire inmate population. At the 
higher-security levels, more than 70 percent of the inmates are drug 
offenders, weapons offenders, or robbers, another 10 percent have been 
convicted of murder, aggravated assault, or kidnapping, and one-half of 
the inmates in this population have sentences in excess of 12 years. 
Furthermore, nearly 70 percent of high-security inmates have been 
sanctioned for violating prison rules, and more than 90 percent have a 
history of violence. One out of every six inmates at high-security 
institutions are gang affiliated. There are much higher incidences of 
serious assaults by inmates on staff at medium- and high-security 
institutions than at the lower-security level facilities.
    Question. Can you help the subcommittee understand the impact that 
would be made on this problem by having the additional bed space at 
Thomson or other prisons you have ready for activation or may want to 
purchase?
    Answer. Currently, more than 174,000 Federal inmates are in 
facilities operated by BOP, and these facilities have a rated capacity 
of only about 127,000 beds. Acquiring an existing higher-security 
institution would be the quickest and most economical means to add bed 
space. The Thomson facility would add 1,600 cells for SMU and ADX 
inmates, thereby freeing up high-security bed space that is now being 
used at existing institutions for these type inmates. Acquisition and 
full activation of the Thomson facility by fiscal year 2012 is expected 
to reduce inmate crowding in BOP high-security institutions from the 
current 51 percent to 38 percent over rated capacity.
    There are no other high-security facilities under construction. 
However, BOP has three prisons (Federal Correctional Institution [FCI] 
Mendota, California; FCI Berlin, New Hampshire; and Secure Female FCI 
Aliceville, Alabama) for which construction has already been completed 
or will be completed in fiscal year 2012. Construction is complete at 
FCI Mendota and FCI Berlin, and construction at the Secure Female FCI 
Aliceville is scheduled for completion in November 2011. FCI Mendota 
and FCI Berlin facilities will each add 1,152 male medium-security and 
128 minimum-security work camp beds to capacity. These facilities 
currently remain unopened because funds are needed to begin or continue 
the activation process. When operational funding is received, the 
Secure Female FCI Aliceville will add 1,792 beds for female inmates. 
Together, these three newly constructed prisons total more than 4,350 
additional prison beds which could be utilized to ease high levels of 
inmate overcrowding in BOP institutions if activation funding is 
provided as requested in the fiscal year 2012 President's budget.
    Question. Why does DOJ's budget request include no additional 
funding for new prison construction projects or to purchase existing 
prison facilities in fiscal year 2012? Does DOJ anticipate including 
such funding in its requests for fiscal year 2013 and beyond? What 
level of prisons do you anticipate will be shovel ready come 2012 and 
beyond, how long will it take to build and get those facilities online, 
and how will those facilities alleviate prison overcrowding?
    Answer. While the fiscal year 2012 President's budget does not 
include new construction funds for BOP, nearly $185 million is 
requested to continue or begin five new prison activations. In total, 
these prisons will add more than 7,500 prison beds to the Federal 
Prison System from fiscal year 2010 through fiscal year 2012. Further, 
the administration proposed legislative changes to increase the amount 
of sentence-reducing credits that inmates can earn for good behavior. 
This is the right thing to do. It will also help address prison 
population growth and potentially alleviate crowding in the long term.
    For fiscal year 2013 and beyond, DOJ will continue to review, 
analyze and make recommendations on BOP's budget requirements.
    BOP has seven partially funded projects in the site and planning 
phase that require additional funding to move forward to award a 
construction contract. Two of the proposed projects are to construct 
medium security FCIs and five are to construct high-security USPs. 
Exhibit O, Status of Construction, in the fiscal year 2012 President's 
budget request for buildings and facilities gives additional 
information on these projects.
    By the end of fiscal year 2018, when all of these planned 
institutions could be fully activated, pending future funding 
availability, inmate crowding is projected to be 55 percent at medium-
security and 14 percent at high-security levels (this estimate includes 
the proposed capacity for Thomson). However, without Thomson and the 
five USPs above, the BOP estimates high-security crowding would 
increase to 61 percent over rated capacity.
                         prisons--understaffing
    Question. Understaffing of prisons puts prison guards and inmates 
at great risk. The number of correctional guards who work in Federal 
prisons, however, is failing to keep pace with this tremendous growth 
in the prison inmate population.
    The Federal Prison System is currently staffed at an 89 percent 
level, as opposed to 95 percent staff levels in the mid-1990s. BOP says 
the minimum staffing level for maintaining safety and security should 
not be less than 90 percent. The current BOP inmate-to-staff ratio is 
4.8 inmates to 1 staff member, versus the 1997 inmate-to-staff ratio of 
3.6 to 1.
    The President's 2012 request for BOP provides funding to hire an 
additional 1,800 correctional staff, including 823 correctional 
officers, in BOP facilities. Will this address the shortfall in 
staffing?
    Answer. The fiscal year 2012 President's request supports a 
critical need to increase 1,200 staff at existing Federal prisons and 
requests additional positions for the activation of three new prisons. 
If the fiscal year 2012 President's request is enacted, BOP estimates 
it would provide staffing at 90 percent of the authorized level.
    Question. If the Congress fully funds the President's request so 
that BOP may hire new correctional staff, would this conflict with the 
Attorney General's DOJ-wide hiring freeze? Or would the Attorney 
General have to implement an exception for BOP to hire new correctional 
staff?
    Answer. DOJ has not yet determined if the fiscal year 2011 hiring 
freeze will be extended to fiscal year 2012. However, if the fiscal 
year 2012 President's request were fully funded for BOP and a DOJ-wide 
hiring freeze was in place, then BOP would seek an exception from the 
Attorney General to hire new correctional staff.
    Question. There have been numerous assaults on prison guards, 
including an incident at a BOP facility when an inmate stabbed an 
officer seven times. What steps are you taking to protect officers in 
BOP facilities?
    Answer. BOP employs many management techniques to prevent and 
suppress inmate violence. BOP has enhanced its population management 
strategies in a variety of areas, including an improved inmate 
classification/designation system, more targeted training of staff, 
intelligence gathering, gang management, controlled movements, pre-
emptive lockdowns, and proactive interventions to prevent violence and 
other serious misconduct.
    Beginning in fiscal year 2008, BOP began operating SMUs, targeting 
inmates who have proven to be violent or confrontational, resistant to 
authority, and disrespectful of institution rules. Designation to a SMU 
is considered when an inmate's behavior poses a threat to the safe and 
secure operation of BOP facilities.
    Improvements have also been made in the architectural design of new 
facilities, and a variety of security technologies (e.g., enhanced 
video cameras, improved body alarms, stab-resistant vests, more 
sophisticated perimeter detection systems, etc.) are now available. All 
of these changes and new technologies have helped staff to monitor and 
supervise the growing number of inmates. Further, recent President's 
budgets, including the fiscal year 2011 and fiscal year 2012 requests, 
have supported staffing increases at existing institutions. Increasing 
staff in Federal prisons improves the inmate-to-staff ratio, which 
results in better supervision and enhanced prison security.
                   state and local grants management
    Question. DOJ awards billions of dollars in State and local law 
enforcement grants each year. This year, we expect it to administer up 
to $3 billion in grants alone. We must make sure OJP, the COPS office, 
and OVW have tools to get grants out the door and monitor how those 
funds are spent.
    Now that the Congress has a moratorium on earmarks and States and 
communities are facing budget cuts, do you expect dramatic increases in 
grant applications for State and local programs?
    Answer. DOJ has already experienced a significant increase in 
inquiries, visits, and other requests for information from 
organizations that have traditionally received earmarks. It is expected 
that this increased interest will be reflected in the number of grant 
applications received.
    Question. What is DOJ doing to improve accountability of taxpayer 
dollars when processing and awarding grants?
    Answer. Proper grants management is one of DOJ's highest 
priorities, and we are fully committed to ensuring that the grants 
process is transparent, fair, and managed in a manner that avoids 
waste, fraud, and abuse.
    Accounting for taxpayer dollars and overall grants management have 
been greatly enhanced through the establishment of DOJ-wide Grants 
Management Challenges Workgroup. This workgroup, created in February 
2010, is an interagency initiative established by the Office of the 
Associate Attorney General. Led by the Deputy Associate Attorney 
General and consisting of representatives from COPS, OJP, and OVW, the 
workgroup meets every 2 weeks to share information and develop 
consistent practices and procedures in a wide variety of grant 
administration and management areas, including application review and 
award procedures, monitoring guidelines, high-risk grantee criteria, 
and the expeditious handling of OIG grantee audits. Additionally, the 
three components are sharing monitoring plans that will better position 
each component to target those grantees who pose the greatest 
compliance risk. In recent testimony, the OIG praised the efforts of 
this workgroup in improving numerous areas of grant management, and 
thus improving the accountability of taxpayer dollars.
    During the last 2 years, OJP, OVW, and COPS have also:
  --Developed and provided DOJ-wide training, including ongoing 
        training, to all American Recovery and Reinvestment Act 
        recipients. Issued our tribal grants under a single Coordinated 
        Tribal Assistance Solicitation in 2010 and 2011, and 
        coordinated the application review and award process. Developed 
        joint training and technical assistance programs for tribal 
        grantees. Developed and implemented procedures for managing a 
        DOJ-wide high-risk grantee designation program to ensure that 
        all high-risk grantees are treated consistently across DOJ. 
        Developed a DOJ-coordinated monitoring plan to allow for 
        maximum joint on-site monitoring visits by DOJ grant program 
        offices and OJP's Office of the Chief Financial Officer.
    We also continue to seek ways to collaboratively develop tools for 
effective grants management. For example, we are currently developing a 
DOJ-wide, online financial training tool for DOJ grantees. We also 
have, in draft form, a guide for grantees that outlines OJP's 
expectations for how grantees are to report on their accomplishments 
that are funded by Federal dollars.
    Question. Will you need additional resources to administer grants 
and ensure no waste, fraud, or abuse in your grantmaking?
    Answer. Yes. DOJ requires additional resources to fulfill its 
commitment to perform quality and complete grant monitoring across its 
grant programs to detect and prevent waste, fraud, or abuse.
    For OVW, the fiscal year 2012 President's budget request includes 
an additional $7 million and 32 positions. The funding requested is 
needed to properly administer OVW's grants workload and to transfer 
certain costs previously distributed to grant programs to management 
and administration.
    For COPS, the fiscal year 2012 President's budget request includes 
an additional $2.9 million and 22 positions. The funding requested will 
allow the COPS office to have the staff and the systems in place to 
handle additional hiring grant awards and to continue to efficiently 
monitor, maintain, and close grants awarded in previous fiscal years.
    For OJP, the fiscal year 2012 President's budget request includes 
$39.8 million and 28 additional positions to meet responsibilities for 
OJP's programs. Some of the newly requested staff will support the 
implementation of the Adam Walsh Act, while others are essential to 
fulfill OJP's stewardship obligations. Just more than $8 million of 
OJP's S&E request would go to strengthen OJP's Grants Management System 
(GMS). GMS--through which practitioners file grants with OJP--is the 
backbone of the OJP's grants delivery system; but it is aging, and 
needless hours are spent compensating for the inefficiencies of this 
system.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                 extraditions from mexico (drug caucus)
    Question. As Chairman of the Senate Caucus on International 
Narcotics Control, I am convinced that there is no greater threat to 
Mexican drug traffickers than extradition to the United States.
    Ninety-four drug trafficking organization leaders were extradited 
from Mexico to the United States in 2010 and 107 were extradited in 
2009. This is up from a mere 12 in 2000. Defendants who have been 
extradited to the United States often receive significant sentences.
    Over the past year, the Mexican Government has been particularly 
successful in arresting high-profile drug traffickers. Fourteen top 
kingpins were arrested or killed in 2010 and a total of 28,216 Mexican 
nationals and 342 foreigners were arrested in the country on drug-
related charges.
    As the Mexican Government increases its enforcement efforts, what 
is the Department of Justice (DOJ) doing to ensure that extraditions 
continue to expeditiously take place?
    Answer. DOJ shares your assessment that extradition is an important 
and powerful means of bringing drug traffickers and other criminals to 
justice, particularly as Mexico undergoes the reform of its own 
criminal justice system. To ensure that extraditions continue to take 
place expeditiously, this point is reiterated at every meeting with our 
counterparts at every level of the Mexican Government. Extradition is a 
vital piece of our comprehensive strategy to dismantle drug trafficking 
organizations.
    The Criminal Division's Office of International Affairs (OIA) and 
its Attache's Office in Mexico City have primary responsibility for 
submitting requests for extradition to Mexico and tracking the progress 
of extraditions of fugitives that are wanted for prosecution at both 
the State and Federal levels. With funding from the 2010 Border 
Security appropriations bill, DOJ increased OIA's Mexico/Central 
American team to 16 trial attorneys and eight paralegals and added 
another attache to the United States Embassy in Mexico--the only post 
to which two OIA attorneys are assigned--to support our increasing law 
enforcement cooperation with Mexico.
    Moreover, Mexican officials, working closely with the U.S. Marshals 
Service (USMS) and the Federal Bureau of Investigation (FBI), have used 
their authority under their immigration laws to remove hundreds of U.S. 
citizen fugitives who can be repatriated more expeditiously through 
deportation, as opposed to extradition.
    In addition, USMS, Drug Enforcement Administration (DEA), and FBI 
have increased their efforts to assist Mexico in locating fugitives 
wanted in Mexico. In 2003, USMS established an office in Mexico City, 
which has been expanded from 2 to 5 inspectors; and added 10 additional 
positions at our Embassy and consulates, which are being staffed now. 
Moreover, the work of our permanent USMS staff assigned to Mexico is 
frequently supplemented by temporary duty officers and the 50-person 
USMS Mexico Investigative Liaison program, which focuses on fugitives 
cases with Mexico and along our Southwest Border.
    In light of our increased successes and the increased volume of our 
work, the U.S.-Mexico Fugitive Working Group meets twice yearly to 
review pending cases, address systemic problems, and work toward 
improved procedures and practices. This working group is comprised of 
representatives from OIA, USMS, FBI, the Department of State, and their 
Mexican counterparts.
    The results of this increasing cooperation have been significant. 
As you note, Mexico extradited 94 fugitives in 2010 (of these 94, 42 
were wanted for drug trafficking offenses, while the remaining 
fugitives were wanted mostly for violent or sexual assault offenses, 
such as murder, rape, and physical or sexual child abuse), compared to 
only 12 in 2000. As of April 2011, the number of extraditions from 
Mexico for 2011 is on track to meet or exceed that number.
    Question. Are extraditions keeping up with the pace of high-profile 
arrests in Mexico?
    Answer. Extraditions from Mexico to the United States have improved 
significantly over the last few years. In the past 2 years, Mexico has 
extradited 201 fugitives to the United States, making Mexico one of the 
United States' most active extradition partners. Among those extradited 
are several high-value fugitives, including some associated with 
notorious Mexican drug trafficking organizations, such as the gulf, 
Arellano Felix, and Sinaloa cartels. Some of the most notable since the 
beginning of 2009 include:
  --February 2009 extradition of Miguel Angel Caro-Quintero, who led 
        the family drug organization after the arrest of his brother 
        Rafael Caro-Quintero (who was complicit in the kidnapping, 
        torture, and murder of DEA Special Agent Enrique Camarena);
  --January 2010 extradition of Jesus Navarro Montes, charged with the 
        2008 murder of Customs and Border Protection Agent Luis 
        Aguillar and with drug conspiracy;
  --February 2010 extradition of Sinaloa cartel leader and DEA fugitive 
        Vicente Zambada-Niebla (son of Ismael Zambada-Garcia);
  --March 2010 extradition of Oscar Arriola Marquez, a designated 
        Foreign Narcotics Kingpin;
  --April 2010 extradition of Juan Jose Quintero Payan, former head of 
        the Juarez cartel, who had been in Mexican custody since 1999;
  --May 2010 extradition of Mario Villanueva Madrid, former Governor of 
        Quintana Roo and alleged abettor of the Juarez cartel, on drug, 
        money laundering, and bribery charges;
  --June 2010 extradition of Pedro Bermudez Suaza, a.k.a. ``El 
        Arquitecto'', who orchestrated the smuggling of cocaine from 
        Medellin, Colombia, to Mexico;
  --January 2011 extradition of Sinaloa Cartel leader and DEA fugitive 
        and Consolidated Priority Organization Target (CPOT) Oscar Nava 
        Valencia, a.k.a. ``El Lobo''; and
  --March 2011 extradition of CPOT Esteban Rodriguez Olivera.
    Extradition of high-profile fugitives, however, depends 
significantly on the ability of Mexican authorities to first locate and 
arrest them. (In the extradition context, those initial arrests are 
referred to as ``provisional arrests'' pending extradition.) The 
location and arrest of high-profile fugitives can be very challenging 
and dangerous. USMS, FBI, and other U.S. law enforcement agencies 
provide critical intelligence and technical support to their Mexican 
counterparts in these efforts by developing and sharing information on 
fugitives' whereabouts.
    However, once fugitives are arrested, we find that the extradition 
process in Mexico can be lengthy, litigious, and often formalistic. In 
some cases, it can take several years before a fugitive exhausts all of 
his or her appellate rights and is extradited to the United States. In 
other cases, extradition principles akin to our double jeopardy 
restrictions can limit or complicate Mexico's ability to extradite 
major figures who are also charged in Mexico. Thus, we expect that 
continuing to pursue the extradition of significant cartel targets from 
Mexico will be a resource-intensive endeavor for our staff in OIA and 
the Federal prosecutors with whom they work. At the same time, DOJ will 
continue its work--at both leadership and staff levels--to work with 
our Mexican counterparts to expedite and streamline the extradition 
process when possible.
                                 ______
                                 
                Question Submitted by Senator Ben Nelson
                   cuts to state and local assistance
    Question. As I mentioned during the March 10, 2011 hearing, I 
believe we need to work together to exercise serious spending restraint 
in the current fiscal climate. We all know we have to cut back. In 
reviewing the Department of Justice's (DOJ) fiscal year 2012 budget 
request, State, local, and tribal assistance programs seem to take a 
particularly significant cut while other areas of your budget see 
increases. Specifically, these cuts impact programs such as Regional 
Information Sharing Systems, a multi-state, multi-jurisdictional 
program responsible for many law enforcement successes in Nebraska and 
across the country. As the fiscal year 2012 budget and appropriations 
process proceeds I hope to work with your Department to identify 
meaningful cuts while prioritizing those programs that are most 
relevant to DOJ's core missions.
    It appears there will be a serious discussion this year to cut 
total domestic discretionary funding back to fiscal year 2008 levels. 
Perhaps that will not happen in fiscal year 2012, but rather fiscal 
year 2013, as suggested by the President's fiscal commission. As you 
know, that would mean a nearly 15 percent cut to DOJ.
    My question is, if you had to get back to 2008 levels, where would 
you cut specifically? And what practical effect would those cuts have 
on DOJ and your mission?
    Answer. At the fiscal year 2008 funding level, DOJ would be cut to 
a level that would have serious consequences for the American public. 
For 2011, DOJ's discretionary budget is $26.9 billion. In 2008, the 
discretionary budget was $23 billion. DOJ would need to cut $3.9 
billion from the 2011 full-year continuing resolution level if funding 
is reduced to 2008 levels.
    This shortfall is further intensified when compared to DOJ's true 
operational requirements for 2012, which reflect compulsory cost 
increases associated with maintaining the prisons and detention systems 
and safeguarding resources to perform our national security 
responsibilities. DOJ would be forced to cover mandatory prison and 
detention costs at the expense of other critical law enforcement and 
prosecutorial priorities.
    Currently, there are approximately 63,000 detainees in Federal 
custody awaiting sentencing, which is 11 percent higher than the 2008 
population. Without the additional resources provided to the Office of 
the Federal Detention Trustee since 2008, DOJ would be unable to pay 
for mandatory detention costs and would be forced to turn away 
additional detainees remanded to Federal custody.
    Because DOJ's total budget is nearly 60 percent salaries and 
benefits, with the other portion largely consumed by ``mandatory'' 
prison and detention costs, as well as fixed costs such as rent and 
utilities, the Department will lose staff if funded at the 2008 levels. 
This would impact national security, and traditional law enforcement 
and litigating missions. DOJ's ability to respond to continuously 
evolving threats and emergencies--such as the Deepwater Horizon oil 
spill and the Tucson, Arizona shootings--would be severely threatened.
    Reductions to the national security workforce could leave our 
Nation vulnerable to attacks in a time when we are experiencing a spike 
in national security incidents. New intelligence analysts would be 
eliminated, hindering domain management, collection management, HUMINT 
collection, tactical intelligence, and intelligence production and 
dissemination capabilities.
    Funding reductions would also result in the elimination of hundreds 
of counterintelligence and counterterrorism agents.
    Simply put, fewer agents mean fewer investigations of national 
security threats, drug trafficking, cyber intrusions, child 
pornography, human trafficking, financial scams, and a host of other 
crimes under the jurisdiction of the Federal Government. Fewer 
attorneys mean fewer prosecutions for criminal offenses. Finally, DOJ 
would be forced to reduce grants to our State, local, and tribal law 
enforcement partners. For example, the COPS hiring program, which 
places more cops on the beat in local jurisdictions to tackle violent 
crime, would be reduced and fewer officers would be funded. This would 
impact the ability of many law enforcement agencies in Congressional 
Districts across the country to provide safe streets and communities.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                         problem-solving courts
    Question. Can you describe your commitment to ensuring that problem 
solving courts remain strong and effective?
    Answer. The Office of Justice Programs (OJP) has funded drug courts 
since 1995. The President's fiscal year 2012 budget proposes to 
consolidate the Mentally Ill Offender Act and Drug Court programs into 
a new Problem Solving Courts program that will provide greater 
flexibility in using these funds. The fiscal year 2012 budget request 
for the consolidated program equals the fiscal year 2010 enacted level 
for the two separate programs.
    OJP has made a total of 2,609 drug court awards to 1,853 different 
drug court programs. In the last 2 fiscal years, OJP has been able to 
fund more than 50 percent of all eligible applicants, which represents 
a very high funding rate. Of the drug court programs funded under OJP, 
95 percent are still operational today.
    In fiscal year 2010, OJP placed a priority on building the capacity 
of existing drug courts to increase participation rates. The statutory 
provisions of the JAG formula allow State, local, and tribal 
jurisdictions to support drug courts. The Problem Solving Courts 
program will allow State, local, and tribal grantees increased 
flexibility to fund evidence-based strategies that address unique local 
needs and expand collaboration among drug courts, mental health, and 
substance abuse providers. Programs funded under the new Problem 
Solving Courts initiative may serve as models to other courts 
nationwide.
    Question. Are the limited resources that are available for problem 
solving courts adequate for handling the huge case loads these courts 
have?
    Answer. The priorities of the Problem Solving Courts program are 
to:
  --support States, tribes, and localities by funding evidence-based 
        grants generated around best practices;
  --merge funding streams with funding from other Federal agencies to 
        maximize resources;
  --target problem solving court resources for offenders and practices, 
        which research has shown to most improve public safety and 
        reduce recidivism; and
  --explore how to bring problem solving principles to scale in general 
        jurisdiction courts.
    The recently completed Multi Adult Drug Court Evaluation overseen 
by the National Institute of Justice has provided insight regarding how 
offenders benefit from the program. In fiscal year 2011, resources are 
targeted to those drug courts that aim to serve offenders with both 
high criminogenic risks and substance abuse treatment needs.
    In fiscal year 2010, OJP began collaborating with the Department of 
Health and Human Services, Substance Abuse and Mental Health Services 
Administration, Center for Substance Abuse Treatment to administer the 
Enhancing Adult Drug Court Services, Coordination, and Treatment grant 
program. The purpose of this streamlined funding program is to enhance 
drug court capacity by inviting jurisdictions to submit one application 
to fund a comprehensive strategy to address both criminal justice and 
substance abuse treatment services. This interagency funding 
partnership maximizes Federal resources at the State, local, and tribal 
levels.
    The proposed Problem Solving Court program would provide even 
greater flexibility in meeting jurisdictional needs based on their own 
resource gaps and will assist OJP in exploring with jurisdictions 
innovative ways to bring problem solving principles to work in general 
jurisdiction courts. While this program, with limited funding, will not 
be able to fully meet the needs of the jurisdictions, it can help court 
systems determine how to address these challenges in a systematic 
fashion.
    Question. It's my understanding that in fiscal year 2010, the 
Methamphetamine Enforcement and Cleanup program received $40.3 million 
through the Community Oriented Policing Services (COPS) program. Of 
this $40.3 million, $10 million was transferred to the Drug Enforcement 
Administration (DEA) to administer these meth cleanup funds. The $10 
million has been spent and no funds are currently available through 
this program to assist with the cleanup of meth sites. The President's 
fiscal year 2012 budget request zeros out methamphetamine enforcement 
and cleanup.
    I am concerned that without this dedicated funding from the DEA 
that local law enforcement agencies will not be able to bear the cost 
of cleanup. This could result in openly contaminated meth labs not 
being cleaned up.
    Can you provide additional details about how this program has 
worked in the past and why the choice was made to cut funding that 
would support the cleanup of these meth sites?
    Answer. For a number of years, DEA received funding through the 
COPS program to administer various contracts across the country that 
provide specialists to remove the hazardous waste and chemicals found 
at illegal drug laboratories. The contractors that perform the actual 
cleanup services have been properly trained and licensed and are 
required to submit background security applications to determine their 
suitability to conduct this type of sensitive work.
    The entire Federal Government is being asked to tighten its belt 
and make tough decisions on programs that can be consolidated, reduced, 
or eliminated. The elimination of the funding for the COPS 
methamphetamine enforcement and cleanup program represents just one of 
the difficult decisions DOJ had to make in the formulation of the 2012 
budget.
    DEA will continue to clean up the labs it investigates with funding 
from the Assets Forfeiture Fund. In addition, State and local agencies 
have a few options for dealing with these labs. One option is for them 
to use Byrne Justice Assistance Grant funding from the Bureau of 
Justice Assistance for lab cleanup. Also, several States (Alabama, 
Kentucky, Illinois, Indiana, and Oklahoma) already have container 
programs set up that allow State and local law enforcement officers to 
expedite the removal of seized chemicals from clandestine laboratory 
sites to temporary secure containers pending removal by a contractor. 
These programs lower the cost of clean-up. DEA is willing to provide 
technical assistance to any other States that want to implement the 
container program.
    Question. Do you have concerns that a lack of funding for local law 
enforcement agencies could lead to an increase in the number of openly 
contaminated meth labs that are not cleaned up?
    Answer. DOJ understands it will be a challenge for the States to 
address this new responsibility, and we will provide all of the 
assistance we can. DEA has a clandestine lab training facility at its 
Academy in Quantico, Virginia. At this facility, DEA trains Federal, 
State, local, and foreign law enforcement officials on the latest 
techniques in clandestine laboratory detection, enforcement, and 
safety. In fiscal year 2010, the Clandestine Laboratory Training Unit 
conducted training for a total of 1,306 State and local law enforcement 
officers.
    In addition, State and local agencies have a few options for 
dealing with these labs. One option is for them to use Byrne Justice 
Assistance Grant funding from the Bureau of Justice Assistance for lab 
cleanup. Also, several States (Alabama, Kentucky, Illinois, Indiana, 
and Oklahoma) already have container programs set up that allow State 
and local law enforcement officers to expedite the removal of seized 
chemicals from clandestine laboratory sites to temporary secure 
containers pending removal by a contractor. These programs lower the 
cost of clean-up. DEA is willing to provide technical assistance to any 
other States that want to implement the container program.
    Question. How will DOJ work with local law enforcement agencies in 
the future to ensure that our citizens are properly protected from such 
dangers?
    Answer. DEA continues to work collaboratively with State and local 
law enforcement agencies to protect citizens from drug threats. 
Further, State and local agencies have a few options for dealing with 
clandestine lab cleanup. One option is for them to use Byrne Justice 
Assistance Grant funding from the Bureau of Justice Assistance. Also, 
several States (Alabama, Kentucky, Illinois, Indiana, and Oklahoma) 
already have container programs set up that allow State and local law 
enforcement officers to expedite the removal of seized chemicals from 
clandestine laboratory sites to temporary secure containers pending 
removal by a contractor. These programs lower the cost of clean-up. DEA 
is willing to provide technical assistance to any other State that 
wants to implement the container program.
    DEA also has a clandestine laboratory training facility at the DEA 
Academy in Quantico, Virginia. At this facility, DEA trains Federal, 
State, local, and foreign law enforcement officials on the latest 
techniques in clandestine laboratory detection, enforcement, and 
safety. In fiscal year 2010, the Clandestine Laboratory Training Unit 
conducted training for a total of 1,306 State and local law enforcement 
officers. DEA will continue some State and local clan lab training 
during fiscal year 2011 with funding available from COPS. In addition 
to the clandestine lab training facility at Quantico, DEA has two 
Tactical schools and one Site Safety School scheduled in 2011. Tactical 
training is designed for officers involved in clandestine laboratory 
raids but who have limited training and experience, and Site Safety 
School is designed to certify attendees as Clandestine Laboratory Site 
Safety Officers. Advanced assessment and investigative techniques are 
also taught at this school.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
       the president's announcement on guantanamo detainee trials
    Question. Attorney General Holder, in July 2009, the Guantanamo 
Task Force established a system for the evaluation and referral of 
detainees for prosecution. In November 2009, you announced that the 9/
11 hijackers were going to be tried in civilian courts, while the 
U.S.S. Cole suspect was going to be tried via military commission. 
Monday's announcement expressly referred to a military commission trial 
for the U.S.S. Cole bomber.
    What change does this really signal other than an end to the delay, 
if the person who was slated for military commission trial 18 months 
ago is merely going to be tried via military commission?
    Answer. The administration, working on a bipartisan basis with 
Members of Congress, successfully enacted key reforms to the military 
commission process in the Military Commissions Act of 2009. These 
reforms included a ban on the use of statements obtained as a result of 
cruel, inhuman or degrading treatment, and a better system for handling 
classified information, among others. As a result of these reforms, the 
Department believes the military commissions can deliver fair trials 
and just verdicts and will meet constitutional standards. That said, it 
is essential that the government have the ability to use both military 
commissions and Federal courts as tools to keep this country safe.
    Question. Second, does this mean the 9/11 conspirators, including 
Khalid Sheikh Mohammed, are going to be tried via military commission 
as the Bush administration was in the process of doing before the Obama 
administration reversed course and cancelled those proceedings in 
January 2009?
    Answer. Since these questions were presented, and after the passage 
of the fiscal year 2011 National Defense Authorization Act, a final 
decision was made to try several alleged 9/11 conspirators, including 
Khalid Sheikh Mohammed, by military commission.
    Question. Have any decisions been made regarding the 9/11 
conspirators trial venue--for example, has a final decision been made 
that they will not be tried in a U.S. civilian court in New York or 
elsewhere?
    Answer. Since these questions were presented, and after the passage 
of the fiscal year 2011 National Defense Authorization Act, a final 
decision was made to try several alleged 9/11 conspirators, including 
Khalid Sheikh Mohammed, by military commission.
    Question. You told the House Appropriations Committee last spring 
that the Khalid Sheikh Mohammed decision was coming soon. We are now at 
more than a year later. How long will the families of the victims of 9/
11 have to wait before you decide where to try these terrorists? This 
isn't a new question, and it wasn't a surprise when you took the job of 
Attorney General. It will be 10 years in September, so how long?
    Answer. Since these questions were presented, and after the passage 
of the fiscal year 2011 National Defense Authorization Act, a final 
decision was made to try several alleged 9/11 conspirators, including 
Khalid Sheikh Mohammed, by military commission.
                          fort hood shootings
    Question. The Senate Homeland Security and Government Affairs 
Committee issued a report on the events surrounding the shootings at 
Fort Hood that took place in November 2009. The report criticizes the 
Federal bureau of investigation (FBI), citing that FBI field offices 
failed to recognize warning signs that Nidal Malik Hasan was a threat. 
The report also concluded that FBI had sufficient information to detect 
that he was a ``ticking time bomb'' who had been radicalized to violent 
Islamist extremism, but failed to understand and act on it. FBI has 
been provided significant funding since 9/11 to bolster its 
intelligence program which includes the hiring and professionalizing 
its intelligence analyst workforce. According to the report, FBI failed 
to use its analysts in this situation.
    Next month FBI Director Mueller will appear before this 
subcommittee and I plan to take this matter up with him, but I'm 
interested in hearing from you too.
    What is your response to this report and what has DOJ, and FBI, 
done in response to the Fort Hood shootings?
    Answer. During the internal FBI review undertaken immediately after 
the attack at Fort Hood, FBI identified several of the areas of concern 
outlined in the report and, as noted in the report, has implemented 
changes to its systems and processes to address them. FBI will review 
each of the report's recommendations and adopt them, as appropriate.
    While concluding that FBI's transformation to an intelligence-
driven organization remains a work in progress, the report recognizes 
FBI's substantial progress and many successes, led by Joint Terrorism 
Task Forces (JTTFs), in disrupting terrorist plots by homegrown 
extremists.
    In addition, at the request of FBI Director Mueller, Judge William 
H. Webster is conducting an independent, outside review of FBI's 
actions with respect to Fort Hood. Judge Webster and his team are 
evaluating the corrective actions taken to determine whether they are 
sufficient and whether there are other policy or procedural steps FBI 
should consider to improve its ability to detect and prevent such 
threats in the future.
    DOJ supports FBI in its efforts to evaluate the Fort Hood shooting 
and to take the appropriate actions in response to the findings of the 
reviews that have been conducted in its wake.
    Question. What changes have you made to ensure this tragedy does 
not happen again?
    Answer. Immediately after the tragedy, FBI Director Robert Mueller 
ordered a preliminary review of FBI's actions, as well any relevant 
policies and procedures that may have guided FBI's actions before the 
shooting. In addition, the Director asked for recommendations as to 
what changes should be made as a result of that review.
    On December 8, 2009, Director Mueller asked Judge William H. 
Webster to conduct a more comprehensive, independent review of FBI 
policies, practices, and actions. That review is currently underway. 
The goal of these reviews is to look at both the actions of individuals 
involved and the systems in place at the time of the tragic events at 
Fort Hood, and to ensure that investigators have the tools they need to 
effectively carry out their responsibilities in today's evolving threat 
environment. The paramount concern in this process is to make sure that 
the systems and policies that are in place support public safety and 
national security.
    In addition, as a result of the internal review, FBI identified 
four areas for immediate adjustment and improvement.
Protocols With the Department of Defense (DOD)
    Although information-sharing has dramatically improved since 
September 2001, there is still room for improvement in certain areas, 
especially given the changing nature of the terrorist threat, and the 
need to constantly recalibrate approaches and responses. Working with 
DOD, FBI has formalized a process for centrally notifying DOD of FBI 
investigations involving military personnel. This should streamline 
information-sharing and coordination between FBI and all components of 
DOD, where appropriate, and as permitted by law. Improved processes for 
exchanging information will help ensure that FBI task force officers, 
agents, and analysts have all available information to further their 
investigations.
Additional Levels of Review
    FBI determined that intelligence collected in connection with 
certain threats--particularly those that affect multiple equities 
inside and outside the FBI--should have a supplemental layer of review 
at the headquarters level. This redundancy in the review process will 
limit the risk of human error by bringing a broader perspective to the 
review. In this way, FBI should have a better institutional 
understanding of such threats.
Technological Improvements
    During the course of the internal review, FBI identified 
information technology improvements that should be made to its systems. 
Those improvements, which are being engineered, should strengthen FBI 
agents' and analysts' ability to sift through information by 
automatically showing certain connections that are critical to 
uncovering threats.
Training for Members of JTTFs
    FBI increased training for members of JTTFs to better ensure JTTF 
members know how to maximize access to all available information and to 
best utilize existing tools to identify and link critical information. 
Specifically, JTTF Task Force Officer (TFO) training consists of three 
components:
  --Orientation and operations training;
  --Database training;
  --and Computer-based training.
    Training addressing legal restrictions that govern the retention 
and dissemination of information was also expanded and strengthened.
    The JTTF TFO Orientation and Operations Course (JTOOC) was 
established prior to Fort Hood and has continued to evolve as training 
is evaluated to ensure the best possible instruction is provided to 
TFOs. JTOOC is now a 5-day course designed to develop a basic 
familiarization with counterterrorism investigations for all TFOs 
assigned to JTTFs. JTOOC classes are designed around a notional 
counterterrorism case to facilitate discussion and participant 
interaction.
    In fiscal year 2010, in response to the initial Fort Hood findings, 
the FBI Counterterrorism Division (CTD) mandated that JTTF members 
receive hands-on training on key FBI databases and systems. Database 
training is now required for all JTTF members including special agents, 
TFOs, Intelligence Analysts and other personnel assigned to JTTFs who 
have access to systems and conduct investigative work.
    FBI provides computer-based training to its employees via the FBI 
Virtual Academy system. CTD has identified 12 specific Virtual Academy 
training modules as the baseline level of training for JTTF personnel. 
All personnel assigned to a JTTF or working counterterrorism matters 
are required to complete these baseline training modules.
                      ice agent shooting in mexico
    Question. General Holder, as stated earlier, on February 15, U.S. 
Immigration and Customs Enforcement (ICE) agent Jaime Zapata was 
murdered, and ICE agent Victor Avila was wounded in an attack in 
Northern Mexico. The Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) traced the murder weapon, where it was linked to a 
sale in Dallas and three men were arrested in connection with the sale 
of the weapon used in this incident.
    In response to the shootings, DOJ created a joint task force to 
investigate the shootings where FBI is the lead agency.
    What can you tell us about the investigative efforts of this task 
force since this tragic incident in Mexico?
    Answer. Upon notification of the attack against the ICE agents, FBI 
immediately organized a multi-agency task force located in Washington, 
DC, with a multi-United States Federal agency Command Post (CP) at the 
United States Embassy in Mexico. The task force and CP communicate 
daily regarding all facets of the investigation. Additionally, numerous 
FBI field offices have organized multi-agency efforts to assist in the 
investigation (Dallas, Houston, Las Vegas, Miami, Phoenix, and San 
Antonio to name a few). Through their Mexican liaison contacts, CP 
members have gathered significant information and evidence regarding 
the perpetrators and accomplices of the ICE attack. Two of the alleged 
perpetrators have been transported to the United States; those two and 
two others (a total of four) have been indicted on multiple charges. 
The United States Government has presented the Government of Mexico 
with the necessary documentation to transport two other alleged 
perpetrators, including the leader of 1 of the 2 teams that attacked 
Agents Zapata and Avila. As of now, 5 of the 8 individuals identified 
as perpetrators are in custody, either in Mexico or the United States.
    Mexican law enforcement officials are conducting a parallel 
investigation into this incident. The Mexican Government and its 
agencies have an ``open door'' for all United States requests for 
access to evidence, interviews, and support to our Embassy personnel in 
conducting this investigation. Members of the Embassy staff meet 
regularly with Mexican counterparts to ensure necessary information is 
shared.
    Question. Are Mexican law enforcement authorities cooperating and/
or assisting in this investigation?
    Answer. Mexican law enforcement officials are conducting a parallel 
investigation into this incident. The Mexican Government and its 
agencies have an ``open door'' for all United States requests for 
access to evidence, interviews, and support to our Embassy personnel in 
conducting this investigation. Members of the Embassy staff meet 
regularly with Mexican counterparts to ensure necessary information is 
shared.
    Question. Are discussions taking place to have the perpetrators 
extradited to the United States for prosecution of this crime?
    Answer. Yes, such discussions are taking place. The DOJ prosecution 
team, consisting of two prosecutors from the U.S. Attorney's Office in 
the District of Columbia and two prosecutors from DOJ's Criminal 
Division, has been working virtually around the clock both here in 
Washington and on the ground in Mexico since the tragic murder of Agent 
Zapada. United States prosecutors are in close contact with the Mexican 
office of the Attorney General (PGR) to discuss progress in the case, 
and DOJ officials at the highest levels have reached out to the Mexican 
Attorney General and other PGR officials to discuss the need to have 
the perpetrators extradited to the United States for prosecution. Our 
goal is to bring all of those involved in the murder of Agent Zapada to 
justice in the United States.
      atf's national integrated ballistics imaging network (nibin)
    Question. ATF's budget cuts NIBIN (N-eye-bin) by nearly 50 percent, 
crippling State and local law enforcement efforts investigating violent 
gun crimes. NIBIN has received unequivocal support across multiple 
venues and national and international law enforcement organizations. 
The President's own national Southwest Border Counterdrug and Violence 
Strategy calls for upgrading and modernizing ballistics imaging 
technology. General Holder, you and President Obama have publicly 
stated support for upgrading NIBIN and committed to data sharing along 
the Southwest Border with Mexico.
    Explain this proposed cut to a tool critical in solving violent gun 
crime and investigating violent crime along the Southwest Border and in 
Mexico?
    Answer. The NIBIN program has supported DOJ's nationwide efforts to 
investigate and prosecute gun-related crime. However, the entire 
Federal Government is being asked to tighten its belt and make tough 
decisions on programs that can be consolidated, reduced, or eliminated. 
The reduction of funding for ATF's NIBIN program represents just one of 
the difficult decisions DOJ had to make in the formulation of the 2012 
budget. ATF will work to minimize the impact to operations, both along 
the Southwest Border and throughout the United States, as ATF scales 
back the NIBIN program.
    Question. State and local law enforcement have devoted significant 
time and effort in building up the NIBIN database and the program is a 
force multiplier for more than 200 NIBIN partners. Under this budget, 
more than 120 NIBIN sites will be shut down.
    If 120 sites are shut down, how and where will these jurisdictions 
have access to the ballistics information they need to fight gun crime?
    Isn't that creating a huge void in the system?
    Answer. Where feasible, ATF will consider relocating equipment in a 
regional manner, so that State and local participants can still have 
access to NIBIN equipment and databases. If there is significant 
interest from State and local agencies to maintain the program, ATF may 
consider implementing a user fee or cost-sharing proposal to ensure 
widespread access is available. State and local agencies will also be 
able to submit evidence to an ATF laboratory for analysis and 
correlation, as capacity permits.
    Question. How will this affect the day-to-day operations of law 
enforcement officer investigating a gun crime?
    Answer. Minimizing the impact to day-to-day operations will be one 
of the foremost goals as ATF scales back the NIBIN program. Law 
enforcement officers without access to a NIBIN system can still submit 
ballistics evidence to ATF laboratories, as capacity permits. 
Additionally, through regionalization, the NIBIN program will 
concentrate its efforts in high crime and high gun trafficking areas. 
It is important to note that the ability of law enforcement officers to 
trace recovered firearms will not be affected by the cuts to the NIBIN 
program.
                          atf's nibin--houston
    Question. In 2009 in my home State of Texas, the Houston Police 
Department Crime Lab Division used this technology to link firearms 
evidence in 12 different investigations involving members of the La 
Tercera Crips (LTC) gang over a 10-month period. The use of NIBIN and 
its underlying technology resulted in the arrest of eight gang members. 
To supplement a portion of the cut to NIBIN, the request proposes a 
``user fee''. Details of the ``fee'' are not clear but it would clearly 
be a new cost to already cash-strapped State and local law enforcement 
agencies.
    How would this user fee work?
    Answer. The user fee or cost-sharing arrangement is still under 
development and is not currently available; however, DOJ is aware of 
the tight fiscal environment under which State and local partners are 
operating. Any user fee or cost sharing proposed will be developed 
based on factors that are fair and appropriate to the actual costs of 
operating the program and its use by partners. The proposal will also 
have to go through the traditional development process for regulations, 
including a public comment period.
    Question. Would State and local law enforcement be required to pay 
for access to the NIBIN database?
    Answer. If sufficient demand exists for the system and a fee or 
cost-sharing arrangement is implemented, then State and local law 
enforcement would be asked to pay for access. The cost sharing would be 
applied toward the maintenance and software upgrade costs that are 
needed for the technology currently in use.
    Question. What is the rationale behind shutting down more than one-
half of this program?
    Answer. The entire Federal Government is being asked to tighten its 
belt and make tough decisions on programs that can be consolidated, 
reduced, or eliminated. The reduction of funding for ATF's NIBIN 
program represents just one of the difficult decisions DOJ had to make 
in the formulation of the 2012 budget. ATF will work to minimize the 
impact to operations, both along the Southwest Border and throughout 
the United States, as ATF scales back the NIBIN program. ATF will 
reduce underutilized sites and reorganize the remaining sites to focus 
on higher-impact locations (such as the Southwest Border), allowing a 
smaller NIBIN program to invest in newer technology while reducing 
existing maintenance costs for many of the sites that have older, 
costlier technology.
    Question. The Washington Post reported on January 31 that the 
initial proposal from Office of Management and Budget (OMB) was to 
drastically cut the operations of ATF. I'm gratified to see that DOJ 
successfully argued to restore most of the cuts proposed by the White 
House, but I remain concerned about the cut to NIBIN. Reducing funding 
to this ballistics tracing program by $10 million, almost cutting it in 
half, seems like a dangerous cut that will leave State and local law 
enforcement agencies without an important tool to catch violent 
criminals. We hear from DOJ and DHS about how critical the need is to 
stop gun crimes in the United States and the flow of guns to Mexico and 
other areas.
    Will a new strategy for enforcing gun laws be proposed if this cut 
is enacted?
    Answer. While the NIBIN system provides a useful tool in combating 
violent crime and enforcing the Nations firearms laws, ATF uses a 
variety of intelligence led enforcement initiatives to enforce firearms 
laws. The intelligence for these enforcement efforts comes from a 
number of sources, most notably crime gun trace data accessible through 
ATF's eTrace system. The eTrace system is separate from the NIBIN 
system and the proposed cut will not hamper ATF's ability to focus its 
enforcement efforts through the use of crime gun trace data. 
Regionalizing the NIBIN systems will help to ensure that the high crime 
and high gun trafficking areas will still have systems available for 
them to enter their evidence and test exhibits. The capability will 
still be available, if not locally then through the ATF laboratories 
(as capacity permits).
    Question. Does the Mexican Government participate in NIBIN?
    Answer. ATF is currently working with the Government of Mexico to 
implement a NIBIN system. The Government of Mexico has NIBIN equipment 
in their country and is currently working with ATF to establish an MOU 
in order to share ballistic data internationally. ATF and the United 
States Government have been working with the Government of Mexico to 
come to agreement on the sharing of ballistic data between the two 
countries.
            law enforcement wireless communications (lewc) 2
    Question. The fiscal year 2012 request for the LEWC account is $103 
million, which keeps the older, legacy systems running. Last year, DOJ 
requested more than $200 million, which would buy roughly $100 million 
in new radios and network equipment. When we send agents from FBI, the 
Drug Enforcement Administration (DEA), ATF, and the U.S. Marshals 
Service (USMS) to catch violent criminals, we give them the tools they 
need to do their job, like a gun, vehicle, computer, and radio. Some 
agents believe the radio is the most important tool they have. There is 
a growing concern that Mexican drug cartels and sophisticated crime 
organizations have better communications equipment than the agents we 
send to track them down and bring them to justice.
    Would you comment on why the request simply sustains this account 
instead of improving it?
    Answer. For fiscal year 2012, DOJ's Integrated Wireless Network 
(IWN) will absorb a reduction of $105 million in the President's 
budget. The fiscal year 2012 President's budget assumed an fiscal year 
2011 level of more than $200 million; however, less than $100 million 
was enacted. This will require DOJ to re-evaluate our strategy going 
forward. During fiscal year 2011 and fiscal year 2012, the Department 
will focus most of its resources on advancing ongoing strategic 
deployments rather than on significant new deployments. This will allow 
sufficient time to further detail a re-plan of the program capitalizing 
on establishing baseline capabilities in an expedited manner that meet 
Federal security and radio spectrum usage mandates, using FBI's 
existing system as a platform for consolidation where possible. DOJ is 
currently working on re-evaluating best practices, including other 
cost-effective technology, to ensure a flexible deployment strategy 
that can take advantage of new technologies when they become available.
    Question. Do you believe that law enforcement radios are an issue 
of agent safety?
    Answer. Yes, law enforcement radios are an issue of agent safety. 
Within the DOJ's four law enforcement components--FBI, DEA, USMS, and 
ATF--tactical communications using radios are critical for coordination 
and performance of operations by teams involved in hostage rescue, 
high-risk arrests, investigations, surveillance, national events, 
incident response, and major disasters/incidents, to name just a few. 
More than 20,000 law enforcement officers operating in urban, rural, 
and suburban areas nationwide communicate with individuals within their 
respective groups, with other groups, and with on-scene and off-scene 
incident command and control.
    The land mobile radio infrastructure is a vital communications link 
used by DOJ law enforcement officers to conduct mission-critical work, 
and it provides device-to-device, one-to-many instantaneous ``off 
network'' communications.
    Question. What effect will this fiscal year 2012 request have on 
law enforcement?
    Answer. For fiscal year 2012, DOJ's IWN will absorb a reduction of 
$105 million in the President's budget. During fiscal year 2011 and 
fiscal year 2012, DOJ will focus most of its resources on advancing 
ongoing strategic deployments and upgrading legacy network capabilities 
rather than on significant new deployments. This will allow sufficient 
time to further detail a re-plan of the program capitalizing on 
establishing baseline capabilities in an expedited manner that meet 
Federal security and radio spectrum usage mandates, using FBI's 
existing system as a platform for consolidation where possible.
    Question. How will it affect operations along the Southwest Border?
    Answer. Fortunately, the Southwest Border is one of the geographic 
areas that are already underway and funded with prior year monies and, 
therefore, we do not expect the reduction to impact Southwest Border 
operations. Specifically, the infrastructure in some of the divisions 
along the Southwest Border is being upgraded to meet the narrow-banding 
and current security requirements, to refresh circuits/equipment where 
necessary, and to add capacity to the upgraded FBI system to allow the 
other components (DEA and ATF only as USMS is already using the FBI's 
system) to utilize the shared system and decommission their own 
individual systems, as appropriate. In addition, subscribers (radios) 
will be upgraded or replaced in order to ensure that they are capable 
of working on the upgraded infrastructure.
               effects of fiscal year 2010 levels on fbi
    Question. Although this hearing is about the fiscal year 2012 
budget request, this subcommittee is also currently negotiating the 
fiscal year 2011 budget. There has been much talk of not reducing DOD 
and Homeland Security budgets, but no mention of DOJ in these 
discussions. FBI, DEA, USMS, and ATF have protected us against more 
than any non-DOD agencies combined. This subcommittee is committed to 
protect national security. Specifically, we have heard that DEA could 
be on the verge of instituting furloughs and FBI will be facing 
deficits of more than $200 million if left to operate at fiscal year 
2010 funding levels.
    Is this true, and how will this affect this country's national 
security?
    Answer. We appreciate Senator Hutchison's recognition of the fact 
that DOJ's roles and responsibilities are varied and critical to the 
security and safety of our homeland and the American people. DOJ--
including FBI, DEA, USMS, and ATF--not only performs a key role in 
preventing terrorism and promoting the Nation's security, but also has 
a central role in combating violent crime in the Nation and maintaining 
safe communities for Americans. The fiscal year 2011 enacted 
appropriation funded FBI's current services requirements and there is 
not a $200 million shortfall. With the exception of FBI, all DOJ law 
enforcement components are funded at less than fiscal year 2010 levels, 
including DEA. While DEA does not plan to institute a furlough, it will 
need to find savings through attrition, nonpersonnel reductions, and 
administrative efficiencies. Overall, DOJ intends to sustain its core 
national security and law enforcement functions with the fiscal year 
2011 appropriation. However, even though the budget is essentially held 
flat for our law enforcement agencies, the cost of doing business-as-
usual is higher this year as a result of requirements to support 
increased health premiums, retirement contributions, rent and move 
expenses and second-year costs associated with new staff appropriated 
in last year's budget. Funding to support these ``mandatory'' expenses 
will have to come from management and administrative efficiencies and 
possibly scaled-back operations. DOJ will strive to ensure minimal 
disruption to core national security, law enforcement, and public 
safety initiatives.
    Question. Can agents be furloughed or is there a prioritization of 
personnel in all of the enforcement agencies?
    Answer. Agents can be furloughed. DOJ would take into account the 
safety of human life or protection of property when making decisions 
about furloughing staff. However, DOJ does not anticipate furloughing 
any staff in fiscal year 2011.
    Question. How does this affect the fiscal year 2012 budget that we 
see before us today?
    Answer. Because the fiscal year 2012 President's budget request was 
developed using the fiscal year 2011 current rate as the starting 
point, the fiscal year 2011 enacted budget has little impact on the 
fiscal year 2012 request. The fiscal year 2012 budget request includes 
mandatory increases and annualizations needed to maintain current 
investigative and litigating efforts.
                 cost of guantanamo bay detainee trials
    Question. On March 7, 2011, the President signed an Executive order 
allowing detainees held at Guantanamo Bay to again be tried via 
military commissions. In his statement, the President also referred 
that all aspects of the judicial system, including trial in Article III 
courts, would be used.
    While DOJ did not include funding for Guantanamo detainee trials in 
the fiscal year 2012 budget, the fiscal year 2011 President's budget 
included a planning estimate of $72.8 million for the Department's 
anticipated increases in security and prosecutorial costs associated 
with high-security threat trials.
    The requested resources would finance a variety of standard 
functions, including transportation and prisoner production, prisoner 
housing, security, litigation, and other costs associated with high-
threat trials. More than one-half of the request was anticipated for 
security and resources requirements related to USMS, including armored 
vehicles, communications and security equipment, personnel, training, 
funds for overtime and travel, and interpreters to communicate with the 
defendants.
    The security requirements associated with trying these suspects are 
higher than most other trials, which increase the cost. For example, 
for these trials, DOJ anticipates needing additional funding to harden 
cell blocks, courthouse facilities, and housing facilities, to increase 
its electronic surveillance capability, and to provide increased 
protection for judges and prosecutors.
    How many detainee trials do you anticipate holding in Article III 
courts? When will a decision be made?
    Answer. As long as the restrictions passed by the Congress in early 
2012 are in place, we will not be bringing any Guantanamo Bay detainees 
to the United States for trial in Federal court, so any detainees at 
Guantanamo who are to be prosecuted will be prosecuted in military 
commissions. Individuals tried by military commission must be afforded 
the full range of legal protections established by the Congress in the 
Military Commissions Act of 2009, including the right to counsel; the 
presumption of innocence; the right against self-incrimination; the 
right to present evidence, cross-examine the Government's witnesses, 
and compel the attendance of witnesses in their defense; the right to 
exculpatory evidence; the right to suppression of evidence that is not 
probative or that will result in unfair prejudice; protection against 
double jeopardy; the right to an appeal; and others.
    Question. What is the estimated cost for 1 year to hold criminal 
trials of detainees? How much of that is needed for security?
    Answer. The costs of conducting criminal trials are dependent on a 
range of factors (location, number of detainees, etc.). The 
Department's fiscal year 2011 budget request included a planning 
estimate of $72.8 million for the anticipated increases in security and 
prosecutorial costs associated with high-security threat trials. Of the 
amount requested, $22.8 million was related to security. The enacted 
fiscal year 2011 and fiscal year 2012 budgets do not include new 
resources for the Department to pursue or assist in trials associated 
with detainees currently held at Guantanamo Bay Naval Station. In 
addition, current law prohibits the Department of Defense (DOD) from 
using funds to transfer Guantanamo detainees to the United States and 
places unwise and unwarranted restrictions on the Department's ability 
to prosecute Guantanamo detainees in Article III courts.
    Question. What steps are you taking to ensure that communities will 
be safe if these detainees are transferred to the United States?
    Answer. As long as the restrictions passed by the Congress in early 
2012 are in place, we will not be bringing any Guantanamo Bay detainees 
to the United States for trial in Federal court; thus any detainees at 
Guantanamo who are to be prosecuted will be prosecuted in military 
commissions. Individuals tried by military commission must be afforded 
the full range of legal protections established by the Congress in the 
Military Commissions Act of 2009, including the right to counsel; the 
presumption of innocence; the right against self-incrimination; the 
right to present evidence, cross-examine the government's witnesses, 
and compel the attendance of witnesses in their defense; the right to 
exculpatory evidence; the right to suppression of evidence that is not 
probative or that will result in unfair prejudice; protection against 
double jeopardy; the right to an appeal; and others.
    Question. USMS' fiscal year 2012 request includes a $5 million 
offset in perimeter security and I understand this will be reduction to 
the Southern District of New York. Considering this administration 
planned to try Khalid Sheikh Mohammed and other 9/11 terrorists in New 
York, why would you suggest cutting courthouse security?
    Answer. The fiscal year 2012 budget proposed a $5 million offset to 
reduce perimeter security that USMS provides on a nonreimbursable basis 
for Federal complexes in the Southern District of New York. The 
proposed offset was not included in the fiscal year 2012 enacted 
budget. However, this offset would not have reduced security for the 
facilities, but would merely have transferred responsibility for 
perimeter security for the Southern District of New York complexes back 
to the Federal Protective Service (FPS). FPS charges Federal agencies 
fees to provide comprehensive coverage of Federal facilities and their 
occupants, including contract protective security officer and perimeter 
security services. The proposed offset amount funds nonpersonnel costs 
(i.e., contract guards and security equipment). This security cost 
adjustment would not have negatively affected USMS's ability to 
accomplish its strategic and performance goals as perimeter security 
for Federal buildings is not a core USMS mission. USMS does not use 
Deputy Marshals for perimeter security and there is no USMS payroll 
expended for this program.
    Further, as long as the restrictions passed by the Congress in 
early 2012 are in place, we cannot bring any Guantanamo Bay detainee, 
including Khalid Sheikh Mohammed and the other alleged co-conspirators 
of the September 11, 2001 terrorist attacks, to the United States for 
trial in Federal court, and any detainees at Guantanamo who are to be 
prosecuted will be prosecuted in military commissions.
    Question. Should this subcommittee expect to see a supplemental 
request for resources to hold criminal trials?
    Answer. Because current law prohibits DOD from using funds to 
transfer Guantanamo detainees to the United States. I am not aware of 
any plan by the Administration to request supplemental resources to 
conduct criminal trials of the Guantanamo detainees in the United 
States.
               law enforcement wireless (lewc)--technical
    Question. One of the more interesting sections of DOJ's budget 
request is the suspension of the Law Enforcement Wireless program, with 
the exception of operational and maintenance funds to sustain it. It is 
my understanding, based on the most recent LEWC quarterly reports, this 
program is being run efficiently.
    What has fundamentally changed between the last quarterly report 
and the fiscal year 2012 budget request to?
    Answer. The LEWC program is being run efficiently and the budget 
reduction does not intend to reflect otherwise. As stated in the 
response to the question above, the reduction was the result of the 
austere budget environment--DOJ remains committed to the program and 
will continue to support it going forward. Budget permitting, we will 
continue to revamp our wireless strategy and explore new technologies 
and innovative solutions to cut near- and long-term costs. For 
instance, we are considering utilizing some State law enforcement 
systems while adding capacity, encryption, and narrow banding to our 
legacy systems.
    Question. The administration continues to make public remarks about 
a Government-wide commitment to full and open competition and recently 
issued an OMB directive that agencies be technology neutral in their 
procurement. Yet, it is my understanding that the component agencies 
within DOJ have continued to sole-source numerous contracts for new 
radios in order to avoid competition. Further, any open contracts have 
included requirements for one vendor's proprietary technology.
    What specific steps has DOJ and its law enforcement components 
taken to promote such competition with respect to its procurements 
related to the LEWC program and its communications upgrades?
    Answer. DOJ's contract for systems integration in support of the 
IWN implementation was awarded to General Dynamics using full and open 
competitive procedures. General Dynamics then performed a competitive 
procurement for the infrastructure equipment for use within the 
National Capital Region and Harris Corporation was chosen as the 
supplier. Contracts to maintain legacy systems, narrowband legacy 
systems, and purchase radios have been awarded using other than full 
and open competitive procedures when justified in accordance with the 
Federal Acquisition Regulation (FAR).
    DOJ's mission demands leave it no choice, but to purchase Motorola 
radios unless:
  --State and local entities upgrade to narrowband, P25 compliant 
        systems;
  --DOJ has funding sufficient to compete a replacement of its legacy 
        systems;
  --Other suppliers of multi-band radios license the proprietary 
        functionality from Motorola; or
  --The P25 standard is complete across all required aspects of the 
        land mobile radio (LMR) infrastructure.
    In those cases where Motorola equipment is needed for mission-
critical reasons, DOJ has based its requirements on information 
gathered during market research and publicized its intentions. In other 
words, DOJ has been open and up front regarding its needs, publicizing 
them as required by the FAR, and no vendor has protested DOJ's actions. 
DOJ's plan has been and will continue to utilize full and open 
competition based on P25 standards and in accordance with the 
administration's memo to be technology neutral. However, until such 
time as any of the above-identified circumstances become reality, DOJ 
must continue to rely on equipment compatible with legacy systems.
    Question. Does that not contradict the administration's memo to be 
technology neutral?
    Answer. DOJ's contract for systems integration in support of the 
IWN implementation was awarded to General Dynamics using full and open 
competitive procedures. General Dynamics then performed a competitive 
procurement for the infrastructure equipment for use within the 
National Capital Region and Harris Corporation was chosen as the 
supplier. Contracts to maintain legacy systems, narrowband legacy 
systems, and purchase radios have been awarded using other than full 
and open competitive procedures when justified in accordance with FAR.
    DOJ's mission demands leave it no choice, but to purchase Motorola 
radios unless:
  --State and Local entities upgrade to narrowband, P25 compliant 
        systems;
  --DOJ has funding sufficient to compete a replacement of its legacy 
        systems;
  --Other suppliers of multi-band radios license the proprietary 
        functionality from Motorola; or
  --The P25 standard is complete across all required aspects of the LMR 
        infrastructure.
    In those cases where Motorola equipment is needed for mission-
critical reasons, DOJ has based its requirements on information 
gathered during market research and publicized its intentions. In other 
words, DOJ has been open and up front regarding its needs, publicizing 
them as required by the FAR, and no vendor has protested DOJ's actions.
    DOJ's plan has been and will continue to utilize full and open 
competition based on P25 standards and in accordance with the 
administration's memo to be technology neutral. However, until such 
time as any of the above-identified circumstances become reality, DOJ 
must continue to rely on equipment compatible with legacy systems.
    Question. What steps will you take to ensure fair and open 
competition in component contracts that are technology neutral and to 
prevent sole sourcing in the future?
    Answer. DOJ remains committed to pursuing full and open competition 
based on P25 standards, in accordance with the administration's memo to 
be technology neutral.
                         danger pay for mexico
    Question. Violence in Mexico, particularly toward law enforcement 
personnel, has steadily intensified over the past several years. The 
very real and present danger faced by United States personnel working 
in Mexico is evident in light of the recent deaths of United States 
consulate employees and an ICE agent in Mexico. While DEA and FBI 
receive danger pay for their personnel in Mexico due to prior 
authorizations passed in 1990 and 2002, USMS and ATF do not have this 
same authorization language. USMS and ATF personnel face the same risks 
as their DEA and FBI counterparts in Mexico and should be equally 
compensated.
    Why does the President's budget not provide for danger pay 
increases to USMS and ATF law enforcement personnel working in Mexico?
    Answer. Increases associated with danger pay allowances are 
traditionally absorbed by a component's existing base resources. Due to 
the potentially fluid nature of danger pay authorities, which are 
established by the Secretary of State, permanent resources for danger 
pay authority in Mexico were not requested for USMS or the ATF in the 
fiscal year 2012 President's budget.
    Question. Given the rise in violence generally, the targeted 
attacks against U.S. law enforcement officers, and the fact FBI and DEA 
already provide danger pay for their employees in Mexico, that USMS and 
ATF should receive the same sort of compensation.
    When can we expect to see proposed legislation to remedy this issue 
from DOJ?
    Answer. To address disparities as a result of the separate 
authorities afforded to DEA and FBI, DOJ has been planning to engage in 
ongoing policy-level discussions with the Department of State, OMB, and 
the Office of Personnel Management to pursue alternatives to resolve 
these pay disparities in an effective, lawful, fair and expeditious 
manner, and alleviate the concerns voiced by the committees on 
appropriations and others. DOJ considers this a pay disparity between 
FBI and DEA, and ATF and USMS. That is, United States Government 
employees serving our national interests in the same overseas 
locations, many times working side-by-side on critical criminal 
investigations and law enforcement issues, should be compensated 
equitably.
    On April 13, 2011, the Border Security Enforcement Act of 2011 (S. 
803) was introduced, which contains a provision authorizing danger pay 
for USMS and ATF law enforcement personnel working in Mexico. This 
legislation would remedy this disparity.
                           project gunrunner
    Question. National media reports now appear to support allegations 
that ATF has gun allowed dealers to proceed with suspicious firearms 
transactions, in hopes of tracking the movements of those guns and 
their buyers. Reportedly, field agents strongly protested the 
operation, especially after the guns started turning up in trace 
reports related to criminal activity. On March 3, ATF promised to 
convene ``a multi-disciplinary panel of law enforcement professionals 
to review the bureau's current firearms trafficking strategies.''
    When does ATF expect the panel's review to be completed?
    Answer. As I discussed during my testimony, I have asked the acting 
inspector general to review the matter. ATF is postponing the creation 
of a multi-disciplinary panel until the acting inspector general has 
completed her work, in part to avoid redundancies that simultaneous 
reviews of the same matter could create. After the acting inspector 
general's work is completed, ATF will revisit the option of convening a 
multi-disciplinary panel. Any such panel would then be able to consider 
the acting inspector general's conclusions and recommendations in 
conducting their review.
    Question. Did ATF allow these transactions to proceed, as alleged 
in the media reports?
    Answer. I take these allegations seriously and have referred them 
to the acting inspector general of DOJ for investigation. I have also 
made it clear to our law enforcement personnel and prosecutors working 
on the Southwest Border that the Department should never knowingly 
permit illegally trafficked firearms to cross the border.
    Question. If so, did DOJ approve use of this technique? Is this an 
investigative technique ATF has used in the past? What were the results 
in past investigations?
    Answer. Allegations that ATF knowingly allowed the sale of guns to 
straw purchasers in hopes of tracking the movements of those guns and 
their buyers are under investigation by the acting inspector general.
    Question. Is the practice being continued during this review and 
investigation?
    Answer. There is an ongoing investigation into the shooting death 
of Customs and Border Patrol (CBP) Agent Brian Terry. Accordingly, I 
cannot comment on that investigation at this time.
                  state and local law enforcement cuts
    Question. Attorney General Holder, 11 percent ($3 billion) of DOJ's 
budget request is comprised of State and local law enforcement grants. 
Five years ago, DOJ was responsible for soliciting and administering 
approximately 72 grant programs. Today, more than 100 grant programs 
and solicitations exist. Even in these tough budget times, the number 
of grants continues to grow and no serious proposals for consolidation 
or elimination of narrow and duplicative programs exist. Effective 
broad-use programs supported by law enforcement, such as Byrne-JAG and 
SCAAP, have been cut or eliminated to make room for more narrowly 
focused programs with limited purpose areas.
    What is DOJ doing to curtail the ballooning number of grant 
programs?
    Answer. DOJ is looking both at consolidating the way some grant 
programs are administered and at reducing or consolidating the number 
of grant programs that we are requesting. One example of consolidation 
and increased coordination is our CTAS. During a number of tribal 
listening sessions and conference calls with tribal leaders, concern 
was expressed regarding the need to improve DOJ's tribal grantmaking 
process. Beginning last year, we issued one, single CTAS that 
encompassed DOJ's available tribal government-specific grant programs. 
Under the fiscal year 2010 Coordinated Tribal Assistance Solicitation, 
DOJ asked each tribe to submit a single application for all available 
DOJ tribal government-specific grant programs, according to the tribe's 
needs. The advantage of this coordinated process is that, when DOJ 
reviewed a single application from a tribe, it had a better 
understanding of the tribe's overall public safety needs. The 
grantmaking components then coordinated in making award decisions to 
address these needs on a more comprehensive basis. DOJ continued with 
CTAS this year and made improvements where necessary to respond to 
tribal governments' needs and concerns.
    Additionally, in the fiscal year 2012 President's budget, the 
Office on Violence Against Women (OVW) request includes $14 million for 
a new Consolidated Youth-Oriented program. This grant program 
consolidates the purpose areas of four previously funded programs under 
one competitive program. The four programs in the consolidation 
include:
  --Services to advocate for and respond to youth;
  --Grants to assist children and youth exposed to violence;
  --Engaging men and youth in preventing domestic violence; and
  --Supporting teens through education.
    This consolidation will allow OVW to leverage resources for maximum 
impact in communities by funding comprehensive projects that include 
both youth services and prevention components.
    Question. How can DOJ be more proactive in providing flexibility to 
law enforcement agencies with broad purpose area grants when the number 
of narrow grants continues to grow?
    Answer. This year's COPS hiring program grants will be much 
different than previous years. COPS established an initiative to 
enhance the integration of community policing into its grant programs, 
and to better align COPS grant programs with the advancement of 
community policing. This year, applicants will be asked to address how 
grant funding will assist them in building partnerships, solving 
problems, and sustaining organizational change. The application will 
allow applicants to identify specific community crime and disorder 
problems that they seek to address with COPS funding, and the specific 
community policing strategies and tactics they plan to employ against 
these problems. DOJ is also requesting funding for the Byrne Justice 
Assistance Grant program, which provides the States the maximum 
flexibility both in categories and in the number of years they have to 
spend the funding. Last, as part of an administration-wide effort, DOJ 
is looking at ways through internal regulations and guidelines or 
through changes we might propose to the Congress that would make grant 
programs more flexible for States and localities. As an example, the 
fiscal year 2012 President's budget proposes to set-aside 7 percent of 
OJP funds to create a flexible tribal grant program that will replace 
several individual tribal grant programs.
    Question. Please explain how SCAAP was cut by $194 million, DNA 
grants cut by $51 million, and Coverdell grants were eliminated--yet 
narrowly focused COPS Hiring grants was increased by $302 million to 
$600 million?
    Answer. Due to tight fiscal restraints, important trade-offs were 
necessary in the budget, including reductions to some State and local 
criminal justice assistance programs.
    DOJ responds to State, local, and tribal law enforcement by 
developing programs and initiatives that provide flexibility for their 
public safety needs. The COPS hiring program advances community 
policing through partnerships, problem solving and organizational 
change. While the goal of the program may simply appear to be adding 
officers, the results show stronger relationships between communities 
and police, more efficient and effective policing practices and an 
overall commitment to better public safety.
    The requested increase for the COPS hiring program pales in 
comparison to the demand and needs of the field. For example, when the 
COPS office opened the solicitation for its COPS hiring recovery 
program in 2009, which was part of ARRA, the demand far outweighed 
funding available with more than $8 billion in requests for the $1 
billion that was appropriated.
           atf--gunrunner allowing firearms to be trafficked
Gun Traced to Border Patrol Agent Shooting Death in Arizona
    Question. Since its inception in 2006, ATF has had many successes 
with Project Gunrunner, seizing nearly 10,000 firearms and 1.1 million 
rounds of ammunition destined for Mexico. Yet, news reports have 
indicated that the ATF encouraged the sale approximately 2,000 weapons 
to known traffickers in an operation called Fast and Furious, in order 
track them to cartels and larger crime organizations in Mexico. The 
reports also indicate that two weapons recovered at the scene of the 
December 14, 2010, murder of CBP Agent Brian Terry in Arizona, were 
connected to Operation Fast and Furious and allowed to be smuggled into 
Mexico by ATF.
    Can you verify whether the weapons recovered at the scene of Agent 
Terry's death in Arizona were allowed by ATF to be sold to known 
traffickers and smuggled into Mexico?
    Answer. There is an ongoing investigation into the shooting death 
of CBP Agent Brian Terry. Accordingly, I cannot comment on that 
investigation at this time.
    Question. As I said in my statement, on February 15, ICE agent 
Jaime Zapata of Brownsville, Texas, was murdered in Mexico. The weapon 
used in Agent Zapata's murder was traced to a sale in Dallas, where 
three men suspected of weapons trafficking were arrested.
    Are there any indications that the weapon used in Agent Zapata's 
death was knowingly allowed to be sold to the three Dallas gun 
smugglers?
    Answer. There is no evidence that the weapon used in the death of 
Agent Zapata was knowingly allowed to be sold to the Dallas gun 
smuggler, nor is there evidence that it was allowed to be transported 
across the United States-Mexico border.
    Question. Are you aware of any senior members of ATF or DOJ 
encouraging ATF agents to allow gun dealers to sell weapons to known 
gun traffickers?
    Answer. Allegations that ATF knowingly allowed the sale of guns to 
straw purchasers in hopes of tracking the movements of those guns and 
their buyers are under investigation by the acting inspector general.
    Question. I understand you have instructed the inspector general to 
investigate this matter. Have you been given any preliminary reports 
that you can share with us?
    Answer. I have not received any preliminary reports.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. On March 14, 2011, the New York Times reported that 
Ahmed, who was convicted for his role in attacks upon American 
embassies, was assigned to the U.S. Penitentiary (USP) in Florence, 
Colorado, but not the Supermax. Four other Embassy bombing conspirators 
are imprisoned at the Supermax.
    Please explain the decision to hold Ghailani in a prison other than 
the Supermax.
    Answer. Inmate Ghailani received a life sentence for Conspiracy to 
Destroy Buildings and Property of the United States. On March 11, 2011, 
inmate Ghailani was designated to USP Florence, pending a due process 
hearing for Administrative-Maximum (ADX) placement. The ADX referral is 
based on his offense conduct and the imposition of Special 
Administrative Measures restrictions, as determined by the Attorney 
General.
    Inmate Ghailani's initial designation to USP Florence is 
appropriate to begin the ADX referral process. Placement at the ADX is 
guided by the BOP's Program Statement 5100.08, Inmate Security 
Designation and Custody Classification. The referral process usually 
takes 6 to 10 weeks.
    Please be assured that public safety is the highest priority for 
DOJ and BOP and is paramount in all decisions made regarding the 
housing of Federal inmates.
    Question. Will Ghailani be held in the general population of the 
penitentiary at Florence?
    Answer. Inmate Ghailani will not be placed in general population 
while at USP Florence.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee stands in recess until 
March 31, at which time we will take testimony from the 
Administrator of NASA.
    [Whereupon, at 12:20 p.m., Thursday, March 10, the hearing 
was concluded, and the subcommittee recessed, to reconvene 
Thursday, March 31.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, APRIL 7, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Lautenberg, Pryor, Hutchison, 
Johnson, and Collins.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. ROBERT S. MUELLER, III, DIRECTOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning. The Subcommittee on 
Commerce, Justice, Science, and Related Agencies will come to 
order.
    Today, we are taking the testimony of Director Robert S. 
Mueller, III on the Federal Bureau of Investigation's (FBI) 
budget and priorities for fiscal year 2012.
    I know Senator Hutchison is on her way, but I'm going to 
open with my remarks while she's on her way, because we're 
going to do what we have been doing the last 3 years, which is 
to have an open hearing on the FBI's--here she is--the FBI's 
budget and their priorities for funding. And then we will take, 
around 11 o'clock, a 15-minute recess, until we go to the 
Intelligence Committee's room. Senator Feinstein has graciously 
made available that hearing room for us, where we will meet in 
a classified briefing on the request.
    Sixty percent of the FBI's appropriated requests now are in 
the area of national service--excuse me--national security. 
After 9/11, shortly after Director Mueller was appointed, the 
United States of America, faced with one of its greatest 
attacks since Pearl Harbor, had the decision on how it would 
deal with domestic threats; responding to international 
terrorism; ``Should we set up our own MI5?'' But, we chose not 
a new agency, not a new bureaucracy, but to turn to one of the 
most trusted agencies in the United States Government, our FBI. 
And we stood up an agency within an agency, but we wanted them 
to act as one agency. And Director Mueller has just done that.
    This hearing has some poignancy to it, because it will be 
Director Mueller's last. I'm kind of misty here. Director 
Mueller and I have been through so much together--not with each 
other. But, I went on the Intelligence Committee just weeks 
before the attack on the United States, and the Director was 
appointed. And we went through so much in establishing this 
agency: the 9/11 commissions; how do we respond to the great 
threats facing the United States; and with the FBI not 
neglecting the criminal enterprises, even though, with the 
terrorists, it was the criminal enterprises against us. So, I 
think he's been a fantastic FBI Director.
    We know that, today, it's his last appearance before the 
subcommittee. I know the subcommittee just has considerable 
respect for him and his excellent executive ability, his 
patriotic dedication. And, as the Washington Post referred to 
him, he's one of the nighthawks that stay up with these late 
briefings and threats around the world.
    So, we want to hear from you, Director Mueller, because, I 
know you want this hearing not to be about you, but about the 
FBI and what we need to do to make sure the FBI has the right 
resources to do the job that we ask them to do.
    We acknowledge that we're in uncertain times. The FBI is 
operating at $500 million below the President's 2011 request. 
We want to know, how is the FBI addressing this cut? We need to 
know how it's affecting staff and morale.
    As I said, we'll begin with unclassified, and then we'll go 
to the closed hearing.
    As head of this subcommittee, I have three priorities when 
examining the FBI's budget: one, its national security, its 
security related to our communities. How is it our keeping 
our--working with local law enforcement--streets and 
neighborhoods safe? And how are we dealing with the new 
challenges, particularly in financial services: mortgage fraud, 
and Medicare fraud. The Congress makes a big show sometimes of 
saying, ``We're going to go after fraud and abuse.'' Well, you 
know what? The FBI actually does it. They actually go after 
crooks that are scheming and scamming people through their 
mortgages and also through our Medicare fund. So, we're going 
to learn more about its 2012 budget request, exactly on 
accomplishing those objectives.
    The five highlights of the new budget include gathering 
intelligence on cyberthreats, $120 million; fighting mortgage 
fraud and white-collar crime, $245 million; going after those 
despicable sexual predators, $90 million; tracking weapons of 
mass destruction, at $89 million; and tracking international 
terrorist networks, at $316 million.
    Our Nation faces these growing threats, and they're 
absolutely crucial that we stay online. The growing threat of 
cybersecurity, which we also work very closely with, with the 
Intelligence Committee, is a critical component for our 
Nation's infrastructure. We worry about online banking and 
commerce, the electrical power grids, air traffic control 
systems, and we need to make sure that we are able to respond 
to a whole other war, called ``the cyberwar''. This year, the 
request is $129 million, and we want to hear more about those 
details, but we'll reserve that for the classified time.
    The FBI is requesting $3.3 billion for counterterrorism 
activities. It's a 4 percent increase, and a $128 million 
increase over the current level. The FBI is using these funds--
and this is really important--to disrupt terrorist plots, 
investigate terrorist crimes, and identify, track, and defeat 
terrorist sleeper cells operating in the United States. I want 
to know more about this.
    I know my colleague from Texas will also be asking 
questions about another war front that we're on, which is the 
Southwest Border, and the role of the FBI in working to defeat 
the drug cartels that want to--that are engaged in such 
horrendous and horrific activity.
    When we look at violent crime--and part of this is going on 
right at our Southwest Borders--we know that there is a $2.6 
billion request for fighting what is the traditional role of 
the FBI. And again, this is a 5.4 percent increase.
    But, you know, the criminal organizers and enterprisers 
are--again, these are very sophisticated criminal 
organizations: trafficking in children, schemers of middle-
class homes, trying to bilk Medicare. It seems that wherever--
there's no end to the ingenuity of crooks and thugs in our 
country. But the FBI is on it.
    We want to congratulate the FBI on what it is doing in 
mortgage fraud. They have an incredible success rate in going 
after those who have bilked our constituents. And right now, 
the subcommittee will find--and the Director will speak to it--
they have a 3,000 case backload in mortgage fraud. This is why 
we're troubled by the FBI freeze that they're mandated to 
follow.
    There will be issues related to accountability, 
particularly in technology. We know that the Sentinel program 
has had speed bumps, potholes, and a variety of other metaphors 
that we could use. But, I understand that working--that the FBI 
now has that on track, and we'll look forward to it.

                           PREPARED STATEMENT

    We want to really hear from the FBI Director. So, I'm going 
to take a more extensive statement, ask unanimous consent to 
put it into the record, turn to Senator Kay Bailey Hutchison, 
and then we'll go right to questions. And, Senator Johnson, 
your opening remarks, if you have some, I'd like you to 
incorporate it in your questions. And we'll give you some 
wiggle room. Okay?
    [The statement follows:]
           Prepared Statement of Senator Barbara A. Mikulski
    Good morning and welcome to the second hearing of 2011 of the 
Commerce, Justice and Science (CJS) Subcommittee. Today, the CJS 
Subcommittee will hear from FBI Director Robert S. Mueller, III about 
the FBI's budget and priorities for fiscal year 2012.
    We continue our examination of the President's 2012 budget although 
we still have not finished 2011. I am mindful that whatever happens in 
our 2011 wrap-up will affect what the FBI can do in the future. We'll 
learn today what these cuts mean for the FBI.
    I acknowledge we are in uncertain times. The FBI is operating at 
$500 million below the President's 2011 request. We need to know how 
the FBI is addressing this cut and how it is affecting morale and staff 
retention.
    We'll begin with an unclassified hearing to focus on the FBI's 
general budget request, and then we will move to a closed hearing to 
discuss budget requests for the FBI's classified operations.
    We welcome Director Mueller to his last scheduled hearing before 
the CJS Subcommittee. He will be the longest serving FBI Director since 
J. Edgar Hoover and he is the only Director to serve out a full 10-year 
term. He came into this job just a week before the 9/11 terrorist 
attacks. His leadership has transformed the FBI from a traditional 
domestic law enforcement agency into a global anti-terrorism and anti-
crime police force keeping us safe from threats here at home.
    As Chairwoman I have three priorities when examining the FBI's 
budget--first, national security, or how the FBI is keeping America 
safe; second, community security, or how the FBI is keeping our 
families safe; and third, oversight and accountability, or how the FBI 
is ensuring our tax dollars are spent wisely.
    Today, we will learn more about how the FBI plans to use its fiscal 
year 2012 budget request to carry out its extraordinary 
responsibilities of keeping us safe from terrorism and violent crime, 
such as dismantling organized crime and drug cartels, combating gang 
violence, stopping illegal drug and gun smuggling, and catching child 
sexual predators.
    The President's budget request for the FBI in fiscal year 2012 is 
$8.1 billion--a $227 million, or 2.9 percent, increase above the 2010 
omnibus and current continuing resolution levels. Five highlights of 
this budget request include:
  --$129 million for gathering intelligence on cyber threats to stop 
        cyber crooks from hacking into U.S. networks;
  --$245 million for fighting mortgage fraud and white collar crime by 
        targeting scammers who prey on hard working families;
  --$89 million for tracking weapons of mass destruction (WMD) to 
        prevent terrorists from acquiring WMD materials;
  --$90 million for catching child predators and stopping sexual 
        deviants who exploit children on the Internet; and
  --$316 million to track international terrorist networks and expand 
        surveillance capabilities that help shut them down.
    Our Nation faces a growing and pervasive threat overseas from 
hackers, cyber spies, and cyber terrorists. Cyber security is a 
critical component to our Nation's infrastructure. We need safe and 
resilient networks to protect our online banking and commerce, 
electrical and power grids, air traffic control systems and digitalized 
records.
    In 2010, the CJS Subcommittee appropriated $118 million for the 
FBI's cyber efforts, called the Comprehensive National Cybersecurity 
Initiative. This year, the request is $129 million--an $11 million 
increase that will provide 14 new agents and 5 new professional staff. 
We will hear more about the details on the FBI's cyber efforts in the 
classified session, but I am pleased that the FBI is a key guardian of 
our Nation's cyber security.
    After 9/11, the FBI was charged with a new national security 
mission--to protect us from international terrorism and track WMD that 
could hurt the United States. Today, counterterrorism makes up more 
than 40 percent of the FBI's budget. The FBI requests $3.3 billion for 
counterterrorism activities--a $128 million, or 4 percent, increase 
above the current level. The FBI is using these funds to disrupt 
terrorist plots before they happen, investigate terrorist crimes after 
they occur, and to identify, track and defeat terrorist sleeper cells 
operating in the United States and overseas. I want to know if this 
budget request is enough to tackle all counterterrorism 
responsibilities including WMD, cyber computer intrusions, foreign 
counterintelligence, and critical incident response.
    I also want to know how the FBI is protecting Americans from 
violent crime in their communities. The budget requests $2.6 billion 
for traditional crime fighting efforts here in the United States--a 
$134 million, or 5.4 percent, increase above the current level of $2.5 
billion. This request allows the FBI to hire 35 new special agents to 
focus on cyber crimes and violent crimes in Indian country. It also 
supports FBI efforts to target sophisticated criminal organizations 
that prey on the vulnerable, traffic children for prostitution, and 
scam middle class families out of their homes. These organizations will 
do anything to make a profit. But I am worried that this budget request 
is flat to fight violent crime and gangs.
    I also want to know if this fiscal year 2012 request is enough to 
help protect hard-working families and their homes. Mortgage fraud is 
the FBI's number one white collar crime problem. The FBI is 
investigating more than 3,000 mortgage fraud cases and more than 55 
corporate fraud cases in the subprime mortgage industry. The budget 
requests $245 million to combat mortgage fraud with 94 mortgage fraud 
task forces made up of agents, forensic accountants, and financial 
analysts to investigate complex financial schemes.
    Director Mueller, I know you are with me. We want to send a clear 
message to the predators. No more scamming or preying on hardworking 
Americans. If you break the law, you will suffer the consequences.
    This budget request includes $90 million for the FBI to protect 
children by catching deviants who use the Internet to prey on them and 
break up international sex trafficking and prostitution rings. The FBI 
plays an important role in enforcing the Adam Walsh Act and it is 
responsible for monitoring and targeting Internet predators. In 2009, 
the FBI's Innocent Images national initiative convicted over 1,200 
producers, distributors and possessors of child pornography.
    Since 2003 when it was established, the FBI's Innocence Lost 
Initiative has rescued more than 1,100 children. The youngest victim 
rescued was 9 years old. The program has convicted more than 500 pimps, 
madams, and their associates who exploit children through prostitution. 
I want to hear from you if the 2012 request is sufficient to enhance 
child predator investigations and target predators before they strike 
so we can save children's lives.
    Any future plans for the FBI must protect taxpayers from Government 
boondoggles. We must ensure strict accountability, oversight, and 
management to ensure that taxpayer dollars are not wasted and avoid 
cost overruns and missed deadlines. I am concerned about many delays 
and cost overruns on the FBI's Sentinel program, which upgrades the 
electronic case management system used by analysts and agents. It is a 
technological tool to help protect our citizens.
    Last fall, you decided the FBI would take over management to 
implement and complete Sentinel--a move that was made to keep Sentinel 
from becoming another techno-boondoggle. I want to know where we are on 
Sentinel. What steps have you taken to ensure that Sentinel gets back 
on track? Where is Sentinel in the development and deployment process? 
How long will the program be delayed and how much will this cost?
    In conclusion, I want to say how proud I am of the men and women at 
the FBI who are fighting to keep America safe from terrorism and 
violent crimes. They are on the job 24 hours a day, seven days a week. 
We must ensure that the FBI has the resources it needs to protect the 
lives of 311 million Americans. But we also want to make sure the FBI 
is a good steward of taxpayer dollars. We have to make sure every 
dollar we spend to keep our Nation safe is a dollar well spent.
    I thank Director Mueller for his leadership. I look forward to 
continuing our productive relationship with both him and his team.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Madam Chairman.
    I do want to just take a moment to say thank you so much 
for your service. You are the second longest serving FBI 
Director in our Nation's history, after Hoover. So, you've had 
a major impact. You took on the job about a couple of weeks 
before 9/11. And after that time, of course, it was added to 
the mission of the FBI to take on counterterrorism. And so, 
you've had a huge impact on our law enforcement. And you have 
been so accessible. And I agree with everything the chairwoman 
said regarding your service. And we are sorry to see you go.
    Let me just say that, because of the changes that have 
happened during your time, the focus that you have now gone 
into, of course, is the counterterrorism, cybersecurity; that's 
all a whole new field, as well. And you've done very well. I do 
want to focus on the Southwest Border, because, Mr. Director, 
we're in a war there. And I just want to give a couple of 
statistics for the record:
    Since the beginning of last year, more than 3,000 drug-
related murders have been reported in Juarez, Mexico. It is, of 
course, just across the river from El Paso. And you have, of 
course, an office there. But, this is stunning. And it is 
coming over into our country. It is affecting our crime rates.
    Let me just give you a few excerpts from the director of 
the Department of Public Safety (DPS), who was testifying 
before a State legislative committee. He said he is very 
concerned that crime in Dallas, Houston, Austin, and San 
Antonio is very much connected to Mexican drug cartels 
operating through the potent prison gangs--the Texas Syndicate 
and Texas Mafia.
    Last year, law enforcement agencies operating in the Rio 
Grande Valley apprehended what they refer to as ``287 Other 
Than Mexicans,'' illegal immigrants from countries with active 
al Qaeda cells or Taliban activity, places like Yemen, Iran, 
Pakistan, and more. The Government Accountability Office has 
said that they believe we catch about 6.5 percent of the 
illegal criminal activity that is coming across our border. So, 
you can multiply the 287.
    And these people are very crafty. There are reports of 
instructions, in Arabic languages and foreign languages, on 
what to do when you get across the border--where you go, where 
your connections are. And so it's very troubling.
    The State has increased its resources--the State of Texas, 
which, of course, has the giant share of the border--but this 
is a Federal issue. And I am very concerned that your budget 
has $130 million out of $8.1 billion. Now, I am told that, in 
the recent Southwest Border supplemental, the FBI was denied 
additional resources. I understand--I am also told that the FBI 
was denied new border enhancements in the fiscal year 2012 
request. I want to know more about that--and I will ask, during 
the question period--because this war is going to affect our 
country, and it is as important as any war we're fighting, 
anywhere. And I hope that, because of the great record that the 
FBI has, that we will be able to fully commit the resources 
that are needed for this fight, because it's not thousands of 
miles away; it is on our border. And two Americans were killed 
at a border crossing just last week.
    And I've talked to the mayors of our major cities. They 
know that there are drug cartel activities in the four cities 
that were mentioned by the DPS director. So, that's going to be 
a major focus for me, I will tell you. And I will want to know 
more, what we can do and how we can make it a priority for the 
Justice Department to involve the FBI, because, where the FBI 
is, they--everyone says they are very helpful. All the local 
law enforcement people I talk to, the Drug Enforcement 
Administration (DEA), everyone is complimentary of the FBI 
input. But we have a pittance compared to what we need.
    I also will want to ask you about the shooting of the 
Immigration and Customs Enforcement (ICE) agents in Mexico, one 
of whom was killed. And you were tasked with a major part of 
the investigation. And I will want to know how that was being 
handled and if the Mexican Government was cooperative.
    So, these are the focuses, in addition to what the Senator 
from Maryland, the chairwoman of this subcommittee, has said. 
But you have a big job. You've done a great job. We need to 
know what we can do to make sure that you can operate in the 
future.
    Thank you.
    Senator Mikulski. Thank you, Senator Hutchison. And I'm so 
glad you're--you know, so persistent on this issue. And it's 
one of the reasons I also will have the classified hearing with 
the FBI at 11:15 a.m., because a lot of your questions really 
need to be talked about in a different forum, and at the level 
of detail I know you'll want in the answers.
    But, I want to pledge to you, on this Southwest Border 
issue, and to the Southwest Senators, this is an American 
issue. So, you're not fighting this by yourself. You can count 
on me as a full partner on this.
    Senator Hutchison. That means a lot. Thank you very much.
    Senator Mikulski. Director Mueller, why don't you begin 
your testimony.

              SUMMARY STATEMENT OF ROBERT S. MUELLER, III

    Mr. Mueller. Well, thank you, and good morning, Chairwoman 
Mikulski and Ranking Member Hutchison.
    And, at the outset, thank you for your remarks. I think 
we've worked exceptionally well together over the years, and I 
am tremendously appreciative of the support that this 
subcommittee has given, most particularly to the FBI, but also 
to me, personally. Thank you.
    And also, thank you for the opportunity to appear before 
you today.
    As you have started to point out, and I'll follow up on, 
the FBI now faces unprecedented and increasingly complex 
challenges. We must identify and stop terrorists before they 
launch attacks against our citizens. We must protect our 
Government, businesses, and critical infrastructure from 
espionage and from the potentially devastating impact of cyber-
based attacks. We must root out public corruption, fight white 
collar and organized crime, stop child predators, and protect 
civil rights. We must also ensure we are building a structure 
that will carry the FBI into the future by continuing to 
enhance our intelligence capabilities, improve our business 
practices and training, and develop the next generation of FBI 
leaders. We must do all of this while respecting the authority 
given to us under the Constitution, upholding civil liberties, 
and the rule of law. And we must also do this in what some 
would say are uncertain fiscal conditions.
    The challenges of carrying out this mission have never been 
greater, as the FBI has never faced a more complex threat 
environment than it does today. Over the past year, we have 
faced an extraordinary range of threats from terrorism, 
espionage, cyberattacks, and traditional crime.
    Let me, if I could, give you a brief overview with several 
examples. Last October, there were the attempted bombings on 
air cargo flights bound for the United States from Yemen, 
directed by al Qaeda in the Arabian Peninsula. Last May, there 
was the attempted car bombing in Times Square, aided by Tehrik-
e Taliban Pakistan, in Pakistan. These attempted attacks 
demonstrate how al Qaeda and its affiliates still have the 
intent to strike within the United States.
    In addition, there were a number of serious terror plots by 
lone offenders. Their targets ranged from a Martin Luther King 
Jr. Day march in Spokane, Washington, to a Christmas tree 
lighting ceremony in Portland, Oregon, to subway stations in 
the Washington, DC Metro system. The motives and methods of 
these plots were varied, making these among the most difficult 
threats to anticipate and then to combat.
    The espionage threat persisted as well. Last summer, there 
were the arrests of 10 Russian spies, known as illegals, who 
secretly blended into American society in order to 
clandestinely gather information for Russia. And we continue to 
make significant arrests for economic espionage as foreign 
interests seek to steal controlled technologies.
    The cyberintrusion at Google last year highlighted the 
potential danger from a sophisticated Internet attack. Along 
with countless other cyberincidents, these attacks threaten to 
undermine the integrity of the Internet and to victimize the 
businesses and people who rely on the Internet.
    In our criminal investigations, we continue to uncover 
billion dollar corporate and mortgage frauds that weaken the 
financial system and victimize investors, homeowners, and, 
ultimately, taxpayers.
    We also exposed healthcare scams involving false billings 
and fake treatments that endangered patients and fleeced 
Government healthcare programs.
    As pointed out, the extreme violence across our Southwest 
Border continued to impact the United States, as we saw and has 
already been pointed out, with the murders last March of 
American Consulate workers in Juarez, Mexico, and the shooting, 
last month of two ICE agents in Mexico.
    Throughout the year, there were numerous corruption cases 
that undermined the public trust, and countless violent gang 
cases that continue to take innocent lives and endanger our 
communities.
    As these examples demonstrate, the FBI's mission to protect 
the American people has never been broader, and the demands on 
the FBI have never been greater. To carry out these 
responsibilities, we need the Congress's continued support more 
than ever.
    The support from this subcommittee and the Congress has 
been an important part of the ongoing transformation of the 
FBI. A key element of this transformation has been the ability 
to recruit, hire, train, and develop the best and the brightest 
agents, analysts, and staff to meet the complex threats we face 
now and in the future, and the ability to put in place the 
information technology and infrastructure needed to perform our 
everyday work.
    I am concerned that our momentum, built up over the past 
several years with your support, is going to be adversely 
affected due to the constrained fiscal environment. The FBI 
strives to be a good steward of the funding the Congress 
provides, and we continually look for cost-saving initiatives 
and better business practices to make us more efficient. 
However, addressing the major threats and crime problems facing 
our Nation requires investments that cannot be offset by 
savings alone. If funded for the remainder of fiscal year 2011 
at prior year levels, the FBI will have to absorb more than 
$200 million in operating requirements and will have more than 
1,100 vacant positions by the end of the year. The fiscal year 
2012 budget that we are discussing today would actually provide 
a lower level of resources than the fiscal year 2011 request 
submitted last year, and will leave unaddressed gaps in our 
investigative and intelligence capabilities and capacities in 
all programs.
    I note that the proposed continuing resolution would fully 
fund the Department of Defense (DOD), while all other agencies 
would be extended, perhaps for 1 week. I strongly encourage 
this subcommittee to consider also fully funding the FBI in the 
continuing resolution. Under the continuing resolution, the FBI 
would be the only major partner in the intelligence community 
that is not fully funded. While our intelligence community 
partners would be able to proceed with planned initiatives and 
programs, the FBI could not. And we cannot be considered an 
equal partner in the intelligence arena without full funding.
    As was pointed out, approximately 60 percent of the FBI's 
budget is scored under the DOD-related budget function. Today, 
FBI agents, intelligence analysts, and professional staff stand 
side-by-side with the military in Afghanistan and elsewhere in 
the world, working together to keep our country and our 
citizens safe from attack. Full funding for the FBI, for which 
both the House and Senate were in agreement in their respective 
marks, would enable these critical dependencies and 
collaboration to continue without interruption.
    Last, let me say that we simply cannot afford to return to 
the pre-9/11 days, where hiring and staffing in the FBI was a 
roller coaster that left most field offices understaffed to 
deal with the terrorist and other threats we faced. Nor can we 
afford to return to the pre-9/11 days where funding uncertainty 
led to a degradation of the FBI's physical and information 
technology infrastructure.

                           PREPARED STATEMENT

    Let me finish by saying, I appreciate the opportunity to be 
here today to talk about our 2012 budget and, inevitably, the 
2011 continuing resolution. But, I also want to thank the 
subcommittee for your continued support on behalf of the men 
and women of the FBI.
    And I, of course, would be happy to answer any questions 
that you may have.
    Thank you.
    [The statement follows:]
              Prepared Statement of Robert S. Mueller, III
    Good morning Chairwoman Mikulski, Ranking Member Hutchison, and 
members of the subcommittee.
    On behalf of the more than 30,000 men and women of the Federal 
Bureau of Investigation (FBI), I would like to thank you for the years 
of support you have provided to the FBI. This subcommittee has been 
instrumental in ensuring the FBI has received the critical resources it 
needs to:
  --defend the United States against terrorism and foreign intelligence 
        threats;
  --uphold and enforce the criminal laws of the United States;
  --protect civil rights and civil liberties; and
  --provide leadership and criminal justice services to Federal, State, 
        municipal, and international agencies and partners.
    Since 9/11, the FBI has shifted to be an intelligence-led, threat-
focused organization, guided by clear operational strategies. The FBI 
is focused on predicting and preventing the threats we face, while 
engaging the communities we serve. This shift has led to a greater 
reliance on technology, collaboration with new partners, and human 
capital, requiring additional resources. FBI is a full member of the 
U.S. intelligence community and serves as a critical and singular link 
between the intelligence and law enforcement communities in the United 
States. FBI, as an organization, is in a unique and critical position 
to address national security and criminal threats that are increasingly 
intertwined. Our adversaries are evolving and using globalization to 
enhance their reach and effectiveness, creating new challenges in our 
efforts to counter their impact.
    Today, the diversity and complexity of the threats facing the 
Homeland has never been greater:
  --In the past year, the United States has been the target of 
        terrorist plots from three main sources:
    --al Qaeda;
    --al Qaeda's affiliates; and
    --homegrown extremists.
    Homegrown extremists are a growing concern and priority of the FBI, 
        as evidenced by the number of recent disruptions and arrests; 
        and
  --The asymmetric intelligence threat presented by certain foreign 
        governments endures as the damage from compromised sensitive 
        information and financial losses from economic espionage and 
        criminal activity remain significant.
  --Technological advancements and the Internet's expansion will 
        continue to empower malicious cyber actors to harm U.S. 
        national security through criminal and intelligence activities. 
        We must maintain our ability to keep pace with this rapidly 
        developing technology.
  --The FBI's efforts prosecuting financial crimes--including billion-
        dollar corporate and mortgage frauds, massive Ponzi schemes, 
        and sophisticated insider trading activities--remain essential 
        to protect investors and the financial system, as well as 
        homeowners and ultimately taxpayers. There also continue to be 
        insidious healthcare scams that endanger patients and fleece 
        Government healthcare programs of billions. Despite strong 
        enforcement, both public corruption and violent gang crimes 
        continue to endanger our communities.
    These examples underscore the complexity and breadth of the FBI's 
mission to protect the Nation in a post-9/11 world.
    The FBI's fiscal year 2012 budget request includes a total of $8.1 
billion in direct budget authority, including 33,469 permanent 
positions (12,993 special agents, 2,989 intelligence analysts, and 
17,487 professional staff). This funding, which consists of $8 billion 
in salaries and expenses and $81 million in construction, is critical 
to continue our progress acquiring the intelligence and investigative 
capabilities required to counter current and emerging national security 
and criminal threats.
    Consistent with the FBI's transformation to a threat-informed and 
intelligence-driven agency, the fiscal year 2012 budget request was 
formulated based upon our understanding of the major national security 
and criminal threats that the FBI must work to prevent, disrupt, and 
deter. We then identified the gaps and areas which required additional 
resources. As a result of this integrated process, the fiscal year 2012 
budget proposes $131.5 million for new or expanded initiatives and 181 
new positions, including 81 special agents, 3 intelligence analysts, 
and 97 professional staff. These additional resources will allow the 
FBI to improve its capacity to address threats in the priority areas of 
terrorism, computer intrusions, weapons of mass destruction, foreign 
counterintelligence, and violent crime.
    Let me briefly summarize the key national security threats and 
crime problems that this funding enables the FBI to address.
                       national security threats
    Terrorism.--The FBI is fully engaged in the worldwide effort to 
counter terrorism. We have taken that fight to our adversaries' own 
sanctuaries in the far corners of the world--Iraq, Afghanistan, 
Pakistan, Europe, Asia, and Africa. We have also worked to uncover 
terror cells and supporters within the United States, as well as 
disrupting terrorists' financial, communications, and operational 
lifelines at home and abroad.
    Al Qaeda remains our primary concern. Al Qaeda's intent to conduct 
high-profile attacks inside the United States is unwavering. While the 
overall structure of the group has diminished, its power to influence 
individuals and affiliates around the world has not. Today, we still 
confront the prospect of a large-scale attack by al Qaeda, but the 
growing threat from al Qaeda affiliates, as demonstrated in the 
attempted Christmas Day bombing and the failed Times Square bombing, is 
unprecedented. Al Qaeda and its affiliates may also attempt smaller 
attacks that require less planning and fewer operational steps--attacks 
that may be more difficult to detect and prevent.
    Threats from homegrown terrorists are also of growing concern. 
These individuals are harder to detect, easily able to connect with 
other extremists, and--in some instances--highly capable operationally. 
There is no typical profile of a homegrown terrorist; their experiences 
and motivating factors vary widely.
    The added problem of radicalization makes these threats more 
dangerous. No single factor explains why radicalization here at home 
may be more pronounced than in the past. American extremists appear to 
be attracted to wars in foreign countries, as we have seen a number of 
Americans travel overseas to train and fight with extremist groups. 
These individuals may be increasingly disenchanted with living in the 
United States, or angry about U.S. and Western foreign policy. The 
increase and availability of extremist propaganda in English can 
exacerbate the problem.
    The Internet has also become a key platform for spreading extremist 
propaganda and has been used as a tool for terrorist recruiting, 
training, and planning, and has been used as a means of social 
networking for like-minded extremists. Ten years ago, in the absence of 
the Internet, extremists would have operated in relative isolation, 
unlike today.
    In short, we have seen an increase in the sources of terrorism, an 
evolution in terrorist tactics and means of communication, and a wider 
array of terrorist targets here at home. All of this makes our mission 
that much more difficult and requires continued support.
    The fiscal year 2012 budget request includes 63 positions (34 
special agents) and $40.9 million to address these national security 
threats, including funding for surveillance resources to combat 
international terrorism and foreign intelligence threats, as well as 
funding for the High-Value Detainee Interrogation Group, Terrorist 
Screening Center operations, and increased information analysis and 
sharing capabilities.
    Intelligence.--Since 9/11, the FBI has dramatically shifted our 
intelligence program and capabilities to address emerging threats. We 
stood up the National Security Branch, created a Directorate of 
Intelligence, integrated our intelligence program with other agencies 
in the intelligence community, hired hundreds of intelligence analysts 
and linguists, and created Field Intelligence Groups (FIGs) in each of 
our 56 field offices. In short, the FBI improved and expanded our 
intelligence collection and analytical capabilities across the board.
    Today, we are collecting intelligence to better understand all 
threats--those we know about and those that have not yet materialized. 
We recognize that we must continue to refine our intelligence 
capabilities to stay ahead of these changing threats. We must function 
as a threat-driven, intelligence-led organization. The FBI recently 
restructured its FIGs, where each group now has clearly defined 
requirements for intelligence collection, use, and production. With 
this new structure, each office can better identify, assess, and attack 
emerging threats.
    We want to make sure that every agent in every field office 
approaches a given threat in the same manner, and can better turn 
information and intelligence into knowledge and action. The fiscal year 
2012 budget request includes $2.5 million to help with this endeavor.
    Cyber.--A cyber attack could have a similar impact as a well-placed 
bomb. To date, terrorists have not used the Internet to launch a full-
scale cyber attack, but they have executed numerous denial-of-service 
attacks and defaced numerous Web sites.
    Al Qaeda's online presence has become almost as potent as its 
physical presence. Extremists are not limiting their use of the 
Internet to recruitment or radicalization; they are using it to incite 
terrorism. Of course, the Internet is not only used to plan and execute 
attacks; it is also a target itself. Osama bin Laden long ago 
identified cyberspace as a means to damage both our economy and our 
morale--and countless extremists have taken this to heart.
    The FBI, with our partners in the intelligence community, believe 
the cyber terrorism threat is real and is rapidly expanding. Terrorists 
have shown a clear interest in pursuing hacking skills. And they will 
either train their own recruits or hire outsiders, with an eye toward 
coupling physical attacks with cyber attacks.
    The FBI pursues cyber threats from start to finish. We have cyber 
squads in each of our 56 field offices around the country, with more 
than 1,000 specially trained agents, analysts, and digital forensic 
examiners. Together, they run complex undercover operations and examine 
digital evidence. They share information with our law enforcement and 
intelligence partners. And they teach their counterparts--both at home 
and abroad--how best to investigate cyber threats.
    But the FBI cannot do it alone. The National Cyber Investigative 
Joint Task Force includes 18 law enforcement and intelligence agencies, 
working side-by-side to identify key players and schemes. This task 
force plays an important role in the administration's Comprehensive 
National Cybersecurity Initiative. Its goal is to predict and prevent 
that which is on the horizon, and then attribute and pursue the 
enterprises behind these attacks. The task force operates through 
Threat Focus Cells--smaller groups of agents, officers, and analysts 
from different agencies, focused on particular threats.
    Together, with law enforcement, the intelligence community, and our 
international and private sector partners, we are making progress, but 
there is significantly more to do. The fiscal year 2012 budget request 
includes 42 positions (14 special agents) and $18.6 million to enhance 
the FBI's investigatory capabilities and protect critical technology 
network infrastructure from malicious cyber intrusions as well as 
improve analysis of digital evidence.
    Technology and Tools.--The FBI has greatly improved the way we 
collect, analyze, and share information using technology. Intelligence 
provides the information we need, but technology further enables us to 
find the patterns and connections in that intelligence. Through 
sophisticated, searchable databases, we are working to track down known 
and suspected terrorists through biographical and biometric 
information, travel histories and financial records. We then share that 
information with those who need it, when they need it.
    For example, the FBI has developed the Data Integration and 
Visualization System (DIVS), with the goal to prioritize and integrate 
disparate datasets across the FBI. The FBI currently has investigative 
data that is stored and accessed in multiple systems. As a consequence, 
our personnel are spending too much time hunting for data, leaving them 
less time to analyze and share that data to stay ahead of threats. 
Furthermore, this stove-piped architecture and inefficient process 
increases enterprise costs and impedes the speed, effectiveness, and 
responsiveness of intelligence and investigative analysis.
    DIVS provides single sign-on, role-based access controls to analyze 
and link all FBI data that the user is lawfully allowed to see and will 
provide the means to efficiently feed FBI Secret data to the FBI Top 
Secret system. DIVS will not only significantly improve users' 
efficiency in searching multiple databases, it will ultimately help 
reduce or eliminate unnecessarily redundant data systems.
    In addition to creating new technologies, like DIVS, one lesson we 
have learned in recent years is the need to ensure that as new 
technology is introduced into the marketplace, FBI and its law 
enforcement partners maintain the technical capabilities to keep pace. 
In the ever-changing world of modern communications technologies, 
however, FBI and other Government agencies are facing a potentially 
widening gap between our legal authority to intercept electronic 
communications pursuant to court order and our practical ability to 
actually intercept those communications.
    As the gap between authority and capability widens, the Federal 
Government is increasingly unable to collect valuable evidence in cases 
ranging from child exploitation and pornography to organized crime and 
drug trafficking to terrorism and espionage--evidence that a court has 
authorized us to collect. We need to ensure that our capability to 
execute lawful court orders to intercept communications does not 
diminish as the volume and complexity of communications technologies 
expand.
    FBI's fiscal year 2012 budget request includes 23 positions--3 
special agents--and $20.5 million to advance DIVS development and to 
strengthen FBI's and our law enforcement partners' ability to 
successfully conduct lawfully authorized electronic surveillance, 
consistent with existing authorities, by establishing a Domestic 
Communications Assistance Center (DCAC).
    Weapons of Mass Destruction.--The FBI carries responsibility for 
responding to certain Weapons of Mass Destruction (WMD) threats in the 
United States, and the WMD Directorate carries out that critical 
charge. The Directorate was established to be a unique combination of 
law enforcement authorities, intelligence analysis capabilities, and 
technical subject matter expertise that exists nowhere else in the U.S. 
Government. The creation of the Directorate enabled the FBI to focus 
its WMD preparedness, prevention, and response capabilities in a 
single, focused organization rather than through decentralized 
responsibilities across divisions.
    The global WMD threat to the United States and its interests 
continues to be a serious concern. The WMD Commission has warned that 
without greater urgency and decisive action, it is more likely than not 
that a WMD will be used in a terrorist attack somewhere in the world by 
the end of 2013. Osama bin Laden has also said that obtaining a WMD is 
a ``religious duty'' and is reported to have sought to perpetrate a 
``Hiroshima'' on U.S. soil.
    Globalization makes it easier for terrorists, other groups, and 
lone actors to gain access to and transfer WMD materials, knowledge, 
and technology throughout the world. As noted in the WMD Commission's 
report, those intent on using WMDs have been active and as such ``the 
margin of safety is shrinking, not growing''.
    The frequency of high-profile acts of terrorism has increased over 
the past decade. Indicators of this increasing threat include the 9/11 
attacks, the 2001 Amerithrax letters, the possession of WMD-related 
materials by Aafia Siddiqui when she was captured in 2008, and multiple 
attempts by terrorists at home and abroad to use explosives improvised 
from basic chemical precursors. The challenge presented by these 
threats is compounded by the large volume of hoax threats that distract 
and divert law enforcement agencies from addressing real threats.
    The FBI must be poised to handle any WMD event, hoax or real. 
Therefore, the fiscal year 2012 budget request includes 13 positions 
(including 6 special agent bomb technicians) and $40 million to acquire 
the necessary aircraft required to respond to a WMD incident and render 
a device safe.
                            criminal threats
    The FBI faces many criminal threats, from white collar crime to 
organized crime to violent crime and gangs to the extreme violence 
along the Southwest Border. While all of these threats remain, I would 
like to take the opportunity to focus on two of these threats--
investigations along the Southwest Border and violent crime occurring 
in Indian country.
    Southwest Border.--The United States border with Mexico extends 
nearly 2,000 miles, from San Diego, California to Brownsville, Texas. 
At too many points along the way, drug cartels transport kilos of 
cocaine and marijuana, gangs kidnap and murder innocent civilians, 
traffickers smuggle human cargo, and corrupt public officials line 
their pockets by looking the other way. Any one of these offenses 
represents a challenge to law enforcement. Taken together, they 
constitute a threat not only to the safety of our border communities, 
but to the security of the entire country.
    The severity of this problem is highlighted by the following 
statistics:
  --$18 billion-$39 billion flow annually from the United States across 
        the Southwest Border to enrich the Mexican drug cartels.
  --2,600 drug-related murders in Juarez, Mexico in 2009.
  --28,000 drug-related murders in all of Mexico since 2006.
  --93 percent of all South American cocaine moves through Mexico on 
        its way to the United States.
  --701,000 kilograms of marijuana seized during the first 5 months of 
        2010 in Southwest Border States (Arizona, California, New 
        Mexico, and Texas).
  --6,154 individual seizures of marijuana, cocaine, heroin, and 
        methamphetamines during the first 5 months of 2010 in the 
        Southwest Border States.
    The FBI has 13 border corruption task forces, but to address 
security along the Southwest Border, we have developed an intelligence-
led, cross-programmatic strategy to penetrate, disrupt, and dismantle 
the most dangerous organizations and individuals. This strategy begins 
with the deployment of hybrid squads in hotspot locations. The primary 
goal of the hybrid squad model is to bring expertise from multiple 
criminal programs into these dynamic, multi-faceted threats and then 
target, disrupt, and dismantle these organizations. Hybrid squads 
consist of multi-disciplinary teams of special agents, intelligence 
analysts, staff operations specialists, and other professionals. The 
agent composition on the squads provides different backgrounds and 
functional expertise, ranging from violent gangs, public corruption, 
and violent crimes.
    The FBI's fiscal year 2012 budget request includes funding to 
continue these efforts, which were initially provided through 
supplemental funding in fiscal year 2010.
    Indian Country.--The FBI has the primary Federal law enforcement 
authority for felony crimes in Indian country. Even with demands from 
other threats, Indian country law enforcement remains a priority for 
the FBI. Last year, the FBI was handling more than 2,400 Indian country 
investigations on approximately 200 reservations and more than 400 
Indian gaming facilities throughout 28 States. Approximately 75 percent 
of all FBI Indian country investigations involve homicide, crimes 
against children, or felony assaults. American Indians and Alaska 
Natives experience violent crime at far higher rates than other 
Americans. Violence against Native women and children is a particular 
problem, with some counties facing murder rates against Native women 
well over 10 times the national average.'' \1\
---------------------------------------------------------------------------
    \1\ Zaykowski, Kallmyer, Poteyeva, & Lanier (August 2008), Violence 
Against American Indian and Alaska Native Women and the Criminal 
Justice Response: What is Known, Bachman (NCJ #223691), at 5, http://
www.ncjrs.gov/pdffiles1/nij/grants/223691.pdf.
---------------------------------------------------------------------------
    Complex jurisdictional issues and the dynamic and growing threat in 
Indian country requires additional FBI presence. Currently, the FBI has 
18 Safe Trails Task Forces focused on drugs, gangs, and violent crimes 
in Indian country. The gang threat on Indian reservations has become 
evident to the tribal community leaders, and gang-related violent crime 
is reported to be increasing. Tribal communities have reported that 
tribal members are bringing back gang ideology from major cities, and 
drug-trafficking organizations are recruiting tribal members.
    In order to address this situation, the FBI's fiscal year 2012 
budget request includes 40 positions (24 special agents) and $9 million 
to bolster existing Safe Trails Task Forces and to provide additional 
investigative resources to address a significant violent crime threat 
in Indian country.
                                offsets
    The FBI, like all Federal organizations, must do its part to create 
efficiencies. Although the FBI's fiscal year 2012 budget request 
includes $131.5 million in program increases, it is offset, in part, by 
almost $70 million in program reductions. These offsets include $26.3 
million to reduce funding for the FBI's Secure Work Environment 
program, which enables the FBI's national security workforce the 
ability to access top secret information within the FBI and with 
intelligence community partners; almost $1 million to eliminate and 
consolidate FBI Violent Crime and Gang Task Forces; a $15 million 
reduction to Sentinel (the FBI's case management system); $6.3 million 
to reduce support of the relocation program, which strategically 
relocates staff to meet organizational needs and carry out mission 
requirements; almost $1 million to eliminate 12 FBI resident agency 
offices across the country; a $5.8 million reduction to the FBI's 
ability to develop new tools to identify and analyze network 
intrusions; a $2.6 million reduction as a result of surveillance 
program efficiencies; almost $1 million to reduce the amount requested 
to hire and support special agents and intelligence analysts; $5.7 
million to delay the refreshment cycle of FBI desktop and laptop 
computers--delaying refreshment from 4 years to 5 or more years; and a 
$5.9 million reduction for administrative efficiencies, including 
funding for travel, equipment, conferences and office supplies.
                               conclusion
    Chairwoman Mikulski, Ranking Member Hutchison, and members of the 
subcommittee, I want to thank you for this opportunity to discuss the 
FBI's priorities and detail new investments sought for fiscal year 
2012. Madam Chairwoman, let me again acknowledge the leadership and 
support that you and this subcommittee have provided to the FBI. The 
Congress' funding of critical investments in people and technology are 
making a difference every day at FBI offices in the United States and 
around the world, and we thank you for that support.
    I look forward to any questions you may have.

    Senator Mikulski. Well, Mr. Director, thank you very much 
for that candid testimony.
    First of all, again, we want to thank you for your service, 
but we want to thank everybody who works at the FBI for what 
they do, because we know we have highly trained, highly 
dedicated special agents. But everybody who works at the FBI 
feels it's fighting the bad guys, whether it's the Secretary, 
whether it's the people who work in procurement, analysts, 
linguists, and so on. Everybody feels they're a part of the FBI 
family, part of the FBI crime-fighting, terrorist-tracking 
team. And I'm deeply--so, we want to thank them for what they 
do.
    Now, this takes us to this continuing resolution situation. 
I think my colleagues did not realize that many of the people 
who work at the FBI would be considered nonessential, that you 
might have to furlough people. And then, the long-range 
consequences of trying to get caught up, between any cuts at 
the FBI, with the Spartan funding for 2012, would leave you 
with 1,000 vacancies.
    Could you please, today, elaborate on what are the 
consequences, number one, of a shutdown, and number two, could 
you elaborate on what you said in your opening remarks about 
where we are in this continuing resolution?

                OPERATING UNDER A CONTINUING RESOLUTION

    Mr. Mueller. Well, there are a number of aspects that are 
disconcerting, at best, in terms of the proposed shutdown. 
Already, we've had to expend substantial manpower anticipating 
and preparing for the shutdown. I will say that most agents, 
analysts, and others that are involved in ongoing 
investigations will be considered critical. But, there are a 
number of areas, particularly at headquarters, where they would 
be deemed noncritical, and the initiatives, whether they relate 
to child pornography or cyber or other arenas, particularly on 
the criminal side, will suffer and have to be put on hold.
    Training for our new agents, for the National Academy, and 
for State and local law enforcement that is ongoing would 
undoubtedly be disrupted. In some sense, where we have had, I 
believe, a great deal of momentum to transform the FBI, this 
will be put on hold, of course, during the extent of any 
particular shutdown.
    Turning to the second issue, and that is the impact of the 
continuing resolution. As I pointed out in my opening remarks, 
this would dramatically set us back. And let me, if I could, 
give you an example----
    Senator Mikulski. Please.
    Mr. Mueller [continuing]. In the mortgage fraud arena, 
which you mentioned earlier.
    Because of the mortgage fraud crisis in 2009--and in 2010--
there was a supplemental relating to financial fraud.
    Senator Mikulski. Right.
    Mr. Mueller. We were given approximately 200 slots to 
address this crisis by the Congress. It was a supplemental, so 
it was a one-time payment for these individuals. And of course, 
we are seeking the recurrence so that we can keep those persons 
onboard. The fact that we are looking at a 2010 base for our 
2011 budget means that we do not get those slots. We also had 
put in, for the 2011 budget, a request for another 150 
personnel to address the crisis, which, with the previous 200 
in 2010, would come to 350 persons to address the mortgage 
fraud crisis. We are not going to get those individuals. They 
are part of the 1,100 vacancies that we will be unable to fill 
if we are not given an anomaly or some other relief from what 
is proposed in the continuing resolution that is currently 
being discussed, at a time when the number of suspicious 
activity reports from financial institutions grew to almost 
70,000 back in 2010.
    So, acknowledged by the Congress as a threat to the 
financial institutions, we've sought funds, and we anticipate 
getting those bodies onboard. In some cases, we have. But we're 
not going to be able to get the funding to sustain the momentum 
in addressing that particular issue.
    Senator Mikulski. Well, I'm going to make sure my 
colleagues have questions, here. And my questions related to 
cybersecurity, et cetera, I'll save for the other hearing 
environment. But, I----
    Mr. Mueller. May I add one----
    Senator Mikulski. Yes.
    Mr. Mueller. I'm sorry to interrupt.
    Senator Mikulski. Let me--go ahead. Please, Director.
    Mr. Mueller. One other thing is--I talked about what we got 
in 2010, in terms of 200 funded staffing level, and then 
another 150 would have been in the 2011 request. We're here 
talking about 2012. We did not get additional resources in the 
2012 budget.
    Senator Mikulski. That's right.
    Mr. Mueller. We assumed, and persons looking at our budget 
assumed, that we had enhanced our capabilities by 350. So, 
we're not even discussing getting additional mortgage fraud 
resources in 2012, because we had assumed that we would be 
beefed up by the time that we were discussing the 2012 budget.
    Senator Mikulski. So, you really get a triple hit.
    Mr. Mueller. We do.
    Senator Mikulski. You got a hit in the continuing 
resolution now, which could really be a hit. You got a hit in 
the 2011. And you get a hit in 2012.
    Mr. Mueller. Yes, ma'am.
    Senator Mikulski. Now--but, just for purposes of the 
subcommittee background, colleagues, this was the mortgage 
fraud initiative and it shows the way we tried to work with 
agility in meeting the contemporary needs--this was a 
bipartisan effort in fighting mortgage fraud that came from 
Senator Shelby and myself--Senator Shelby, ranking member on 
Banking, who really knew the stuff and what was needed. And we 
worked together to jumpstart the FBI dealing with mortgage 
fraud that requires--Mr. Director, don't you have really unique 
skills in things like forensic accounting?
    Mr. Mueller. We do.
    Senator Mikulski. So, it wasn't just like 300 people that, 
you know, you can get off the shelf from local law enforcement.
    Mr. Mueller. They have to be very well trained, experienced 
agents to do white-collar cases, particularly the multimillion 
dollar mortgage fraud cases.
    Senator Mikulski. Like Madoff.
    Mr. Mueller. The Madoff case was a Ponzi scheme, but, in 
addition to the mortgage fraud crisis, where we have more than 
3,000 cases, we have securities fraud and we have corporate 
fraud. You have the Madoffs, the Ponzi schemes that we're also 
responsible for investigating. The agents to investigate it 
have to have some experience in the financial arena. Forensic 
accountants are absolutely indispensable. Analysts not only 
work on the current caseload, but anticipate the next type of 
crisis, and are tremendously important as well. All of these 
are part and parcel of those positions that we had started 
growing in 2010 and anticipated to continue in 2011 and 2012.
    Senator Mikulski. Well, I'm going to turn to Senator 
Hutchison. But, what I wanted my colleagues to see, some new to 
this subcommittee, this was a bipartisan effort to return to a 
national situation that was identified by the ranking member, 
and then we worked together on it. And now, we don't want it to 
sputter out. So, Senator Hutchison.
    Senator Hutchison. Well, thank you, Madam Chairman.
    I want to ask you, Mr. Director, about the lack of support 
for the Southwest Border efforts--the $130 million. And if you 
would comment on the status of your request of the Justice 
Department for more funds, and what you think are the highest 
priorities for the Southwest Border that you would use more 
funds to address.

                        SOUTHWEST BORDER FUNDING

    Mr. Mueller. Well, we did obtain some funds from the 
Southwest Border supplemental.
    Senator Hutchison. The supplemental.
    Mr. Mueller. And our requests throughout the years has been 
generally directed at specific targeted activities where we 
have some degree of expertise. We have a number of public 
corruption cases that we handle along the border. We have 14 
border corruption task forces that we operate with other 
participants.
    Another aspect that you mentioned was the violence that 
crosses the border. There had been a spate of kidnappings, 
where there are individuals who may live in the United States, 
but have either businesses or family in Mexico who were 
kidnapped in Mexico, and the victim's families would be in the 
United States. We developed a series of task forces to address 
that. But that is still a continuing issue for us.
    We have more than 500 agents who are working under the 
Organized Crime Drug Enforcement Task Force (OCDETF) program. 
They're looking at criminal enterprises, the drug-trafficking 
organizations.
    And along the same lines, we have had recent successes in 
addressing Barrio Azteca. I'm sure you're familiar with that 
prison gang that has cross-border roots and has grown 
substantially over the last several years. That comes out of 
our working on what we call our ``criminal enterprise cases.''
    Two areas of initiatives where we have sought money, have 
gotten some money, and relate to intelligence. We have put 
together an intelligence unit down in El Paso that pulls in 
intelligence for all of our border offices, as well as 
headquarters and intelligence with our legal attache office in 
Mexico City. We share that intelligence with DEA and others in 
the intelligence community that are also colocated in El Paso.
    Senator Hutchison. Are you saying you need more for that to 
be completely effective?
    Mr. Mueller. Yes, we could always use more funds to expand 
on the intelligence arena.
    But, we also have gotten funds for what we call ``hybrid 
squads'' that pull together agents who have expertise in money 
laundering and narcotics trafficking, in public corruption and 
the various programs that are impacted along the border. We 
have, I think, close to 10 hybrid squads, at this point, that 
bring these various skill sets together, and they have been 
very effective in addressing the criminal issues that relate to 
the Southwest Border.
    Senator Hutchison. Well, my information says that you would 
be facing a deficit of $200 million if you're left at fiscal 
year 2010 levels in that particular hybrid squad----
    Mr. Mueller. I think that may be true. Excuse me just a 
second.
    Yes, you're right. I just wanted to check and make certain 
that the $200 million is the overall deficit that we will face, 
not just in the hybrid squads, but if the continuing resolution 
is passed, as is anticipated, then we'll have the $200 million 
deficit, and in that $200 million deficit----
    Senator Hutchison. Is the----
    Mr. Mueller [continuing]. Are funds for the hybrid squads.
    Senator Hutchison. Let me ask you another question on this 
crossing that we're finding of other-than-Mexican entrants, 
illegally, into our country. And it's the Somalian issue. We 
know that, through Big Bend, a group of Somali illegal 
immigrants doing criminal activity were apprehended, because 
the park officials, the park rangers, noticed and were alert 
and went to the Border Patrol. And the Border Patrol then 
apprehended these individuals at the next border checkpoint. 
And they were tried and found guilty. But, you and I discussed 
that we have a problem with Somalis who are engaged in 
terrorist activities, because there's no government to which 
they can be returned. How are you dealing with that? And how 
can we be helpful?
    Mr. Mueller. Well, it is a continuing issue. From our 
perspective, our role is to interview any of the special-
interest aliens that come across the border, regardless of the 
country of origin, but particularly those who are coming across 
the border from those countries that are known to harbor 
terrorists. We work with Customs and Border Patrol (CBP) to not 
only identify but to interview and determine the threat that 
any of these individuals present.
    With regard to Somalis who show up on the border, I do 
believe it is accurate that decisions have to be made. 
Inevitably, they are seeking asylum, and decisions have to be 
made whether they are legitimate asylum seekers, which is done 
by, quite obviously, the Department of Homeland Security (DHS).
    Senator Hutchison. Right.
    Mr. Mueller. We work very closely to try to ferret out 
those who are here with legitimate asylum concerns and others 
who are here for other purposes. I would be happy, in closed 
session, to elaborate a little bit more on the numbers and what 
we have found.
    Senator Hutchison. Well, let me just say, I have a number 
of questions for the closed session. I'd like to give my other 
colleagues a chance to question you, as well. And my time is 
up.
    So, thank you very much.
    Mr. Mueller. Thank you.
    Senator Mikulski. We're going to go to Senator Lautenberg, 
Senator Johnson, and then Senator Pryor.
    Senator Lautenberg. Thank you, Madam Chairman.
    And, Director Mueller, thank you for the job that you've 
done.
    Mr. Mueller. Thank you, Sir.
    Senator Lautenberg. You've elevated the view of the FBI and 
the complicated tasks that it has to highly professionally 
skilled, and a very efficient team, and we thank you for your 
work.
    Life has gotten more complicated--things that we never 
thought about before, about people who are willing to take 
their lives to kill others; the cyber side of things. All of 
these are relatively new findings in the lives we live. And it 
has made it tougher, and requires more resources.
    And I'll try to ask you my questions in short form, and 
maybe we get going, because I'm sorry that I can't join you in 
the next meeting.

                               BRADY LAW

    In Tucson, the shooter used a high-capacity ammunition 
clip, killed 6 people, wounded 13, and was tackled when he was 
trying to reload. So, such clips were banned until 2004. And 
they were part of an expired assault weapons ban. And now, even 
former Vice President Dick Cheney has suggested that maybe it's 
time to reinstate this ban--it may be appropriate to do so. So, 
what do you think about it?
    Mr. Mueller. I think I'll speak generally, and leave the 
specific comments on particular legislation to the Department 
of Justice. But, anybody in law enforcement is concerned today 
about the high-velocity, high-caliber automatic/semi-automatic 
weapons, and the threat of those weapons falling into the hands 
of criminals. I, like just about anybody involved in law 
enforcement, am supportive of areas in which we can lessen the 
threat of weapons in the hands of criminals, particularly those 
weapons that do substantial damage.
    Senator Lautenberg. Yes. Because that magazine is designed 
for military and law enforcement use, and it should not fall 
into the hands of people who don't have a purpose other than 
malice to deal with it.
    The Brady law, Mr. Director, requires gun purchasers to 
undergo background checks to make sure they're not felons, 
convicted domestic abusers, or severely mentally ill. But, the 
gun show loophole allows anyone to walk into that gun show--it 
could be the most known criminal--put down the money, and walk 
away with guns. And we hear a lot about the need to enforce the 
laws that we have on the books. What effect does the gun show 
loophole have on our ability to enforce the Brady law, which 
says that you shouldn't be able to--that people like that 
should not be able to get gun permits?
    Mr. Mueller. Well, again, I'll talk generally, as a member 
of the law enforcement community, where to the extent that we 
can keep weapons out of the hands of criminals, we generally 
are supportive.

                           GUN SHOW LOOPHOLE

    Senator Lautenberg. Well, what do you make about the gun 
show loophole, Mr. Mueller?
    Mr. Mueller. To the extent that we do not have a mechanism 
of assuring that persons who have a criminal past or a reason 
for not being given a weapon, I think everybody in law 
enforcement would be supportive of--some mechanism that would--
--
    Senator Lautenberg. I assume that's a ``Yes.'' and that you 
think the gun show loophole ought to be closed. Do you want to 
correct me?
    Mr. Mueller. I have nothing further to say, other than, 
speaking generally for law enforcement, there are very few of 
us who would disagree with the desirability of having screening 
mechanisms that would enable us to keep the guns out of these 
hands of those persons who should not have them.

                        TERRORIST ACCESS TO GUNS

    Senator Lautenberg. Okay. The Federal law allows people on 
the terror watch list to legally purchase a gun or even 
explosives. In response to a letter I sent to you in 2005, the 
Department of Justice recommended giving the Attorney General 
the power to deny guns and explosives to a terror suspect. And 
I've introduced a bill that would do that.
    Now, Attorney General Holder has expressed support for 
closing the terror gap in our laws. Do you think it's time to 
close the terror gap that exists?
    Mr. Mueller. I would say this is a complicated issue. I 
clearly want to keep guns out of the hands of would-be 
terrorists. It requires looking at persons who are on the 
terrorist watch list, and the basis for putting persons on the 
terrorist watch list. But, I think, generally, it goes to what 
I said before, that if you're trying to prevent terrorist 
attacks and you're trying to prevent persons who should not 
have weapons from getting weapons to undertake terrorist 
attacks, a screening mechanism is something that all of us 
believe is important.
    Senator Lautenberg. Director Mueller, do you--is there some 
faulty process in putting people on the terrorist watch list? 
Is it an unreliable list?
    Mr. Mueller. No, I don't believe so, at all.
    Senator Lautenberg. Okay. So, it strikes me as kind of an 
anomaly that people who are on a list that says these are 
suspects for terror, and they can walk in and buy a gun. And 
we've seen a couple of instances where some of these permits 
were permitted to go through and created havoc, in terms of 
discovering that they were involved with explosives, et cetera.
    Mr. Mueller. And I share your concern.

             PORT NEWARK AND LIBERTY INTERNATIONAL AIRPORT

    Senator Lautenberg. Can I ask one more question, Madam 
Chairman? And that is, the stretch between Port Newark and 
Liberty International Airport has been identified--by the FBI, 
I might add--as the most dangerous area in America for a 
terrorist attack. There are chemical manufacturers, there are 
rail systems and the port--all kinds of things. And 12 million 
people live within a 12-mile radius of that 2-mile stretch. An 
attack on this area could not only cause untold death and 
injury, but also cripple the economy. And last year I believe 
you said that additional resources would go toward protecting 
this 2-mile area. Are there specific items in this budget 
request that will help the FBI protect this area further?
    Mr. Mueller. Well, let me start by saying that I've 
appeared before this subcommittee annually for a number of 
years now, and I know this is a topic that we would discuss 
each year, and have. I can assure you that since we've had the 
original discussion, and each year it's raised, we go back to 
make certain that which we have put in place to address this 
particular strip of territory--the Homeland Security Task 
Force, the Joint Terrorism Task Force (JTTF) is doing 
everything it can to assure that there is not an attack there. 
And I am continuously reassured that is the case.
    Going to the question of whether there is anything 
specifically in the budget request that would address that, I'd 
have to get back to you on it.
    [The information follows:]
               Budget Request for Resources in New Jersey
    The Federal Bureau of investigation's (FBI) fiscal year 2012 
request to the Congress does not include an enhancement to specifically 
address the stretch between Port Newark and Liberty International 
Airport, however, the FBI and the Department of Homeland Security, 
working through Task Forces, are working diligently to combat any 
threats and ensure the area remains safe.

    Senator Lautenberg. Thanks very much. And I would urge you 
to hang around as long as you can. I've tried it, and I like 
it.
    Thank you very much.
    Senator Mikulski. Senator Johnson.
    Senator Johnson. Thank you, Madam Chairwoman, Director 
Mueller, again thank you for your service, not only as FBI 
Director, but all your public service, including being a U.S. 
marine.
    I'm the new kid on the block here, so I'm going to try--in 
my questions here, try and determine the priorities of the 
Department. I'm an accountant, so I like doing that, actually 
using the budget process, in terms of where you spend your 
money.

                       FBI BUDGET PRIORITIZATION

    So, first of all, in your budgeting process, do you 
categorize the areas of your concern in the--so I can kind of 
figure out where the money goes?
    Mr. Mueller. Absolutely. There are two processes we go 
through. One is the programmatic prioritization. One of the 
first steps we took after September 11 was setting programmatic 
priorities for the organization as a whole, simply put, so 
everybody understood what those priorities are. And they are 
the same priorities today: on the national security side, 
counterterrorism, counterintelligence, and cyber--protecting 
the country from terrorist attacks, theft of our secrets, and 
cyberattacks; on the criminal side, it's public corruption and 
civil rights, followed by transnational/international organized 
crime, followed by substantial white-collar crime and violent 
crime.
    Everyone, from top to bottom, knows that these are the 
eight programmatic priorities. There are two more. One is to 
understand that our successes depended on our cooperation with, 
and support of, State and local law enforcement and our persons 
overseas, and the necessity of bringing the FBI into the 
technological age.
    Our budget process is set up so that if you want additional 
personnel and additional resources, they have to fit into the 
budget framework.
    On the other side, we have initiatives that we identify 
each year--10 or so initiatives. One initiative this last year 
was to establish regional intelligence centers to complement 
what we do throughout the country. There are about six of 
those.
    So, our budget process sets the priorities first, and then 
everybody who wishes to benefit--and by that, I mean our 
various programs--have to understand where they fit in the 
prioritization process.
    Senator Johnson. In round numbers, can you give me the top 
four or five, in terms of how much is spent in these areas, 
then?
    Mr. Mueller. Not off the top of my head. I will tell you 
that the way I look at it, in some sense, is we've got two 
sides of the house. One is the criminal side of the house which 
we've done traditionally for 100 years. The other is national 
security.
    Senator Johnson. Can you give me numbers on those?
    Mr. Mueller. About 50/50.
    Senator Johnson. It's about 50/50.
    Mr. Mueller. About 50/50. It used to be, before September 
11, we had about 10,000 agents on the street. About 7,000 were 
working criminal programs and about 3,000 were working national 
security. We're up a couple thousand more. So, on the street we 
have maybe 6,000 agents who are doing the criminal programs and 
approximately another 6,000 who are doing the national security 
programs.
    The one point I would make is that we had to move 2,000 
agents from the criminal programs over to national security in 
the wake of September 11. There has not been a backfill, 
really, for those bodies.
    Senator Johnson. So, you--prior to 9/11, you had about 
10,000 employees, and now you've got about 32,000? 31,500?
    Mr. Mueller. We've got about 35,000 employees, now. I was 
talking about agents on the street. In other words----
    Senator Johnson. Okay.
    Mr. Mueller [continuing]. Not agents at headquarters, but 
those that are actually out there doing investigations, of 
which we had approximately 10,000 prior to September 11.
    Senator Johnson. How many agents do you have right now, 
then?
    Mr. Mueller. We have approximately 13,800 agents now, 
almost 14,000 agents. And the total in the FBI is more than 
35,000 now.
    Senator Johnson. So, how are those split, then, between the 
two top categories, on criminal versus counterterrorism?
    Mr. Mueller. You mean of the agents?
    Senator Johnson. Agents, correct, on the street.
    Mr. Mueller. It's about 50/50, still.
    Senator Johnson. Okay. So, again, you took 2,000 from 
criminal, basically, and put that into counterterrorism.
    Mr. Mueller. Yes.
    Senator Johnson. And then, you added probably about 3,000.
    Mr. Mueller. Yes. Approximately 2,700.
    Senator Johnson. Okay.
    Mr. Mueller. But most of the resources we have received 
over the years have been in support of the national security 
function, in building up the national security side of the 
house.
    Senator Johnson. Okay, good. I mean, that just gives me a 
feel for the priorities.

                             MORTGAGE FRAUD

    Can you describe who's the--who are the targets? I mean, 
what--who are the criminals in the mortgage--in--this in the 
mortgage fraud crisis? I'm--I need to be brought up to speed on 
this.
    Mr. Mueller. Well, they go from entities and individuals on 
Wall Street to various different types of schemes and scams in 
the various communities, which might involve the builders, the 
appraisers, cooperating homeowners, and Realtors. There are a 
variety of schemes that were used to suck money out of the 
mortgage market to benefit persons, both small and large, 
during that crisis. So, we have, from bottom to top, the 
investigations--some very large investigations where there are 
multimillion-dollar losses, to those investigations where there 
was an ongoing conspiracy for 2 or 3 years, where you might 
involve a real estate agent, the appraiser that was jimmying 
the appraisals, and cooperating homeowners and builders.
    Senator Johnson. Can--just real quick--does that still 
pose--are we kind of mopping up after the damage, or does this 
still pose a pretty significant threat to our financial system?
    Mr. Mueller. I think we are on the downslope of the issue. 
What I find is that white collar crime is cyclical, in some 
sense. Back in 2002, 2003, we had Enron, we had WorldCom, we 
had HealthSouth, we had any number of large corporations that 
we were investigating for fiddling the books, particularly in 
their quarterlies and the like. And we had to ramp up to 
address that particular crisis.
    This is a crisis we have ramped up to address, and we're on 
the downslope. Our concern, if any, is, apart from the 
homeowner mortgage crisis, to the commercial mortgage arena, in 
which we have seen an uptick in fraudulent activities, while 
there's been, I would say, a slowed growth in the homeowner 
mortgage set of cases.
    Senator Johnson. Okay. Thank you.
    Senator Mikulski. Part of the reason there's been a slow 
growth is because they've been prosecuted, and they know the 
FBI will come after them.
    Mr. Mueller. Yes, I should have alerted you to that. Yes. 
The deterrence gets out there. You've seen people hauled away 
in handcuffs.
    Senator Mikulski. In other words, these are bottom fishers. 
I mean, the prosecutions have been a form of prevention of 
further activity.
    But, Senator Johnson, if you want to have additional 
briefings from the FBI, they'll be happy to talk with you.
    Mr. Mueller. Be happy to do that.
    Senator Mikulski. Senator Pryor and--then Senator Collins.
    Senator Pryor. Thank you, Madam Chair.
    And thank you, Mr. Director.
    Mr. Mueller. Senator.
    Senator Pryor. And it's always good to see you. Thank you 
for being here today.

                            SOUTHWEST BORDER

    For my first few questions, I'd like to focus on the 
Southwest Border, and particularly on the Mexican drug cartels. 
My first question is somewhat of a followup to Senator 
Hutchison's questions.
    We had a hearing last week, in one of the Homeland Security 
subcommittees, where we talked about the new and innovative 
ways that drug traffickers are trying to get their product into 
the United States illegally. It's everything from tunnels to 
catapults to fake company vehicles, vehicles that have been 
painted up like a delivery truck, to submarines, to ultralight 
aircraft. They're just innovating like crazy to try to get 
these illegal drugs into the United States.
    And sort of a general question would be--I know that you 
are working on this; I know DEA, CBP--everybody really seems to 
be working on this. But, are we getting it right? That's just a 
general question. Are we allocating enough resources? Do we 
have enough focus on those Mexican drug cartels? Are we getting 
it right down there?
    Mr. Mueller. In some sense, we're always reacting to the 
innovation that you discussed. If you take something like 
ultralights, we, along with DEA and others along the Southwest 
Border, have addressed this particular concern, and also with 
the help of the military, for obvious reasons, when it comes to 
submarines and the like. When we identify a new mechanism or 
way of transporting drugs to the United States, we react very 
effectively.
    The key to success often is having the sources, not in the 
United States, but sources in other countries that alert you to 
the new mechanisms of transporting the goods into the United 
States. I believe we have been very effective over the years--
ourselves, working closely with DEA--in gathering the 
intelligence that would alert us to the new mechanisms of 
trafficking in the United States.
    Additional resources would always be helpful. Would it make 
a substantial impact on the ability? Because there's so many 
different ways that drugs are coming to the United States--
there's no one pipeline that you could cut off--it's hard to 
tell the overall impact. But, I think we do a good job at 
responding to the new, innovative ways that the traffickers are 
attempting to get the drugs across the border.
    Senator Pryor. You know, another problem we've had--and 
this has been most visible in CBP, although it apparently is in 
other agencies, as well--is that the drug cartels are actively 
trying to corrupt U.S. officials, U.S. employees, Border Patrol 
agents, et cetera. Are you seeing that phenomenon within the 
FBI?
    Mr. Mueller. Not within the FBI. We do the investigations 
in other agencies. We may have had one or two instances where--
over 4 or 5 years ago--maybe it's more than that, but certainly 
under 10--in which we've had, we believe, FBI employees acting 
improperly on behalf of those who may be affiliated with 
cartels.
    Senator Pryor. I know that one of the problems the CBP has 
had is that they've done all this new hiring----
    Mr. Mueller. Yes.
    Senator Pryor [continuing]. To try to beef up the border. 
The Congress has been pushing more hiring along the border. But 
they have not kept up with their own policies and procedures, 
in terms of doing polygraphs before people are hired, and doing 
the background checks once they're hired, et cetera. And my 
understanding is FBI has actually tried to lend a hand there 
with polygraphs. So----
    Mr. Mueller. We do.
    Senator Pryor. Yes. So, I appreciate that. And I think 
there---- again, it sort of underscores the team effort nature 
of this.
    Mr. Mueller. We have border corruption task forces that we 
participate in along the border----
    Senator Pryor. Right.
    Mr. Mueller [continuing]. Focused just on this.

                                 GANGS

    Senator Pryor. And another related issue is that the 
Mexican drug cartel has a big presence in the United States. 
And they're using a lot of gangs. Some of these are street 
gangs. Apparently, there's a concern about the prison system, 
where folks come out of the prison system and they join these 
gangs; they've been recruited, I guess you can say, in the 
prison system. Are you seeing that phenomenon? And, in your 
budget, are you trying to address that?
    Mr. Mueller. Well, I mentioned Barrio Azteca earlier, which 
is on the Texas border. In California you have the Mexican 
Mafia, Nuestra Familia in northern California, and across the 
border, you can identify those gangs that have operations or 
have hierarchy in Mexico and are running the trafficking 
through these gangs in the United States, or have relationships 
with the cartels, in order to bring the drugs in and distribute 
them.
    We had to make a decision after September 11 to move 2,000 
agents to counterterrorism. We sat down and looked at what we 
were doing. Where did we take the 2,000 agents? We took a 
majority of those agents from the drug programs, where they 
were doing enterprise cases, working with DEA and OCDETF, and 
moved them over to national security. We also took agents who 
were doing smaller white-collar criminal cases and moved them 
over to national security. That has meant that we have not had 
anywhere near the footprint we had in addressing narcotics 
cases in the wake of September 11. And, as I indicated, the 
2,000 bodies taken from the criminal side of the house have not 
been backfilled. So, in our budget, that is not one of those 
priorities that I alluded to.
    Senator Pryor. Right.
    Mr. Mueller. And you either prioritize, or you don't. You 
can't pick and choose.
    Senator Pryor. Right. Thank you.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Collins. And----
    Senator Collins. Thank you, Madam Chair.
    Senator Mikulski [continuing]. We're so glad you're--well, 
we're glad everybody's a member--but, as ranking member on the 
Homeland Security Committee, I think you really bring an 
incredible body of knowledge on this, and hope you can join us, 
also, in the classified hearing, at the conclusion of your 
questions.
    Senator Collins. Thank you. I'm delighted to be a new 
member of this subcommittee with such great leaders. During a 
recent dinner with the women of the Senate, we decided that, if 
necessary, we're going to take over the budget negotiations, 
because we're confident we could produce a budget. And I say 
that only partially in jest. I think we really could work this 
out.
    Mr. Mueller. Then I'd say I look forward to working with 
you.
    Senator Collins. Exactly.
    This is--I know that issue has been covered, and I just 
want to associate myself with the comments that have been made, 
to express my great concern on what the real-life impact is if 
Government is unable to function.
    I also want to associate myself with the comments of my 
colleagues in thanking you for your public service. I know, as 
Senator Hutchison has mentioned, that you are the first FBI 
Director to serve the full 10 years since the Congress put that 
requirement in place. That continuity of leadership has allowed 
you to accomplish a great deal and has been extremely important 
as the FBI has gone through a fundamental transition in its 
mission.
    As you are well aware from our numerous conversations, the 
Homeland Security Committee recently completed its 
investigation into the Fort Hood attack and issued a 
comprehensive report, which has a number of findings and 
recommendations that relate to FBI. I know that, last week, you 
testified before the Judiciary Committee, and were asked about 
our report, and discussed the improvements FBI has undertaken 
in response to our recommendations.

                           FORT HOOD SHOOTING

    A critical failure that our report identified was the 
failure of one of the JTTFs--the one in San Diego--to fully 
share information about communications between Major Hassan and 
a suspected terrorist with the Washington JTTF and with FBI 
headquarters and with the DOD. Have you put in place reforms 
that would prevent that kind of stovepiping from occurring 
today?
    Mr. Mueller. Well, I'm not certain I would agree with the 
characterization of a conscious stovepiping. I do believe that 
information was shared--and we can get into this in more 
detail--but, I do believe information was shared from San Diego 
to Washington. Now, the followup, in terms of taking that 
information and moving on it, is an area that we addressed, and 
we addressed it through additional training and the like.
    In terms of the information to be shared, there were areas 
that related to our ability, technologically, with our 
databases, to pull together a variety of pieces of information, 
and continue to retrieve that information and share it, that we 
had to address. We have addressed that and are indeed in the 
process of utilizing that as a basis for having the capability 
of doing federated searches across a variety of databases.
    So, in the immediate wake of Fort Hood, we looked at that 
and saw that this was a vulnerability and a weakness that we 
had to address. And we have been doing that.
    I might also add, if I could, that we are seeking 
additional software capabilities in the 2012 budget to address 
this. But those are my thoughts on that issue.
    Senator Collins. Well, some information was shared. I think 
you will agree that not all of the communications were shared. 
And the result was that the Washington JTTF did a very cursory 
review of--once it got the information from San Diego, which 
caused great consternation by San Diego.
    But, let me ask you a more fundamental question about this. 
An important conclusion of our report was that this was not--
this case, with Major Hassan, was not treated as a 
counterterrorism case, that the FBI's counterterrorism division 
at headquarters was not informed to try to resolve the 
conflicts between the two JTTFs. And the DOD was not fully 
informed, pursuant to the longstanding delimitations agreement. 
What has been done to address those issues?
    Mr. Mueller. Well, there are two things we found, in the 
wake of what happened down there that we need to address.
    We had informal discussions with DOD, on an informal, 
basically ad hoc basis, with regard to individuals in the 
military who may present a counterterrorism issue here in the 
United States. That was inadequate. We have, now, a formal 
relationship, periodic meetings in which we go over every case 
that, in any way we come up with, affects the military. And 
also, the military exchanges information with us. So we have 
addressed that problem--that gap.
    The other issue that you talked about, and that is the 
coordination by headquarters in the FBI: we have 56 field 
offices, 400 resident agencies, thousands of counterterrorism 
cases. And we have substantially built up the headquarter's--
and I won't say ``control''--coordination and support since 
September 11. And I believe it works effectively almost all the 
time. There are going to be instances where it does not get up 
to where it should be and decisions are made at a lower level 
on a particular case that should have been raised up. This, 
perhaps, was one of them.
    But, the other point that I do want to make, with regard to 
what happened in this particular case between our JTTFs--and I 
can get into this maybe a little bit deeper when we're in 
closed session--but, in certain cases, the volume of 
information that has to be reviewed may be too broad for one 
particular field office to handle. We have changed our 
processes so there are redundant reviews to assure that if 
something is not picked up in the first instance in a field 
office, it will be picked up at headquarters in a redundant 
review to address that particular issue.
    Senator Collins. Thank you. Thank you, Madam Chair.
    Senator Mikulski. And, as I said to Senator Johnson, if you 
want an additional series of meetings, the FBI will. And it's 
also worthwhile going over. And it will tie in directly, 
particularly with cybersecurity. But, we'll talk about it in 
our next stop, here.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions, the Senators may submit 
additional questions for the official hearing record. And we'd 
like the FBI's response in 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the FBI for response subsequent to the 
hearing:]
               Questions Submitted by Barbara A. Mikulski
                   mortgage fraud--predatory lending
    Question. Predatory lenders continue destroying families and 
communities across the United States and undermining faith in our 
financial systems. The Federal Bureau of Investigation's (FBI) mortgage 
fraud workload has increased as more predatory lenders are exposed. 
Last year, the Congress allocated $245 million for FBI to hire new 
agents and forensic accountants dedicated to investigating mortgage 
fraud, bringing the total number working on this problem to more than 
910 agents.
    What can FBI do when it has full teams of agents, forensic 
accountants, analysts, and attorneys to work on the financial fraud 
case workload?
    Answer. The addition of any investigative analysts and forensic 
accountants would assist the agents and attorneys in investigating and 
prosecuting the roughly 3,000 pending mortgage fraud cases and 2,400 
corporate securities and commodities fraud cases.
    The average length of a complex mortgage fraud investigation ranges 
from 2 to 5 years, and with the current funded level of agents, the 
average mortgage fraud caseload is approximately nine cases per agent. 
With a full team, the FBI will be able to increase the pace at which 
cases can be investigated and prosecuted, and reduce the caseload per 
agent.
    The 3-year average impact per agent for mortgage fraud was 
$6,436,213 during the period of fiscal year 2008-fiscal year 2010. The 
3-year average impact per agent for corporate securities and 
commodities fraud was $31,541,257 during the period of fiscal year 
2008--fiscal year 2010. This calculation is based on the amount of 
restitution, recoveries, fines, and forfeitures generated from the 
mortgage fraud cases by agents assigned to investigate the cases.
    Question. There has been some speculation lately as to why FBI is 
``targeting'' smaller financial fraud cases rather than going after 
much bigger ones on Wall Street. Please explain if this is true and how 
the FBI prioritizes cases.
    Answer. FBI does not ``target'' cases involving lone offenders, 
small dollar losses, or lower-level violations. Rather, we investigate 
and pursue financial fraud in all its forms, and we are keenly 
interested in investigating cases that involve large dollar losses, 
multiple fraud victims, criminal enterprises, or behavior that poses a 
heightened risk of undermining trust in financial markets. Of course, 
the pace of large, complex financial fraud investigations--which often 
take 2 years or more to thoroughly investigate--will not match the 
quicker pace of more straightforward fraud cases. But there should be 
no doubt that we are committed to using all resources at our disposal 
to pursue large, complex financial fraud wherever we find it.
    By way of illustration, throughout the past year, FBI and its 
partners at all levels of law enforcement continued to uncover and 
assist in the prosecution of massive frauds and Ponzi schemes. At the 
end of fiscal year 2010, FBI had more than 2,300 active corporate and 
securities fraud investigations. During the same timeframe, we were 
involved in more than 3,000 ongoing mortgage fraud investigations. Here 
are a few examples of the types of cases we have been pursuing:
  --In April 2010, Thomas J. Petters was sentenced to 50 years in 
        prison for his role in operating a $3.65 billion Ponzi scheme 
        through his company, Petters Group Worldwide LLC.
  --In June, Lee Farkas, former chairman of Taylor, Bean, and Whitaker, 
        a large mortgage origination company, was charged with a $1.9 
        billion fraud that contributed to the failure of Colonial Bank, 
        one of the largest banks in the United States and the sixth-
        largest bank failure in the country.
  --In July, Paul Greenwood, a managing partner at both WG Trading and 
        Westridge Capital Management, pled guilty to his role in a $700 
        million scheme that defrauded charitable and university 
        foundations as well as pension and retirement plans.
  --In October, Jeffrey Thompson, former president of Hume Bank, pled 
        guilty to making false statements to the FDIC as part of a bank 
        fraud scheme which caused such significant losses that the 
        institution was pushed into insolvency. Thompson faces a 
        sentence of up to 30 years in Federal prison, plus a fine up to 
        $1 million and an order of restitution.
  --In February 2011, Michael McGrath, former president and owner of 
        U.S. Mortgage Corporation, formerly one of the largest private 
        residential mortgage companies in New Jersey, is scheduled to 
        be sentenced for his role in perpetrating a corporate fraud 
        scheme involving the double selling of mortgage loans to Fannie 
        Mae with losses in excess of $100 million. McGrath faces up to 
        20 years' Federal imprisonment, as well as payment of 
        restitution and forfeiture of assets.
    These are just a few examples of the thousands of financial fraud 
investigations ongoing at FBI and conducted in conjunction with the 
administration's Financial Fraud Enforcement Task Force.
    Question. Will FBI be able to add agents to conduct these 
investigations, even as it loses criminal agents to counterterrorism 
work?
    Answer. The $44.8 million in new resources that the Congress 
provided in fiscal year 2009 to investigate mortgage fraud and other 
financial crimes has allowed FBI to add 81 agents to focus on this 
criminal activity. FBI is not able to realign agents from other 
programs to work on mortgage fraud as it would risk widening 
investigatory gaps in other areas.
    Note that since fiscal year 2007, FBI has not ``lost'' criminal 
agents to counterterrorism work.
    Question. How can FBI better help State and local officials 
investigate predatory lenders?
    Answer. FBI currently works closely with its State and local law 
enforcement partners on financial fraud cases in numerous ways, 
including through regional mortgage fraud task forces and working 
groups; through the coordinated efforts of the Financial Fraud 
Enforcement Task Force, which includes many State and local enforcement 
officials; and through the National Association of Attorneys General 
and the National District Attorneys Association. FBI will continue to 
use these and other avenues to work with its State and local partners 
in the future.
                       stopping human trafficking
    Question. Human trafficking is both a United States and 
international crime as a violation of human rights, labor and public 
health standards. The State Department estimates that 800,000 
individuals are trafficked across borders each year, with an estimated 
2-4 million people trafficked within countries. At least 45,000 victims 
trafficked into the United States each year. The overwhelming majority 
are women and children--mail order brides, sex slaves, runaways, and 
child prostitutes. Organized crime cartels make $9.5 billion annually 
from human trafficking across the world.
    What role does FBI play in investigating human trafficking and 
slavery?
    Answer. FBI is the DOJ's primary investigative agency for human 
trafficking violations. As such, FBI participates in 74 human-
trafficking working groups and task forces nationwide. The working 
groups and task forces are comprised of other Federal, State, and local 
law enforcement as well as a number of nongovernmental organizations. 
Additionally, FBI is a member of the Federal Enforcement Working Group 
(FEWG), which includes representation from the Department of Justice, 
Civil Rights Division; the Department of Homeland Security (DHS), 
Homeland Security Investigations directorate; the Department of Labor 
(DOL), Wage and Hour Division; and the DOL Office of the Inspector 
General. As a member of the FEWG, FBI is participating in a pilot 
Federal Anti-Trafficking Coordination Team (ACTeam) program. The 
objectives of the ACTeams are to proactively identify and assist human 
trafficking victims; develop victim-centered, multi-disciplinary human 
trafficking investigations; and produce high-impact human trafficking 
prosecutions resulting in the conviction of traffickers, the 
dismantling of trafficking organizations, and the forfeiture of 
proceeds and instrumentalities of trafficking offenses.
    Question. What is FBI doing to help State and local law enforcement 
and victim service providers keep victims of human trafficking safe and 
hold abusers available?
    Answer. The number of agents in FBI's Human Trafficking program has 
increased fivefold since 2001, and the number of investigations has 
nearly tripled since 2004. A critical resource and component of FBI's 
approach to Human Trafficking is the support to victims provided by the 
Office for Victim Assistance (funded by the Crime Victims Fund), 
including emergency housing, crisis intervention services, clothing, 
translator services, locating job training and educational services, 
processing applications for continued presence in the United States, 
and more.
    More than two-thirds of FBI's 122 field office victim specialists 
participate in human trafficking task forces. FBI leverages its threat-
driven and intelligence-led approach to human trafficking 
investigations. Every intelligence analyst, staff operation specialist, 
and forensic accountant receives human trafficking instruction as part 
of their new employee training program.
    In August of last year, FBI published a national Human Trafficking 
Intelligence Assessment that identifies trends in human trafficking and 
areas within the United States that are vulnerable to certain forms of 
human trafficking. FBI is also focused on directing investigative and 
outreach resources to combat threats to nonimmigrant visa workers and 
other communities that are particularly vulnerable to forced labor.
    In addition, FBI has built the Innocence Lost National Database, 
which assists in the identification of victims and the prosecution of 
those responsible for the sexual exploitation and trafficking of 
juveniles. This database is accessible to Federal, State, and local law 
enforcement officers and prosecutors who investigate child 
prostitution.
    FBI is a full participant in the Anti-trafficking Coordination 
Teams, with partners in DHS, DOL, and the U.S. Attorney offices. These 
teams add to our existing relationships with Federal, State, local, 
tribal, and nongovernmental partners formed through participation in 
more than 100 task forces and working groups focused on confronting the 
human trafficking threat.
    Question. How can FBI better help State and local officials 
investigate the perpetrators of human trafficking?
    Answer. Human trafficking investigations often require a tremendous 
amount of manpower, thus FBI works collaboratively with State and local 
law enforcement partners in investigating these crimes.
    Often victims, due to fear of their traffickers, are initially 
afraid to admit they are victims of human trafficking. With the help of 
FBI's Victim Assistance Program, victims are provided a safe 
environment to speak and provide the details necessary to prove a human 
trafficking violation.
    Another important aspect of investigating the perpetrators of human 
trafficking is knowing where to find the perpetrators. A number of FBI 
field offices provide human trafficking training to State and local law 
enforcement as well as to the nongovernmental organizations. This 
training helps State and local law enforcement identify industries 
which are susceptible to human trafficking and to better understanding 
the human trafficking problem in their area of responsibility.
          state and local law enforcement--fighting terrorism
    Question. Joint Terrorism Task Forces (JTTFs) are teams of Federal, 
State, and local police and intelligence agencies working together to 
identify and respond to terrorist threats at the local level. There are 
now more than 100 task forces led by FBI, with 4,400 participants. 
These teams have been front and center in recent failed bombing 
attempts on a military recruiting station in my own home State of 
Maryland, former President Bush's home in Texas, and a holiday tree 
lighting ceremony in Oregon. Their efforts have prevented what could 
have been deadly attacks on Americans.
    How beneficial are the task forces in responding to terrorist 
threats? What unique role do they play in terrorism investigations?
    Answer. JTTFs are highly beneficial and play an essential role in 
responding to terrorist threats and protecting the United States from 
attack:
  --they enhance communication, coordination, and cooperation among the 
        Federal, State, local, and tribal agencies by sharing 
        information regarding suspected terrorist activities and/or 
        subjects on a regular basis and providing access to other 
        investigative databases to ensure timely and efficient vetting 
        of leads;
  --they provide a force multiplier in the fight against terrorism; and
  --they enhance FBI's understanding of the threat level in the United 
        States.
    Currently, FBI leads 104 JTTFs:
  --1 in each of the 56 FBI field office headquarter cities; and
  --48 in various FBI resident agencies.
    In addition to FBI, 688 State, local, and tribal agencies, and 49 
other Federal agencies have representatives assigned to the JTTFs. FBI 
is the lead Federal agency with jurisdiction to investigate terrorism 
matters, and the JTTFs are one of FBI's key mechanisms to investigate 
terrorism matters and protect the United States from terrorist attack.
    Question. Does FBI anticipate expanding task forces in the future 
if funds are available? Or is it recommended that funding go to another 
priority area? What additional resources would FBI need to expand the 
program?
    Answer. As noted in an earlier response, JTTFs are extremely 
effective in investigating terrorism matters and protecting the United 
States from terrorist attacks. JTTFs enhance communication, 
coordination, and cooperation among Federal, State, local, and tribal 
agencies, and provide a force multiplier in the fight against 
terrorism. Additional resources would help FBI and other Federal, 
State, local, and tribal agencies increase participation in the JTTFs, 
and thus assist in combating terrorism. In order to expand JTTFs, 
funding for personnel (FBI and Task Force Officers), overtime, space, 
equipment, and other items would be necessary.
    Question. With State and local law enforcement agencies reducing 
their numbers because of funding cuts, will FBI face a greater 
difficulty to fill gaps in State and local terrorism investigations? Is 
FBI set to receive or request any additional money to deal with 
additional demands from its State and local partners?
    Answer. JTTF membership has declined over the past year. This 
decline could be attributed to current Federal, State, and local 
budgetary constraints that have created manpower issues for agencies 
and caused them to pull back personnel from JTTFs. Federal, State, and 
local agency full-time and part-time JTTF participation comes at a 
great manpower staffing cost to participating agencies, and it will 
likely become increasingly difficult for agency executives to detail 
personnel to JTTFs due to budgetary constraints. FBI will continue to 
support the ability of its State and local law enforcement partners to 
participate in JTTFs, including paying for overtime of State and local 
task force officers with funding provided by the Assets Forfeiture 
Fund.
    The overall decline in Federal, State, and local JTTF participation 
will impact interagency coordination, cooperation, and information 
sharing at all levels. Defeating terrorism cannot be achieved by a 
single organization. It requires collaboration with Federal, State, 
local, and tribal partners to identify suspicious activity and address 
it.
    Given the persistent and growing threat posed by terrorists, JTTFs 
require an enhanced presence of other law enforcement and intelligence 
entities on task forces. JTTFs cover thousands of leads in response to 
calls regarding counterterrorism-related issues. These leads address 
potential threats to national security and require a significant amount 
of coordination and resources.
    FBI does not reimburse its JTTF partner agencies for task force 
officer salaries. Reimbursement is solely limited to overtime for the 
State and local agencies. To mitigate the loss of additional task force 
officers, funding could be allocated to State, local, and Federal 
partners, either directly or through DOJ grants, to support their 
continued participation. FBI has not requested any additional funding 
in the fiscal year 2012 President's budget to meet additional demands 
from its State and local partners.
                                sentinel
    Question. I have been concerned for a long time about the many 
delays and cost overruns in the development of Sentinel, FBI's new case 
management system. These important technological tools and computer 
upgrades are supposed to protect our citizens. FBI has taken recent 
steps to salvage Sentinel from multiple delays and rising costs. I want 
to know what was behind the delays and what the next steps are.
    What caused the multiple delays in Sentinel, leading up to July 
2010 when FBI issued a full stop work order, and how did FBI handle 
these problems?
    Answer. As a reminder, at the time of the stop work order, two 
phases of the Sentinel case management application had been 
successfully deployed, supporting approximately 8,000 unique users on a 
monthly basis at that time. Further, the project is still within the 
$451 million budget and is projected to remain so through the final 
development and deployment of Sentinel capabilities.
    FBI issued a partial stop-work order in early 2010 and a subsequent 
full stop-work order in July 2010 as a result of a significant number 
of deficiencies in quality, usability, and maintainability of the code 
delivered. As a result, FBI executive management made a decision to 
delay release of the pilots scheduled for early 2010, which were 
instead completed in July and August 2010.
    During the period between the partial stop-work order and the full 
stop-work order, FBI determined that the most appropriate step to 
mitigate unwarranted program costs and schedule overrun was to issue a 
full stop-work order with the contractor and have FBI assume direct 
responsibility for the development of the application.
    FBI leadership determined that an Agile development methodology 
would allow FBI to complete all functionality and provide the best 
outcome for success within the $451 million budget.
    Question. In September 2010, the Director decided to take 
management of Sentinel completion in house. What factors led FBI to 
take over completion of Sentinel?
    Answer. As a reminder, at the time of the stop-work order, two 
phases of the Sentinel case management application had been 
successfully deployed, supporting approximately 8,000 unique users on a 
monthly basis at that time. Further, the project is still within the 
$451 million budget and is projected to remain so through the final 
development and deployment of Sentinel capabilities.
    FBI issued a partial stop-work order in early 2010 and a subsequent 
full stop-work order in July 2010 as a result of a significant number 
of deficiencies in quality, usability, and maintainability of the code 
delivered. As a result, FBI executive management made a decision to 
delay release of the pilots scheduled for early 2010, which were 
instead completed in July and August 2010.
    During the period between the partial stop-work order and the full 
stop-work order, FBI determined that the most appropriate step to 
mitigate unwarranted program costs and schedule overrun was to issue a 
full stop-work order with the contractor and have FBI assume direct 
responsibility for the development of the application.
    FBI leadership determined that an Agile development methodology 
would allow FBI to complete all functionality and provide the best 
outcome for success within the $451 million budget.
    Question. Have any capabilities actually been deployed? Is anyone 
using them, and, if so, what is the user feedback?
    Answer. Sentinel was originally deployed in 2007. Additional 
capabilities have been added to Sentinel since the original deployment. 
There are currently more than 10,000 unique users monthly for Sentinel. 
In a recent survey, Sentinel users provided favorable feedback on the 
system capabilities, rating it a 4 ``agree'' on a 1-5 Likert scale, 
where 1 was ``strongly disagree'' and 5 was ``strongly agree''.
    The deployed system capabilities include:
  --Electronic communications form (FD-1057);
  --Interview form (FD-302);
  --Lead request (FD-1038);
  --Import form (FD-1036);
  --Workflow;
  --Document search; and
  --Setting leads.
    Question. What is FBI doing to address the budget and schedule 
impact?
    Answer. Sentinel should be fully deployed within the approved $451 
million budget. Bringing management of Sentinel in-house and utilizing 
the Agile development methodology have enabled the schedule to be 
shortened. FBI plans to complete deployment in 2011 and within budget.
    In October 2010, FBI began a directly managed effort to complete 
the remaining requirements for the Sentinel program. The critical 
tenets of the program, using an Agile development process, required a 
smaller integrated team. To control costs and implementation of 
Sentinel, FBI's Assistant Director, Information Technology Engineering 
Division/Chief Technology Officer has been directly leading the 
integrated team of Government employees and contractors.
    On a biweekly basis, the team presents a demonstration of completed 
and integrated functionalities to an open audience, including DOJ, key 
FBI executives, Independent Verification and Validation (IV&V) team 
members, FBI IT Governance, FBI Knowledge Office, FBI Finance Division 
(FD), FBI Corporate Policy Office, FBI Resource Planning Office, and 
FBI Records Management Division. This audience provides feedback to the 
team during each demonstration.
    Change Management.--Sprint planning meetings are held every other 
Monday following the previous Friday's delivery demonstration. During 
the Sprint planning meetings, the Sentinel Agile team plans and 
prioritizes expectations for the upcoming demonstration (in 10 working 
days). This effectively controls the scope and prioritization of the 
work to be performed.
    Contract Structure.--The remaining development and completion of 
Sentinel using the Agile methodology accelerates decisionmaking and 
improves team productivity. To support the shift of technical 
responsibility to FBI management, Lockheed Martin's responsibility was 
transitioned to a cost-plus fixed fee for the remaining development. 
Operations and Maintenance of the current production version of 
Sentinel remains a cost-plus award fee structure.
    Contractor Oversight.--Contractors are directly integrated with 
Government personnel. Government employees lead all areas of Sentinel 
development and provide immediate and continuous oversight. Contractors 
also submit monthly status reports to the Sentinel team that detail the 
most recent performance. The Sentinel team has an established 
Integrated Baseline Review and a Control Account process providing a 
certified Earned Value Management System.
    IV&V.--An IV&V contract has been in place throughout Sentinel's 
development to monitor Sentinel and Lockheed Martin's efforts and to 
ensure an unbiased evaluation of both the products and processes 
associated with the technical, managerial, financial, and/or risk 
associated with the program. The Sentinel Agile team continues to 
conduct IV&V reviews; the results are provided to the Executive 
Assistant Director of the Information and Technology Branch.
    Risk Management.--The Sentinel Agile team has continued the risk 
management process. It meets bi-weekly to re-evaluate and update the 
risk register.
    Additional Oversight.--In addition to the controls implemented by 
the FBI Sentinel team, the leadership continues to be responsive to the 
following:
  --Regular FBI executive briefings;
  --Continuous DOJ Office of the Inspector General audits;
  --Ongoing Government Accountability office audits;
  --Monthly DOJ reviews;
  --Regular DOJ investment review board reviews;
  --Office of Management and Budget TechStat process;
  --DOJ TechStat process;
  --FBI Governance monthly program health checks;
  --FBI Life-cycle management;
  --Weekly program reviews by FBI Finance Division, Office of General 
        Counsel, and Inspection Division;
  --Dedicated liaison to the FBI's Resource Planning Office, 
        Directorate of Intelligence, and Records Management Division.
    Question. When will the project be completed? How much over budget 
will it be?
    Answer. At the beginning of Sentinel Agile development, the planned 
estimate for completion was to remain within the $451 million 
allocation, which includes operations and maintenance (O&M) and the 
life-cycle development costs. As of the latest invoice cycle, Sentinel 
development and the O&M of the operational Sentinel system are within 
the $451 million approved funding. When Sentinel first went into 
operation in 2007, a 5-year O&M contract began and runs to May 2012. 
However, FBI projects that Sentinel will be fully deployed in 2011.
    Question. FBI requests $30 million in fiscal year 2012 for 
Sentinel. Is this more than the estimated development budget?
    Answer. Sentinel Agile is expected to be delivered in 2011 within 
the $451 million total Sentinel budget. This funding also provides O&M 
support through May 2012. The fiscal year 2012 budget request of $30 
million is to create a permanent base funding for O&M.
                   stopping internet child predators
    Question. The Innocent Images Initiative targets sexual predators 
on the Internet, a sexual predator's weapon of choice to target 
children. Innocent Images' workload has increased dramatically, from 
113 open cases in 1996 to 6,000 open cases in 2009--a 5,000 percent 
increase. FBI's budget request includes $69 million for the Innocent 
Images program. In 2010, the Congress increased Innocent Images by $14 
million, but the fiscal year 2012 request is only $2 million more.
    If the Innocent Images caseload is increasing so exponentially, why 
hasn't FBI requested substantial additional resources in fiscal year 
2012 to hire more agents and digital forensics experts to meet this 
need?
    Answer. The Innocent Images program is a high priority to FBI. In 
fiscal year 2011, FBI dedicated 237 agents in the field to address the 
growing problem of sexual predators using the Internet to target 
children. These 237 agents worked on 5,999 innocent images cases, or an 
average of 26 cases per agent. While the caseload per agent 
demonstrates that additional resources would be helpful, the budget 
reflects our best efforts to align limited resources to a number of our 
critical mission areas. There are unfortunately areas that cannot be 
addressed with the constrained funding available.
    Question. How is FBI addressing the growing threat of child 
predators on the Internet, given that the request provides a bare 
minimum in new resources to investigate child predators that prey on 
children online?
    Answer. FBI has several initiatives that address the growing threat 
of child predators on the Internet, which are described below.
                  online undercover operations (ucos)
    FBI has two UCOs that focus on the growing threat of child 
predators on the Internet. The first is the Innocent Images National 
Initiative (IINI) program, which operates one Group I UCO at Calverton, 
Maryland, and 43 Group II Innocent Images On-line UCO initiatives 
targeting online child exploitation offenders across the United States 
and internationally. The second is the Internet Crimes Against Children 
(ICAC) program, which has 59 ICAC Task Forces also targeting on-line 
child exploitation offenders within the United States.
    In order to facilitate a more unified relationship with the ICACs 
for this critical component for online child exploitation 
investigations, Cyber Division (CyD), IINI and ICAC have established 
joint training. IINI and ICAC are currently working together to develop 
additional undercover training for FBI Agents, Task Force Officers 
(TFOs), and ICAC personnel. In order to successfully identify, 
investigate, and prosecute IINI subjects and identify victims, agents 
and TFOs must be provided specialized and comprehensive training to 
operate on-line in a covert capacity. Development of a training program 
which addresses the needs of both FBI and the ICACs enhances an 
excellent working relationship in the field, which provides a more 
specialized and uniform training across the United States.
                      law enforcement partnerships
    Each year, IINI has seen an increase in open cases, arrests, 
indictments and prosecutions, with more of a chance to overlap on those 
investigations with other law enforcement agencies. The Attorney 
General instituted a program to address these cases across all Federal, 
State, and local jurisdictions within the United States, named Project 
Safe Childhood (PSC). This initiative requires all agencies to work 
together toward the common goal of eradicating child exploitation, 
specifically via the Internet.
    ICACs are comprised of Federal, State, and local police 
departments. Some ICACs are fully integrated with FBI Innocent Images 
Task Forces, and some ICAC Task Force members are members of FBI 
Innocent Images Task Forces. ICACs are managed by DOJ Office of 
Juvenile Justice and Delinquency Program (OJJDP).
    Safe Online Surfing (SOS) Program.--FBI-SOS is a free Internet 
safety program designed to help students recognize potential dangers 
associated with using the Internet. The program was launched during the 
2005-2006 school year and developed in cooperation with the FBI's Miami 
field division. The SOS program is administered by the Common Knowledge 
Scholarship Foundation (CKSF), which is part of the Fischler School of 
Education and Human Resources at Nova Southeastern University (NSU). In 
October 2009, FBI Cyber/Innocent Images National Initiative Unit 
(IINIU) adopted the SOS program as a national initiative.
                   iini research and development team
    The IINI has established and assigned valuable resources to a 
Research & Development (R&D) component in order to increase the stock 
of knowledge of new and emerging technologies, culture and society, and 
the use of this knowledge to devise new applications on a systemic 
basis. Internet social networking and emergent high technology have 
fundamentally changed human behavior and criminal tradecraft, 
especially in crimes against children cases. To protect minors and to 
catch and hold offenders fully accountable for their crimes, law 
enforcement agencies and prosecutors must understand how people use 
technology to interact with each other. Law enforcement must also have 
the investigative preview and forensic tools necessary to succeed in an 
ever-changing technical and social environment. The R&D component for 
the IINI has been established to provide this support to FBI 
investigators conducting on-line child exploitation investigations.
                  digital analysis and research center
    The IINI established its own digital forensic laboratory, which is 
dedicated exclusively to the examination and analysis of digital 
evidence in the most significant Internet-based online child sexual 
exploitation cases nationwide. This unit, known as the Digital Analysis 
and Research Center (DARC), provides quality technical and scientific 
investigative capabilities, detailed extraction and analysis, 
testimony, and support to the FBI's IINI program. This is accomplished 
through the acquisition, preservation, examination, processing, and 
presentation of stored digital information in computers and other 
electronic devices or media. Furthermore, DARC works closely with the 
IINI's R&D component to develop new technologies and procedures to 
assist forensic examiners and investigators in combating online child 
sexual exploitation.
                 endangered child alert program (ecap)
    ECAP was initiated on February 21, 2004, as a new and aggressive 
approach to identify unknown subjects (i.e., offenders and producers) 
involved in the sexual abuse of children and the production of child 
pornography. These individuals either photographed or filmed themselves 
molesting children and were indicted as John Doe's due to their true 
identities being unknown. The locations of these individuals are also 
unknown; however, it is firmly believed they reside in the United 
States. Of particular significance in these cases is that for the first 
time, ``John Doe'' arrest warrants are based solely on images acquired 
through undercover child exploitation investigations. The Innocent 
Images Operations Unit has focused on 19 separate John Doe and Jane Doe 
investigations. To date, the national and international exposure of 
these individuals has led to the successful identification of 12 
previously unknown child pornography subjects and the identification of 
more than 30 child abuse victims.
    ECAP has utilized national and international media exposure of 
unknown adults featured in child pornography material and displays 
their images on the ``Seeking Information'' section of the FBI's Web 
site at www.fbi.gov. If the unknown subject is not identified from the 
Web site, their image may eventually be broadcast on the television 
shows America's Most Wanted, the Oprah Winfrey program, the O'Reilly 
Factor, and a number of other media and social networking outlets such 
as AOL News, Facebook, and Twitter.
                          operation rescue me
    Operation Rescue Me is an initiative to identify child exploitation 
victims who appear in unidentified child exploitation/pornography 
series circulated on the Internet. The primary purpose of this 
operation is to coordinate investigative efforts and provide the IIOU, 
and any other FBI office, a central location to document all 
investigative action taken to identify a child or children in a series. 
The central case initiative serves to eliminate redundant efforts and 
ensure that newly assigned investigators are integrated into the 
investigation in a cohesive manner.
    Question. What is the status of the Innocent Images International 
Task Force (IIITF)? How many international officers have been trained? 
How many countries have joined?
    Answer. In 2004, FBI initiated IIITF to promote and develop a 
coordinated international law enforcement response against Internet 
child sexual exploitation. Since its inception, the IIITF has and 
continues to play an instrumental role in the successful coordination 
of complex investigations against sophisticated, multi-national 
networks engaged in online child sexual exploitation. The borderless 
and constantly evolving nature of the Internet provides great 
challenges for the international law enforcement community, the 
majority of whose tools and practices were established long before the 
Internet age.
    The IIITF has proved successful in providing a platform to overcome 
many such challenges and facilitate cooperation and coordination. The 
steadily expanding IIITF is currently comprised of 90 Task Force 
Officers (TFOs) from more than 40 different countries. Currently, TFOs 
undergo a 5-week training session in Calverton, Maryland, where they 
receive specialized technical training on a variety of relevant and 
current topics, such as legal principles, emerging trends and 
technologies, and investigative techniques.
    The principal goal of the IIITF is to develop an operational 
network of specialized Internet child sexual exploitation 
investigators. The IIITF provides a communication and cooperation 
platform to share and exchange intelligence and facilitate the 
identification and furtherance of Internet child sexual exploitation 
investigations with an international scope.
        state and local law enforcement--fighting violent crime
    Question. There are roughly 1 million gang members in 20,000 gangs 
in all 50 States and the District of Columbia. With gang membership 
rising and violent crime continuing to be a problem, local law 
enforcement needs a strong partnership with Federal Government. 
Currently, there are 163 Safe Streets Violent Gang Task Forces. These 
partnerships allow FBI agents and State and local law enforcement to 
work as teams to fight street crime. However, FBI has not had the 
resources to expand this program and requests no additional funding in 
fiscal year 2012.
    How are joint Federal-State task forces effective in helping local 
law enforcement fight violent crime?
    Answer. Once considered only an urban problem, street gangs are now 
a threat to all communities across the United States. FBI's 
partnerships with State, local, and other Federal law enforcement 
agencies in the form of Violent Gang and Violent Crime Safe Streets 
Task Forces (SSTFs) have been, and continue to be, at the forefront of 
the FBI's anti-gang efforts. Violent Gang and Violent Crime SSTFs 
provide a multi-jurisdictional task force approach, which ensures FBI 
initiates and coordinates investigative efforts with other affected 
local, State, and Federal law enforcement agencies. This concept 
ensures cooperation and communication among law enforcement agencies 
and increases productivity and prevents duplication of investigative 
and enforcement efforts in matters of concurrent jurisdiction . The 
SSTFs work to disrupt and dismantle the most violent street gangs and 
criminal enterprises through aggressive enforcement of Federal criminal 
statutes. Our ongoing partnership with State and local law enforcement 
decreases crime and increases the quality of life in the affected 
communities.
    Question. With State and local law enforcement agencies forced to 
reduce their numbers because of funding cuts, does FBI anticipate a 
greater burden placed on it to fill gaps in policing? Will FBI have the 
capabilities to help?
    Answer. As noted previously, the FBI has formed an effective 
partnership with State and local law enforcement agencies to address 
gang violence through FBI Safe Street Task Forces (SSTFs). FBI SSTFs 
target the most violent gangs and criminal enterprises negatively 
affecting our communities through criminal enterprise investigations. 
Investigations that do not have a Federal nexus or involve violations 
of Federal statutes are conducted by partnering State and local law 
enforcement agencies. As budget problems continue to affect State and 
local law enforcement agencies across the Nation, the demand for FBI 
SSTF resources has increased. A reduction in State and local resources 
may result in gangs expanding their drug markets and becoming more 
violent, which may require the FBI to open more gang investigations.
    FBI will continue to partner with State and local law enforcement 
agencies through Violent Gang and Violent Crime Safe Streets Task 
Forces (SSTFs), which ensures coordination in investigative efforts. 
FBI will support State and local participation where it can, including 
paying for overtime of State and local task force officers with the 
limited funding made available through the Assets Forfeiture Fund.
    Question. Why was the only increase in this area $9 million to 
combat and investigate violent crimes in Indian country?
    Answer. FBI is one of two primary Federal agencies mandated to 
investigate felony crimes in Indian country. FBI's responsibility in 
Indian country is significant and the volume of investigations 
continues to rise. Addressing crime in Indian country is also among 
DOJ's priorities. Many tribal police departments do not currently have 
the necessary certification, technology, training, expertise, 
deputation, or mechanism to refer cases to the United States Attorney's 
Office for prosecution.
    Currently, there are 565 federally recognized Indian tribes in the 
United States, and FBI has investigative responsibility for 
approximately 200 Indian Reservations. Under the Major Crimes Act, 
General Crimes Act, Indian Gaming Regulatory Act, and traditional 
Federal investigations within Indian country, FBI must continually 
prioritize violations due to the overwhelming amount of violations 
which occur within Indian country. Due to the immediate response 
required to investigate death investigations, child sexual and physical 
assault, violent felony assault, many other crimes go under-addressed. 
Twenty-five percent of all violent crimes prosecuted by United States 
Attorneys nationally occur on Indian reservations.
    The fiscal year 2012 request to the Congress includes 40 positions 
(24 agents, 16 support) and $9 million ($449,000 nonpersonnel) to 
bolster existing Safe Trails Task Forces and to provide additional 
investigative resources to address the significant violent crime threat 
in Indian country. This enhancement request represents a 33 percent 
growth in positions (22 percent growth in agents and 40 percent growth 
in nonpersonnel resources). While the $9 million will not enable FBI to 
investigate all violent crime cases in Indian country, FBI believes 
this enhancement will increase the number of priority investigations in 
Indian country and also demonstrates reasonable growth. Further, these 
additional resources will support the Attorney General's Department-
wide initiative on public safety in tribal communities.
                       southwest border violence
    Question. I continue to be concerned that DOJ lacks sufficient 
resources to combat violence related to drug and gun trafficking on the 
Southwest Border. These violent crimes are caused by large, 
sophisticated, and vicious criminal organizations--not by isolated, 
individual drug traffickers. The Justice Department's 2012 request 
includes $2 billion to support investigations and prosecutions relating 
to border violence.
    Along the Southwest Border, DEA goes after drug smugglers and ATF 
goes after illegal guns. What role does FBI play in the Justice 
Department's enforcement of the Southwest Border?
    FBI continues to actively participate in DOJ's fight against the 
criminal threats that exist along the Southwest Border. FBI continues 
to maintain a robust contingent of squads in Southwest Border field 
offices that address drugs, gangs, violent crime, public corruption, 
money laundering, and human trafficking. As the violence has increased 
in Mexico, and the threat to the United States posed by the criminal 
enterprises operating along the Southwest Border has expanded and 
crossed FBI program lines, the FBI has taken steps to more adeptly and 
comprehensively address that threat.
    Toward that end, FBI has established nine cross-programmatic hybrid 
squads in offices impacted by the criminal activity occurring along the 
Southwest Border. FBI has also deployed seven border liaison officers 
to Southwest Border field offices to coordinate with and offer training 
to Mexican law enforcement officers. In addition, FBI has partnered 
with Federal, State, and local law enforcement partners, as well as the 
U.S. intelligence community, to share intelligence and coordinate 
investigations and investigative resources. The FBI also has 17 agents 
permanently detailed to Mexico as part of its Legat and Resolution Six 
programs. The intelligence shared between FBI field offices and the 
Legat, and vice versa, helps to drive Southwest Border-related 
investigations. These various components, coordinated by FBI 
headquarters (FBIHQ), provide DOJ with a cross-programmatic, 
comprehensive strategy to address the complex threat posed by criminal 
enterprises operating along the Southwest Border.
    Question. How concerned should communities along the border--and 
throughout the United States as a whole--be about cartel-related 
violence? If FBI is witnessing a spillover in violence across the 
border, how would it categorize this spillover?
    Answer. Other than isolated incidents, ``cross-over'' cartel 
violence from Mexico into the United States is minimal. The reason for 
this is twofold. First, the United States has not witnessed the same 
turf battles over supply and distribution routes that are occurring 
across the border. In fact, local crime reports submitted by DEA 
offices located along the Southwest Border show most categories of 
crime decreasing from 2009 to 2010.
    Second, the cartels already enjoy enormous influence in the U.S. 
drug trade and control the vast majority of wholesale markets, as well 
as many retail markets, for drugs in the United States. To engage in 
violence on the U.S. side of the border would be detrimental to the 
cartels' business because it would invite additional scrutiny at the 
border and increased law enforcement attention within the United 
States. However, the U.S. Government and communities along the border 
should remain vigilant against the threat of violent crime.
    We do believe there is a cartel presence in the United States and 
we are vigilant about guarding against the possibility of that presence 
becoming more violent in the United States. We also recognize the 
ongoing safety concerns in those communities along the United States-
Mexican border where rival cartels are vying for control of the drug 
and human smuggling routes into the United States. Although there 
currently appears to be a stable situation in the United States between 
rival cartels operating in close proximity in U.S. cities, we are 
closely monitoring the situation for any increases in violence or other 
illegal activities. For these reasons, we have dedicated unprecedented 
resources to the border and to Mexico--significantly increasing the 
number of agents and prosecutors working on Mexican cartel cases. No 
matter what the statistics today, the fact remains that we must remain 
vigilant to the impact of the violence in Mexico on the United States.
    The FBI is not witnessing a spillover in violence across the 
border, but continues to monitor this situation.
    Question. How is FBI working with the Mexican Government to 
dismantle violent drug cartels?
    Answer. The FBI staffs Resolution Six (R-6) operations in Mexico 
and Columbia. R-6 was created to enhance inter-agency coordination of 
drug and gang investigations conducted in Mexico and Columbia. 
Priorities of R-6 personnel are to develop confidential human sources, 
support domestic cases for United States prosecutions, cultivate 
liaison contacts within Mexico, and support bilateral criminal 
enterprise investigation/initiatives. R-6 personnel are co-located with 
DEA and are responsible for coordinating drug and gang investigations 
with the DEA Country Office. FBI R-6 staffs positions in the following 
Mexican cities:
  --Mexico City;
  --Juarez;
  --Tijuana;
  --Monterrey;
  --Hermosillo; and
  --Guadalajara.
    R-6 Mexico uses vetted teams of Mexican law enforcement officers to 
effect the collection of evidence and arrest targets in Mexico. R-6 
works with SEMAR (Marines), SEDENA (Army), SSP (Federal Police), and 
SIEDO (Organized Crime Unit) as well.
                          render safe mission
    Question. FBI is now responsible for the Render Safe mission, which 
involves dismantling a radiological device on U.S. soil. The 2012 
budget request includes $89 million for FBI's ``Render Safe''. This 
provides for a multi-year purchase of two new specially configured 
aircraft to carry out the Render Safe mission. The FBI currently uses 
one leased plane to carry out its mission, and that lease will end in 
fiscal year 2013.
    Why does FBI need two new planes when it currently conducts its 
mission with one?
    Answer. The Render Safe mission requires a dedicated primary 
aircraft with a secure and redundant communication system, and a 
similar backup aircraft to cover planned downtime and unexpected 
mechanical failure. The current lease does not provide a dedicated back 
up plane with required communications gear. The fiscal year 2011 spend 
plan currently awaiting congressional approval includes $35.8 million 
for the acquisition of two planes to replace the current lease and 
maintain the Render Safe capability. This funding is made up of Expired 
User Fee collections ($17 million) and prior year recoveries ($18.8 
million).
    Question. What is the cost of the current lease and how often has 
the current plane been used?
    Answer. The annual lease cost is $14.5 million. The plane is only 
used for Render Safe activities--over the past year the plane has been 
used for a number of deployment exercises.
    Question. What are the final overall costs for these new planes, 
including the special equipment and dedicated personnel?
    Answer. The overall costs for acquisition and outfitting is 
approximately $74 million over 2 years. The personnel costs for the 
Render Safe mission total approximately $4 million annually.
    Question. Why is it important that FBI purchase these planes rather 
than renew the current lease?
    Answer. Not having dedicated aircraft with redundant communication 
capabilities jeopardizes the mission success and increases the risk 
that the Render Safe team will not be able to deploy in a timely manner 
or properly communicate a highly technical and coordinated solution 
prior to landing at the identified location.
    Further, there are Office of management and Budget (OMB) regulatory 
limits that prohibit leasing for more than 90 percent of the fair 
market value of an asset, and we are approaching this regulatory limit.
    Question. How would FBI carry out your Render Safe mission without 
these aircraft?
    Answer. Without these aircraft, FBI would have to continue to enter 
into a series of short-term aircraft leases.
    Not having dedicated aircraft with redundant communication 
capabilities jeopardizes the mission success and increases the risk 
that the Render Safe team will not be able to deploy in a timely manner 
or properly communicate a highly technical and coordinated solution 
prior to landing at the identified location. Further, there are OMB 
regulatory limits that prohibit leasing for more than 90 percent of the 
fair market value of an asset, and we are approaching this regulatory 
limit.
                      misconduct of fbi employees
    Question. In January 2011, I was deeply disappointed to hear a CNN 
report detailing serious misconduct by FBI employees on and off duty. 
Incidents involved employees drinking or sleeping on duty, improper use 
of Government databases, watching pornography in the office, and using 
a sex tape for blackmail. These sensitive, internal reports were leaked 
to CNN. I consider FBI's response to this story has been tepid, at 
best.
    What is FBI doing to make sure its employees are held to the 
highest standards?
    Answer. FBI is committed to the highest standards of professional 
conduct. Our ability to accomplish the critically important national 
security and law enforcement work assigned to FBI makes it absolutely 
imperative that we have the respect and trust of the American public we 
serve. For that reason, FBI has a strict code of conduct and demands 
ethical behavior and professional excellence from all of our employees. 
When an FBI employee engages in misconduct, FBI's Office of 
Professional Responsibility (OPR) imposes an appropriate disciplinary 
sanction, from a letter of censure to a period of suspension or, in the 
worst cases, termination. The FBI OPR, the Office of the General 
Counsel, and the Office of Integrity and Compliance (OIC) also provide 
regular training to all employees--including all new agents, IAs, 
Legats, and professional staff--to ensure they know the laws, policies, 
procedures and rules under which we operate.
    Question. What steps has FBI taken to punish these types of 
employee misconduct?
    Answer. As noted in the CNN report, when the FBI OPR determines 
that an employee has engaged in misconduct, it imposes an appropriate 
disciplinary sanction, from a letter of censure to a period of 
suspension or, in the worst cases, termination.
    Question. Does FBI have safeguards in place to ensure that--once 
these types of incidents happen--they won't happen again?
    Answer. Yes. Executive Management receives weekly and monthly 
reports from the Assistant Director of OPR discussing the most recently 
decided cases, including what actions have been taken in the individual 
cases, as well as what actions have been taken at an institutional 
level to avoid recurrences. Moreover, OPR, the Office of the General 
Counsel, OIC and others provide regular training to ensure our 
employees understand the code of conduct under which they operate, as 
well as the laws, policies, procedures and rules with which they must 
comply. Finally, OPR publishes quarterly all employee emails to educate 
the workforce on acceptable standards of conduct.
                              fbi academy
    Question. The FBI Academy in Quantico, Virginia, is operating at 
full capacity. Of the Academy's three dorms, two date back to 1972, one 
dates back to 1988 and none are not up to industry standards. The 2011 
request had $74 million to expand the FBI Academy's training 
facilities, build a new dorm and renovate existing dorms, but this was 
not included in the fiscal year 2011 continuing resolution. The 2012 
request includes only $2 million for Academy improvements.
    What are the specific infrastructure challenges at the FBI Academy? 
What infrastructure setbacks will FBI face under the funding level 
provided for FBI construction account in the fiscal year 2011 
continuing resolution?
    Answer. The primary challenges are the age and capacity of the 
infrastructure support systems, such as electrical, heating ventilation 
and air conditioning (HVAC), sewer, and water. Some of the oldest 
infrastructure components (firing ranges) were installed in the 1950s. 
The main ``academy'' complex was constructed in 1972 and its 
infrastructure has gone 38 years without any appreciable upgrades or 
expansion. The academy's core infrastructure was originally designed to 
support approximately 500,000 square feet of space, but FBI's Quantico 
complex now consists of more than 2.1 million square feet. Due to the 
age of the facilities, scheduled and unplanned repairs regularly 
eliminate 8 percent of bed and classroom space.
    The second infrastructure challenge at the FBI academy has to do 
with the classroom and dormitory capacity of the facility given 
increasing demands on the organization. With the extensive growth of 
FBI's mission and workforce since 9/11, the Academy has been forced to 
use temporary classroom structures at Quantico or to lease private 
sector space, with students being housed in local area hotels. These 
stop-gap arrangements are an inefficient use of student time on campus, 
and negatively impact the quality of education and training that FBI 
students receive, while consuming significant annual resources that 
would be better directed to maintaining and expanding Academy 
facilities.
    FBI will be unable to make significant repairs or improvements to 
the original 1972 academy complex if limited to the funding level 
provided for the FBI construction account in fiscal year 2011. Key 
infrastructure systems will continue to be at risk of failure due to 
the age of their components and the Academy's classroom and dormitory 
demands will continue to be met through offsite leases and local area 
hotels for the foreseeable future.
    Question. Can FBI really make substantive improvements to the 
Academy with the $2 million requested in 2012? On what will that $2 
million be spent?
    Answer. FBI has identified more than $250 million in repair 
projects and infrastructure improvements needed to bring the Academy 
facilities up to code and industry standards. Based on the condition of 
the existing buildings, the current base funding level of $2 million is 
insufficient for making substantive improvements to them; however, it 
will assist in funding day-to-day activities.
    Question. How will the FBI's training requirements for the Academy 
continue to expand?
    Answer. In addition to the increased number of students requiring 
specialized training at the academy, the length of the programs for new 
agents and intelligence analysts (IAs) has also been extended. Existing 
curriculums were restructured to focus on areas such as Foreign 
Counterintelligence, Cyber and Counterterrorism, among others. 
Additional courses devoted to legal requirements, analytical, and 
technological tools and tradecraft have also been added. Joint training 
between new agents and IAs has also been expanded. This has 
significantly increased the total training weeks per year--by more than 
90 percent since 1995--creating scheduling conflicts amongst the 
competing student groups at the Academy. There are also new 
requirements for specialized training; for example, with increased 
emphasis on Human Sources, additional interview rooms are required for 
practical exercises.
    From 2005 to 2008, there has been a 200 percent increase in the 
number of FBI regional training events (19,851 to 39,894). FBI would be 
better served by hosting more of these regional training events at the 
FBI academy campus given that courses require access to FBI classified 
networks and space, which are generally unavailable in non-FBI 
facilities.
    Question. What are the top three improvements FBI leadership wants 
to see at the Academy?
    Answer. Complete renovation, including interior and infrastructure 
upgrades for FBI academy dormitories, and upgrading critical life, 
health, and safety infrastructure to meet current industry standards 
and codes.
    Complete renovation and interior infrastructure upgrades for the 
FBI academy dining facilities, to include an expansion that provides 
adequate space for the current level of students trained on campus.
    Complete renovation and interior infrastructure upgrades for all 
original Academy classroom buildings, to include upgrading critical 
life, health, and safety infrastructure and modernizing classroom 
spaces to better utilize current technology and instruction practices 
and expand capacity.
                    national security letters (nsls)
    Question. NSLs are useful counterterrorism tools that allow the FBI 
to conduct searches without getting court orders, and let agents 
analyze telephone, computer and bank records without warrants. The USA 
PATRIOT Act made NSLs easier to obtain, but also requires the inspector 
general to monitor the use of NSLs and report back to the Congress. The 
inspector general released two reports on NSLs that estimated more than 
6,000 NSL violations from 2004-2006. That's 8 percent of all NSLs 
issued. Violations include 11 ``blanket NSLs'' without proper approval 
in 2006, and unauthorized collection of more than 4,000 billing records 
and phone numbers.
    What is FBI doing to improve NSL training for its employees? Is 
NSL-specific training mandatory for all employees involved with NSLs?
    Answer. NSL training is mandatory for all FBI employees involved in 
NSLs. Following the March 2007 Office of Inspector General Report 
entitled, ``A Review of the Federal Bureau of Investigation's Use of 
National Security Letters'', FBI updated its NSL training module. The 
new NSL training module incorporates the essentials of creating and 
issuing NSLs, reviewing return information, and using the information 
for investigations. Also, the new training modules are now interactive 
and contain two new exams that employees must pass (with at least an 80 
percent score) to complete the training. The training modules and 
examination questions reflect the topics of recent interest concerning 
NSLs and were designed to help ensure compliance with the NSL statutes, 
Attorney General Guidelines, and the Domestic Investigations and 
Operations Guide. For example, the modules now include training on the 
new Attorney General Procedures on NSLs, the rules surrounding the use 
of a nondisclosure provision in an NSL, and the need to justify the 
nondisclosure provision in an NSL, including when and under what 
circumstances a nondisclosure provision may be included in an NSL.
    Yes, NSL-specific training is mandatory for all employees involved 
with NSLs.
    Question. The Commerce, Justice, Science, and Related Agencies 
Subcommittee recognized a problem with NSL management and provided $10 
million in fiscal year 2010 to establish the Office of Integrity and 
Compliance for oversight of NSLs. Does that Office need more staff to 
carry out its oversight role?
    Answer. Funding for the Office of Integrity and Compliance was 
appropriated through the fiscal year 2007-2008 Global War on Terror 
(GWOT) supplemental, and since its establishment FBI has continued to 
increase the responsibilities of the office. As these responsibilities 
increase, the need for funding will also increase.
    Question. Does FBI have the right computer systems and other 
technical support to improve the way it issues and tracks NSLs?
    Answer. Yes. In January 2008, FBI deployed the NSL subsystem in the 
FISA Management System to address reporting and other issues in the NSL 
process. The subsystem prompts the drafter of an NSL to enter 
information about the subject, the predication for the NSL, the type of 
NSL being requested, the recipients of the NSL, and the target of the 
NSL. After the employee creates an NSL and the accompanying memorandum 
(called an Electronic Communication [EC]), the subsystem routes both 
documents for legal review by FBI attorneys, and to FBI officials 
including the field office Special Agent in Charge (SAC) or designated 
FBIHQ official, who must review and approve both documents before the 
NSL can be issued. After all required approvals have been obtained, the 
subsystem generates the NSL and EC for signature by the SAC or a 
designated FBIHQ approving official. The subsystem thereafter 
automatically uploads the NSL and EC into the FBI's Automated Case 
System. This subsystem collects the information needed for tracking 
NSLs.
                          terrorist watchlist
    Question. The Terrorist Watchlist, maintained by FBI, is the 
intelligence community's main list of terrorist suspects. More than 1.1 
million known or suspected ``terrorist identities'' are on the list, 
and 20,000 names are added each month. A May 2009 inspector general 
report found that the terrorist watchlist had unacceptable errors, 
noting that FBI delayed reporting names to the watchlist by up to 4 
months. FBI also failed to remove names once it determined that they do 
not pose a threat, while other information was simply inaccurate or 
outdated.
    What steps has FBI taken to meet the inspector general's concerns?
    Answer. In its May 2009 report, OIG made 16 recommendations to the 
FBI to improve its watchlisting processes. OIG has closed 11 of those 
recommendations based on the extensive changes and improvements FBI has 
made to virtually every aspect of this process including:
  --policies;
  --training;
  --realignment of FBIHQ personnel to better meet the needs of the 
        watchlisting program's objectives; and
  --the establishment of metrics to ensure that FBI complies with its 
        revised policies.
    The remaining five recommendations have been resolved based on 
FBI's commitment to fulfilling the required actions. FBI is actively 
working to complete the necessary steps to ensure closure of the 
remaining recommendations.
    Question. What is FBI doing to cut the time it takes to add someone 
to the watchlist?
    Answer. On December 7, 2009, FBI issued a comprehensive 
watchlisting policy. Each field office's managers, Watchlist 
Coordinator, and Alternate Watchlist Coordinator were emailed an 
electronic version of the document. The timeline for watchlisting is 
defined in the policy as 10 business days for all submissions which is 
measured from the date the case is opened in FBI's automated case 
management system until the date the nomination form (FD-930) is 
received by email at FBIHQ. The timeline for FBIHQ is 5 business days 
for nominations and 10 business days for modification and removals. 
This is measured from the date the email containing a valid nomination 
is received via email at FBIHQ, until the date FBIHQ emails the 
completed nomination to the National Counterterrorism Center. In 
addition, the FBIHQ unit responsible for this process has established a 
``metrics team'' to review and track the timeliness of submissions by 
the field offices. Metrics reports are prepared and disseminated to all 
field office managers for appropriate actions.
    Question. How is FBI improving training for its staff to increase 
accuracy in adding names to the list and removing names from the list?
    Answer. The Terrorist Screening Center (TSC) has developed and 
implemented a standardized internal Nominations and Data Integrity Unit 
(NDIU) analyst training program which includes classroom instruction 
for new NDIU analysts and an on-the-job training (OJT) program. The OJT 
program includes a week of practical exercises focusing on complex 
processes and analytical nuances of nominations to and removals from 
the various subsets of the Terrorist Screening Database (TSDB). The 
classroom instruction is comprised of the fundamental knowledge NDIU 
analysts need to process nominations to the TSDB in accordance with the 
criteria set forth by the July 2010 Watchlisting Guidance and exercises 
which expose analysts to practical application of the knowledge. The 
OJT program pairs a new NDIU analyst with a senior NDIU analyst, who 
will mentor the new analyst through the processing of nominations 
accurately and systematically. The OJT program ensures the new analyst 
firmly grasps the watchlisting criteria and the full utility of each 
internal and external system used to process nominations to and 
removals from the TSDB. Additionally, new analysts are given a week of 
practical exercises which further develop their ability to apply 
watchlisting criteria, use internal and external systems, and recognize 
the complex nuances and indicators of nominations to and removals from 
the TSDB.
    Additionally, the TSC has been tasked with reviewing every identity 
record in the TSDB on a regular basis. This constant review ensures 
that each TSDB identity record is regularly reviewed in order to 
maintain a thorough, accurate and current TSDB. Each identity record is 
evaluated on minimum substantive derogatory criteria, minimum 
biographic information criteria and biometric criteria. This record-by-
record review project is a continuous process that ensures that every 
identity record in the TSDB has been reviewed and updated as needed.
    Question. What are the major obstacles in shortening the time it 
takes to put someone on the no-fly list?
    Answer. Once TSC receives a nomination to watchlist an individual, 
the nomination will generally be adjudicated and processed within 24 
hours. Additionally, there is an expedited nomination process available 
to the watchlisting community which allows for the immediate 
watchlisting of a suspected terrorist in exigent circumstances. If TSC 
receives an expedited nomination, that nomination will be added to the 
Terrorist Watchlist as soon as possible. For example, on May 3, 2010, 
FBI requested that Faisal Shahzad, the suspected Times Square bomber, 
be expedited to the No Fly List. In less than 30 minutes Shahzad was 
listed as a No Fly in the TSDB and less than 1 hour later all relevant 
U.S. Government watchlisting and screening agencies were informed of 
his updated watchlisting status. This effort eventually led to his 
identification and apprehension later that evening as he attempted to 
board an international flight.
    Additionally, in an effort to improve the accuracy of information 
provided to the screening community and decrease the time required to 
watchlist an individual, TSC has worked with our U.S. Government 
partners to institute information technology (IT) enhancements that 
significantly reduced the time required to transfer terrorist watchlist 
information. NCTC and TSC worked together to implement changes to their 
infrastructure and software that allows new nominations to be passed 
from NCTC to TSC within 2 minutes so that it is immediately available 
for processing instead of having to wait until the next working day. 
TSC instituted a similar enhancement with DHS and Department of State 
that provides updated terrorist information to CBP's TECS and 
Department of State's CLASS systems within 2 minutes instead of the 
next working day. DHS intends to extend the rapid updating to their 
other screening systems through the use of their Watchlist Service. 
These enhancements have greatly improved the timeliness of new and 
updated terrorist information to ensure front-line screening agencies 
have the most current and accurate information available.
    Question. Has FBI given its managers in field offices more 
responsibility to review nominations before they are sent to FBIHQ?
    Answer. The opening of a case does require managerial approval and 
all managers are aware that when they approve a counterterrorism case 
to be opened, the subject(s) of that case will be submitted for 
watchlisting.
    Question. Has FBI been working with the Director for National 
Intelligence to make sure this problem is fixed across all intelligence 
agencies?
    Answer. Yes. In an effort to ensure all U.S. intelligence agencies 
are nominating terrorists to the TSDB consistently and efficiently, 
Watchlisting Guidance was developed by an interagency working group 
that included representation from the Department of Justice, DHS, 
Central Intelligence Agency, National Security Agency, Department of 
Defense, Department of State, Department of the Treasury, and the 
Office of the Director of National Intelligence. The Watchlisting 
Guidance provides nominating agencies clear and articulable guidance on 
the standards and procedures to be followed when nominating persons to 
the Terrorist Watchlist.
    Furthermore, in collaboration with NCTC and the intelligence 
community, TSC has assisted in the development of a Terrorist 
Watchlisting course for the intelligence community to be used as a 
single source of instruction for watchlisting matters. The training 
focuses on an explanation of the overall watchlisting process; 
identifies the roles of the each intelligence community member; 
describes the various intelligence community screening systems 
supported by the TSC's TSDB; explains the minimum watchlisting 
criteria; and articulates the intelligence benefits of positive 
watchlisting encounters.
    Question. Kidnapping for ransom is a common occurrence in Mexico. 
Over the past 10 years, kidnappings of and violence against United 
States citizens in Mexico has increased.
    Often, the kidnapping of United States citizens in Mexico involves 
ransom requests made to family members in the United States.
    I understand that FBI is frequently called upon to assist Mexican 
law enforcement authorities in the investigation of violent acts 
against and kidnappings of United States citizens in Mexico.
    Would you support the development by FBI of a vetted unit with 
trusted Mexican counterparts who have the expertise to conduct 
investigations of the kidnappings of United States citizens?
    Answer. FBI has been working with the Government of Mexico to 
establish specialized Kidnapping Investigation Units (KIUs) in 9 of the 
32 Mexican states. The FBI has provided training in the United States 
as well as equipment to each unit. As kidnapping is a state crime under 
Mexico law, each of these units is operated by its respective state. 
FBI legal attaches work with these units in the kidnapping 
investigations of United States citizens. Although it would help 
improve investigations these units are not ``SIUs'' and are not fully 
vetted as an SIU would be since the Government of Mexico is currently 
doing the vetting and would have to agree to letting FBI conduct it 
instead. In addition, these units do not exclusively investigate 
kidnappings of U.S. citizens; rather they investigate all kidnappings 
in their respective states. Since kidnappings of United States citizens 
occur across Mexico, FBI must rely on Mexican state and federal 
officials to conduct the investigations according to their laws.
    FBI will also be working with the Federal Police and Federal 
Ministerial Police to develop their kidnapping investigative 
capabilities and structure.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
              lack of support for southwest border efforts
    Question. Department of Justice (DOJ) components are often 
overlooked by the administration when crafting Southwest Border budgets 
and legislation.
    Director Mueller, I am concerned that only $130 million of the 
Federal Bureau of Investigation's (FBI) $8.1 billion total request is 
dedicated to Southwest Border activities. I understand the 
administration rejected your request for more resources in last year's 
Southwest Border supplemental. I also understand that FBI was directed 
to request no new enhancements in the fiscal year 2012 request--yet the 
DOJ was burdened with more than $1 billion of unrequested programs or 
new enhancements.
    New or Unrequested DOJ Programs.--COPS Hiring for $600 million; 
Medical Malpractice Grants for $250 million; Violence Against Law 
Enforcement Officers (VALOR); Ensuring Fairness and Justice, Domestic 
Radicalization; Gang and Youth Violence Prevention Program; Byrne 
Criminal Justice Innovation; Race to the Top; and Problem-Solving 
Justice, Flexible Indian Tribal Grant Program).
    Could you discuss the resources originally requested by for the 
Southwest Border supplemental that were denied by the administration?
    Answer. The information requested is pre-decisional. However, the 
resources appropriated in the fiscal year 2010 border security 
supplemental have been crucial in allowing FBI to expand its presence 
along the Southwest Border and to expand investigative capabilities.
    Question. Last, please elaborate on any new enhancements or 
increases that you might have preferred to be included in this fiscal 
year 2012 request.
    Answer. Regarding the Southwest Border, the most critical element 
in fiscal year 2012 is sustainment of the 78 positions (44 agents) 
received in the fiscal year 2010 border security supplemental, which 
was requested in the fiscal year 2012 President's budget.
 immigration and customs enforcement (ice) agent shooting--process and 
                               resources
    Question. This past February 15, United States ICE agent Jaime 
Zapata was murdered during an attack in Northern Mexico. FBI was 
designated by the Attorney General as the lead U.S. law enforcement 
component of a multi-agency task force charged with conducting the 
investigation into this attack.
    What can you tell us about the investigative efforts of this task 
force since this tragic incident in Mexico?
    Answer. Upon notification of the attack against the ICE agents, FBI 
immediately organized a multi-agency task force located in Washington, 
DC with a multi-U.S. Federal agency Command Post (CP) at the United 
States Embassy in Mexico. The task force and CP communicate daily 
regarding all facets of the investigation. Additionally, numerous FBI 
field offices have organized multi-agency efforts to assist in the 
investigation (San Antonio, Miami, Dallas, Houston, Phoenix, and Las 
Vegas to name a few). Through their Mexican liaison contacts, CP 
members have gathered significant information and evidence regarding 
the perpetrators and accomplices of the ICE attack. Two of the alleged 
perpetrators have been transported to the United States; those two and 
two others (a total of four) have been indicted on multiple charges. 
The United States Government has presented the Government of Mexico 
with the necessary documentation to transport two other alleged 
perpetrators, including the leader of 1 of the 2 teams that attacked 
agents Zapata and Avila. As of now, 5 of the 8 individuals identified 
as perpetrators are in custody, either in Mexico or the United States.
    Question. Are Mexican law enforcement authorities cooperating and/
or assisting in this investigation?
    Answer. Mexican law enforcement officials are conducting a parallel 
investigation into this incident. The Mexican Government and its 
agencies have an ``open door'' for all United States requests for 
access to evidence, interviews, and support to our Embassy personnel in 
conducting this investigation. Members of the Embassy staff meet 
regularly with Mexican counterparts to ensure necessary information is 
shared.
    Question. Are discussions taking place to have the perpetrators 
extradited to the United States for prosecution of this crime?
    Answer. Yes, such discussions are taking place. DOJ's prosecution 
team, consisting of two prosecutors from the U.S. Attorney's office in 
the District of Columbia and two prosecutors from DOJ Criminal 
Division, has been working virtually around the clock both here in 
Washington and on the ground in Mexico since the tragic murder of Agent 
Zapata. United States prosecutors are in close contact with the Mexican 
office of the Attorney General (PGR) to discuss progress in the case 
and DOJ officials, at the highest levels, have reached out to the 
Mexican Attorney General and other PGR officials to discuss the need to 
have the perpetrators extradited to the United States for prosecution. 
Our goal is to bring all of those involved in the murder of Agent 
Zapata to justice in the United States.
    Question. Could you talk about the process that took place to 
investigate the attack and what agencies were involved?
    Answer. Upon notification of the attack against the ICE agents, FBI 
immediately organized a multi-agency task force located in Washington, 
DC with a multi-U.S. Federal agency Command Post (CP) at the United 
States Embassy in Mexico. At least 77 persons from 10 different U.S. 
Federal agencies were represented in the working group. FBI Legat, ATF 
Attache, ICE Attache, and the Regional Security Officer (RSO), traveled 
from Mexico City to the area of the attack with a small team of their 
agents to coordinate investigative efforts with the Mexican Federal 
Police and the Mexican Attorney General's Office, the Task Force and CP 
communicate daily regarding all facets of the investigation. 
Additionally, numerous FBI field offices have organized multi-agency 
efforts to assist in the investigation (Dallas, Houston, Las Vegas, 
Miami, Phoenix, and San Antonio, to name a few). Through their Mexican 
liaison contacts, CP members have gathered significant information and 
evidence regarding the perpetrators and accomplices of the ICE attack. 
Two of the alleged perpetrators have been transported to the United 
States; those two and two others (a total of four) have been indicted 
on multiple charges. The United States Government has presented the 
Government of Mexico with the necessary documentation to transport two 
other alleged perpetrators, including the leader of 1 of the 2 teams 
that attacked agents Zapata and Avila. As of now, 5 of the 8 
individuals identified as perpetrators are in custody, either in Mexico 
or the United States.
    Question. Last, can you tell us about the FBI legal attache (LEGAT) 
program and how the office in Mexico City has played a role in this 
investigation?
    Answer. The LEGAT program is the forward element of the FBI's 
international law enforcement effort, and often provides the first 
response to crimes against the United States that have an international 
nexus. The LEGAT program provides for a prompt and continuous exchange 
of information with foreign law enforcement and supports FBI's efforts 
to meet its investigative responsibilities. The LEGAT office in Mexico 
City has played a critical role in this investigation, coordinating 
investigative efforts and ensuring that authorities in the United 
States and Mexico have all of the information required to pursue 
justice in this matter. The LEGAT office has been working directly with 
U.S. Embassy officials, including the Ambassador (and Charge 
d'affaires) and Deputy Chief of Mission (DCM) to provide the 
information necessary for discussion of the case at the highest levels 
of both governments.
                      9/11 trial costs to the fbi
    Question. On Monday, Attorney General Holder announced that the 9/
11 conspirators held at the Guantanamo Bay detention facility would be 
tried by military commissions, retreating from President Obama's 
previous position of pursuing civilian trials for these terrorists. 
Holding the trials of the 9/11 conspirators in New York City would have 
not only posed a serious public safety risk, but it also would be a 
monumental strain on already scarce law enforcement resources. The 
Department of Justice and the city of New York conservatively estimated 
it would cost taxpayers approximately $300 million.
    Would having these terrorist trials in New York affect FBI field 
offices in this region?
    Answer. If the trials were held in New York, FBI would assign 
personnel from the New York office and other FBI divisions as 
necessary, and would coordinate with the appropriate Federal, State, 
and local authorities in regards to trial logistics and security.
    Question. Would agents from other field offices be shifted to the 
New York? If so, how would this affect their normal duties?
    Answer. If the trials were held in New York, FBI would assign 
personnel from the New York Office and other FBI divisions as 
necessary. Because the 9/11 co-conspirators will be tried by military 
commissions at Guantanamo Bay, Cuba, however, FBI need not plan to 
reassign agents to address trials in New York City.
    Question. What impacts would this affect FBI's overall mission?
    Answer. Since the 9/11 co-conspirators will be tried by military 
commissions at Guantanamo Bay, Cuba, FBI's overall mission will not be 
impacted.
                          fort hood shootings
    Question. The Senate Homeland Security and Government Affairs 
Committee issued a report on the events surrounding the shootings at 
Fort Hood that took place in November 2009. The report criticizes FBI, 
citing that FBI field offices failed to recognize warning signs that 
Nidal Malik Hasan was a threat. The report also concluded that FBI had 
sufficient information to detect that he was a ``ticking time bomb'' 
who had been radicalized to violent Islamist extremism, but failed to 
understand and act on it. FBI has been provided significant funding 
since 9/11 to bolster its intelligence program which includes the 
hiring and professionalizing its intelligence analyst workforce. 
According to the report, FBI failed to use its analysts in this 
situation.
    What is your response to this report and what has the FBI done in 
response to the Fort Hood shootings?
    Answer. During the internal FBI review undertaken immediately after 
the attack at Fort Hood, FBI identified several of the areas of concern 
outlined in the report and, as noted in the report, has implemented 
changes to its systems and processes to address them. FBI will review 
each of the report's recommendations and adopt them, as appropriate.
    While concluding that FBI's transformation to an intelligence-
driven organization remains a work in progress, the report recognizes 
FBI's substantial progress and many successes, led by JTTFs, in 
disrupting terrorist plots by homegrown extremists.
    In addition, at the request of FBI Director Mueller, Judge William 
H. Webster is conducting an independent, outside review of the FBI's 
actions with respect to the attacks at Fort Hood. Judge Webster and his 
team are evaluating the corrective actions taken to determine whether 
they are sufficient and whether there are other policy or procedural 
steps FBI should consider to improve its ability to detect and prevent 
such threats in the future.
    Question. What changes have you made to ensure this tragedy does 
not happen again?
    Answer. Immediately after the tragedy, FBI Director Robert Mueller 
ordered a preliminary review of the FBI's actions, as well any relevant 
policies and procedures that may have guided the FBI's actions before 
the shooting. In addition, the Director asked for recommendations as to 
what changes should be made as a result of that review.
    On December 8, 2009, Director Mueller asked Judge William H. 
Webster to conduct a more comprehensive, independent review of FBI 
policies, practices, and actions. That review is currently underway. 
The goal of these reviews is the same, to look at both the actions of 
individuals involved and the systems in place at the time of the tragic 
events at Fort Hood and to ensure that investigators have the tools 
they need to effectively carry out their responsibilities in today's 
evolving threat environment. The paramount concern in this process is 
to make sure that the systems and policies that are in place support 
public safety and national security.
    In addition, as a result of the internal review, FBI identified 
four areas for immediate adjustment and improvement.
Protocols With the Department of Defense (DOD)
    Although information-sharing has dramatically improved since 
September 2001, there is still room for improvement in certain areas, 
especially given the changing nature of the terrorist threat, and the 
need to constantly recalibrate approaches and responses. Working with 
DOD, FBI has formalized a process for centrally notifying DOD of FBI 
investigations involving military personnel. This should streamline 
information-sharing and coordination between FBI and all components of 
DOD, where appropriate, and as permitted by law. Improved processes for 
exchanging information will help ensure that FBI task force officers, 
agents, and analysts have all available information to further their 
investigations.
Additional Levels of Review
    FBI determined that intelligence collected in connection with 
certain threats--particularly those that affect multiple equities 
inside and outside the FBI--should have a supplemental layer of review 
at the FBIHQ level. This redundancy in the review process will limit 
the risk of human error by bringing a broader perspective to the 
review. In this way, FBI should have a better institutional 
understanding of such threats.
Technological Improvements
    During the course of the internal review, FBI identified IT 
improvements that should be made to its systems. Those improvements, 
which are being engineered, should strengthen FBI agents' and analysts' 
ability to sift through information by automatically showing certain 
connections that are critical to uncovering threats.
Training for Members of JTTFs
    FBI increased training for members of JTTFs to better ensure JTTF 
members know how to maximize access to all available information and to 
best utilize existing tools to identify and link critical information. 
Specifically, JTTF Task Force Officer (TFO) training consists of three 
components:
  --orientation and operations training;
  --database training; and
  --computer-based training.
    Training addressing legal restrictions that govern the retention 
and dissemination of information was also expanded and strengthened.
    The JTTF TFO Orientation & Operations Course (JTOOC) was 
established prior to Fort Hood and has continued to evolve as training 
is evaluated to ensure the best possible instruction is provided to 
TFOs. The JTOOC is now a 5-day course designed to develop a basic 
familiarization with counterterrorism investigations for all TFOs 
assigned to JTTFs. JTOOC classes are designed around a notional 
counterterrorism case to facilitate discussion and participant 
interaction.
    In fiscal year 2010, in response to the initial Fort Hood findings, 
the FBI Counterterrorism Division (CTD) mandated that JTTF members 
receive hands-on training on key FBI databases and systems. Database 
training is now required for all JTTF members including special agents, 
TFOs, intelligence analysts, and other personnel assigned to JTTFs who 
have access to systems and conduct investigative work.
    FBI provides computer-based training to its employees via the FBI 
Virtual Academy system. CTD has identified 12 specific Virtual Academy 
training modules as the baseline level of training for JTTF personnel. 
All personnel assigned to a JTTF or working counterterrorism matters 
are required to complete these baseline training modules.
             effects of fiscal year 2010 levels on the fbi
    Question. Although this hearing is about the fiscal year 2012 
budget request, this subcommittee is also currently negotiating the 
fiscal year 2011 budget. Specifically, FBI will unable to backfill 
1,100 positions and would be facing a deficit of more than $200 million 
if left to operate at fiscal year 2010 funding levels.
    Is this true, and how will this affect this country's national 
security?
    Answer. The fiscal year 2011 enacted appropriation included an 
increase that enables the FBI to backfill these positions, and since 
current services requirements were provided, there is not a $200 
million shortfall.
    Question. Can agents be furloughed or is there a prioritization of 
personnel in all of the enforcement agencies?
    Answer. FBI agents can be furloughed, taking into account the 
safety of human life or protection of property when making decisions 
about furloughing staff. However, FBI does not anticipate furloughing 
any staff in fiscal year 2011.
    Question. How does this affect the fiscal year 2012 budget that we 
see before us today?
    Answer. Because the fiscal year 2012 President's budget request was 
developed using the fiscal year 2011 current rate as the starting 
point, the fiscal year 2011 enacted budget has little impact on the 
fiscal year 2012 request. The fiscal year 2012 budget request includes 
mandatory increases and annualizations needed to maintain current 
investigative and litigating efforts.
                             hybrid squads
    Question. Hybrid squads integrate FBI personnel with different 
types of expertise to address different types of threats and provide 
the best framework to disrupt the infrastructure of the Mexican drug 
cartels. The squad's composition provides different backgrounds and 
functional expertise, ranging from violent gangs, public corruption, 
and violent crimes. An amount of $15.9 million is requested for fiscal 
year 2012 to annualize and sustain the FBI's hybrid squads, which 
received $17 million in the fiscal year 2010 Southwest Border 
supplemental to create six of these teams.
    Have the teams created in the supplemental been deployed?
    Answer. Yes, FBI currently has nine fully deployed hybrid squads 
along the Southwest Border. They are located in the following field 
offices:
  --San Diego;
  --Albuquerque, New Mexico (Las Cruces Resident Agency [RA]);
  --El Paso;
  --San Antonio, (Del Rio RA and McAllen RAs);
  --Dallas;
  --Phoenix, Arizona;
  --Tucson, Arizona; and
  --San Juan, Puerto Rico.
    Question. Can you discuss the composition and concept of hybrid 
squads and where they are deployed?
    Answer. Mexican Criminal Enterprises (MCEs) are involved in 
significant criminal activity that threatens United States national 
security interests, including, but not limited to:
  --violent crime;
  --kidnapping; drug trafficking;
  --alien smuggling;
  --public corruption;
  --assaults on Federal officers;
  --murder; and
  --human trafficking.
    Each hybrid squad consists of, at a minimum, one supervisory 
special agent; five special agents; one intelligence analyst (IA); and 
one staff operations specialist (SOS) who are subject matter experts in 
the MCEs and the threats they pose in their area of responsibility 
(AOR). In addition, hybrid squads will identify State and local 
resources investigating violent crimes in its AOR in order to leverage 
their expertise and intelligence base in support of its operational 
strategies.
    Hybrid squads were established to address the cross-programmatic 
threat posed to the United States by MCEs operating on the Southwest 
Border and to allow for the implementation of a cross-programmatic, 
multi-agency approach to the investigation of significant crimes 
perpetrated by MCEs, including:
  --murder;
  --kidnapping;
  --extortion;
  --home invasions;
  --drug and weapon trafficking;
  --money laundering;
  --alien smuggling (particularly Special Interest Aliens [SIA]);
  --Assault of or Killing a Federal Officer; and
  --other violent crimes being perpetrated by the MCEs in order to 
        impact the cross-border criminal violence created by those MCEs 
        in their AOR.
    Hybrid squads actively contribute to the flow of intelligence by 
coordinating with local Field Intelligence Groups with the Southwest 
Border Watch FBIHQ component.
    The hybrid squads have enhanced FBI resources dedicated to 
combating the violent crime threat posed by MCEs, and have expanded the 
FBI's intelligence collection efforts against MCEs. Hybrid squads have 
become an integral part of the FBI's overall strategy designed to 
penetrate, disrupt, and ultimately dismantle the MCEs that pose the 
greatest threat to U.S. national security.
    They are located in the following field offices:
  --San Diego;
  --Albuquerque, New Mexico (Las Cruces Resident Agency [RA]);
  --El Paso;
  --San Antonio, (Del Rio RA and McAllen RAs);
  --Dallas;
  --Phoenix, Arizona;
  --Tucson, Arizona; and
  --San Juan, Puerto Rico.
                             innocence lost
    Question. Innocent Lost targets child prostitution and sex 
trafficking, and is a partnership between FBI, the National Center for 
Missing and Exploited Children, and the Justice Department's Child 
Exploitation and Obscenity Section. This is one of the FBI's most 
important missions. The request for this program is $19 million.
    Can you tell us about the partnership with the National Center for 
Missing and Exploited Children, and the impact the Innocence Lost 
program has had in just 8 years of existence?
    Answer. The National Center for Missing and Exploited Children 
(NCMEC) supports the Innocence Lost National Initiative (ILNI) through 
training and analytic resources. This partnership has resulted in a 
course, ``Protecting Victims of Child Prostitution,'' which provides 
Federal/State/local law enforcement officers and prosecutors, as well 
as victim specialists, with a basic introduction to the child 
prostitution threat and how to work with child victims. To date, 1,300 
individuals have received this training. The NCMEC also uses its intake 
system to maintain a repository on children who are suspected to be at 
risk of exploitation through prostitution. To date, the NCMEC has 
received more than 4,200 intake reports, with 940 pertaining to 
children under 14 years of age.
    As of May 17, 2011, the ILNI had 572 pending cases, 599 
informations/indictments, and 724 convictions. Furthermore, subjects of 
these investigations are regularly sentenced to terms of 25 years or 
more, while six have received life sentences. Since its inception, 
1,628 children have been recovered and removed from the cycle of abuse.
    Question. What are your plans for this vital initiative in the 
future?
    Answer. FBI places a high priority on assisting child victims of 
sexual exploitation and plans to continue addressing this problem 
through ILNI. The ILNI targets criminal organizations engaged in the 
commercial sexual exploitation of children, such as child prostitution. 
FBI currently has 42 task forces and working groups addressing this 
threat. Investigations have identified national criminal organizations 
responsible for the sex trafficking of hundreds of children, some as 
young as 9 years old.
    FBI currently has 26 formalized task forces and 16 ad-hoc working 
groups across the Nation addressing the threat. These task forces and 
working groups consist of approximately 240 State and local law 
enforcement participants.
    FBI has developed a national database, the Innocence Lost Database 
(ILD), containing more than 22,000 records pertaining to offenders, 
associates and child victims. To date, 3,400 of these records pertain 
to child victims. This database serves as a national repository for 
intelligence and is available to Federal/State/local law enforcement 
24/7 via Law Enforcement Online (LEO), which is a controlled-access 
communications and information sharing data repository. Future plans 
include a robust enhancement to the database to include a webcrawler to 
compare intelligence to social networking sites, as well as facial 
recognition to assist in identifying child victims.
    Question. Is $19 million an adequate request for this initiative?
    Answer. The $19 million request is sufficient to maintain current 
services.
                            innocent images
    Question. NCMEC reported to us that they are working with FBI in an 
effort to identify and rescue the children being victimized in child 
pornography. NCMEC also reported that it reviewed 13 million images and 
videos last year alone.
    FBI also assigns an agent and four analysts from the Cyber 
Division/Innocent Images to work with NCMEC on Internet crimes against 
children, particularly child pornography. It seems clear that the 
problem of child pornography has exploded with the advent of the 
Internet. I know that your Innocent Images Initiative has been 
successful. The request is $69 million for Innocent Images.
    Is this an appropriate request?
    Answer. The Innocent Images threat is large and FBI will prioritize 
its caseload to effectively meet investigative requirements within the 
$69 million level.
    Question. What more can we do to combat this insidious problem?
    Answer. The Innocent Images National Initiative (IINI) program has 
collaborated with State, local, Federal, and international law 
enforcement partners, as well as private industry, to address this 
problem. Although the IINI program has been quite successful at 
combating the online threat of online child sexual exploitation, IINI 
recognizes that it cannot arrest its way out of this societal dilemma. 
Therefore, IINI has launched a national outreach program for elementary 
and middle schools to make children and parents aware of online dangers 
and the safety measures needed to prevent children from being sexually 
exploited. The program is called FBI Safe Online Surfing (SOS). Through 
May 2011, FBI has been able to reach approximately 140,000 students 
(from all 50 States) with this outreach initiative.
    relationship between intellectual property (ip) theft and crime/
                               terrorism
    Question. A 2009 RAND study, as well as other analysis, concludes 
that there was clear evidence that terror groups, as well as organized 
criminal enterprises, engage in various forms of IP theft because it is 
a low-risk, high-profit enterprise.
    Are you aware of any specific Government-wide systematic review of 
the ties between and among terror groups and/or organized crime and IP 
theft?
    Answer. FBI, as a partner in the National Intellectual Property 
Rights Coordination Center (IPR Center), recently conducted a threat 
assessment of IPR violations to the United States. The resulting 
document, entitled ``Intellectual Property Violations: A Baseline 
Global Assessment of the Threats to United States' Interests at Home 
and Abroad'', is a comprehensive analysis of the global threat to 
United States interests from criminal IPR violations including, the 
nature of the threat, the magnitude, the types of offenders committing 
these offenses, and its source. In analyzing the types of offenders, 
the assessment considered the role of criminal organizations including 
criminal enterprises, traditional organized crime groups, terrorist 
organizations and gangs. Among other things, the assessment identified 
the types of goods that are most often counterfeited or pirated by 
these types of offenders, the role they play in committing IP crime 
(e.g. manufacturing, distribution, retail), and where they are 
generally located.
    The contributors to this report conducted interviews with IPR 
experts in the United States, China, and India, including experts in 
government, industry, and academia. Researchers analyze relevant United 
States Intelligence Community (USIC) reporting information from Federal 
law enforcement investigations, industry generated reports, and other 
open source research.
    In addition, in Sec. 402(b) the Prioritizing Resources and 
Organization for Intellectual Property Act of 2008 (PRO IP Act), Public 
Law 110-403, the Congress directed the Department, subject to the 
availability of appropriations, to develop a long-range plan to 
identify and address the links between organized crime and IP. Although 
this portion of the PRO IP Act remains unfunded, the Department has 
taken a number of steps to implement the goals of this provision. For 
example, consistent with its long-term commitment to fighting organized 
crime in all forms, the Department has incorporated IP into its 
International Organized Crime Strategy; the Attorney General's 
Organized Crime Council (AGOCC) has prioritized IP enforcement, 
adopting as part of its 2010 Action Plan a specific goal to enhance law 
enforcement coordination in this area; and the Department's IP Task 
Force has designated the investigation and prosecution of IP crimes 
perpetrated by organized crime groups a law enforcement priority. More 
detailed information on these efforts are included in the Department's 
fiscal year 2009 and fiscal year 2010 PRO IP Act Reports. See http://
www.cybercrime.gov/proipreport2010.pdf and http://www.justice.gov/
criminal/cybercrime/proipreport2009.pdf.
    Question. If not, are you aware of any plans within the Department 
of Justice or any other Department or agency to conduct such a review?
    Answer. FBI, as a partner in the National Intellectual Property 
Rights Coordination Center (IPR Center), produced the ``Intellectual 
Property Violations: A Baseline Global Assessment of the Threats to the 
United States' Interests at Home and Abroad'' as a comprehensive 
analysis of the global threat to the United Sates interests from 
criminal IPR violations.
                 impact of a government shutdown on fbi
    Question. Director Mueller, I hope the Government does not shut 
down, but this is a reality at FBI that should be discussed, 
specifically the national security and public safety implications.
    Can you tell us what happens at FBI in the event of shutdown?
    Answer. FBI must be able to respond to contingencies during a lapse 
of appropriations that are reasonably likely to compromise the safety 
of human life or protection of property in some significant degree. 
Accordingly, in the April 2011 contingency plan all FBI agents and 
support personnel in the field were considered ``excepted'' from 
furlough. This includes the 56 domestic field offices, 400 resident 
agencies, 61 Legal Attache (LEGAT) offices, and 14 LEGAT sub-offices.
    At FBIHQ, a total of 59 percent of staff were considered excepted 
in the April 2011 contingency plan, including 90 percent of the agents, 
88 percent of intelligence analysts, and approximately 49 percent of 
other support personnel. These positions provide direction and 
investigative support to all field operations and excepted FBIHQ 
functions.
    Question. Do you believe that a Government shutdown could have an 
impact on FBI's counterterrorism mission? Would it have an impact 
ongoing investigations?
    Answer. While a total of 89.3 percent of FBI personnel were 
excepted and not subject to furlough in the April 2011 contingency 
plan, a Government shutdown could have a negative impact on FBI's 
counterterrorism mission as critical support functions provided by the 
remaining furloughed employees would not be available.
    Question. Are any agents or intelligence analysts furloughed? If 
so, where are they located and how is this determined?
    Answer. In the April 2011 contingency plan, 10 percent of agents 
and 12 percent of intelligence analysts at FBIHQ would be furloughed. 
The decision to furlough takes into account the safety of human life or 
protection of property. However, FBI does not anticipate furloughing 
any staff in fiscal year 2011.
    Question. FBI has agents and personnel stationed overseas. How 
would a shutdown affect them?
    Answer. In the April 2011 contingency plan, all FBI agents and 
support personnel stationed overseas are considered excepted from 
furlough. However, overseas personnel would be operating without the 
support of those FBIHQ employees not excepted from furlough.
                       otms--other than mexicans
    Question. As we discussed earlier this week, I read an alarming 
column in Texas Monthly. It stated that the head of the Texas 
Department of Public Safety testified before the Texas Senate Finance 
Committee, conveying statistics that law enforcement officials in the 
Rio Grande Valley had apprehended 287 illegal aliens categorized as 
``OTMs'' or ``Other Than Mexicans''. The OTMs came from countries that 
are home to active al Qaeda cells or Taliban activity--Yemen, Iran, and 
Pakistan.
    The article also cited a General Accounting Office statistic that 
law enforcement catches less than 6.5 percent of the criminal activity 
coming across the border, and it was extrapolated that these 287 OTMs 
captured represents only 6.5 percent of the threat crossing the border.
    Is it possible that some of these OTMs are potential terrorists or 
could have terrorist ties? Do you believe terrorists are attempting to 
enter the United States through the Southwest Border and can you 
discuss your understanding of this situation?
    Answer. FBI remains concerned that terrorists seek to exploit the 
Southwest Border as a means of gaining access to the United States. Two 
recent arrests near the United States-Mexico border indicate that some 
Special Interest Aliens (SIAs) advocate violent Islamic extremism or 
have some connections to overseas terrorist organizations.
    United States border authorities in January 2011 arrested Tunisian 
national and formerly Montreal, Canada-based imam, Said Jaziri, after 
he allegedly paid a Tijuana-based smuggling group to take him across 
the United States-Mexican border in the trunk of a vehicle. Prior to 
his deportation by Canadian authorities in 2007, Jaziri publicly 
advocated for the imposition of Sharia law in Canada and called for the 
death of the Danish newspaper cartoonist who drew pictures of the 
Prophet Muhammad.\1\ \2\
---------------------------------------------------------------------------
    \1\ Los Angeles Times, ``Controversial Muslim cleric is arrested 
while sneaking into the U.S.'', 27 January 2011.
    \2\ UK Daily Mail, ``Controversial Muslim cleric caught being 
smuggled into the U.S. over Mexico border'', 28 January 2011.
---------------------------------------------------------------------------
    In April 2011, Ahmed Muhammed Dhakane, an ethnic Somali was 
sentenced to 10 years in prison for failing to acknowledge ties to an 
East African extremist group and lying on an asylum application. 
Dhakane was arrested on immigration charges in Brownsville, across the 
Rio Grande from Matamoros, Mexico in March 2008. It was discovered he 
provided false information on his entry into the United States and 
controlled a large-scale human smuggling enterprise.\3\
---------------------------------------------------------------------------
    \3\ Associated Press, ``Somali sentenced for lying about terrorism 
links'', 28 April 2011.
---------------------------------------------------------------------------
    FBI believes that the illicit flow of SIAs across the United 
States-Mexico border into the United States offers al Qaeda and 
affiliate organizations a potential opportunity for smuggling a 
terrorist operative or supporter into the United States. Many of the 
human smuggling networks that operate between Latin America and the 
United States are connected with smugglers from other parts of the 
world and these networks are willing to smuggle undocumented persons of 
any nationality, provided that the individual is able to pay the 
smuggling fee. FBI and its law enforcement and intelligence partners 
continue to investigate aliens and human smuggling networks with 
possible connections to terrorist organizations who may be seeking 
access to the United States via the Southwest Border.

                      [Monday, February 21, 2011]

                          Other Than Mexicans
             (posted by Patricia Kilday Hart at 7:10 p.m.)
    Department of Public Safety Director Steve McCraw testified before 
Senate Finance today, sharing his concern that crime in Dallas, 
Houston, Austin and San Antonio is very much connected to Mexican drug 
cartels, operating though the potent prison gangs Texas Syndicate and 
Texas Mafia.
    For most, that's not particularly ``new'' news. But McCraw also 
shared some statistics that gave his audience great pause: Last year, 
law enforcement agencies operating in the Rio Grande Valley apprehended 
what they refer to as 287 OTMs--illegal immigrants from countries with 
active al Qaeda cells or Taliban activity. Places like Yemen, Iran, 
Pakistan, etc. Even more startling was a Federal Government 
Accountability Office statistic that law enforcement's net catches only 
about 6.5 percent of the criminal activity coming across the border. In 
the hearing, Senator Dan Patrick suggested that we could extrapolate 
that the 287 potential ``terrorists'' represents only 6.5 percent of 
the total threat.
    McCraw gave the Finance Committee solid reasons to believe that 
investment in border security operations reaps dividends. Last year, 
thanks to an additional State-funded DPS presence on the border, drug 
seizures increased 124 percent and cash seizures jumped by 137 percent.
    Neither the Senate or House proposed bills cut too deeply into DPS 
border operations, but my prediction is that this is one area of the 
budget that won't be trimmed.

    Question. Does the FBI get involved when these individual are 
captured? What do you believe can be done to prevent this situation?
    Answer. The Department of Homeland Security's (DHS) Customs and 
Border Protection (CBP) and Immigration and Customs Enforcement (ICE) 
are the primary Federal agencies that are involved in the interdiction 
and removal of aliens entering the United States illegally. That said, 
if CBP or ICE determine that a captured illegal alien warrants further 
scrutiny, those individuals are first interviewed by their 
investigative elements. If they believe a nexus to terrorism exists, 
FBI is called in for further investigation.
    FBI defers to DHS to provide information on preventive measures.
    I also understand there have been a number of Somalians attempting 
to illegally enter the country through the Southwest Border, and that 
there are some serious issues because there is no official government 
in Somalia to deport them to.
    Question. What is the process once a Somalian or individual 
captured from a country without a recognized government is in our 
custody?
    Answer. In this instance, FBI would not be involved as this is an 
immigration issue. DHS' Customs and Border Protection (CBP) and 
Immigration and Customs Enforcement (ICE) would be the lead agencies 
for this matter. DHS will determine the appropriate means for cases 
involving such an alien. In some cases, DHS may choose to place the 
alien in immigration judge proceedings conducted by DOJ's Executive 
Office for Immigration Review.
              lack of support for southwest border efforts
    Question. DOJ components are often overlooked by the administration 
when crafting Southwest Border budgets and legislation.
    Director Mueller, I am concerned that only $130 million of FBI's 
$8.1 billion total request is dedicated to Southwest Border activities. 
I understand FBI requested more resources in last year's Southwest 
Border supplemental. I also understand that FBI was directed to request 
no new enhancements in the fiscal year 2012 request--yet DOJ was 
burdened with more than $1 billion of unrequested programs or new 
enhancements.
    (New or unrequested programs--COPS Hiring for $600 million; Medical 
Malpractice Grants for $250 million; Juvenile Justice Race to the 
Top,;Community Based Violence Prevention Grants; Violence Against Law 
Enforcement Officer grants).
    Could you discuss what FBI is doing to address violence and 
corruption along the Southwest Border and what resources you still 
need?
Violence
    Answer. In addition to the standard deployment of resources to gang 
squads, drug/High Intensity Drug Trafficking Areas (HIDTA) squads, 
violent crime squads, and task forces in field offices along the 
Southwest Border, FBI has the following resources/initiatives to 
address Southwest Border violent criminal activity:
      Hybrid Squads.--Each hybrid squad consists of at least one 
        supervisory special agent, five special agents, one 
        Intelligence Analyst, and five professional staff positions. 
        Hybrid squads address the cross-programmatic threat posed to 
        the United States by Mexican Criminal Enterprises (MCEs) 
        operating on the Southwest Border and allows for the 
        implementation of a cross-programmatic, multi-agency approach 
        to the investigation of significant crimes perpetrated by MCEs, 
        including:
    --murder;
    --kidnapping;
    --extortion;
    --home invasions;
    --drug and weapon trafficking;
    --money laundering;
    --alien smuggling (particularly SIA);
    --Assault or killing a Federal officer; and
    --other violent crimes being perpetrated by the MCEs in order to 
            impact the cross-border criminal violence created by those 
            MCEs in their AOR.
    --Regarding the Southwest Border, the most critical element in 
            fiscal year 2012 is sustainment of the 78 positions (44 
            agents) received in the fiscal year 2010 border security 
            supplemental, which was requested in the fiscal year 2012 
            President's budget.
  --Southwest Border Rapid Deployment Team to respond to crises such as 
        the recent shootings of ICE and CBP agents.
  --Intelligence Collection and Exploitation Unit:
    --Partners with other Federal agencies (ICE, CBP, National Security 
            Agency [NSA]) for intelligence sharing at FBIHQ in 
            Washington, DC;
    --Participates in the El Paso Intelligence Center (EPIC) in the 
            field.
      Southwest Regional Intelligence Group.--Serves as the 
        clearinghouse of all FBI activities involving Mexico and is 
        housed at EPIC. It was established to remedy any intelligence 
        gaps along the Southwest Border.
      OCDETF Co-located Strike Forces.--Strike Forces serve as the 
        DOJ's primary prosecutor-led, multi-agency task forces aimed at 
        aggressively targeting the highest-level drug-trafficking 
        organizations. FBI has 118 personnel (87 agents and 11 
        intelligence analysts) assigned to the OCDETF Strike Forces. 
        Approximately two-thirds are on Strikeforces that address 
        Southwest Border-related issues. There are tactical 
        partnerships between FBI's Hostage Rescue Team and CBP's Border 
        Patrol Tactical Unit.
      FBI Border Liaison Officers.--Border Liaison Officers work to 
        establish relationships and exchange information with Mexican 
        law enforcement with the goal of easily sharing vital 
        intelligence.
      Training for Mexican Law Enforcement.--Mexican American Law 
        Enforcement Training; Latin American Law Enforcement Executive 
        Development Seminars; FBI anti-kidnapping training.
  --New partnerships with local law enforcement.
    --Cartel Murder Initiative--Dallas, Texas FBI Field Division--
            Dallas, Texas Police Department.
    In addition, the FBI's MS-13 National Gang Task Force has 
instituted the Central American Fingerprint Exchange (CAFE) initiative, 
as well as the Transnational Anti-Gang initiative (TAG), which 
coordinates the sharing of gang intelligence between FBI and its law 
enforcement partners in El Salvador, Guatemala, Honduras, and the 
United States.
    CAFE was developed to collect and store existing biometric data/
fingerprint records from El Salvador, Guatemala, Belize, Honduras, as 
well as Chiapas, Mexico. These records are being integrated into the 
general database of FBI's Criminal Justice Information Services 
Division, and will be accessible to all Federal, State, local, agencies 
in the United States through the Integrated Automated Fingerprint 
Identification System (IAFIS). CAFE will enable participating countries 
to conduct fingerprint identification and analysis by providing system 
hardware and training.
    TAG was created to assist in combating the growing threat posed by 
transnational gangs and drug cartels in Latin America. The objective of 
TAG is to aggressively investigate, disrupt, and dismantle gangs whose 
activities rise to the level of criminal enterprises. TAG combines the 
expertise, resources, and jurisdiction of participating agencies 
involved in investigating and countering transnational criminal gang 
activity (specifically MS-13 and 18th Street), in the United States, El 
Salvador, Honduras, Guatemala, and Mexico. Through information sharing 
and open communication with the Policia Nacional Civil (PNC) of El 
Salvador, the TAG is in a position to acquire and disseminate valuable 
information previously unavailable to FBI field offices. Utilizing the 
support of the host countries and participating law enforcement 
agencies, the TAG employs a comprehensive approach to address the 
threat which MS-13 and 18th Street present to the United States and to 
Central America.
Public Corruption (PC)
    As of February 23, 2011, there were 127 agents dedicated to PC 
investigations along the Southwest Border. These agents coordinate 
efforts with Federal, State, and local law enforcement partners, 
including 13 FBI-led Border Corruption Task Forces (BCTFs) and 1 Border 
Corruption Working Group (BCWG) along the Southwest Border and 1 
National Border Corruption Task Force at FBIHQ in Washington, DC.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
    Question. The recent Homeland Security and Governmental Affairs 
Committee report on Fort Hood found a failure of the Federal Bureau of 
Invetigation (FBI) to adequately share critical information at the 
Joint Terrorism Task Forces (JTTFs). Namely, the JTTF in San Diego 
failed to share all the information it had about an Army Major's 
relevant communications with a suspected terrorist with the Washington 
JTTF, FBI headquarters (FBIHQ), and the Department of Defense (DOD). 
While it sent a memo to the Washington JTTF (as Major Hasan was 
stationed at Walter Reed Hospital at the time), and copied FBI 
Counterterrorism Division, FBI only considered it to be a 
``discretionary lead''. The Washington JTTF spent 4 hours on the last 
day of the 90-day due date to review the request and respond, and while 
the San Diego JTTF believed the analysis to be ``slim'', at no time did 
FBIHQ interject or coordinate intelligence analysis or the 
investigation.
    Similar to the situation that existed prior to the 9/11 attacks, 
the failure to share critical information resulted in deadly tragedy. 
The 9/11 Commission report found that:

    ``The FBI did not have the capability to link the collective 
knowledge of agents in the field to national priorities. The acting 
director of the FBI did not learn of his Bureau's hunt for two possible 
al Qaeda operatives in the United States or about his Bureau's arrest 
of an Islamic extremist taking flight training until September 11. The 
Director of Central Intelligence knew about the FBI's Moussaoui 
investigation weeks before word of it made its way even to the FBI's 
own Assistant Director for Counterterrorism.'' (p. 352).

    I am afraid that, since 9/11, the message that information sharing 
is critical has dissipated, and the Fort Hood incident indicates that 
FBI's field offices still do not adequately communicate with FBIHQ, 
much less other agencies.
    What has been done since Fort Hood and 9/11 to ensure that field 
offices are sharing information with a central headquarters office that 
coordinates counterterrorism intelligence, analysis, and 
investigations?
    Answer. Since 9/11, FBI has made steady progress in the realm of 
information sharing, moving ahead simultaneously in three ways:
  --Creating processes that make information sharing quicker, easier, 
        and more effective;
  --Creating a culture that values and encourages information sharing; 
        and
  --Creating organizational structures to advocate for information 
        sharing and provide oversight to information sharing practice.
    The most important progress has come with the creation and 
maturation of the Field Intelligence Groups (FIGs). The FIGs are 
composed of intelligence analysts, special agents, and other specialty 
staff such as language analysts and surveillance personnel, each of 
whom plays a role in the collection, analysis, production, and 
dissemination of intelligence. Specifically regarding information 
sharing, the FIGs disseminate information obtained by the field office 
that might be of value to other law enforcement or intelligence 
community partners.
    Generally, information is shared in the form of Intelligence 
Information Reports (IIRs), which are sent not only to others in FBI, 
but also to FBI's partners in the U.S. intelligence community, to DOD 
and the Department of Homeland Security (DHS). Most IIRs contain 
``tearlines'' so that the gist of the information is also shared with 
State and local law enforcement, as well as with our foreign partners. 
A recently developed product is our Situational Information Report 
(SIR). SIRs are the primary means by which field offices share timely 
and detailed unclassified information on matters relevant to entities 
within their domain, including State, local, and tribal partners.
    When FIGs were first established, IIRs that they drafted were all 
sent to FBIHQ for review and editing before being disseminated outside 
FBI. Starting this year, IIRs have been disseminated directly by FIGs, 
reflecting the higher level of professionalism created by several years 
of training, oversight, and experience. This direct dissemination means 
that information sharing is both faster and more extensive.
    On December 31, 2010, FBI created six Regional Intelligence Groups 
(RIGs) to facilitate information sharing among FIGs and to carry out 
analysis of developments that extend beyond the purview of a single 
field office. RIGs support the field offices in their efforts to 
identify risks and threats, and to develop an understanding of how 
these risks and threats impact the region. As emerging threats and 
trends that transcend field office boundaries emerge, the RIGs will 
facilitate awareness of regional field office collection postures to 
identify opportunities for shared source exploitation. All products 
produced by FIGs and RIGs are also shared with the appropriate FBIHQ 
mission program managers.
    Moreover, information sharing with Federal, State, and local law 
enforcement partners in JTTFs and Federal-level centers like the 
National Counterterrorism Center (NCTC) and Terrorist Screening Center 
(TSC) have been instrumental in focusing investigations on terrorist 
organizations and operations. FBI has mandated that JTTF members 
receive hands-on training on key FBI databases and systems. Database 
training is now required for all JTTF members including special agents, 
Task Force Officers, intelligence analysts and other personnel assigned 
to JTTFs who have access to systems and conduct investigative work. Use 
of community outreach, as well as law enforcement and private sector 
partnerships, in programs such as Tripwire, which identifies groups or 
individuals whose suspicious behavior may be a precursor to an act of 
terrorism, have resulted in significant tips and leads for FBI that 
have in turn led to timely intercept of terrorist activities. FBI has 
created a shareable database known as eGuardian that contains 
information regarding threats or suspicious incidents that appear to 
have a nexus with terrorism.
    In 2010, DOD decided to adopt eGuardian for its own use. Also in 
2010, FBI and DOD entered into a Memorandum of Understanding, that 
requires FBI Counterterrorism Division and field offices to notify ``a 
DOD representative in'' the national JTTF when an assessment or 
investigation is initiated regarding a military or DOD-affiliated 
individual. These efforts will greatly facilitate the exchange of 
suspicious activity reports between FBI and the DOD.
    Finally, FBI has been a supporter of State and local Fusion 
Centers, which have become another avenue for information sharing 
between the Federal Government and State, local, tribal, and private 
sector entities. FBI encourages its field offices to maintain a close 
working relationship with the FIGs and the Fusion Centers in their area 
of responsibility.
    A particularly noteworthy recent development was the decision in 
February 2011 to appoint an additional Deputy Assistant Director (DAD) 
within the Directorate of Intelligence to manage a program of 
``intelligence integration''. The point is to move beyond merely 
sharing information and toward collaborative work on understanding the 
significance of the information that is shared. FBIHQ Counterterrorism 
Division continues to serve as the coordinator for counterterrorism 
investigations, while the new DAD for Intelligence Integration is 
working to ensure that these investigations receive support from 
intelligence analysis that brings together and integrates intelligence 
and information from every possible source.
    Question. Some of the recent terrorist plots remind us that the key 
to disrupting an attack is often the action of an alert citizen who, in 
the course of his or her everyday business, notices and reports a 
suspicious activity.
    Previously, Senator Lieberman and I authored a provision, which 
became law, that we refer to as the ``See Something, Say Something'' 
law. The provision was a response to a lawsuit against citizens who 
were sued after reporting suspicious activity aboard a US Airways 
flight that was about to depart Minneapolis in 2006. It provides 
protection from lawsuits when individuals report suspicious activity in 
good faith regarding potential threats to the transportation sector.
    We introduced a bill this Congress that would expand this 
protection beyond the transportation sector, encompassing good faith 
reports of suspicious activity that may indicate that an individual is 
engaging in or preparing to engage in terrorist acts in general. NYPD 
Commissioner Kelly endorsed this legislation, saying it makes ``eminent 
good sense . . . and I certainly would recommend that it be expanded.''
    Do you think that if this bill were to be enacted into law it would 
increase the likelihood that more terrorist plots would be disrupted 
thanks to the actions of vigilant citizens?
    Answer. While it would appear that such a law, if enacted, would 
increase the likelihood that more terrorist plots would be disrupted, 
the Department does not have any data to support or refute this 
assertion.
    Question. Late last year, the Inspector General of the Department 
of Justice issued a report finding widespread cheating by employees of 
FBI on the standard examination to test knowledge of the Domestic 
Investigations and Operations Guide (DIOG). We exchanged regarding this 
unfortunate finding.
    The examination is designed to ensure that FBI employees understand 
all the investigative authorities--and the limits and civil liberties 
restrictions to those authorities--in investigating individuals in this 
country. This is all the more important with the extended authorities 
that FBI has post-9/11, especially with regards to domestic 
intelligence gathering. But there were many egregious cases of 
cheating, including those involving high-level Special Agents in 
Charge, and cybercrimes investigators using their computer skills to 
hack into code to reveal answers.
    It is fully recognized that Director Mueller has endeavored to 
maintain the core principle of integrity within FBI and has strived to 
transform FBI into an agile agency that is well-suited to defend 
against crimes and other terrorism threats.
    A December letter concerning this incident indicates that FBI will 
be releasing the next edition of the DIOG, and that FBI employees will 
be tested on their knowledge of the new DIOG. Please provide a status 
update on that effort.
    Answer. FBI's Corporate Policy Office, in coordination with the 
Training Division, Office of the General Counsel and Office of 
Integrity and Compliance, is preparing an updated online overview 
course, along with updated FAQs, training aids, and summary charts that 
highlight key tenants of the DIOG and the changes from the original 
version. All operational personnel will be required to complete the new 
training course when the updated DIOG is published in July 2011.
    Question. It was recently reported that Umar Patek was arrested in 
Pakistan earlier this year based on a Central Intelligence Agency (CIA) 
tip and is in the process of being turned over to the Indonesian 
intelligence authorities by Pakistani intelligence. Umar Patek is a 
senior commander of al Qaeda's Southeast Asian affiliate, Jemaah 
Islamiyah, and was the field coordinator for the 2002 Bali nightclub 
bombings and the last at-large member of the Hambali network that 
collaborated with Khalid Sheik Mohammed on a planned ``second wave'' of 
attacks on America after September 11, 2001.
    Although Patek's purpose for being in Pakistan has not been 
disclosed, it would not be uncommon for leaders of al Qaeda's regional 
affiliates to meet with al Qaeda's senior leadership to discuss 
funding, recruiting, and current and future operations. It has also 
been reported that he was in Yemen before his trip to Pakistan. This is 
a person with intimate knowledge of al Qaeda's leadership, networks, 
and possibly future or current plots targeting America and other 
locations.
    Please provide an update on the U.S. Government's involvement with 
this apprehension and if there is an effort to get him into our custody 
so that U.S. interrogators can directly determine if he is aware of 
threats to the Homeland.
    Also, please explain if we had captured Umar Patek ourselves 
overseas, or any major al Qaeda leader, where would the terrorist be 
detained and interrogated?
    Answer. FBI defers questions on this matter to CIA.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. We're going to just recess now, and 
reconvene in SH-219, for classified testimony on the national 
security budget of the FBI. And we'll look forward to seeing 
all members there. Don't stop for phone calls. We'll see you 
there.
    [Whereupon, at 11:15 a.m., Thursday, April 7, the 
subcommittee was recessed, to reconvene in closed session in 
SH-219.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2012

                              ----------                              


                         MONDAY, APRIL 11, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 4:05 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Brown, Hutchison, and Cochran.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. The Subcommittee on Commerce, Justice, 
Science, and Related Agencies will come to order today.
    We take the testimony of the current Administrator and 
former astronaut, the Honorable Major General Charles F. 
Bolden, Jr., to review the National Aeronautics and Space 
Administration (NASA) fiscal year 2012 budget request and to 
also talk about how this might be also in light of what we just 
have gone through.
    Administrator Bolden, we're glad to see you. We want to 
thank you for coming on a Monday at 4 o'clock. Our hearing 
normally occurs on Thursday mornings. We couldn't do this when 
we thought we could. But, Senator Kay Bailey Hutchison and I 
did not want to delay the hearing, because it would have taken 
us after the Easter/Passover recess, and we wanted to be able 
to really get cracking on our fiscal year 2012 appropriations. 
So, we thank you for doing this. And we look forward to your 
testimony.
    Well, I'm glad to see you and we're glad to be here. And 
so, both of us--all of us--were declared essential.
    I know that what we just lived through last week was a 
cliffhanger. It rattled many people. It certainly rattled us. 
We felt that it would have been a disaster, had we had a 
shutdown, to, really, the economy and the reputation of the 
United States of America. We have now been called upon to 
accept $78 billion worth of cuts from the President's 2011 
request, $39 billion below the 2010 level. That was the mark 
that was given us.
    Now, all of our staffs have worked through the night. And 
I'd like to thank Senator Hutchison's staff for really hanging 
in there and working with us.
    And I might add, Administrator Bolden, that Congressman 
Wolf and Congressman Fattah, we all worked pretty tirelessly to 
meet our obligation to be able to report out a bill--not only 
in this subcommittee--tonight at midnight. So, you'll hear 
about a lot of things. And we want to hear from you about where 
we think you are.
    We're very proud of NASA. This is the 50th anniversary of 
President Kennedy's call to send a person to the Moon and 
return them safely. From our human spaceflight and our visit to 
the Moon, our ambitions to even go further, we're so proud of 
what we've done in human spaceflight, and we look forward to 
supporting human spaceflight initiatives.
    When we look ahead, when we look at space science, the 
wonders of the Hubble Space Telescope, to others in the area of 
Earth science, planetary science, Helio science, protecting our 
power grid are all important.
    We know that what NASA does is part of really creating the 
new ideas for the innovation economy. Today, at a speech to the 
Maryland Space Roundtable, I said every time NASA lifts off, it 
takes the American economy with us, because it is about 
innovation and it is about jobs.
    Last year, the Congress gave NASA a new path forward. 
Ranking Member Hutchison and I worked with Senator Bill Nelson 
on a new authorization bill. And I'd like to compliment the 
gentlelady from Texas in what she and Chairman Nelson were able 
to achieve. We believe that is the framework that we could 
achieve. It meets the President's priorities, but understands 
the priorities of the space coalition here in the Senate for a 
very balanced space program.
    We need investments in science and aeronautics, but we also 
must remember, we want human spaceflight, we want human 
spaceflight to be sustainable, being able to go to the 
International Space Station (ISS) until 2020 and also 
broadening our human reach beyond low-Earth orbit (LEO) with 
the Orion capsule and a heavy-lift rocket. We have lots of 
ambitions, and now we're trying to see if we have the wallet to 
match it. I will work tirelessly to implement a balanced space 
program.
    Last year, we agreed to $19 billion. Well, it's not going 
to come out quite that way. And so, for this year, we're 
anticipating, in appropriations, if we stick to the President's 
request, $18.7 million. We know that the science request is at 
$5 billion. And we also need to make sure important projects 
like that don't get out from under us, like the James Webb 
Space Telescope (JWST). And I'll focus more on that in the 
questions.
    I'm also concerned about aeronautics research. I'm afraid 
we're falling away and falling behind in that area. Our 
European counterparts are making very heavy investments in 
aeronautics research, and I hope--they would like to dominate 
civilian aeronautics. Well, I just don't think it is fun to go 
to the Paris Air Show to hear about what Paris is doing. I want 
to go to the--when America goes, it's because we're really 
doing the best of the best.
    We know that the budget requests $2.8 billion for a new 
rocket in the Orion capsule for the human spaceflight program. 
And we have to take a good look at that.
    We're also very impressed at what is going on, however, in 
Commercial Orbital Transportation Services (COTS), particularly 
as it relates to cargo. We think that's going to be a very big 
success story, that we'll be able to take cargo, through 
unmanned spacecraft, to the space station while we observe, 
watch, and see where we go in human spaceflight. We will also 
maintain our accountability and our oversight.
    But, we want to get to you, rather than my opening 
statement.
    I'm going to turn to the ranking member, someone who we've 
really--we've worked on space now three terms, haven't we?
    Senator Hutchison. Yes.
    Senator Mikulski. And I am so glad that we're colleagues 
here on this matter.
    I'm going to turn to Senator Hutchison.

           OPENING STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Well, I want to thank you, Madam 
Chairman, because you have indeed been a partner in trying to 
make the very best efforts for NASA in all of its missions.
    And I particularly want to thank the chairman's staff 
director, Gabrielle Batkin, for working with my staff so 
closely to assure that NASA does have a balanced plan, going 
forward, that will achieve the results that we all want.
    I thank you for coming. And, as the chairman mentioned, we 
are at some very major anniversaries and some very major 
crossroads.
    We're about to see the end of our Nation's ability to 
launch our own astronauts into space. The space shuttles have 
served our country well for 30 years and have made it possible 
to construct an amazing science platform in space, the ISS. 
While NASA should be making plans to fully utilize the station 
using our own launch capabilities, I don't think that is 
happening. We could be working with our international partners, 
with our universities, and with companies that could capitalize 
on our unique national lab in space. In fact, it was the 
Commerce Committee, in our authorization, that created our part 
of the space station as a national lab in order to be able to 
attract private and university/academic funding for research. 
And that is just beginning to bear fruit.
    But, now I see the administration placing our investment in 
the space station and its capabilities at risk, as well as our 
future exploration capabilities. Once the shuttles are retired, 
we will be reduced to buying seats on Russian vehicles for the 
foreseeable future. The Russians have been our long-time 
partners with the space station, but we should not expect them 
to shoulder their space program and ours, when we should be 
able to do it ourselves.
    NASA has the Orion capsule, which it has invested 
significant time and resources in, to carry our astronauts. And 
yet, to this day, NASA is refusing to allow it to move forward. 
The President personally revived Orion last year, and the 
Congress followed, reinstating it as a vehicle that will take 
us to an asteroid or even back to the Moon.
    I heard from your associate administrators, last month in 
the Commerce Committee, that they understand that the 
authorization law directs the building of a capsule and a 
heavy-lift vehicle. They know that Orion fits the bill as the 
multipurpose crew vehicle (MPCV) and that it will take very 
little to modify the contracts, as allowed for in the 
authorization law. In fact, even the scope of the contract 
would need little alteration.
    Like the President, I have no problem continuing to call 
the capsule we are developing Orion, yet we see no movement 
from NASA to continue the program at all. This budget proposes 
only $1 billion for Orion in fiscal year 2012, while the 
authorized level for the same year calls for $1.4 billion; and 
the plan for ongoing work, prior to NASA's cancellation 
attempts, would have had it at $2 billion. This budget 
deliberately hamstrings the ability for Orion to reach an 
operability date in 2016.
    The fiscal year 2012 vision for human spaceflight offered 
as a variant of the authorization is the creation of new prime 
contractors and providing them with development funds. It is 
NASA's hope that providing venture capital will--that they then 
will be able to usher in a new era in space exploration. But, 
there is little proof that what is being promised can be 
reality.
    The COTS program is finally beginning to show promise, but 
it is significantly behind schedule. Last year, NASA proposed a 
60 percent increase in funds to assure that the program would 
be successful. But, because it has been slower to produce 
results, the STS-135 flight has now become critical for the 
near-term viability of the space station. The NASA 
authorization bill leaves primary crew vehicle delivery to the 
space station open to commercial entities, with Orion as a 
backup. However, given the track record so far for cargo and 
NASA's underfunded budget proposal for existing programs, the 
Nation could find itself with neither crew option available 
when our latest renegotiated contract with the Russians ends.

                           PREPARED STATEMENT

    What we have done is allowed for a mix of Government and 
commercial to cover all of our country's needs. NASA needs to 
find a proper and justified balance without placing our human 
space program at risk. While I know that commercial companies 
could eventually become successful, I do not feel that the 
information available justifies such a large investment of 
Federal dollars this year for commercial vehicles. I also 
believe that the same scrutiny that has been placed upon our 
other manned vehicle should be applied to commercial crew to 
ensure that viability and safety of our astronauts are ensured.
    So, Mr. Administrator, I will put the rest of my statement 
in the record. But, I am hoping that we can establish a 
partnership, going forward, that adheres to the authorization 
law, that is a balance, that does provide the funds for the 
commercial vehicle, but not at the expense of Orion and all of 
the capabilities to use what we've already spent billions to do 
productively, going forward.
    [The statement follows:]
           Prepared Statement of Senator Kay Bailey Hutchison
    Mr. Administrator, thank you for coming to discuss National 
Aeronautics Administration (NASA) fiscal year 2012 budget. We are 
meeting on the eve of the 50th anniversary of the first human launched 
into space and the 30th anniversary of the very first shuttle launch. 
Space faring countries have accomplished many amazing things, and I 
hope that we can work together to help accomplish many more.
    These are unusual times to be discussing the future of NASA when 
the budget for the current year is only just now being settled.
                           human space flight
    We are about to see the end of our Nation's ability to launch our 
own astronauts into space. The space shuttles have served our country 
well for the past 30 years and have made it possible to construct an 
amazing science platform in space, the international space station.
    While NASA should be making plans to be fully utilizing the station 
using our own launch capabilities, that is not happening. We could be 
working with our international partners, with our universities, and 
with companies that could capitalize on our unique national lab in 
space.
    Instead, this administration places our investment in the space 
station and its capabilities, as well as our future exploration 
capabilities at serious risk.
    Once the shuttles are retired, we will be reduced to buying seats 
on Russian vehicles for the foreseeable future. The Russians have been 
our long time partners with the space station, but we should not expect 
them to shoulder their space program and ours when we should be able to 
do it ourselves.
    NASA has the Orion capsule, in which it has invested significant 
time and resources to carry our astronauts, yet to this day, NASA 
refuses to allow it to move forward. The President personally revived 
Orion last year, and the Congress followed, reinstating it as the 
vehicle that will take us to an asteroid, or even back to the Moon.
    I heard from your associate administrators last month that they 
understand the authorization law directs the building of a capsule and 
a heavy lift vehicle. They know that Orion fits the bill as the MPCV, 
and that it will take very little to modify the contracts, as allowed 
for in the authorization law. In fact, even the scope of the contract 
would need little alteration. Like the President, I have no problem 
continuing to call the capsule we are developing Orion, yet we see no 
movement from NASA to continue this program at all.
    This budget proposes only $1 billion for Orion in fiscal year 2012, 
while the authorized level for the same year calls for $1.4 billion and 
the plan for ongoing work prior to NASA's misguided cancellation 
attempt, would have had it at $2 billion. This budget deliberately 
hamstrings the ability for Orion to reach an operability date in 2016.
                               commercial
    The fiscal year 2012 vision for human space flight, offered as a 
variant of the authorization, is the creation of new prime contractors 
and providing them with development funds. It is NASA's hope that by 
providing venture capital, they will usher in a new era in space 
exploration with little proof that what is being promised can be 
reality.
    The Commercial Orbital Transportation Services program is finally 
beginning to show promise, but it is significantly behind schedule. 
Last year NASA proposed a 60 percent increase in funds to assure that 
the program would be successful. Because this program has been slower 
to produce results than expected, the STS-135 flight has now become 
absolutely critical for the near-term viability of the space station.
    The NASA authorization leaves primary crew delivery to the space 
station open to commercial entities with Orion as a backup. However, 
given the track record so far for cargo and NASA's underfunded budget 
proposal existing programs, the Nation could find itself with neither 
crewed option available when our latest renegotiated contract with the 
Russians ends.
    What we have done is allowed for a mix of government and commercial 
to cover all of our county's needs. NASA needs to find a proper, and 
justified, balance without placing our human space program at risk.
    While I know the commercial companies could eventually become 
successful, I do not feel that the information available justifies such 
a large investment of Federal dollars this year for commercial crew 
vehicles. I also believe that the same scrutiny that has been placed 
upon our other manned vehicles should be applied to commercial crew to 
ensure that viability and safety of our astronauts are ensured.
                                 close
    Instead of embracing the hard fought compromises that would lead to 
a robust and balanced space agency, we see a reliance on a new and 
novel way of doing space flight, and hoping it may work out in the end.
    That is not responsible, nor is there any proof that it will 
ultimately be successful without substantial funding for development 
and guaranteed business from NASA.
    We have just come from a year where battle lines were drawn because 
of a flawed budget proposal. I do not want to return to the issues of 
the past, but the proposal before us today continues to perpetuate a 
false hope. This hope places our entire human space flight program at 
risk while a talented workforce is being let go as NASA further delays 
what it can, and should be doing.
    Mr. Administrator, you have a voice in shaping NASA, and it will 
set the tone for shaping the future for generations. I can only hope 
that you will use that voice to rise to the occasion.
    You have great supporters of NASA on this subcommittee. Do not 
allow agendas that are counter to what is the law squander your 
opportunity to keep NASA at the forefront of exploration.
    You have been given the tools to move forward expeditiously. All 
that needs to be done now is to move forward.
    Thank you.

    Senator Hutchison. Thank you, Madam Chairman. And I yield 
back to you.
    Senator Mikulski. Yes.
    I'd like to acknowledge the presence of Senator Sherrod 
Brown, from Ohio, a new but very active member of the 
subcommittee.
    Senator, do you want to say something, or you want to wait 
for your----
    Senator Brown. I'll say only 30 seconds' worth.

                   STATEMENT OF SENATOR SHERROD BROWN

    First of all, thank you for welcoming me to this 
subcommittee on--in all of the jurisdictions, including the 
NASA jurisdiction that's particularly important to me.
    I appreciate General Bolden's coming to Cleveland, to Glenn 
Space Center a number of times, and speaking at the City Club 
and laying out a NASA vision.
    I also am concerned, as I know we all are, at what the NASA 
budget may look like in the months ahead with H.R. 1, with the 
new Orion budget, introduced in the House last week, and with 
the tax-cut fervor that seems to be sweeping some parts of the 
House and Senate--what that's going to mean on funding one of 
the most important parts of the Federal Government; that is, 
the innovation, the research, the missions, the advantage in 
aeronautics that we have had as a country for decades in making 
sure that we can continue to be the leading edge there. But, if 
we're going to cut taxes and continue to cut taxes on the 
wealthiest people in this country, and continue to underfund 
the important parts of Government, we're going to lose that 
scientific edge. And I know General Bolden is helping to lead 
the charge on making sure that we don't lose it. And I 
appreciate his work on that.
    Thank you, Madam Chair.
    Senator Mikulski. Administrator Bolden.

              SUMMARY STATEMENT OF CHARLES F. BOLDEN, JR.

    General Bolden. Chairman Mikulski and Ranking Member 
Hutchison, good afternoon and thank you for the opportunity to 
discuss with you NASA's fiscal year 2012 budget request. I 
thank you very much for being here, Senator Brown, always good 
to see you.
    Senator Brown. You, too.
    General Bolden. Senator Mikulski, as chair of this 
subcommittee, you've continued to provide critical leadership 
and oversight of our Nation's space program. And I would like 
to recognize Senator Hutchison, a longtime member of the 
subcommittee, in her new leadership role as ranking member of 
this subcommittee. I want to thank both of you and the members 
of this subcommittee for the long-standing support that you 
have given to NASA. We have a common passion for science, 
aeronautics, and space exploration and the benefits they bring 
our Nation. I look forward to our continuing to work together 
in the same collegial fashion as we have in the past.
    It's my privilege today to discuss the President's fiscal 
year 2012 budget request of $18.7 billion for NASA. Recognizing 
the President's commitment to fiscal restraint, I am pleased 
that we are proposing to hold funding at the level appropriated 
for fiscal year 2010.
    This fiscal year 2012 budget request continues the agency's 
focus on a reinvigorated path of innovation and technological 
discovery leading to an array of challenging destinations and 
missions that engage the public.
    Madam Chair, you and each member of the subcommittee should 
have two charts before you, to which I call your attention.
    Chart 1, the pie chart, shows at very high level the scope 
of NASA's proposed fiscal year 2012 budget, which represents a 
balanced and integrated program. The NASA Authorization Act of 
2010 has given the agency a clear direction. NASA is moving 
forward to implement the details of that act with this fiscal 
year 2012 budget.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As you can see in chart 2, the President's fiscal year 2012 
budget request for NASA funds all major elements of the NASA 
Authorization Act while supporting a diverse portfolio of key 
programs.
    [The information follows:]

                                        NATIONAL AERONAUTICS AND SPACE ADMINISTRATION--PRESIDENT'S FISCAL YEAR 2012 BUDGET REQUEST DETAIL--FULL COST VIEW
                                                                            [Budget authority, in million of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                    Continuing
                                                                   Actual fiscal    resolution     Authorization    Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year
                                                                     year 2010      fiscal year     act fiscal         2012            2013            2014            2015            2016
                                                                                       2011          year 2011
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Science:
    Earth Science...............................................         1,439.3  ..............         1,801.8         1,797.4         1,821.7         1,818.5         1,858.2         1,915.4
    Planetary Science...........................................         1,364.4  ..............         1,485.7         1,540.7         1,429.3         1,394.7         1,344.2         1,256.8
    Astrophysics................................................           647.3  ..............         1,076.3           682.7           758.1           775.5           779.8           810.9
    James Webb Space Telescope..................................           438.7  ..............  ..............           373.7           375.0           375.0           375.0           375.0
    Heliophysics................................................           608.0  ..............           641.9           622.3           632.7           653.0           659.7           658.7
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total, Science............................................         4,497.6         4,469.0         5,005.6         5,016.8         5,016.8         5,016.8         5,016.8         5,016.8
                                                                 ===============================================================================================================================
Aeronautics.....................................................           497.0           501.0           579.6           569.4           569.4           569.4           569.4           569.4
Space technology................................................           275.2           327.2           512.0         1,024.2         1,024.2         1,024.2         1,024.2         1,024.2

Exploration:
    Human Exploration Capabilities..............................         3,287.5  ..............         2,751.0         2,810.2         2,810.2         2,810.2         2,810.2         2,810.2
    Commercial Spaceflight......................................            39.1  ..............           612.0           850.0           850.0           850.0           850.0           850.0
    Exploration Research and Development........................           299.2  ..............           343.0           288.5           288.5           288.5           288.5           288.5
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total, Exploration........................................         3,625.8         3,594.3         3,706.0         3,948.7         3,948.7         3,948.7         3,948.7         3,948.7
                                                                 ===============================================================================================================================
Space Operations:
    Space Shuttle...............................................         3,101.4  ..............         1,609.7           664.9            79.7             0.8             0.8             0.9
    International Space Station.................................         2,312.7  ..............         2,779.8         2,841.5         2,960.4         3,005.4         3,098.0         3,174.8
    Space and Flight Support....................................           727.7  ..............         1,119.0           840.6         1,306.8         1,340.7         1,248.1         1,171.2
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total, Space Operations...................................         6,141.8         6,146.8         5,508.5         4,346.9         4,346.9         4,346.9         4,346.9         4,346.9
                                                                 ===============================================================================================================================
Education.......................................................           180.1           182.5           145.8           138.4           138.4           138.4           138.4           138.4

Cross-Agency Support:
    Center Management and Operations............................         2,161.2  ..............  ..............         2,402.9         2,402.9         2,402.9         2,402.9         2,402.9
    Agency Management and Operations............................           766.2  ..............  ..............           789.1           789.1           789.1           789.1           789.1
    Institutional Investments...................................            27.2  ..............  ..............  ..............  ..............  ..............  ..............  ..............
    Congressionally Directed Items..............................            63.0  ..............  ..............  ..............  ..............  ..............  ..............  ..............
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total, Cross-Agency Support...............................         3,017.6         3,018.8         3,111.4         3,192.0         3,192.0         3,192.0         3,192.0         3,192.0
                                                                 ===============================================================================================================================
Construction and Environmental Compliance and Restoration:
    Construction of Facilities..................................           389.4  ..............  ..............           397.9           384.0           359.5           362.9           360.0
    Environmental Compliance and Restoration....................            63.4  ..............  ..............            52.5            66.4            90.9            87.5            90.4
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Total, Construction and Environmental Compliance and                 452.8           448.3           394.3           450.4           450.4           450.4           450.4           450.4
       Restoration..............................................
                                                                 ===============================================================================================================================
Inspector General...............................................            36.4            36.4            37.0            37.5            37.5            37.5            37.5            37.5
                                                                 ===============================================================================================================================
      Total, NASA fiscal year 2011..............................        18,724.3        18,724.3        19,000.0        18,724.3        18,724.3        18,724.3        18,724.3        18,724.3
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    General Bolden. Because these are tough fiscal times, we 
have had to make some tough and some difficult choices. 
Reductions have been necessary in some areas so that we can 
invest in the future while living within our means. This budget 
request maintains a strong commitment to human spaceflight, 
science, aeronautics, and the development of new technologies, 
and education programs that will help us win the future. It 
carries out programs of innovation to support long-term job 
growth in a dynamic economy that will help us out-innovate, 
out-educate, and out-build all others in the world.
    Along with our fiscal year 2012 budget request, we 
published our 2011 Strategic Plan. If you don't have it or the 
staffs don't have it, if you'll let us know, we'll make certain 
that we get a copy to everybody.
    NASA's core mission remains fundamentally the same as it 
has been since our inception in 1958. It supports our vision, 
as shown in the strategic plan, ``To reach new heights and 
reveal the unknown, so that what we do and learn will benefit 
all humankind.''
    On March 9, we completed the STS-133 mission, one of the 
final three shuttle flights to the ISS. Discovery delivered a 
robotic crewmember, Robonaut 2, or R2 as we like to call him--
it--and supplies that will support the station's scientific 
research and technology demonstrations. That was a joke, by the 
way. I didn't--okay.
    We are currently preparing the Space Shuttle Endeavor for 
the STS-134 mission, to be launched on April 29, which will 
deliver the alphamagnetic spectrometer, or AMS. The AMS 
experiment will use the unique environment of space to advance 
knowledge of the universe and lead to the understanding of the 
universe's origin. This will be the 36th shuttle mission to the 
station, and the final flight for Endeavor.
    With the impending completion of the shuttle manifest with 
STS-135, it's my plan to announce my decisions regarding the 
recipients of shuttle orbiters tomorrow, April 12, 2011, the 
30th anniversary of the first space shuttle flight.
    Our space program continues to venture in ways that will 
have long-term benefits. There are many more milestones in the 
near term. Our priorities in human spaceflight in the fiscal 
year 2012 budget request are to maintain safe access for 
American astronauts to LEO as we fully utilize the ISS; to 
facilitate safe, reliable, and cost-effective U.S.-provided 
commercial access to LEO for American astronauts and their 
supplies as soon as possible; to begin to lay the groundwork 
for expanding human presence into deep space, the Moon, 
asteroids, and eventually Mars, through development of a 
powerful, evolvable heavy lift rocket and MPCV; and to pursue 
technology development to carry humans farther into the solar 
system.
    These initiatives will enable America to retain its 
position as a leader in space exploration for generations to 
come. At the same time, in our other endeavors, our priorities 
are to extend our reach with scientific observatories, to learn 
more about our home planet and the solar system, and peer 
beyond it to the origins of the universe.
    This budget request funds 56 NASA science missions 
currently in operation, and 28 more in various stages of 
development. Just as one example, on March 17 of this year, 
after traveling more than 6 years and 4.9 billion miles, NASA's 
MESSENGER (MEcury Surface, Space, ENvironment, GEochemistry and 
Ranging) spacecraft successfully entered orbit around Mercury. 
The MESSENGER spacecraft will give us our first look at the 
planet from orbit, help us understand the forces that shaped 
it, and provide a fundamental understanding of the terrestrial 
planets and their evolution. In addition, we will pursue 
groundbreaking research into the next generation of aviation 
technologies and carry out dynamic education programs that help 
develop the next generation of science, technology, 
engineering, and mathematics professionals.
    That's a lot, but NASA thrives on doing big things. We have 
vastly increased human knowledge, and our discoveries and 
technologies have improved life here on Earth. In spite of the 
difficulties that we've encountered with the very critical 
JWST, we've made changes in our management, increased our 
oversight from my office, and continued to work with the 
program to develop a revised baseline by the end of April that 
will include options addressing light funding scenarios. The 
official plan will be submitted as part of our fiscal year 2013 
budget.
    I want to commend the NASA workforce, both civil service 
and contractors across the Nation, for their dedication to our 
missions during this time of transition and change. These 
workers are our greatest asset and they make us all proud. They 
fully understand the risk of our exploration and welcome the 
challenge. They will be the ones making tomorrow happen.
    These are exciting and dynamic times for us at NASA. The 
challenges ahead are significant, but so are the opportunities. 
We have to achieve big things that will create a measurable 
impact on our economy, our world, and our way of life.

                           PREPARED STATEMENT

    I thank you again for the opportunity to appear before this 
subcommittee, and I look forward to taking your questions.
    Senator Mikulski. Thank you, Administrator Bolden. And I 
know you have given us a far more ample and detailed statement.
    General Bolden. Yes, ma'am.
    Senator Mikulski. I'm going to ask unanimous consent that, 
along with your oral testimony, that this detailed statement be 
included in the record.
    [The statement follows:]
              Prepared Statement of Charles F. Bolden, Jr.
    Madam Chair and members of the subcommittee, today it is my 
privilege to discuss the President's fiscal year 2012 budget request of 
$18.7 billion for the National Aeronautics and Space Administration 
(NASA). This request continues NASA's focus on a reinvigorated path of 
innovation and technological discovery leading to an array of 
challenging destinations and missions that increases our knowledge, 
develops technologies to improve life and expand our presence in space 
for knowledge and commerce, and engages the public. With the 
President's signing of the NASA Authorization Act of 2010 (Public Law 
111-267) on October 11, 2010, NASA has a clear direction and is moving 
forward. NASA appreciates the significant efforts that advanced this 
important bipartisan legislation, particularly efforts by the 
leadership and members of this subcommittee. This is a time of 
opportunity for NASA to shape a promising future for the Nation's space 
program.
    Because these are tough fiscal times, tough choices had to be made. 
But the proposed fiscal year 2012 budget funds all major elements of 
the authorization act, supporting a diverse portfolio of programs, 
while making difficult choices to fund key priorities and reduce other 
areas in order to invest in the future. A chart summarizing the 
President's fiscal year 2012 budget request for NASA is enclosed as 
Enclosure 1.
    We have an incredible portfolio of human space flight, science, 
aeronautics, and technology development. Within the human space flight 
arena, our foremost priority is our current human spaceflight 
endeavor--the International Space Station (ISS)--and the safety and 
viability of the astronauts aboard it. The request also maintains a 
strong commitment to human spaceflight beyond low-Earth orbit (LEO). It 
establishes critical priorities and invests in the technologies and 
excellent science, aeronautics research, and education programs that 
will help us win the future. The request supports an aggressive launch 
rate over the next 2 years with about 40 U.S. and international 
missions to the ISS, for science, and to support other agencies.
    At its core, NASA's mission remains fundamentally the same as it 
always has been and supports our new vision: ``To reach for new heights 
and reveal the unknown so that what we do and learn will benefit all 
humankind.'' This statement is from the new multi-year 2011 NASA 
Strategic Plan accompanying the fiscal year 2012 budget request, which 
all of NASA's Mission Directorates, Mission Support Offices and Centers 
helped to develop, and encapsulates in broad terms the very reason for 
NASA's existence and everything that the American public expects from 
its space program.
    On March 1, we outlined for the subcommittee our plan to establish 
new Exploration program offices to carry out our future work on the 
Multi-Purpose Crew Vehicle, Space Launch System, and Commercial Crew.
    On March 9, we completed the Space Shuttle Discovery's STS-133 
mission, 1 of the final 3 shuttle flights to the ISS. Discovery 
delivered a robotic crewmember, Robonaut-2 (R2), and supplies that will 
support the station's scientific research and technology 
demonstrations. And we are currently preparing the Space Shuttle 
Endeavour for the STS-134 mission to be launched on April 29, which 
will deliver the Alpha Magnetic Spectrometer, or AMS, and space parts 
including two S-band communications antennas, a high-pressure gas tank, 
additional spare parts for Dextre, and micrometeroid debris shield to 
the station.
    Our human spaceflight priorities in the fiscal year 2012 budget 
request are to:
  --Safely fly the last space shuttle flights this year and maintain 
        safe access for humans to LEO orbit as we fully utilize the 
        ISS;
  --Facilitate safe, reliable, and cost-effective U.S.-provided 
        commercial access to LEO first for cargo and then for crew as 
        quickly as possible;
  --Begin to lay the groundwork for expanding human presence into deep 
        space--the Moon, asteroids, eventually Mars--through 
        development of a powerful heavy-lift rocket and multipurpose 
        crew capsule; and
  --Pursue technology development that is needed to carry humans 
        farther into the solar system. Taken together, these human 
        spaceflight initiatives will enable America to retain its 
        position as a leader in space exploration for generations to 
        come.
    At the same time, we will extend our reach with robotic spacecraft 
and scientific observatories to expand our knowledge of the universe 
beyond our own planet. We will continue the vital work to expand our 
abilities to observe our planet Earth and make that data available for 
decisionmakers. We will also continue our groundbreaking research into 
the next generation of aviation technologies. Finally, we will make the 
most of all of NASA's technological breakthroughs to improve life here 
at home.
    With the fiscal year 2012 budget, NASA will carry out research, 
technology, and innovation programs that support long-term job growth 
and economic competitiveness and build upon our Nation's position as a 
technology leader. We will educate the next generation of technology 
leaders through vital programs in science, technology, engineering, and 
mathematics education. And we will build the future through investments 
in American industry, creating high-tech jobs across the country and an 
innovation engine for the U.S. economy.
    This year we honor the legacy of President John F. Kennedy, who, 50 
years ago, set the United States on a path that resulted in a national 
effort to produce an unprecedented achievement. Now, we step forward 
along a similar path, engaged in a wide range of activities in human 
spaceflight, science, and aeronautics--a path characterized by 
engagement of an expanded commercial space sector and technology 
development to mature the capabilities required by increasingly 
challenging missions designed to make discoveries and reach new 
destinations.
    NASA's Science Mission Directorate (SMD) continues to rewrite 
textbooks and make headlines around the world. Across disciplines and 
geographic regions worldwide, NASA aims to achieve a deep scientific 
understanding of Earth, other planets and solar system bodies, our star 
system in its entirety, and the universe beyond. The agency is laying 
the foundation for the robotic and human expeditions of the future 
while meeting today's needs for scientific information to address 
national concerns about global change, space weather, and education.
  --The Mars Science Laboratory will launch later this year and arrive 
        at Mars in August 2012. It will be the largest rover ever to 
        reach the Red Planet and will search for evidence of both past 
        and present life.
  --The Nuclear Spectroscopic Telescope Array (NuSTAR) mission will 
        launch in early 2012 and become the first focusing hard xray 
        telescope to orbit Earth.
  --Research and analysis programs will use data from an array of 
        sources, including spacecraft, sounding rockets, balloons, and 
        payloads on the ISS. We will continue to evaluate the vast 
        amounts of data we receive from dozens of ongoing missions 
        supported by this budget.
  --A continued focus on Earth science sees us continuing development 
        of the Orbiting Carbon Observatory-2 (OCO-2) for launch in 2013 
        and other initiatives to collect data and conduct research on a 
        broad spectrum of changes in the Earth system including 
        climate, weather, and natural hazards.
  --The budget reflects the scientific priorities for astrophysics as 
        expressed in the recent Decadal Survey of the National Academy 
        of Sciences. The budget supports small-, medium-, and large-
        scale activities recommended by the Decadal Survey.
  --The Radiation Belt Storm Probe mission will launch next year, and 
        development of other smaller missions and instruments to study 
        the Sun will get underway here on the ground.
    With the appointment of a new Chief Scientist, NASA will pursue an 
integrated, strategic approach to its scientific work across Mission 
Directorates and programs.
    As we continue our work to consolidate the Exploration Systems 
Mission Directorates (ESMD) and Space Operations Mission Directorates, 
both groups will support our current human spaceflight programs and 
continue work on technologies to expand our future capabilities.
  --We will fly out the space shuttle in 2011, including STS-135 if 
        funds are available, and then proceed with the disposition of 
        most space shuttle assets after the retirement of the fleet. 
        The shuttle program accomplished many outstanding things for 
        this Nation, and in 2012 we look forward to moving our retired 
        Orbiters to new homes across the country to inspire the next 
        generation of explorers.
  --Completing assembly of the U.S. segment of the ISS will be the 
        crowning achievement of the space shuttle's nearly 30-year 
        history. The ISS will serve as a fully functional and 
        permanently crewed research laboratory and technology testbed, 
        providing a critical stepping stone for exploration and future 
        international cooperation, as well as an invaluable National 
        Laboratory for non-NASA and nongovernmental users. During 
        fiscal year 2011, NASA will award a cooperative agreement to an 
        independent nonprofit organization (NPO) with responsibility to 
        further develop this effort. The NPO will oversee all ISS 
        research involving organizations other than NASA, and transfer 
        current NASA biological and physical research to the NPO in 
        future years.
  --In 2012, we will make progress in developing a new Space Launch 
        System (SLS), a heavy-lift rocket that will be the first step 
        on our eventual journeys to destinations beyond LEO.
  --We will continue work on a MPCV that will build on the human safety 
        features, designs, and systems of the Orion Crew Exploration 
        Vehicle. As with the SLS, acquisition strategy decisions will 
        be finalized by this summer.
  --NASA will continue to expand commercial access to space and work 
        with our partners to achieve milestones in the Commercial 
        Orbital Transportation Services (COTS) program, the Commercial 
        Resupply Services (CRS) effort, and an expanded Commercial Crew 
        Development (CCDev) program. As we direct resources toward 
        developing these capabilities, we not only create multiple 
        means for accessing LEO, but we also facilitate commercial uses 
        of space, help lower costs, and spark an engine for long-term 
        job growth. While the request is above the authorized level for 
        2012, NASA believes the amount is critical, combined with 
        significant corporate investments, to ensure that we will have 
        one or more companies that can transport American astronauts to 
        the ISS. With retirement of the space shuttle in 2011, this is 
        a top agency priority.
  --Most importantly, NASA recognizes that these programmatic changes 
        will continue to personally affect thousands of NASA civil 
        servants and contractors who have worked countless hours, often 
        under difficult circumstances, to make our human spaceflight, 
        science, and aeronautics programs and projects successful. I 
        commend the investment that these dedicated Americans have made 
        and will continue to make in our Nation's space and aeronautics 
        programs. These are tremendously exciting and dynamic times for 
        the U.S. space program. NASA will strive to utilize our 
        workforce in a manner that will ensure that the Nation 
        maintains NASA's greatest asset--the skilled civil servants and 
        contractors--while working to increase the efficiency and cost-
        effectiveness in all of its operations.
  --The 21st Century Space Launch Complex program will focus on 
        upgrades to the Florida launch range, expanding capabilities to 
        support SLS, MPCV, commercial cargo/launch services providers, 
        and transforming KSC into a modern facility that benefits all 
        range users. The program will replan its activities based on 
        available fiscal year 2011 funding to align with 2010 NASA 
        Authorization's focus areas, including cross organizational 
        coordination between 21st CSLC, Launch Services, and Commercial 
        Crew activities.
    NASA's Aeronautics Research Mission Directorate (ARMD) continues to 
improve the safety, efficiency, and environmental friendliness of air 
travel.
  --Our work continues to address the challenge of meeting the growing 
        technology and capacity needs of the Next Generation air travel 
        system, or ``NextGen'', in coordination with the FAA and other 
        stakeholders in airspace efficiency.
  --NASA's work on green aviation technologies that improve fuel 
        efficiency and reduce noise continues apace.
  --We also continue to work with industry to develop the concepts and 
        technologies for the aircraft of tomorrow. The agency's 
        fundamental and integrated systems research and testing will 
        continue to generate improvements and economic impacts felt by 
        the general flying public as well as the aeronautics community.
    The establishment last year of the Office of the Chief Technologist 
(OCT) enabled NASA to begin moving toward the technological 
breakthroughs needed to meet our Nation's space exploration goals, 
while building our Nation's global economic competitiveness through the 
creation of new products and services, new business and industries, and 
high-quality, sustainable jobs. By investing in high-payoff, 
transformative technology that industry cannot tackle today, NASA 
matures the technology required for our future missions in science and 
exploration while improving the capabilities and lowering the cost of 
other Government agencies and commercial activities.
  --NASA recently developed draft space technology roadmaps, which 
        define pathways to advance the Nation's capabilities in space 
        and establish a foundation for the agency's future investments 
        in technology and innovation. NASA is working collaboratively 
        with the National Research Council (NRC) to refine these 
        roadmaps. The final product, expected in the first quarter of 
        fiscal year 2012, will establish a mechanism for prioritizing 
        NASA's technology investments, and will support the initial 
        Space Technology Policy Congress requested in the NASA 
        Authorization Act of 2010.
  --Through the Space Technology program, OCT will sponsor a portfolio 
        of both competitive and strategically guided technology 
        investments, bringing the agency a wide range of mission-
        focused and transformative technologies that will enable 
        revolutionary approaches to achieving NASA's current and future 
        missions.
  --In fiscal year 2012, a significant portion of the Exploration 
        Technology Development Program is moved from ESMD to space 
        technology. These efforts focus on developing the long-range, 
        exploration-specific technologies to enable NASA's deep space 
        human exploration future. The integration of exploration 
        technology activities with space technology eliminates the 
        potential for overlap had NASA's space technology investments 
        been split among two accounts. ESMD will continue to set the 
        prioritized requirements for all exploration technology 
        development efforts and will serve as the primary customer of 
        these mission-specific technology development activities.
  --OCT continues to manage SBIR and STTR, and integrates technology 
        transfer efforts to ensure that NASA technologies are infused 
        into commercial applications, develops technology partnerships, 
        and facilitates emerging commercial space activities
    Recognizing that our work must continuously inspire not only the 
public at large but also students at all levels, NASA's Education 
programs this year focus on widening the pipeline of students pursuing 
coursework in STEM. As President Obama has said, ``Our future depends 
on reaffirming America's role as the world's engine of scientific 
discovery and technological innovation. And that leadership tomorrow 
depends on how we educate our students today, especially in math, 
science, technology, and engineering.''
  --The fiscal year 2012 request for NASA's Office of Education 
        capitalizes on the excitement of NASA's mission through 
        innovative approaches that inspire educator and student 
        interest and proficiency in STEM disciplines. NASA's education 
        program in fiscal year 2012 and beyond will focus and 
        strengthen the agency's tradition of investing in the Nation's 
        education programs and supporting the country's educators who 
        play a key role in inspiring, encouraging, and nurturing the 
        young minds of today, who will manage and lead the Nation's 
        laboratories and research centers of tomorrow.
  --Among NASA's Education activities will be a continued Summer of 
        Innovation, building on the successful model piloted with four 
        States this past year.
    All of these activities place NASA in the forefront of a bright 
future for America, where we challenge ourselves and create a global 
space enterprise with positive ramifications across the world. The 
fiscal year 2012 budget request provides the resources for NASA to 
innovate and make discoveries on many fronts, and we look forward to 
implementing it. See Enclosure 2 for a more detail summary of each 
activity.
                               conclusion
    As we enter the second half-century of human spaceflight, the 
Nation can look back upon NASA's accomplishments with pride, but we can 
also look forward with anticipation to many more achievements to come. 
The NASA Authorization Act of 2010 (Public Law 111-267) has provided us 
with clear direction that enables the agency to conduct important 
research on the ISS, develop new launch vehicles and crew 
transportation capabilities to go beyond the bounds of LEO, utilize a 
dazzling array of spacecraft to study the depths of the cosmos while 
taking the measure of our home planet, improve aviation systems and 
safety, develop new technologies that will have applications to both 
space exploration and life on Earth, and inspire the teachers and 
students of our country. In developing and executing the challenging 
missions that only NASA can do, we contribute new knowledge and 
technologies that enhance the Nation's ability to compete on the global 
stage and help to secure a more prosperous future.
    These are tough fiscal times, calling for tough choices. The 
President's fiscal year 2012 budget request makes those choices and 
helps advance all of these bold aims, and we look forward to working 
with the subcommittee on its implementation.
    Madam Chair, thank you for your support and that of this 
subcommittee. I would be pleased to respond to any questions you or the 
other members of the subcommittee may have.
           Fiscal Year 2012 Budget Request--Detailed Summary
                                science
    The President's fiscal year 2012 request for NASA includes $5,016.8 
million for Science. NASA continues to expand humanity's understanding 
of our Earth, our Sun, the solar system, and the universe with 56 
science missions in operation and 28 more in various stages of 
development. The Science budget funds these missions as well as the 
research of more than 3,000 scientists, engineers, technologists, and 
their students across the Nation. NASA is guided in setting its 
priorities for strategic science missions by the recommendations of the 
NRC decadal surveys. The agency selects competed missions and research 
proposals based on open competition and peer review. NASA's science 
efforts continue to advance a robust and scientifically productive 
program while making difficult choices commensurate with the 
Government-wide priority to constrain the Federal budget.
    The fiscal year 2012 budget request includes $1,797.4 million for 
Earth science. NASA's constellation of Earth-observing satellites 
provides much of the global environmental observations used for climate 
research in the United States and abroad.
    In early fiscal year 2012, NASA plans to launch the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) 
Preparatory Project (NPP), continuing selected climate data records and 
becoming an integral part of the Nation's operational meteorological 
satellite system for weather prediction. We also plan to select new 
Venture Class science instruments and small missions in fiscal year 
2012. The Glory mission to be launched later this week will release its 
first global set of calibrated and validated aerosol measurements in 
fiscal year 2012. In addition, we will produce the first fusion data 
products integrating Glory data with measurements from the rest of the 
A-Train (a formation of Earth-monitoring satellites that employ 
multiple scientific instruments to observe the same path of Earth's 
atmosphere and surface at a broad swath of wavelengths).
    The Aquarius instrument on the Argentine Satelite de Aplicaciones 
Cientificas (SAC)-D mission (launching later this year) will deliver 
the first global ocean salinity measurements to the science community 
in fiscal year 2012. OCO-2, Landsat Data Continuity Mission, and the 
Global Precipitation Measurement missions will be in integration and 
testing in fiscal year 2012. The first two NRC Decadal Survey missions, 
Soil Moisture Active/Passive and the Ice, Cloud, and land Elevation 
Satellite-2 (ICESat-2), will both enter into development during fiscal 
year 2012. This budget request also funds robust Research and Analysis, 
Applied Science, and Technology programs. In this climate of fiscal 
austerity there are some important capabilities that will not be 
developed in order to keep others on track in more constrained future 
years. Development of the second two Tier 1 Decadal Survey missions, 
the Deformation, Ecosystem Structure, and Dynamics of Ice (DESDynI), 
and the Climate Absolute Radiance and Refractivity Observatory 
(CLARREO), has been deferred resulting in launch dates no earlier than 
2020. NASA will continue pre-formulation work on the DESDynI and review 
international partner options. However, the fiscal year 2012 request 
enables the Gravity Recovery and Climate Experiment Follow-on (GRACE-
FO), the Pre-Aerosols-Clouds-Ecosystems (PACE), and the Tier 2 missions 
Surface Water and Ocean Topography (SWOT), and Active Sensing of 
CO<INF>2</INF> Emissions Over Nights, Days, and Seasons (ASCENDS) to go 
forward as planned.
    The Science budget request includes $1,540.7 million for planetary 
science in fiscal year 2012. NASA and its partners consider the period 
from October 2010 to August 2012 (the length of a Martian year) to be 
the ``Year of the Solar System.''
    The Juno mission will launch in August 2011 and arrive at Jupiter 
in 2016. The Gravity Recovery and Interior Laboratory (GRAIL) mission, 
following launch in September 2011, will enter lunar orbit and help 
determine the structure of the lunar interior from crust to core; the 
mission will advance our understanding of the thermal evolution of the 
Moon by the end of its prime mission in fiscal year 2012. A newly 
installed Web cam is giving the public an opportunity to watch 
technicians assemble and test NASA's MSL ``Curiosity,'' one of the most 
technologically advanced interplanetary missions ever designed. More 
than 1 million people have watched assembly and testing of Curiosity 
via a live Web cam since it went online in October. Curiosity will 
launch in early fiscal year 2012 and arrive at Mars in August 2012; it 
will be two times as large and three times as heavy as the Spirit and 
Opportunity rovers, and will focus on investigating whether conditions 
on Mars have been favorable for microbial life and for preserving clues 
in the rocks about possible past life. The MErcury Surface, Space 
ENvironment, GEochemistry and Ranging (MESSENGER) spacecraft will 
arrive at Mercury later this month and will complete its first year in 
Mercury orbit in March 2012. MESSENGER's instruments will map nearly 
the entire planet in color, image the surface in high resolution and 
measure the composition of the surface, atmosphere and nature of the 
magnetic field and magnetosphere. During its nearly decade-long 
mission, the Dawn mission will study the asteroid Vesta and dwarf 
planet Ceres--celestial bodies believed to have accreted early in the 
history of the solar system. Dawn will enter into orbit around Vesta 
this summer and will depart in 2012 for its encounter with Ceres in 
2015. NASA and the European Space Agency (ESA) have selected the five 
science instruments for the 2016 ExoMars Trace Gas Orbiter mission. The 
budget also supports robust Research and Analysis and Technology 
programs. NASA is expecting the results from the next National Academy 
of Sciences Decadal Survey for Planetary Science later this month. NASA 
will use this survey to prioritize ongoing programs and future mission 
opportunities.
    The fiscal year 2012 budget request includes $682.7 million for 
Astrophysics (not including an additional $375 million for the James 
Webb Space Telescope (JWST) which is detailed below). This is a golden 
age of space-based Astrophysics, with 14 observatories in operation. 
Astrophysics research, technology investments, and missions aim to 
understand how the universe works, how galaxies, stars and planets 
originated and developed over cosmic time, and whether Earth-like 
planets and life exist elsewhere in the cosmos.
    The fiscal year 2012 budget request reflects the scientific 
priorities of the new National Academy of Science Decadal Survey 
entitled, ``New Worlds, New Horizons in Astronomy and Astrophysics''. 
The budget includes additional funding for the Explorer mission 
selection planned for 2012, sustains a vigorous flight rate of future 
astrophysics Explorer missions and missions of opportunity, and 
increases investments in recommended research and technology 
initiatives. Funding is also provided for pre-formulation investments 
in recommended large missions beyond JWST, while work on the Space 
Interferometry Mission (SIM) and Joint Dark Energy Mission (JDEM) has 
been brought to a close, consistent with the recommended Decadal Survey 
program. SOFIA will complete its open-door flight testing and conduct 
the first competed science observations in fiscal year 2012. The NuSTAR 
mission will launch in early 2012. The NASA Astrophysics budget also 
supports continuing operations of Hubble, Chandra, and several other 
astrophysics observatories in space. The budget increases funding for 
the core Astrophysics research program, including sounding rocket and 
balloon suborbital payloads, theory, and laboratory astrophysics.
    The fiscal year 2012 budget request includes $375 million for the 
JWST. JWST is now budgeted as a separate theme, reflecting changes 
implemented in fiscal year 2011 to improve management oversight and 
control over this critical project, as recommended by the Independent 
Comprehensive Review Panel's (ICRP) report in November 2010. The 
project, previously managed within the Astrophysics Division, is now 
managed by a separate program office at NASA headquarters. Management 
of this JWST organization at headquarters now reports directly to the 
NASA Associate Administrator and the Associate Administrator for 
Science. The Goddard Space Flight Center has implemented analogous 
changes, with JWST project management now reporting directly to the 
Center Director. JWST was the top-priority large mission recommended in 
the previous NRC Decadal Survey and is considered a foundational 
element of the science strategy in the new Decadal Survey for Astronomy 
and Astrophysics. During 2010, JWST completed its most significant 
mission milestone to date, the Mission Critical Design Review. Cost 
growth and schedule issues identified following this milestone led to 
the formation of the ICRP. The ICRP report concluded that the problems 
causing cost growth and schedule delays on the JWST project are 
associated with cost estimation and program management, not technical 
performance. The $375 million funding in 2012 gives the program a 
stable footing to continue progress while the agency develops a revised 
program plan that includes a realistic assessment of schedule and life-
cycle cost. The revised schedule and life-cycle cost will be reflected 
in the 2013 budget request.
    The fiscal year 2012 budget request includes $622.3 million for 
heliophysics. NASA's heliophysics satellites provide not only a steady 
stream of scientific data for NASA's research program, but also supply 
a significant fraction of critical space weather data used by other 
Government agencies for support of commercial and national security 
activities in space. Those agencies use the data to protect operating 
satellites, communications, aviation and navigation systems, as well as 
electrical power transmission grids. The spacecraft also provides 
images of the Sun with 10 times greater resolution than high-definition 
television in a broad range of ultraviolet wavelengths. On February 6, 
2011, the two STEREO spacecraft reached 180 degrees separation; when 
combined with SDO, these spacecraft will enable constant imaging of the 
full solar sphere for the next 8 years, as the solar cycle peaks and 
begins to decline again. These three spacecraft working together and in 
combination with NASA's other solar observatories will give us 
unprecedented insight into the Sun and its dangerous solar storms that 
could threaten both satellites and humans in space as well as electric 
power systems on Earth. NASA has begun development of a mission, called 
Solar Probe Plus, that will visit and study the Sun from within its 
corona--a distance only 8.5 solar radii above its surface.
    The fiscal year 2012 budget will enable completion of the Radiation 
Belt Storm Probes mission for launch in fiscal year 2012 as well as the 
completion of development of the Interface Region Imaging Spectrograph 
(IRIS) Explorer mission. In fiscal year 2012, the Magnetospheric 
Multiscale (MMS) mission will enter its assembly and integration phase, 
the Solar Orbiter Collaboration with ESA will undergo Mission 
Confirmation Review, and the Solar Probe Plus mission will enter into 
the preliminary design phase. NASA has increased funding for the next 
Explorer mission selection planned for 2012 to enable selection of up 
to two full missions, as well as instruments that may fly on non-
Explorer spacecraft. The budget also supports robust Research and 
Analysis and Sounding Rocket operations programs. The National Academy 
of Sciences has begun work on the next Decadal Survey for heliophysics 
and we anticipate its release in the spring of 2012.
                          aeronautics research
    The fiscal year 2012 budget request for Aeronautics is $569.4 
million. As an industry, aviation contributes $1.3 trillion to the 
Nation's economy and employs more than 1 million people. Airlines in 
the United States transport more than 1 million people daily, but 
during peak travel times the air traffic and airport systems in the 
United States are stretched to capacity. Environmental concerns, such 
as aircraft noise and emissions, limit increased operations and the 
expansion of airports and runways. In response to these challenges, the 
Nation is pursuing the realization of the Next Generation Air 
Transportation System (NextGen). NextGen will accommodate more aircraft 
operating within the same airspace, including aircraft with widely 
varying performance characteristics. The President recently challenged 
the Nation to increase its competitiveness in advanced technologies. 
NASA meets this challenge with aeronautics research to create the 
safer, more fuel-efficient, quieter, and environmentally responsible 
aircraft and air traffic management procedures needed to make NextGen a 
reality.
  --The Aviation Safety Program conducts research to ensure that 
        current and new aircraft and operational procedures maintain 
        the high level of safety which the American public has come to 
        count on, even as aviation systems become more complex. Last 
        year, the program published guidelines on automation, displays, 
        and alerting technologies for future aircraft cockpit designs 
        based on data collected from real flight crews during 
        simulations of high-air-traffic-density operations. Further 
        increases in air traffic will require even higher levels of 
        automation without sacrificing safety. NASA is addressing this 
        need by developing new methods to verify and validate complex 
        aircraft and air traffic control systems and further developing 
        human performance models to be applied in the design of 
        automated systems. The program is also developing data mining 
        methods that will enable the discovery of safety issues through 
        automated analysis of the vast amounts of data generated during 
        flight operations. These methods will enable a new, proactive 
        approach to aircraft maintenance and design to avoid the 
        occurrence of safety issues, rather than a reactive approach 
        after a safety-related incident occurs.
  --Reductions in environmental impact will be achieved not only 
        through new aircraft, engines, and fuels, but also through 
        improved air traffic management procedures. The Airspace 
        Systems Program is developing these procedures in order to 
        provide the flexibility needed to add capacity to the system as 
        air travel demands increase. Last year, we partnered with the 
        Federal Aviation Administration (FAA), Boeing, Sensis, United 
        Airlines, and Continental Airlines to complete joint 
        simulations of new Efficient Descent Advisor (EDA) procedures, 
        and in fiscal year 2012, the program will deliver documentation 
        of the results to the FAA. EDA procedures are a key component 
        of the FAA's 3D-Path Arrival Management program and NextGen and 
        can save hundreds of pounds of fuel and carbon dioxide 
        emissions per participating flight, while reducing noise over 
        surrounding communities. In fiscal year 2012, we will also 
        accelerate field trials of new procedures enabled by Automatic 
        Dependent Surveillance-Broadcast (ADS-B) technology. This 
        effort will demonstrate near-term and mid-term ADS-B 
        application benefits and provide airlines with data to support 
        their strategic decisions related to the significant 
        investments they need to make to equip their aircraft with ADS-
        B capability.
  --The Fundamental Aeronautics Program seeks to continually improve 
        technology that can be infused into today's state-of-the-art 
        aircraft, while enabling game-changing new concepts, such as 
        Hybrid Wing Body (HWB) airframes, tilt-rotor aircraft, low-boom 
        supersonic aircraft, and sustained hypersonic flight. In fiscal 
        year 2012, the program will accelerate research on a number of 
        key enabling technologies identified through four conceptual 
        design studies completed last year in collaboration with 
        industry and academia. The program will also expand the 
        measurement of emissions generated when using nonpetroleum 
        alternative aircraft fuels. In fiscal year 2012, we will 
        develop instrumentation and operating procedures in preparation 
        for a flight test campaign using the NASA DC-8 aircraft 
        operating at relevant altitudes and cruise speeds. This will 
        provide the first-ever data to improve our understanding of 
        alternative fuel impact on contrail formation, an important 
        factor in aviation climate impact.
  --The Integrated Systems Research Program evaluates and selects the 
        most promising ``environmentally friendly'' engine and airframe 
        concepts emerging from the fundamental research programs for 
        further development, integration, and evaluation in relevant 
        environments. Last year, we completed the last of 80 flights to 
        explore the stability and control characteristics of the sub-
        scale X-48B HWB aircraft. In fiscal year 2012, we will conduct 
        the first-ever testing of a Hybrid Wing Body noncircular 
        fuselage section fabricated using a new low-weight, damage-
        tolerant concept for composite aircraft structures. Beginning 
        this year, the program is also addressing the growing 
        requirement to integrate unmanned aircraft systems (UAS) into 
        the national airspace system. Current FAA regulations are built 
        upon the condition of a pilot being on-board the aircraft. The 
        program will therefore generate data for FAA use in rule-making 
        through development, testing, and evaluation of UAS 
        technologies in operationally relevant scenarios.
  --U.S. leadership in aerospace depends on ready access to 
        technologically advanced, efficient, and affordable aeronautics 
        test capabilities. NASA's Aeronautics Test Program makes 
        strategic investments to ensure the availability of these 
        ground test facilities and flight test assets to researchers in 
        Government, industry, and academia. In addition to this 
        strategic management activity, the program will continue with 
        the development of new test instrumentation and test 
        technologies. The program is modifying a Gulfstream III 
        business jet in order to flight test a new approach to reducing 
        drag on an aircraft by adding carefully engineered surface 
        roughness to the wings. This new flight-test capability will 
        enable us to test this drag reduction concept for the first 
        time at the altitudes and speeds at which commercial aircraft 
        typically cruise.
    NASA cannot do all of these good things alone. Our partnerships 
with industry, academia, and other Federal agencies are critical to our 
ability to expand the boundaries of aeronautical knowledge for the 
benefit of the Nation. These partnerships foster a collaborative 
research environment in which ideas and knowledge are exchanged across 
all communities and help ensure the future competitiveness of the 
Nation's aviation industry. They also directly connect students with 
NASA researchers and our industrial partners and help to inspire 
students to choose a career in the aerospace industry.
                            space technology
    The fiscal year 2012 budget request includes $1,024.2 million for 
space technology, consistent with the NASA Authorization Act of 2010 
and the administration's priorities on Federal investments in research, 
technology and innovation across the Nation. Within the fiscal year 
2012 request, NASA has integrated management responsibility for two 
technology development programs reflected in the NASA Authorization Act 
within the Office of the Chief Technologist. In fiscal year 2012, Space 
Technology includes funding for long-standing Small Business Innovation 
Research and Small Business Technology Transfer programs (SBIR and 
STTR), as well as technology transfer and commercialization efforts, 
the crosscutting space technology programs formulated in fiscal year 
2011, and the exploration technology programs that are being 
transferred into this account. All of the space technology programs 
have deep roots in technology development approaches NASA has pursued 
in previous years.
    NASA technology development activities under space technology will 
transform the Nation's capabilities for exploring space. Through this 
effort, NASA advances crosscutting and exploration-specific technology, 
performs technology transfer and technology commercialization 
activities, develops technology partnerships with other Government 
agencies, and coordinates the agency's overall technology investment 
portfolio. The Office of the Chief Technologist (OCT) manages space 
technology.
    Space Technology is the central NASA contribution to the 
President's revitalized research, technology, and innovation agenda for 
the Nation. NASA's space technology portfolio responds with investments 
that reach all corners of the Nation--wherever there are innovative 
ideas and technical challenges to be solved. Advanced technologies are 
required to enable NASA's future science, aeronautics, and exploration 
missions. As demonstrated over many years, these same advanced 
technologies find their way into products and services available every 
day to the public. NASA's space technology is an innovation engine, 
investing in the innovative, high-payoff ideas, and technologies of 
tomorrow that industry cannot tackle today. This unique work attracts 
bright minds into educational and career paths in STEM disciplines and 
enhances the Nation's technological leadership position in the world. 
Through these technological investments, NASA and our Nation will 
remain at the cutting-edge.
    In fiscal year 2010 and the first quarter of fiscal year 2011, NASA 
focused on planning, formulating, and implementing the space technology 
project elements. The agency received 1,400 responses to six Space 
Technology Requests For Information (RFIs) released during fiscal year 
2010. These inputs were invaluable in finalizing future space 
technology solicitations and demonstrate a strong interest in, and need 
for, significant NASA investment in space research and technology. NASA 
released solicitations for the ongoing flight opportunities and SBIR/
STTR programs. In December 2010, NASA released the inaugural Space 
Technology Graduate Fellowships call. In March 2011, consistent with 
provisions of the NASA Authorization Act, the agency released three 
additional high-priority solicitations spanning space technology's 
strategic investment areas. NASA also recently developed a draft set of 
14 space technology roadmaps, which define pathways to advance the 
Nation's capabilities in space and establish a mechanism for 
prioritization of NASA's technology investments. Consistent with the 
NASA Authorization Act of 2010, NASA's space technology roadmaps are 
being evaluated and improved through a community-engaged review process 
managed by the NRC that will produce a range of pathways and 
recommended priorities that advance the Nation's space capabilities. An 
interim NRC report is expected in fiscal year 2011, and the final 
report is expected in the first quarter of fiscal year 2012.
    NASA's Partnership Development and Strategic Integration activities 
develop key space technology partnerships and guide NASA's space 
technology investment decisions. OCT provides a primary entry point to 
industry and Government agencies for technology transfer and 
commercialization, interagency coordination and joint activities, 
intellectual property management, and partnership opportunities. OCT is 
also responsible for development of an agency technology portfolio and 
coordination of the agency technology investments through center and 
mission directorate technology councils and through the space 
technology roadmaps to ensure that space technology investments serve 
NASA's missions as well as the interests of other Government agencies 
and the Nation's aerospace industry.
    The agency's space technology investments include the Small 
Business Innovation Research and the Small Business Technology Transfer 
programs (SBIR and STTR). Small businesses have generated 64 percent of 
net new jobs over the past 15 years. NASA invests at least 2.5 percent 
of its extramural research and development in the SBIR program. The 
STTR program makes awards to small businesses for contracts for 
cooperative research and development with nonprofit research 
institutions, such as universities. For STTR, NASA's investment exceeds 
0.3 percent of its extramural research and development. For fiscal year 
2012, higher maximum awards for SBIRs are allowed, with Phase I awards 
that can reach $150,000 and, for Phase II, up to $1 million. Also in 
fiscal year 2012, NASA is considering approaches to align the SBIR and 
STTR topics with space technology roadmaps and the National Aeronautics 
Research and Development Plan, while coordinating with centers and 
maintaining a mission directorate steering council to continue to 
improve our rate of mission infusion. The fiscal year 2012 request 
includes $284 million for the SBIR/STTR program and related technology 
transfer and commercialization activities, funded in fiscal year 2010 
and earlier through NASA's Innovative Partnership Program.
    Crosscutting Space Technology Development (CSTD) activities invest 
in broadly applicable technologies through early stage conceptual 
studies, ground-based and laboratory testing, relevant-environment 
flight demonstrations, and technology test beds, including the ISS. The 
NASA Mission Directorates, other Government agencies, and industry are 
the ultimate customers for Crosscutting Space Technology Development 
products. Within this element, there are three investment areas:
  --Early stage innovation;
  --Game-changing technology; and
  --Crosscutting capability demonstrations.
    Early Stage Innovation funds space technology research grants and 
fellowships to accelerate space technology development through 
innovative projects with high risk/high payoff. It also funds the NASA 
Innovative Advanced Concepts (NIAC) effort, which studies the viability 
and feasibility of space architecture, system, or mission concepts. It 
includes the Center Innovation Fund to stimulate and encourage 
creativity and innovation within the NASA Centers, and provides the 
prizes for the Centennial Challenges competitions that seek innovative 
solutions to technical problems in aerospace technology. Through 
ground-based and laboratory testing, game changing technology proves 
the fundamental physical principles of those technologies that can 
provide transformative capabilities for scientific discovery, and human 
and robotic exploration. Specifically for small satellites, the 
Franklin subsystem technology development activity matures subsystem 
technology in laboratory environments. Crosscutting capability 
demonstrations proves the most promising technological solutions in the 
relevant environment of space. Technology demonstration missions prove 
larger-scale system technologies in the space environment, whereas the 
Edison small satellite missions demonstrate the utility of these 
innovative space platforms for NASA's future missions. Flight 
opportunities utilizes the capabilities of the commercial reusable 
suborbital space transportation and parabolic flight services 
industries to test technologies. Seventy percent of the CSTD funds will 
be awarded competitively, with solicitations open to the broad 
aerospace community to ensure engagement with the best sources of new 
and innovative technology. Industry, academia and the NASA Centers will 
participate in the development of CSTD products.
    In fiscal year 2012, CSTD will engage hundreds of graduate students 
and researchers through grants and fellowships, initiate dozens of 
ground and flight technology demonstrations, initiate multiple 
technology studies, and formulate its first demonstration missions. The 
fiscal year 2012 request includes $430 million for crosscutting space 
technology development activities. By focusing on broadly applicable, 
high-payoff, transformative technology that industry cannot tackle 
today, NASA's crosscutting space technology development activities 
mature the technology required for NASA's future missions in science 
and exploration while proving the capabilities and lowering the cost of 
other government agencies and commercial space activities. These 
investments are critical for the agency's future, our Nation's future 
in space, and our Nation's technological leadership position in the 
world. By attacking these technological challenges immediately, NASA 
can build the capabilities required for its future missions and serve 
as a catalyst in America's economic recovery while increasing the 
Nation's global technological leadership position. As noted by NRC in 
numerous reports, NASA needs to make maturing visionary, far-reaching 
concepts and technologies a high priority if we are to have advanced 
concepts available in the future.
    The fiscal year 2012 request transfers management authority for 
$310 million (from a total of $437 million) of exploration technology 
development activities to OCT. The fiscal year 2012 requested 
Exploration Technology Development (ETD) level is equivalent to the 
budget for these activities in fiscal year 2012 in the authorization 
act. For traceability, the transferred activities have been 
consolidated in a specific budget line within space technology--ETD. 
NASA plans to capitalize on technical synergies in the project elements 
from crosscutting space technology development and exploration 
technology development by managing these programs in an integrated 
manner. Technologies within ETD enable NASA to conduct future human 
missions beyond LEO with new capabilities that have greater 
affordability. Technologies for future human exploration missions are 
matured through ground-based and laboratory testing, relevant 
environment flight demonstrations, and technology test beds, including 
the ISS. These technologies may then be designed into future NASA human 
exploration missions with acceptable levels of risk. ESMD will continue 
to set the prioritized requirements for ETD efforts and will serve as 
the primary customer for these mission-focused ETD products. In 
addition to ongoing-guided Exploration-specific technology development 
activities, in fiscal year 2012, NASA will use 30 percent of the funds 
within this account to fund competitive awards, drawing proposals from 
industry, academia, and the NASA Centers for innovative exploration-
specific technologies and demonstration missions.
                              exploration
    The fiscal year 2012 budget request for exploration is $3,948.7 
million. In fiscal year 2012 and beyond, NASA's exploration programs 
will continue to support the U.S. economy by enabling safe, reliable, 
and cost effective U.S.-provided commercial access to LEO for crew and 
cargo as soon as possible. Included in this budget request is funding 
for three new, robust categories or ``themes'' that will expand the 
capabilities of future space explorers far beyond those we have today:
  --Human Exploration Capabilities;
  --Commercial Spaceflight; and
  --Exploration Research and Development.
    These systems and capabilities include launch and crew vehicles for 
missions beyond LEO--the Moon, asteroids, and eventually Mars, 
affordable commercial crew access to the ISS, and technologies and 
countermeasures to keep astronauts healthy and productive during deep 
space missions, and to reduce the launch mass and cost of deep space 
missions.
    The fiscal year 2012 budget request includes $2,810.2 million for 
Human Exploration Capability (HEC). HEC is the successor to the 
constellation systems theme; programs and projects under HEC will 
develop the launch vehicles and spacecraft that will provide the 
initial capability for crewed exploration missions beyond LEO. In 
particular, HEC's SLS program will develop the heavy-lift vehicle that 
will launch the crew vehicle, other modules, and cargo for these 
missions. The MPCV program will develop the vehicle that will carry the 
crew to orbit, provide emergency abort capability, sustain the crew 
while in space, and provide safe re-entry from deep-space return 
velocities. NASA is currently developing plans for implementing the SLS 
and MPCV programs, including efforts to transition the design and 
developmental activities of the Constellation program. A major element 
of the transition involves shifting design and developmental efforts 
away from a closely coupled system (Ares I and Orion) to a more general 
launch vehicle (SLS) and crew vehicle (MPCV).
    Consistent with direction in the NASA Authorization Act of 2010, 
the agency has developed a reference vehicle design for the SLS that is 
derived from Ares and space shuttle hardware. The current concept 
vehicles would utilize a liquid oxygen/liquid hydrogen core with five 
RS-25 Space Shuttle Main Engine (SSME)-derived engines, five-segment 
solid rocket boosters, and a J-2X-based upper stage rocket for the SLS. 
This would allow for use of existing shuttle and Ares hardware assets 
in the near term, with the opportunity for upgrades and/or competition 
downstream for eventual upgrades in designs needed for affordable 
production. For the MPCV, NASA has chosen the beyond-LEO design of the 
Orion Crew Exploration Vehicle as the reference vehicle design for the 
MPCV. The Orion development effort has already benefited from 
significant investments and progress to date, and the Orion 
requirements closely match MPCV requirements as defined in the 
authorization act, which include utilizing the MPCV for beyond-LEO crew 
transportation and as backup for ISS crew transportation.
    NASA will evaluate the reference vehicle designs this spring and 
incorporate results of industry studies that the agency solicited 
earlier this fiscal year. In particular, one of the greatest challenges 
for NASA is to reduce the development and operating costs for human 
spaceflight missions to sustain a long-term U.S. human spaceflight 
program. We must plan and implement an exploration enterprise with 
costs that are credible, sustainable, and affordable for the long term 
under constrained budget environments. As such, our development efforts 
will be dependent on sufficiently stable funding over the long term, 
coupled with a successful effort on the part of NASA and the eventual 
industry team to reduce costs and to establish stable, tightly managed 
requirements.
    NASA plans to approach affordability comprehensively in pursuit of 
exploration beyond LEO to increase the probability that key elements 
are developed and missions can occur within a realistic budget profile. 
For all development activities, we will emphasize innovative 
acquisition and program management approaches, including risk 
management, to reduce recurring and operations costs. In doing so, 
plans for bringing the MPCV and SLS vehicles online with lower costs 
will be as credible and realistic as possible, and significant efforts 
will be made to ensure cost risks will be well understood. Overall, 
NASA's designs and acquisition strategies for the MPCV and SLS programs 
will not be solidified until all of the pertinent knowledge on cost and 
safety is obtained to ensure an affordable and executable solution. 
NASA expects to finalize acquisition strategies this summer, and will 
obtain independent, external assessments of cost and schedule for SLS 
and MPCV design options during the spring or summer timeframe. We will 
share this information with the Congress--including members of this 
subcommittee--as soon as we are able to do so.
    The fiscal year 2012 budget request includes $850 million for the 
commercial spaceflight theme in exploration. This effort will provide 
incentives for commercial providers to develop and operate safe, 
reliable, and affordable commercial systems to transport crew and cargo 
to and from the ISS and LEO. This approach will provide assured access 
to the ISS, strengthen America's space industry, and provide a catalyst 
for future business ventures to capitalize on affordable access to 
space. A vibrant commercial space industry will add well-paying, high-
tech jobs to the U.S. economy, and will reduce America's reliance on 
foreign systems.
    In 2010, NASA further expanded its successful Commercial Crew 
Development (CCDev) program by initiating CCDev2 in October 2010. In 
doing so, we solicited proposals to further advance commercial crew 
transportation system concepts and mature the design and development of 
system elements, such as launch vehicles and spacecraft. Depending on 
available funding in fiscal year 2011, we expect to select a series of 
CCDev2 proposals for award early this year. Once finalized, the 
resulting CCDev2 agreements should result in significant maturation of 
commercial crew transportation system capabilities, with consideration 
given to NASA's draft human certification requirements and standards or 
the industry equivalent to those requirements and standards.
    Beginning in fiscal year 2012, NASA proposes to take the 
accomplishments and lessons learned from the successes of the first two 
rounds of CCDev and incorporate them into a new initiative called 
CCDev3. This initiative will facilitate the development of a U.S. 
commercial crew space transportation capability with the goal of 
achieving safe, reliable and cost effective access to and from LEO and 
the ISS. Once the commercial crew transportation capability is matured 
and available to customers, NASA plans to purchase transportation 
services to meet its ISS crew rotation and emergency return 
obligations.
    For CCDev3, NASA plans to award competitive, pre-negotiated, 
milestone-based agreements that support the development, testing, and 
demonstration of multiple commercial crew systems. The acquisition 
strategy for CCDev3 is still in development, but it will feature pay-
for-performance milestones, a fixed Government investment, the use of 
negotiated service goals instead of detailed design requirements, and a 
requirement for private capital investment.
    In calendar year 2011 work on NASA's Commercial Orbital 
Transportation Services (COTS) program will continue under the 
commercial spaceflight theme, using previous-year funding. Both of 
NASA's funded COTS partners continue to make progress in developing 
their cargo transportation systems, based in part on NASA's financial 
and technical assistance. In particular, on December 8, 2010, Space 
Exploration Technologies (SpaceX) successfully launched its Falcon 9 
vehicle, and demonstrated separation of the Dragon spacecraft and 
completion of two full orbits, orbital maneuvering and control, re-
entry, parachute descent, and spacecraft recovery after splashdown in 
the Pacific Ocean. For its part in COTS, NASA's second funded partner, 
Orbital Sciences Corporation, recently began integration and testing of 
its Cygnus Service Module and Taurus II launch vehicle. Both companies 
are expected to complete their remaining COTS demonstration flights in 
late 2011 or early 2012.
    The fiscal year 2012 budget request for ESMD includes $288.5 
million for ERD. The ERD theme will expand fundamental knowledge that 
is key to human space exploration, and will develop advanced 
exploration systems that will enable humans to explore space in a more 
sustainable and affordable way. ERD will be comprised of the Human 
Research Program (HRP) and the Advanced Exploration Systems (AES) 
program, which will provide the knowledge and advanced human 
spaceflight capabilities required to implement the U.S. Space 
Exploration Policy.
    In fiscal year 2012, HRP and its associated projects will continue 
to develop technologies, countermeasures, diagnostics, and design tools 
to keep crews safe and productive on long-duration space missions. As 
astronauts journey beyond LEO, they will be exposed to microgravity, 
radiation, and isolation for long periods of time. Keeping crews 
healthy and productive during long missions will require new 
technologies and capabilities. Therefore, continued research is 
required to study how the space environment, close quarters, heavy 
workloads, and prolonged time away from home contribute to stress, and 
then develop technologies that can prevent or mitigate these effects. 
More specifically, in fiscal year 2012, HRP will support approximately 
15-20 biomedical flight experiments on the ISS and deliver the next-
generation space biomedical ultrasound device to enhance the station's 
human research facility capability. Other activities will include 
development of a training program for ultrasound diagnosis of fractures 
and the evaluation of blood analysis technology for astronaut health 
monitoring. Additionally, HRP projects will deliver an enhanced design 
tool for vehicle radiation shielding assessments and release the second 
version of an acute radiation risk model. In the area of behavioral 
health and performance, researchers will complete a sleep-wake 
actigraphy report on the ISS crew. In order to support its research 
requirements, HRP will release two NASA Research Announcements 
addressing space radiation health risks and human physiological changes 
associated with spaceflight.
    AES will continue projects from the exploration technology 
development program that are close to application and closely tied to 
human safety in space. In fiscal year 2012, AES will assume 
responsibility for developing and demonstrating innovative prototype 
systems to provide basic needs such as oxygen, water, food, and shelter 
that can operate dependably for at least a year. AES will demonstrate 
these systems in ground test beds, Earth-based field and underwater 
tests, and ISS flight experiments. In fiscal year 2012, AES will use a 
ground test bed to demonstrate the reliability of life support system 
components, and a portable life support system for an advanced space 
suit will be tested in a vacuum chamber. Ground-based analog field 
tests and underwater tests will validate a prototype Deep Space 
Habitat, where the crew will live during transit on long missions, and 
a space exploration vehicle that will allow the crew to closely 
approach an asteroid, explore its surface, and conduct surface 
exploration outside the vehicle. AES plans to use innovative approaches 
for the rapid development of system concepts, such as small, focused 
teams of NASA engineers and technologists working with industry 
partners to gain hands-on experience. AES will pilot these processes to 
improve the affordability of future exploration programs.
                            space operations
    The fiscal year 2012 budget request includes $4,346.9 million for 
space operations, funding the space shuttle program retirement, the ISS 
program, and the space and flight support program.
    The fiscal year 2012 budget request for the space shuttle program 
is $664.9 million. In 2011, the shuttle is slated to fly out its 
remaining missions. On February 24, Discovery launched on mission STS-
133, carrying supplies to ISS, as well as the permanent Multi-purpose 
Module (PMM), a Multi-Purpose Logistics Module (MPLM) transformed to 
remain on orbit, expanding the station's storage volume. In April 2011, 
Endeavour, STS-134, will carry the Alpha Magnetic Spectrometer (AMS) 
and attach it to the ISS' truss structure. The final shuttle mission, 
STS-135, is targeted for late June of this year, if funding is 
available. During the mission, Atlantis will deliver critical supplies 
to the ISS and recover and return to Earth an ammonia coolant pump 
module that failed on the station last year.
    Following the completion of the remaining missions in 2011, the 
space shuttle program will focus on transition, retirement, and 
disposition of program assets and workforce. Approximately 1.2 million 
line items of personal property (e.g., equipment) are associated with 
the space shuttle program, with about 500,000 of these line items 
associated with the space shuttle propulsion system elements (the 
reusable solid rocket motor, the solid rocket booster, the external 
tank, and space shuttle main engines). As part of this effort, NASA 
will assess space shuttle property (including main propulsion system 
elements) applicability to the SLS.
    On April 12, 2011, we will celebrate the 50th anniversary of human 
spaceflight, and the 30th anniversary of the first flight of space 
shuttle Columbia on STS-1. NASA recognizes the role the space shuttle 
vehicles and personnel have played in the history of space activity, 
and looks forward to transitioning key workforce, technology, 
facilities, and operational experience to a new generation of human 
spaceflight exploration activities.
    The fiscal year 2012 budget request includes funding for Space 
Program Operations Contract (SPOC) pension liability. The United Space 
Alliance (USA) notified NASA of its desire to terminate all defined 
pension benefit plans as of December 31, 2010. USA has consistently 
incorporated and billed the maximum allowable costs into their indirect 
rates, but the recent deterioration of the equities and credit markets 
has caused their plan to be underfunded by an estimated $500-$600 
million. SPOC, which accounts for almost all of USA's business base, is 
a cost-type contract covered by the Cost Accounting Standards (CAS). 
These standards stipulate that any costs of terminating plans are a 
contractual obligation of the Government (if deemed allowable, 
allocable, and reasonable). NASA and USA entered into an agreement 
under which USA froze their pension plans as of December 31, 2010 and 
deferred any decision about terminating their plan until after December 
31, 2011, allowing NASA to address this issue, if it arises, with 
fiscal year 2012 funds, if appropriated. USA and NASA have instituted a 
working group to discuss pension termination options and have met with 
the Pension Benefit Guaranty Corporation to discuss potential options. 
If funding remains after the pension plan termination, it will be used 
to defray space shuttle closeout costs that would otherwise require 
fiscal year 2013 funding. If there is a shortfall, it will reduce 
available space shuttle funds for closeout and some activity could move 
later than planned. We will keep the Congress informed as this issue 
evolves.
    The fiscal year 2012 budget request for the ISS program is $2,841.5 
million, of which $1,656 million is for operations, research, and 
utilization, and $1,186 million for crew and cargo transportation. The 
ISS has transitioned from the construction era to that of operations 
and research, with a six-person permanent crew, three major science 
labs, an operational lifetime through at least 2020, and a growing 
complement of cargo vehicles, including the European Automated Transfer 
Vehicle and the Japanese H-II Transfer Vehicle. The fiscal year 2012 
budget request reflects the importance of this unparalleled research 
asset to America's human spaceflight program.
    In addition to conducting research in support of future human 
missions into deep space, astronauts aboard the ISS will carry out 
experiments anticipated to have terrestrial applications in areas such 
as biotechnology, bioengineering, medicine, and therapeutic treatment 
as part of the National Laboratory function of the station. In support 
of this effort, NASA has recently released a Cooperative Agreement 
Notice for an independent nonprofit organization to manage the 
multidisciplinary research carried out by NASA's National Laboratory 
partners. This organization will:
  --act as a single entry point for non-NASA users to interface 
        efficiently with the ISS;
  --assist researchers in developing experiments, meeting safety and 
        integration rules, and act as an ombudsman on behalf of 
        researchers;
  --perform outreach to researchers and disseminate the results of ISS 
        research activities; and
  --provide easily accessed communication materials with details about 
        laboratory facilities, available research hardware, resource 
        constraints, and more.
    The fiscal year 2012 budget request for ISS reflects increased 
funding for the transportation required to support this research.
    The ISS transportation budget also supports NASA's continued use of 
the Russian Soyuz spacecraft for crew transportation and rescue 
services, pending the availability of a domestic crew transportation 
system, as well as U.S. commercial cargo transportation. The ISS 
transportation budget supports NASA's Cargo Resupply Services suppliers 
as they continue to make progress toward fielding their cargo resupply 
vehicles, which will be critical to the maintenance of ISS after the 
retirement of the space shuttle. We anticipate that the first 
commercial resupply flight will take place by the end of this year, and 
that both providers will have their systems operational in 2012.
    The fiscal year 2012 budget request for Space and Flight Support 
(SFS) is $840.6 million. The budget request provides for critical 
infrastructure indispensable to the Nation's access to and use of 
space, including Space Communications and Navigation (SCaN); Launch 
Services Program (LSP); Rocket Propulsion Test (RPT); and Human Space 
Flight Operations (HSFO). The SFS budget also includes investment in 
the 21st Century Space Launch Complex, intended to meet the 
infrastructure requirements of the SLS, MPCV, and commercial cargo/
launch services providers. It will increase operational efficiency and 
reduce launch costs by modernizing the Florida launch capabilities for 
a variety of NASA missions, which will also benefit non-NASA users.
    In fiscal year 2012, the SCaN program will continue to improve the 
robustness of the Deep Space Network (DSN) through its efforts to 
replace the aging 70m antenna capability with 34m antennae, launch 
Tracking and Data Relay Satellite (TDRS)-K and continue the development 
of TDRS--L. In the area of technology, we will conduct on-orbit tests 
using the Communication Navigation and Networking Reconfigurable Test 
bed (CoNNeCT), integrate the optical communications system on the Lunar 
Atmosphere and Dust Environment Explorer (LADEE) spacecraft, and begin 
operational space mission use of Disruption Tolerant Networking 
communications. The SCaN operational networks will continue to provide 
communications and tracking services to more than 75 spacecraft and 
launch vehicles during fiscal year 2012. LSP has several planned NASA 
launches in fiscal year 2012 including the NPOESS Preparatory Project 
(NPP), MSL, Nuclear Spectroscopic Telescope Array (NuSTAR), TDRS-K, and 
RBSP, and will continue to provide support for the development and 
certification of emerging launch services. The RPT program will 
continue to provide test facility management, and provide maintenance, 
sustaining engineering, operations, and facility modernization projects 
necessary to keep the test-related facilities in the appropriate state 
of operational readiness. HSFO includes Crew Health and Safety (CHS) 
and Space Flight Crew Operations (SFCO). SFCO will continue to provide 
trained crew for ISS long-duration crew rotation missions. CHS will 
identify and deliver necessary core medical capabilities for 
astronauts. In addition, CHS will gather astronaut medical data 
critical for determining medical risk as a result of spaceflight and 
how best to mitigate that risk. NASA has enlisted the NRC to conduct an 
independent study of the activities funded within NASA's HSFO program, 
focusing on the role, size, and training requirements of the human 
spaceflight office after space shuttle retirement and space station 
assembly completion.
    The fiscal year 2012 budget request also establishes a new line 
item called Mission Operations Sustainment, which will address future 
space operations functions essential to NASA's human spaceflight 
mission, including funding to purchase U.S. commercial crew 
transportation services to and from ISS once they are developed, and 
key ground and space infrastructure improvements required by the Space 
Network (SN) in order to accommodate anticipated demand in the out 
years; the Mission Operations Sustainment budget would be utilized to 
fund this performance gap. Although the exact amount of funding 
required for these needs is unknown, it is clear that NASA's human 
spaceflight mission cannot be sustained without resources provided by 
Missions Operations Sustainment beyond fiscal year 2012. The agency 
will perform the requisite technical and program analysis and planning, 
and the results will be reflected in the fiscal year 2013 budget 
request.
                               education
    The fiscal year 2012 budget request for education is $138.4 
million. This budget request furthers NASA's commitment to inspiring 
the next generation of explorers in the science, technology, 
engineering, and mathematics (STEM) disciplines. In fiscal year 2012, 
NASA will continue to strongly support the administration's STEM 
priorities and to capitalize on the excitement of NASA's mission to 
stimulate innovative solutions, approaches, and tools that inspire 
student and educator interest and proficiency in STEM disciplines. The 
agency's education strategy will increase its impact on STEM education 
by further focusing K-12 efforts on middle-school pre- and in-service 
educator professional development. It includes an increased emphasis on 
providing experiential opportunities for students, internships, and 
scholarships for high school and undergraduate students. NASA higher 
education efforts will increasingly target community colleges, which 
generally serve a high proportion of minority students, preparing them 
for study at a 4-year institution. NASA will use its unique missions, 
discoveries, and assets (e.g., people, facilities, education 
infrastructures) to inspire student achievement and educator teaching 
ability in STEM fields.
    In fiscal year 2012, NASA will support the administration's STEM 
education teaching and learning improvement efforts, including the 
America Creating Opportunities to Meaningfully Promote Excellence in 
Technology, Education, and Science (America COMPETES) Reauthorization 
Act of 2010, Race to the Top and Educate to Innovate, while continuing 
efforts to incorporate NASA missions and content into the STEM 
education initiatives of other Federal agencies. This may include 
providing competitions and challenges, supporting clearinghouses of 
Federal STEM education resources, providing high-quality professional 
development, and other engagements.
    NASA will continue the Summer of Innovation (SoI) Pilot through 
partnerships with organizations that currently work with girls, 
minorities, and low-income students in grades 4-9 in summer and 
extended learning settings. The SoI project will deepen and broaden the 
efforts of communities and schools to successfully engage these 
students by providing high-quality, inquiry-based content, customized 
support, and access to NASA people, facilities and technology.
    NASA will continue to partner with universities, professional 
education associations, industry, and other Federal agencies to provide 
K-12 teachers and university faculty with experiences that capitalize 
on the excitement of NASA discoveries to spark student interest and 
involvement in STEM disciplines. Examples of experiences include 
research and hands-on engineering in our unique facilities and on a 
variety of real-world platforms that include high-altitude balloons, 
sounding rockets, aircraft, and satellites. NASA will also partner with 
science centers, museums, planetariums, and community-based education 
providers to allow informal educators to engage students in NASA's 
real-time, cutting-edge science and engineering discoveries and 
challenges.
    The fiscal year 2012 budget request places increased emphasis on 
cyber-learning opportunities and the use of the ISS National Laboratory 
to engage students (at all levels) in launch activities, research and 
engineering grants, and courses based upon NASA science and 
engineering.
    In fiscal year 2012, the agency aims to increase the availability 
of opportunities to a diverse audience of educators and students, 
including women, minorities, and persons with disabilities. An example 
is the Innovations in Global Climate Change Education project that will 
be implemented within the Minority University Research and Education 
Program. The project provides opportunities for students and teachers 
to conduct research using NASA data sets to inspire achievement and 
improve teaching and learning in the area of global climate change.
                          cross-agency support
    The fiscal year 2012 budget request includes $3,192 million for 
cross agency support, which provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the agency. These important functions 
align and sustain institutional and program capabilities to support 
NASA missions by leveraging resources to meet mission needs, 
establishing agency-wide capabilities, and providing institutional 
checks and balances. Within this budget request, NASA has taken steps 
to reduce its administrative expenses, including a partial hiring 
freeze and reduced travel.
    NASA's fiscal year 2012 budget request includes $2,402.9 million 
for Center management and operations, which funds the critical ongoing 
management, operations, and maintenance of nine NASA Centers and major 
component facilities. NASA Centers provide high-quality support and the 
technical engineering and scientific talent for the execution of 
programs and projects. Center management and operations provides the 
basic support required to meet internal and external legal and 
administration requirements; effectively manage human capital, 
information technology, and facility assets; responsibly execute 
financial management and all NASA acquisitions; ensure independent 
engineering and scientific technical oversight of NASA's programs and 
projects in support of mission success and safety considerations; and, 
provide a safe, secure, and sustainable workplace that meets local, 
State, and Federal requirements. Cross-agency support also funds salary 
and benefits for civil service employees at NASA Centers who are 
assigned to work on Center management and operations projects. In 
addition, the account contains center-wide civil service personnel 
costs, such as institutionally funded training.
    NASA's fiscal year 2012 budget request includes $789.1 million for 
Agency Management and Operations, which funds the critical management 
and oversight of agency missions, programs and functions, and 
performance of NASA-wide activities, including five programs:
  --Agency management;
  --Safety and mission success;
  --Agency Information Technology Services;
  --Strategic capabilities assets program; and
  --Agency management and operations civil service labor and expenses.
    Agency management supports executive-based, agency-level functional 
and administrative management requirements, including, but not limited 
to:
  --Health and medical;
  --Environmental;
  --Logistics;
  --General counsel;
  --Equal opportunity and diversity;
  --Internal controls;
  --Procurement;
  --Human resources; and
  --Security and program protection.
    Agency management provides for the operational costs of 
Headquarters as an installation; institutional and management 
requirements for multiple agency functions; assessment and evaluation 
of NASA program and mission performance; strategic planning; and, 
independent technical assessments of agency programs.
    Safety and mission success activities are required to continue 
improving the workforce, and strengthening our acquisition processes, 
including maintaining robust checks and balances, in order to improve 
the safety and likelihood of mission success for NASA's programs 
throughout their lifecycles. The engineering, safety and mission 
assurance, health and medical independent oversight, and technical 
authority components are essential to NASA's success. They were 
established or modified in direct response to several major Government 
accident and mission failure investigation findings in order to reduce 
the likelihood of loss of life and/or mission in our human and robotic 
programs. The budget request also supports operation of three 
activities that each provides a unique focus in support of the 
independent oversight and technical authority implementation:
  --the Software Independent Verification and Validation (IV&V) 
        program;
  --the NASA Engineering and Safety Center (NESC); and
  --the NASA Safety Center located at the Glenn Research Center.
    Agency Information Technology Services (AITS) encompasses agency-
level cross-cutting services and initiatives in information technology 
(IT) innovation, business and management applications, and 
infrastructure necessary to enable the NASA mission. AITS includes 
management of NASA's scientific and technical information; identity, 
credential and access management services; overarching information 
security services; enterprise-level business systems; and, other agency 
operational services, such as email, directory services, and enterprise 
licenses. NASA's Security Operations Center (SOC) will continue to 
mature capabilities to improve security incident prevention, detection, 
response, and management. NASA will continue implementation of major 
agency-wide procurements to achieve:
  --consolidation of IT networks leading to improved network 
        monitoring, management, and reliability;
  --consolidation of desktop/laptop computer services and mobile 
        devices to achieve improved security and enable NASA Centers 
        and programs to realize improved efficiencies;
  --consolidation of agency public Web site/application management to 
        improve the agency security posture and to facilitate access to 
        NASA data and information by the public;
  --minor enhancement and maintenance of integrated agency business 
        systems to provide more efficient and effective agency 
        operations; and
  --reduction in overall agency data centers and related infrastructure 
        currently funded outside the AITS budget.
    The Strategic Capabilities Assets Program (SCAP) funds key agency 
test capabilities and assets, such as an array of flight simulators, 
thermal vacuum chambers, and arc jets, to ensure mission success. SCAP 
ensures that assets and capabilities deemed vital to NASA's current and 
future success are sustained in order to serve agency and national 
needs. All assets and capabilities identified for sustainment either 
have validated mission requirements or have been identified as 
potentially required for future missions, either internally to NASA or 
by other Federal entities.
    The Agency Management and Operations Civil Service Labor and 
Expenses funds salary and benefits for civil service employees at NASA 
headquarters, as well as other headquarters personnel costs, such as 
mandated training. It also contains labor funding for agency-wide 
personnel costs, such as agency training, and workforce located at 
multiple NASA Centers that provide the critical skills and capabilities 
required to execute mission support programs agency-wide.
       construction and environmental compliance and restoration
    The fiscal year 2012 budget request includes $450.4 million for 
construction and environmental compliance and restoration. NASA 
construction and environmental compliance and restoration provides for 
the design and execution of all facilities construction projects, 
including discrete and minor revitalization projects, demolition of 
closed facilities, and environmental compliance and restoration. The 
fiscal year 2012 budget request includes $397.9 million for the 
Construction of Facilities (CoF) program, which funds capital repairs 
and improvements to ensure that facilities critical to achieving NASA's 
space and aeronautics programs are safe, secure, sustainable, and 
operate efficiently. The agency continues to place emphasis on 
achieving a sustainable and energy-efficient infrastructure by 
replacing old, inefficient, deteriorated buildings and horizontal 
infrastructure with new, efficient, and high-performance buildings and 
infrastructure that will meet NASA's mission needs while reducing the 
agency's overall footprint and future operating costs. The CoF program 
prioritizes this budget based on risk of impact to NASA and Center 
missions, safety issues and accessibility. The fiscal year 2012 budget 
request includes $52.5 million for the Environmental Compliance and 
Restoration (ECR) program, which supports the ongoing cleanup of sites 
where NASA operations have contributed to environmental problems. The 
ECR program prioritizes these efforts to ensure that human health and 
the environment are protected. This program also supports strategic 
investments in sustainable environmental methods and practices aimed at 
reducing NASA's environmental footprint and lowering the risk of future 
cleanups.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                       2012 CONTINUING RESOLUTION

    General Bolden. Thank you, ma'am.
    Senator Mikulski. Now, we have, in other hearings, been 
talking about asking administrators about the consequences of 
the continuing resolution. Actually, where we are today, you're 
going to ask us the consequences of the continuing resolution. 
Rather than going into that today, here is what I suggest:
    At midnight today, the Senate Appropriations Committee will 
present its bill. It, as I understand it, will be on the Web at 
www.appropriations.senate.gov.
    Am I correct?
    Senator Cochran. I'm not sure.
    Senator Mikulski. Well----
    Senator Cochran. I would defer to your judgment.
    Senator Mikulski [continuing]. He's the ranking member of 
the full committee. So--but pretty much it will come out around 
midnight, that'll be the full bill.
    My suggestion to you, and it would be enormously helpful, 
is that, when that comes out, I know you're going to scrub it--
--
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. To see what we did, so you 
know what you need to do. When you do that, it would be useful 
if you then could share with Senator Hutchison, Senator Inouye, 
Senator Cochran and I, what you think that means to NASA and 
what you think that means to 2012. We would be in speculative 
number games, and we're all rushing to meet those deadlines. 
And I know there's always a leadership blip here or there.
    So, what we want to say, as full partners, scrub what we've 
done, then come back and tell us what it means to 2012, 
because, in effect, you're going to be below 2010.
    General Bolden. Yes, ma'am.
    Senator Mikulski. Okay?
    General Bolden. Madam Chair, we'll do that and look forward 
to it.

                                  JWST

    Senator Mikulski. Now, let's go to the 2012, as proposed by 
the President and your advocacy today.
    We want to join with the President in his national goal of 
out-building and out-innovating and out-educating. At the same 
time, we need to be stewards of the money.
    I'd like to raise some questions about those things that 
could be targets for big cuts, particularly for those who have 
not spent the time on NASA, like our colleagues at the table. 
That goes to the JWST.
    The JWST is scheduled to be 100 times more powerful than 
the Hubble telescope. But, we were troubled about its 
management. We were troubled about the use of money. We asked 
for a report, the Cassini report, which then said it was 
technically sound, but we had to worry how--we, meaning NASA, 
had to have a real sense of urgency related to management and 
keeping on track for both deadlines and expenditures. You and I 
have had a private conversation about that some weeks ago.
    But, could you tell us now: What is NASA doing, number one, 
to have a sense of urgency; number two, that it has top-level 
attention--it hasn't been delegated to the coordinator of the 
coordinator of the coordinator; and that we have this 
spectacular opportunity on track now? Because, quite frankly, 
we--``we'', on a bipartisan basis, cannot sustain technology 
with repeated cost overruns. The House won't put up with it. 
And, quite frankly, with no money to spare, we won't, either.
    So, we want this telescope; it's important to our future. 
Tell us what you're going to do now to make sure we can deliver 
this; what your timeline is; and what your management and 
urgency activities are.
    General Bolden. Senator, as you and I discussed when we did 
talk at Wallops and, as I told you then, I don't think there's 
anyone who was more disappointed and angry than I when we got 
to the bottom of the situation, where we found ourselves with 
Hubble. But, since then, we have moved with urgency. As I 
mentioned in my opening statement, the telescope continues to 
make exceptional technological progress. But, I have made some 
significant management changes in NASA. The program now is my 
responsibility, and I have delegated my associate 
administrator, Chris Scolese, to oversee that program for me. 
He meets with the team on a regular basis, several times a 
week, and also meets with some of your staff periodically.
    Senator Mikulski. What is the team?
    General Bolden. The team consists of Rick Howard, who is 
the program manager at NASA headquarters; and Ed Weiler, who is 
the Associate Administrator for Science. The program comes 
directly to him now. I extracted it from its former division, 
in astrophysics, because it was unfair to put a program of that 
magnitude in the astrophysics division.
    Senator Mikulski. What are you doing about meeting with the 
private sector, building it?
    General Bolden. We are working with Northrop Grumman, which 
is our prime contractor. We actually talk to Gary Ervin; I talk 
to Wes Bush periodically. They have made some management 
changes, and I would defer to them to explain to you what 
they've done. But, we communicate with them on a routine basis. 
As I said, Chris Scolese is usually talking to Gary Ervin every 
week. We're trying to make sure that----
    Senator Mikulski. So, now, you've got this on track----
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. And you review it. Now, tell 
me, how much money is needed to keep JWST on track? And is it 
in 2012?
    General Bolden. Senator, we are working to complete our 
bottoms-up assessment that will allow us to bring you a draft 
baseline assessment, hopefully by the end of this month. The 
final----
    Senator Mikulski. Do you know----
    General Bolden. Do I know----
    Senator Mikulski [continuing]. This is----
    General Bolden [continuing]. What it is----
    Senator Mikulski. Yes, this is not argumentative or 
adversarial. I'm trying to drill deep on this issue.
    General Bolden. We honestly do not think that we need money 
in fiscal year 2012 that will allow us to continue to carry the 
program to the point where we can make what we think now is a 
reasonable launch date of 2018. If something does happen, and 
we find that we have more funds than necessary in fiscal year 
2012, we will put them to use to accelerate some of the testing 
that we're doing or some of the other developmental work. Right 
now, we are looking at how much we need to add to fiscal year 
2012----
    Senator Mikulski. Well----
    General Bolden [continuing]. To come to this subcommittee 
and----

                             CASSINI REPORT

    Senator Mikulski [continuing]. Going back to the Cassini 
report----
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. Which I know is advisory----
    General Bolden. Yes.
    Senator Mikulski [continuing]. They said they needed $500 
million each year, in 2011 and 2012. And it's not there.
    General Bolden. Senator, I respect the Cassini report. When 
we looked at what they said, and where we are in these fiscal 
times, I cannot responsibly bring myself to this subcommittee, 
or any other, and propose that someone try to find $500 million 
a year for the foreseeable future. We are working up a 
baseline, and there will be some additional spending that will 
be required, but we have not arrived at that yet. But, I hope 
to have you an original estimate by the end of this month.
    Senator Mikulski. Well, my time is coming to a close, and I 
want my colleagues to be able to fully participate. I know of 
their keen interest, because, you know, we have big tickets in 
human spaceflight, and this telescope is a big ticket in space 
science.
    First of all, we really appreciate the President adding $5 
billion to the science budget.
    But, let me tell you what I worry about: ``Oh, we're going 
to live in our fiscal time and time of our austerity, and 
spartan.'' I'm all for that. Everyone at this table is for a 
more frugal Government. But, what I don't want to be is--I'm 
ready to be frugal, but I don't want to be foolish. So, let me 
tell you what I worry about in being foolish: that, because we 
skimp now, we then end up paying two or three times later. And 
that's what I don't want. I really need a realistic picture so 
that we could--this is a rational group of people who work 
together. We need to hear, truly, what is needed, not what you 
think you can get Office of Management and Budget to agree to--
--
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. Or what we can even get the 
House or ourselves to agree to. But, we need to know that. And 
what I also need to know is, if we don't spend the money now, 
when will we spend it, and will it ultimately cost us more? And 
I might be wrong, but I think we've been around the track on 
some of these things. Either the thing grows and becomes a 
boondoggle--you're now standing sentry, that won't happen. But, 
I'm again concerned that if we don't do the right thing now, 
it'll cost us more in the future. So, we really do need your 
wise counsel on this.
    And we thank the President's support of science.
    Senator Hutchison.
    Senator Hutchison. I'm going to defer to Thad, and then 
I'll go after Sherrod.
    Senator Mikulski. Senator Cochran.

               TESTING CAPABILITY AT STENNIS SPACE CENTER

    Senator Cochran. Madam Chairman, thank you very much for 
your leadership of our subcommittee and working in concert with 
our other subcommittee members.
    Mr. Administrator, we appreciate your cooperation with our 
subcommittee, and your presentation today.
    Despite some uncertainties about the fiscal year 2011 
budget, I'm hopeful that we can stay on track to meet the goal 
of developing our heavy lift capacity for operation by 2016. 
And I'm hopeful that's at a 130-ton capacity. And I know that 
your advice is important in keeping us on track, in terms of 
taking the right steps with funding of those activities that 
will help us reach that goal. We want to be sure we have ample 
rocket testing results and an infrastructure to support this 
capability. We know that safety and competence and national 
interest are all goals that we share. And we know you are on 
that same team, and we appreciate your leadership.
    You mention, in your written testimony, about the 
investment importance of a 21st century launch complex. And it 
strikes me, that's a way to describe what we have in the NASA 
facilities in the Mississippi/Louisiana area, which have become 
so important to this launch infrastructure. Do you have enough 
funding requested in this budget request to ensure that we meet 
our updates to keep the schedules that are in place for fiscal 
year 2011 and 2012, to improve our rocket propulsion test 
infrastructure?
    General Bolden. Senator, as you and I have discussed 
before, the 2012 budget that I put forth will support the 
continued development of our testing capability at Stennis 
Space Center. We intend to complete the construction of the A-3 
Test Stand. As you are probably very well aware, Stennis has 
become rejuvenated and reinvigorated. We have had three tests 
now of the AJ26, just in this year, which is the rocket 
produced by Aerojet for Orbital Sciences Corporation. We have a 
test that's supposed to be going on today. When we get the A-3 
Test Stand done, we'll be able to test even bigger and more 
advanced engines.

                   TESTING COMMERCIAL LAUNCH VEHICLES

    Senator Cochran. What are your views toward using existing 
NASA infrastructure with regard to testing commercial launch 
vehicles?
    General Bolden. We have demonstrated our capability to do 
that. In fact, the first time we tested an engine at Stennis in 
more than 10 years, it was the AJ26, Aerojet-produced. It's a 
Ukrainian rocket that Aerojet has modified for domestic 
production. It is also a rocket that we are currently talking 
to Aerojet about that has potential for upgrade, for even 
heavier lift than the Taurus II.
    Senator Cochran. Do your future plans include subsidizing 
the construction of commercially owned propulsion test 
infrastructure elements?
    General Bolden. I don't use the term ``subsidizing''. We 
provide the test facility, that's what Stennis is. It's the 
propulsion test center for the--we'd like to say it's for the 
world, but it's for the United States. We want to get everybody 
to come there and do their tests. We will make sure that we are 
competitive, in terms of cost, but we will take all comers.
    Senator Cochran. Thank you.
    Thank you, Madam Chairman.
    Senator Mikulski. Senator Brown.

                          TEN HEALTHY CENTERS

    Senator Brown. Thank you, Madam Chair.
    General Bolden, nice to see you, thank you.
    The previous administration declared 10 healthy centers and 
laid out responsibilities for each. When you and I first 
talked, right prior to your confirmation, you assured me this 
policy was no longer needed, because NASA had 10 healthy 
centers. However, in last year's budget, NASA Glenn, in 
Cleveland, was promised the Exploration Technology Development 
Demonstration, the ETDD program. With the fiscal year 2012 
budget request, we're giving $1 billion to the Office of the 
Chief Technologist, being told only that a significant--a 
substantial portion of the working leadership will be at Glenn.
    Additionally, NASA has a history, as you know, of allowing 
its centers to fight among themselves. Not a day goes by that I 
don't hear that Cleveland's going--to that NASA Glenn's going 
to get a mission, or somebody else--1 of the other 9 is trying 
to take a mission from NASA Glenn and from each other. Now, I 
hear some NASA leadership saying that, instead of collaboration 
between and among centers, they want to encourage, again, that 
competition. While I have great respect for Dr. Braun, I've 
seen what happens when the Congress provides NASA latitude to 
shift funds.
    I have two questions on this issue. One, do you have a 
serious commitment to the goals of the previous policy of 10 
healthy centers and the people that work there? Two, how will 
you work with the Congress to detail a more specific plan for 
10 healthy centers?
    General Bolden. Senator, I have a very serious commitment 
to 9 functioning, effective, efficient NASA centers and one 
laboratory, the Jet Propulsion Laboratory. You know, 
``healthy'' is a relative term. Because of the fiscal 
constraints that we are all under now, our centers are 
stressed. You talk about H.R. 1, for example; change like that 
would have a dramatic effect on a center. But, I have the best 
center directors in the world. I have the best workforce in the 
world, and we're doing everything we can to make sure that we 
balance the work across the 10 NASA centers. We want to make 
sure that we have a balanced portfolio in the agency. We want 
to have vibrant involvement in aeronautics, in technology 
development, in science, and in human spaceflight.
    I'm not asking every center to be capable of participating 
in every single thing we do. I want to find out what their 
sweet spot is and then let them go do that. I think the center 
directors enjoy that, the members of the workforce enjoy that. 
But, I am committed to making sure that all of our centers stay 
as strong as they can.

                                  ETDD

    Senator Brown. And I can be assured that ETDD's work will 
be at Glenn, regardless of where the OCT is located.
    General Bolden. The answer is ``Yes''.
    Senator Brown. The people at Glenn don't necessarily 
believe that----
    General Bolden. Well, the----
    Senator Brown [continuing]. You understand.
    General Bolden [continuing]. Point that I tried to explain 
and I think I know the center director does. And it's because--
--
    Senator Brown. He does.
    General Bolden [continuing]. He understands and, as Ray 
Lugo has probably told you before, he's not worried about 
having titles at his center; he is interested in having the 
contracts and the work. So a program management office at a 
center does not mean that the center is going to handle the 
bulk of the work in that program. It just means that 's where 
the focus of the oversight is going to be. But, work on ETDD--
Glenn is where much of it is being done and will be done. So, 
Glenn will make out relatively well.

                    DISPOSITION OF ORBITER VEHICLES

    Senator Brown. Let me shift to an issue that we've talked 
about many times. I'd like you to detail the selection of the 
shuttle that-- the process NASA undertook in deciding where the 
retiring shuttles would be exhibited. I never heard you or your 
top assistant or the White House or anyone else talk about this 
commission, that supposedly was put together 4 years ago, that 
will apparently decide the disposition policy with the NASA 
authorization law that set out guidelines in the role that the 
commission is playing. Could you explain, one, who is the one 
that's ultimately going to decide----
    General Bolden. Is this a commission on deciding where the 
orbiters go?
    Senator Brown. That's my understanding.
    General Bolden. If there is such a thing, I don't know 
about it. I am going to make the decision, probably when I get 
back over to my office this afternoon, so if I need to consult 
with them, somebody should tell me, really quick.
    Senator Brown. Will you just make that decision based on 
the last person you talk to, by chance?
    General Bolden. No, Sir, my team has put together----
    Senator Brown. A ``Yes, Sir'' would have been much more 
preferable.
    Senator Mikulski. You know, you could end up with a 
filibuster on this subcommittee, if you----
    Senator Hutchison. And I have to follow you, Senator Brown.
    General Bolden. My team and I--that's a good point----
    Senator Mikulski. For once, I have no dog, or orbiter, in 
this fight.
    General Bolden. There are--well----
    Senator Brown. So, the decision is totally yours, there is 
no statutory commission to which----
    General Bolden. Not to my knowledge.
    Senator Brown [continuing]. The matrices that you must--on 
which you have to base your decision.
    General Bolden. I have made an effort to keep people, not 
the President, but people close to the President, informed of 
the process that we were following. I have made an attempt to 
keep at least the staffs, here, in both the House and Senate, 
informed of the process that we were following. We offered to 
brief people on the process. We established, I think, 10 
criteria for consideration.
    We had 29 applicants for an orbiter. All of them met the 
criteria, in varying degrees. So, I will make my decision this 
afternoon based on points that were assigned to the degree to 
which they met those criteria. It has nothing to do with where 
it is, or anything. It's just how they fell out in a matrix of 
criteria, and the points awarded for that. There will be 25 
people who won't be happy; 4 who will be really happy.
    Senator Brown. The three shuttles that will be sent to 
these three locations, is-- are you also deciding on the 
Enterprise, the one that has never, and will not have, flown? 
Or are you only making that decision on the three that have 
flown or will have flown?
    General Bolden. The decision is being made on the 
distribution of all four orbiters, because the Smithsonian is 
in competition with everyone else. So, I have four orbiters to 
dispose of. All of them have, I know I'm being picky here, but 
all of them have flown. Enterprise was the first orbiter. It 
conducted all of the approach and landing tests. It flew three 
times--I mean, had some pretty challenging things happen to it, 
also. So, it is quite a vehicle, in and of itself, in terms of 
being a pioneer vehicle. But, those four vehicles will be 
distributed around the country to the four places selected.
    Senator Brown. But, the Enterprise been promised or owned 
in some by some definition, by the Smithsonian?
    General Bolden. By law, the Smithsonian is the recipient of 
all artifacts that come from spaceflight. So, we are working 
with the Smithsonian and my committee to determine just how we 
go about that. But, I will----
    Senator Brown. So, if one of the----
    General Bolden [continuing]. I will make that announcement 
tomorrow----
    Senator Brown. Okay.
    General Bolden [continuing]. At 1 o'clock----
    Senator Brown. If one of those three----
    Pardon me, can I continue for 2 more minutes, Madam Chair?
    This matters a lot to Dayton, Ohio. And I know--and she's 
going to--I understand. I understand. I won't take much----
    If those three--if one of those three that has been defined 
as having a mission and going up and--while the Enterprise is 
defined a little less so, generally--if one of those three goes 
to Washington, goes in the Smithsonian, does that mean that 
this the Enterprise will go somewhere else--I assume.
    General Bolden. If one of them ends up at the Smithsonian--
they only get one. So, that means that I will take possession 
of Enterprise, and then it will be up to NASA to determine 
where Enterprise goes.
    Senator Brown. In that decision, if one of these three goes 
to--one of the first three, or ``the'' three, goes to the 
Smithsonian when you make your decision tomorrow, you will 
then--right then, decide where the, some call it the 
consolation prize, others call it much more than that--you will 
make that decision then----
    General Bolden. I'll make the----
    Senator Brown [continuing]. Where the fourth one goes.
    General Bolden [continuing]. Determination between when I 
leave this session and when I announce it tomorrow, where all 
four----
    Senator Brown. Okay. And----
    General Bolden [continuing]. Space shuttle orbiters are 
going. So, when we make the announcement tomorrow, it will be 
very specific. It will cite the orbiter and its destination.
    Senator Brown. Okay.
    Thank you. Thank you, General.
    General Bolden. This process has been as pure as I could 
make it, and free of any political involvement. I can say that 
until I'm blue in the face, but there will always be someone 
who will have the opinion that was not the case. But, the team 
that was put together before I became the Administrator has 
done an absolutely incredible job over the last couple of 
years. I would just hate to see their work be castigated by 
somebody who assumes that they were unduly influenced. They 
were not.
    Senator Brown. And, General, you of course know that 
Dayton, Ohio, is within a--1 day's drive of 60 percent of 
America's population----
    General Bolden. I do, indeed.
    Senator Brown [continuing]. And that the Wright brothers 
and Neil Armstrong and----
    Senator Mikulski. And John Glenn.
    Senator Brown [continuing]. And John Glenn all called Ohio 
home.
    General Bolden. I know that all very well, from lots of 
phone calls from----
    Senator Mikulski. The only two prominent people I don't 
know from Ohio are Mother Theresa and Nelson Mandela.
    Senator Brown. No, they actually are. Thanks, Madam Chair.
    Senator Mikulski. Senator Hutchison.

              CONSTELLATION PROGRAM CONTRACT MODIFICATION

    Senator Hutchison. The NASA authorization bill allows NASA 
to modify any contract from the Constellation program. And, of 
course, it seems that Orion would be the perfect candidate for 
such action, because the whole theme of the authorization bill 
is to use the technology, expertise, and experience that we've 
already invested in to go to the next generation of vehicle. 
The President himself brought back Orion last year. He wanted 
Orion continued. And your staff and managers agree that Orion 
is the reference vehicle, and easily falls within the scope of 
the authorization law that you have said you are following.
    Yet, it doesn't seem that the contract modifications to 
achieve this result are happening. Do you intend to modify the 
current launch vehicle and Orion contracts, as directed in the 
authorization law, or is it just going to be strung out so that 
eventually it just can't be revived?
    General Bolden. Senator, there may be no requirement for a 
modification on the contract to Orion. The present Orion was 
designed as a deep-space exploration vehicle. If it's found 
that--the basic information that we have at hand today says 
that the scope of the existing Orion contract as a deep space 
exploration vehicle easily maps to the scope of what we call a 
MPCV. It may come to the fact that it matches so well that 
there's no need to modify the contract.
    I will tell you that, in any of the contracts that we have 
today, we cannot pay the amount of money that was contracted X 
number of years ago. So, there will be negotiations among us 
and all of our contractors, because we have got to get our 
costs down. We may have to de-scope the vehicle in some manner. 
Orion is the design reference vehicle for MPCVs. So, what it's 
called----
    Senator Hutchison. Let me just ask you this--are you taking 
the previous contracts, the Constellation, which is no longer, 
and modifying those so that we get the next generation, the 
Orion, both launch and capsule----
    General Bolden. Senator, that's our hope. We have had the 
lawyers, the procurement folks, everybody, look at mapping the 
scope of the existing contracts to what it is we want to do for 
an evolvable heavy lift launch vehicle and MPCV. I'll go back, 
because Senator Cochran mentioned a 130 metric ton vehicle--
that is the ultimate----
    Senator Hutchison. Okay.
    General Bolden. That is where we will end up. We will end 
up with, no question, a 130 metric ton vehicle, because that's 
what we judge is needed if we're going to do a deep space 
exploration to asteroids and Mars and other places.
    Senator Hutchison. Do you----
    General Bolden It will be an evolving program to get there, 
though. The first vehicle that we fly may be a 70 metric ton 
vehicle. But, we will eventually have 130 metric ton vehicle.

               UTILIZATION OF THE CONSTELLATION CONTRACTS

    Senator Hutchison. The budget request, at the $2.8 billion 
level, which is level until 2016--are you telling us that you 
are using the previous experience and expertise from 
Constellation and transferring that in an expeditious and 
timely manner so that it is going to be done in a timely way, 
even with the flat line budget that you are requesting?
    General Bolden. Senator, we are using the experience, 
expertise, and assets of the Constellation program to the 
greatest extent possible. The vehicle Orion is already in 
testing as an MPCV. Lockheed Martin, under its Constellation 
contract, which I am not allowed to terminate at my direction, 
the Constellation program, which does still exist--I told them 
that we should focus on putting our money on technology and 
assets that could move forward to a deep space exploration 
system. And that's what we're doing.
    So, we are not making much progress on a heavy lift vehicle 
right now, because it is not clear that the Ares configuration 
is what you want to go with. As you saw, the design reference 
vehicle, for a space launch system (SLS), is a shuttle-derived 
system, not the Ares system. So, I know that there will be some 
contract mods required to go from an Ares type system to a 
shuttle derived system, which is the design referenced----
    Senator Hutchison. You say that you're not able to----
    General Bolden. Design referenced vehicle for now.
    Senator Hutchison [continuing]. Cancel Orion, but the 
authorization bill vitiated the--or took the place of any 
previous supplemental or appropriations bills. So, the law is 
the authorization bill. Are you saying that you believe that 
you are fully utilizing the previous Constellation contracts 
for the next generation of vehicle, that we are not wasting 
money pursuing something that is now obsolete, but that you are 
expeditiously using that money for----
    General Bolden. Senator----
    Senator Hutchison [continuing]. The Orion vehicle----
    General Bolden. Senator, we are complying with the 
requirements of the authorization act. But, I'm out of my 
league, here, so I will ask your staff and some of my folks 
to--I will say, my understanding is, I am still governed by the 
2010 appropriations----
    Senator Mikulski. Yes.
    General Bolden [continuing]. Law, and that is what says I 
cannot cancel. I can take no action to cancel the Constellation 
program or to stop any expenditures on that program. What I 
did, though, was, I said, I want to make sure that we spend the 
taxpayers' money very prudently. So, in some cases, we stopped 
doing things that were in the Constellation program, because we 
knew they weren't going anywhere, things that had not begun 
yet. Contracts that we hadn't even started, I said, ``Okay, 
let's not start them. We have not funded them, we have not 
started them, let's just stop right there.'' But----
    Senator Mikulski. Let me just cut in here.
    General Bolden. Yes, ma'am.
    Senator Mikulski. Senator Hutchison, Administrator Bolden 
is right, they are still under the excellent authorization you 
and Senator Nelson did, did not remove the prohibition 
regarding Constellation.
    General Bolden. Yes, ma'am.
    Senator Mikulski. However, I think if we all just sit 
tight, look at what we're going to be looking at as the 
continuing resolution moves forward now, I think that you're 
going to see there's some flexibility. So, if everyone could--
your questions are excellent.
    Senator Hutchison. Well, I mean, it's, they can modify and 
use common sense to know that the authorization bill takes the 
place of the original 2010 supplemental----
    General Bolden. And, Senator, you know----
    Senator Hutchison [continuing]. And you are going to get 
more help--hopefully within this week.
    General Bolden. Senator, we've--again, I think the----
    Senator Hutchison. But, I just, our concern is that you 
have not been using the capability that you have for 
modification to stop obsolete things, but continue using the 
same technology, experience, and people, moving forward toward 
Orion.
    General Bolden. Senator, I have directed that we spend 
money on things that will be useful for the exploration system 
going forward. You had an inspector general report that said 
that we were wasting funds by spending money on obsolete 
Constellation contracts, and that is not the case. We took 
issue with that report, and we submitted our own report to you, 
to identify the areas where we were doing exactly what you 
said.
    We are spending money, for example, on the Orion vehicle, 
because it maps well to the MPCV. We are spending money on 
doing some things from the Orion program--from the 
Constellation program--that look like they will map well to an 
SLS. But, we are trying not to spend money on things that will 
not go forward. So, we're not wasting the taxpayers' money.
    Senator Hutchison. Well, that would be our hope. And know 
you know we have worked with your staff and with the Government 
Accountability Office (GAO) to completely clarify, going 
forward after this next continuing resolution, that you will 
have complete freedom to completely follow the Orion pursuit 
and the 2010 law that was passed for authorization.
    Madam Chairman, I do have another question, but----
    Senator Mikulski. Sure.
    Senator Hutchison [continuing]. I know other people are----
    Senator Mikulski. No, go ahead.
    Senator Hutchison. If you have a second round, if you want 
to go again----
    Senator Mikulski. Why don't you ask that question, and then 
we'll pick up----
    Senator Hutchison. Okay.
    Senator Mikulski [continuing]. If any members want a second 
round.

                    DISPOSITION OF ORBITER VEHICLES

    Senator Hutchison. I just want to go back to the law that 
was passed in 2010 regarding the disposition of the orbiter 
vehicles. And since Senator Brown suggested that maybe the last 
person you talk to might be the one that you listen to--I'm 
kidding, but, here's what it says: that the criteria should 
have priority consideration given to eligible applicants that 
meet all the other conditions, providing for the display and 
maintenance at locations with the best potential value to the 
public, including where the location of the orbiters can 
advance educational opportunities in science, technology, 
engineering, mathematics disciplines, and with a historical 
relationship with either the launch, flight operations, or 
processing of the space shuttle orbiters or the retrieval of 
NASA manned space vehicles, or significant contributions to 
human spaceflight.
    So, you know, that seems--I mean, if you go back to that 
priority consideration, it just seems to me that it would be 
very difficult to leave out both Houston and Florida. Now, I 
know you're getting ready to make the decision, but I think you 
have acknowledged that in the past, as well; I mean, when 
people think of our space shuttles, they think of Mission 
Control in Houston and the astronauts training in Houston, and 
they think of the cape where we launch.
    So, I just want to ask you--in your determinations, you're 
weighting these factors--how much is the historical 
relationship with, as the law says, flight operations, launch, 
et cetera, weighing in the factors that you're putting in your 
decision?
    General Bolden. Well, the 10 criteria that were used by the 
people that made the recommendations to me did not include the 
prioritization from the law. I was aware of it. And so, I think 
you will find when the announcement is made, that every place 
receiving an orbiter has a historical connection to human 
spaceflight. In fact, I think you will find that every one of 
them has a historical connection to the space shuttle.
    Senator Hutchison. So, the other----
    General Bolden. And that does not----
    Senator Hutchison [continuing]. Did not put that in----
    General Bolden. I'm not----
    Senator Hutchison [continuing]. But the priority of the law 
would prevail, correct?
    General Bolden. Yes, ma'am. We will comply fully with the 
law.
    Senator Hutchison. Thank you.
    Thank you, Madam Chairman.

                         CONTINUING RESOLUTION

    Senator Mikulski. Mr. Administrator, I want to come back to 
Senator Hutchison's questions about Orion, Constellation, et 
cetera. Here is--my suggestion is--sometime this week, we're 
going to pass the final continuing resolution for this year, 
and you'll be scrubbing what we've done, as I said, you know, 
on appropriations.senate.gov, et cetera. What I am going to 
suggest is that your staff review the legislation and the 
issues raised by Senator Hutchison, come back and brief the 
Senator's staff, and my own, just exactly where we are on this 
topic--and, of course, the Inouye and Cochran staff will always 
be present, at their pleasure. But, we want to make sure we all 
understand the same thing, and then identify if there's any 
further clarification language we need to do or anything else 
to look at this.
    Does this sound like good way to go?
    Senator Hutchison. I think----
    Senator Mikulski. Because I think there's confusion, right 
this minute, between the authorization which you are mandated 
to do and what might be some activities we do in continuing 
resolution.
    Senator Hutchison. I think, as much input as we can get and 
as much as we can work together, absolutely. I just believe, so 
much, that our goal was a balanced approach for manned 
spaceflight, and that we would have the commercial and the NASA 
experience working hand-in-hand, on a dual track, for the 
development of the next generation of vehicle. And that's what 
I'm trying to achieve. And I hope that it's what you're trying 
to achieve, because that's what we're trying to do in this 
continuing resolution and in the 2012 follow on budget. So----
    Senator Mikulski. Well, what I'm trying to approve is the 
policy goals----
    Senator Hutchison [continuing]. Any input is helpful.
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. That we have agreed upon 
through the authorization, with wise stewardship of Federal 
funds, which I think we're all committed to. And we are in an 
atmosphere of making every dollar count.
    General Bolden. Yes, ma'am.
    Senator Mikulski. So, we want every and all talent to 
count. I was so pleased, in your comments and in your opening 
statement, that you acknowledged the incredible talent that's 
at NASA. And I think we all share it. And a lot of people put a 
lot of hard work into that, so we don't want to throw out the 
ideas and what we can benefit from it. We don't want to waste 
any money through what was a good idea through a mandate once, 
but might no longer be a good idea.
    And then we're all obsessed with jobs, Mr. Administrator. 
And, as the shuttle winds down, people, as you know, are deeply 
concerned in Florida, people at all the centers are very 
worried about jobs. And I think what we're looking at is, how 
do we continue innovation jobs in the future? But, I think 
every member here is concerned about jobs today. So, we need to 
talk about that.

                        NASA CONTRACT MANAGEMENT

    But, I want to come back to a frugal Government and making 
dollars count. I know GAO has identified NASA contract 
management as they've got NASA on the high-risk list. In its 
annual review of large-scale NASA projects, GAO found that 
development costs for the 16 projects that have entered major 
development had grown nearly 15 percent. And that's not even 
with the JWST issue. Now, GAO has also told the subcommittee 
they're encouraged by NASA's corrective action plan to address 
flaws in acquisition management.
    So, here is my question. You're on the high-risk list; GAO 
says you're making progress. Our question to you is, what are 
you doing to make sure that NASA contract management is back on 
track implementing the GAO recommendations? And also, the last 
part of this question is, should we be moving away from cost-
plus contracting to fixed-price contracting, or is that just a 
cool gimmick? So, that's a lot. How do you get off the GAO 
high-risk list? What are you doing so that we feel confident 
about this? And then, if you've got thoughts, now, actually, on 
a new world order in contracting?
    General Bolden. Senator, I guess the first thing I would 
say is, in hoping to manage expectations, I doubt that NASA 
will ever be off the high-risk list from GAO, because 
everything we do is high risk. We do dangerous stuff, we do 
risky things and we take big challenges that nobody else can 
do. So, unfortunately, we do one of a kind type programs. So, 
we do things that have never been done before.
    However, being on the high-risk list, I can still make my 
program management better. We've established key decision 
points in every program that we do now. So, those are 
milestones that the program and project management have to take 
an assessment of: How are we meeting our cost and schedule 
goals? We look at life-cycle targets. We establish, at the 
outset of a program, how much we think it's going to cost to 
not just design a system, or design and build, but how much is 
it going to cost to operate that system?
    So, when we bring you an estimate for a system today, it's 
a life-cycle cost estimate, as we're trying to do with JWST and 
others. We instituted something called the Joint Confidence 
Levels (JCL), where we look at cost and schedule. And 
unfortunately, this came about in 2009, and it was right after 
JWST had been baselined. But, we have two examples, in Gravity 
Recovery and Interior Laboratory and Juno; both of them will 
fly by the end of this calendar year, and they are on target in 
every respect, because they went through the JCL process, the 
total life-cycle process. We're very confident that, when we 
say we're going to deliver, we're going to deliver. We use 
independent assessments that are based on earned value, and 
that's what we're doing now.
    We have retrained our program and project managers. We put 
them through a rigorous training course that they have to 
finish. One of the things it talks about is discipline, so if 
they're managing a science project, they learn how to say no 
when somebody says it would be a good idea to add one more 
experiment or a good idea to add one more instrument. So, we're 
going to de-scope a lot of missions that we have right now that 
just don't meet the smell test in this fiscally constraining 
time.

               COST-PLUS CONTRACTS--FIXED-PRICE CONTRACTS

    Senator Mikulski. Well, first of all, that's very 
encouraging. And we know you took the GAO flashing yellow 
lights very seriously.
    But, what did you think about my question about moving away 
from cost-plus contracts to fixed-price contracts?
    General Bolden. We would--in every----
    Senator Mikulski. And I'm not saying I advocate that.
    General Bolden. No, no, no, no I understand, ma'am.
    Senator Mikulski. I'm really soliciting your views.
    General Bolden. To the greatest extent possible, for the 
benefit of the Government, we would always prefer to have a 
fixed-price contract, where the Government signs a contract up 
front and follows its commitment to pay the contractor as they 
meet milestones. Because we do one-of-a-kind things, sometimes, 
when we're in a development program, or in the development 
phase of a program, a fixed-price contract might not be the 
most prudent thing to do. We may need a cost-plus contract 
until we get through the unknown, the uncertain part of the 
development cycle.
    Once we do that, you will go through multiple types of 
contracts over the life of a program while it's being 
developed, where you move from a cost-plus contract during the 
development phase to a fixed-price contract when you go into 
the final phases of production.

                      CONTRACTING AND ACQUISITION

    Senator Mikulski. Well, and it's not--today, we're not 
going to go into this, but we're really looking at contracting 
and acquisition----
    General Bolden. Yes, ma'am.
    Senator Mikulski [continuing]. In every one of the 
agencies, in our subcommittee. Not because we're going to break 
new ground; it must come through authorization and working with 
the executive branch. But, contracting, as we know it, I think, 
is going to be reviewed.
    You know, we make these--we sign up for a contract--what 
you said--``one of a kind, we do what nobody else does.'' But, 
the fact isit often takes 5 to 7 years to develop it; our 
mission changes or gets altered, politics change, and 
technology changes. And there we are, stuck with--not stuck, 
but in a track for a particular way and a particular cost and 
so on, and I'm not sure what's the best way to go.
    I do believe there are lessons learned that are going on in 
Defense, through Secretary Gates and Dr. Carter and his 
initiatives. They're not all applicable, but I think we need to 
be able to look at it.
    But, that's not for today. Today, we need to get that 
continuing resolution out on the Web, get it on both of our 
floors. Let's close out this year's 2011 appropriations and get 
a good direction on 2012.
    General Bolden. Yes, ma'am.
    Senator Mikulski. Senator Cochran, did you have any other 
questions, Sir?
    Senator Cochran. I do not. Thank you, Madam Chair.
    Senator Mikulski. Senator Hutchison, do you have any other? 
And then I'll----
    Senator Hutchison. I have four questions that I'd like to 
submit for the record and ask that you respond to. They're 
not--I don't need to ask them here, but they are just general 
questions that I'd like to ask you----
    General Bolden. Yes, ma'am.
    Senator Hutchison [continuing]. To respond to, that I'll 
give to the Chairman.
    Senator Mikulski. Senator Brown?

                       HUMAN-RATING REQUIREMENTS

    Senator Brown. Yes, thank you, Madam Chair. I have another 
couple of questions. Mr. Administrator, a study some time ago 
of 454 U.S. satellites found that fewer than 10 percent of 
spacecraft that complied with the military standard 1540B 
Qualification Test Program suffered failures, while more than 
60 percent, almost two thirds, failed when only one-half of the 
qualification tests were performed. Since then, in 2009, a NASA 
satellite was lost, as you know. And, just a month ago, another 
NASA satellite was lost.
    In the wake of the loss of these two, due to launch vehicle 
failures and the intent to utilize commercial crew in cargo 
launches for the ISS, my thoughts are of concern. First is for 
the safety of our astronauts and for the successful launch of 
supplies and critical hardware to orbit. What type of full-
scale environmental testing is NASA requiring now or going to 
require of the commercial companies to achieve certification 
for human spaceflight? And what sort of full-scale 
environmental testing are we planning to qualify our own MPCV 
and SLS vehicle? What are you planning?
    General Bolden. Senator, we are in the process of 
developing what we call human-rating standards. We actually 
have a series of 1,000 level NASA requirement documents that 
will deal with what stipulations a contractor has to meet in 
order to qualify to carry either our cargo or our crew members. 
As you said, my number one objective is the safety of our 
crews. So, we will not certify an industrial partner to carry a 
crew unless we're satisfied that they have met all of our 
safety requirements.
    If I look at Orion, almost all vehicles go through thermal 
vacuum testing, they go through vibration testing, they go 
through radiation testing to make sure they're radiation-
hardened and the like. So, any test that would have been 
required of, or will be required of, my MPCV, a commercial 
vendor will have to pass the same test or demonstrate that they 
have passed a like test, before we will put an astronaut on 
them, because we've got to be sure that they're safe.

                       PLUMBROOK TESTING FACILITY

    Senator Brown. What role do you envision Plum Brook playing 
in those testing of commercial and our vehicles?
    General Bolden. What would--I'm sorry?
    Senator Brown. What role do you envision Plum Brook playing 
in that?
    General Bolden. Well, it depends on the vehicle, itself, or 
the capability of the developer, the capability of the industry 
partner, to find another facility. I think you know, what Ray 
Lugo is doing as the center director at Glenn, is going out to 
industry and advertising the capabilities that we have at Plum 
Brook, just as Patrick Sherman is doing at Stennis. We are 
actively going out to industry and saying, ``Hey, we have the 
best facilities in the world. Please use our facilities.'' I 
envision that we may have some of those contractors wanting to 
bring their crew vehicles through Plum Brook for testing. It is 
the best facility that NASA has. I'm certain it's better than 
anything else they can come up with.
    The big thing we're trying to do is help them with their 
costs. Every facility that they don't have to build means more 
money to their shareholders. We promise that we will give them 
a reasonable price, but we do have to get back full value for 
the taxpayer. We don't have any sales.

                         GLENN RESEARCH CENTER

    Senator Brown. Right. Well let me ask one more question, 
Madam Chair.
    NASA Glenn has been leading the work for the Orion service 
module for Ares I upper stage electrical avionics and thrust 
vector control systems in the Ares V payload fairing. The work 
performed on these vehicles directly translates to the MPCV, to 
the MPCV, and the SLS as you know. In what specific way do you 
plan on utilizing NASA Glenn's heritage and proven expertise in 
these new MPCV programs and in SLS programs?
    General Bolden. I will have Ray Lugo get in touch with you, 
but I would venture to say, any work that Glenn was doing with 
Orion will be the same work that Glenn continues to do with the 
MPCV, whatever we call it. You know, they are small propulsion. 
They do ion engines, electric engines, and the like. So, those 
types of things that they were responsible for in the 
Constellation program, they will continue to be responsible for 
in any program that we do, going forward.
    If I go back to something that the chair mentioned: it is 
my hope that, within the week, we will be able to bring to the 
staff a report that I have received, that my senior management 
has been receiving incrementally now, on the MPCV--the plan for 
the plan, if you will--on the MPCV, the SLS, and 21st century 
launch complex. We have done incredible work. We have not been 
standing still. We've been doing this for almost a year now, 
and this is what supported our making the decision on the 
design reference vehicles. But, we're now ready to bring that 
to the committees so that you can get incremental looks at how 
we're progressing, so that you see that we are not stalling, we 
are not standing by, we're not wasting time nor money, that we 
have a plan, and that, if we are able to follow that plan, and 
that plan is sufficiently supported by budgets that we say we 
need, we will develop the best heavy lift launch system they 
have ever had and a deep space exploration vehicle that will do 
the things that we've all dreamed about up until now, but 
nobody's had the courage to do. So, we are going to do that. 
It's our desire to bring those reports to this subcommittee, to 
the staffs, at increments as we go along.
    Senator Brown. Thank you, Mr. Chairman.
    Thank you.

                     STS-134 SHUTTLE FLIGHT MISSION

    Senator Mikulski. Mr. Administrator, we know, in 2 weeks, 
there is going to be a historic flight. And one of our last 
shuttles will go into space. We know that Captain Mark Kelly 
will be leading that effort. And we hope, with God's good grace 
and American medical care, that Congresswoman Giffords can see 
this. I think the entire subcommittee, and really the entire 
Senate, really wishes them, through you, Godspeed. And we 
really hope that NASA continues to do what it does best. So, 
good luck to them. And----
    General Bolden. Thank you.
    Senator Mikulski [continuing]. May the force be with them.
    General Bolden. We really appreciate it.
    Senator Hutchison. Madam Chairman, could I add to that and 
say: I, too, am so looking forward to this, because it has a 
very poignant side to it, because of Captain Kelly and his 
wife, who we all are pulling so hard for to be able to come.
    But, also the spectrometer going up is such a big deal. 
This is the last major big piece of equipment that will be 
going, that has such enormous potential for the look at dark 
matter energy. And it was before one of the previous NASA 
Administrators, who said Dr. Ting, from MIT--who insisted that 
this was the one thing that we could do in microgravity that 
would be so important in the energy field. And Dr. Ting is a 
Nobel laureate, and we listened to him, and now his dream is 
becoming reality in this launch. So, it has so many important--
--
    General Bolden. Yes, ma'am.
    Senator Hutchison [continuing]. Historic and significant 
aspects to it. And I'm very excited about it as well, and 
looking forward to having that piece put in. And then our last 
launch on need mission, that is now going to be in June, we're 
very excited about doing the very last payload lifting that 
we're going to need to do until--we don't have an American 
capability, but we all want to----
    Senator Mikulski. No. But, we will.
    General Bolden. We'll get it to you soon.
    Senator, may I make one comment? Because I--just to help 
people put things into perspective.
    STS-134 is an incredibly critical mission. It's high 
profile. It's everything. I wear a bracelet for Gabby, because 
she's a personal friend. My number one objective, my number one 
goal, is making sure that our astronauts are safe. So, with all 
the high profile and everything, I want to keep all the 
pressure away from Captain Mark Kelly.
    Senator Mikulski. Right.
    General Bolden. Captain Mark Kelly is one incredible human 
being. He is also one incredible professional. He is a person 
who has garnered the respect and admiration of his crew and 
everybody in the astronaut office. So, I want everybody to 
understand, Captain Mark Kelly is focused on flying, and he is 
focused on making sure that his crew stays safe and carries out 
the mission, to the best of their ability. That's my goal, to 
make sure that I facilitate their success in doing that. I will 
try my best to shield them from everything else that's coming.
    It is an incredibly high-profile mission. But, we're going 
to do nothing any different than we did for STS-133 or STS-125 
or anything else. If we have a problem, we won't go. So, I just 
want everybody to understand there's not going to be any 
special anything for STS-134, other than, it will be incredibly 
special to have Gabby at launch, because, to me, it represents 
the triumph of good over evil. So, I think it's incredible for 
the country, if she's able to make it there.
    Senator Mikulski. Well, we share your emotion, we share 
your passion, and we share the hopes and dreams for this 
mission.
    General Bolden. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. If there are no further questions--
Senators may submit additional questions for the subcommittee's 
official record. We request that NASA respond within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Dianne Feinstein
                      launch capability and safety
    Question. I share your belief that we must engage our commercial 
space partners if we are to have a sustainable, fiscally responsible 
human space flight program in the years to come. This is especially 
true when we look at the costs and capabilities of the commercial and 
Federal rockets that were destined for low-Earth orbit (LEO).
    What has been the total cost to the taxpayer to build the Falcon 9 
(SpaceX), and how long did it take for the rocket to have a successful 
launch?
    What was the total cost to the taxpayer for the Constellation 
program and how long did it take to achieve a successful launch?
    Answer. The National Aeronautics and Space Administration (NASA) 
signed a Space Act Agreement with SpaceX for commercial cargo 
development services in August 2006 as part of the agency's Commercial 
Orbital Transportation Services (COTS) projects. The agreement with 
SpaceX established a series of technical milestones that would be paid 
by NASA once successfully achieved.
    In June 2010, the company's first maiden flight of its Falcon 9 
launch vehicle took place. (Note.--This flight was not covered by the 
COTS project milestones. The first demonstration flight under the COTS 
agreement with SpaceX took place in December 2010.) Therefore, the 
first maiden flight took place about 3 years after NASA signed an 
agreement with the company, with the presumption that SpaceX likely 
performed some initial design work on the Falcon 9 prior to the signing 
of the SAA with NASA.
    With regard to taxpayer investment in the Falcon 9, SpaceX has 
multiple sources of cash that fund its Falcon 9 and Dragon development 
activities. These sources include payments from commercial customers, 
other Government agencies, other NASA programs, private equity 
financing, bank lines of credit, interest income, and cash from company 
reserves.
    Although NASA does not have specific insight into the details of 
how NASA funds are being applied in SpaceX's company accounting system, 
in general, NASA's COTS agreement with SpaceX was specifically designed 
to help the company develop, demonstrate, and test the Falcon 9/Dragon. 
As of mid-May, NASA had paid SpaceX $298 million out of a potential 
$396 million for completing 25 of 40 negotiated SAA COTS milestones. 
Therefore, NASA is pleased that its investment to date has successfully 
helped support the development of both the Falcon 9 launch vehicle and 
the Dragon spacecraft and the ground infrastructure required for 
launch.
    Additionally, it should be noted that NASA's International Space 
Station (ISS) program has made payments to SpaceX totaling $466 million 
for work performed under the Commercial Resupply Services Contract with 
SpaceX, and also that NASA's Launch Services Program also has made 
payments to SpaceX. Therefore, it is possible and likely that some of 
these NASA funds also have been used for Falcon 9 development as well.
    As of April 2011, NASA had spent $12.9 billion on Constellation 
which includes funding for labor, infrastructure, acquisition, and 
development testing of hardware elements and software systems for all 
of the Constellation Projects Ares I and Ares V, Orion, Ground 
Operations, Mission Operations, EVA, etc. Therefore, drawing a direct 
comparison between SpaceX and Constellation's costs is a difficult task 
for several reasons: First, the SpaceX and Constellation transportation 
system are designed to support very different missions. The currently 
negotiated SpaceX milestones relate only to cargo transportation 
capability to the ISS and not crew transportation, whereas the 
Constellation architecture was being designed to provide crew and 
limited cargo transportation to the ISS, the Moon, and beyond. 
Therefore, the Constellation system was being designed as a complete 
human launch capability (ground ops, launch vehicle, crew capsule, 
etc.) Second, SpaceX and NASA use very different business models with 
regard to personnel, infrastructure etc. For example, NASA was 
utilizing heritage hardware and infrastructure to build the 
Constellation architecture, as directed by law, and the agency also was 
developing a transportation architecture that was designed to employ 
shuttle contractors to a great extent, thereby mitigating contractor 
workforce loss following the retirement of the shuttle.
    With regard to launches, the Constellation program, which was 
formally initiated in late 2005, did not achieve an orbital flight 
before it was canceled in 2011, but it had an active test program and 
had completed two key test flights prior to its termination, approved 
first by the NASA Authorization Act of 2010--the Ares I-X test flight 
in October 2009 and the Pad Abort I test for the Orion CEV on May 6, 
2010.
    Question. If the Heavy Lift Vehicle and MPCV were completed this 
year, could you send astronauts on missions to Mars? To Lagrange 
Points? Would these astronauts be safe from harmful radiation on a 
mission of this length?
    Answer. NASA does not anticipate being able to conduct a Mars 
mission until at earliest the 2030 timeframe with the threat of deep-
space radiation for crews during sustained human exploration beyond LEO 
needing to be resolved before such a mission could take place. NASA is 
continuing to conduct radiation research (both on the ground, and in-
space aboard the ISS) and architecture and engineering solutions are 
aimed at developing the solutions and countermeasures necessary to 
safely execute these missions. The radiation mitigation solutions are 
planned and phased, much like the other key challenge areas, to produce 
the necessary capabilities when they are needed in the capability 
driven framework. A Mars mission duration is the horizon goal given the 
extended time period, so it is accordingly phased. However, a Lagrange 
Point (Earth Moon L-1 for example) is much closer and is viable given 
the current exposure levels and state of the art in technology/science. 
Radiation will remain an important enabling area for long-duration 
human spaceflight beyond LEO.
                         constellation funding
    Question. Administrator Bolden, I recognize that we are here today 
to talk about the fiscal year 2012 budget, but there is still pressing 
work that must be done to complete the fiscal year 2011 spending plan. 
One issue I must raise is that the past six continuing resolutions have 
included a provision which prohibits your agency from cancelling any 
contracts related to the Constellation program. This program was 
terminated by both the Congress and the administration, but under these 
bills the NASA Inspector General says that the American people could be 
on the hook for $575 million in unnecessary costs.
    I want to give you an opportunity to share your thoughts with this 
subcommittee on how we can eliminate this waste, and where we should 
redirect this substantial amount of funding?
    Answer. Over the last year, due to provisions of the fiscal year 
2010 Consolidated Appropriations Act (Public Law, 111-117)--
restrictions that have since been rescinded in the fiscal year 2011 
Full-Year Continuing Appropriations Act , NASA was prohibited from 
terminating any Constellation contracts. As such, NASA continued to 
implement the Constellation Program and associated projects, while at 
the same time prioritizing Constellation funding on work that was most 
related to the SLS and MPCV, thus maximizing use of taxpayer dollars.
    When the inspector general's letter was issued on February 2, 2011, 
NASA agreed with its conclusion that said the Congress should take 
action as soon as possible to remove the limitations in the fiscal year 
2010 Consolidated Appropriations Act regarding the Constellation 
architecture; such action by the Congress would enable NASA to redirect 
funds more efficiently to the SLS and MPCV. Additionally, we were 
pleased that the inspector general had recognized that: ``NASA has 
taken steps to concentrate its spending on those aspects of the 
Constellation Program it believes many have future applicability, and 
that these efforts have helped to reduce the potential inefficient use 
of taxpayer dollars.''
    The attached white paper was developed in February 2011 to respond 
to queries from Members and staff about the inspector general letter 
prior to NASA having the authority to terminate unnecessary 
Constellation work.
    NASA is currently developing a plan for the orderly close out of 
Constellation activities, with the goal of completing transition and 
close out of Constellation early this fall.
    deformation, ecosystem, structure and dynamics of ice (desdyni) 
                           satellite program
    Question. I was deeply troubled to learn that the fiscal year 2012 
budget provides no funding for the DESDynI (pronounced ``destiny'') 
satellite program. This satellite would have provided NASA with 
unparalleled ability to monitor ground motion, and that capacity is 
critical to improving our understanding of earthquakes. This is not 
just my opinion, but the opinion of the National Academy of Sciences 
(NAS).
    If the earthquake in Japan taught us any lesson, it is that we do 
not understand these events nearly as well as we once thought. So I 
question if this is an appropriate time to cancel the DESDynI program.
    Administrator Bolden, how do you rationalize cutting this program 
given its high ranking in the NAS Decadal Survey and the clear need to 
improve our understanding of earthquakes?
    Answer. NASA's Earth science program studies a broad range of 
phenomena related to climate, weather, and natural hazards, including 
earthquakes. NASA strives to maintain a balanced portfolio across these 
areas that is responsive to national needs, and informed by 
recommendations from the National Research Council (NRC). To that end, 
NASA continues with concept design work on the DESDynI mission, a tier 
1 recommendation from the 2007 National Research Council's Earth 
Science Decadal Survey.
    In March 2009, after more than a year of collaborative study 
involving the engineering and scientific research communities, NASA 
made the decision to implement DESDynI as a two-spacecraft mission (one 
carrying a radar payload, and one a lidar, both in orbit at the same 
time). This approach allowed the mission to provide maximum science 
information in support of the solid Earth, ecosystems, and polar ice 
communities. This approach was reviewed positively (for science 
content/value) by the Earth Science Subcommittee of the NASA Advisory 
Council. In the context of the President's fiscal year 2011 budget 
request and the 2010 NASA Climate Initiative Plan, DESDynI was being 
studied and activities were ramping up to support a launch in late 
2017. The Climate Initiative Plan also includes launches of Aquarius in 
June 2011, the Orbiting Carbon Observatory-2 in February 2013, the Soil 
Moisture/Active-Passive mission in late 2014, the Orbiting Carbon 
Observatory-3 as an instrument of opportunity for flight in 2015, the 
Gravity Recovery and Climate Experiment (GRACE) Follow-On mission in 
2016, and the Surface Water-Ocean Topography and Active Sensing of 
CO<INF>2</INF> Emissions over Nights, Days, and Seasons missions in 
2019-2020. These other elements of the plan are funded in the fiscal 
year 2012 request, along with research activities in the Earth science 
program's Earth surface and interior focus area. These include crustal 
dynamics research conducted in coordination with United States 
Geological Survey to improve understanding of the forces that lead to 
earthquakes, volcanoes, and landslides.
    By early calendar year 2011, the two-spacecraft DESDynI mission is 
in Pre-Formulation and has successfully passed its formal Mission 
Concept Review.
    However, given the more constrained fiscal environment, NASA will 
be unable to move as aggressively as planned in the fiscal year 2011 
request to manifest DESDynI. The fiscal year 2012 budget request 
provides sufficient resources to engage potential international 
partners on the radar mission, and NASA will evaluate whether 
contributions from partners can allow development of the radar mission 
alone for launch near the end of the decade within the overall Earth 
Science Division budget constraints. In addition, during fiscal year 
2011-2012, NASA will work to identify an international contribution of 
the lidar portion of the mission.
                              nasa centers
    Question. I was greatly concerned to hear speculation about the 
closure of some small NASA Centers in response to budget cuts. NASA has 
three centers in California--Ames Research Center, Dryden Flight 
Research Center and the Jet Propulsion Lab--which provide more than 
7,000 highly skilled, high-salary jobs in my State. These Centers also 
provide unique capabilities such as wind tunnels and arc jet testing 
for the aerospace industry in my State.
    The prior NASA Administrator made a commitment to ``10 healthy NASA 
centers'' including those in California. Have you made or will you make 
that same commitment?
    Answer. NASA has remained committed to the sustainment of its 
current complement of nine Centers and the Jet Propulsion Laboratory, 
each carrying out its mission in a well-functioning, effective manner. 
NASA is working to achieve a balanced portfolio, with each Center 
enjoying a vibrant engagement in its distinct areas of innovation and 
strength to support the agency's missions in science, exploration, 
aeronautics, and technology development.
    Prior to enactment on April 15, 2011, of the fiscal year 2011 Full-
Year Continuing Appropriations Act (Public Law 112-10), NASA leadership 
stated before the Congress that the $298 million reduction to NASA's 
Cross-agency budget, proposed in H.R. 1, would have an operational 
impact to the agency equivalent to the shuttering of two small NASA 
Centers. This reduction did not pass and none of the NASA Centers were 
closed.
    In accordance with direction provided in the NASA Authorization Act 
of 2010 (Public Law 111-267), NASA is presently engaged in a careful 
examination of the agency's structure, organization and institutional 
assets, with the goal of identifying a strategy to evolve toward the 
most-efficient retention, sizing and distribution of facilities, 
laboratories, test capabilities and other infrastructure, consistent 
with NASA's missions and goals. The assessment of NASA's real property 
footprint at all of its Centers and facilities is also responsive to 
administration direction to executive departments and agencies 
regarding the disposal of unneeded and duplicative Federal real estate. 
As directed by Public Law 111-267, NASA will provide a report to the 
Congress on the results of its comprehensive study in fall 2011.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
     national aeronautics and space administration (nasa) education
    Question. NASA's fiscal year 2012 funding request for education 
totals $138.4 million. This request is $41.6 million less than enacted 
fiscal year 2010 levels and $7.4 million less than the authorized 
levels for fiscal year 2012.
    The NASA Space Grant and Experimental Program to Stimulate 
Competitive Research (EPSCoR) programs are particularly impacted. These 
science, technology, engineering, and mathematics (STEM) programs help 
a large number of students and historically have had a good return on 
NASA's investment. The NASA Authorization Act authorized space grant at 
$45.6 million and EPSCoR at $25 million for fiscal year 2012.
    Why is NASA proposing an almost 50 percent cut in combined funding 
for these two programs?
    Answer. NASA's Office of Education will focus its funds on existing 
commitments and grant renewals, continuation of scholarships, 
internships and fellowships, and activities that directly serve 
educators, students, and the general public. The decrease will be 
managed by reducing the number of new grant awards and seeking 
operational efficiencies (e.g., increased use of education 
technologies, reduction in printing/warehousing/shipping costs, 
reducing travel, coordinating solicitations).
    NASA's requests for Space Grant and EPSCoR funding have been 
relatively consistent for several years. The President's budget request 
for fiscal year 2012 reflects the need to develop a balanced education 
portfolio for the agency that supports its efforts in higher education, 
K-12 student and teacher programs, and informal education.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                             Program                               2010 PBR \1\      2011 PBR        2012 PBR
----------------------------------------------------------------------------------------------------------------
Space grant.....................................................            28.4            27.7            26.5
EPSCoR..........................................................              10             9.3             9.1
----------------------------------------------------------------------------------------------------------------
\1\ In fiscal year 2010, NASA's Office of Education was appropriated additional funds to support increases to
  the budgets of these two projects.

    We will make internal adjustments to the fiscal year 2011 Education 
portfolio in order to comply with the law as mandated.
    Question. What is NASA's commitment to Space Grant and EPSCoR?
    Answer. NASA remains committed to both Space Grant and EPSCoR. NASA 
initiated the National Space Grant College and Fellowship Program 
(Space Grant) in fiscal year 1989. Space Grant is a national network 
that expands opportunities for students, educators, and faculty to 
understand and participate in NASA's aeronautics and space projects. 
Space Grant is now composed of 52 consortia in 50 States, the District 
of Columbia, and the Commonwealth of Puerto Rico. Space Grant leverages 
the resources of more than 900 affiliates from universities, colleges, 
industry, museums, science centers, and State and local agencies. Space 
Grant supports and enhances science and engineering education and 
research efforts in higher education, K-12, and informal education. 
NASA establishes training grants with each consortium, aligning 
consortium work with the education priorities and the annual 
performance goals of the agency.
    EPSCoR develops academic research enterprises that are long-term, 
self-sustaining, and nationally competitive by supporting States with 
modest research infrastructure so that they become more competitive in 
attracting non-EPSCoR funding. Funding is competitively awarded to lead 
academic institutions (in eligible States) to foster research and 
technology development opportunities for faculty and research teams. 
NASA actively seeks to integrate the research conducted by EPSCoR 
jurisdictions with the scientific and technical priorities being 
pursued by the agency. These scientific and technical priorities are 
established and evaluated by the agency's Office of the Chief 
Technologist and Mission Directorates. NASA's commitment to EPSCoR will 
be strengthened through alignment with the agency's new Space 
Technology Roadmaps.
                     technology development program
    Question. In the late 1990s and early 2000s, NASA had a significant 
emphasis on developing game-changing technologies. That era brought 
such developments as National Aerospace Plane (NASP), X-33 and X-34 
experimental Single Stage to Orbit (SSTO) Vehicles, and RS-84 LOX/RP 
engine, to name a few. These programs resulted in NASA spending 
billions of dollars without a single successful development. In the 
current budget submission you have a similar Technology Development 
Program with more than $1 billion of funding.
    What is different in NASA's current Technology Development Program 
that gives us confidence it is not a repeat of past failures?
    Answer. During SSTO initiatives, NASA learned that developing new 
launch vehicles using unproven subsystems will increase the overall 
risk of the mission. Additionally, when major technology development 
embedded within the development of a new vehicle, the schedule is 
longer and the cost is greater. This conclusion was outlined in March 
2009 testimony before the House Science Subcommittee by a Government 
Accountability Office (GAO) representative who described GAO's analysis 
of 13 NASA flight projects in the implementation phase. In this project 
phase, systems design is completed, scientific instruments are 
integrated, and the flight system is fabricated and prepared for 
launch. Prior to entering the implementation phase, it is standard NASA 
practice to have finalized requirements, concepts and technologies and 
establish a baseline project plan. Of the 13 NASA projects in the 
implementation phase assessed by the GAO, 10 projects experienced 
significant cost and/or schedule growth from their project baselines. 
Of the five causes of cost and/or schedule growth cited by the GAO, two 
issues pertained directly to technology development risk: technology 
immaturity and modifications required to previously considered heritage 
items. The common symptom of these two causes is a technological 
readiness considerably below that estimated by the project. The GAO 
report concludes, ``Simply put, projects that start with mature 
technologies experience less cost growth than those that start with 
immature technologies.''
    The Space Technology Program was formulated to mature the 
technologies required for NASA's future missions outside the major 
vehicle development programs. By advancing technology prior to vehicle 
development, space technology allows for NASA's future projects to take 
an acceptable level of risk, resulting in a more stable portfolio. 
Space technology is not developing vehicles as the former Office of 
Aerospace Technology (late 1990s and early 2000s) attempted. In 
contrast to the NASP, X-33 and X-34 programs, space technology's 
approach is similar to the approach NASA used in the Apollo era where 
it was conceiving Apollo technologies while developing/testing the 
Gemini hardware and flying the Mercury missions. NASA space technology 
funding will be spent to advance and mature critical subsystems through 
concept, design and testing. When proven, these technologies will be 
baselined for NASA's future missions, enabling greater capability and 
reducing the risk and cost of NASA's future missions.
    As a specific example, consider the X-33. In this program, NASA 
attempted to test multiple conceptual technologies within a new vehicle 
design. One of these technologies was a conformal, composite, cryogenic 
tank that would reduce the amount of fuel required to reach orbit, thus 
reducing the cost per launch. Unfortunately, the X-33 composite 
cryotank had manufacturing challenges that delayed the rest of the X-33 
test program, increasing program cost significantly. NASA chose to 
cancel the X-33 program, in part because the design and manufacturing 
process of the cryotank prevented this technology from being matured to 
flight readiness status. In today's space technology model, NASA would 
focus on maturation of the composite cryotank and other technologies 
before trying to incorporate them into the X-33 design. This approach 
prevents a single technology from holding up an entire integrated 
vehicle. Since the cancellation of X-33, NASA has had some success in 
composite cryotank tests conducted at the Marshall Spaceflight Center 
(in 2004). Industry and academia have also made measurable progress in 
separate efforts. Unfortunately, due to limited and uncoordinated 
investments, NASA and the aerospace industry have not been able to 
fully mature this important technology in time to incorporate into 
current vehicle plans. Through the Space Technology Program, the agency 
will invest in this critical technology so that when it is mature it 
may be incorporated into future missions including future incarnations 
of the Space Launch System (SLS) and planetary landers.
    Question. Please describe exactly what projects will be pursued 
under this program and why they are a vital need for taxpayer 
expenditures?
    Answer. The fiscal year 2012 budget request for space technology 
provides a modest increase above the level projected in the NASA 
Authorization Act of 2010, consistent with the administration's 
priority on Federal investments in research, technology, and innovation 
across the Nation. These investments are critical for the agency's 
future, our Nation's future in space, and our Nation's technological 
leadership position in the world. Expanding this program is not only 
required to enable NASA's future missions in science and exploration, 
but doing so will build our Nation's economic competitiveness and 
create high-tech jobs. As noted by the National Research Council in 
numerous reports, NASA needs to make maturing transformative, high-
payoff technologies a high priority if we are to see reductions in the 
cost and risk of the agency's future missions. While the request is 
above the authorized level for fiscal year 2012, NASA believes this 
amount is critical, and this is a top agency priority.
    Within the fiscal year 2012 budget request, NASA has integrated 
management responsibility of two technology development programs 
included in the NASA Authorization Act under the Office of the Chief 
Technologist. In fiscal year 2012, funding for the Space Technology 
Program is proposed at approximately 5 percent of the administration's 
$18.7 billion request for NASA. As defined in the fiscal year 2012 
budget request, the Space Technology Program consists of three major 
components, two of which are well-established. These three components, 
as listed in Table 1, are:
  --the Small Business Innovative Research (SBIR)/Small Business 
        Technology Transfer (STTR) program and related technology 
        transfer and commercialization activities (fiscal year 2012 
        request: $284 million) funded in fiscal year 2010 and earlier 
        through NASA's Innovative Partnership Program;
  --a majority of the Exploration Technology Development and 
        Demonstration activities (fiscal year 2012 request: $310 
        million) funded in fiscal year 2011 and earlier in the 
        Exploration Systems Mission Directorate (ESMD); and
  --the Crosscutting Space Technology Development activities, initially 
        proposed as part of the President's fiscal year 2011 request 
        (fiscal year 2012 request: $430 million). All components of 
        space technology have been carefully formulated over the past 
        year, and have deep roots in technology development approaches 
        NASA has successfully pursued in previous years.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        


                                                 TRACE OF FISCAL YEAR 2012 SPACE TECHNOLOGY CONTENT \1\
                                                                (In millions of dollars)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                            Fiscal year                     Fiscal year
                                                                            Fiscal year        2012         Fiscal year        2012
                                            Fiscal year     Fiscal year        2011        Authorization       2012        Authorization    Fiscal year
                                           2010 enacted     2010 actual    Authorization  Act (in fiscal   Authorization  Act (in fiscal     2012 PBR
                                                                                Act          year 2012          Act          year 2012
                                                                                            structure)                      structure)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Innovative Partnerships Program.........           175.2       123.8 \5\  ..............           175.2  ..............           175.2             284
Crosscutting Space Technology             ..............  ..............  ..............           174.8  ..............           310.8             310
 Development............................
                                                     152           151.4  ..............             162  ..............             310             310
Exploration Technology Development......           152.0           151.4  ..............  ..............  ..............  ..............  ..............
                                         ---------------------------------------------------------------------------------------------------------------
      Total.............................           327.2           275.2             600             512           923.3             796         1,024.2
                                         ===============================================================================================================
                                                82.6 \4\        87.2 \4\  ..............          88 \4\  ..............       127.3 \4\       127.3 \4\
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Space technology content as defined in President's fiscal year 2012 request (inclusive of the SBIR/STTR program and related innovation, technology
  transfer, and commercialization activities funded in fiscal year 2010 through NASA's Innovative Partnership Program, a majority of the Exploration
  Technology Development and Demonstration activities funded in fiscal year 2010 in the Exploration Systems Mission Directorate, and the Crosscutting
  Space Technology Development activities initially proposed as part of the President's fiscal year2011 budget request).
\2\ IPP merged into Space Technology in fiscal year 2011. IPP fiscal year 2010 enacted levels are shown in fiscal year 2011 and fiscal year 2012
  Authorization Act split.
\3\ Sum of fiscal year 2010 ETDP and planned fiscal year 2011 ETDD efforts that are planned to move to space technology in fiscal year 2012.
\4\ AES content requested within ESMD in fiscal year 2012; not included in space technology total. Only includes Technology Infusion Projects; ISS
  Research ($46.8 million) not included in this total.
\5\ SBIR/STTR transfer ($51.7 million) to SMD with planned payback due to 1-year appropriated funds.

     deg.Table 1.--Fiscal year 2012 space technology content integrates 
the long-standing efforts of NASA's Innovative Partnership Program, 
Exploration Technology Development Program, and the crosscutting space 
technology activities first proposed in NASA's fiscal year 2011 budget 
request.
    Relative to fiscal year 2010 enacted levels, an increase of $109 
million is requested for the SBIR/STTR and related innovation, 
technology transfer, and commercialization activities formerly 
associated with the NASA Innovative Partnership Program. Small 
businesses have generated 64 percent of net new jobs over the past 15 
years. A significant fraction of this increase is targeted for the 
small business community, directly fueling the number of high-tech jobs 
that small businesses create in America. Additional funds are also 
planned to expand NASA's efforts in transferring and commercializing 
NASA-developed technologies into the private sector.
    Relative to fiscal year 2010 enacted levels, an increase of $158 
million is proposed for Exploration Technology Development activities 
formerly budgeted within ESMD. This increase is consistent with the 
authorization act. This component of space technology funds activities 
largely at the NASA Centers that are critically focused on NASA's 
beyond low-Earth orbit (LEO) exploration priorities. In order to meet 
the exploration goals established in the NASA Authorization Act of 
2010, NASA needs to develop the mission-specific capabilities required 
for its future exploration missions. Exploration technology development 
investments will benefit future adaptations of the Multi Purpose Crew 
Vehicle (MPCV) and the SLS and form the basis for the in-space 
transportation systems required for deep space exploration.
    Relative to the NASA Authorization Act of 2010, an increase of $120 
million is requested for NASA's Crosscutting Space Technology 
Development activities. Focused on broadly applicable, high-payoff 
technology that industry cannot tackle today, NASA's Crosscutting Space 
Technology Development activities mature the technology required for 
NASA's future missions in science and exploration while proving the 
capabilities and lowering the cost of other Government agency and 
commercial space activities. As evidenced by more than 1,400 Requests 
for Information responses, more than 300 external participants at the 
July 2010 Industry Day Forum, and a relatively large number of letters 
and opinion editorials, there is a large community of innovators 
throughout the Nation interested in working with NASA on Crosscutting 
Space Technology Development activities. Consistent with the NASA 
Authorization Act of 2010, these efforts are guided by a strategic set 
of technology roadmaps, available today in draft form and presently 
under review by the National Research Council (NRC). The NRC's final 
report from external review of the draft NASA Space Technology Roadmaps 
is scheduled for release in January 2012 (with a preliminary report 
scheduled for September 2011) in time to guide the fiscal year 2012 
space technology competition-based acquisition process.
    NASA has identified a series of ongoing, high-priority, mission-
focused space flight technology development activities, led by the NASA 
Centers, to address known capability gaps and deficiencies to achieve 
the science and exploration goals set by the Congress in the NASA 
Authorization Act of 2010. Each of these technologies, once matured, 
will reduce mission cost and risk. As an example, in fiscal year 2011, 
the following ongoing technology activities have been prioritized:
      Spacecraft Servicing.--Continuing the ongoing development of 
        robotic satellite servicing technologies such as end effectors, 
        refueling systems, autonomous rendezvous and docking sensors 
        and algorithms and tools, enabling robotic and human 
        exploration mission architectures and demonstrating the 
        commercial utility for servicing satellites.
      Optical Communications.--Continuing the fiscal year 2010 effort, 
        an advanced ground receiver and designs for flight hardware 
        capable of providing a high-bandwidth downlink will be 
        developed, enabling future beyond LEO exploration.
      Composite Cryotanks.--Continuing fiscal year 2010 efforts, large-
        scale (5 meters and up to 10 meters in diameter) composite 
        cryogenic propellant tanks will be developed and tested, 
        decreasing the mass of future enhancements to the SLS and other 
        in-space systems (e.g., lander systems).
      Inflatable Aerodynamic Decelerators.--Continuing fiscal year 2010 
        efforts, develop and demonstrate hypersonic inflatable 
        aeroshell technology suitable for an ISS down-mass capability 
        and deep space exploration, and supersonic decelerator 
        technology suitable for future Mars missions.
      Space Robotics, Propulsion, and Autonomous Systems.--Continuing 
        fiscal year 2010 efforts, advance robotics technology 
        amplifying human productivity and the effectiveness of human-
        robot teams, test nano-propellants, and develop advanced 
        propulsion technologies increasing the performance of future 
        launch and in-space systems, and mature autonomous space system 
        capabilities.
      Space Flight Technology ISS Demonstrations.--Microgravity fluid 
        dynamics and materials characterization testing on the ISS 
        providing data to aid in the design of propellant management 
        devices and structures of future in-space systems.
      Commercial Reusable Suborbital Research.--Continuing fiscal year 
        2010 efforts, flight demonstration tests of at least two 
        commercial reusable suborbital vehicles and development and/or 
        integration of at least four suborbital technology payloads to 
        stimulate the emerging commercial reusable suborbital research 
        industry.
    These ongoing activities as well as those projects currently 
managed by ESMD in exploration technology will continue to be funded in 
fiscal year 2012 through space technology. In addition to these agency 
priorities, NASA will competitively award, high-priority space flight 
technology development activities that engage the NASA Centers, 
industry and academia in reducing the risk and/or cost of NASA's future 
space flight missions. A limited number of competitively selected 
awards are anticipated in fiscal year 2011 for the Space Technology 
Research Fellowships, NASA Innovative Advanced Concepts, Game Changing 
Development and Technology Demonstration Missions solicitations. 
Spaceflight technology development projects focus upon key agency 
technology priorities identified in recent human spaceflight mission 
architecture studies, benefiting future enhancements of the SLS and 
MPCV and forming the basis for some of the additional spaceflight 
systems required for beyond LEO exploration. In some cases, these same 
activities will mature capabilities that are also required for future 
Science missions identified in NRC decadal surveys. These activities 
have deep roots in technology development approaches NASA has 
successfully pursued in previous years.
    Question. In the current time of needed spending cuts and fiscal 
constraint, does it make financial sense to spend more than $1 billion 
on far-in-the-future projects that may never be realized or could that 
money be better spent on current programs with tight budgets?
    Answer. Space technology is the central NASA contribution to the 
President's revitalized research, technology, and innovation agenda for 
the Nation. These investments will produce cutting edge technological 
advances within 1-3 years, making dramatic improvements in technology 
areas such as propulsion, cryogenic storage, closed-loop life support, 
and avionics that could reduce the cost of future space missions by up 
to 80 percent. As an integral component of its Space Technology 
efforts, NASA plans to invest in small business innovative research and 
technology development--money that will directly fuel the number of 
jobs that small businesses create in America. Small businesses have 
generated 64 percent of net new jobs over the past 15 years, leading 
the innovation push into the future.
    Not only do these technologies benefit NASA's line of work, but 
NASA's research and development has also been shown to stimulate new 
business lines that create future jobs. This is validated in ``Rising 
Above the Gathering Storm: Energizing and Employing America for a 
Brighter Economic Future'' by the Committee on Prospering in the Global 
Economy of The 21st Century, chaired by Norman R. Augustine. NASA has 
provided numerous achievements in the fields of aeronautics, 
electronics, computers, aerospace systems, health technology, imaging 
detectors, telescopes, and high-performance materials, for example. 
These technologies for NASA's science and engineering achievements are 
transferred into the Nation's economy through industries that apply 
them in innovative ways. The Augustine Committee reported that research 
and development investments, like those that NASA's missions require, 
have ``social rates of return from 20-100 percent, with an average of 
50 percent.''
    We recognize the important work the Congress is undertaking to 
simultaneously balance the Nation's checkbook, stimulate job growth and 
maintain our global competitiveness. The President's fiscal year 2012 
budget request for space technology is consistent with NASA 
Authorization Act of 2010 and the administration's priorities on 
Federal investments in research, technology and innovation across the 
Nation. A renewed technology emphasis balances NASA's long-standing 
core competencies of research and technology, spaceflight hardware 
development, and mission operations. With commitment from the Congress, 
the investments outlined in NASA's fiscal year 2012 budget request for 
space technology could yield many thousands of jobs in this country 
making this an ideal time to increase our investment in these 
activities. The creation of new products and services, new business and 
industries, and high-quality, sustainable jobs will attract bright 
minds into educational and career paths in STEM, adding to the Nation's 
technological leadership and leaving a lasting imprint on the economic, 
national security, and geopolitical landscape. Through these 
technological investments, NASA and our Nation will remain at the 
cutting-edge while advancing technology components NASA needs to reach 
our exploration objectives.
                                 ______
                                 
              Questions Submitted by Senator Sherrod Brown
                 unpublished test requirements document
    Question. In the Commercial Crew Transportation System 
Certification Requirements for National Aeronautics and Space 
Administration (NASA) Low Earth Orbit Missions (ESMD-CCTSCR-12.10) 
document (dated December 2010), you cite MIL-STD-1540E, ``Test 
Requirements for Launch, Upper-Stage, and Space Vehicles'' as a fully 
applicable document. As of this time, MIL-STD-1540 rev E has not been 
published. How is an unpublished document capable of being fully 
applicable to Human Rating Standards? In the absence of the actual 
document, to what standard are the CCDev/CCDev2-developed vehicles 
being held?
    Answer. The National Aeronautics and Space Administration (NASA) 
expected the MIL STD-1540 E to be released in December 2010 which is 
why it was included in ESMD-CCTSCR-12.10. NASA has since evaluated the 
SMC Standard SMC-S-016 (2008) and found this published document to be a 
more comprehensive test document that covers the content of MIL STD-
1540 E.
    ESMD-CCTSCR-12.10 is planned to be revised later this year. The 
revision will reflect SMC-S-016 (2008). References to MIL-STD-1540E 
will be deleted. NASA draft requirements documents were provided to 
CCDev/CCDev2 participants for consideration in developing their system 
concepts; however, NASA is not imposing requirements or standards on 
participants as part of the CCDev/CCDev2 activity.
          feasibility of developing commercial crew capability
    Question. The Aerospace Corporation recently published a 
feasibility study for Commercial Crew which was highly critical of 
NASA's current plans. In fact, it stated that given the current 
assumptions, development and operations of commercial crew capability 
may cost NASA $10 billion-$20 billion for one viable commercial crew 
provider, and still result in prices per seat of two to three times as 
much of current foreign-based alternative access options. What is your 
response to this?
    Answer. The Aerospace analysis referenced is this question is one 
of many analyses about the business case for commercial crew that have 
been generated over the years. However, NASA believes the Aerospace 
analysis cannot be used for assessing the commercial crew business case 
or potential costs for crew launches because any definitive analysis of 
the business case for commercial crew must come from the companies 
themselves, not from NASA or the Aerospace Corporation, and such 
analysis must surely include proprietary, realistic data inputs from 
the companies themselves.
    Aerospace has recognized the limitations of its hypothetical-based 
analysis with the following statement which they released publicly in 
April 2011:

    ``The intent of this report was not to pass judgment on the 
economic feasibility of a commercial crew transportation provider, but 
rather to illustrate the ability of the tool to conduct parametric 
sensitivity studies . . . The results shown to NASA and Congress 
recently were not intended to represent any specific real-world 
scenario. We modeled a scenario utilizing data from as long as 10 
months ago in order to demonstrate the tool's viability, not the 
viability of any specific commercial crew transportation system.''

    When conducting its analysis, Aerospace developed its own model 
inputs regarding things such as cost, schedule, and price of launch 
services rather than asking NASA or companies for inputs for the 
Aerospace analysis. Thus, Aerospace's report was based on hypothetical 
versus real-world inputs from potential commercial crew providers.
           earth departure stage (eds) and lander development
    Question. Development of Orion is potentially continuing as Multi 
Purpose Crew Vehicle (MPCV), so crew capability to some destination 
beyond low-Earth orbit (LEO) is still being developed. Planning and 
budgeting for the Space Launch System (SLS) has begun. But there is no 
money in the budget--now or in the near future--to plan for or develop 
an EDS or a lander. What is your plan regarding both of those vehicles 
which are necessary to reach whatever final destination is chosen?
    Answer. NASA architecture studies are ongoing and consistent with a 
capabilities driven framework. These analyses include plans for an 
Upper Stage, Cryo Propulsion Stage (CPS), or EDS, as well as landers of 
various types and configurations, based upon the destination 
requirements. Commonality assessments are also being done to ascertain 
whether common components, subsystems, or systems can be used across 
the portfolio. NASA is currently studying whether the SLS Upper Stage 
can be the same as the CPS or EDS, depending upon performance and 
mission requirements. By assessing commonality and basic system 
architectures now, NASA can further evaluate and plan for leveraged 
development and production, as well as, reduced risk and increased 
economies of scale benefits for these other critical systems and 
elements. Focused technology development activities in both the 
Advanced Exploration Systems (AES) within the Exploration Systems 
Mission Directorate and the Space Technology Program are planned 
consistent with the architecture and capability priorities. Finally, 
ongoing dialogues with the international and interagency communities 
are continuing to explore potential cooperation areas for key systems 
or potentially entire elements for these systems.
    In the meantime, while planning for SLS and MPCV continues, our 
civil servants across the agency should feel confident that there is 
exciting and meaningful work for them to do following the retirement of 
the shuttle and the transition from Constellation, and the shift from 
assembly of the ISS toward ISS operations. Turning our focus toward a 
more capability-driven exploration architecture will offer far-ranging 
opportunities for our creative and skilled civil servant workforce 
across the agency. There will be opportunities for them to apply their 
cross-cutting talents to new challenges such as developing and 
demonstrating prototypes for human capabilities needed for beyond-LEO 
exploration. Here are just a few examples of enabling capabilities that 
must be developed before we can send crews beyond LEO--work that will 
be managed by our new AES program:
  --Developing a ground-based test bed for demonstrating life support 
        systems needed to enable long-duration crewed missions based on 
        lessons learned from operation of the life support systems 
        currently in use on the ISS;
  --Developing and testing components for an advanced spacesuit to 
        improve the ability of astronauts to assemble and service in-
        space systems, and to explore the surfaces of the Moon, Mars 
        and asteroids;
  --Developing design concepts for future space exploration vehicles 
        and deep-space habitats; and
  --Conducting ISS and ground-based analog testing to validate 
        operational concepts for long-duration missions.
    We have already employed this teaming approach quite successfully, 
as exemplified by the NASA in-house efforts with Robonaut2 (R2), which 
was delivered to the ISS on the last space shuttle flight. This robot 
was developed in partnership by a joint NASA-General Motors team. 
Another example is the Lunar Electric Rover, which is a pressurized 
surface rover to provide astronaut mobility for exploring a planetary 
body in a shirtsleeve (or nonspacesuit) environment. The prototype, 
developed at low-cost, has already been demonstrated and matured 
through field testing at sites on Earth that resemble the lunar 
terrain, for example. The rover, along with some of NASA's astronauts, 
also participated in President Obama's Inaugural Parade. In sum, both 
of these examples highlight the substantial benefit we will continue 
harnessing from our highly creative, competent and mission-focused 
workforces across the agency and at all centers.
 collaboration with the federal aviation administration (faa) and the 
                             u.s. air force
    Question. NASA, FAA, and the Air Force Research Laboratory (AFRL) 
held a productive technical conference at Wright-Patterson Air Force 
Base to examine safety issues behind the integration of Unmanned Aerial 
Systems into the National Airspace System (NAS). What were the major 
outcomes and what plans do you have to continue this work with FAA and 
the AFRL?
    Answer. The workshop explored the potential of the Unmanned 
Aircraft Systems (UAS) mission, together with the research and 
development (R&D) capabilities and plans of the organizations involved 
in addressing UAS access to the NAS. In designing the workshop, NASA, 
FAA, and AFRL established three primary objectives. The first was to 
identify the set of technical issues that must be resolved in order to 
ensure safe and consistent UAS operations in future airspace. The 
second objective was to catalog current R&D activities by each 
represented Government agency and identify gaps not currently being 
addressed. The third objective was to identify areas where joint 
demonstrations can advance progress toward UAS integration more 
effectively than single-agency efforts.
    The workshop was divided into three technical teams:
  --Air vehicles;
  --Sense and avoid and communications; and
  --Human factors and ground control station.
    The teams focused their efforts on supporting R&D requirements for 
2018 and beyond in order to achieve UAS integration and operations into 
the next generation airspace. Each track identified major ``long 
poles'' or critical technical challenges, as well as technology gaps, 
which are currently impeding routine UAS access to the NAS. These were 
reported at the conclusion of the meeting.
    Since the workshop, a plan has been developed by the member 
agencies of the Joint Planning and Development Office to establish a 
Research, Development and Demonstration (RD&D) Roadmap (referred to as 
the UAS Research Management Plan [RMP]) to guide the multi-agency work 
and cross-collaboration. Four tracks have been established to work the 
issues with representatives from key stakeholder agencies (NASA, 
Department of Defense, FAA, and Department of Homeland Security) 
participating as appropriate:
  --Ground control station human factors;
  --The unmanned vehicle;
  --Airspace operations; and
  --Communications.
    In order to build the Risk Management Program, the partner agencies 
have formed Technical Tracks, in which senior research managers from 
each agency work together to:
  --Identify the most critical technology and policy issues (R&D needs 
        and challenges), taking into account UAS ConOps provided by the 
        partner agencies.
  --Identify current and planned RD&D activities by the partner 
        agencies.
  --Indicate the dates when series of activities are initiated and 
        completed (on and off ramps).
  --Identify linkages between these activities including dependencies 
        in terms of entry criteria (prerequisites) and exit criteria 
        (minimum required deliverables).
  --Provide estimates of activity costs where such information is 
        available and publicly releasable.
  --Identify current plans or strong opportunities for interagency 
        joint R&D or demonstrations.
    This initial UAS RMP will be completed by the end of fiscal year 
2011 and will provide the path forward for collaborative UAS research, 
development, and demonstrations across relevant Federal agencies. This 
will be the basis for a more comprehensive plan involving industry, 
academia, and other government agencies to ultimately provide routine 
UAS access to the NAS.
    Question. Both NASA and the Air Force conduct research in 
aeronautics and space, and there is a long history of NASA and the Air 
Force working together on problems of mutual concern. Now, in an era of 
particularly tight budgets, it becomes even more important for these 
agencies to work together. Please describe your plans to work closer 
with AFRL in both aeronautics and space. In particular, can both the 
Air Force and NASA support the commercialization opportunities of the 
other?
    Answer. NASA and the Air Force have opportunities to collaborate in 
specific programs as well as general collaboration in the 
commercialization of technology emerging from their respective 
agencies. At the NASA Center level, there are areas of technology 
development including propulsion, power generation and energy storage, 
alternate fuels, remote sensing, communications, robotic and UAV 
operations, sensor technology, advanced battery development, human 
factors R&D, advanced materials development, imaging technology, 
hypersonics, subsonic fixed wing research, and technologies associated 
with improving the environmental footprint of existing and future 
aircraft etc., that have corollary applications for Air Force mission 
operations as well as terrestrial commercial applications.
    In terms of collaboration with Air Force management, NASA Chief 
Technologist Dr. Robert Braun met with the Air Force Chief Scientist 
Dr. Mark Maybury to discuss strategic plans and possible synergies 
between our S&T programs. NASA's Office of the Chief Technologist (OCT) 
cross-walked the draft NASA Space Technology Roadmap technology needs 
with the ``Air Force Report on Technology Horizons--A Vision for Air 
Force Science and Technology During 2010-2030'' and identified about 80 
potential collaboration areas. NASA is currently identifying the top 15 
areas for collaboration, and will ask the Air Force Chief Scientist and 
the Deputy Assistant Secretary of the Air Force for Science and 
Technology to identify their top 15. In addition, NASA's OCT and the 
AFRL are looking into possible collaboration for technological 
development or demonstration in the areas of solar electric propulsion, 
hydrocarbon boost, and space access.
    These activities build on ongoing partnerships between NASA and 
AFRL. The joint NASA/AFRL/FAA Commercial and Government Responsive 
Access to Space Technology Exchange (C/RASTE) is specifically designed 
to help with commercialization opportunities. The third annual C/RASTE 
meeting will occur in October 2011 in Atlanta, Georgia. NASA and AFRL 
have also partnered to gather industry input from 32 commercial firms 
and develop a roadmap of technology priorities of interest to industry 
for developing commercial reusable launch vehicles. As our partnership 
strengthens, we anticipate that NASA and the Air Force will mutually 
support the significant commercialization opportunities for our 
respective assets, expertise, and technology.
    In the area of aeronautics, collaborative efforts exist between 
several NASA research centers (Ames, Dryden, Glenn, and Langley) and 
both the AFRL and the Office of Scientific Research. Many of the 
aeronautics technologies (hypersonics, subsonic, fixed wing, etc.) have 
military applications as well as potential civil applications, both of 
which could lead to commercialization opportunities. Collaborative 
opportunities are identified and discussed at various levels (between 
technical/engineering peers as well as project/program/senior 
management) and in a number of different venues. In particular, NASA 
and Air Force leadership regularly meet as members of the NASA/Air 
Force Executive Research Committee and the Versatile, Affordable, 
Adaptable Turbine Engine Steering Committee to assess research 
accomplishments and challenges, current activities, and future 
collaboration plans. In addition to these research collaborations, 
through the National Partnership for Aeronautical Testing, the Air 
Force and NASA have put in place a joint technology development program 
to address future test techniques and instrumentation which involves 
NASA, the Air Force Arnold Engineering Development Center, and AFRL.
   science, technology, engineering, and mathematics (stem) education
    Question. One of the major problems facing science organizations 
like NASA and AFRL--as well as the private sector--is the need for STEM 
education at all levels. Last year, NASA partnered with AFRL for a STEM 
symposium aimed at minority students. What additional plans do you have 
to promote STEM education to ensure that the rising generation of 
Americans has the scientific and technical skills we need to maintain 
NASA?
    Answer. In January 2011, President Barack Obama stated that, ``. . 
. over the next 10 years, nearly one-half of all new jobs will require 
education that goes beyond a high school education. And yet, as many as 
a quarter of our students aren't even finishing high school. The 
quality of our math and science education lags behind many other 
nations. America has fallen to ninth in the proportion of young people 
with a college degree. And so the question is whether all of us `as 
citizens and as parents' are willing to do what's necessary to give 
every child a chance to succeed.'' This speech echoes findings and 
calls-to-action by numerous committees, reports, professionals in 
education, and leaders in American industry. In response, the 
Department of Education has identified several strategies to improve 
STEM education and ways in which Federal agencies can contribute to the 
Nation's STEM improvement efforts. NASA is a strong contributor to the 
national plan.
    Consistent with section 202 of the America COMPETES Reauthorization 
Act of 2010, NASA works with professional organizations, academia, and 
State/local education providers to identify and address needs in STEM 
education. Quality professional development for STEM educators is a 
prevalent need. Through the education staff at NASA's centers, NASA 
works cooperatively with States and school districts to identify 
content needs and opportunities, and with university partners to ensure 
that NASA investments will be effective in improving teaching practice. 
NASA also works through communities of practice to identify content 
areas and special events that supplement informal education programming 
offered by museums and science centers. NASA higher education efforts 
increasingly target community colleges, which generally serve a high 
proportion of minority students. NASA programs build student STEM 
ability, preparing students for study at a 4-year institution. 
Competitive opportunities support initiatives like the President's 
``Race to the Top'' and the Department of Education's ``Star Project,'' 
which promote State-based education reform and identify replicable 
strategies for improving K-12 education.
    NASA's education programs aim to increase the number of students 
who are proficient in, choose to major in, and pursue careers in STEM 
fields. Improving STEM ability, increasing public scientific literacy, 
increasing the talent pool of future STEM workers, and developing the 
STEM skills of the future workforce are imperatives if the Nation is to 
remain globally competitive and sustain a strong economy. NASA actively 
works through mutually beneficial relationships with more than 500 
colleges and universities, hundreds of K-12 schools and districts, and 
more than 400 museums and science centers to provide education 
experiences, so that all students can learn deeply and think critically 
in STEM disciplines. NASA supports cutting-edge undergraduate student 
research that contributes to NASA missions while training the next 
generation of scientists, engineers, and innovators. NASA targets 
recruitment and retention of underserved and underrepresented students, 
including women and girls, Hispanics, and students with disabilities.
    NASA is committed to providing equal access to its education 
activities by providing any student with the opportunity to contribute 
to the future STEM workforce. NASA is responding by focusing its 
education investments on areas of greatest national need and ensuring 
that the agency's education programs support national STEM priorities. 
With its wealth of science and technology content and its expansive 
network of education professionals, NASA is well-equipped to address 
national needs such as meeting State requirements for educator 
professional development. NASA provides practical experience and skills 
development for those who will become the future workforce through 
internships, fellowships, and student research opportunities. NASA is 
especially qualified to attract students to pursue STEM study and 
careers. NASA is also able to engage these future workers through 
inspiring NASA missions, fostering collaborative relationships between 
students and the current workforce and offering students opportunities 
to work in ``out of this world'' facilities. Hands-on challenges with 
expert mentors generate increased interest in STEM study.
    NASA has engaged students and teachers in its engineering 
challenges and scientific discoveries since its inception. From school 
presentations to seeds flown in space, from filmstrips and posters to 
podcasts and virtual tours through the galaxies, NASA's education 
programs have fostered inquiry, built curiosity, and encouraged 
innovation. Generations of Americans have participated in NASA's STEM 
education programs, and thereby learned basic skills, discovered new 
career paths, and developed interests in emerging academic disciplines.
    NASA is actively engaged in collaborations with other Federal 
agencies to ensure the agency's programs are supportive of national 
STEM priorities. The NASA Associate Administrator for Education 
represents the agency on the National Science and Technology Council 
Committee on STEM Education (CoSTEM). It was established pursuant to 
the requirements of section 101 of the America COMPETES Reauthorization 
Act of 2010. The NASA Office of Chief Scientist is also participating 
in the CoSTEM by providing the CoSTEM Executive Secretary, who works in 
close coordination with the Office of Education.
    NASA's Earth and space science missions have an essential role in 
NASA's education mission. The discoveries and new knowledge from our 
missions and research programs consistently engage people's 
imaginations, inform teachers, and excite students about science and 
exploration. We are committed to utilizing our resources to foster the 
broad involvement of the Earth and space science communities in 
education and public outreach with the goal of enhancing the Nation's 
formal education system and contributing to the broad public 
understanding of science, mathematics and technology. NASA's Science 
Mission Directorate creates education products using NASA's results in 
Earth-Sun system science, solar system research, universe exploration, 
and the development of new technologies to support learning. Through a 
``Train the Trainer'' model the SMD programs train master teachers, who 
reach their peers via in person and online professional development 
opportunities that range from 1-day to week-long workshops. Another 
aspect of Teacher Professional development includes providing summer 
research opportunities for in-service teachers.
    In 2010, NASA chartered an Education Design Team (EDT) to develop a 
strategy to improve NASA's education offerings, assist in establishing 
goals, structures, processes, and evaluative techniques to implement 
new sustainable and innovative STEM education programs. EDT has 
completed its task, and its recommendations are reflected in the fiscal 
year 2012 education budget for NASA's Office of Education.
    The fiscal year 2012 budget provides NASA with the resources 
necessary to continue this rich tradition in STEM education through 
support for the Nation's students and educators, the leveraging of 
cutting-edge education technologies, and partnerships with industry. 
The budget proposal will:
  --Increase NASA's impact on STEM education by further focusing K-12 
        efforts on middle school pre- and in-service educator 
        professional development;
  --Increase emphasis on providing experiential opportunities for 
        students, internships, and scholarships for high school and 
        undergraduate students;
  --Emphasize evaluation and assessment, including external independent 
        evaluation, to ensure that investments are providing desirable 
        STEM impacts;
  --Engage strategic partners with common objectives and complementary 
        resources; and
  --Use NASA's unique missions, discoveries, and assets (e.g., people, 
        facilities, education infrastructures) to inspire student 
        achievement and educator teaching ability in STEM fields.
                   cross-agency support (cas) budget
    Question. Could you please detail the importance of the CAS portion 
of your budget, and for what specifically that part of the budget is 
used?
    Answer. NASA's CAS funding provides critical mission-support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the agency. These important functions 
align and sustain institutional and program capabilities to support 
NASA missions by leveraging resources to meet mission needs, 
establishing agency-wide capabilities, and providing institutional 
checks and balances. CAS includes two primary elements:
  --Center management and operations (CMO); and
  --Agency management and operations (AMO), which are detailed below.
CMO
    CMO funds the critical ongoing management, operations, and 
maintenance of nine NASA centers and major component facilities. NASA 
centers provide high-quality support and the technical engineering and 
scientific talent for the execution of programs and projects. CMO 
provides the basic support required to meet internal and external legal 
and administration requirements; effectively manage human capital, 
information technology (IT), and facility assets; responsibly execute 
financial management and all NASA acquisitions; ensure independent 
engineering and scientific technical oversight of NASA's programs and 
projects in support of mission success and safety considerations; and, 
provide a safe, secure, and sustainable workplace that meets local, 
State, and Federal requirements. CAS also funds salary and benefits for 
civil service employees at NASA centers who are assigned to work on CMO 
projects. In addition, the account contains Center-wide civil service 
personnel costs, such as institutionally funded training.
AMO
    AMO funds the critical management and oversight of agency missions, 
programs and functions, and performance of NASA-wide activities, 
including five programs:
  --Agency management;
  --Safety and mission success;
  --Agency Information Technology Services (AITS);
  --Strategic Capabilities Assets Program; and
  --AMO civil service labor and expenses.
    AMO supports executive-based, agency-level functional and 
administrative management requirements, including, but not limited to:
  --Health and medical;
  --Environmental;
  --Logistics;
  --General counsel;
  --Equal opportunity and diversity;
  --Internal controls;
  --Procurement;
  --Human resources; and
  --Security and program protection.
    AMO provides for the operational costs of headquarters as an 
installation; institutional and management requirements for multiple 
agency functions; assessment and evaluation of NASA program and mission 
performance; strategic planning; and, independent technical assessments 
of agency programs.
    Safety and Mission Success activities are required to continue 
improving the workforce, and strengthening our acquisition processes, 
including maintaining robust checks and balances, in order to improve 
the safety and likelihood of mission success for NASA's programs 
throughout their lifecycles. The engineering, safety and mission 
assurance, health and medical independent oversight, and technical 
authority components are essential to NASA's success. They were 
established or modified in direct response to several major Government 
accident and mission failure investigation findings in order to reduce 
the likelihood of loss of life and/or mission in our human and robotic 
programs. The budget request also supports operation of three 
activities that each provides a unique focus in support of the 
independent oversight and technical authority implementation:
  --the Software Independent Verification and Validation program;
  --the NASA Engineering and Safety Center; and
  --the NASA Safety Center located at the Glenn Research Center.
    AITS encompasses agency-level cross-cutting services and 
initiatives in Information Technology (IT) innovation, business and 
management applications, and infrastructure necessary to enable the 
NASA mission. AITS includes management of NASA's scientific and 
technical information; identity, credential and access management 
services; overarching information security services; enterprise-level 
business systems; and other agency operational services, such as email, 
directory services, and enterprise licenses. NASA's Security Operations 
Center will continue to mature capabilities to improve security 
incident prevention, detection, response, and management. NASA will 
continue implementation of major agency-wide procurements to achieve:
  --consolidation of IT networks leading to improved network 
        monitoring, management and reliability;
  --consolidation of desktop/laptop computer services and mobile 
        devices to achieve improved security and enable NASA Centers 
        and programs to realize improved efficiencies;
  --consolidation of agency public Web site/application management to 
        improve the agency security posture and to facilitate access to 
        NASA data and information by the public;
  --minor enhancement and maintenance of integrated agency business 
        systems to provide more efficient and effective agency 
        operations; and
  --reduction in overall agency data centers and related infrastructure 
        currently funded outside the AITS budget.
    The Strategic Capabilities Assets Program (SCAP) funds key agency 
test capabilities and assets, such as an array of flight simulators, 
thermal vacuum chambers, and arc jets, to ensure mission success. SCAP 
ensures that assets and capabilities deemed vital to NASA's current and 
future success are sustained in order to serve agency and national 
needs. All assets and capabilities identified for sustainment either 
have validated mission requirements or have been identified as 
potentially required for future missions, either internally to NASA or 
by other Federal entities.
    AMO civil service labor and expenses funds salary and benefits for 
civil service employees at NASA headquarters, as well as other 
headquarters personnel costs, such as mandated training. It also 
contains labor funding for agency-wide personnel costs, such as agency 
training, and workforce located at multiple NASA centers that provide 
the critical skills and capabilities required to execute mission 
support programs agency-wide.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                 rocket propulsion test infrastructure
    Question. Your written testimony references the importance of 
investment in a 21st Century Launch Complex. As you know, before a new 
Heavy Lift Vehicle can be launched, it must first be tested extensively 
to ensure the safety of our astronauts and others. Given the National 
Aeronautics and Space Administration's (NASA) interest in safety, are 
we making investments in testing infrastructure that are commensurate 
with the updates to launch infrastructure? What activities will take 
place during fiscal years 2011 and 2012 toward improving our rocket 
propulsion test infrastructure?
    Answer. Beyond funds for normal operations, NASA's initial fiscal 
year 2011 Operating Plan identifies $6 million to begin replacement of 
the Stennis Space Center High Pressure Industrial Water (HPIW) 
distribution system and $15 million to continue construction of the SSC 
A-3 test stand in fiscal year 2011. In fiscal year 2012, NASA has 
identified an additional $10 million to continue the HPIW replacement 
and is planning on $42 million for the A-3 test stand. Additional funds 
for fiscal year 2011 were planned to begin refurbishment of critical 
propulsion test infrastructure, but has been put on hold pending 
decisions on the Space Launch System (SLS) architecture decisions. 
Launch system design and requirements will be mapped to the appropriate 
capabilities, which will define the investments required for the 
propulsion test infrastructure.
    Question. Are any NASA funds currently being used to support the 
construction, rehabilitation, or otherwise invest in rocket propulsion 
test infrastructure not owned by the Government? Are there any plans to 
do so in fiscal year 2012?
    Answer. No NASA funds are currently being used or planned to 
support construction, rehabilitation, or otherwise invest in rocket 
propulsion test infrastructure not owned by the Government.
    Question. Given the uncertainty that accompanied the fiscal year 
2011 budget process, have there been specific delays toward achieving 
the goal of developing a 130-ton heavy lift vehicle? When do you expect 
to launch a 130-ton vehicle?
    Answer. Delays in the fiscal year 2011 budget have not caused 
actual delays with the SLS development efforts, but it has caused 
inefficiencies. Primarily, our fiscal year 2011 activities have been 
dedicated to completing analysis, trades, and developing an acquisition 
strategy, which we continued to do while awaiting final fiscal year 
2011 appropriations.
    NASA's SLS development effort is focusing initially on the 70 to 
100 mT lift capability. We also are seeking ways to capitalize on 
synergies between the lower-range and upper-range lift capabilities, 
thereby allowing us to develop some of the upper-range capabilities at 
the same time as we are focusing on the 70 to 100 mT capability. Doing 
so is actually a fairly natural, evolvable progression in terms of 
developing these capabilities. However, before making any final 
decisions, we must first understand how our approaches to heavy-lift 
will fit within the budget profile, how they will be affordable and 
sustainable over the long term, how they will fit into future 
exploration architecture, and how they might benefit other agencies to 
maximize the investment for the taxpayer.
    NASA is currently in the process of running budget exercises to 
determine the implications of various potential budget scenarios, and 
thus creating development schedules to fit those associated budget 
profiles. Ultimately, we must plan and implement an exploration 
enterprise with costs that are credible and affordable for the long 
term under constrained budget environments. As such, our development 
efforts also will be dependent on a realistic budget profile and 
sufficiently stable funding over the long term, coupled with a 
successful effort on the part of NASA and our eventual industry team to 
reduce costs and to establish stable, tightly managed requirements.
    In the coming weeks, NASA will be refining the SLS concept and 
defining strategy alternatives based on detailed Government analysis 
and completed input from industry through Broad Agency Announcement 
study contracts. Due diligence will ensure the best value for the 
taxpayer with respect to cost, risk, schedule, performance, and impacts 
to critical NASA and industrial skills and capabilities. Further 
details about NASA's analysis and decisions regarding SLS and MPCV and 
their integrated path forward will be provided to the Congress in a 
report in the late spring/summer timeframe.
                          stennis space center
    Question. Your deputy, Lori Garver, visited Stennis Space Center on 
March 10 of this year. I personally appreciate the continued attention 
you and your staff give to the NASA capabilities along the gulf coast. 
In one of the news reports following her visit, Ms. Garver called 
Stennis a ``unique facility for the government'' that should be ``fully 
utilized.'' Do you share Ms. Garver's view that Stennis' identity as a 
``Federal city'' makes it a unique asset for the American taxpayer in 
terms of efficiency and cooperation?
    Answer. Each of NASA's nine centers has unique capabilities that 
ensure our ability to achieve the goals of a portfolio of challenging 
by exciting missions. The Stennis Space Center possesses several unique 
capabilities and assets of which the American taxpayer can be proud. 
More than 30 Federal, State, academic, and private organizations and 
many technology-based companies have offices at Stennis. These 
residents share the cost of owning and operating the center with NASA 
and provide Americans positive returns on their investments. Stennis is 
the location of America's premier rocket engine test complex and, in 
2009; the Stennis team completed 34 years of testing space shuttle main 
engines that were used on more than 130 space missions. Because of this 
rich history of testing engines for our Nation's human spaceflight over 
the past 40 years, Stennis is key to testing the rocket engines that 
will propel humans into deep space. Center leadership has established 
partnerships with private industry to test engines for the commercial 
space sector. With its unique assets, the Stennis Space Center is 
positioned to have a major role in the future of America's space 
exploration mission.
                               hangar one
    Question. Have you received proposals for private investment in the 
external skin of Hangar One? If so, why does the NASA budget ask for 
significant taxpayer funds to re-skin Hangar One, particularly if such 
private proposals could conceivably generate solar energy?
    Answer. To date, NASA has not received a written proposal to re-
skin Hangar One from a private investor. In the late summer 2010, NASA 
issued a Request for Information (RFI) with the intent of gathering 
technical ideas on how to re-skin a structure of this type, to compare 
the Government construction estimate with the estimates of potential 
interested parties, and to ensure that the materials to be used were 
consistent with NASA thinking, given the historical preservation 
requirements. The results of this RFI produced only three responses to 
the call and all of them were partial. One of the respondents provided 
an estimate that approached the Government construction estimate. More 
recently, NASA issued a Sources Sought Notice for the purpose of 
identifying qualified companies who could perform the work of re-
skinning Hangar One. The results of this call are yet to be finalized.
    There have been several unsolicited proposals received for the re-
use of Hangar One after it is re-skinned by the Government. The 
proposals range from lighter-than-air technology operations to 
corporate office space, from an air and space museum to a Science, 
Technology, Engineering, and Math education center. The local 
communities have a strong interest in the re-use of Hangar One, in 
general, and passionately support its preservation for almost any use, 
including multi-purpose.
    In 2005, NASA released an Announcement of Opportunity (AO) for 
photovoltaic panel installation to be mounted on the outside surfaces 
of Hangar One. The intent was to develop a source of funding to pay for 
the replacement of the siding. It was determined through this AO that 
due to the orientation of the Hangar, insufficient power could be 
generated to provide for an economic solution.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
             international space station (iss) continuation
    Question. The National Aeronautics and Space Administration (NASA), 
following the NASA Authorization Act of 2010, is planning to keep the 
ISS operating until at least 2020. Because this is an international 
space station, we cannot unilaterally decide for all members of the 
partnership.
    First of all, it is my understanding that our ISS partners have 
agreed to the continuation of ISS operations through at least 2020. Is 
that correct?
    Answer. The European Space Agency (ESA) recently decided to 
continue station operations to at least 2020. The Governments of Japan 
and the Russian Federation already have approved continued station 
operations beyond 2016. NASA received approval in the NASA 
Authorization Act of 2010. The Canadian Space Agency is working with 
its government to reach consensus about the continuation of the 
station.
    Question. Is NASA aware of any outstanding issues, funding or 
otherwise, with any international partner that must be resolved in 
order to meet that objective?
    Answer. The ISS partnership is committed to fully utilizing the ISS 
to its maximum potential. There remain issues to be worked among the 
partners, both individually and collectively, including long-term 
funding for the out-years, transportation logistics, nominal hardware 
and software updates, but currently NASA does not believe any of these 
are insurmountable. We will continue to work as a partnership to 
maintain the ISS and reap the benefits for future space exploration and 
those on Earth.
                  iss risk if commercial cargo is late
    Question. I am greatly concerned now that the ISS has been 
completed, we will not be able to utilize it as we all have hoped.
    It has been explained to me that within 18 months of the last 
shuttle flight to supply the ISS, steps might need to be taken to 
curtail activities with fewer crew members if commercial cargo delivery 
capabilities are not fully operational and able to service the ISS in 
time. I am confident that our commercial providers will reach the ISS, 
yet I worry about what happens if we are forced to scale back our use 
of our more than $100 billion investment.
    At what point does NASA have to initiate contingency plans, or 
discussions with international partners to conduct supply missions if 
these capabilities need to be supplemented?
    Answer. NASA is pre-positioning maintenance and logistics items on 
the final space shuttle mission as a contingency to mitigate any risk 
to ISS operations due to a delay in the availability of the Commercial 
Resupply Services (CRS) vehicles. The final shuttle mission, STS-135, 
is targeted for launch in early July. During the STS-135 mission, 
Atlantis will carry the Raffaello multipurpose logistics module to 
deliver critical supplies, logistics, and spare parts for the ISS, as 
well as a system to investigate the potential for robotically refueling 
existing spacecraft. This will help reduce the risk to ISS operations 
and maintenance should the CRS vehicles not meet their current launch 
dates. If the contracted commercial cargo services are not available at 
the beginning of calendar year 2012, there would be minimal impact to 
ISS operations. If commercial cargo services are not available by the 
end of calendar year 2012, there would be a reduction in utilization of 
the ISS. In that case, NASA would have to consider reducing the 
station's crew size to three in order to conserve supplies; this would 
in turn result in a reduced ability to conduct research aboard ISS. The 
final shuttle flight will give the ISS the flexibility to maintain a 
six-person crew into fiscal year 2013 without any commercial cargo 
flights, effectively increasing the schedule margin by about a year.
    Another risk reduction option is the availability of the ATV and 
HTV spacecraft. NASA already relies on bartered cargo transportation 
services provided by the ESA and the Japanese Aerospace Exploration 
Agency using these vehicles, and such barter agreements could be used 
to ensure a limited U.S. cargo delivery capacity, on the currently 
planned vehicles, as a stop-gap measure until the CRS vehicles are 
operationally available. NASA has also purchased cargo delivery 
services from the Russian Space Agency through 2011, though there are 
no plans to extend this service beyond the end of this year.
                     life and microgravity research
    Question. With the upcoming addition of the Alpha Magnetic 
Spectrometer experiment to the ISS, NASA will have completed a 
monumental task that has taken more than a decade to complete. The ISS 
has been transformed from a small orbiting outpost to a fully capable 
research facility.
    NASA has been tasked to utilize this opportunity. It has been given 
national lab status. Now, all that is needed is a comprehensive and 
integrated microgravity research program to take this opportunity and 
turn the station into a place where discoveries happen in order to 
enable exploration and also benefit the country.
    The National Research Council (NRC) recently published a report 
that addresses key issues around the need for a solid microgravity 
research program. They believe that now is the time for a focused 
science and engineering program which can bring all the space 
stakeholders--researchers, the public, and policymakers--to an 
understanding that microgravity research can benefit us at home, and 
enable human space exploration.
    This type of research is exactly what the ISS was built for and can 
be supplemented with free flying missions as well. Can you explain how 
NASA is planning to incorporate the recommendations in the report into 
the fiscal year 2012 budget and where this budget falls short, 
particularly in regards to taking advantage of the ISS?
    Answer. The ISS represents an unprecedented national asset for 
advancing science and technology in the space environment, as well as 
stimulating new domestic economic expansion in low-Earth orbit. NASA is 
carefully positioning the ISS to maximize the value to the Nation 
through a series of initiatives designed to ramp up ISS research and 
development (R&D) projects now that the assembly phase is drawing to a 
close. NASA will pursue a diversified portfolio of scientific, 
technological, and economic development projects that draw upon the 
skills of all domestic sectors--government, academia, and industry--in 
order to leverage to the maximum extent the Nation's investment in the 
ISS.
    The recent NRC decadal study on life and microgravity sciences 
represents an important element of guidance in assembling this balanced 
portfolio. With 65 ``Top Priorities'' for research, the report is 
unambiguous in its endorsement of the value inherent in the pursuit of 
biology, chemistry, and physics research and applications under 
microgravity, space-radiation, and ultra-vacuum conditions. Results 
from experiments conducted on Skylab, space shuttles, spacelab, 
spacehab, Mir, and the developing ISS, have consistently supported this 
conclusion over the past four decades. NRC's report will now serve as 
an authoritative and durable benchmark against which future progress 
can be assessed. NASA's supporting initiatives include:
  --Competitive acquisition of a cooperative agreement with an external 
        nonprofit entity charged to stimulate, develop, and manage the 
        most effective use of 50 percent of the U.S. utilization 
        capacity for national R&D needs. This initiative is being 
        pursued in strict accordance with statutory direction embodied 
        in section 504 of the NASA Authorization Act of 2010 (Public 
        Law 111-267).
  --Funding for strategic research assets for the pursuit of molecular, 
        cellular, micro-biotic, plant, and animal research in the 
        highly promising area of life sciences and biotechnology, and 
        recovery of inorganic materials processing apparatus to re-
        establish progress in the development of exotic new materials 
        of higher performance. These assets will be supported through a 
        variety of management tools, including:
    --in-house development;
    --application of ISS program funds for capability enhancements, 
            and;
    --pursuit of proofs-of-concept for known globally competitive 
            applications; and
  --Expansion of partnerships with universities, industry, and other 
        government agencies based on a proven track record of success 
        in forging new agreements for ISS-based R&D. The use of 
        memoranda of understanding and Space Act Agreements has 
        effectively brought key resources to bear across a spectrum of 
        new participants in space-based R&D, so that NASA is no longer 
        the sole source of funding for value-driven R&D objectives.
  --Assignment of a seasoned management group composed of leaders and 
        staff with decades of experience in knowing what works, and 
        doesn't work, in the formulation of multi-disciplinary and 
        multi-organizational R&D teams for the pursuit of value-driven 
        objectives.
    The fiscal year 2012 President's budget provides the fiscal 
platform for launching and sustaining these key initiatives to maximize 
the value of ISS to our Nation. Under the guidance of NRC, and through 
a diversified portfolio that cuts across both the stages of research 
and all performing sectors of our economy, NASA is strategically 
positioned to carefully leverage the agency investment in ISS for R&D 
success in the coming era of utilization.
                       human space flight safety
    Question. NASA is in the business of launching extremely valuable 
human lives into the harsh environment of space. No matter what NASA 
does, it will never eliminate 100 percent of the risk of sending people 
to space and those who are at the space station live in an environment 
where their lives are in danger every minute of every day. However, I 
am concerned that in the administration's rush to embrace commercial 
crew, that NASA is being asked to become less risk averse and thus will 
endanger lives.
    NASA's own Aerospace Safety Advisory Panel has continually raised 
concerns about crew safety and specifically mentions the commercial 
crew acquisition strategy. It can be said that NASA may consider moving 
away from lessons learned from Challenger and Columbia and be settling 
for a strategy of ``safe enough'' as a trade for lowering development 
and seat costs.
    How does NASA intend to determine safety for any provider wishing 
to carry NASA astronauts and be able to incorporate those standards 
into vehicles wishing to be a part of commercial crew?
    Answer. At no point in the development and acquisition of 
commercial crew transportation services will NASA compromise crew 
safety. Simply put, U.S. astronauts will not fly on any spaceflight 
vehicle until NASA is convinced it is safe to do so.
    NASA has unique expertise and history in this area and has learned 
hard lessons on the importance of crew safety. NASA will bring that 
experience to bear in the appropriate way to make sure that commercial 
crew transportation services are a success both programmatically, and 
with respect to safety. For example, NASA will have in-depth insight of 
the vehicle design via NASA personnel who are embedded in the 
contractor's facility. Additionally, NASA will impose strict 
requirements and standards on all providers that will be carefully 
evaluated and reviewed at multiple stages before a vehicle system is 
certified by NASA for crewed flight. NASA will make every appropriate 
effort to ensure that the systems selected to fly U.S. astronauts will 
be as safe as possible but also recognizes that these ambitious 
endeavor--human spaceflight--is inherently risky.
    NASA's Commercial Crew Program Office at Kennedy Space Center in 
Florida is leading an effort to appropriately apply a series of 
existing health and medical, engineering, and safety and mission 
assurance requirements for the commercial space industry. The office is 
also developing but has not finalized the processes NASA will use to 
verify that these requirements have been met and to certify that a 
commercial partner's vehicle is capable of safely transporting agency 
personnel. This effort includes the full expertise of the agency 
including representatives from NASA's Office of Chief Engineer, Office 
of Safety and Mission Assurance, Office of Crew Health and Medical, the 
Flight Crew Office, and technical discipline experts (e.g., propulsion, 
structures, avionics, and ground operations).
    Question. Are the final and definitive requirements in place so 
that in the competition for commercial crew services, companies can 
have those in order to accurately estimate vehicle development cost?
    Answer. NASA is in the process of developing those requirements. We 
plan to have another workshop with industry in the August/September 
timeframe (the first Workshop was held on May 23-24, 2011, and NASA 
received extensive and valuable feedback from industry on our 
requirements). NASA plans to incorporate all this feedback into a 
baselined set of requirements by the end of the year, prior to the 
publication of any request for proposals for the development and 
certification of end-to-end crew transportation systems.
    Question. Will vehicles that can reach the space station with crews 
that are not from NASA be able to come to the station with a lower 
amount of safety restrictions?
    Answer. In accordance with the international agreements for the 
ISS, NASA has the responsibility ``to establish overall space station 
safety and mission assurance requirements and plans'' for the ISS. In 
the case of the Russian crew transportation vehicle, Soyuz, which 
typically has included NASA astronauts but not on all flights, the 
Russian Federal Space Agency is responsible for developing detailed 
safety and mission assurance requirements and plans, that ``meet or 
exceed'' the overall requirements established by NASA.
    Similarly, current and future commercial crew or transportation 
vehicles that will conduct proximity operations with--and dock to--the 
ISS, must meet visiting vehicle requirements. Regardless of whether a 
particular vehicle is carrying NASA astronauts to the ISS, it must be 
operated in a manner consistent with these standards. The Russian crew 
and cargo vehicles have been shown to meet or exceed the visiting 
vehicle requirements.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski
                      kodiak launch complex (klc)
    Question. I compliment the National Aeronautics and Space 
Administration (NASA) for not only being the world leader in human 
space flight for the last five decades, but also for the many diverse 
scientific missions that have advanced our knowledge of the planet, the 
solar system, and the universe. These missions include the recent 
success of the three NASA satellites aboard the Space Test Program S26 
mission launched out of the KLC last November. I am encouraged that the 
S26 mission along with the NASA Kodiak Star mission launched in 2001, 
out of Kodiak, indicates a willingness by NASA to utilize this key 
national spaceport. Please inform me of NASA's assessment of the value, 
utility, and security that the KLC provides as a supplement and backup 
to Vandenberg Air Force Base, in assuring that our Nation has access to 
space for the polar and highly inclined orbits that are only achieved 
out of our west coast launch sites?
    Answer. NASA's Launch Services Program seeks to promote healthy 
competition in the expendable launch vehicle market and utilizes 
commercially available U.S. launch vehicles that are selected 
competitively based on ``best value''. NASA buys commercially available 
launch services for its scientific missions on the NASA Launch Services 
contract. As such, the commercial companies, not NASA, determine which 
west-coast launch site will be used to meet polar and highly inclined 
orbit requirements. Currently, the Athena line of rockets from Lockheed 
Martin are on the NLS contract using the Kodiak launch site to meet 
these requirements.
    It should be noted that the S26 mission mentioned in the question 
did not use a NASA-procured launch service. It was a U.S. Air Force 
launch of a Minotaur IV (not commercially available because it uses 
excess ballistic missile assets) and the NASA spacecraft were secondary 
payloads.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. The subcommittee stands in recess until 
Thursday, April 14, at 10 a.m., when we will take the testimony 
of Secretary of Commerce Gary Locke.
    [Whereupon, at 5:25 p.m., Monday, April 11, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
April 14.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, APRIL 14, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Feinstein, Reed, Lautenberg, 
Pryor, Brown, Hutchison, and Murkowski.

                         DEPARTMENT OF COMMERCE

                         Secretary of Commerce

STATEMENT OF GARY F. LOCKE, SECRETARY

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everybody. The Commerce, 
Justice, Science, and Related Agencies Subcommittee will come 
to order.
    Today, we are going to take the testimony of Secretary Gary 
F. Locke, our Secretary of Commerce. Secretary Locke has also 
been nominated by President Barack Obama to be our Ambassador 
to China. I hope this will be his last hearing before us, not 
because he hasn't done a very good job as Secretary of 
Commerce, but because we know he will play an important role.
    We really think that Secretary Locke brought such 
incredible expertise--not only his own background in the State 
of Washington, but he, as the Governor of the State of 
Washington, had to look within his own State and look outward 
to the Pacific Rim, where there are challenges in everything 
from opportunity, like trade, to the stealing of our 
intellectual property.
    So he brought great skills here, and we want to hear, as he 
reviews the 2012 budget, how he made use of the money we have 
already given him. We have given him close to $8 billion in the 
stimulus money, particularly in important fields like 
broadband.
    He has attacked the U.S. Patent and Trademark Office 
(USPTO) backlog. He ensured that the 2010 census was done, 
inheriting what was, as even Secretary Gutierrez, his 
predecessor, said, ``a terrible mess''; pursued smart grid 
standards; and generally used his keen executive skills to 
clean up some of the things that he had inherited that even 
were deeply troubling to Secretary Gutierrez. And at the same 
time, the Department of Commerce should be one of our main 
innovation, job-creating agencies.
    So we want to hear now, Mr. Secretary, as you look at 2012 
and we look ahead--and we know we need to have a more frugal 
Government, which means a better use of the money we have--we 
also want to know how we can create jobs without having an 
industrial policy of picking winners and losers. We feel that 
the Department of Commerce is important to do this.
    The President's request provides a total of $8.8 billion 
for the Commerce Department, an increase of $800 million. There 
are those that would say that is a staggering event, but pretty 
much, the Department of Defense can blow that on a satellite. 
And I am very prickly about satellites these days.
    But for $8 billion, I think we can get a lot of jobs and a 
lot of value. It is the economic engine, and we look forward to 
hearing more about that.
    As we look at it, we know that within the Department--the 
Commerce Department is really a Department of departments, 
which really poses some significant management challenges. At 
the local level, we know that there is a very small agency, the 
Economic Development Administration (EDA), which, for $325 
million, is supposed to provide financial wherewithal for local 
communities to lower their unemployment rate.
    One of the most important agencies in terms of job growth, 
I feel, at the Department of Commerce, is USPTO, because it is 
our new ideas, well protected through a patent process against 
the theft overtly and covertly of intellectual property, that 
provide us with the new jobs. All of us, going back even to 
Secretary Gutierrez, were deeply troubled by the backlog. We 
would like to hear how you are going to do that.
    We could go agency after agency, but one of the two other 
areas of great keen interest to me is, number one, the 
International Trade Administration (ITA), which is, how are we 
going to be in the trade business? But not only for the big 
boys to sell big things, whether it is weapons systems, 
agriculture, et cetera--that is great. But I worry and think 
about opportunities particularly for small- and medium-sized 
business and how we do that. And I know that will be one of 
your issues as you go even farther back home west.
    On the accountability thing, I am really worried about 
satellites. I worry about the National Oceanic and Atmospheric 
Administration (NOAA) satellite program, where we are on saying 
good-bye to the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) and hello to the Joint 
Polar Satellite System (JPSS). I worry about keeping our 
contract on track. But I am also worried that we don't go dark 
in our weather forecasting because one of the things that is 
really, I think, an important role of the Department of 
Commerce and NOAA is its weather forecasting.
    I will elaborate more on that on my time in my questions. 
So we want to hear about the problems you have solved, and how, 
with the money that the President is proposing, how you see 
this as a job-generating, opportunity-generating, intellectual 
property-protecting agency.
    Senator Hutchison.

           OPENING STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Well, thank you, Madam Chairman.
    I agree very much with the chairwoman regarding USPTO. If 
there is anything that is essential for us to bring our 
entrepreneurs and our new ideas into productivity, it is USPTO 
and also to protect them. So I hope that we are making progress 
in the backlog there, and I support that priority.
    I also am very supportive of and concerned about weather 
prediction and modification. Living on the Gulf of Mexico, I 
have seen how the predictions have saved hundreds of thousands 
of dollars and at least hundreds of lives because I saw in 
Hurricane Ike the ability to tell people exactly when the 
hurricane was going to hit and to have evacuations that allowed 
for safety.
    However, of course, JPSS, which is essential for that kind 
of tracking and prediction, seems to be troubled. And as of 
now, the reorganization for that program is not being funded. 
So I think we need to hear about that particular project and 
what is going to right that ship.
    And I have to also mention that I have introduced a 
weather-modification bill for the last four sessions of the 
Congress, just to try to get NOAA to be able to do the research 
that would be necessary to know where weather modification 
science is. And if you have cloud seeding in the Midwest, what 
does it do to the Northeast? And I think we need to study that, 
and NOAA used to do it, but about 20 years ago, they stopped.
    And I think we need to know more basic science, and we also 
need to use that to determine if we should or should not engage 
in weather modification, and particularly with the ferocity of 
hurricanes and the damage that is now doing to our country 
from--obviously, we saw Katrina, but all the hurricanes just 
produce a massive destruction path.
    And if there is weather-modification information that we 
could glean, I think it would be wise to make that investment. 
But we have never been able to get the support, really, of any 
administration, including the last one, to do that. And so, I 
would like to pursue that with you.
    Last, but not least, I do want to say that I hope that 
through the capabilities that you have in your Department 
regarding trade, that we will see more movement in the free 
trade agreements, particularly with Colombia and South Korea. 
We need to assure that we are doing everything we can to 
support Colombia, which has cleaned up its drug problems, and I 
think we need to do everything to help their economy with ours 
at the same time.
    And I think we should be pursuing free trade agreements 
throughout Central and South America because I think that is 
where our best potential trading alliances are.
    So, with that, I thank you, Madam Chairman.
    And I will also end by saying that you have done a very 
good job. You really have, and we will miss you, as you take 
off for your new assignment in China. But I think you are a 
good choice for that position, and I think you will represent 
our country very well.
    So, with that, good luck to you in the future. And for the 
same reason as the chairwoman said, I hope that we don't see 
you in this subcommittee again.
    Thank you.
    Senator Mikulski. Secretary Locke, why don't you proceed 
with your testimony, and then we will move to immediate 
questions.

                   SUMMARY STATEMENT OF GARY F. LOCKE

    Secretary Locke. Thank you very much, Chairwoman Mikulski 
and Ranking Member Senator Hutchison and distinguished members 
of the subcommittee. I am pleased to join you to talk about the 
President's budget request for the Department of Commerce for 
fiscal year 2012.
    Since I joined the Department of Commerce 2 years ago, we 
have focused on delivering our services more efficiently and at 
less cost to the taxpayers, and those efforts have paid off. As 
the chairwoman indicated, the 2010 census was completed on 
schedule and under budget, returning $1.9 billion to the 
taxpayers. That was more than 25 percent under budget for 
fiscal year 2010.
    Our EDA has cut the time it takes to award grants from 6 
months to less than 1 month--18 business days to be precise. 
The USPTO, when the President took office, had a backlog of 
some 800,000 applications. We reduced that by 10 percent last 
year, even as applications surged by 7 percent. And in just a 
few weeks, applicants will be able to seek ``express service'' 
to have their patents evaluated within 1 year for a very small 
extra fee.
    The Congress, during both the Bush and Obama 
administrations, gave the Department of Commerce some $2 
billion to prepare the Nation for digital television 
conversion. Ninety-nine percent of the households successfully 
made that conversion without any interruption in their 
broadcasting, and yet we achieved that program 25 percent under 
budget, returning to the Treasury some $500 million.
    Our smart grid program: we have been able to develop 
standards with the private sector. We have accomplished within 
18 months what took the telecom industry almost 5 to 7 years to 
develop by way of standards.
    So our efficiencies and cost savings are not one-time 
achievements. We have instituted comprehensive performance 
management processes throughout the Department, which should 
help our reforms stand the test of time.
    It is in this context of proven savings and performance 
that I hope the subcommittee will consider Commerce's fiscal 
year 2012 budget--a request that is, as the President has said, 
a down payment for resolving our long-term fiscal problems.
    Our 2012 budget request is lean. It cuts out outdated 
programs and drives major efficiencies in others, and our 
budget incorporates $142 million in savings, thanks to 
aggressive acquisition reform and other administrative savings.
    At the same time, it contains key investments that will 
help America win the future by spurring innovation, increasing 
America's international competitiveness, and supporting 
scientific research. These are the core missions of the 
Department of Commerce.
    On the innovation front, the Department of Commerce is 
responsible for providing the tools, systems, policies, and 
technologies that give U.S. businesses a competitive edge in 
world markets. That is why we are requesting additional funds 
for our National Institute of Standards and Technology (NIST), 
including an increase of more than $100 million for research 
into advanced manufacturing technologies, health information 
technology, cybersecurity, as well as interoperable smart grid 
technology.
    These investments in standard-setting and in basic 
research, which are often too risky or too expensive for the 
private sector alone, have historically spurred waves of 
private sector innovation and jobs.
    To further support innovation, our 2012 budget also 
requests that USPTO gain full access to its fees so that we can 
expand the already substantial reforms undertaken by Under 
Secretary David Kappos, working with our line staff, labor 
organizations, and career managers. These reforms will help get 
cutting-edge inventions and technologies into the marketplace 
quicker, which will create even more jobs.
    The Commerce Department, through our ITA, is playing a key 
role in the President's National Export Initiative (NEI), which 
seeks to double U.S. exports by 2015. And American companies, 
especially small and medium-size ones, rely heavily on our 
Federal Government support available under the NEI, and I hear 
about it everywhere we go. These companies often face 
significant hurdles in getting access to working capital to 
produce the goods that they want to sell abroad, and they are 
having difficulty finding reliable customers and vendors, 
foreign customers and vendors for their goods and services.
    Our ITA helps many companies clear these hurdles. Last 
year, we helped more than 5,500 U.S. companies export for the 
first time or significantly increase their exports. These are 
primarily small, medium-size companies. And we coordinated an 
unprecedented 35 trade missions to 31 different countries, and 
our efforts are paying off. With United States exports up 17 
percent last year over 2009, exports to China were up. Goods 
exports to China were up by 32 percent and exports so far this 
year are 15 percent more than last year's impressive gains. In 
fact, exports in the month of January reached their all-time 
high in U.S. history.
    And for fiscal year 2012, the budget envisions more funds 
for activities like business-to-business match-making services 
and identifying and tackling and resolving trade barrier issues 
that U.S. companies face around the world.
    Finally, I want to touch on the critical work done by our 
NOAA, an agency that is a key source of scientific information 
and increasingly critical to America's economy. Last year, NOAA 
played a pivotal role in responding to the BP Deepwater Horizon 
oil spill by responded by providing targeted weather forecasts, 
oil spill trajectory maps, and by ensuring the safety of gulf 
seafood.
    Several weeks ago, NOAA issued its first tsunami warning 
just 9 minutes after the tragic earthquake struck Japan. NOAA 
was able to so quickly sound the alarm because of strong 
congressional support. In 2004, before the tsunami that struck 
Indonesia, NOAA had only six buoys in the Pacific to detect 
seismic and wave activity. But today, thanks to the Congress, 
we now have 39 such buoys.
    The work that NOAA does to predict and respond to weather 
and natural disasters saves communities. It saves them money, 
and most importantly, it saves them lives.
    What I have discussed, of course, is just a fraction of 
what the Commerce Department does. We are a Department of many 
bureaus, but there is one common theme--to help American 
companies be more innovative at home and competitive around the 
world.

                           PREPARED STATEMENT

    I would like to direct you to our written testimony for 
more detail on what our Department does. In the meantime, I am 
more than happy to take your questions.
    [The statement follows:]
                  Prepared Statement of Gary F. Locke
                              introduction
    Chairwoman Mikulski, Ranking Member Hutchison, and distinguished 
members of the subcommittee, I am pleased to join you today to talk 
about the President's budget request for the Department of Commerce for 
fiscal year 2012. I very much appreciate the commitment this 
subcommittee's members show to the Department and our mission.
    Since I joined the Department of Commerce 2 years ago, we have been 
focused intently on two key priorities: helping American businesses be 
more innovative at home and more competitive abroad. Our fiscal year 
2012 budget request reflects those priorities with investments to spur 
innovation, increase our international competitiveness and support 
scientific research and our coastal communities.
    Our innovation agenda is focused on building a foundation for 
private-sector economic growth and empowering entrepreneurs and 
businesses large and small to invent, grow and hire.
    That's why our Economic Development Administration (EDA) is working 
to help local communities identify their own unique strengths and 
develop regional economic clusters. Rather than pursuing a one-size-
fits-all approach, EDA is supporting private-public partnerships' 
bottom up strategies to respond to changing regional conditions and has 
more than halved the response time for its grant applications--from 128 
to 20 business days.
    To make it easier for groundbreaking ideas to move from research 
labs--or an inventor's garage--and into the marketplace, we're 
reforming the U.S. Patent and Trademark Office (USPTO) to accelerate 
patent examination and improve patent quality. We overhauled management 
processes at USPTO, and cut the application backlog by 10 percent, even 
as the volume of applications has increased by 7 percent.
    As the Department works to strengthen American businesses at home, 
we've also played a lead role in the President's National Export 
Initiative (NEI), working to connect more U.S. businesses to the 95 
percent of consumers who live beyond our borders.
    It's important to note that although the United States is a strong 
exporter, only 1 percent of our companies export and of those that do, 
58 percent only sell to one market. We can and must do better.
    While the quality and costs of American companies' goods and 
services ultimately determine their success in the international 
marketplace, many firms--especially small and medium-size enterprises--
rely heavily on the Federal Government support available under the NEI.
    These companies often face significant hurdles in:
  --Getting access to working capital to produce the goods they want to 
        sell abroad;
  --Navigating complex foreign customs, rules, and regulations;
  --Forging relationships with key foreign governmental and business 
        decisionmakers; and
  --Ensuring they get a fair shake when competing with other foreign 
        firms for lucrative government procurement contracts.
    The Commerce Department is working successfully with our partners 
throughout the administration to help companies clear these hurdles.
    Last year, U.S. exports of goods and services increased nearly 17 
percent more than 2009--the largest year-to-year percent change in 20 
years. This puts us on pace to achieve the President's goal of doubling 
American exports over 5 years. During the first year of the NEI, the 
Department assisted more than 5,500 U.S. companies to export for the 
first time or increase their exports. Small and midsize businesses made 
up 85 percent of those successes. Our International Trade 
Administration (ITA) coordinated an unprecedented 35 trade missions to 
31 different countries, with nearly 400 companies. Participating firms 
anticipate $2 billion in increased exports from these missions. In 
addition, ITA's Advocacy Center has assisted U.S. companies competing 
for international contracts, and other U.S. export opportunities, worth 
$18.7 billion in U.S. export content, supporting an estimated 101,000 
jobs. We've recruited nearly 13,000 foreign buyers to visit major trade 
shows here in the United States, facilitating approximately $770 
million in export successes and supporting more than 4,100 domestic 
jobs. And, ITA has successfully resolved 82 different trade barriers in 
45 countries that were adversely impacting a broad range of industries. 
This includes successfully encouraging Russia to enact a World Trade 
Organization compliant law that provides authority for its customs 
officials to interdict suspected counterfeit goods.
    In addition, through the work of the Minority Business Development 
Agency, Commerce assisted more than 6,600 minority business enterprises 
in attaining almost 1,000 contracts and more than 500 financial awards, 
with a combined dollar value of $4 billion.
    Part of the reason why we have been so successful at increasing our 
assistance to U.S. businesses is that the Department's senior 
leadership is focusing everyone on delivering their services more 
efficiently, more effectively and at less cost. We can also help 
American companies thrive by making the Commerce Department run better, 
which has been a top priority of mine and my entire management team.
    Consider the 2010 census, an undertaking that many experts 
identified as ``likely to fail''. The experts were proved wrong, as the 
2010 census was completed on schedule and under budget, saving 
taxpayers $1.8 billion.
    Commerce has worked extensively with the White House on the 
National Strategy for Trusted Identities in Cyberspace, which is an 
initiative to work collaboratively with the private sector, advocacy 
groups, privacy experts and public sector agencies, to improve the 
privacy, security, and convenience of sensitive online transactions. 
The goals of the Strategy are to protect individuals, businesses, and 
public agencies from the high costs of cyber crimes like identity theft 
and fraud, while simultaneously helping to ensure that the Internet 
continues to support free speech, innovation, and a thriving 
marketplace of products and ideas. The final strategy is set to be 
released shortly, fulfilling one of the near-term action items of the 
President's Cyberspace Policy Review. Its implementation will be led by 
the Department of Commerce's National Institute of Standards and 
Technology (NIST), which plans to set up a program office to coordinate 
Federal activities and bring the public and private sector together.
    A year after I arrived at Commerce, the Department stepped into a 
pivotal event with the explosion of the BP Deepwater Horizon oil rig on 
April 20, the largest oil spill in U.S. history. Within hours the 
National Oceanic and Atmospheric Administration (NOAA) responded by 
mobilizing ships, aircraft, and personnel to provide targeted weather 
forecasts and oil spill trajectory maps and EDA applied resources to 
help gulf communities. ESA provided the data needed to estimate the 
economic impact while NOAA-protected gulf seafood through closures and 
careful reopening of fisheries in Federal waters. We learned through 
the BP Deepwater Horizon oil spill and other events that we cannot have 
healthy economies without healthy communities and healthy ecosystems 
and that good science and stewardship is good business.
    The destruction and loss of life resulting from the catastrophic 
disaster in Japan are heartbreaking. Nine minutes after the March 11 
earthquake struck, NOAA issued its first tsunami warning for Japan, 
Russia, Marcus Island, and the Northern Marianas Islands as part of the 
coordinated global response to this tragic natural disaster. Shortly 
thereafter, timely watches, advisories, and warnings were extended to 
vulnerable coastal areas of Alaska, British Columbia, Washington, 
Oregon, and Hawaii well ahead of the arrival of the first waves. The 
NOAA-developed Deep-ocean Assessment and Reporting of Tsunami (DART\\) 
stations detected and tracked the tsunami as it traveled from Japan 
across the Pacific Basin. The NOAA-issued tsunami warnings along with 
its education efforts allowed communities both here and across the 
globe to take action that saved lives and reduced property damage.
    America is still in the process of economic recovery, and we at the 
Commerce Department must continue to build upon the past 2 years of 
successes. The President's fiscal year 2012 budget request for the 
Commerce Department makes tough choices--many of them reductions to 
programs that we might like to continue under normal economic 
conditions. But we also have the responsibility to prioritize 
investments in those things that are critical to winning the future. 
The President's request recognizes that this is only possible when the 
United States out-educates, out-innovates, and out-builds our economic 
competitors. For that reason, the fiscal year 2012 request for the 
Department of Commerce makes several targeted reductions and is 
focusing on organizational effectiveness in order to focus on 
investments in innovation, international competitiveness and science as 
well as supporting our coastal communities--to spur job creation here 
at home and improve American competitiveness in the global marketplace.
                               reductions
    With his fiscal year 2012 request, President Obama pledged to root 
out ineffective, outdated, or duplicative programs to cut or reform, 
taking further steps toward reducing our long-term deficit. In all, the 
Department's fiscal year 2012 budget proposes ending, reducing, or 
restructuring more than 15 lower-priority programs.
    First, this budget cuts what is ineffective and outdated. For 
example, the Emergency Steel Loan Guarantee program made its last 
guarantee in 2003, and its elimination alone results in $43 million in 
savings. Other reductions reflect the need to transition to new funding 
models, as in NIST's Baldrige Performance Excellence Program. To 
transition the program to be completely privately funded, the program's 
funding is reduced by $2 million.
    Second, hard choices were made among competing priorities. The 
termination of the Public Telecommunications Facilities, Planning, and 
Construction (PTFP) program saves $20 million, and streamlines the 
current structure under which both the PTFP and Corporation for Public 
Broadcasting programs fund equipment for noncommercial television and 
radio stations.
    Last, this budget strives for efficiency. The proposal to 
restructure ITA saves $20 million through the streamlining of 
administrative functions, closing some overseas posts, and focusing on 
high-priority markets and industries.
    By eliminating the Trade Adjustment Assistance for Firms program, 
discontinuing the Trade Adjustment Assistance for Communities program, 
and ramping up the Economic Adjustment Assistance (EAA) program, our 
Economic Development Administration will be able to get funding out 
more quickly and at a much lower cost to areas disrupted by import 
competition or other factors. EAA is the most flexible program in EDA's 
toolbox, tailoring economic recovery strategies to communities' needs 
with far lower overhead costs than Trade Adjustment Assistance. The 
elimination saves $15.8 million.
    We also took a hard look at our statistical programs and products 
within this budget, eliminating six statistical programs and reducing 
funding in three others at the Census Bureau, for a savings of $16 
million. We targeted programs, such as the separate publication of E-
Business statistics that had, over time, been incorporated into other 
data collection efforts, thereby achieving greater efficiency.
    But by far, our top saving initiative focuses on reforming the way 
the Commerce Department does business. We are doing more while spending 
less. We plan on saving $142.8 million in fiscal year 2012 as part of 
the President's Administrative Efficiency initiative. The Department is 
digging into how we handle acquisitions and other administrative 
functions to find places where we can leverage our buying power. We 
have a six-point plan to reform acquisitions in order to deliver 
greater savings, greater results and greater efficiencies. Specific 
measures include saving taxpayers $57 million in fiscal year 2012 
through bulk buying and other smart purchasing strategies, stronger 
metrics to measure and increase performance, a new approach to 
requirements definition and validation, an enterprise-wide approach to 
identifying and managing high-risk projects, and a new Center of 
Excellence to best serve every bureau within the Department. Last, we 
anticipate savings in information technology through data center 
consolidation and slowing the replacement cycle for computer hardware.
                              investments
    At the same time the fiscal year 2012 budget makes some tough but 
responsible choices that will put Government on a sounder financial 
footing, it also reflects this administration's commitment to invest in 
areas that will help create jobs here at home and better position 
America in an increasingly competitive global economic environment. 
Because of the savings discussed above, the Department is able to 
reinvest $39.2 million to strengthen valuable programs. The budget does 
this by focusing investments in innovation, international 
competitiveness, science, and support for coastal communities.
Innovation
    In his State of the Union Address, the President said: ``The first 
step in winning the future is encouraging American innovation'', and he 
promised to deliver a budget that would ensure the Nation's ability to 
achieve that goal. The Department of Commerce is responsible for 
providing the tools, systems, policies, and technologies that give U.S. 
businesses a technological edge in world markets. Key components of the 
Department's innovation tools are:
  --NIST's cutting-edge research laboratories;
  --USPTO's protection of intellectual property that fosters the 
        entrepreneurial spirit;
  --the EDA's regional innovation clusters; and
  --the National Telecommunications and Information Administration's 
        (NTIA) efforts to accelerate the adoption of a wireless 
        interoperable network for public safety, optimize the use of 
        Federal spectrum, and increase broadband access.
    NIST is a key agency identified in the President's Plan for Science 
and Innovation, the administration's Innovation Strategy, and the 
America COMPETES Reauthorization Act--which the Congress approved with 
broad bipartisan support at the end of last year. For fiscal year 2012, 
the Department is requesting $763.5 million for NIST laboratories, 
which includes an increase of more than $100 million for research into 
advanced manufacturing technologies, health information technology, 
cybersecurity, interoperable smart grid technology, and clean-energy 
research and development.
    In fiscal year 2012, NIST will also expand its extramural programs 
to support technological innovation through a request of $75 million 
for the Technology Innovation Program, an increase of $5.1 million, to 
continue to fund high-risk, high-reward research competitions in areas 
of critical national need such as advanced robotics and intelligent 
automation, manufacturing, energy, and healthcare. NIST is also 
launching a new Advanced Manufacturing Technology Consortia (AMTech) 
Program, a public-private partnership program for industry-led research 
and development (R&D) aimed at increasing the Nation's return on 
scientific investment, collapsing the timescale of technological 
innovation, and ultimately expanding the value added captured by the 
domestic economy for emerging technologies. The $12.3 million requested 
for the program will provide grants to industrial consortia to develop 
roadmaps for research that will broadly benefit our Nation's industrial 
base.
    NOAA's atmospheric and ocean, coastal, and Great Lakes research 
programs turn scientific discovery and innovation into products and 
services for our communities and businesses. The President's budget 
request for 2012 includes $212 million for the Office of Oceanic and 
Atmospheric Research (OAR). NOAA is proposing to strategically realign 
this existing core research line office to better support the goals of 
the America COMPETES Reauthorization Act of 2010. OAR will refocus its 
work to serve as an innovator and incubator of new science, 
technologies, and applications, and an integrator of science and 
technology across all of NOAA.
    A prime example of NOAA's work in advancing innovative technologies 
for weather forecasting is the adaptation of naval radar technology for 
use in severe weather and tornado forecasting. Multi-function Phased 
Array Radar, developed by the Navy for use on ships, is being adapted 
by NOAA and its partners, for severe weather forecasting. This work is 
improving the average lead time for tornado warnings. NOAA is also 
leading the way in weather and climate modeling and research. Since the 
1980s, NOAA has more than doubled the accuracy of hurricane track 
forecasts. And public and private sector decisionmakers look to NOAA 
for climate products such as the air-freezing index to provide home 
builders with information on which to design home foundations. Also, in 
fiscal year 2012, the President's budget invests $2 million to advance 
our capabilities to understand and forecast atmospheric conditions to 
support wind energy generation in the United States.
    USPTO's work in fostering innovation is a crucial driver of job 
creation, economic recovery, and prosperity. American innovators and 
businesses rely on the legal rights associated with patents in order to 
reap the benefits of their innovations. Processing patent applications 
in a quality and timely manner establishes a business environment that 
cultivates new ideas, technologies, services, and products by ensuring 
their protection. USPTO has committed to taking action on a patent 
application within 10 months by 2014--a significant reduction from the 
slightly more than 2 years on average it currently takes to first 
address a patent application. The current backlog of more than 700,000 
patent applications stands as a barrier to innovation and economic 
growth. USPTO has committed to reducing the patent backlog to less than 
353,000 by 2014. The fiscal year 2012 budget for USPTO continues to 
request full access to fees, which is estimated at about $2.7 billion 
for fiscal year 2012. The request allows USPTO to levy a 15 percent 
surcharge to optimize patent and trademark quality and timeliness. 
Doing so will aid intellectual property policy, protection, and 
enforcement worldwide.
    The fiscal year 2012 budget also supports innovation and economic 
opportunity by ensuring taxpayer investments in broadband are managed 
responsibly and achieve results. In fiscal year 2012, NTIA will 
continue its work in fostering greater access to and use of broadband 
services throughout the Nation. NTIA completed the award of its 
broadband grants at the end of fiscal year 2010 and now the funded 
projects are being implemented. The projects will be built between now 
and fiscal year 2013. The fiscal year 2012 budget includes funding for 
proper oversight of the program to guard against waste, fraud, and 
abuse by the grantees--many of whom have never received a Federal grant 
before.
    The Department's establishment of the Broadband Technology 
Opportunities Program (BTOP) from the ground-up has yielded some 
valuable lessons and insights that may be applied to future 
initiatives, including the President's Wireless Initiative. A key 
finding is that the strongest, most sustainable project proposals are 
those where communities take a comprehensive approach in defining their 
critical broadband needs. In the BTOP context, we refer to these as 
``comprehensive community infrastructure projects'' because they engage 
a wide range of local partners, addressing the needs of multiple target 
groups and leveraging public and private resources. Connecting anchor 
institutions, including local public safety first responders, or 
improving their connection speeds can have a multiplier effect 
throughout a community: as residents discover the benefits of broadband 
access at work or at school, they are generally more likely to adopt 
broadband at home. This is a lesson I believe can and should be applied 
to similar programs going forward.
    The Department will also receive about $1.5 billion in mandatory 
funding to be offset by spectrum auctions to support the President's 
Wireless Innovation and Infrastructure Initiative (WI3). NTIA, along 
with the Federal Communications Commission, will find 500 MHz of 
spectrum within 10 years that can be applied to commercial purposes in 
support of WI3. Of this funding in fiscal year 2012:
  --$1.4 billion would be for NTIA to establish and develop a 
        nationwide interoperable public safety broadband network;
  --$100 million would be for NIST to work with industry and public 
        safety organizations to conduct research and develop standards, 
        technologies, and applications to advance public safety 
        communications; and
  --$20 million for EDA to accelerate the development of innovative 
        wireless applications that can accelerate job creation and 
        promote the competitiveness of the regional economy.
International Competitiveness
    The Department of Commerce embraces its core mission to improve 
U.S. global competitiveness and foster domestic job growth--and to do 
so while protecting American security. The President's fiscal year 2012 
budget request will increase U.S. exports, ensure effective export 
control and trade compliance, and make certain that trade remedy laws 
are enforced.
    Exporting is good for American business, good for American workers, 
and good for American jobs. That is why President Obama announced NEI 
and set the goal of doubling U.S. exports over 5 years to support 
several million American jobs and foster long-term sustainable economic 
growth.
    We jump-started the NEI in fiscal year 2010 by pursuing new 
relationships with the business community. In addition, as previously 
mentioned we led a record 35 trade missions to 31 countries with 400 
companies to promote industries including renewable and nuclear energy, 
as well as infrastructure, construction, and aerospace. One recent 
example of a successful trade mission involved Suniva, based in 
Atlanta, Georgia, which manufactures high-efficiency silicon solar 
cells and high-power solar modules using low-cost manufacturing 
techniques. The company is focused on the mass adoption of high-
efficiency photovoltaic technology and the significant economic, 
social, and environmental benefits it brings to the world community. 
The company found potential partners on a clean-energy trade mission to 
India in 2009. They returned the next year with the ITA and secured 
several long-term customers with an estimated value of $18.7 million.
    With a relatively small and strategic Federal investment in export 
promotion, we can build upon our aggressive efforts to help American 
companies sell their American-made goods overseas. The fiscal year 2012 
budget request for the ITA includes an increase of $78.5 million to 
support NEI-related efforts, which will encourage new companies to 
export, and help current exporters expand to more markets. These 
efforts mean leading more trade missions; helping U.S. companies win 
more foreign procurement bids; bringing more foreign buyers, 
distributors, and partners to U.S. trade shows; and providing more 
business to business matchmaking services to U.S. companies. In 
addition, a key part of the NEI involves ITA's continued work to assist 
companies and create trading opportunities by identifying, overcoming, 
and resolving trade policy issues and ensuring that our trading 
partners fully meet their obligations under our trade agreements.
    The Bureau of Industry and Security (BIS) advances U.S. national 
security, foreign policy, and economic objectives by ensuring an 
effective export control and treaty compliance system, and by promoting 
continued U.S. leadership in strategic technologies. A major 
administration-wide effort to reform the current morass of bureaucracy 
that constitutes our export control regime is underway. Our focus, 
quite simply, is to build higher fences around fewer items--to focus 
resources on protecting those products that are truly sensitive. The 
fiscal year 2012 budget recognizes the important role of BIS programs 
and supports the national security mission with a request of $111.2 
million. This includes an increase of $10.8 million for an Export 
Enforcement Enhancement initiative that increases staff for counter 
proliferation, counter-terrorism, and national security programs and 
investigations.
    Another key priority for the Department is strengthening the 
Nation's cybersecurity infrastructure, which is vital to the economic 
and national security interests of the United States. The fiscal year 
2012 budget requests an increase of $81.3 million for cybersecurity, of 
which $37.9 million secures Commerce Department systems and $43.4 
million supports NIST's work on the U.S. Government and national 
security infrastructure.
Science
    The Department of Commerce also supports science with a focus on 
generating and providing timely data and analysis to support effective 
decisionmaking by policymakers, businesses, and the public. Before 
discussing other science-related initiatives, I'd like to speak on the 
NOAA's Joint Polar Satellite System--JPSS.
    For fiscal year 2012 we are requesting $1.07 billion for JPSS, an 
increase of $687.8 million more than the fiscal year 2010 enacted. This 
large increase reflects the impact of not receiving our fiscal year 
2011 request for this vital program. Even with this large increase, we 
are looking at a 12-18 month delay in the delivery of the first 
satellite and a very high likelihood of a gap in our polar satellite 
coverage. Continued inadequate funding only further jeopardizes this 
program. JPSS is essential for the Nation and provides the backbone of 
all National Weather Service forecasts beyond 48 hours. Without JPSS, 
our ability to provide timely and accurate weather forecasts and severe 
storm warnings for both civilian and military users will significantly 
diminish, thereby placing lives, property, and critical infrastructure 
in danger.
    While we all wish that the predecessor NPOESS program had not had 
the history it did, the administration created a new structure that 
works, and we need this funding to ensure we can continue to provide 
this essential service to the Nation. I look forward to working with 
you to resolve this issue.
    Finding the resources for JPSS was not easy. It was one of the 
tough choices the Department had to make and is one of several major 
science-related initiatives in the fiscal year 2012 request. The 
President's fiscal year 2012 request supports steps needed to improve 
the understanding of our climate and proposes a no-cost reorganization 
within NOAA: establishing a Climate Service line office. NOAA spends 
more than $350 million on climate science and decision support, with 
the majority of spending spread across three different line offices. 
The current arrangement complicates coordination and the ability for 
NOAA to provide information to decisionmakers who can use it--whether 
it's local governments looking at meeting a growing community's water 
needs, State governments looking at building a new road or bridge, or 
businesses looking at long-term site locations and investments. This 
new line office will allow NOAA to more effectively and efficiently 
provide reliable and authoritative climate data, information, and 
decision-support services. The climate service is primarily about 
providing one place for people to go to access and be able to use the 
data we are already gathering--at no additional cost to taxpayers. A 
streamlined Climate Service would increase NOAA's ability to more 
efficiently and effectively respond to the demands we are hearing from 
businesses and communities for science based climate information to 
help them make sound investments that lead to economic growth and 
innovation, and improve public safety.
    The Bureau of Economic Analysis (BEA) provides the tools to 
identify the drivers of growth and fluctuation, and to measure the 
long-term health and sustainability of U.S. economic activity. One of 
the most valuable services the Department provides both the business 
community and policy makers are timely, accurate, and reliable economic 
data to inform their decisionmaking. These key decisionmakers would 
benefit from innovative statistical tools updated for the dynamic 
changes in the U.S. economy to make evidenced-based choices about 
growing their businesses and creating policy that fosters economic 
expansion. To answer this demand, BEA will focus in fiscal year 2012 on 
producing new economic statistics and tools to enhance its evaluation 
of the economic performance of U.S. industries. The fiscal year 2012 
request invests an additional $10.3 million to create these new 
products, which includes a new suite of statistics showing the 
purchasing power of American households and how it varies across 
different households and over time. This will give small businesses 
information they need to grow.
    The U.S. Census Bureau is the premier source of information about 
the American people and our economy. More than just numbers, this 
information supports important policy decisions that help improve the 
Nation's social and economic conditions. The Census Bureau completed 
the 2010 census and has turned to releasing that data. In the fiscal 
year 2012 request, the Census Bureau turns its attention to early 
planning for the 2020 census with a focus on cost containment, 
including an Internet option, and identifying research-based design 
options. The fiscal year 2012 budget includes $69.3 million to begin a 
3-year research and testing phase for the 2020 census--with a goal of 
designing a census that costs less per household while maintaining 
quality. The fiscal year 2012 budget also includes money to ramp-up for 
the economic census, which collects data every 5 years from all 
businesses in America to provide information that is used throughout 
the private and public sectors and that is vital to producing accurate 
economic statistics.
    The Census Bureau's demographic statistics programs provide 
policymakers with social and economic data needed to make effective 
policy and program decisions as well as provide source data used to 
create the U.S. official measures of employment, unemployment, consumer 
prices, poverty, and widely used measures of income and health 
insurance coverage. The American Community Survey (ACS) provides the 
primary source of demographic and economic data for small geographic 
areas. As the Federal Government's most comprehensive demographic 
survey, ACS results are used to distribute more than $400 billion in 
Federal funds. The fiscal year 2012 budget requests $8.8 million to 
complete the expansion of the ACS sample size to improve the 
reliability of the data at the tract level.
Coastal Communities
    The Department of Commerce has the responsibility to sustainably 
manage our Nation's oceans and coasts to promote economic 
sustainability and to ensure that future generations will also have the 
ability to enjoy and earn their livelihoods from these same resources. 
Impacts to water quality, fish stocks, and coastal habitat all impact 
our coastal communities through potential reductions in local fishing 
businesses that are the heart of so many coastal communities, tourism, 
and storm protection.
    The National Marine Fisheries Service (NMFS) manages living marine 
resources throughout the Nation's coastal zone and protected areas. We 
are faced with the challenge of ending overfishing, improving fisheries 
management, and putting fisheries on a path to sustainability. Working 
with the Regional Fishery Management Councils, in fiscal year 2010, 
five fisheries stocks were rebuilt. Based on estimates, rebuilding U.S. 
stocks has the potential to increase the annual commercial dockside 
value by 54 percent, which is an estimated $2.2 billion. The fiscal 
year 2012 budget requests $1 billion for NMFS, $7 million less than the 
fiscal year 2010 enacted. Within the request, $54 million is to provide 
start-up costs for fisheries recently shifting to catch share programs, 
and to develop new catch share programs that incentivize more effective 
fisheries management. Recognizing the importance of increasing the 
number and timeliness of stock assessments, a total of $67 million, 
including $15 million to expand annual stock assessments which provide 
the scientific basis for setting appropriate catch limits.
    Our oceans, coasts, and marine resources are a source of untold 
wealth. America has 95,000 miles of shoreline and the world's largest 
Exclusive Economic Zone at 3.4 million square nautical miles. The 
oceans and coasts provide many goods and services to the Nation, 
including food from wild fisheries and aquaculture, goods from maritime 
commerce, ship and boat building, energy, minerals, tourism, 
recreation, and pharmaceuticals. Nearly 80 percent of U.S. import and 
export freight is transported through seaports. The fiscal year 2012 
budget requests $559.6 million for NOAA's National Ocean Service (NOS), 
including $8 million to support a National Working Waterfronts grant 
program to assist fishing dependent coastal communities adversely 
impacted by changes in regulations or environmental conditions that 
affect fishing resources on which the community depends and $20 million 
in grants to support regional partnerships for the development of 
comprehensive coastal and marine spatial planning.
Organizational Effectiveness
    The Department of Commerce is also committed to organizational 
effectiveness and is undertaking a number of initiatives to streamline 
Government and improve how we deliver existing services to businesses 
and other customers. Through CommerceConnect, we are working to connect 
our infrastructure of web portals and customer service technologies, 
call centers, field offices in 18 cities, and training for customer-
facing staff among the Commerce Department bureau's and their 70+ 
business-supporting programs. We recognize that the needs of any given 
business do not stop within Commerce's organizational boundaries. We 
are working with other Federal, State and local governments, and 
nonprofit partners to build customer service infrastructure to connect 
businesses to the right resources. CommerceConnect is designed to break 
down silos and make Government and partner programs more effective in 
serving America's businesses and entrepreneurs.
                               conclusion
    Ultimately, the fiscal year 2012 budget request for the Department 
of Commerce is a roadmap for winning the future by helping American 
companies be more innovative, export more, and create and sustain the 
jobs of the future. The budget strikes a balance between the necessity 
of responsible reductions that reduce spending with targeted, crucial 
investments in foundational R&D on technologies that will lead to 
private sector job creation and help America out-innovate and out-build 
its economic rivals.
    Thank you for the opportunity to appear before you today. I look 
forward to answering your questions.

    Senator Mikulski. Thank you, Secretary Locke.
    I have questions in the area of USPTO, NIST, their cyber 
role, and also the National Telecommunications and Information 
Administration. If I don't get it in the first round--I want to 
be sure that all members have a chance, that we will move this 
along, and others I will do in my own wrap-up.
    What I want to bring to the Members' attention because I 
know, look at the attendance here today, this is great, either 
we don't have a lot of hearings or we have a lot of interest, 
either way.
    Senator Hutchison. You better worry, Secretary. This looks 
like the war department to me.
    Senator Mikulski. So this is the A-Team here. This is 
nothing compared to confirmation, though.

                             USPTO BACKLOG

    I would like to say this to my colleagues. You have heard 
me extend kudos to Secretary Locke's very keen management 
skills. However, I also want you to know that there is an 
excellent report put out by the Office of Inspector General on 
some of the significant flashing yellow lights that could eat 
our budget alive, whether it is satellite programs, information 
technology, and so on.
    And I would really bring this to the subcommittee's 
attention as we work on the budget. We have a lot of work to 
do. And let me get to my initial round of questions.
    You heard me, Mr. Secretary, talk about how the Commerce 
Department is one of our economic engines. I like the fact that 
you really paid attention to the management issues within 
Commerce. For too long, the Secretary of Commerce was viewed as 
America's salesman. Travel around the world, do those big 
business trips, try to get a deal or two, come and back and go 
``hoo-ha, hoo-ha'' with America's private sector.
    I think that is good, but I don't think the Secretary of 
Commerce is America's salesperson. I think America's private 
sector is its best salesperson, and we need to be able to 
facilitate trade. So you did the right thing.
    But let us go then to creating new ideas. Could you tell 
us, as you wrap this up, where are we on USPTO? What is it that 
we need to do to do two things--make sure we deal with the 
backlog, and then the other issue--and this is what I want my 
colleagues to be aware of--USPTO is one of the big targets of 
cyber intrusion, where they are actually coming and trying to 
steal our secrets. Why invent a cure for Alzheimer's when you 
can steal it from somebody standing in line to get their 
patent?
    So, could we lead off with job creation by protecting our 
intellectual property and how we best are able to do that? 
Could you address the backlog issue and as well as the cyber 
protection issue?
    Secretary Locke. Well, thank you, Madam Chairman.
    Senator Mikulski. And do you have the money and the 
resources and the policy to do it?
    Secretary Locke. Well, first of all, when the President 
took office, we had a backlog of some 800,000 applications. The 
average waiting time is more than 3 years to get a patent 
determination. Our goal is to get it down to what the industry 
believes is anywhere from 18 to 20 months.
    But we are also creating what we consider an express line 
service for those who really believe that they need a patent 
determination as quickly as possible for a very small extra 
fee. And under patent law legislation, if it is passed by the 
full Congress, we will have the ability to reduce that extra 
fee dramatically for small inventors and small businesses.
    But the idea is that for a very small extra fee, we will 
guarantee express service and patent determination within 1 
year. But we are dramatically reducing the backlog, working 
with organized labor, managers, and line staff. We are 
completely transforming USPTO to be much more efficient.
    And as I indicated, even though we have had a surge of 
applications by 7 percent, we have actually reduced the backlog 
by 10 percent. And----
    Senator Mikulski. So what does that add up to? So you have 
had 7 percent more where it shows that America is bursting with 
ideas. I mean, would you say we are bursting with ideas?
    Secretary Locke. You know, we are one of the most 
innovative and intellectually stimulating countries around the 
world, and that is why we are creating these jobs and new 
technologies. But we need to make sure that people can get the 
patent so that they can get the funding that they need to start 
that new business. It is like going to a bank. If you don't 
have a patent----
    Senator Mikulski. No, we got that. So how long is the 
backlog?
    Secretary Locke. The backlog is almost, I believe, below 
700,000.
    [The information follows:]

    The patent application backlog as of April 30, 2011, is 706,778 
applications.

    Senator Mikulski. So if I came now with--if a biotech 
entrepreneur out of Maryland came with an idea for, say, breast 
cancer, or cognitive stretch-out for an Alzheimer's disease, 
how long would they be in line?
    Secretary Locke. I believe if they were to file a patent 
application today, they could expect to have a patent 
determination probably between 2 to 3 years. And if they pay an 
extra fee of $2,000 under our proposal, which will commence in 
about 2 weeks, they will be able to get that patent within 1 
year.
    Under our proposal, if patent law legislation passes--and, 
of course, it passed overwhelmingly in the Senate; it needs to 
clear the House--but for a small inventor, our proposal is to 
charge only $1,000 extra, and they will be able to get their 
patent within 1 year.
    We are also saying that for a lower fee, you can actually 
delay your patent processing if you don't, let's say, need it 
within 5 or 6 years. Let us say you are seeking Food and Drug 
Administration (FDA)approval on something that is going to take 
a long time. You don't need that patent application. So we are 
actually creating three different lines.
    The regular line under our goal should be 18 to 20 months. 
That is what the industry believes is a reasonable period of 
time: A slower line for lower fees and for a slightly higher 
fee, express service in which you will get it within 1 year.
    Senator Mikulski. Okay. Well, thank you.
    As you can see, my time is actually up. So I am going to 
turn to Senator Hutchison.
    But my line of questioning will be, let us protect the 
ideas. Then I am going to ask you about NIST, which is to 
create the standards, so that your product meets American 
standards. We don't yield to a Chinese standard. And then how 
we sell our stuff around the world. So jobs today, jobs 
tomorrow.
    Secretary Hutchison, Secretary--oops.
    Senator Hutchison. Never. Thank you, Madam Chairman.
    Senator Mikulski. Senator Hutchison.

                       DEPARTMENT FUNDING LEVELS

    Senator Hutchison. Thank you very much.
    Let me just talk to you because, obviously, we are all 
looking for places to economize and prioritize our spending for 
efficiency. Your request is $5 billion below the fiscal year 
2010 enacted levels. However, with the $6 billion that was 
allocated on the once-every-decade census, it is actually an 
increase in your budget. Where are you trying to cut excess or 
outdated programs?
    Secretary Locke. Well, you are correct. We need to take out 
the one-time census activity. And if you look at the 
President's proposed 2012 budget compared to the 2010 enacted 
without the census, after you back out the census, it is 
roughly $1.3 billion--excuse me, it is $822 million----
    Senator Hutchison. Increase.
    Secretary Locke [continuing]. Above the 2010 enacted 
census. But we need to understand that almost $810 million of 
that increase or that differential is just for the satellite 
program alone. Almost $687 million just for JPSS, but $810 
million for all the satellite programs, and it is absolutely 
vital that as we move forward on the replacement for some of 
our polar satellites, which are degrading, whose useful life is 
coming to an end, that we have a replacement in mind or 
replacements in place.
    With respect to the savings, we have come up with savings 
on administration, especially acquisition reform--major savings 
on acquisition reform that is assumed in the budget. We are 
already making progress on that. We are trying to consolidate 
our acquisition programs and use the best practices throughout 
the agency instead of having each bureau have their own 
different types of acquisition programs, also in terms of 
consolidation of some of our IT programs and also our fleet 
management.
    But we have actually gone through a whole host of programs 
line by line to figure out what things really are not as high 
priority, because we know that we are in a period of limited 
resources. We cannot do everything. We need to really focus on 
our strengths, and that means cutting back on things that are 
not as important.

                  CONSOLIDATION OF U.S. TRADE AGENCIES

    Senator Hutchison. Well, following up on that, in the 
President's State of the Union Address, he mentioned the fact 
that multiple agencies have responsibility over trade. And I 
think he is right. You have got the United States Trade 
Representative (USTR), Export-Import, International Trade 
Commission, and the ITA.
    Can that be consolidated under Commerce, and are there any 
ongoing plans to try to put all of the different trade-related 
agencies under the Commerce Department?
    Secretary Locke. Well, the President has directed such an 
effort and issued an order, and those results, those 
recommendations are to be presented to the President within 
about 60 days.
    [The information follows:]

    The review on consolidating U.S. trade agencies is scheduled for 
June 9, 2011.

    Senator Hutchison. But are you in an effort right now where 
you have the beginnings of a proposal for the President?
    Secretary Locke. Well, actually, that effort is being led 
by Deputy Director of the Office of Management and Budget 
(OMB), Jeff Zients. And he has been meeting with both 
stakeholders--using all the different trade agencies that take 
advantage of the various functions of the various trade 
activities within the Federal Government, interviewing our 
folks, looking at all of our programs--and meeting with all of 
the other agencies that are involved in trade, whether Export-
Import Bank, Small Business Administration, U.S. Trade 
Development Agency, the USTR's office, and so forth.
    Senator Hutchison. Okay. Let me just ask you this. Do you 
think that--do you support putting everything in the Department 
of Commerce that is trade related? And do you think it all 
works, the different factors? Obviously, they are all doing a 
little bit different things, but with the same goal.
    Secretary Locke. Well, I am not sure that all the different 
trade activities belong in the Department of Commerce. Some of 
them are more State Department oriented and related to 
improving our image around the world using trade and 
incorporating U.S. businesses in some of those development 
projects.
    But clearly, there needs to be better coordination and 
elimination of overlap and duplication. So we look forward to 
the recommendations that would be presented to the President. 
But however these agencies and activities are coordinated or 
eventually configured, we are very proud of what we have been 
able to do and the benefits that we are bringing, especially to 
small- and medium-size companies, helping them sell around the 
world, where 95 percent of the world's consumers live outside 
the borders of the United States.
    And yes, American companies need to increase their market 
share and their growth within America. But if they want to 
diversify, if they really want to sell, if they want to create 
more employees here at home, we need to help them sell around 
the world.

               REORGANIZATION OF EXPORT-RELATED AGENCIES

    Senator Hutchison. Well, thank you. Thank you, Madam 
Chairman.
    Senator Mikulski. Senator Brown.
    Senator Brown. Thank you, Madam Chair.
    I want to follow up on some of the comments of Senator 
Hutchison about reorganization. But first, brief comments about 
your discussion of innovation, how we can out-compete and out-
innovate anyone in the world. We do that, and this, the article 
a year ago that Andrew Grove wrote that I am sure you saw about 
how we have fallen short as a Nation in scaling up after we 
out-compete and out-innovate. And over time, as we move 
manufacturing jobs overseas, the innovation that takes place on 
the shop floor is taking place in other countries instead of 
taking place here. And ultimately, we don't out-compete and 
out-innovate. So my question--or first, Senator Kirk and I, 
Mark Kirk and I introduced a bill, the National Manufacturing 
Strategy Act, which I think plays into some of this.
    The administration, I understand, is right now examining a 
reorganization of export-related agencies. Some suggestions for 
reorganization include only consolidating export promotion with 
other reorganization options, including both export promotion 
and all trade functions, including the USTR. How do you see 
this happening?
    Is this more likely--is this going to lead to a 
manufacturing strategy, per se? The legislation Senator Kirk 
and I introduced would pretty much say to the Commerce 
Department, come up with a manufacturing strategy, report to 
the Congress how you are doing it on a regular basis, because 
we really are the only major industrial power in the world that 
doesn't have a manufacturing strategy.
    It is as Chairwoman Mikulski said; it is not picking 
winners and losers. If we have picked winners and losers in 
this country, 20 years ago, we picked finance as the winner and 
manufacturing as the loser. And I am not saying pick any part 
of any industry.
    But manufacturing is such a key component of exports, such 
a key component of creating a middle class. So talk to me about 
how you see that organization in terms of manufacturing.
    Secretary Locke. Well, obviously, as we look at 
reorganization and greater effectiveness of our trade agencies, 
manufacturing plays a key role in our exports, in our trade 
promotion, because so much of what we, in fact, make is 
exported. And in fact, virtually half of the economic recovery 
in the last 2 years has been driven by exports, and we know 
that exports of manufactured goods are primarily what we in 
fact ship around the world.
    And we need to have that policy to promote manufactured 
goods. And that is why Ron Bloom, who works in the White House, 
is helping direct that effort. And both the Commerce Department 
and, I am sure, Mr. Ron Bloom are more than happy to work with 
you on the legislation that you and Senator Kirk have proposed.
    But clearly, to create more jobs in manufacturing and to 
support our manufacturing base, we need to create the 
environment for that economic recovery. We need to invest in 
innovation and especially work with those manufacturers who may 
not on their own be able to engage in the research and 
development (R&D) with respect to new technologies and new 
manufacturing items.
    And we need to focus on helping those companies sell those 
``made in USA'' goods around the world. I am pleased to report 
that under the President's NEI, which seeks to double exports 
by the year 2015, we are on track to do that, despite some of 
the predictions by experts that that was an impossible task 
when the President announced that.
    In 2010, the first year of the NEI, we have increased 
exports by 17 percent. Goods exports were up 23 percent more 
than 2009. And in the first few months of 2011, exports are up, 
of which manufactured goods make up the bulk of those exports. 
In fact, I think January 2011 was the biggest exporting month 
in the history of the United States. And our exports of goods 
even to China were up 32 percent in 2010 over 2009.
    But we also have to enforce our trade laws. We need to make 
sure that American companies have a level playing field, and we 
are talking about not just tariff, but nontariff barriers, 
whether it is customs rules in Russia to discriminatory 
policies that might favor products from another country versus 
American products. So we have to really focus on that whole 
panoply of strategies to support manufacturing, because 
manufacturing is the bulk of the things that we export.
    Senator Brown. Thank you.
    Mr. Secretary, one other question. I sit on the President's 
Export Council and appreciate the work that you are doing on 
the export initiative. I have set up a sort of similar advisory 
committee in Ohio, as you and I have discussed, to give me 
input on what we should be doing with the President's NEI.
    I think this is more than anecdotal. We are seeing an 
increasing amount of in-sourcing, foreign investment in the 
United States. Foreign companies in the United States have a 
significantly higher unionization rate than other companies in 
the United States overall. They tend to invest in 
manufacturing, as you suggest. They spend on R&D. They account 
for about 20 percent of U.S. exports.
    So tell me what you are doing, as specifically as you can, 
to attract foreign investment here, especially foreign 
investment in manufacturing.
    Secretary Locke. We actually have a program called Invest 
in America, and we have plans and proposals to enhance that. We 
are developing, for instance, a Web site that would feature all 
the various tax incentives and economic development proposals 
or incentives that each State offers. That will be online, so 
that companies around the world, and investors, entrepreneurs 
around the world can look at the opportunities and understand 
what is available in America.
    So many people who want to come to the United States or 
think about coming to the United States think of the United 
States as a monolithic structure, not realizing that the 
incentives in Ohio may differ from the incentives of California 
or Georgia, all the way from tax issues to economic development 
assistance to education programs. So we are trying to make that 
all available online.
    And so, those are just some of the strategies. But clearly, 
we do not do enough as a country to attract foreign direct 
investment into the United States, creating jobs. I mean, for 
instance, the BMW plant that opened up in South Carolina 
manufactures their 300 series automobile there, and yet 25 
percent of those automobiles being built in that plant are for 
export.
    And we are now beginning to see many other U.S. companies 
and foreign companies trying to establish their operations here 
for manufacturing, bringing some of that back to America. And I 
have come across so many companies that used to make their 
stuff, produce very heavy machinery, equipment, dredging 
equipment overseas, and they actually find it cheaper now to 
build it in the United States with all the efficiencies, the 
R&D that they are able to incorporate together.
    And of course, that ``made in USA'' brand is highly valued 
and in great demand all around the world. We need to help those 
small- and medium-size companies sell more of that around the 
world, take advantage of the great cache that ``made in USA'' 
brand has.
    Senator Brown. Thank you, Mr. Secretary.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Murkowski, I know we normally 
would turn over here. But Senator Lautenberg came first, and I 
know you were getting caught up on the hearing. May I go to him 
and then come back to you?
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Madam Chairman, and thanks, 
Senator Murkowski.
    That may have been, Madam Chairman, a slip of the lip 
because we know that Mr. Locke is likely buying a long-term 
ticket to go elsewhere, and therefore, Senator Hutchison might 
be an eligible person for that position. So----
    Senator Mikulski. If we had a Democratic Governor in Texas, 
it might be a good idea, but----
    Senator Lautenberg. Ah, conversion.
    Mr. Secretary, you have done a great job there at Commerce, 
and we are pleased to hear about some of the good things that 
are happening. One place that we know that competition is so 
keen is in the area of research and science engineering, and 
the fact that we have roughly 700,000 applications waiting for 
review at USPTO while China proceeds, and they have opened up, 
apparently, a series of satellite offices. It is something that 
I think we have to take a look at.
    I am going to be in China next week, and we are going to 
discuss that as one of the issues. And has there been any 
thought here to making services available--easier, 
geographically, by the opening of satellite offices?
    Secretary Locke. Yes, very much so. In fact, we have 
already announced the intent to open up the first satellite 
office in the history of USPTO, and that would be the first one 
in Detroit. We are working under the Senate bill that passed. 
It calls for three additional satellite offices. That is 
something we very much support.
    We believe that it is very difficult to attract workers to 
USPTO if they only can work in Washington, DC. We also believe 
that one of the ways in which we can reduce significantly the 
backlog of USPTO is to allow interaction between the applicant 
and the examiner, whether face-to-face, especially if we are 
able to have satellite offices, or by teleconference and 
videoconferencing. But especially face-to-face instead of 
passing paperwork back and forth or emails, but actually 
discussing the application itself and going over----
    Senator Lautenberg. Well, New Jersey, and Mr. Secretary, I 
remind you, is a place where a lot of patents are created. And 
it is right in the middle of the New York/New Jersey 
marketplace. So as you think about it, I hope that you will 
come back from China and visit with me when we open that 
office. So thanks for your thoughts there.
    China's undervalued currency reduces American exports, 
increases our imports and contributes to a $273 billion trade 
deficit with China last year. We pushed for China to revalue 
its currency, but our trade deficit remains stubbornly high. 
What are we doing to fix this problem?
    Secretary Locke. Well, first of all, Secretary Geithner has 
spoken at length about it and clearly outlined United States 
policy and our goals with respect to the Chinese currency. In 
the meantime, the Commerce Department has reinforced those 
messages in all of our meetings with top Chinese Government 
leaders, and I know that President Obama has raised that in his 
meetings with the Chinese leaders.
    But we, at the Department of Commerce, can address that 
trade imbalance by helping American companies export more of 
their goods and services. We have had reverse trade missions, 
bringing several hundred trade shows in the United States, 
bringing foreign buyers to those trade shows. And just last 
year alone, we were able to help American companies through 
those trade shows with foreign buyers accumulate or log almost 
$750 million worth of sales.
    We have had numerous trade missions to China, and just last 
year alone, I had one focusing on clean energy. And immediate 
sales were around $50 million just from a host of companies 
that we took, focusing on clean energy. Exports of goods to 
China in 2010 were up 32 percent more than the previous year. 
That compares with increase of exports of 23 percent for goods 
to all countries around the world.
    So we are focusing on China. There is a great demand in 
China for ``made in USA'' goods and services because there is a 
huge need for medical devices, for education, for engineering, 
to address clean water systems, and also for our food. And so, 
we are targeting China very aggressively to help American 
companies.
    Senator Lautenberg. But Mr. Secretary, the problem of their 
valuation of their currency does place us at a distinct 
disadvantage. And obviously, it produces a different kind of 
living standard there than we have here. So I think that this 
pursuit has to be picked up, and hopefully, we will begin to 
see a change there.
    And I would just finish my questions by making a suggestion 
here, that when I hear about express patent review, it says 
that the big guys, those with a lot of money, can continue to 
be in the first-class seats. Whereas the smaller business, the 
startup company, is looking for ways to get into the 
marketplace, and I don't think it is quite fair on balance to 
say if you have got the money, you go to the head of the line. 
If you don't, you are back further.
    Secretary Locke. Well, that is why, Sir, we are focusing on 
overall reduction of the patent pendency period from the 
unacceptable 38 months on average now to what the industry 
believes is a proper timeframe of 18 to 20 months, to ensure 
that there is an opportunity to publish the proposals, to make 
sure that others who feel that they should not be granted have 
an opportunity to weigh in and offer their views.
    But right now, the cost, all fees, the combination of fees 
that a small entrepreneur or small businessperson would pay for 
a patent application is $1,000. And under our proposal, for an 
extra $1,000, that would be the fee to the small innovator/
inventor to go through and use the express line. The big 
companies pay substantially more than that.
    But when you really look at the cost, for instance, of 
lawyers' fees to prepare that patent application, oftentimes, 
those legal fees are $20,000, $30,000. So all we are talking 
about is an extra $1,000 for the small innovator/inventor.
    Senator Lautenberg. Thank you very much, Madam Chairman.
    Senator Mikulski. Senator Murkowski.

                          CATCH SHARE PROGRAMS

    Senator Murkowski. Thank you.
    Mr. Secretary, welcome and thank you for your leadership.
    I want to talk fish a little bit this morning. Coming----
    Senator Mikulski. I knew we would get to fish.
    Senator Murkowski. Yes, you have got to do fish. But coming 
from the Pacific Northwest, I have got an ally here. He knows 
and understands fish, and we appreciate that. But coming from a 
State where we have got about one-half the coastline, more than 
one-half the coastline in the United States, we pay attention 
to what goes on within the NOAA budget, and National Marine 
Fisheries.
    So I want to just bring up the issue this morning. As you 
know, we have the most abundant fisheries in the Nation. We 
have the most sustainably managed fisheries in the Nation. We 
have averaged nearly 5 billion pounds a year for the past 20 
years, account for nearly 60 percent of the fish that are 
harvested within this country.
    We employ, well, I guess it is more than 60,000 Americans 
that are directly or indirectly employed in the industry. And I 
think, as we look to the contribution of the fisheries, 
certainly from Alaska's perspective, we recognize that the 
single most common trait seen among the fisheries and the 
communities is their dependence on well-managed marine 
resources, and our fisheries rely very heavily on good science 
and proper guidance from the resource managers.
    We know that the better job that we can do, the more we are 
able to benefit those within the industry. And we are able to 
have sustainable fisheries. We have the largest fishery 
observer program in the Nation. It is the only one where the 
industry pays all of the direct cost.
    Now, North Pacific Fisheries Council is restructuring the 
program to support the existing catch share programs and the 
stock assessment needs, and industry is eventually going to pay 
for the increased observer coverage. But what is needed is that 
startup funding.
    So the question to you this morning is whether or not you 
anticipate that NOAA will fund the startup implementation costs 
that are needed for the program. Where are we on that?
    Secretary Locke. We have requested in the--the President 
has requested in the 2012 budget additional funds for the catch 
share programs. And we are trying to figure out how we can use 
those dollars, knowing that the initial transition to catch 
shares is difficult, sometimes difficult. Although I want to 
emphasize that catch shares is a voluntary program. It is not 
imposed by NOAA. It is a decision of the Regional Fishery 
Management Councils if they want to go to a catch share 
program.
    [The information follows:]

    In regard to the plan for implementation of the requested funds for 
the National Catch Share Program, the requested increase of $36.6 
million, for a total of $54 million, in fiscal year 2012 will enhance 
the implementation of catch shares nationwide. The requested increase 
supports analysis and development of catch share programs, improved 
program management and infrastructure on a national level, and 
implementation and operation of specific programs such as by supporting 
observing and monitoring at-sea and on shore and enforcement 
activities. The following table shows the catch shares breakdown in the 
fiscal year 2012 President's request:

                  NATIONAL CATCH SHARE PROGRAM BREAKOUT
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
                                                           2012 request
------------------------------------------------------------------------
Activities and capabilities that support catch share          \1\ 10,550
 programs...............................................
Support requests from Regional Fishery Management              \1\ 2,000
 Councils for analysis and development of new catch
 share programs.........................................
                                                         ===============
Implementation and operations of specific catch share
 programs:
    Continue support for existing Limited Access                   6,000
     Privilege programs.................................
    NE multispecies sectors.............................           5,400
    Cooperative research................................           6,002
                                                         ---------------
      Subtotal, base funds moved into the National Catch          17,402
       Share Program line...............................
                                                         ===============
    NE multispecies sectors.............................           4,350
    Pacific trawl individual transferable quotas........          11,847
    Gulf of Mexico Grouper/Tilefish individual fishing             6,850
     quota (IFQ)........................................
    Alaska Halibut Sportfish IFQ........................           1,003
                                                         ---------------
      Subtotal, fiscal year 2012 funds specific to each       \1\ 24,050
       fishery..........................................
                                                         ---------------
      Total, Implementation and Operations of specific            41,452
       catch share programs.............................
                                                         ===============
      Total.............................................          54,002
------------------------------------------------------------------------
\1\ These funds equal the requested program change of $36.6 million for
  the National Catch Share Program.

     activities and capabilities that support catch share programs
    Funding under this line item will support activities and 
capabilities common to many catch share programs that are more 
efficient to implement at a regional or national level, rather than 
managing each specific catch share program individually. Examples of 
such activities include overall program management, improvements in 
fishery dependent data collection systems to support future catch share 
programs, quality control on historic catch data to support individual 
or group allocations, fishery data management, social and economic data 
collection or analysis, and adjudication of administrative appeals by 
program participants. In addition, funding requested under this line 
item would also support electronic reporting and quota accounting. Some 
regions have implemented catch share programs, and therefore have a 
base of expertise and capability to add additional programs. Other 
regions need capacity building to begin development of, and will likely 
eventually implement and operate, catch share programs.
support requests from regional fishery management councils for analysis 
              and development of new catch share programs
    The National Atmospheric and Oceanic Administration's (NOAA) fiscal 
year 2012 budget request includes $2 million for analysis and 
development of new catch share programs through the Regional Fishery 
Management Council (Council) process. Catch share programs typically 
take several years of analysis, stakeholder participation, and Regional 
Council deliberation before being adopted. Catch Share programs are 
typically more complicated than other fishery management plan 
amendments, and thus carry increased costs for analysis of alternatives 
and their impacts. Special stakeholder committees and workgroups, 
requiring funds for staff support and meetings, are often established 
to advise the Regional Council on appropriate alternatives.
     implementation and operation of specific catch share programs
    NOAA's fiscal year 2012 budget request includes support for 
implementation and operation of four new catch share programs:
  --Gulf of Mexico grouper;
  --Northeast groundfish;
  --Alaska Halibut Sportfish; and
  --Pacific groundfish.
    Following Regional Council adoption and Secretarial approval of a 
catch share program, an implementation period of 1 to 2 years is 
common. Key implementation activities include hiring management and 
enforcement staff, establishment of program specific share accounting 
databases and reporting systems, identifying eligible participants, 
issuing catch shares, and computing annual quota for each participant. 
The operational costs include program administration, monitoring, 
enforcement, cooperative research, and science evaluation for new 
programs as well as potentially for existing programs.
    In regard to the restructuring of the Alaska Observer Program, the 
North Pacific Council (Council) and industry groups in the region have 
been at the forefront of fisheries management, including the use of 
catch share programs, for a long time. The current North Pacific 
Observer program supports the North Pacific and Bering Sea Groundfish, 
Trawl, and Fixed Gear Fishery. A restructured program will expand 
observer coverage, including smaller vessels in the groundfish fishery 
and the halibut/sablefish fishery. Under this restructured program the 
Council and National Marine Fisheries Service are planning for the 
collection of fees to arrange contracts to support more observers and 
reduce conflict of interest. National Oceanic and Atmospheric 
Administration recognizes the value of startup funds as these fisheries 
transition to this restructured observer program and the importance of 
the restructured observer program to overall fisheries management in 
the region. NOAA is working closely with the Council to identify ways 
to support this need, however all fiscal year 2012 funding is 
contingent upon final congressional appropriations.
    Funding requested in the fiscal year 2012 President's budget for 
catch shares supports activities specific to catch share programs such 
as share accounting databases, electronic reporting systems and other 
infrastructure and operational needs and may be used to support both 
new and existing catch share programs. NMFS is encouraged by the 
efforts of the North Pacific Council and the fishing industry to 
provide industry funding to support the observer program in the out 
years, thus requiring a one-time Federal funding initiative only to 
transition from the status quo to the restructured observer program.
    Catch share programs are not mandated by NOAA and are not 
appropriate for all fisheries. Under NOAA's catch share policy, NOAA's 
role in catch shares program development is a commitment to supporting 
Councils, fishing communities and all stakeholders in evaluating catch 
shares as an option for sustainable fisheries management. The 
discretion for determining whether to develop a catch share program 
rests with the Councils. If a Council decides to pursue a catch share 
program, NOAA will provide technical expertise and support to the 
Council, fishing communities and stakeholders in design and 
implementation of the catch share program. Once the program is 
implemented, an individual fisherman usually must participate in the 
catch share in order to participate in the fishery, unless the 
Fisheries Management Plan retains a common pool (e.g., as was done in 
the Northeast groundfish fishery). For more information about the catch 
share policy please see here: http://www.nmfs.noaa.gov/sfa/domes_fish/
catchshare/index.htm.

    Secretary Locke. But we have requested additional funds for 
the catch share programs because we have seen their tremendous 
benefits, especially in the Pacific Northwest and along the 
west coast, and it is very much embraced by the fishing 
community there.

                           STOCK ASSESSMENTS

    Senator Murkowski. Well, we would like to be kept abreast 
on that because the concern, of course, is that if the startup 
funds aren't in place, then program implementation may be 
delayed. I don't think that anyone gains from that.
    I am concerned about the strength of the fisheries 
assessments out there, what will happen with the programs. And 
we are looking at the budget very, very critically.
    There is an increase in the fiscal year 2012 funding 
request for the stock assessments, but I am concerned that we 
won't be able to perform all of the fish surveys in Alaska this 
summer. Can you give me kind of--well, I guess what I am 
looking for is some assurance that, in fact, NOAA will be able 
to perform the fish surveys that we have on the schedule at 
this point.
    Secretary Locke. We know how important these assessments 
are to update the scientific information so that we can make 
good decisions and so that the councils are able to have the 
information they need by which they can set annual catch 
limits, or the limits on fisheries. Because first and foremost, 
we know how important the fisheries are, how many jobs they 
provide, and the value of that food to the American public and 
to, indeed, people around the world.
    We have got to make sure that we end overfishing and that 
we are on a course to rebuild the stocks, because we know that 
if we have robust stocks, we will have even more fishing and 
that will create the jobs for the people who depend on it, as 
well as the seafood for American consumers. And that is why we 
have to have that up-to-date information, and that is why the 
President has requested a significant enhancement in the funds 
for those assessments.
    And we will focus on the priority stocks that will make a 
big difference. And so, it all depends on the level of funding 
that we will have, quite frankly.

                        MARINE SPATIAL PLANNING

    Senator Murkowski. Well, I understand that. But I 
appreciate your assurance and just the recognition of the 
significance of making sure that we have got that good, sound 
science upon which to base these fisheries decisions.
    I have several more questions that I will submit for the 
record. But just as my time is expiring here, I want to bring 
up the National Ocean Policy and the framework for the coastal 
and marine spatial planning. As you know, Alaska is not one of 
those regions where there are user conflicts. We are our own 
region up there. We don't necessarily want this as a planning 
tool.
    What we really need is environmental data collection, 
mapping, integration, and all of that, and I hope that as you 
are looking to how you make priorities within the Department, 
within the agency, that you would work to implement marine 
spatial planning in those areas where they are seeking that. 
And in those areas where they are not seeking that, save your 
dollars and allow States like Alaska, whole regions like Alaska 
to proceed. Give us the environmental data, but don't include 
us in that marine spatial planning at this point in time.
    Secretary Locke. We are very aware of the concerns of your 
constituents and your stakeholders about this issue.
    Thank you.
    Senator Murkowski. I appreciate that. Thank you, Mr. 
Secretary.
    Thank you, Chairman.
    Senator Mikulski. Senator Reed.

                         NEW ENGLAND FISHERIES

    Senator Reed. Thank you very much, Madam Chairman.
    Let me change the locale, but not the topic. You have heard 
a lot of issues about fishing from New England. First, let me 
thank you, Mr. Secretary, because you are sending up EDA 
assessment teams to our ports, and that is deeply appreciated.
    But as you know, there is a great deal of concern not only 
in Alaska, but in New England, on fishing policy. The Rhode 
Island fishery is much more diverse. It is not simply 
groundfish. And one of the key elements of our fishery is the 
American lobster, and there have been some proposals that would 
cause basically a 50 percent reduction in catch, which would 
put us out of business.
    And I would ask if you would work with NOAA to start 
thinking in terms of more creative management of the species, 
working with the industry. It is going to require some 
resources to do that, rather than adopting this arbitrary and 
significant cut. Could you do that?
    Secretary Locke. Well, thank you very much, Senator Reed.
    Of course, the management of the lobster industry in your 
area is under the province of State commissions because we are 
talking about a fishery that is in State waters where NOAA has 
no jurisdiction, and these are very tough decisions that the 
State commissions have to embark upon.
    Nonetheless, we pledge our full support and all the 
scientific information at the disposal of NOAA to help the 
State decisionmakers do the right thing and develop the 
policies that will, hopefully, bring the lobster industry back 
and to have a very strong lobster fishery.
    Senator Reed. I mean you are absolutely right about the 
initial regulatory authority. But NOAA routinely adopts these 
regulations for Federal waters, and we do have some activity, 
not as pronounced, but some activity in Federal waters. But 
also NOAA, because of its leadership on a lot of these issues 
through marine fisheries, has the ability, I think, to be very 
influential in trying to develop alternatives in terms of 
managing catches.
    So it is those alternatives, together with their, if not 
official, their unofficial authority that I would like to see 
invoked. Could you do that?
    Secretary Locke. We would love to work--bring all of our 
experts at NOAA to help the States develop good policies that 
can bring this fishery back and reverse this decline in the 
lobster.

                          COOPERATIVE RESEARCH

    Senator Reed. And there is a proposal in the President's 
budget to cut, and I echo some of the comments of my colleague, 
cooperative research and fisheries. And again, it is vital 
across the country.
    And the other issue here is sort of the very limited, or 
concentration of institutions that get this money, and I would 
ask you to not only comment on the cooperative research effort, 
but how you engage in a broader representation from the fishing 
community and from affected interests?
    Secretary Locke. Well, cooperative research we think is 
very, very valuable and should have a very significant place as 
we update our stock--our assessments involving the fishing 
community in determining how much fish is out there. If they 
are part of the process, then I think they have greater 
confidence in the results. And so, I think cooperative research 
is something that we need to--that I personally have favored 
and am trying to enhance within the limited dollars that we 
have.
    Senator Reed. Well, I think one of the issues is the 
limited dollars. I mean, that is an area that not only 
provides, as you well point out, Mr. Secretary, the accurate 
science, but also the legitimacy within the fishing 
communities. But it also puts boats out at sea----
    Secretary Locke. That is right.

                          CATCH SHARE PROGRAM

    Senator Reed [continuing]. In a time at which they have to 
pay the rent and the mortgage and the gasoline, et cetera. So I 
would urge you to relook at those numbers.
    A final point here is that I note in this year's continuing 
resolution that there is language preventing any new catch 
share programs. And catch share management is a controversial 
issue, but can you give us, sort of, the logic, together with 
those steps you are taking to improve the existing catch share 
programs?
    Secretary Locke. I am sorry. I didn't quite understand that 
last part of the question.
    Senator Reed. There are existing catch share programs, and 
there is some controversy involved with them. Are you looking 
in any way to try to improve the efficiency of these programs, 
their acceptance, and their legitimacy in the eyes of the 
fishing community?
    Secretary Locke. Yes, we are. We know that we have problems 
in some areas of the country with respect to the existing catch 
share program. We need to make sure that as we, for instance, 
determine that there are more stock available through these 
assessments, that we are able to make sure that there is a 
sharing of that additional stock that can be fished by, 
perhaps, those who are not part of the catch share program.
    And so, we need more information. We need more frequent 
assessments because we know how the transition has been 
difficult and that not all are getting the benefits of the 
catch share program. But again, the catch share program is 
voluntary. It is not imposed by NOAA. That is made at the 
direction--or, at least, decisions to embark on catch shares 
are made by the Regional Fisheries Management Councils.
    But I can tell you that we think that catch shares is a 
better way of approaching fishing in many parts of the country 
because instead of a race for fish, which oftentimes puts 
fishermen at risk-- their safety--it allows for a more 
methodical, planned way in which fishermen can reach their 
limits and go after the very best stock and perhaps the most 
economically prized or valuable stock.

               MID-ATLANTIC FISHERIES MANAGEMENT COUNCIL

    Senator Reed. Let me make a final quick point, and that is 
you raise the issue of the fishery councils, the management 
councils, the Mid-Atlantic Fisheries Management Council. Rhode 
Island lands more fish than any other State except New Jersey, 
and we don't have representation on there. So you might read 
about this in Beijing. We are going to try to get that amended 
so we can put someone on the council.
    Secretary Locke. And of course, I understand the concern 
that you and the fishing industry from your State have about 
that representation. That is set by legislation, set by the 
Congress and not by NOAA.
    Senator Reed. Thank you.
    Senator Mikulski. Senator Reed, is that membership a 
legislative initiative?
    Senator Reed. It is, Madam Chairman. And we have tried in 
several different years to alter the composition, and we will 
try again. And your support would be deeply appreciated.
    Senator Mikulski. Well, you know, we are a part of that, 
too. No, no, it has literally like been the zoning commission 
for fish.
    Senator Reed. Indeed, as the Secretary points out, it sets 
catch limits. It does lots of very critical things, and one-
half the landings are--we are one of the most significant 
participants in that area, but we don't have representation.
    Senator Mikulski. Well, I want to hear more about that.
    Senator Reed. Thank you.
    Senator Mikulski. Senator Feinstein.
    Senator Feinstein. Thank you very much.
    And Mr. Secretary, congratulations on your nomination. We 
look forward to that confirmation and see you going on to great 
new heights.
    Secretary Locke. Thank you.

                       CALFED BIOLOGICAL OPINION

    Senator Feinstein. You are welcome.
    I wanted to take you into the heart of California water 
versus fish. And of course, that is the Sacramento delta area. 
We are 38 million people. We are the largest agricultural State 
in the Union. And we also have fish, and we prize that.
    I have come to have considerable question about the 
biologic science, two cases in Interior and one in yours. So I 
would like to go to the salmon opinion, if I might, for a 
moment. This opinion has been criticized by the National 
Academy of Sciences (NAS). It is the subject of ongoing 
litigation. United States District Court Judge Wanger has been 
critical of parts of the biological opinion, but has yet to 
issue a final ruling. He did enjoin the smelt opinion.
    This year, we have had a bumper crop of water. So water is 
likely not going to be the problem with respect to operation of 
the pumps this year. Given that it appears likely that Judge 
Wanger will overturn at least portions of NOAA's biological 
opinion on the salmon, what is NOAA doing to proactively come 
up with a science that is more sustainable, more credible, and 
more protective of both the salmon and the livelihood of south 
of delta farmers?
    Secretary Locke. Thank you, Senator Feinstein.
    And I have always appreciated the opportunity to work with 
you and the other members of the California delegation on this 
very, very important, very contentious, and very complicated 
issue.
    We have taken some of the recommendations of NAS to heart. 
We are working with, in fact, Interior on how we can 
collaborate more, and they regulate and preside over the smelt, 
and we are presiding over the issues dealing with salmon. We 
have got to bring all of our scientists together.
    Senator Feinstein. That doesn't make sense to me.
    Secretary Locke. We need to really bring our scientists 
together and come up with a comprehensive strategy and 
biological opinion. We want flexibility, and we are prepared to 
exercise greater flexibility if we can, working with the 
stakeholders, come up with different ideas by which we can 
achieve the same objective.
    We all have that objective. How do we protect the salmon, 
which are so important to commercial and recreational fishermen 
and a very important part of the economy of California? But we 
have got to do it in a way that we are not also harming the 
agricultural community, because so much of America depends on 
the agricultural output of California and certainly the delta 
there.
    And of course, you need water for the other parts of 
California, southern California for their growing communities 
as well. So it is water for fish. It is water for agriculture. 
It is water for people. And we have got to strike that balance.
    And so, we are having our scientists go back, look at all 
the different ideas, and I know that, for instance, there is a 
proposal of a solid barrier in part of the delta. We are very 
excited about that. We want to engage with the stakeholders, 
local folks on research, demonstration projects as quickly as 
possible to see if we can use that to solve some of the water 
problems and provide sufficient water for people, fish, and 
agriculture.
    Senator Feinstein. You see, the problem I am having, and I 
really appreciate what you have said, is with the smelt 
opinion. Seven smelt could stop the pumps. Smelts are smaller 
than the size of a finger. Nobody knows how many smelt there 
are. Nobody knows how many predator fish there are, and no one 
knows the impact of ammonia releases from inadequate sewage 
treatment plants into the delta. And we have now asked NAS to 
take a look at other stressors, which would include those that 
I have just mentioned.
    In the salmon opinion, which concerns me greatly, it is not 
only the delta where the problem is. It is the rivers up north. 
It is the ocean. It is the coast. And I somehow wonder how 
biologists come up with these opinions that really don't stand 
the test of scrutiny, which NAS--which I believe to be the 
premier body with respect to this.
    So I happen to believe that we need a new relook at how we 
do this science. And I hope that comes out of this effort.
    Secretary Locke. Well, I think that we have to understand 
that there are many factors affecting the survival of salmon 
and the return of salmon. It is not just the practices in the 
delta, operation of the pumps, but the use of pesticides and 
septic tanks and just sewage treatment.
    But then, what is happening with the oceans as well? And 
are some of the things happening in the oceans, whether it is 
the increasing salinity, to the rising temperatures of the 
oceans, are they also having an impact? And so, how much burden 
are we putting on other practices that are occurring, and 
conditions within the delta if, in fact, they are not 
contributing to the mortality or to the lack of returning 
salmon?
    So we need to really look at all of those factors and 
understand how much are really manmade.
    Senator Feinstein. Thank you very much. Just know there is 
very deep concern about this. I thank you for your work----
    Secretary Locke. But ultimately, I think we need to work 
with the local and State governments in terms of, how do we 
move that water, and how do we capture the water that is 
abundant during parts of the year, to have that available for 
movement whether in the spring or in the summer so that, 
ultimately, the challenge is, we need more water.
    We need more water, and we know that oftentimes there is 
water flowing at abundant levels at various times of the year 
that are flowing out to the ocean that will not--and the 
diversion of that, storage of that will not impact the salmon. 
And what type of devices, storage, and/or transfer mechanisms 
are available to take advantage of that abundance of water?
    Senator Feinstein. Exactly. Thank you. Thank you for your 
reasonableness, and I wish you well.
    Secretary Locke. Thank you.
    Senator Feinstein. Thank you.
    Senator Mikulski. We now turn to Senator Pryor from 
Arkansas.
    Senator Pryor. Thank you.
    Senator Mikulski. Now you don't have a coast?
    Senator Pryor. We don't have a coast.
    Senator Mikulski. You do have catfish?
    Senator Pryor. We do have catfish.
    Senator Mikulski. So my staff advises me that NOAA doesn't 
regulate catfish.
    Senator Pryor. That is correct.
    Senator Mikulski. It is classified as ``livestock''.
    Senator Pryor. That is correct.
    Senator Mikulski. Is that correct?
    Senator Pryor. That is correct.
    Senator Mikulski. And therefore, regulated by FDA and the 
Department of Agriculture?
    Senator Pryor. That is correct. That is right.
    Senator Mikulski. Okay. Well----
    Senator Pryor. We will have no catfish questions today.
    Senator Mikulski. But we could have a catfish lunch 
sometime.
    Senator Pryor. We can do that. We can certainly arrange 
that.
    Senator Mikulski. Well, I turn now to Senator Pryor.

           ADMINISTRATIVE SAVINGS--DEPARTMENTAL EFFICIENCIES

    Senator Pryor. Thank you, Madam Chair. Thank you very much, 
and Secretary Locke, always great to see you, thank you for 
being here today.
    I do want to focus--since I can't talk about catfish, let 
me focus on the President's budget request. And I know that in 
his proposal, he and you do things like trim spending here and 
there and try to eliminate programs that you may not need. One 
of those, apparently, is the Emergency Steel Loan Guarantee 
program.
    And I think you have come out and talked about how some of 
your administrative costs you are going to try to cut by maybe 
as much as $140 million through efficiencies in human capital, 
logistics, acquisitions, IT, and just general good business 
practices, and your administration of that. So could you just 
walk the subcommittee through what your vision is for trying to 
achieve those efficiencies within your Department?
    Secretary Locke. Well, it is my belief that we will never 
have enough money to do it all, and the more that we can focus 
on efficiencies, we are able then to free up people to focus on 
other aspects of the mission that are of a high priority, but 
not yet being addressed.
    And that includes the President's call for reorganization 
and efficiency among the exporting agencies, our trade-related 
agencies. That is what we are doing within the Department of 
Commerce in terms of looking at acquisition reform, motor pool 
operations and the use of technology to improve and speed up 
our processes.
    But if you are asking about the philosophy of all of these 
programs, it is that we need to take advantage of the 
technology that we are, for instance, issuing patents for and 
that the private sector is developing to improve our own 
operations. We have got to set very high-performance goals, but 
really trust the employees and the line staff, the career 
people that are here to really flesh out the details and to 
devise these--to provide the details for how we get from here 
to there.

             GOVERNMENT ACCOUNTABILITY OFFICE (GAO) REPORT

    Senator Pryor. In March--I am not certain that you have 
seen this. But in March, GAO issued a report that many of us in 
the Senate had requested about finding redundancies, waste, and 
inefficiencies in Government that we're missing right now. And 
they came up with a long list of items that basically touched 
on every department.
    And I am wondering if you have seen that GAO report and if 
you are already trying to implement some of those suggestions?
    Secretary Locke. I very much look forward to all the GAO 
reports and inspector general reports that comment on the 
Department of Commerce. And, for instance, we have taken to 
heart all of the inspector general reports, whether it is on 
NOAA, whether it is on our ITA, to acquisition reform, to the 
Census Bureau, and we have always tried to incorporate those as 
our metrics and as our priority action plans for improving the 
functions and the efficiencies and the operations within the 
Department of Commerce.
    And I am very pleased that the inspector general has 
commented on the incredible management reforms and efficiencies 
that have been carried out by each of our bureaus. Not that 
there isn't more work to be done, but we take to heart those 
reports and make those very much part of our performance 
measurements.
    Senator Pryor. Well, if you haven't had a chance to see 
this one, I hope that you and your staff will look at it, 
because this is more of a Government wide report. It is not 
just focused on your Department. But there are many very solid 
and thoughtful recommendations that GAO has made.
    Secretary Locke. Right.

                                  NEI

    Senator Pryor. The last question I think I will have time 
for is about your NEI. And I think exports are very important 
to this country. It concerns me when I see our trade deficit 
numbers, and I am not trying to blame other countries. I think 
some countries do put up barriers, and one of those could be 
currency barriers, but they could do lots of things that create 
barriers.
    I think that we should do everything we can on our end of 
the equation to try to maximize the number of exports to get 
this country working again, and those manufacturing jobs are 
very important to our national economy. So how can we 
strengthen our exports? And I know that you have that 
initiative in the Department, and I would like to hear your 
thoughts on what we can really achieve when it comes to 
exports.
    Secretary Locke. As I stated at the very beginning, exports 
have accounted for almost one-half of the economic recovery and 
the growth of the economy since the start of this great 
recession. And exports are up 17 percent in 2010 versus 2009. 
Exports of goods overall is up 23 percent in 2010 versus 2009. 
Agricultural exports are their second highest in U.S. history, 
and 2011 may actually set the record.
    And exports of goods to China were up 32 percent in 2010 
versus 2009. And the first couple months of 2011 shows 
impressive gains as well. So we believe we are on track to meet 
the President's goal of doubling exports by 2015, despite the 
earlier predictions to the contrary by a lot of experts.
    But we are focusing especially on the medium- and small-
size companies, because the big companies of the world have 
hundreds, if not thousands of marketing staff all around the 
world to help them sell. We help the big companies with respect 
to making sure that they have a level playing field, that they 
are not facing discriminatory or nontariff barriers, whether it 
is on procurement--we help advocate on their behalf if they are 
seeking Government contracts all around the world, and we have 
been successful in helping them.
    But we really need to help the small- and medium-size 
companies who don't have their own marketing staffs.
    Senator Pryor. I agree with that.
    Secretary Locke. And so our programs with export assistance 
center personnel through the commercial service. We have 
personnel in almost 100 cities throughout the United States and 
hundreds of people stationed in almost 80 countries around the 
world, and their sole job is to find buyers and customers for 
``made in USA'' goods and services.
    And that is why--and we are partnering with companies like 
UPS, FedEx, the National Association of Manufacturers, to 
identify some of their companies that export, let us say, to 
only one or two countries, to say we really can help them 
export to four or five more countries.
    The reality is that 58 percent of all United States 
companies that export, export to one country--typically, Mexico 
or Canada. Fifty-eight percent of all U.S. companies that 
export, export to only one country. Our goal is to help them, 
who already know about customs, logistics, borders, currency, 
and international contracts.
    I mean, if they understand this, they are really willing 
and able to export to additional countries, as opposed to 
companies that have never exported before and may never get 
over that hurdle. And that is why, under the NEI, we are 
bringing all of the Federal agencies together, and to inform 
small- and medium-size companies of the services that we offer, 
from financing to finding those buyers and customers for them, 
to even guaranteeing that they will be paid by that foreign 
buyer.
    It is one thing if you sell to Massachusetts from Arkansas 
and you don't get paid. You know how to go after that buyer or 
customer. But what happens if you sell to Poland or Hungary and 
you don't get paid? The Export-Import Bank actually offers a 
service, a product that is an insurance policy that guarantees 
that you will be paid by that foreign customer or buyer so that 
this small business owner can really sleep at night.
    And so, those are some of the services we offer.

                         INTELLECTUAL PROPERTY

    Senator Pryor. I appreciate that. I think that is good.
    Madam Chairman, I am out of time. But I would like to add 
one more to your list that I think the United States should be 
very, very firm on with our trading partners, and that is the 
protection of intellectual property.
    I think that it really harms our ability long term to 
export goods and even things like music, DVDs, et cetera, from 
this country when they can just reverse engineer those things 
or pirate those things overseas. And really, it seems the 
United States does not take any recourse against that. So I 
hope that this will be another front that you and others can 
work on.
    Thank you.
    Secretary Locke. I can tell you that this is a major 
concern of the entire administration. Vice President Biden is 
overseeing a multiagency effort focusing on intellectual 
property rights. As the Vice President has indicated, American 
companies are losing hundreds of millions of dollars, hundreds 
of billions of dollars every year in lost revenues, and that is 
tantamount to theft.
    He calls it outright theft, and it is----
    Senator Mikulski. Oh, it is.
    Secretary Locke [continuing]. Depriving us of jobs.

                       INSPECTOR GENERAL CONCERNS

    Senator Mikulski. I would just like to have one more. I 
have many questions, but one more in the interest of 
accountability. And you spoke about the inspector general 
report and the GAO reports.
    Mr. Secretary, I want to go to the issues around 
acquisition contracts and acquisitions, and I know you are in 
transition. But I want to know what Commerce has put in place. 
So here is my point.
    If you go to the inspector general report, the top 
management challenges facing the Department of Commerce, on 
page 7, they talk about how in fiscal year 2009, the Department 
of Commerce spent $3 billion to acquire a wide range of 
products. They range from the census, and quite frankly, a lot 
of this was before you. The census was a boondoggle. Secretary 
Gutierrez and I had many heartburn meetings over that as we 
both worked together to rescue the census and its funding.
    There is the satellite acquisition issue, which is a 
significant issue affecting NOAA, and I want to drill down on 
that. I know the gentlelady from Alaska is concerned about the 
ability to forecast weather in Alaska, which, as you know, 
without it can be quite dangerous, the info-tech security, and 
so on.
    And according to the inspector general, it says that the 
Department does not have a robust oversight process for major 
system acquisitions. They cite the so-called NPOESS, now JPSS, 
as a way to do that, that we need to have a highly qualified 
acquisition workforce. And then they go into specific agencies.
    Now I know Commerce is almost like a holding company. You 
are an agency of agencies--NOAA, NIST, USPTO, all related to 
jobs. Then there is the Commerce Department.
    And my question is, particularly with these high-expense, 
high-value acquisitions, what is it that the Commerce Secretary 
and that the leadership--should there be a--and I am not into 
rearranging the chairs here, but I don't know how we get a 
handle on each individual agency through the role of the 
Secretary of Commerce. And I know this is your kind of thing. 
And I know you take the inspector general report seriously.
    So where are we in terms of addressing these concerns 
raised by the inspector general?
    Secretary Locke. Well, I found some of the reports of the 
inspector general detailing some of the past practices and so-
called problems within the Commerce Department most alarming. 
When we, for instance, on the handheld computers for the Census 
Bureau, spent hundreds of millions of dollars for things that 
we actually could not use, and we actually paid out the vendors 
almost all the money and got almost nothing in return and then 
had to go to a very expensive paper and pencil program.
    Then, of course, the problems detailing our satellite 
programs, NPOESS, which is now JPSS, we took those 
recommendations to heart and have restructured that program 
along the lines recommended by the inspector general and 
various other select committees, task forces that the Congress 
set up to look at it.
    And now the acquisition program for the satellites is very 
much along the lines of the Geostationary Operational 
Environmental Satellite-R program, which the inspector general 
has set out as the model and one that we should emulate. I 
think the problem that we have had with acquisitions in the 
Department of Commerce really breaks down to two fundamental 
things, or at least one fundamental thing. There has always 
been a disconnect, too much of a disconnect between those who 
set the program objectives and those who actually are in charge 
of procurement, the actual oversight and the management or the 
letting of these contracts.
    There is not enough back and forth between them, 
questioning and saying, do we really need this? Is this really 
desirable? Can you really achieve your program objectives by 
using things off the shelf instead of customizing things?
    Senator Mikulski. So where are we?
    Secretary Locke. So we have, in fact, hired consultants, 
and we have embarked on a massive overhaul of our complete 
acquisition programs. And that is why we are already seeing 
that we will be able to make a lot of these savings assumed in 
the budget from the transformation of our acquisition program, 
in which many things will now be brought in-house or 
centralized, in which the program managers will have much more 
interaction and ownership with the procurement officers and 
vice versa.
    So we are very, very pleased with the progress we are 
making, and it is an interagency or interbureau collaborative 
effort. And I would be more than happy to share with you the 
actual findings, details, the timeline, and the actual reforms 
that are underway right now, as we speak, with respect to 
acquisition reforms.
    [The information follows:]

    The Department of Commerce has taken substantial, concrete steps 
over the past 7 months to improve the effectiveness and efficiency of 
its acquisition operations, including important steps to respond to 
long-standing issues that led to several high-profile, problematic 
acquisitions.
    Last June, I directed an immediate and comprehensive review of 
Commerce acquisition operations. The Department of Commerce hired LMI, 
an independent, highly regarded consulting firm with significant 
expertise in acquisitions, to review its acquisition operations.
    The study examined the entire range of activity from simplified 
acquisition to major systems acquisition. It included an analysis of 
publicly available and internally generated data, and interviews with 
nearly 100 key personnel in the Department of Commerce.
    The study resulted in eight significant findings depicted in the 
following table. The preliminary findings were presented to two expert 
panels to gain their insight and commentary. One panel was composed of 
current senior managers from other Federal agencies, including Steve 
Kempf, Commissioner, Federal Acquisition Service, General Services 
Administration; Dan Gordon, Administrator, Office of Federal 
Procurement Policy, Office of Management and Budget; and Scott Gould, 
Deputy Secretary, Department of Veterans Affairs. A second panel was 
composed of former Federal leaders with relevant experience and 
expertise.

           EIGHT FINDINGS OF THE ACQUISTION IMPROVEMENT STUDY
------------------------------------------------------------------------
  Primary issues relating to high-profile      Additional acquisition
                 programs                              issues
------------------------------------------------------------------------
The requirements management process is      Department lacks a reliable,
 insufficient; as a result, requirements     automated information
 are not rigorously validated, refined,      system for all acquisition
 and managed.                                functions.
Acquisition planning, including analyses    Department lacks strong
 of alternatives and strategy development,   standardized acquisition
 is weak.                                    performance metrics and
                                             monitoring.
Bureaus initiate programs and manage        There is no standard quality
 acquisitions relatively autonomously,       assurance for the
 without Department-level governance,        acquisition process.
 oversight, or insight.
                                            There is little leveraging
                                             of spend across the
                                             Department.
                                            OS and Bureau customers are
                                             frustrated with the
                                             contracting process.
------------------------------------------------------------------------


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                             

     deg.As part of its Acquisition Improvement Project (AIP), the 
Department assigned a team of Bureau acquisition and Department 
personnel, as well as senior management from the Office of the 
Secretary and the Commerce Office of Inspector General, to conduct 
weekly reviews and discussions of the Project.
    The project is led by a formal governance structure to provide 
strategic direction and guidance. The Deputy Secretary and General 
Counsel serve on my behalf as the Secretarial leadership, and the Chief 
Financial Officer and Assistant Secretary of Administration serves as 
the executive chairman. The governance structure also includes senior 
Bureau management co-sponsors.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Figure 1. Governance of Acquisition Improvement Project.

    The Department also recently hired a new Director of Acquisition 
Management with extensive experience in risk management, acquisitions 
and project management. The new Director has more than 30 years Federal 
experience and will ensure that acquisition headquarters plays a 
stronger, more strategic role in acquisitions planning, risk 
assessment, and program/project management.
                           specific projects
    Through the AIP, the Department has assembled a team of program 
managers and contracting officials from the Bureaus to tackle the issue 
of how to better integrate program managers and acquisition staff from 
the very beginning of the process, when we first ask: ``Do we need to 
buy this? If so, what do we need to buy?''
    As shown in Figure 2, AIP is being conducted through six project 
teams, each with considerable Department Bureau leadership or 
membership comprised of program/project management, information 
technology, and procurement professionals. The acquisition program/
project management framework (a comprehensive and executable process by 
which acquisition projects will be managed) is being jointly developed 
by three teams--those responsible for the requirements definition, 
validation, and control; the program/project management process and 
procedures; and the roles and responsibilities. The teams are working 
in an integrated fashion to ensure alignment.
    A draft framework has been developed and will be finalized in July, 
followed by a draft Department-level implementing guidance manual 
delivered in October 2011. This framework is being selectively tested 
in NOAA, where program managers and acquisition staff are working 
collaboratively to develop requirements from the very start. We will 
soon implement elements of the framework into a new, department-wide IT 
buy for ``end point security,'' which will provide laptop and desktop 
security. We are also conducting an analysis of how this proposed 
framework would have impacted several high-profile acquisitions that 
were over-budget, over-schedule or performing poorly.
    As part of the framework development we are creating a 
communication, training, and outreach plan to help with the roll out, 
acceptance, and adherence to the processes and procedures being 
developed. We started that communication with a presentation at the 
Department of Commerce Acquisition Conference held during May 2011. We 
are planning a focused mini conference as a follow-up this coming 
October to continue with the communication and outreach.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               Figure 2. Acqusition Improvement Projects.

    The Department is on target to meet an ambitious set of goals 
surrounding each initiative. By the end of fiscal year 2012, the 
Department will have contracts and other strategies in place to begin 
saving $17 million annually through strategic sourcing. These savings 
are part of the Department's overall administrative cost savings plan 
as part of its fiscal year 2012 budget request.
    Other goals are to strengthen acquisition requirements through a 
new integrated, enterprisewide approach, implement a new acquisition 
program/project planning and risk assessment process, launch a new 
Center of Excellence to service small bureaus, and strengthen 
Department management of acquisition through comprehensive performance 
metrics, clearly defined roles, and full integration of acquisition 
into other critical department-wide reform effort in risk, IT, and 
facilities.
    See Figure 3 for timeline and deliverables.
       three projects focused on improving acquisition processes
    Three of the projects--requirements, acquisition planning and risk, 
and a better defined role for acquisition headquarters and the 
Bureaus--are designed to ensure appropriate insight, oversight, and 
management of departmental acquisitions. It will guide specific bureau 
leadership and workforce activities including executive oversight 
councils, bureau program management offices (PMO), acquisition project 
managers, Contracting Officer's Technical Representatives (COTR), and 
contracting/procurement offices.
    The requirements project team is focused on fixing the problem that 
project requirements are often not well-defined, validated or managed, 
and developed too late in the project lifecycle, resulting in cost 
over-runs, delays, and poor performance. The acquisition planning and 
risk assessment team is aimed at increasing the likelihood of 
successful acquisitions by minimizing risk and strengthening planning. 
The roles and responsibilities project team is focused on better 
defining the role of acquisition headquarters and the bureaus; 
redesigning acquisition headquarters to reduce risk, measure and 
enhance performance, and drive common standards and policies; and 
leading workforce development to include training of, support to and 
interaction among project managers, COTRs, and contracting/procurement 
offices.
    After study and analysis of their individual mandates, the three 
teams determined their focus areas overlapped and they needed to 
integrate their efforts. They are now working together to develop an 
acquisition project management framework that will provide a 
structured, systematic foundation for project management of all 
departmental acquisitions throughout their lifecycle. The framework is 
designed to educate and guide the activities of executive oversight 
councils, bureau PMOs and project managers, and to be scalable, with 
different required elements depending on the size and criticality of a 
project.
    The end result of the integrated efforts of these teams will be an 
acquisition framework that includes details on milestone reviews, 
interfaces with stakeholders, oversight mechanisms, roles and 
responsibilities, metrics, and risk management. It will identify 
required capabilities to implement and sustain the process including 
organizational leadership, stakeholder engagement, life-cycle cost 
analysis, program/project management, and requirements development 
functions. Further, this acquisition framework will specifically inform 
acquisition project managers on the processes they are to undertake, 
the deliverables required and the necessary organizational interactions 
with process participants for successful acquisition project 
accomplishment.
    To validate the effectiveness of the new approach, the teams will 
identify pilot projects that will be used to evaluate individual steps 
in the process, as well as longer-term pilots that will follow projects 
through their lifecycle.
             three projects focused on specific challenges
    The Department's acquisition improvement efforts include three 
projects that address specific challenges identified in the study--a 
lack of a reliable acquisition automated information system, 
insufficient leveraging of spending across the Department, and customer 
frustration with acquisition services.
    The automated information system project team is developing the 
system requirements and budget for an automated procurement system 
linking to other Department systems to allow full accountability and 
transparency into acquisition operations. Current efforts include 
market research for the new system as well as the development of an 
interim solution to provide greater granularity and reporting of 
spending patterns.
    The strategic sourcing and savings project team is focused on 
finding opportunities for leveraging spending across the Department, 
improving sourcing standardization and visibility into spending, and 
increasing the efficiency of acquisition operations. They have 
completed their analysis of current spending and have launched five 
strategic sourcing projects on selected commodities. Strategies and 
contracts in place by the end of fiscal year 2012 are projected to 
achieve annual savings of $17 million.
    The customer service and workforce project team is focused on 
improving customer service, particularly for smaller bureaus without 
in-house acquisition capability, and enhancing the acquisition 
workforce to meet the acquisition needs of the entire Department. The 
team's efforts will result in the launching of an Acquisition Center of 
Excellence to provide contracting services to the small bureaus. 
Additionally, it is developing an action plan to address departmental 
acquisition workforce development issues.
                               conclusion
    Real reform takes vigilance, commitment and a great deal of work by 
many people. However the lasting results of those efforts--a stronger 
agency focused on mission success--is critically important. The 
Department of Commerce looks forward to continuing to work with the 
Congress on this important initiative.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Figure 3. Deliverables and Timeline.

                                  JPSS

    Senator Mikulski. Well, we need to. And I intend to work 
very closely with your successor so that the fact that when we 
do the census, even though our population is increasing only by 
10 percent, the census for 2010 cost double--double--what it 
did to do the census in 2000.
    So I don't want to wait until 10 years from now. And I 
don't want to wait an hour-and-a-half before people are 
supposed to hit the streets and we have another boondoggle. 
That is the census.
    But when we get into these big satellite issues--and I must 
say, this is an issue throughout the Government--I don't know 
if we know how to buy satellites and, in other words, the 
design, the acquisition, the procurement, and the deployment. I 
know Dr. Carter at the Department of Defense has embarked upon 
this, and you and NASA are the big satellite agencies.
    Now I am glad we could get the NPOESS matter straightened 
up, and we have had this velvet divorce with the Air Force. 
That, in and of itself--all divorces are messy, but now that we 
have gone to JPSS, which goes directly to weather when it is 
deployed and so on, where are we now in making sure that this 
satellite is on track, both in terms of its deployment and then 
within the parameters of the appropriations request?
    I am concerned about delays. I am also concerned that if we 
shortchange what we need to do now, we will pay later, either 
in late deployment of very important weather information, or we 
will pay more in terms of our contracts. Can you share this?
    And while NOAA is working and doing their work, at the 
Secretariat level, is this at your level and as you transit 
out, is this one of the red flashing lights that you have for 
your successor in transition documents? And my question is, are 
we really on track with JPSS? And then, in transition, I don't 
want this just kind of lost out there.
    Secretary Locke. Let me just say that from my very first 
day as Commerce Secretary, this was the number one priority for 
me because I read the reports, the inspector general reports, 
and I went to the White House and spoke with Dr. Holden and 
others about how we had to pursue this, as you call it, velvet 
divorce. And that took quite some time, but we ultimately 
succeeded.
    We now have, I think, in place, a very good system by which 
we are working with NASA, in which we are, of course, the 
primary customer. They are helping us execute, but we are 
helping set the framework and overseeing this project because 
it is ultimately affecting us and our ability to deliver 
weather information to the American people, but also to all the 
businesses that depend on weather, whether it is shippers, 
whether it is farmers, and public safety officials who are 
charged with ensuring the safety of their communities in times 
of earthquakes, hurricanes--or, excuse me, hurricanes and 
storms.
    Let me just say that we are concerned about the funding of 
the JPSS program. We had asked for about $1 billion for fiscal 
year 2011. Under the continuing resolution, we received only 
about $382 million.
    The request for 2012 is $687 million for JPSS. We have to 
have this money. Otherwise, we are going to have to look at 
other ways of receiving that weather information, whether it is 
possibly contracting out with other governments around the 
world to get that information. We are already behind schedule, 
years and years and years behind schedule with respect to these 
satellites.
    [The information follows:]

    National Oceanic and Atmospheric Administration's (NOAA) Joint 
Polar Satellite System Program (JPSS) is working toward completing the 
assessment of what can be achieved with the fiscal year 2011 
appropriations. NOAA estimates that the level of funding of $382 
million in fiscal year 2011, nearly $700 million below the fiscal year 
2011 budget request, will result in at least an 18-month delay in 
launching the first JPSS satellite. Specifically, at this funding level 
NOAA estimates that the first JPSS spacecraft would launch sometime in 
late fiscal year 2017. This will result in a near certainty of a gap in 
polar-orbiting satellite coverage. Any gap in satellite coverage would 
lead to an inability to provide early warnings for severe storms and 
less accurate forecasts later this decade.

    Secretary Locke. And we very much run the risk of a gap of 
weather information coverage, and we run the risk of--if we are 
not able to figure out how to get that information from other 
sources, we run the risk of an information gap, which will then 
degrade the accuracy of our weather forecasts, and we will not 
be able to give as accurate a forecast many more days out in 
the future that we are able to do today.
    Senator Mikulski. I want to come back to the specific 
project, with the indulgence of Senator Murkowski. But as you 
transition--I know they are preparing transition documents now. 
Is this one of the top flashing lights for the next Secretary 
of Commerce to stand sentry over, working with NOAA and us to 
make sure this is as on track as we can possibly make it?
    Secretary Locke. It has to be, and it certainly----
    Senator Mikulski. No, is it? Do you have this in your 
transition documents? And when you say ``Hi'' to the next 
person who takes over, that you alert them to this being a top 
priority?
    Secretary Locke. Yes, it is, because it is such a big 
driver of the budget.
    Senator Mikulski. Yes.
    Secretary Locke. It consumes so much money that any 
problems, any hiccup, any cost overruns will affect the rest of 
NOAA to carry out its mission. So it is such a cost, such a 
huge part of our budget, and for 2012 makes up almost 7 percent 
of the entire Commerce Department budget.
    Senator Mikulski. Yes, and that is what we are worried 
about, and that is why we raised so much hell and pounded the 
table. Now under JPSS, under the continuing resolution, we give 
JPSS $380 million. We understand that the need could be as much 
as $900 million. What really is the need to keep this on track?
    Secretary Locke. Well, we believe that it was close to $1 
billion, $900 some-odd million just to keep on track. We are 
going to have to know that we know what the dollar amount is, 
we are going to have to really go back and see what we can do, 
what we are able to do with the contractor to see how we can 
continue to do some work on it at that level. And then, of 
course, it will depend on how much money we receive in the 2012 
appropriation.
    [The information follows:]

    The Joint Polar Satellite System (JPSS) program requires $1.07 
billion in fiscal year 2012 appropriations to meet the development 
schedule for a late fiscal year 2017 launch date of JPSS-1. With these 
funds, the National Oceanic and Atmospheric Administration (NOAA) will 
resume full development of the instruments that will fly on JPSS-1, 
initiate development of the JPSS-1 spacecraft, and augment system 
robustness.
    The NOAA Climate Sensor Program has also been impacted due to the 
funding limitations of the fiscal year 2011 continuing resolution. In 
the President's fiscal year 2012 budget request, $30.4 million was 
requested to continue the development of climate sensors to be 
incorporated into the JPSS program. The NOAA Climate Sensor Program has 
received limited funding increasing the risk that the earth radiation 
budget instrument (CERES) will miss the JPSS-1 flight opportunity. The 
program continues development of Total and Spectral Solar Irradiance 
Sensor.

    Senator Mikulski. Well, I would like very much to talk with 
you about it. I don't mean to interrupt, Sir. But I am really 
apprehensive about this, and I don't want a boondoggle in terms 
of the lack of weather coverage, and I don't want a fiscal 
boondoggle where, because we are not smart now, we pay huge 
amounts, either, in a delay in the deployment of a satellite. 
It is not about the satellite. It is about the product of the 
satellite could be very significant for our communities.
    And then also--so what we want, that, given the continuing 
resolution and now that you know the number, for there to be 
this scrub or a meet-up or whatever with the contractor, but 
then what is it that we really need to do in 2012 to make sure 
that we keep this on track as much as we can? And follow 
through, and I really want to follow through on this. And it 
goes to the delay in weather.
    You know, I am really proud of NOAA. I mean, we have our 
fishing problems. I mean, wherever there is NOAA and fish, 
there is controversy. But it is like--again, I don't mean to be 
dismissive when I said the zoning commission. But there is a 
tension, and the gentlelady from Alaska knows it, over her 
great Pacific Northwest fisheries. I have got my crabs and my 
oysters and all the stuff we do. When NOAA says no, like to 
rockfish, there is grouchiness and economic hardship.
    But my point is that while we look at fish, and we can take 
that up, NOAA and what NOAA has done on weather, both in our 
own country and the alerts it does around the world, and the 
training around the world, particularly of small Pacific 
islands and so on, I think it is phenomenal. It is truly, truly 
phenomenal, and we are proud of them.
    And as we conclude this hearing, I really want to express 
both to you and through you during this time of tension around 
shutdowns how much we value the people who work at the 
Department of Commerce not only here in Washington, but all 
over. I am really proud of them. Many are headquartered in 
Maryland.
    When we look at NIST, which we didn't even have a chance to 
talk about today--there are three Nobel Prize winners who work 
at NIST.
    Senator Murkowski, there are three Nobel Prize winners who 
are civil servants at NIST. One at NIST headquarters, Dr. 
Phillips, and two at NIST Colorado. And they are there, working 
every day to create the standards so that our intellectual 
property can be turned into products that can be marketed 
around the world, whether it is the weather or the tsunami 
alerts and so on.
    So we have our ups and downs, and sometimes congressional 
hearings focus on the dark side. But I want you to know that I 
certainly appreciate them. And no matter what they said and no 
matter what the OMB directive is, I think they are essential.
    So did you want to wrap up?
    Senator Murkowski. I will just make a final comment here, 
and Madam Chairman, thank you for bringing up the issue of 
where we are with the satellite JPSS.
    We are very concerned about it, having sat down with Jane 
Lubchenco and talked about this and the timing and the critical 
aspect to how you ensure that the funding tracks with the 
deployment so that there is no gap. And from Alaska's 
perspective, we are a little bit concerned about this because 
it is my understanding that it will be that weather tracking 
that is available to us in Alaska that will likely be impacted 
the most if there is any aspect of the gap because of where 
that satellite sits.
    And I think we all recognize that weather affects all of 
us, and we pay attention to it here. But when you are a 
fisherman and your livelihood is out on the water, you need to 
know about those storms, and what NOAA provides to us in terms 
of this tracking is critically important.
    So I appreciate what you are trying to do. How you thread 
the needle on this one is going to be difficult. It is going to 
be a challenge for us. So I would like to work with you, Madam 
Chairman, and those within the Department in offering up 
suggestions. But we are paying very close attention to this.
    I thank you for the hearing, Madam Chairman.
    Secretary, I too wish you well as you go on to, I am 
assuming, bigger and better things. Again, a great many issues 
within the Department affect us back home, and we appreciate 
the leadership that you have provided over these past couple of 
years.
    Thank you.
    Secretary Locke. Madam Chairman, if I could, I would just 
like to say that we are very concerned about these satellites 
because we know that virtually one-third of the U.S. economy is 
dependent on weather and climate information coming out of the 
Department of Commerce, specifically NOAA.
    We are very concerned that right now we have the capability 
of predicting weather to fairly accurate levels 5 to 7 days in 
advance. And without these satellites being in place at the 
right time, we could have a data gap. We are going to do 
everything we can to avoid any such data gap.
    But our ability to accurately forecast the weather that 
many days out could be seriously compromised. It could only end 
up being 3 to 5 days.
    Let me just end by saying that I am very, very proud of all 
the men and women who work at the Department of Commerce. We 
have only a very small number of political appointees, and an 
overwhelming 99 percent are career folks, people who are very 
proud of their work at the Department of Commerce among all the 
different bureaus.
    I am really proud of what they have been able to do, to be 
as efficient and effective in their processes, to shorten 
processing times--EDA grants, which are the lifeblood for many 
communities, as they try to reinvigorate their economies, to be 
able to give out those grants, make those decisions in, instead 
of 6 to 7 months, now 18 business days.
    What we are doing to try to increase job creation by giving 
out patents within a year, and everything we are doing through 
NIST in developing the standards by which smart grid 
technologies, the products that will help us use electricity 
and have more electricity and just determine when we turn on 
our electric clothes dryer, using home computers.
    All of these activities are absolutely phenomenal, and we 
very much thank the support of you, Madam Chair, and the 
members of the subcommittee for all that we do at the 
Department of Commerce. And it has been one of the best jobs I 
have had.
    And Senate willing, I may be moving on to another position, 
but let me just say how proud I am of the great men and women 
at the Department of Commerce and all the services we provide.
    Senator Mikulski. We feel the same way. And we wish you 
Godspeed. I look forward to voting for you.

                     ADDITIONAL COMMITTEE QUESTIONS

    And if there are no further questions this morning, 
Senators may submit additional questions for the subcommittee's 
official record. We ask the Commerce Department to respond 
within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
           Questions Submitted by Senator Barbara A. Mikulski
                             census bureau
    Question. The 2010 decennial census cost a total of $13 billion, 
which is 20 percent more expensive than the original estimate of $11 
billion and double the cost of 2000 census of $6.5 billion. For 2012, 
the Census Bureau requests $67 million to start planning the 2020 
decennial census. The Census Bureau has already suggested the 2020 
census could cost as much as $22 billion--double the original estimate 
of the 2010 decennial census ``because of population growth and 
inflation'' even though the U.S. population has only increased an 
average of 11 percent between decennial censuses. If the population of 
the United States only increases about 11 percent every 10 years, why 
does each decennial census cost taxpayers almost twice as much money as 
the last?
    Answer. The rising costs of the 2010 census were largely driven by 
five factors:
  --the increasing diversity and geographic distribution of the 
        population;
  --the demand for the Census Bureau to strive for improving accuracy 
        over previous censuses;
  --the lack of full public participation in the self-response phase of 
        the census, requiring the hiring of a large field staff for 
        nonresponse followup;
  --significant challenges with linking major acquisitions, the 
        schedule, and the budget; and
  --substantial investments in major, national updating of the address 
        frame just prior to enumeration (2009).
    The first two factors--increased diversity and the demand for a 
very high level of accuracy--are beyond the Census Bureau's control. As 
a result, the 2020 census research program is focusing on the other key 
cost drivers.
    Question. What lessons did the Census Bureau learn from the 2010 
census to ensure the 2020 census is more frugal? Based on your 
experience, do you think the 2020 census could cost less than the 2010 
decennial census?
    Answer. The Census Bureau is committed to designing and conducting 
a 2020 census that costs less per housing unit than the 2010 census 
while maintaining high-quality results. The Census Bureau has 
identified four strategic goals for the 2020 census:
  --a complete and accurate census;
  --embraced and valued results;
  --an efficient census; and
  --a well-managed census.
    To achieve its cost and quality targets and meet its strategic 
goals, the Census Bureau must make fundamental changes to the design, 
implementation, and management of the decennial census. Substantial 
innovation and improvements are necessary to prevent another large 
increase in costs, while still maintaining high quality. Research on 
new methods likely to affect costs must be accomplished early enough in 
the decade to confirm their likely impact on both cost and quality 
(coverage) to inform timely design decisions. Without early investment 
in research and innovation, the strategic goals and the ability to stem 
cost growth will be jeopardized.
    At the same time, the 2020 census must incorporate strong risk and 
program management to avoid the problems encountered during the years 
leading up to the 2010 census. The final design also must be robust, 
resilient, and flexible enough to respond to social and technological 
changes that will undoubtedly occur throughout the decade.
   national oceanic and atmospheric administration (noaa) satellites
    Question. It has been more than a year since NOAA proposed the new 
organizational plan for polar satellites which includes a separation 
from the Air Force on National Polar-orbiting Operational Environmental 
Satellite System (NPOESS). What positive outcomes and new challenges 
have come from the NPOESS/Joint Polar Satellite System (JPSS) 
reorganization?
    Answer. NOAA, in partnership with the National Aeronautics and 
Space Administration (NASA), has made considerable progress on the 
transition to the JPSS program since the February 2010 decision was 
announced. In the past year, 4 of the 5 instrument and ground contracts 
have transitioned. The spacecraft and associated instruments are being 
developed to NASA's stringent mission assurance standards. NOAA and 
NASA have established program oversight and procedures that will guide 
continued development of the JPSS program.
    However, budget uncertainty continues to challenge the JPSS 
program. With the decision to restructure NPOESS into JPSS, the 
President's fiscal year 2011 budget request for JPSS included increased 
funding for NOAA since the program would no longer be shared with the 
Department of Defense (DOD). The reduced amount for the fiscal year 
2011 enacted appropriation has caused additional delays to the planned 
JPSS-1 launch date. Unfortunately, this date will be after the expected 
lifetime of NPOESS Preparatory Project instruments, and may result in a 
loss of satellite data coverage.
    Question. NOAA requested a $678 million increase in 2011, for a 
total of $1 billion for the JPSS satellite. The full year continuing 
resolution does not fund JPSS's 2011 request. NOAA expects this will 
result in launch delays that will likely cause a gap in weather 
forecasting in 2017. Can you please explain what a ``gap'' in weather 
coverage means? How is NOAA planning to deal with the satellite gap, if 
it does occur?
    Answer. The ``gap'' means the data is not available because the 
existing operational polar satellite in the afternoon orbit has failed 
before a new polar satellite has launched, completed calibration, and 
started to provide data for operational use. Any gap will cause the 
degradation of all weather forecasts that are made for 24 hours and 
longer. The result is a much higher likelihood of forecasts that under 
or over predict the impact of the strength of severe weather systems by 
as much as 50 percent in the 2- to 5-day range compared to the weather 
forecasts that are available today. Ninety-three percent of the data 
the National Weather Service (NWS) uses in weather forecast models come 
from polar-orbiting satellites like JPSS.
    For example, we have confirmed that if there had been a gap (the 
equivalent of having no afternoon polar-orbiting data) at the time of 
the 2010 east coast ``Snowmageddon'' storm, the weather models would 
have under-forecast the snowfall accumulation in the Mid-Atlantic by 10 
inches, and the 5-7 day forecast for the event would have been 
displaced by 200-300 miles or not even predicted. The resulting 
prediction errors (up to 50 percent) would have had enormous impacts. 
Also, the early heads-up provided days in advance of the recent central 
U.S. severe storm and flood events would not have been possible without 
this critical data.
    Data from the DOD Defense Meteorological Satellite Program (DMSP) 
are not of sufficient quality to replace JPSS observations. NOAA has 
traditionally flown its polar-orbiting satellite in the afternoon orbit 
and no other nation has flown a satellite that provides the type of 
data required in that orbit. If NOAA did not have a polar satellite 
data source, such as the current NOAA-19, which will be replaced by the 
NPOESS Preparatory Project, and then the JPSS-1 satellite in the 
afternoon orbit, and since NWS cannot rely on DMSP data, the NWS 
modeling effort would be based solely on the European Metop data that 
is only available in the mid-morning orbit. Reliance on this mid-
morning orbit would result in a degradation of forecast accuracy by 1 
to 2 days. Higher confidence forecasts would only extend out 5 days 
instead of 7 days as they do currently.
    Question. NOAA eliminated the hyper-spectral sounder from the 
Geostationary Operational Environmental Satellite (GOES)-R program due 
to the fiscal constraints of the revised GOES-R program. However, NOAA 
has maintained the requirement for sounder data. How does NOAA intend 
to meet the data requirement over the next decade?
    Answer. Although the GOES-R and GOES-S satellites will not fly a 
sounder, the Advanced Baseline Imager will be used to produce most of 
the sounding products that are currently being produced by legacy 
sounders on the GOES-N series.
    NOAA will work with NASA to continue to explore flying a 
geostationary sounder on a future GOES platform. GOES-R will provide 
advancements in imager, space weather, and lightning detection; 
however, to continue to partially mitigate the lack of soundings from 
geostationary orbit, NOAA will continue to rely on ground-based 
radiosonde, profiler, and radar data, aircraft data, as well as polar-
orbiting satellite sounding data and lower-resolution geostationary 
sounder products, as available. With these sources of data, today's 
weather forecast and warning accuracy will be maintained, but not 
improved.
                u.s. patent and trademark office (uspto)
    Question. Positive management reforms continue at USPTO and the 
patent backlog is decreasing but it still takes more than 30 months for 
USPTO to clear a patent. USPTO's budget is based on the amount of fees 
collected each year and the estimated 2012 fees will provide $690 
million more in revenue than 2010. How will USPTO use these increased 
revenues to further decrease the backlog?
    Answer. USPTO has a multi-year requirements-based budget and plan 
designed to meet the needs of fee-paying applicants and reduce the 
backlog to a sustainable level. The operating requirements laid out for 
fiscal year 2012 will continue to implement this multi-year plan by 
hiring and training 1,500 patent examiners, authorizing the maximum 
amount of overtime, and paying for awards and contractual services 
needed for additional production. These levels were analyzed and 
modeled to identify the appropriate level of hiring to ensure the 
desired ramp down of staffing once the application inventory reaches 
optimal levels.
    Question. What is USPTO's long-term strategy for better patent 
planning so that a backlog situation can be avoided in the future?
    Answer. The backlog has grown due to a number of factors, including 
significant increases in the number and complexity of patent 
applications and challenges with sustainable funding. USPTO continues 
to balance the need to address the growth of the backlog, while 
improving quality. To address this challenge, USPTO is re-engineering 
its processes and has implemented significant efficiencies and 
improvements. In addition, USPTO must continue to hire, train, and 
retain a highly skilled, diverse examiner workforce. Initiatives in 
place include:
  --Hiring additional patent examiners in fiscal year 2011 and fiscal 
        year 2012.
  --Use of the hiring model that focuses on experienced intellectual 
        property professionals.
  --Targeting overtime to high-backlog technology areas.
  --Developing and implementing a nationwide workforce.
  --Improving retention by developing mentoring, best practices, and 
        retention strategies.
  --Continue the outsourcing of Patent Cooperation Treaty searching.
    USPTO must also continue to increase efficiencies through the 
implementation of major process improvements in the patent examination 
workflow, and in optimizing examination capacity. Initiatives in place 
include:
  --A re-engineered patent examiner production count system;
  --Prioritization of incoming work;
    --Green technology acceleration;
    --Project exchange; and
    --Multi-track customized examination; and
  --Focusing on compact prosecution initiatives;
  --Re-engineering efforts;
    --Patent classification system; and
    --Patent examination process.
                         national cybersecurity
    Question. I proposed $10 million for a Cybersecurity Center of 
Excellence at National Institute of Standards and Technology (NIST) in 
the 2011 omnibus. The center would help the private-sector and larger 
corporations tackle the issue of cyber attacks. How important would a 
NIST Cybersecurity Center of Excellence be for helping to protect 
American businesses?
    Answer. Cybersecurity is recognized and understood as a critical 
business enabler as American businesses across all industries are 
dependent on information technology (IT) in order to be more innovative 
and more competitive. The President's budget reflects the importance of 
cybersecurity by proposing an increase of $43 million for cybersecurity 
initiatives at NIST.
    As proposed, the NIST Cybersecurity Center of Excellence could have 
an important role in the protection, facilitation and growth of 
American businesses. The Cybersecurity Center of Excellence would 
provide a partnership between American businesses and Government to 
enhance this capability, foster innovation, create commercial 
opportunities and protect those essential IT and information assets 
which are critical to our Nation.
    Question. What do you think the early top priorities should be for 
such a Center?
    Answer. Ideally, the Cyber Center of Excellence would be designed 
to focus on real world cybersecurity problems and solutions for 
industry, so would work with the private sector to identify early top 
priorities. A potential model for this public-private design is for 
NIST to use collaborative and interactive workshops to work with 
businesses such as manufacturers and cybersecurity experts to identity 
security requirements, gaps and solution sets for real applications. 
The Center could also facilitate pilot projects with industry sectors 
to show how security technologies could be incorporated into business 
processes. This would help all partners to understand how to address 
security risks and identity product gaps for security technology 
providers.
              cybersecurity at the department of commerce
    Question. The Department of Commerce inspector general has rated 
the Department's IT security as the top management concern this year. 
For fiscal year 2012, the Department requests $23 million for internal 
cybersecurity. How does your request better prepare the Department and 
its agencies against cyber attacks?
    Answer. The $5 million cyber security budget request focuses on 
enhancing enterprise-level forensics support, cyber security for 
national security systems, and funding to effectively utilize services 
available through the Office of Management and Budget's (OMB) Trusted 
Internet Connections (TIC) initiative. This forensics capability 
enhancement is designed to reduce the Department's vulnerability to 
cyber attacks by quickly and effectively isolating and correcting IT 
security incidents and providing real-time, enhanced monitoring of 
critical network segments. Funds are requested to acquire experienced 
and capable IT Security expertise to develop improved IT forensics and 
investigative capabilities. The investment in cyber security for 
national security systems will improve identity management, implement 
operational security enhancements, and provide additional network 
defense capabilities for those systems.
    Due to classification issues, additional information on this 
portion of the request can be provided upon request via a (possibly 
classified) briefing to subcommittee staff. The investment relating to 
the TIC initiative is aimed at services enhancements as well as 
supporting centralized department-level monitoring of cyber security-
related data generated through the use of TIC telecommunications 
services.
    The $23 million budget request was the result of a cross-department 
cyber security strategic planning effort that identifies cyber security 
priorities for Department of Commerce. This budget request will fund 
cyber security improvements in enterprise-wide security capabilities 
and functions. One portion of this request will fund a department-wide 
continuous monitoring infrastructure to implement and monitor key IT 
security controls on IT assets across the Department. Security 
functions provided by this infrastructure include software patch 
management, security vulnerability identification and remediation, 
asset management, configuration management, host based intrusion 
prevention and improved malware protection. A second portion of this 
request will fund an enterprise cybersecurity operations center that 
will provide support for Department-level security operations, 
situational awareness, and response. Together, these critical 
capabilities will better enable the Department to effectively detect, 
analyze, respond to, remediate, and manage IT risks.
    Question. What is the Department doing right now to address the 
inspector general's concerns ahead of a 2012 budget?
    Answer. The Department has been strongly focused on addressing IT 
security weaknesses identified by the Office of the Inspector General 
(OIG). The Department developed a Cyber Security Development Program in 
response to an OIG audit of IT security workforce which was 
acknowledged in its December 2010 ``Top Management Challenges'' report. 
The report not only highlighted the Department's plans for establishing 
an enterprise-wide continuous monitoring and security operations center 
capabilities but further acknowledged that these steps should enhance 
the Department's ability to secure its IT systems. In response to 
improvements that have been made in the past couple of years, at the 
recommendation of the inspector general, the Secretary of Commerce 
lifted the finding of a material weakness in IT security at the 
beginning of fiscal year 2011 (this finding had been in place since 
2001).
    The Department is currently working to implement an initial 
operating capability that will provide automated data feeds to the 
Department of Homeland Security CyberScope tool as part of our Federal 
Information Security Management Act reporting requirements. The fiscal 
year 2012 request will leverage this initial capability.
    In addition to the above enhancements, security improvements have 
been made in the Department's financial systems. Whereas in fiscal year 
2009 OIG found that the Department had significant deficiencies in five 
classes of IT security controls, in 2010 these deficiencies were 
narrowed to only two classes of IT security controls. The Department's 
Chief Financial and Information Officers are jointly taking ownership 
of a commitment to eliminate the significant deficiency findings from 
those remaining classes of controls, have been consistently monitoring 
bureau progress toward this goal, and have been providing regular 
updates to the Department's Deputy Secretary.
    Last, the Department has identified several key cyber security 
metrics based on chronic weaknesses identified by the OIG and has 
integrated these into bureau-level balanced scorecards, which is the 
performance management tool used by the Department's Secretary and 
Deputy Secretary for monitoring and managing bureau performance. Senior 
bureau leaders are responsible for providing quarterly updates to the 
Office of the Secretary against these (and other) balanced scorecard 
performance measures.
                            climate service
    Question. In 2010, the subcommittee requested an independent study 
from the National Academy of Public Administration to look at what a 
climate service could look like in NOAA. NOAA has included many of 
their recommendations in its 2012 proposal. The report focused mainly 
on the inner-structure of NOAA--what would make the most sense and be 
the most cost effective. But the report also looked outside NOAA 
stating: ``Strong partner relationships between NOAA and other agencies 
will be a critical factor in determining the success of the climate 
service. The Federal Government has existing relationships to build 
upon to meet climate needs.'' In NOAA's 2012 climate service proposal, 
how does NOAA continue the development of interagency relationships, 
particularly other climate research agencies such as NASA?
    Answer. NOAA recognizes that no single agency is capable of 
providing all of the information and services needed to inform 
decisionmaking. To be successful, this effort will require sustained 
Federal agency partnerships and collaboration with climate service 
providers and end users. The proposed climate service will work to 
integrate NOAA's existing capabilities and experience with climate-
relevant science and services across the agency. By consolidating 
management of climate activities, NOAA will be better organized to 
develop the necessary synergies with other agencies and climate service 
providers, and better able to meet the climate challenges facing the 
Nation. If the proposed climate service is authorized by the Congress, 
it would strongly support interagency coordination.
    NOAA is committed to continuing and strengthening interagency 
partnerships and engagement. For example, NOAA will continue to provide 
leadership for the Subcommittee on Global Change Research and its 
working groups to facilitate cooperation and collaboration among the 
climate services activities of the agencies of the U.S. Global Change 
Research Program (USGCRP). NOAA will also participate in other 
interagency climate activities, such as the Interagency Climate Change 
Adaptation Task Force, and the Executive Office of the President's 
Climate and Information Service Roundtable.
    NOAA currently participates in USGCRP, which coordinates and 
integrates Federal research on changes in the global environment and 
their implications for society. USGCRP was mandated by the Congress in 
the Global Change Research Act of 1990 (Public Law 101-606), which 
called for ``a comprehensive and integrated U.S. research program which 
will assist the Nation and the world to understand, assess, predict, 
and respond to human-induced and natural processes of global change.''
    The 13 participating agencies closely coordinate their activities 
through interagency working groups on a wide variety of topics such as 
observations, modeling, adaptation research, carbon cycle science, and 
education and outreach. USGCRP, with oversight from the White House OMB 
and the Office of Science and Technology Policy, works diligently to 
coordinate activities and enhance efficiency among Federal climate 
research portfolios.
    The carefully planned scientific strategies formulated by the 
USGCRP are often implemented in the form of agreements between one or 
more agencies. For example, NOAA works in collaboration with 15 
Government agencies on drought-related issues through the National 
Integrated Drought Information System (NIDIS). Additionally, the 
Department of Commerce and NOAA have Memoranda of Understanding with 
the Department of the Interior, Department of Agriculture, and 
Department of Energy's (DOE) Office of Science. NOAA maintains close 
collaborations with NSF and NASA through quarterly meetings of senior 
management, as well as numerous coordinated scientific activities.
    The NOAA-NASA partnership provides an excellent example of 
interagency cooperation. NOAA and NASA provide complementary services 
to the Nation and cooperate closely through both formal agreements and 
informal collaboration. Though both agencies observe climate-relevant 
variables from space, they have unique missions and roles. NOAA is 
committed to the continuation and strengthening of this relationship 
under the proposed climate service. Some key ways in which NOAA and 
NASA currently work together are outlined below.
    NOAA and NASA collaborated on the development of Climate Data 
Records, and plan to continue this productive relationship. Climate 
Data Records enable scientists and users to make use of information 
from satellites and other observing systems for climate understanding 
and applications. NASA efforts emphasize the development of fundamental 
climate data records, while NOAA emphasizes the transition of these 
fundamental climate data records to informational records that can be 
used in a variety of applications.
    NOAA and NASA extensively share both observational and derived data 
products, especially climate data sets developed across satellite and 
in situ observing platforms. Both NOAA and NASA develop and run climate 
models that contribute to national and international predictions and 
projections for the overall climate system. NASA focuses its efforts on 
the utilization of space-based observations to better understand and 
represent earth system processes in models, including clouds and 
radiation, land-use/land change and polar processes. NOAA develops 
earth system models with a focus on applications, utilizing the 
advances from other science agencies, including NASA, National Science 
Foundation, and DOE. NOAA models provide operational prediction at 
seasonal-to-interannual time scales, and alert the Nation to impending 
natural events, such as El Nino. These predictions are initialized with 
both space and in situ observations. NOAA models provide long-term 
projections of climate change, which have always been part of the U.S. 
contribution to the Intergovernmental Panel on Climate Change 
assessments. NOAA utilizes the output from these models to provide 
valuable products and services for the country's decisionmakers through 
a variety of directed engagements, such as the NIDIS.
    NASA and NOAA plan and implement joint field campaigns using 
suborbital assets and aircraft instruments from both agencies. These 
campaigns aim to better understand key physical processes and provide 
means for satellite data validation and calibration. The work on 
stratospheric ozone by NASA and NOAA laboratories and academic partners 
in the 1980s is a well-known example of the benefits of this 
partnership. Currently, there is collaboration on the Mid-latitude 
Airborne Cirrus Properties Experiment--an airborne field campaign to 
investigate cirrus cloud properties and the processes that affect their 
impact on radiation.
                           deepwater horizon
    Question. NOAA provided significant expertise and operational 
support during the Deepwater Horizon spill to help gulf coast 
communities. NOAA's 2012 request increases oil spill research $2 
million more than 2010, and the concern of response to two major spills 
at any one time still exists. How does Commerce's 2012 request 
incorporate lessons learned from the Deepwater Horizon spill?
    Answer. The Deepwater Horizon oil spill was a grave reminder that 
major oil spills do occur. NOAA has the underlying programming and 
scientific expertise to coordinate and deliver essential science-based 
oceanographic, meteorological, biological, and geospatial services 
efficiently and effectively response. The fiscal year 2012 President's 
budget request includes an increase of $2.9 million to develop an oil 
spill research and development program. The requested funds for 
research and development will focus on national priority areas, 
including oil fate and behavior effects from deep water releases, 
response and mitigation techniques in extreme and remote environments 
(e.g., outer continental shelf or arctic regions), long-term effects on 
species and habitats, tools for natural resource damage assessment and 
restoration, and human dimensions of oil spills. Research in these 
areas will help address questions and concerns.
    Question. What NOAA offices receive an increase-to-base in 2012 to 
allow them to better respond to future oil or chemical spills?
    Answer. NOAA is a natural resource trustee and NOAA's Office of 
Response and Restoration (OR&R) is an international scientific leader 
for oil spill response, assessment, and restoration. The fiscal year 
2012 President's budget request includes an increase of $2.9 million 
for the OR&R to develop an oil spill research and development (R&D) 
program. This will be NOAA's first comprehensive oil spill R&D program. 
As the scientific lead for coastal and marine spills, NOAA's OR&R 
brings the best available science and tools to improve decisionmaking 
during responses. Research and development will focus on national 
priority areas, including oil fate and behavior effects from deep water 
releases, response and mitigation techniques in extreme and remote 
environments (e.g., outer continental shelf or arctic regions), long-
term effects on species and habitats, tools for natural resource damage 
assessment and restoration, and human dimensions of oil spills.
    NOAA is also requesting an increase of $5 million for enhanced 
observations to implement the U.S. Integrated Ocean Observing Systems 
(IOOS) Surface Current Mapping plan to monitor near-shore currents 
using High Frequency (HF) Radar. This program will be implemented by 
the IOOS Regional Coastal Ocean Observing Systems (RCOOS) to deliver 
real-time surface current data to the national HF Radar surface current 
monitoring network. The requested resources will support Regional IOOS 
HF Radar stations with an emphasis on those stations currently 
operating and delivering data to the national network in regions of 
offshore oil production and in the vicinity of major ports and harbors. 
The U.S. IOOS program will award funding via an established merit-based 
competitive process with RCOOS, and through contracts with Federal 
partners.
    The 2010 Deepwater Horizon oil spill highlighted the utility of HF 
Radar. NOAA's Office of Response and Restoration relied on real-time 
data collected from the national HF Radar surface current monitoring 
network to provide new data for inclusion in trajectory predictions of 
oil dispersal and to verify models used to assess the likelihood of the 
oil moving into the Loop Current. HF Radar data was also used daily by 
NOAA's OR&R during the Deepwater Horizon oil spill response to create 
trajectory forecasts (which were used by Federal responders to deploy 
spill response assets and identify fishery closures). In 2007, HF Radar 
was used to verify that trajectories of oil from the M/V Cosco Busan 
spill would not flow into the federally protected National Marine 
Sanctuaries near the San Francisco Bay, and resources were able to be 
deployed to other areas under greater threat. With sustained, long-term 
surface current data sets, NOAA's OR&R will now be able to provide 
Trajectory Analysis Planner products for threat assessments.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
                  joint polar satellite system (jpss)
    Question. In your testimony, you suggested that we face the 
``risk'' of a gap in adequate weather satellite coverage due to the 
level of funding provided for JPSS in the fiscal year 2011 continuing 
resolution. My understanding is that a gap in adequate coverage is 
almost assured under current funding levels. Please describe precisely 
what the level of risk is for a gap and how long any such gap would 
last.
    Answer. At the time the gap occurs, there would be an immediate 
degradation of all weather forecasts for 24 hours and longer, resulting 
in forecasts that likely will incorrectly predict the magnitude of 
storms by as much as 50 percent in the 2- to 5-day range compared to 
current capability.
    If no polar-orbiting data had been available for the 2010 east 
coast ``Snowmageddon'' storm, the weather models would have under-
forecasted the snowfall accumulation in the Mid-Atlantic by 10 inches, 
and the 5-7 day maximum snow forecast would have been displaced by 200-
300 miles or not have even been predicted. The resulting prediction 
errors (up to 50 percent) would have had enormous economic and human 
safety consequences. In the recent Midwest severe storm, tornado and 
flood events, the early heads up provided days in advance would not 
have been possible without this critical data from the polar orbiting 
satellites.
    It should be also noted that degradation in forecast accuracy may 
have an impact on the U.S. economy. Studies have shown that the U.S. 
economic output varies by up to $485 billion a year of 2008 gross 
domestic product--about 3.4 percent--owing to weather variability.\1\ A 
portion of this $485 billion may be mitigated by improved weather 
forecasts.
---------------------------------------------------------------------------
    \1\ Lazo et al. 2011. U.S. Economic Sensitivity to Weather 
Variability. Bulletin of the American Meteorological Society http://
journals.ametsoc.org/doi/pdf/10.1175/2011BAMS2928.1.
---------------------------------------------------------------------------
    Question. What alternatives, if any, are there to data from a NOAA-
operated polar satellite for our weather forecasts?
    Answer. Neither the Department of Defense's (DOD) Meteorological 
Satellite Program (DMSP) nor the European's MetOp Program flies weather 
satellites in the afternoon orbit. National Oceanic and Atmospheric 
Administration's (NOAA) has traditionally flown its polar-orbiting 
satellite in the afternoon orbit and no other nation has flown a 
satellite that provides the type of data required in that orbit.
    There are other potential sources of data, but of lesser quality 
and information content. For example, the Chinese may fly an afternoon 
satellite in the latter part of this decade, but the quality of their 
newer instruments is uncertain and bilateral agreements would have to 
be in place that don't currently exist. Their current instruments, 
which are only in the morning orbit, do not provide appreciable 
improvements in forecast accuracy.
    Question. How would forecast accuracy from these alternate data 
sources differ from forecasts developed under a fully functional JPSS?
    Answer. Unfortunately, there are no other viable sources of high-
quality satellite observations in the afternoon orbit. If NOAA did not 
have a polar satellite data source (Polar Operational Environmental 
Satellite [POES], NPOESS Preparatory Project, or JPSS) in the afternoon 
orbit, the National Weather Service (NWS) modeling effort would be 
based solely on the European data that is available in the mid-morning 
orbit and would result in a degradation of forecast accuracy by 1 to 2 
days. NWS assessments have found forecast improvements from the early 
morning DOD satellite as marginal, and currently DOD data are not used 
operationally. Higher confidence forecasts would only extend out 5 days 
instead of 7 days as they do currently. This degradation would cause 
NWS to suffer a loss of a decade's worth of continual improvements in 
forecast ability until a replacement operational satellite can be 
launched in the afternoon orbit with the requisite instruments which 
have been subjected to the necessary calibration and validation.
    NWS operational models are run four times per day on a 6-hour 
cycle. Data from the MetOp satellite in the mid-morning orbit and the 
POES satellite in the afternoon orbit are critical to the consistency 
of these model runs. Decisionmakers and users of this data depend on 
all of these models throughout the day, not just in the morning. These 
model runs have skill scores nearly at days 5 through 7 that match days 
3-5 from 20 to 25 years ago. Furthermore, the models are now capable of 
predicting the development and evolution of extreme events (winter 
storms, severe weather outbreaks including tornadoes and hurricanes) 3, 
5, and sometimes 7 to 8 days in advance with remarkable skill and 
consistency.
                       government reorganization
    Question. I understand that the President intends to release his 
initial proposal for a reorganization of Government capabilities this 
summer and that the Department of Commerce may be significantly 
altered. Can you provide more details as to when this proposal may be 
released?
    Answer. The President issued a Memorandum tasking the Chief 
Performance Officer (CPO), Jeff Zients, with reviewing ways in which 
the administration can streamline Government, cut waste and increase 
effectiveness so that we can help American businesses better compete 
globally. This initiative included reviewing the departments, agencies 
and programs in the trade, exports and competitiveness spheres. Mr. 
Zients and his team submitted their analysis and potential options for 
reorganization to the President on June 9. The President will review 
the options over the summer and discuss them with his team. When he 
completes his review, we would be happy to discuss the results of this 
work in more detail.
    Question. I believe that NOAA continues to play an important role 
in the Department of Commerce by serving as an operational science 
agency that generates unique products critical to the day-to-day 
functioning of our Government and economy. Do you feel that the NOAA 
should remain a part of the Department of Commerce and, if not, do you 
have an opinion as to where it should reside?
    Answer. The Department of Commerce has a long history as a center 
for housing and managing science and technological programs that 
provide industry and Government decisionmakers with a reliable base of 
scientific information from which to spur U.S. competitiveness and 
future economic growth. NOAA fits uniquely well within this tradition 
in that its science based information and regulatory activities impact 
almost every sector of the economy.
    NOAA manages the Nation's multi-billion dollar commercial and 
recreational fishing industries, not just to conserve our Nation's 
fishery resources, but to ensure the long term economic sustainability 
of the recreational and commercial fishermen and the communities that 
depend upon them. NOAA also promotes the advantages of U.S. fishery 
products to our trading partners in concert with the International 
Trade Administration.
    NOAA's weather prediction and forecasting activities are crucial to 
the economic efficiency of key U.S. industries. For example, the 
aviation and marine transportation sectors rely on NOAA's weather 
information to ensure efficient and safe day-to-day operations. NOAA is 
working with the Federal Aviation Administration on the next generation 
of weather radar to improve forecasts and save billions.
    NOAA houses the Nation's nautical charting capability, which 
directly advances marine trade by making our ports and harbors safer 
and port communities more competitive.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                                 salmon
    Question. Mr. Secretary, the Department of Commerce's National 
Oceanic and Atmospheric Administration (NOAA) issued a biological 
opinion on the salmon in 2009 which requires the State of California to 
restrict water flows in California's Sacramento River Delta in order to 
protect the salmon. Since then, the biological opinion has been 
criticized by the National Academy of Science (NAS) and is the subject 
of on-going litigation. U.S. District Court Judge Wanger has also been 
critical of parts of the biological opinion, but has yet to issue a 
final ruling.
    While heavy snow and rainfall in California have prevented pumping 
restrictions from being implemented this year, that will not always be 
the case in the future. Consequently, it is imperative that NOAA work 
with the Bureau of Reclamation (BOR), U.S. Fish and Wildlife Service 
(FWS), and State and local water agencies to devise a workable system 
that provides essential water to farmers and communities south of the 
delta.
    Given that it appears likely that Judge Wanger will overturn at 
least portions of NOAA's biological opinion on the salmon, what is NOAA 
doing to proactively come up with both better that is protective of 
both the salmon and the livelihood of south-of-delta farmers?
    Answer. NOAA remains committed to a science-based approach to 
implementation of the current opinion, which allows for adaptive 
management as new science becomes available, and to finding ways to 
minimize impacts on water supply while still ensuring the required 
protections for the listed species and their critical habitats. NOAA 
has been and remains open to exploring adjustments in the specific 
parameters in its opinion that may be warranted to provide equal or 
better protections to listed fish while bolstering the reliability of 
water supplies. Reflecting this approach, the NOAA opinion itself calls 
for a formal adaptive management approach whereby through an annual 
review of operations it and the other parties may explore adjustments 
in operations on a routine basis and in response to new information. As 
a result of NOAA's adaptive management approach, it prepared a joint 
Federal response to the integrated annual review in November 2010 that 
included detailed adjustments to the opinion. Following that effort are 
the 2011 amendments to the opinion that allow more flexibility in 
implementing the opinion. Please see ``Attachment 1 to Questions 
Submitted by Feinstein'' for reference. For example, adjustments 
included changes to the flow schedule based on different water year 
types, drought exception procedures, and changes to real-time 
operations. The Department of Commerce will continue implementation of 
the adaptive management provisions of the current opinion to protect 
salmon and the livelihood of both south delta farmers and west coast 
fishermen who depend on salmon resources.
    NOAA is aware of the findings and recommendations of the NAS study. 
While NAS review was largely supportive of the scientific underpinnings 
and framework of the biological opinion, it did note uncertainties 
associated with 2 of the 72 measures within the opinion--both of which 
pertain to operations in the south delta--and recommended further 
explanation of the specific metrics utilized in those 2 measures. NOAA 
has communicated its willingness to explore adjustments or refinements 
in these parameters if other approaches would provide equivalent or 
better protections--especially with regard to the so-called ``export-
inflow ratio''--but thus far none has been identified. While the 
California Department of Water Resources explored the possibility of 
resolving these differences, its proposed solution--to drop the 
measures altogether--is not sufficiently protective of vulnerable, out-
migrating juvenile steelhead. In addition, both the California 
Department of Fish and Game and the California Water Resources Control 
Board issued reports containing analyses and recommendations similar to 
the export to inflow ratio in the NOAA opinion. NOAA nevertheless 
remains actively and genuinely open to exploring the options, and has 
encouraged those with good ideas to come forward with them.
    Question. When NOAA comes up with a new biological opinion, what 
new and hopefully better science will you be relying on to justify your 
new proposal?
    Answer. NOAA continues to incorporate new science through the 
adaptive management provisions in the current opinion. In addition, the 
Department of the Interior and the Department of Commerce announced a 
joint initiative in response to the NAS review and its subsequent March 
2010 report. This initiative is an inter-agency study plan for 
developing a single integrated biological opinion for the Bay-Delta 
Conservation Plan. The initiative has a two-fold strategy. First, it 
calls for the development and analysis of additional science that will 
address issues raised by NAS with regard to the current Department of 
the Interior's FWS and NOAA biological opinions on water project 
operations. The goal of this strategy is to incorporate the new science 
in implementing the biological opinions starting in water year 2011, 
and beyond. Second, the agencies will develop a single, integrated 
biological opinion based on a joint science program that encompasses 
FWS, U.S. Geological Survey, BOR, NOAA, and State scientists to address 
the Bay-Delta Conservation Plan and water project operations.
    The integrated biological opinion will include:
  --an outline of analytical tools to assess management of the delta 
        ecosystem and water supply;
  --a strategy to obtain new information where uncertainty exists; and
  --a general approach to completing the new biological opinion.
    Some of the unresolved scientific issues that will be further 
examined include fish mortality at the export facilities, delta 
contaminants, food web dynamics, predation, benefits of habitat 
restoration, and anadromous fish migration studies.
    Question. Is NOAA open to settling the case with the State of 
California, and if so, what do you believe would be necessary to 
achieve such a settlement?
    Answer. The short answer is yes. NOAA remains very open and willing 
to explore settlement of the claims in the current litigation. What 
terms might be necessary to achieve settlement are dependent on 
changing factual circumstances and the views of other litigants. We 
note, however, that the scope of the contested issues associated with 
the NOAA opinion are in fact quite narrow, limited to 1 of the 72 
measures in its ``reasonable and prudent alternative'', and therefore 
the task should prove correspondingly narrow--although still 
challenging, given the strength of differing views about the merits of 
the measure. In this context, NOAA continues to solicit and welcome 
ideas on adjustments from the parties.
    Question. I understand NOAA is exploring one option to protect the 
salmon by putting in a hard barrier along the confluence of the San 
Joaquin and Old Rivers to prevent the salmon from being diverted into 
the Old River in the direction of the State pumps.
    Please describe the necessary physical infrastructure, its costs, 
any necessary permitting, and your timeline for completion?
    Answer. Your question correctly identifies one option of active and 
substantial interest to NOAA and the other parties. A rock barrier or a 
``nonphysical barrier'' (e.g. ``bubble curtain'') has been installed at 
the head of Old River in most years in accordance with the State-led 
Vernalis Adaptive Management Program. In conformance with the current 
opinion, a ``nonphysical barrier'' has been tested in this location by 
the California Department of Water Resources and has yielded mixed 
results in its capacity to reduce juvenile straying into the south 
delta or juvenile predation. NOAA will discuss the pros and cons of 
continuing the nonphysical barrier versus the rock barrier with BOR and 
the California Department of Water Resources as we prepare for water 
operations next year. Also, within the context of the Bay Delta 
Conservation Plan, a technical team with representatives from NOAA, 
BOR, California Department of Water Resources, FWS and the California 
Department of Fish and Game, has proposed further evaluation of a new 
option of installing a fully operable gate in this location as part of 
the longer-term program. Furthermore, just last fall the independent 
science panel convened under the Vernalis Adaptive Management Program 
specifically and strongly recommended the targeted pursuit of a 
physical barrier to reduce straying into the south delta, reinforcing 
the merits of the concept.
    As to the detailed engineering, financial and permitting 
requirements to execute such a project, NOAA does not have this 
information and would have to defer to the expertise of both the BOR 
and the California Department of Water Resources for the information.
    Question. What results do you expect this to produce in terms of 
reduced pumping restrictions and benefits to the salmon?
    Answer. Survival of emigrating San Joaquin River steelhead smolts 
is extremely low through the lower San Joaquin River and south delta. 
We estimate survival at between 1 and 9 percent. The Vernalis Adaptive 
Management Program 2010 science review panel found that mortality in 
this reach is increasing, and is of significant concern, and for good 
reason: continuing mortality of more than 90 percent of the juveniles 
in any population on a year-to-year basis does not bode well for 
rebuilding that population.
    The fundamental objective of a rock barrier or an operable barrier 
is to reduce significantly the straying of migrating juveniles into Old 
and Middle Rivers and toward the pumps, where survivals are extremely 
low. The objective, to state it in the reverse, is to keep the 
emigrating juveniles in the mainstem of the San Juaquin, and to 
maintain and improve conditions in the mainstem, in order to boost 
survivals. There are interactive effects between the rock barrier and 
the continued San Joaquin Inflow to Export ratio, which provides 
necessary hydrologic conditions for these smolts to migrate through the 
delta. Effects on exports could be positive, neutral or negative and 
would need to be fully evaluated prior to installing a rock barrier.
    Question. If NOAA believes this would be beneficial to the salmon 
and the delivery of water to south-of-delta water users, why not move 
forward with the project immediately rather than waiting for either 
Judge Wanger to rule or a new biological opinion to be developed?
    Answer. We concur with the proposition that the parties should 
proceed to evaluate the project and its implications for both salmon 
and water supplies, and we share your interest in it. We are currently 
evaluating installation of a rock barrier in later 2011, coupled with 
necessary Vernalis inflow and export curtailment relationships, and 
hope to have the information in order to evaluate the merits and 
demerits of such an approach on both fish survivals and water supplies. 
We will keep you apprised of this project as it moves along.
    Question. Are there any other additional projects or administrative 
steps NOAA believes could be taken in the near term which could provide 
additional benefits to the salmon and increase water deliveries south 
of the delta?
    Answer. Yes. NOAA thinks it is critically important to fill near-
term science gaps to assist in refining and adaptively managing under 
the opinion and enabling all of the parties to evaluate trade-offs and 
make better decisions. We have several studies underway right now with 
acoustically tagged fish to quantify the relationship between exports 
and survivals under a variety of hydraulic conditions. This work is 
vital to improving the understanding of how fish move through the south 
delta and under what flow and pumping conditions. Further, NOAA is 
committed to developing a life-cycle model of Central Valley salmon 
populations, using the results of these acoustic studies and other 
available information. The need for such a life-cycle model was 
recently highlighted by the NAS in its report on the scientific 
foundations of the Bay Delta Conservation Plan. NOAA concurs 
wholeheartedly with that recommendation. Work is underway, and we 
anticipate draft life-cycle model products in mid-2012. In addition, 
while our agency's expertise is limited in this area, we generally 
support long-term water transfer agreements, conjunctive use programs, 
and similar mechanisms.
         national institute of standards and technology (nist)
    Question. There is a 0.2 percent across the board rescission of 
funds from all non-Defense accounts that is part of this long-term 
continuing resolution. By my calculations that totals about $1.5 
million for NIST.
    Do you know what programs will be affected as a result of this cut?
    Answer. The rescission was distributed across-the-board uniformly 
throughout all NIST Programs in an effort to minimize adverse 
programmatic effects to our mission.
    Question. How will this reduction affect these programs?
    Answer. The rescission was distributed across-the-board uniformly 
throughout all NIST Programs in an effort to minimize adverse 
programmatic effects to our mission.
    Question. The Manufacturing Extension Partnership operated by NIST 
is receiving approximately $128 million, an increase of $4 million more 
than the fiscal year 2010 funding level.
    What types of new activities will this program offer to small 
manufacturers?
    Answer. This additional funding received in fiscal year 2011 will 
allow MEP to build upon a strong foundation and further deploy new 
services with a specific focus on--
  --providing manufacturers with the tools and services that allow for 
        the identification and connection to new technologies that 
        match the manufacturer's capabilities and create opportunities 
        for growth through the development of new products and new 
        markets;
  --increasing manufacturers' adoption and application of advanced and 
        clean technologies; and
  --reducing manufacturers' environmental impact and the related costs 
        by promoting the development of new, environmentally focused 
        materials, products and processes to gain entry into new 
        markets.
    In addition, a portion of the additional funds will support the 
National Innovation Marketplace (NIM) by accelerating activities such 
as populating the NIM with product and technology ideas through 
sessions held with Universities, Federal laboratories, companies, and 
technology sources and supporting efforts focused on developing the 
Innovation Engineering Skills of the MEP network and partner 
organizations.
    Question. Do you have a sense for the economic impact that these 
additional funds will have?
    Answer. The additional funds will result in higher levels in the 
measures of economic impacts the NIST MEP collects annually from the 
manufacturing clients receiving services. These measures include 
increased and retained sales, new investments in plant, equipment and 
technology, cost savings, and new and retained jobs. Specifically, the 
increased funds are being used to support and expand efforts to assist 
manufacturers exporting activities, expansion into new supply chains, 
and development of new products. The results of these activities are 
also measured through the economic impacts reported annually.
                              catch shares
    Question. I understand that the catch shares program instituted on 
the west coast is enjoying growing support with fishermen, and that 
we're beginning to see some positive environmental and economic 
results.
    Could you please share with us the latest details?
    Answer. NOAA 's National Marine Fisheries Service (NMFS) worked 
with the Pacific Fishery Management Council (Council) and stakeholders 
for several years to develop the Pacific Coast Trawl Rationalization 
program (Rationalization program). Development of the Rationalization 
program has involved many complicated issues and decisions but we 
believe it will rebuild overfished groundfish stocks, increase the 
profitability of this fishery, provide sustainable and high-quality 
jobs, and benefit coastal communities.
    The shore-based part of the program now allows fishermen the 
flexibility to choose when to fish during the year, rather than 
prescribing a level of fishing early in the season with 2-month trip 
limit periods. Given this flexibility, it appears that fishermen are 
choosing to fish at a slower rate in the early months of the year. At 
the April council meeting, the Council's Groundfish Management Team 
provided an April status report on the shore-based part of the program 
that indicates that while the total number of vessels, landings, and 
dealers receiving landings are lower than during comparable months in 
2010, average landings and revenues per vessel are actually higher than 
in 2010. In early 2011, average total landings per vessel were 137,152 
pounds, compared with a range of 77,818-109,578 pounds during the same 
period in 2006-2010 (average = 97,133 pounds). Average total revenue 
per vessel for early 2011 was $88,149, whereas the average total 
revenue per vessel ranged from $47,029-$63,388 for early 2006 through 
2010 (average = $56,391). Although these preliminary data appear 
positive, NOAA is cautious about drawing any conclusions at this early 
stage. We will continue tracking the fishery throughout the summer and 
fall.
    With respect to positive environmental results, this catch share 
program was designed to address bycatch of constraining species, such 
as yelloweye rockfish, by allowing for flexibility in fishing 
operations. Yelloweye rockfish is currently overfished and the subject 
of an 80-year rebuilding plan. It is one of the most constraining 
overfished species on the Pacific coast and is encountered in 
commercial groundfish and nongroundfish fisheries, recreational 
fisheries, tribal fisheries, and in groundfish research activities.
    The coastwide bycatch limits in the commercial groundfish fisheries 
are extremely small and intended to prevent overfishing on this 
vulnerable stock. Fishermen in the shore-based part of the catch shares 
program are able to collectively ``pool'' and manage their risk of 
having their fishing operations constrained by overfished species, such 
as yelloweye rockfish, by forming ``risk pools''. ``Risk pools'' allow 
fishermen to combine their allocations of overfished species quota, 
exchange information to avoid ``hot spots'' of overfished species, and 
adopt best fishing practices to reduce bycatch. In addition, if a 
fisherman were to catch an amount of an overfished species that was 
higher than his individual quota, the risk pool would cover the amount 
and allow him to continue fishing. These ``risk pools'' have proved 
beneficial to the fishing industry and overfished species such as 
yelloweye rockfish by keeping catches low and providing a safety valve 
for fishermen. NMFS is currently working with the fishing industry 
through the Council to further refine ``risk pool'' provisions and to 
evaluate their use to protect overfished species while potentially 
providing additional stability to fishermen.
    In addition, reducing discards is a fisheries issue of economic and 
biological importance. Under the catch shares program, retention is 
higher for many species, including arrowtooth flounder, bocaccio 
rockfish, canary rockfish, darkblotched rockfish, lingcod Pacific Ocean 
perch, petrale sole, sablefish, starry flounder, and widow rockfish. 
These higher retention rates (i.e., lower discard rates) indicate 
decreased waste, and increased efficiency, potentially leading to both 
healthier fish stocks and fishing communities.
    Question. Providing adequate funding for catch shares programs to 
help fishermen make the transition is critical to the long-term 
recovery of the economic and environmental sustainability of these 
critically important fisheries. I look forward to working with you to 
support such funding in fiscal year 2012.
    Could you share with us the ways in which these funds help 
fishermen, and why that is so important?
    Answer. Thank you for the question and for your offer of 
assistance. The fiscal year 2012 President's budget includes a request 
for $54 million to support the development and implementation of catch 
share programs. Catch shares can be an effective tool for preventing 
overfishing and reducing the negative biological and economic impacts 
of the race for fish, resulting in safer, more profitable and 
sustainable fisheries that benefit all Americans. Catch share programs 
often require increased and improved monitoring, including fisheries 
observers, which will lead to improved quality and timeliness of the 
catch data in these fisheries. This improved data collection effort not 
only ensures the integrity of catch share accounting by individual 
fishermen, it also increases the quality and quantity of scientific 
information used to conduct stock assessments thus improving the 
science supporting management decisions including by potentially 
reducing scientific uncertainty. The bulk of the $54 million requested 
in the President's budget will support specific catch share programs 
that have recently been implemented, including the sector program in 
the Northeast, the Pacific Coast Groundfish Trawl Rationalization 
Program, and the Gulf of Mexico grouper and tilefish program; thus 
assisting fishermen and coastal communities in the transition to 
sustainability.
    Funds will also be used to support establishment and administration 
of program-specific share requirements such as accounting databases and 
electronic reporting systems, computation of annual quota for each 
participant, adjudicating administrative appeals of eligibility and 
catch share decisions, collection of socio-economic data, and other 
projects such as the development of performance measures. Support for 
this infrastructure and additional data collection will improve the 
efficiency of the programs, thereby reducing the cost to fishermen and 
NMFS, and provide important information to the Regional Fishery 
Management Councils (Councils) as they monitor their catch share 
programs and make modifications as needed.
    In addition, since it is the Councils who decide in which fisheries 
they want to consider and implement catch share programs, the fiscal 
year 2012 President's budget request includes funding for the Councils 
in support of catch share-related activities they have identified as 
important.
    The long-term economic and ecological benefit of these investments 
has been seen in other fisheries that have moved to catch share 
programs, such as red snapper where the value of the fishery (based on 
quota prices) has increased by 82 percent and the ex-vessel price of 
red snapper has increased by 17 percent.
    To help ensure fairness and equity for new entrants and small 
vessel owners, NOAA is also seeking to increase loan authority in 
fiscal year 2012 from $16 million to $24 million under NOAA's Fisheries 
Finance Program to provide quota share loans in support of existing 
catch shares programs. The Magnuson-Stevens Fishery Conservation and 
Management Act (MSA) allows Councils to request NOAA Fisheries Finance 
Program loans to assist small operators and first time buyers of catch 
share privileges. These programs, as authorized under the MSA, are 
limited to entry-level fishermen and fishermen who fish from small 
boats. These programs provide a mechanism for new entrants to finance 
acquisition of quota share, part of their start-up needs, thus lowering 
the threshold for entry. For example, by providing financing to acquire 
quota share, a new entrant then may have sufficient cash flow to 
finance acquisition of a boat and permit in that fishery. Currently, 
only two Councils have taken advantage of these MSA provisions, the 
North Pacific Council and the Gulf of Mexico Council. The North Pacific 
Council requested the NOAA Fisheries Finance Program develop loan 
programs for the Halibut/Sablefish Individual Quota Share and the Crab 
Individual Fishing Quota programs, which were authorized in 1993 and 
2011, respectively. In addition, NOAA has received a request from the 
Gulf of Mexico Council to initiate an Individual Fishing Quota loan 
program for Grouper/Tilefish and for Red Snapper, which is planned for 
implementation in fiscal year 2012. Until 2011 this loan authority has 
only been used to support loans for quota in the halibut/sablefish 
fishery. As additional loan programs are coming on line through the 
Councils, we are seeking additional loan authority to support the new 
programs.
    The additional loan authority in fiscal year 2012 will initially 
support loans in the Bering Sea and Aleutian Islands King and Tanner 
Crab fisheries. Once the Grouper/Tilefish and Red Snapper programs are 
implemented, we would anticipate that these would be accommodated under 
the additional lending authority as well. Given that roughly 80 percent 
of the current participants in the Gulf of Mexico fisheries are smaller 
operators, we expect the loan program would largely be used by these 
smaller operators. This type of loan program has proven helpful to the 
industry and coastal communities as they transition to sustainable 
fisheries.
    These loans are and will be usable to purchase or refinance 
Individual Fishing Quota in these fisheries; the loans may not be used 
to acquire quota share beyond specific percentages within each fishery 
(i.e., consistent with existing excessive share caps to limit 
consolidation). By providing the financing, NOAA supports a more 
competitive, market-oriented fishery that also helps to preserve 
sustainable yields in those fisheries over time.
               manufacturing extension partnership (mep)
    Question. Thank you Mr. Secretary for your focus on domestic 
manufacturing capabilities, specifically, your request for full funding 
of the MEP program to continue assisting small- and medium-sized 
manufacturers. A vibrant manufacturing sector is critical to the 
economic future of our country. California maintains the largest 
manufacturing sector of any State and the MEP program has done a 
tremendous job in assisting our State's manufacturers by increasing 
productivity and job creation.
    However, it is my understanding that many MEPs are now providing 
not only their private share of the program's cost-sharing agreement, 
but also the State's share as well. Many States, including California, 
face significant budget shortfalls, and as a result are not able to 
meet their contribution expectations to fund MEP.
    Does the Department currently have plans to alter the cost-share 
requirement in a way that would relieve some of the burden on MEPs?
    Answer. As part of the America COMPETES Reauthorization Act of 
2010, the Government Accountability Office (GAO) was directed to study 
the MEP Cost Share structure and to develop recommendations for 
implementation by the Secretary of Commerce. GAO published its report 
on April 4, 2011 and the report made no recommendations concerning any 
adjustment to the current cost share structure. NIST is assessing the 
report and is evaluating its options going forward.
                           broadband funding
    Question. In your testimony you talk about the Broadband Technology 
Opportunity Program (BTOP). The Congress appropriated $7.2 billion in 
broadband grant and loan programs under the American Recovery and 
Reinvestment Act, $4.2 billion of which was allocated through BTOP. It 
is my understanding that, as of March 31, 2011, only 7.6 percent has 
been distributed nationwide.
    Can you explain why there is such a lag time in dispersing this 
funding?
    Answer. The vast majority of BTOP funding (approximately $3.5 
billion) is being used for broadband infrastructure projects. These 
projects typically cannot begin to spend the bulk of their funding 
immediately due to the legal requirements associated with environmental 
clearances, historical impact assessments, and other permitting 
processes associated with construction projects. Further, many BTOP 
projects require procurement of equipment and services, which take time 
in terms of both procurement processes and delivery. We have been doing 
everything we can to facilitate and expedite these processes for our 
awardees and ensure that BTOP projects are completed on time and within 
budget.
    We expect a significant increase in BTOP fund disbursement as 
infrastructure projects obtain all of their clearances and heavy 
construction occurs through this fall. Sixty percent of the 
infrastructure projects have already been cleared for construction, and 
we are expecting more than 90 percent of the infrastructure projects to 
be cleared for construction by the end of June 2011.
    Recent first quarter 2011 recipient reporting validates our 
expectations of significant increases in BTOP fund disbursements. For 
example, BTOP public computer center project spending increased 77 
percent from the last quarter of 2010, sustainable broadband adoption 
spending increased 80 percent, and infrastructure project spending 
increased 88 percent. We expect similar increases this quarter.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson
       current industrial reports (cir) program and alternatives
    Question. The fiscal year 2012 budget submission for the Department 
of Commerce proposes to discontinue the economic statistical series, 
the CIR program.
    I have heard from many industries who are concerned about the 
discontinuance of this program and the impact it would have on their 
ability to forecast economic climates and make operational decisions, 
which in turn would limit their production and growth possibilities.
    The Department's budget submission indicated that this program is 
being discontinued to fund higher-priority programs. In light of these 
concerns and the signs of economic recovery our country continues to 
show, is discontinuing the CIR program a prudent decision at this time?
    Answer. This decision was not taken without consultation with key 
data users on relative program priorities and specifically about the 
consequences of the elimination of the CIR program. While few data 
users wanted to eliminate an existing data source, the availability of 
manufacturing product class data from the Annual Survey of 
Manufactures, and the continued collection of detailed product 
information in the economic census and in our monthly trade statistics 
program, helps mitigate the loss. Even if the CIR elimination were 
effected, the Census Bureau continues to measure the manufacturing 
sector (e.g., new orders, capital and IT investments, research and 
development, corporate profits, etc.) in far more detail than any other 
economic sector.
    Question. In your budget submission, you indicate that instead of 
using the CIR program, you intend to measure the manufacturing sector 
through other current program data collection efforts such as the 
Annual Survey of Manufactures (ASM), the Monthly Manufacturers' 
Shipments, Inventories, & Orders (M3), the Quarterly Financial Report, 
the Annual Capital Expenditures Survey, and other products.
    I have had manufacturers and producers raise concerns that these 
listed programs generally only provide a single data point (value of 
industry-wide sales or shipments) and don't collect key data on such 
things as unit (quantity) production and shipment information. They do 
not provide data on sub-segments or product categories of an industry. 
To give one example, the ASM covering the paint and coatings industry 
provides only an industry-wide annual shipments number (value only), 
while the CIR provides details such as volume (gallons) and value 
(dollars) on categories as diverse and specific as automobile, light 
truck, van, and sport utility vehicle finishes.
    Given these concerns, how do you intend to obtain and disseminate 
information on such things as product mixes and unit costs that 
manufacturers and producers need in order to understand market trends 
and encourage competitiveness, particularly against foreign 
competition?
    Answer. The CIR program provides product mixes and unit-cost data 
for only selected manufacturing industries but not the entire 
manufacturing sector. The Census Bureau will continue to collect and 
publish information on detailed manufacturing products on an annual 
basis at the product class level (rather than the product level) for 
these 121 categories through ASM. The data in the CIR are consistent 
with the data in ASM. The consistency of this relationship allows data 
users to continue to monitor, evaluate, and understand the market. 
Because ASM does not collect data on quantity, unit-cost data will not 
be available on an annual basis. However, the economic census for the 
manufacturing sector collects comparable data (value and quantity) that 
will allow users to derive unit cost.
    The Census Bureau continues to measure the manufacturing sectors in 
far more detail than any other economic sector. For example, M3, a 
principle economic indicator, provides monthly trends on economic 
conditions through measurement of current industrial activity while 
providing indication of business trends. The Quarterly Plant Capacity 
Utilization survey provides statistics on the rates of capacity 
utilization for the manufacturing sector. The Census Bureau produces a 
``Profile of U.S. Exporting Companies'' that provides aggregated data 
on the U.S. exporting community (i.e., number of exporters, known value 
of the export trade, employment size, type of company [manufacturers, 
wholesalers, and others] and major foreign markets). These data, in 
combination with other surveys covering capital and IT investments, 
research and development, corporate profits, etc., provide a host of 
information to examine, evaluate, and monitor the performance of the 
manufacturing sector against foreign competition.
    Question. In previous year's budget requests, the Department of 
Commerce has provided an explanation of the benefits and importance of 
the CIR program. For example, in past years it has indicated that the 
Bureau of Economic Analysis (BEA) uses CIR data to prepare the 
quarterly estimates of Gross National Product (GNP). The Federal 
Reserve Board prepares the monthly index of industrial production and 
the Bureau of Labor Statistics (BLS) develops price indexes using this 
data. The International Trade Administration (ITA) and the 
International Trade Commission uses this data to monitor the effects of 
international trade on domestic production.
    If this program is discontinued, how will those agencies be able to 
produce the information currently supported by the CIR program? Has the 
Department consulted directly with these agencies regarding its plan to 
terminate the CIR program? If so, was concern expressed regarding the 
potential impact the loss of this data will have on these agencies 
abilities to adequately perform their missions?
    Answer. In deliberations on fiscal year 2012 submission, the Census 
Bureau did consult with the key data users on relative program 
priorities and specifically about the consequences of the elimination 
of the CIR program. Users weighed the loss of the CIR against proposed 
cuts of other programs and key stakeholders considered the CIR program 
given the amount of detail statistics the Census Bureau currently 
provides for the manufacturing sector. While few data users wanted to 
eliminate an existing data source, the availability of manufacturing 
product class data from ASM, and the continued collection of detailed 
product information in the economic census and in our monthly trade 
statistics program, helped mitigate the loss. Moreover, on balance the 
Census Bureau continues to measure the manufacturing sector (e.g., new 
orders, capital and IT investments, research and development, corporate 
profits, etc.) in far more detail than any other economic sector.
    Question. The 2011 Census Bureau budget submission indicated that 
the CIR program covers the Census Bureau's responsibilities under the 
Trade Act of 1974, including section 608 requirements to collect data 
on imports, exports and domestic production on a comparable basis.
    In light of this, how does the Department propose to meet these 
requirements if the CIR program is discontinued?
    Answer. The Census Bureau continues to show on a monthly basis 
exports of domestic merchandise and imports for consumption based on 
manufacturers' production. Data in economic census years will show 
manufacturing production data of these products along with the import 
and export data. In addition, we are exploring the possibility of 
publishing annual import and export data at a product class level 
(i.e., 1,700 product categories) on the ASM.
    Question. According to the Department's fiscal year 2012 budget 
submission, eliminating the CIR program will save approximately $4.012 
million. In proposing to discontinue this program has the Department 
considered off-setting expenses that will be required to develop 
alternate systems to collect and analyze these data in order to meet 
the statutory requirements noted above.
    Answer. Given the plan to leverage existing data sets from other 
programs as cited above to meet the statutory requirements of the Trade 
Act of 1974, we did not consider off-setting expenses.
    Question. Has the Department identified the costs that will be 
imposed on other agencies of Government, such as BEA and BLS, should 
they be required to develop other means of obtaining these data?
    Answer. We did not explore the cost of agencies such as BEA or BLS 
developing other means of obtaining these data. We did provide the 
National Agriculture Statistics Service (NASS) of the United States 
Department of Agriculture a reimbursable cost estimate for nine CIR 
agricultural-related surveys. In addition, a meeting is scheduled in 
June to discuss these reimbursable cost estimates with NASS and several 
trade associations to discuss the feasibility to conduct these surveys 
on a reimbursable basis.
    Question. Finally, has the Department conducted a formal or 
informal cost benefit analysis to consider the costs to U.S. 
manufacturing and agricultural competitiveness as a result of the 
discontinuation of the CIR and whether it exceeds the $4 million that 
will be used for other objectives within the Department?
    Answer. We did not conduct a cost-benefit analysis to consider the 
costs to U.S. manufacturing and agricultural competitiveness resulting 
from the termination of the CIR program. As stated earlier, the 
availability of manufacturing product class data from ASM, the 
continued collection of detailed product information in the economic 
census and our monthly trade statistics program helps mitigate the 
loss. Even if the CIR elimination were effected, the Census Bureau 
continues to measure the manufacturing sector (e.g., new orders, 
capital and IT investments, research and development, corporate 
profits, etc.) in far more detail than any other economic sector.
    Question. Is the Department conducting or implementing at this time 
any plans to discontinue the CIR program in the absence of action or 
approval by the relevant appropriations committees, to include 
reassigning, or planning for the reassignment of, personnel or other 
resources currently dedicated to this program, discontinuing the 
development or fielding of surveys to collect data required under this 
program, or reprogramming any funding currently fenced to or otherwise 
allocated to the CIR program?
    Answer. Within the CIR program, there are 4 monthly, 11 quarterly, 
and 26 annual surveys. The Census Bureau will continue production of 
these surveys until the end of fiscal year 2011. However, to complete 
an orderly shutdown of this program by the end of this fiscal year, the 
Bureau determined that the last release for 2011 monthly reports will 
be the July 2011 report, scheduled to be released September 9, 2011. 
The last release for 2011 quarterly reports will be the second quarter 
report, scheduled for release September 22, 2011. All 2010 annual 
reports will be released by July 29, 2011.
    Question. The Department of Commerce's Strategic Plan for fiscal 
year 2011-2016 includes as one of its objectives to ``Improve 
understanding of the U.S. economy, society, and environment by 
providing timely, relevant, trusted and accurate data, standards and 
services enabling entities to make informed decisions.'' Additionally, 
it states, ``. . . the Census Bureau assists in fostering economic 
growth by providing timely, accurate, accessible, and current measures 
of the population, economy, and governments, which help entrepreneurs 
and businesses to identify and exploit market opportunities that 
generate jobs. This information also helps to provide early signals of 
impending problems in key sectors throughout the economy and effective 
information to enable communities to build their capacity to attract 
businesses and sustain economic growth. Data collected from many 
monthly, quarterly, and annual surveys support effective 
decisionmaking, in both the public and private sectors, with the 
information assets needed to understand social, economic, and 
demographic trends.''
    In light of this, can you explain why you are recommending the 
elimination of a report that supports this objective identified by your 
strategic planning?
    Answer. While the CIR program collects and publishes information on 
detailed manufacturing products, slightly more aggregated information 
on more than 1,700 product class categories are available on an annual 
basis from ASM. In addition, detail manufacturing product data will 
continue collection in the quinquennial economic census. Furthermore, 
the Census Bureau's monthly, quarterly, and annual survey programs on 
manufacturing new orders, capital and IT investments, plant capacity, 
research and development, corporate profits, and trade statistics will 
continue to provide key measures in the performance of the 
manufacturing sector.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                             manufacturing
    Question. Manufacturing directly employs 12 million Americans. 
Companies operating in the United States have steadily outsourced 
manufacturing work to specialists abroad and cut their spending on 
basic research. Sophisticated engineering and manufacturing 
capabilities that underpin innovation in a wide range of products have 
been rapidly leaving too. As a result, the United States has lost or is 
in the process of losing the knowledge, skilled people, and supplier 
infrastructure needed to manufacture many of the cutting-edge products 
it invented.
    What are the emerging opportunities in advanced manufacturing and 
how can the Federal Government accelerate their entry and success?
    Answer. There are many emerging technologies that can play a role 
in advanced manufacturing, ranging from vastly improved ways of making 
products more efficiently and sustainably to entirely new processes 
that can create previously impossible materials and products. Examples 
include:
      Smart Manufacturing.--The dramatically intensified application of 
        intelligent equipment, modeling, and simulation throughout the 
        manufacturing and supply chain enterprise--will increase 
        productivity and efficiency.
  --Additive manufacturing (sometimes referred to as 3-D printing) that 
        can build highly complex custom components.
  --Next-generation robotics and automation that are rapidly 
        retaskable, adaptive, and flexible.
  --Nanomanufacturing that enables the creation of radically new 
        products, such as flexible electronics.
  --Biomanufacturing advancements that produce higher-quality biologic 
        products (such as pharmaceuticals) and next-generation products 
        such as stem cells and personalized biotherapeutics.
    The Federal Government can accelerate their entry and success by:
  --Providing the foundational technology infrastructure that lowers 
        the risk of adoption of new technologies involving the 
        development of standards and performance measures.
  --Targeting investments in transformational research and development 
        in critical technologies that will advance manufacturing.
  --Providing mechanisms to help accelerate the adoption of these 
        technologies by small and medium manufacturers.
    National Institute of Standards and Technology's (NIST) Laboratory 
research programs, Technology Innovation Program, Advanced 
Manufacturing Technology Consortia (AMTech) program, and the Hollings 
Manufacturing Extension Partnership provide a coordinated set of 
programs to holistically address these challenges.
    Question. How can Department of Commerce activities best support 
U.S. leadership in clean-energy technology?
    Answer. Clean energy is key to revitalizing and sustaining 
America's industrial and manufacturing base. And it can create exactly 
the types of high-skill, high-wage jobs that we need more of in 
America.
    The Commerce Department has put its resources behind growing clean-
energy businesses at every step in the business development process.
    In December 2010, I announced the Renewable Energy and Energy 
Efficiency Initiative, a multi-agency effort to significantly increase 
renewable energy and energy efficiency exports. This initiative 
includes 23 commitments from eight separate Government agencies to 
better tailor financing options, enhance market access, increase trade 
promotion, and amplify the efficiency of existing export promotion 
programs for Renewable Energy Efficient companies.
    In May 2010, I led a clean-energy trade mission to China--the first 
Cabinet-level trade mission of the Obama administration. I was joined 
by representatives from 24 U.S. businesses looking to take advantage of 
opportunities in the clean-energy market. Overall, exports to China 
increased 32 percent in 2010 compared to 2009.
    Further, USPTO has announced a pilot program that allows inventors 
who have already submitted patent applications for green technologies 
to have their submissions receive an expedited review.
    Additionally, NIST is playing a significant role in supporting U.S. 
leadership in clean-energy technologies. In the area of energy 
efficiency NIST's efforts in developing measurement technologies, 
standards, and test methods that can support the next generation of 
higher-efficiency photo-voltaic panels will support an industry that 
employed 93,000 solar-related positions in the United States in 2010. 
NIST's research in developing measurement tools and standards for 
energy efficient buildings will help reduce U.S. energy consumption and 
will have significant impact, as buildings consume 40 percent of all 
U.S. electricity production. Furthermore, NIST work on development of 
standards for the Smart Grid is critical to the actual deployment of 
the Smart Grid--which will rely on the adoption and production of 
several new technologies--creating opportunities for U.S. 
manufacturers, and the potential for new U.S. jobs.
    Question. How can NIST be more effective at each stage of the 
innovation chain? What are useful metrics to guide NIST technology 
activities?
    Answer. NIST's core mission is to promote U.S. innovation and 
industrial competitiveness by advancing measurement science, standards, 
and technology in ways that enhance economic security and improve our 
quality of life. To be effective at each stage of the innovation 
process, NIST must maintain a wide portfolio of programs, from the 
laboratories to the extramural programs in order to addresses unique 
needs and gaps spanning the entire innovation and technology 
development cycle. From incentivizing and supporting long-term 
industry-led directed basic research to accelerating technology 
deployment and adoption by America's manufacturers, the NIST extramural 
programs along with the NIST laboratories, provide a critical 
infrastructure that supports the type of high-tech innovation, 
development, and manufacturing that is critical for our Nation's long-
term sustainable economic growth and job creation.
  --NIST laboratories provide measurement solutions to innovators and 
        manufacturers that increase efficiency and facilitate the use 
        and adoption of advanced technology. For example, NIST work in 
        advanced sensors, robotics, and modeling and simulation will 
        provide the infrastructure that facilitates the adoption of new 
        technology systems that will help manufacturers:
    --transform a new idea into production easily;
    --reconfigure a factory to produce multiple types of products using 
            the same facility;
    --adapt to changes in production while maintaining high quality and 
            minimizing waste; and
    --organize subcontractors, Original Equipment Manufacturers (OEMs), 
            and customers into efficient and dynamic supply chains; and
  --The new AMTech will collapse the timescale of technological 
        innovation by including partners that span the innovation life 
        cycle from idea to discovery, from invention to 
        commercialization. Through cost-sharing and a common research 
        agenda, these consortia will support the development of 
        innovative new technologies directed at creating high-wage jobs 
        and economic growth across the industry sector. These consortia 
        will develop road-maps of critical, long-term industrial 
        research needs and provide support for research and equipment 
        at leading universities and Government laboratories directed at 
        meeting these needs. This approach deepens industrial 
        involvement in determining how to best leverage Government 
        resources to promote technological innovation.
  --Technology Innovation Program (TIP) funds small companies and 
        consortia of small companies and universities to support high-
        risk transformational R&D. TIP funding helps small companies 
        develop and demonstrate new high-risk, cutting-edge 
        technologies, when no other sources of funding are available.
  --Manufacturing Extension Partnership (MEP) helps small and medium 
        manufacturers strengthen their competitive positions by 
        accelerating the adoption of technological innovations, 
        facilitating the adoption of environmentally sustainable 
        business practices, promoting renewable energy initiatives, 
        fostering market diversification, and connecting domestic 
        suppliers to manufacturers to assist manufacturers in 
        successfully competing over the long term in today's complex 
        global manufacturing environment.
    Developing effective metrics for science and technology 
organizations is a challenge, as the metrics change with each stage of 
the innovation cycle, and much of the impact can often lag by several 
years. As such NIST uses a number of metrics to evaluate its programs, 
measuring everything from indicators of scientific productivity, like 
publications and their impact, to tracking measures of technology 
transfer such as numbers of patents and licenses. Rigorous independent 
peer-review is also a cornerstone of the NIST evaluation system, with 
expert panels appointed by the National Research Council reviewing 
elements of the laboratory programs on an annual basis.
    Question. What changes do we need to make to trade policies so that 
more manufacturing can be done in the United States?
    Answer. The Department of Commerce continues to work, along with 
other agencies, to enhance the competitiveness of U.S. products and 
increase U.S. manufacturing exports. The National Export Initiative 
(NEI), announced by President Obama in his 2010 State of the Union 
Address, sets the ambitious goal of doubling U.S. exports by the end of 
2014 to support millions of jobs here at home. NEI is focused on:
  --improving trade advocacy and export promotion efforts;
  --increasing access to credit, especially for small and midsize 
        businesses;
  --removing barriers to the sale of U.S. goods and services abroad;
  --robustly enforcing trade rules; and
  --pursuing policies at the global level to promote strong, 
        sustainable and balanced growth.
    Through these efforts to empower U.S. businesses and achieve a 
level playing field, we can provide increased opportunity for U.S. 
manufacturing.
    One of the most powerful ways to encourage more manufacturing in 
the United States is through the preferential market access which Free 
Trade Agreements offer to U.S.-origin manufactured products. The Obama 
administration has been working closely with the Congress to approve 
pending trade agreements with South Korea, Colombia, and Panama. By 
expanding access to South Korea, the agreement will eliminate tariffs 
on 95 percent of United States exports of industrial and consumer goods 
within 5 years, and could boost annual United States exports to Korea 
by more than $10 billion while supporting more than 70,000 American 
jobs.
    Question. How do we balance international competitiveness against 
international cooperation?
    Answer. There is no question that U.S. companies welcome the 
opportunity to compete vigorously for sales in the world market. But no 
matter how competitive U.S. companies are, they may still encounter 
problems accessing global markets unless the terms of global 
competition are fair. That is why the United States cooperates with our 
trading partners to establish a rules-based international trading 
system in which companies from all countries can compete on a more 
level playing field. U.S. trade agencies, including the Commerce 
Department's ITA, work together with counterparts in other countries to 
do just that. This work ranges from negotiating new trade disciplines 
and enforcing existing ones in the World Trade Organization and 
bilateral/regional trade agreements, to focused discussions of regional 
and bilateral trade issues in such venues as the Asia Pacific Economic 
Cooperation Forum, the U.S.-China Joint Commission on Commerce and 
Trade, and the Transatlantic Economic Council.
    We also cooperate with key trading partners to exchange views on 
best practices and help improve the overall business environment 
through the Organization for Economic Cooperation and Development.
    We understand, however, that strict enforcement of trade 
obligations is key. Accordingly, a priority of the Commerce Department 
is to ensure foreign country compliance with both U.S. fair trade laws 
and with these countries' international trade obligations. Ensuring 
U.S. companies have effective recourse against unfair trade practices 
such as dumping and subsidization helps companies compete fairly in our 
own market, as well as markets in third countries.
    Monitoring foreign country compliance with trade obligations and 
actively knocking down foreign government barriers that impede U.S. 
exports or investments helps American firms and workers take advantage 
of the trade agreements we have negotiated. All of these activities 
have proven effective for working to head off market access problems 
and helping achieve that balance between international competitiveness 
and international cooperation.
    Question. How can the incentive to move manufacturing offshore be 
reduced and the incentive to rebuild our industrial base be increased?
    Answer. Over time, it has become apparent that many companies moved 
offshore without a complete understanding of the total costs of such a 
change. Beyond simply product, wage and transportation costs, there are 
many more issues to be considered, such as the cost to achieve 
comparable product quality, to carry higher inventories and to protect 
intellectual property. The Obama administration and the Commerce 
Department are working to ensure America remains an attractive place to 
do business.
    Earlier this year, the President created the Council on Jobs and 
Competitiveness (Jobs Council) to provide nonpartisan advice on 
continuing to strengthen the Nation's economy, ensure the 
competitiveness of the United States and the creation of jobs, 
opportunity, and prosperity for the American people.
    The Jobs Council is comprised of distinguished citizens from 
outside the Federal Government, including citizens chosen to serve as 
representatives of the various sectors of the economy to offer the 
diverse perspectives of the private sector, employers, and workers on 
how the Federal Government can best foster growth, competitiveness, 
innovation, and job creation.
    Members of the Jobs Council are currently soliciting ideas from 
across the country about how to bolster the economy and the prosperity 
of the American people. They will report directly to the President on 
the design, implementation, and evaluation of policies to promote the 
growth of the American economy, enhance the skills and education of 
Americans, maintain a stable and sound financial and banking system, 
create stable jobs for American workers, and improve the long-term 
prosperity and competitiveness of the American people.
    The Manufacturing Council, which I lead, is another group of 
manufacturers from across the country who will be working hand-in-hand 
with the Jobs Council to develop ideas about how to increase U.S. 
manufacturing competitiveness and bring more jobs back home. The Jobs 
Council along with the Manufacturing Council will work collaboratively 
with all agencies and all offices within the Executive Office of the 
President toward the fulfillment of these goals.
    The Commerce Department is also actively implementing the NEI. NEI 
aims to double U.S. exports by the end of 2014 to support several 
million jobs. It enhances the U.S. Government's trade promotion 
efforts, increases credit to businesses--especially small- and medium-
sized businesses--looking to export, and continues to improve efforts 
to remove trade barriers for U.S. companies in foreign markets. For 
America to win the future, more small- and medium-sized businesses must 
export, because the more small businesses export, the more they 
produce, the more workers they need, and that means good-paying jobs 
here at home.
    U.S. commercial competitiveness can also be thwarted by market 
distorting unfair trade practices of foreign governments and firms. 
Ensuring that U.S. companies and workers have the opportunity to 
compete on a level playing field is thus critical to advancing business 
competitiveness in the United States and abroad, and is a key component 
of NEI. Accordingly, a key focus of our efforts in the Department of 
Commerce is strong enforcement of our unfair trade laws. Foreign 
government subsidies can also have a debilitating effect on U.S. 
exporters' competitiveness abroad, including in both the subsidizer's 
and third-country markets. Our subsidies enforcement activities help by 
preventing or remedying the harm that foreign government subsidies can 
cause to U.S. businesses and workers. Commerce also regularly advocates 
on behalf of U.S. exporters that are subject to foreign trade remedy 
(antidumping, countervailing duty, or safeguard) actions, in part by 
ensuring that the nations that pursue these actions do so in accordance 
with their World trade Organization commitments.
    Another way to encourage U.S. manufacturing is through our Foreign-
Trade Zones (FTZ) program, which allows companies to use special 
customs procedures that provide duty and logistical savings to help to 
level the playing field with offshore alternatives. Recently simplified 
procedures and pending regulatory revisions should make the FTZ program 
an even better tool to help U.S. companies compete and create or retain 
jobs in the United States in support of the NEI.
    Question. Speaking more broadly, what other programs at the 
Department of Commerce are effective at spurring domestic 
manufacturers' competitiveness, which would you select and why?
    Answer. The Commerce Department has focused the work of its bureaus 
on supporting the needs of manufacturing firms at crucial points in 
their lifecycle where Government activity can provide added value--
helping support innovation, commercialization, and access to global 
markets.
    Innovation.--A competitive manufacturing capacity requires creating 
and deploying new ideas in the form of new products, new business 
models, and improved production processes. Our USPTO enables these 
developments through an improved environment for intellectual property 
creation--driving a more efficient patent system and better protection 
at home and abroad. Commerce, through investments in NIST, further 
supports the creation of new ideas directly through critical 
investments in basic science, measurement capacity, and technical 
assistance for the establishment of industry standards that enable the 
development of entire markets for manufactured goods. Without a strong 
foundation for advanced manufacturing, benefits for the economy, 
including long-term job growth, cannot be maximized. This is why our 
Economic Development Administration's (EDA) leadership on regional 
innovation clusters is critically important to building the capacity 
for global competitiveness.
    Commercialization.--Transforming new ideas into manufactured 
outputs is a challenge that often confounds entrepreneurs--both start-
up and large-businesses alike--in their attempts to take new ideas to 
market and ensure profitable, sustainable manufacturing businesses. 
Commerce supports these efforts in multiple ways. EDA's Office of 
Innovation and Entrepreneurship focuses specifically on the challenges 
of commercialization. Additionally, the Hollings MEP at NIST is a 
program that works directly with companies to help them improve 
production efficiency and identify and enter new markets. This is an 
effective program with demonstrated success.
    Commerce is also able to support commercialization by providing 
direct information and support to manufacturers in understanding the 
domestic and global marketplace, areas of growth and opportunity in key 
sectors through the work of the Economics and Statistics Administration 
and ITA.
    Global Competitiveness.--The future of manufacturing will be 
fundamentally reliant on the ability of U.S. businesses to access and 
thrive in overseas markets, and the Commerce Department is working to 
help position these businesses for success through its efforts to drive 
the NEI. At the heart of the NEI is the basic premise that domestic 
production is critical: we need to make it here, in order to export it 
from here. The NEI was established by President Obama in 2010 with a 
goal of doubling U.S. exports over 5 years. The Department is 
profoundly focused on ensuring export competitiveness for U.S. 
manufacturers primarily through the work of the ITA in partnership with 
other agencies both within and outside the Department.
                                 ______
                                 
              Questions Submitted by Senator Sherrod Brown
                    national export initiative (nei)
    Question. Mr. Secretary, the Government Accountability Office (GAO) 
is presently completing two reports I requested.
    One examines the foreign commercial service, and the other examines 
the manufacturing and services division.
    In the commercial service (CS) report, one of the conclusions I'm 
interested in GAO finding is whether our current resources are aligned 
with the NEI, and whether we are focusing on getting the biggest export 
bang for each dollar.
    Are our U.S. Foreign Commercial Service (FCS) offices properly 
aligned with the NEI? What questions and issues need to be considered 
in re-organizing FCS in order to meet goals of the NEI?
    Answer. As a result of the August 2010 GAO report, ``Increases in 
Commercial Service Workforce Should be Better Planned'', the CS has 
developed methodology to properly align its worldwide footprint with 
NEI-priority markets and sectors. CS leveraged a resource allocation 
model to rank export potential of overseas markets, and it incorporated 
GAO workforce planning ``best practices,'' and input from International 
Trade Administration and Commerce, to conduct a strategic review of its 
staffing and worldwide footprint.
    As a result of this analysis, in fiscal year 2012, the CS will 
begin a strategic repositioning of its global footprint to allow it to 
more effectively serve U.S. exporters, protect U.S. commercial 
interests in priority markets, and help achieve NEI goals. Over the 
next several fiscal years, CS will gradually shift its overseas 
presence by reallocating staff and program resources from low-priority 
to higher-priority markets and sectors.
            statistical agencies and measuring globalization
    Question. Mr. Secretary, there has been a series of reports 
concerning how the Government's statistical agencies have adjusted for 
the price of imported products that are used in manufacturing supply 
chains. These reports suggest that we may not be truly capturing what 
is going on in the global economy.
    For example, there has been substantial growth in U.S. 
manufacturers' use of foreign intermediate components, but because 
price declines of these components are not picked up in Government 
price indexes, offshoring results in an overstatement of output and 
productivity growth.
    We also do not know how to account for all imports, and whether 
they are for consumption or whether they go into other manufactured 
goods and are re-exported.
    There's also an issue with Harmonized Tariff System (HTS) not 
lining up with the North American Industrial Classification System 
(NAICS), which creates a gap between trade data and employment.
    How are the statistical agencies in your Department--the Census 
Bureau and the Bureau of Economic Analysis (BEA)--addressing these 
issues? Are resources adequate to truly capture the true effects of 
globalization on our economy?
    Answer. The continued globalization of economic activity has raised 
significant measurement challenges for statistical agencies around the 
world, including BEA and the Census Bureau. Shifts in the sourcing of 
products from domestic to foreign suppliers have raised concerns about 
the adequacy of the import price and value data used to calculate gross 
domestic product (GDP) and other key economic measures. These issues 
were addressed at a conference in November 2009 in Washington, DC, 
``Measurement Issues Arising from the Growth of Globalization'', 
conducted by the W.E. Upjohn Institute and the National Academy of 
Public Administration. Because of their interest in learning more about 
these challenges, BEA contributed funding to this conference.
    The findings from this conference will prove valuable for BEA in 
developing priorities for improving the U.S. economic accounts. 
Conference-sponsored research concluded that widespread substitution of 
low-cost imports for domestic products in recent years may have 
imparted a bias to import and input price indexes and to measures of 
real value added and productivity growth in certain industries, 
although the magnitude of the bias is relatively small. In addition, 
conference research identified new methods that would improve the 
identification of imported intermediate inputs used directly by 
industries in their production process.
    A proposal by the Bureau of Labor Statistics (BLS) to develop an 
input cost index would be useful for BEA to evaluate the current 
methods for calculating real GDP. BEA will work closely with BLS to 
develop new and improved import and input price indexes. In addition, 
BEA is conducting research into developing better measures of the use 
of imported intermediate inputs and will also evaluate the findings of 
academic researchers who are conducting similar studies.
    The HTS is a product-based classification system while the NAICS is 
an industry-based classification. The Census Bureau maintains a 
concordance between the HTS and the NAICS system so that each HTS 
commodity code is correlated to a corresponding NAICS-based 
classification code. However, in reality, more than one NAICS industry 
could produce a given HTS code. As a result, products that are produced 
by establishments in another industry or where there are two similar 
NAICS classifications within different industries, the NAICS-based data 
produced by the Census Bureau will not completely align with production 
data. The Census Bureau continues to explore what would be required to 
better align trade data with production data.
                            commerce connect
    Question. Mr. Secretary, you and I have discussed Commerce Connect 
and the ``one-stop-shopping'' model for assisting small- and medium-
sized businesses.
    One of the issues I've heard over the years is that we have 
regional economic development districts and layers of bureaucracy. I've 
seen this in Wilmington, Ohio, which has been enduring the loss of DHL.
    The biggest issue I see, particularly in rural communities, is 
navigating the Federal bureaucracy and the need for someone to broker 
between agencies.
    BRAC is a great model, but that is for base closings and not 
massive private sector job loss.
    How is the Commerce Department currently suited to ensure 
distressed communities have the technical assistance to develop a 
redevelopment plan, before they even apply for an EDA grant?
    Answer. EDA supports a variety of capacity-building programs for 
rural and economically distressed communities. These include the 
Partnership Planning program which supports a network of multi-county 
economic development districts and the University Center program, both 
of which can assist communities with economic development planning and 
analysis prior to submission of a more targeted situation specific 
grant application. In addition, communities can contact the economic 
development representative assigned to their State, who will work with 
EDA regional offices and provide network contacts with other Federal 
agencies to provide planning assistance.
    Question. In what ways can EDA's role be enhanced in the re-
organization of the export agencies? Does this re-organization go 
beyond trade and exports?
    Answer. As part of the administration's overall effort to 
streamline Government, cut waste and increase effectiveness, the 
President directed Jeff Zients and his team to lead an effort to 
explore how we can reorganize Government to best meet the needs of the 
21st century. This initiative includes reviewing the departments, 
agencies and programs in the trade and exports sphere as well as those 
impacting business competitiveness more broadly. Mr. Zients and his 
team reached out broadly to hear what's working, what's not and what we 
might do better. They submitted their analysis and potential options to 
the President on June 9 and the administration is currently reviewing 
the options. We would be happy to discuss the results of this work in 
more detail once they are finalized.
    Question. How is CommerceConnect distinct from EDA's role as the 
``front door'' to communities and companies in need of Federal economic 
development assistance?
    Answer. CommerceConnect complements EDA's role and the role of 
other Commerce bureaus and partners. CommerceConnect is focused on 
streamlining Government bureaucracy to bring services and solutions 
directly to businesses and entrepreneurs. Most EDA assistance, is 
focused on creating economic conditions that are conducive to economic 
growth and expansion through strategic grant investments at the State, 
regional and local level. CommerceConnect currently focuses on helping 
businesses, whereas EDA's investments are targeted to private/public 
partnerships, units of government and nonprofit organizations in order 
to strengthen an ecosystem in which economic development can occur.
    A primary goal of the CommerceConnect initiative is to provide a 
``no wrong door'' consultative approach for information, counseling, 
and access to the breadth of overall Department of Commerce programs, 
services and resources that help businesses transform themselves into 
viable and competitive enterprises. Entrepreneurs and existing 
businesses can initiate access to Commerce's 70 plus enterprise 
assistance programs through a toll free number (888-728-4190) or 
through www.CommerceConnect.gov. CommerceConnect listens to business 
owners and puts them in touch with Commerce bureau resources, as well 
as other Federal, State, and local resource providers for enhanced 
assistance.
    While CommerceConnect is a liaison to resources the initiative is 
not a direct service provider, unlike EDA and the Department's other 
bureaus, which service eligible recipients directly through their 
respective programs. In the coming fiscal year, CommerceConnect will 
endeavor to build stronger linkages to the Small Business 
Administration (SBA) and other enterprise assistance providers. The 
President's fiscal year 2012 budget includes $3.24 million for 
CommerceConnect including $500,000 for customer service integration 
activities with SBA. SBA's 2012 budget includes $1 million for these 
activities. Department Chief Information Officer and staff level 
meetings are already underway to explore IT system integration 
opportunities.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
                        gulf of mexico resources
    Question. The Deepwater Horizon has cost an estimated $10 billion. 
Out of $8.8 billion, the only budget highlight related to the gulf oil 
spill is a $2.9 million increase in the National Oceanic and 
Atmospheric Administration (NOAA) budget to develop an oil spill 
research and development program. Tell us about this program.
    Answer. The fiscal year 2012 President's budget request includes an 
increase of $2.9 million to develop an oil spill research and 
development (R&D) program in NOAA. This will be NOAA's first 
comprehensive oil spill R&D program. As the scientific lead for coastal 
and marine spills, NOAA brings the best-available science and tools to 
improve decisionmaking during oil spill responses. The requested 
resources will be used to develop strong leadership in oil spill 
research, response, assessment, and restoration research. The goal of 
this program will be to conduct research to provide useful information, 
methods and tools for planners, oil spill responders, and assessment 
practitioners. The funds would support external grants that are 
coordinated with the Interagency Coordinating Committee for Oil 
Pollution Research as well as the National Oceanographic Partnership 
Program. The grants will be focused on priority oil spill research 
areas, including:
      Oil Fate and Behavior From Deepwater Releases.--As the Deepwater 
        Horizon oil spill demonstrated, there is a need to study how 
        oil behaves and disperses within the water column when released 
        at great depths, and to understand the effects of oil on mid-
        water and deep-water benthic habitat.
      Long-term Effects on Species and Habitats.--Research is needed to 
        improve our understanding of the long-term effects of oil on 
        sensitive and economically important species and habitats. 
        Continued research is also needed to determine the effects of 
        oil and dispersants that are suspended in the water column on 
        mid-water and pelagic species, and the effects of oil on deep 
        water corals.
      Research to Improve Tools for Assessment and Restoration.--As our 
        understanding of complex ecosystems evolves, so should our 
        modeling tools and restoration techniques. Research and tools 
        to better assess and quantify natural resource services--such 
        as water filtration/capture, flood protection, carbon 
        sequestration, recreation, and education--across a range of 
        habitat types can help ensure the public is fully compensated 
        and the environment fully restored.
      Oil in Arctic Environments.--Research is needed to better 
        understand environmental conditions in the Arctic, which is 
        important for conducting injury assessments and developing 
        restoration strategies. Research is also needed to better 
        understand the challenges of spill response in arctic waters 
        and the most effective tools and techniques to utilize in such 
        environments.
      Human Dimensions.--Research is needed on how to incorporate 
        impacted communities into the preparedness and response 
        processes to help to address the human dimensions of spills, 
        including social issues, community effects, risk-communication 
        methods, and valuation of natural resources.
    Question. Can you please tell us about any new initiatives other 
than this $2.9 million for the oil spill study?
    Answer. The fiscal year 2012 President's budget request increase 
for $2.9 million for oil spill research and development is the key 
increase in the NOAA budget for oil spill research. NOAA is requesting 
an increase of $5 million for enhanced observations to implement the 
U.S. Integrated Ocean Observing Systems (IOOS) Surface Current Mapping 
plan to monitor near-shore currents using High Frequency (HF) Radar. 
This program will be implemented by the IOOS Regional Coastal Ocean 
Observing Systems (RCOOS) to deliver real-time surface current data to 
the national HF Radar surface current monitoring network. The requested 
resources will support Regional IOOS HF Radar stations with an 
emphasis on those stations currently operating and delivering data to 
the national network in regions of offshore oil production and in the 
vicinity of major ports and harbors. The U.S. IOOS program will award 
funding via an established merit-based competitive process with RCOOS, 
and through contracts with Federal partners.
    The 2010 Deepwater Horizon oil spill highlighted the utility of HF 
Radar. NOAA's Office of Response and Restoration relied on real-time 
data collected from the national HF Radar surface current monitoring 
network to provide new data for inclusion in trajectory predictions of 
oil dispersal and to verify models used to assess the likelihood of the 
oil moving into the Loop Current. HF Radar data was also used daily by 
NOAA's Office of Response and Restoration (OR&R) during the Deepwater 
Horizon oil spill response to create trajectory forecasts (which were 
used by Federal responders to deploy spill response assets and identify 
fishery closures). In 2007, HF Radar was used to verify that 
trajectories of oil from the M/V Cosco Busan spill would not flow into 
the federally protected National Marine Sanctuaries near the San 
Francisco Bay, and resources were able to be deployed to other areas 
under greater threat. With sustained, long-term surface current data 
sets, NOAA's OR&R will now be able to provide Trajectory Analysis 
Planner products for threat assessments.
    Question. Did the Department request additional funding that was 
denied by Office of Management and Budget (OMB)?
    Answer. The fiscal year 2012 President's budget request is the 
result of a rigorous review and prioritization of the Department's 
programs and activities within the broader context of the Federal 
community. As a result of this discussion, it was determined that the 
$2.9 million request for additional funds to develop an oil spill 
research and development program was both a suitable funding level and 
a high-priority initiative.
    Question. If there are none, why not?
    Answer. The requested increases plus the base funds in ongoing oil 
spill activities in NOAA's programs will allow for the continued 
development of research on oil spills. Increases were requested for 
only the most critical programs, projects, or activities necessary to 
meet the growing demand for NOAA's services.
    Question. Are the Department of Commerce (DOC) and NOAA satisfied 
that the oil spill has not had, nor will, have any effect on fisheries?
    Answer. Initially NOAA closed areas in the Gulf of Mexico to 
fishing due to the oil spill and the impacts to the fisheries in those 
areas. Testing of seafood taken from this area has not shown elevated 
levels of polycyclic aromatic hydrocarbons or dioctyl sodium 
sulfosuccinate in samples taken from the Gulf of Mexico. All Federal 
waters in the Gulf of Mexico that were closed due to the BP Deepwater 
Horizon oil spill are now open to all fishing. NOAA has not yet 
determined the comprehensive effects of the oil spill and will continue 
the Natural Resource Damage Assessment process to determine those 
impacts.
    Like the fishing industry, NOAA remains concerned with the public 
perception issues surrounding seafood from the Gulf of Mexico. NOAA 
continues to sample seafood from the Gulf of Mexico through the summer 
and is posting the results publicly so that consumers can make fully 
informed purchasing decisions. NOAA is also using $15 million in 
supplemental funding received for fishery disaster assistance to work 
with the Gulf States Marine Fisheries Commission --along with their 
State representatives from Louisiana, Mississippi, Alabama, and 
Florida--on plans that are intended to help the local seafood industry 
and the sport fishing community restore national confidence in gulf 
fishery products.
                          noaa stem education
    Question. The America COMPETES Reauthorization of 2010 directs NOAA 
to strengthen its efforts to provide curriculum support to teachers. 
What has been done to improve NOAA's curriculum support activities and 
increase the use of NOAA curriculum support activities by schools 
across the country?
    Answer. The America COMPETES Reauthorization Act of 2010 gives NOAA 
broad authority for educational activities. Based on this statute and 
other program-specific education mandates, the NOAA education community 
works collaboratively to advance priorities outlined in NOAA's 
Education Strategic Plan and meet NOAA's Education Mission: ``To 
advance environmental literacy and promote a diverse workforce in 
ocean, coastal, Great Lakes, weather, and climate sciences, encouraging 
stewardship and increasing informed decisionmaking for the Nation.'' To 
that end, NOAA sees the importance of supporting teacher professional 
development and curriculum development by bringing NOAA-based sciences 
into the classroom. Although America COMPETES Reauthorization was 
signed into law on January 4, 2011, NOAA did not fund any grants while 
the fiscal year 2011 appropriation was being determined by the 
Congress. Grants will be awarded from the Competitive Educational 
Grants and Programs line in the last quarter of fiscal year 2011.
    As part of the Competitive Educational Grants line, NOAA provides 
Environmental Literacy Grants (ELGs). The ELG Program provides support 
to improve environmental literacy among our Nation's citizens and 
promotes a diverse workforce in ocean, coastal, Great Lakes, weather, 
and climate sciences, with the goal of encouraging stewardship and 
increasing informed decisionmaking for the Nation. These broad 
competitive education grants fund a wide range of projects and 
activities, which include supporting the development of curricula and 
teacher professional development materials connected to NOAA sciences. 
Specific examples include:
  --The Earth System Science Education Alliance (ESSEA), funded through 
        a 2008 ELG award and implemented by the Institute for Global 
        Environmental Strategies, is designed to improve the quality of 
        geosciences instruction for pre-service and in-service K-12 
        teachers. Participating institutions offer a series of inquiry-
        based courses that provide teachers with the content knowledge 
        and tools they need to incorporate Earth systems science into 
        their curricula.
  --The Ocean Science Curriculum Sequence, funded through 2007 and 2009 
        ELG awards and implemented by the Lawrence Hall of Science, is 
        designed to develop ocean science curricula for grades 3-5 and 
        6-8, respectively. The curriculum provides a major step toward 
        achieving coherent, comprehensive, nationally disseminated K-12 
        ocean science curriculum. An evaluation study of Ocean Science 
        Curriculum Sequence grades 3-5 from 70 classrooms shows that 
        students using this curriculum made significant gains in 
        understanding key ocean sciences concepts addressed in the 
        curriculum.
                             census lessons
    Question. As late as 2009, there was a real fear that the costs of 
the 2010 census would continue to grow. The increased costs of going 
back to a paper census instead of using hand-held devices raised 
concern about if the census would even be accomplished. However, the 
2010 census was completed and, as you highlight in your testimony, $1.8 
billion was returned because it was not needed.
    What lessons is the Department of Commerce taking away from the 
entire experience of executing the 2010 census--and can they be used in 
current surveys and in planning for the 2020 census?
    Answer. The Census Bureau is committed to designing and conducting 
a 2020 census that costs less per housing unit than the 2010 census 
while maintaining high-quality results. The Census Bureau has 
identified four strategic goals for the 2020 census:
  --a complete and accurate census;
  --embraced and valued results;
  --an efficient census; and
  --a well-managed census.
    To achieve its cost and quality targets and meet its strategic 
goals, the Census Bureau must make fundamental changes to the design, 
implementation, and management of the decennial census. Substantial 
innovation and improvements are necessary to prevent another large 
increase in costs, while still maintaining high quality. Research on 
new methods likely to affect costs must be accomplished early enough in 
the decade to confirm their likely impact on both cost and quality 
(coverage) to inform timely design decisions. Without early investment 
in research, and innovation, the strategic goals and the ability to 
stem cost growth will be jeopardized.
    At the same time, the 2020 census must incorporate strong risk and 
program management to avoid the problems encountered during the years 
leading up to the 2010 census. The final design also must be robust, 
resilient, and flexible enough to respond to social and technological 
changes that will undoubtedly occur throughout the decade.
                            noaa satellites
    Question. As I mentioned in my statement, understand that the Joint 
Polar Satellite System (JPSS) program is at least 14 months behind 
schedule. We are risking gaps in weather coverage for important 
observations to inform short- and long-term weather and hurricane 
forecasts.
    What do you see as the biggest challenges facing NOAA's satellite 
program, and how do you propose NOAA can move forward in spite of those 
obstacles?
    Answer. The biggest challenge the JPSS program faces is lack of 
adequate and stable funding at a critical juncture in the development 
of the satellite. As a consequence, the JPSS program is behind 
schedule. Based on an independent analysis conducted by the Aerospace 
Corporation, there is a high likelihood of a gap in satellite coverage 
between the end of the NPOESS Preparatory Project (NPP) mission and the 
date when the JPSS-1 satellite begins providing operational data after 
the postlaunch calibration and conclusion of validation testing. At the 
time the gap occurs, there would be an immediate degradation of all 
weather forecasts that are made for 24 hours and longer, and likely 
result in forecasts that incorrectly predict the magnitude of storms by 
as much as 50 percent in the 2- to 5-day range compared to current 
capability.
    NOAA has traditionally flown its polar-orbiting satellite in the 
afternoon orbit and no other nation has flown a satellite that provides 
the type of data required in that orbit. If NOAA does not have a polar 
satellite data source (POES, NPP, or JPSS) in the afternoon orbit, then 
the NWS modeling effort would be based solely on the European data that 
is available in the mid-morning orbit. Reliance on this mid-morning 
orbit would result in a degradation of forecast accuracy by 1 to 2 
days. Higher confidence forecasts would only extend out 5 days instead 
of 7 days as they do currently.
    Adequate funding of the JPSS Program remains one of Department's 
highest priorities. As such, although the NOAA did not receive the 
$1.06 billion requested in the President's fiscal year 2011 budget 
which was needed to launch JPSS-1 in 2015 and given the vital 
importance of JPSS in maintaining the Nation's weather prediction 
capabilities, the Department of Commerce has chosen to move funds to 
JPSS in the fiscal year 2011 spend plan, pursuant to Public Law 112-10. 
The Department's spend plans submitted on June 15, 2011 provides 
additional details. These additional funds will provide for a launch of 
the first JPSS satellite in the first quarter of fiscal year 2017 which 
will minimize the duration of a gap in afternoon polar satellite 
coverage should one occur. The first quarter of fiscal year 2017 launch 
date is predicated on receiving the full President's budget of $1.07 
billion in fiscal year 2012. NOAA estimates that JPSS-1 will begin 
providing operational data in fiscal year 2017.
    Question. How would a gap in JPSS or other satellite coverage 
impact our ability to forecast hurricanes?
    Answer. We expect that a gap in JPSS data coverage would result in 
a degradation in forecasting the path and landfall location of 
hurricanes. Over the past decade there has been a remarkable 
improvement in predicting the tracks of hurricanes 2-3 days in advance 
due to having at least two satellites in polar orbit, one in the mid-
morning orbit and the other in the afternoon orbit. Currently, the 
EUMETSAT Metop satellite provides and will continue to provide data in 
the mid-morning orbit. It is the afternoon orbit that NOAA-19 currently 
flies in and that NPP and the JPSS satellites will fly in that is in 
jeopardy. These improvements that we have realized by having this 
coverage in the two orbits, allow the public and private sectors to 
better prepare for the impact of a hurricane. With a gap in the 
afternoon orbit (i.e., lack of JPSS data), forecast information to the 
public will be degraded and hurricane warning areas will have to be 
expanded resulting in larger evacuation areas and their associated 
costs.
    NOAA's National Weather Service (NWS) operational models are run 
four times per day on a 6-hour cycle to support its weather forecasting 
mission. Data from the Metop satellite and the NOAA POES satellite are 
critical to the consistency of these model runs. Decisionmakers/users 
depend on all these models every day and throughout the day to provide 
the latest information to the public. These model runs have greatly 
increased accuracy at days 5 through 7 compared to 25 years ago. 
Forecast models are now capable of predicting the development and 
evolution of extreme events (winter storms, severe weather outbreaks 
and hurricanes) 3, 5, and sometimes 7 to 8 days in advance with 
remarkable skill and consistency.
                          weather modification
    Question. Previous versions of my legislation on weather 
modification directed NOAA to conduct this research. The National 
Academy of Sciences recommended in 2003 that this country needs a 
coordinated, national program to study weather modification. Many 
States have weather modification programs, and private firms are 
providing weather modification services, but we lack basic science to 
explain whether these activities work, or how modification activities 
in one region may impact another region. For example, how does cloud 
seeding to increase snowfall over a ski resort in the Rockies impact 
precipitation in the Great Plains?
    Answer. Before the efficacy of weather mitigation or modification 
can be understood, more research into the underlying physical processes 
of weather phenomena needs to be done. Our current state of 
understanding of the physics of hurricane, cloud, and precipitation 
formation makes it almost impossible to separate the effects of 
proposed mitigation or modification strategies from natural changes.
    Question. Do you think that it is worthwhile to collect data on the 
impacts of weather modification technologies?
    Answer. As mentioned above, before the efficacy of weather 
mitigation or modification can be understood, more research into the 
underlying physical processes of weather phenomena needs to be done. 
Our current state of understanding of the physics of hurricane, cloud, 
and precipitation formation makes it almost impossible to separate the 
effects of proposed mitigation or modification strategies from natural 
changes. In addition, weather modification applications involving 
artificially modified precipitation patterns must be evaluated in the 
context of potential political and legal issues including local and/or 
regional liability, foreign policy, and national security.
    Question. Are there existing programs within NWS that study the 
physical processes that create clouds and precipitation, and which 
could help us better understand weather modification technologies?
    Answer. A number of research efforts are currently underway at NOAA 
to better understand the fundamental physical aspects of weather 
phenomena such as cloud and precipitation formation, including:
      NOAA's Hurricane Forecast Improvement Program (HFIP).--HFIP is a 
        joint program focused on aligning NOAA's research and 
        operations to improve hurricane forecasts. HFIP also provides 
        the basis for NOAA and other agencies to coordinate hurricane 
        research needed to significantly improve hurricane track, 
        intensity, and storm surge forecasts. It also engages and 
        aligns the inter-agency and larger scientific community efforts 
        toward addressing the challenges posed to improve hurricane 
        forecasts. The goals of the HFIP are to improve the accuracy 
        and reliability of hurricane forecasts; to extend lead time for 
        hurricane forecasts with increased certainty; and to increase 
        confidence in hurricane forecasts. Preliminary results are 
        showing greater than 10 percent improvement in track and 
        intensity forecast accuracy. Increased track and intensity 
        accuracy is critical to evaluating any hurricane modification 
        approach.
      Warn-on-Forecast (WoF).--NOAA's WoF research project aims to 
        create computer forecasts that accurately predict when and 
        where severe weather will occur in the next hour. Today, NOAA's 
        NWS forecasters rely heavily on observation tools such as radar 
        to detect severe weather so they can issue warnings. WoF has a 
        modeling component to it that will require NOAA to investigate 
        cloud processes in detail.
      VORTEX-2 Field Research.--To help gain better knowledge of cloud 
        processes, NOAA partnered with the National Science Foundation 
        (NSF) to execute the Verification of the Origins of Rotation in 
        Tornadoes Experiment (VORTEX-2) in the springs of 2009 and 
        2010. The experiment used multiple sensors (e.g., mobile 
        radars) to get a high-resolution data set of developing and 
        decaying storms. After the analysis phase of these storms is 
        completed over the coming months and years, it will give clues 
        on how to refine the cloud physics parameters needed for WoF 
        models.
      Dual-polarized Radars.--The NWS is currently upgrading all of 
        their 122 radars to dual polarization capabilities. Next 
        generation radar technology options such as phased array radar 
        are several years away from being used operationally, but NOAA 
        has a working prototype that scans the storms more quickly 
        giving researchers a better picture of the structure of storms 
        in greater detail than available from conventional radar.
      Improvement in Monitoring Meteorological Conditions.--Why some 
        conditions thought to be favorable to precipitation turn out to 
        yield little or no rain, and others considered generally 
        unfavorable do the opposite can be partially attributed to 
        poorly observed atmospheric conditions. NOAA researchers helped 
        pioneer the use of advanced atmospheric moisture sensing 
        systems such as Global Positioning System (GPS) Meteorology and 
        weather radar to monitor the moisture of the atmosphere and 
        assimilate the information into numerical weather prediction 
        models, and continue to develop higher resolution 
        meteorological tools and techniques to improve local area 
        weather analysis and prediction.
                     commerce--trade reorganization
    Question. In the President's State of the Union Address he 
mentioned the fact that multiple agencies have responsibilities over 
trade (U.S. Trade Representative [USTR], Export/Import Bank, 
International Trade Commission, International Trade Administration, 
etc). I understand one of the proposals includes moving the USTR into 
the Department of Commerce, which has concerns about doing this. OMB is 
currently conducting a high-level review of programs at the Department 
of Commerce, specifically examining its trade policy responsibilities. 
This effort is being lead by Jeffrey Zients, OMB Deputy Director.
    Mr. Secretary, it is our understanding that OMB is currently 
conducting a review of Commerce programs. What is the purpose of this 
review?
    Answer. As the President said in his State of the Union Address, 
winning the future will require taking steps now to prepare America to 
compete in a global economy for decades to come. That means out-
educating, out-innovating, and out-building our competition; restoring 
fiscal responsibility to remove the burden of deficits and debt; and 
reforming our Government so that it is more effective, efficient, and 
open to the American people. As the President put it, ``We cannot win 
the future with a Government of the past.''
    The President believes that we need to reform our Government in 
order to make it better organized and better equipped to support 
American competitiveness. Particularly during these challenging 
economic times, we want to ensure that we put all of our resources to 
best use in order to negotiate the best agreements, enforce our trade 
rights, support U.S. businesses and promote their products and exports.
    That is why the President has asked our Nation's first Chief 
Performance Officer (CPO), Jeff Zients, to lead a review of the 
departments, agencies, and programs in the trade, exports, and 
competitiveness spheres to explore how we can cut waste and increase 
effectiveness so that we can help American businesses better compete 
globally and organize our Government to meet the needs of the 21st 
century.
     Over the last few months, the team at OMB has been hard at work 
gathering ideas, input, and advice from owners of small and large 
businesses, Federal employees, outside experts, current and former 
agency heads, and Members of Congress and their staffs on ways to make 
Government more efficient, streamline key functions, and make 
Government work better for the American people and the economy.
    Question. When will the review be completed and will a set of 
recommendations be forthcoming?
    Answer. The President issued a memorandum tasking the CPO, Jeff 
Zients, with developing recommendations. Mr. Zients and his team 
submitted their analysis and potential options to the President on June 
9. The President will review the options over the summer and discuss 
them with his team. When he completes his review, we would be happy to 
discuss the results of this work in more detail.
               economic development administration (eda)
    Question. The Commerce Department's EDA and its Office of 
Innovation and Entrepreneurship announced on March 12, the availability 
of $12 million in i6 Green Challenge. This grant solicitation is in 
partnership with the Departments of Agriculture, Energy (DOE), 
Environmental Protection Agency, NSF, and Commerce's National Institute 
of Standards and Technology (NIST), and U.S. Patent and Trademark 
Office.
    EDA will award up to $1 million to each of six teams around the 
country with the most innovative ideas to drive technology 
commercialization and entrepreneurship in support of a green innovation 
economy, increased U.S. competitiveness and new jobs. Its partner 
agencies will award more than $6 million in additional funding to i6 
Green winners.
    The i6 Green is a follow on to last year's inaugural i6 Challenge 
and is designed to encourage and reward innovative approaches to 
accelerating technology commercialization, new venture formation, job. 
This year's $12 million challenge rewards communities that utilize a 
Proof of Concept Center model, to accelerate technology led economic 
development.
    A Proof of Concept Center supports all aspects of the 
entrepreneurship process, from supporting technology demonstration and 
business plan development, to providing early stage access to capital 
and other resources to help innovators bring their ideas to the 
marketplace. Centers allow emerging technologies to mature and 
demonstrate their market potential, making them more attractive to 
investors and helping entrepreneurs turn their idea or technology into 
a business.
    Since the fiscal year 2011 continuing resolution reduces EDA's 
budget by $9 million below fiscal year 2010 level, does it make sense 
to continue with the new i6 initiative?
    Answer. Yes. The i6 Challenge Series helps communities build the 
essential 21st century innovation infrastructure that supports 
entrepreneurs and high-growth business start ups.
    In the inaugural i6 Challenge Series, EDA working with NSF and the 
National Institutes of Health in a new collaborative capacity-building 
effort, furthered the process of maximizing the effectiveness of 
Federal dollars by leveraging the resources, talent, and expertise of 
other Federal agencies.
    Examples of i6 winners:
  --The Austen BioInnovation Institute in Akron and the University of 
        Akron Research Foundation, Akron, Ohio, supporting the 
        Innovative Solutions for Invention Xceleration which will 
        increase innovation and minimize the time from ideation to 
        commercialization of new technologies by bringing together 
        world-class scientists, physicians, engineers, researchers, and 
        entrepreneurs in the biomedical device/product and polymer 
        science industries of northeast Ohio. EDA's $1 million 
        investment is part of a $2.2 million project that the grantees 
        estimate will create 2,400 jobs and generate $800 million in 
        private investment.
  --The Technology Ventures Corporation, Albuquerque, New Mexico, 
        supporting the work of the New Mexico Technology Ventures 
        Corporation, which will create an infrastructure for the 
        successful maturation of technologies developed under the Small 
        Business Innovation Research program into commercially viable 
        enterprises. EDA's $1 million investment is part of a $1.5 
        million project.
    EDA's ability to coordinate investments across multiple Federal 
agencies is particularly important in today's fiscal environment.
    Question. Given the tight budgets next year and the need to 
prioritize within the programs, the i6 initiative seems to be beyond 
the scope of EDA's core mission. If the EDA goes forward with this new 
program how will the other programs within EDA be impacted?
    Answer. The i6 Challenge Series is well within the scope of EDA's 
core mission, ``To lead the Federal economic development agenda by 
promoting innovation and competitiveness, preparing American regions 
for growth and success in the worldwide economy.'' Both the inaugural 
i6 and the i6 Green highlight the tremendous economic growth potential 
that exists in our communities across the country by leveraging 
research to create new companies and high-wage, high-skill, sustainable 
jobs.
    Since the i6 initiative is a multiagency competition with each 
agency contributing funds to the successful applicants the financial 
burden on each agency is reduced. Additionally, it is not anticipated 
that current or future i6 Challenges will have any significant impact 
on other EDA programs.
                          nist--manufacturing
    Question. Over the past few years, numerous reports have 
underscored the importance of a robust Federal presence in the sciences 
to advance technological innovation. The ``Rising Above the Gathering 
Storm'' report and its follow-on, ``The Gathering Storm, Revisited'', 
were a call to action that helped to shape the America COMPETES 
Reauthorization Act that pushed for Innovation in the United States.
    In addition, in February of this year, the White House Office of 
Science and Technology Policy, National Economic Council, and Council 
of Economic Advisers jointly released an update to the 2009 ``Strategy 
for American Innovation'' that ``focuses on critical areas where 
sensible, balanced government policies can lay the foundation for 
innovation that leads to quality jobs and shared prosperity.''
    NIST's mission is to promote U.S. innovation and industrial 
competitiveness through measurement science, standards, and technology 
focuses this year on a number of manufacturing initiatives. In its 
request NIST has proposed $85.3 million in fiscal year 2012 supporting 
manufacturing related research.
    With programs administered by the International Trade 
Administration, NIST, and EDA the Department of Commerce has several 
programmatic tools at its disposal to help address the needs of 
manufacturers. As the Secretary of Commerce what are you doing to 
provide assistance to U.S. manufacturers?
    Answer. NIST has a long-standing and multi-faceted role in 
providing technological assistance to manufacturers in the United 
States:
  --NIST is responsible for producing measurements and standards that 
        manufacturers rely on. NIST laboratories develop new 
        measurements and standards that are essential for adoption of 
        advanced technologies that make U.S. manufacturers able to more 
        effectively compete globally in technology-intensive product 
        markets.
  --Through targeted programs aimed at addressing critical national 
        needs, NIST's Technology Innovation Program (TIP) and the 
        proposed Advanced Manufacturing Technology Consortia (AMTech) 
        program support research by industry in high-risk innovations 
        in manufacturing.
  --NIST's Hollings Manufacturing Extension Partnership (MEP) is a 
        program that works directly with companies to help them improve 
        production efficiency and identify and enter new markets. This 
        is an effective program with demonstrated success, including 
        helping firms increase and retain sales by more than $8.4 
        billion, generate cost savings of more than $1.3 billion, and 
        create and retain more than 72,000 jobs in fiscal year 2009 
        alone.
    Question. The needs of U.S. manufacturer companies is immediate, 
they cannot wait for a research program to produce benefits that are 10 
to 15 years down the road. When do you expect to see the manufacturing 
research programs proposed at NIST in this budget to actually yield 
results? In other words, when and how will we know that the taxpayer's 
money has been well-spent?
    Answer. NIST's role as the national laboratory for promoting 
industrial competitiveness enables the development and dissemination of 
measurement technologies and standards to help U.S. industry compete 
effectively in an increasingly global market. These measurement 
technologies and standards address both immediate tactical needs, and 
also long-term needs that reflect strategic investments for U.S. 
industry.
    There are various components of the manufacturing research programs 
proposed in the NIST fiscal year 2012 budget that will have almost 
immediate impacts. These components include measurement and standards--
focused deliverables that are readily accessible to, and are developed 
in close collaboration with, U.S. industry.
    NIST is responding to near-term industry needs by developing 
standards for measuring the performance of nontraditional manufacturing 
processes so that manufacturers can deploy these new tools with 
confidence. Performance test methods are entering the standards process 
for additive manufacturing equipment (also referred to as 3D printing), 
advanced robots that can operate safely in the vicinity of humans, and 
five-axis machine tools. Through validated performance measures, users 
can dramatically improve their manufacturing capabilities, quality, and 
flexibility in producing a dynamic variety of products and make 
entirely new types of products possible.
    NIST staff participation in development of documentary standards 
codifies the knowledge developed through NIST programs into practices 
that are internationally recognized and used. Using these technical 
standards, U.S. exporters are able to streamline compliance with 
regulations around the world with the immediate impact that U.S. 
exports can be competitive in other parts of the world. Another example 
of the impact of NIST research includes standardizing ways of 
representing models of entire products in computer files with 
sufficient detail for approvals and certifications, a development that 
allows manufacturers to increase efficiency and reduce costs. A U.S. 
aircraft manufacturer successfully used these new standards not only to 
improve their manufacturing processes but also to obtain airworthiness 
approval without needing to build a physical model.
       nist--advanced manufacturing technology consortia (amtech)
    Question. NIST is requesting $12.3 million for the AMTECH program 
in fiscal year 2012. AMTECH is a new public-private partnership that 
will broadly benefit the Nation's industrial base by providing grants 
to form and fund industrial consortia to address industrial driven 
technological challenges that no one company can address alone. AMTECH 
is modeled upon NIST's partnership, the Nanoelectronics Research 
Initiative, which in collaboration with industry, funds research 
consortia targeting the nanoelectronics technology sector.
    AMTECH is designed to decrease the timescale of technological 
innovation by including partners that span the innovation life-cycle 
from idea to discovery, from invention to commercialization. Through 
cost-sharing and a common research agenda, these consortia would 
support the development of innovative new technologies directed at 
creating high-wage jobs and economic growth across the industry sector. 
These consortia will develop road-maps of critical long-term industrial 
research needs and provide support for research and equipment at 
leading universities and government laboratories directed at meeting 
these needs.
    What is AMTech and why do you believe this is a good model to fund 
research?
    Answer. The Advanced Manufacturing Technology Consortia (AMTech) 
program will establish and support industry-led consortia to pursue 
research needs in support of a long-term, industry-wide vision. The 
AMTech program will issue two types of awards. Small planning awards 
are intended for the establishment of multi-partner consortia and 
development of a shared vision of industry's critical long-term 
research needs via a technology roadmap. Implementation awards are 
intended for consortia with defined partnerships and a developed 
roadmap. The consortia will award implementation grants for directed 
basic research at universities in pursuit of roadmap targets. The 
partnership model to identify needs, develop roadmaps, and generate 
knowledge creates an incentive for private and non-Federal funding 
agencies to fully develop and commercialize the innovations developed 
through AMTech.
    NIST developed AMTech based on its own experience with technology 
consortia and a thorough review of evaluation of past Federal consortia 
efforts. AMTech is designed to avoid features that have limited the 
impact of past public/private partnerships and build upon those 
features that have proven beneficial. Further, the Federal role within 
AMTech--funding of university-based directed basic research--is widely 
recognized as appropriate. Further, NIST began testing this public/
private partnership model in 2007 and has seen promising results. In 
the pilot program (the Nanoelectronics Research Initiative), NIST has 
been able to leverage Federal investment with key technology 
stakeholders in order to help address long-term research challenges 
aligned with the needs of industry. These challenges, articulated in 
the form of an industry roadmap, present untenable resource and 
intellectual demands for any single industry player. Targeting combined 
resources against these challenges is a concrete economic benefit to 
all participants in the consortia: the leveraged resources that come 
together under this kind of model are a substantial benefit to the 
commercial sector, both in terms of minimizing their individual 
investments and providing an opportunity for new technological 
discoveries, as well as to the Federal research enterprise, in terms of 
providing a basis for use-inspired research. By convening the key 
players across the innovation life cycle, the AMTech consortia 
eliminates critical barriers to innovation, increases the efficiency of 
domestic innovation efforts, alleviates barriers to private capital 
investment, and collapses the timescale to deliver new products and 
services based on scientific and technological advance. This strategy 
will ultimately drive economic growth, enhance competitiveness and spur 
the creation of jobs in high value-added sectors.
    Question. Isn't the AMTech proposal just a reinvention of the 
Advanced Technology Program, or TIP?
    Answer. No, the proposed AMTech is not a reinvention of the 
Advanced Technology Program or TIP. While AMTech does aim at meeting 
industry's critical long-term research needs, it seeks to do so in a 
manner that is different from TIP. In particular, all Federal money in 
the AMTech consortia funds precompetitive research to support an 
industry-directed roadmap of research needs. TIP funding, in contrast, 
supports early-stage, use-directed R&D performed by businesses or 
business/university partnerships, on a short-term project basis. By 
forming an industry-led consortia, AMTech is able to develop a 
consensus regarding industry's long-term needs, attract industry funds 
to leverage Federal investment, ensure that all investments in 
university-performed research are directed at meeting industry's long-
term needs, and attract other private and State investments to support 
commercialization and deployment.
    Question. If funded, this program will only have minimal impact 
since it is only $12.5 million? Please provide the rational for 
creating another new grant program versus putting the funding in an 
existing program like TIP or the NIST labs.
    Answer. The AMTech program is designed so that a minimal investment 
is heavily leveraged by concurrent investment of industry and State 
resources directed at a common set of technological challenges. The 
NIST interaction with the Nanoelectronics Research Initiative (NRI), 
upon which AMTech is based, is illustrative of the significant impact 
that even a small investment can have. Currently NIST funding of 
research in the NRI ($2.75 million per year) has been leveraged by $5 
million per year from industry partners and $15 million/year from 
States to support projects at 30 universities to work in four regional 
centers. The NIST/NRI partnership has attracted $110 million over 5 
years in State and private funding to support business development and 
commercialization. Furthermore, George Scalise, former president of the 
Semiconductor Industry Association highlighted the importance of this 
effort:

    ``The Nanoelectronics Research Initiative and the regional research 
centers exemplify what can be done when industry, government and 
academia work together. This investment is likely to pay substantial 
dividends in the future. Leading-edge university research centers have 
proved to be powerful magnets for investment by technology companies 
and will help build the high-tech ecosystem for high-value jobs in the 
future.''

    NIST has modeled the proposed AMTech initiative on the successful 
NRI. By bringing together multiple components of the innovation cycle, 
under a single consortium, to accelerate the pace of innovation in a 
particular industry sector, AMTech will serve as a mechanism to 
accelerate the development, transition, adoption, and manufacture of 
new technologies. This in turn will create the opportunity for job 
creation and economic growth, as illustrated by the NRI example. The 
AMTech program compliments but is not the same as TIP's focus on small 
and medium-sized businesses and the role of the labs in addressing the 
measurement and standards challenges that stand in the way of 
technological advancement.
                          nist--cybersecurity
    Question. NIST's overall cybersecurity portfolio is responsible for 
cybersecurity research, development of Federal cybersecurity standards, 
establishment of methods and metrics for determining the effectiveness 
of security controls, and providing technical support to public and 
private sector implementation of security standards and controls. The 
fiscal year 2012 budget request contains $43.4 million in new funding 
for cybersecurity-related programs and activities that will strengthen 
NIST's contribution to the development and promulgation of effective 
and usable cybersecurity standards.
    NIST's budget request includes an increase of $43 million (a total 
of $72 million) for an initiative to improve the security and 
interoperability of the Nation's cyberinfrastructure. Can you elaborate 
on the efforts occurring under this initiative and how NIST's 
coordinates its activities with the Department of Homeland Security 
(DHS), the National Security Agency (NSA), and other agencies?
    Answer. A secure cyber infrastructure is vital to the economic 
vitality and national security interests of the United States. In 
addition to enabling more than $200 billion in annual e-commerce, 
interconnected networks of computers are essential for critical 
functions such as air traffic control, electric power distribution and 
the GPS in our cars. The Nation's cyber infrastructure is central to 
maintaining the timely delivery and quality of public services that are 
part of everyday life. Our Nation's computers face ever-increasing 
threats from malicious individuals, organizations, and nation states. 
Currently, our computer security tools are manually implemented, too 
complex to be effectively used, and too static to respond to rapid 
changes in the threat environment. This allows many attacks to succeed, 
causing significant damage and undermining confidence in vital 
commercial and public information systems. The result is a large, 
direct economic impact--estimates show that Americans lose billions of 
dollars each year to cyber crime.
    NIST is responsible for cybersecurity research, development of 
Federal cybersecurity standards, establishment of methods and metrics 
for determining the effectiveness of security controls, and providing 
technical support to public and private sector implementation of 
security standards and controls. The fiscal year 2012 budget request 
contains $43.4 million for cybersecurity-related programs and 
activities that will strengthen NIST's contribution to the development 
and promulgation of effective and usable cybersecurity standards. The 
cybersecurity infrastructure request has three initiatives.
    Scalable Cybersecurity for Emerging Technologies and Threats ($14.9 
million).--The request would provide improvements to NIST's core 
cybersecurity work in support of the Comprehensive National 
Cybersecurity Initiative, the Federal Information Security Management 
Act, and other national priorities. NIST will develop improved security 
techniques, support the creation of consensus security standards, 
increase the interoperability and usability of security technologies, 
and expedite the secure adoption of emerging information technologies.
    National Program Office (NPO) for the National Strategy for Trusted 
Identities in Cyberspace (NSTIC) and NSTIC Grant Program ($24.5 
million).--The request for NSTIC would support the development of a 
vibrant Identity Ecosystem where individuals, businesses, and other 
organizations enjoy greater trust, privacy, and security as they 
conduct sensitive transactions online. This initiative is in direct 
response to the recommendations of the White House Cyberspace Policy 
Review and will raise the level of trust associated with the identities 
of individuals, organizations, services, and devices involved in online 
transactions. The request would support an NPO to coordinate Federal 
activities needed to implement NSTIC. NIST will be responsible for day-
to-day and overall operation of the NPO. NIST will work with the 
private sector to identify potential funding opportunities for the 
delivery of NSTIC solutions. Of the $24.5 million for NSTIC, $7 million 
will support the NPO and $17.5 million will fund the pilot grants.
    National Initiative for Cybersecurity Education (NICE) ($4 
million).--NICE has evolved from the Comprehensive National 
Cybersecurity Initiative, and extends its scope beyond the Federal 
workplace to include civilians and students in kindergarten through 
postgraduate school. The goal of NICE is to establish an operational, 
sustainable, and continually improving cybersecurity education program 
for the Nation to use sound cyber practices that will enhance the 
Nation's security. NIST is leading the NICE initiative to ensure 
coordination, cooperation, focus, public engagement, technology 
transfer and sustainability. The $4 million request for NICE will 
support development of a cybersecurity education framework that 
addresses:
  --national cybersecurity awareness;
  --formal cybersecurity education;
  --Federal cybersecurity workforce structure; and
  --cybersecurity workforce training and professional development.
    Collaborations with both government and industry are essential for 
the success of our mission. We work closely with partners across the 
government, industry and the world. NIST is an active member in the 
interagency groups that coordinate the cybersecurity research and 
development agenda for Federal agencies:
  --The Networking and Information Technology Research and Development 
        Cyber Security and Information Assurance Interagency Working 
        Group (CSIA IWG), co-chaired by NIST, coordinates research and 
        development to prevent, resist, detect, respond to, and/or 
        recover from actions that compromise or threaten to compromise 
        the availability, integrity, or confidentiality of computer- 
        and network-based systems.
  --The Special Cyber Operations Research and Engineering Interagency 
        Working Group works in parallel to the CSIA IWG to coordinate 
        classified cybersecurity R&D.
  --Representatives from both of these groups participate together in 
        the Senior Steering Group for CSIA R&D, to actively share 
        cybersecurity R&D information across the policy, fiscal, and 
        research levels of the Government.
    Active participation in these groups ensures coordination of NIST 
efforts with other agencies, including NSA and DHS.
    Question. The administration has promised to send to the Congress a 
draft legislative proposal as input into a comprehensive rewrite of 
governmentwide cybersecurity authorization. What is the status of that 
draft proposal? Will this proposal impact your responsibilities as 
Secretary of Commerce to establish Federal Information Processing 
Standards (FIPS)?
    Answer. OMB sent the administration's cybersecurity legislative 
proposal to the Congress on May 12, 2011. Under the administration's 
proposal, the Secretary of Commerce will maintain the responsibility 
for promulgating cybersecurity standards and guidelines including FIPS, 
which will continue to be developed by NIST.
    Question. The NPO for NSTIC is a new administration initiative 
announced in January that will be lead by NIST. How will NIST fund this 
effort in fiscal year 2011?
    Answer. The request for NSTIC would support the development of a 
vibrant Identity Ecosystem where individuals, businesses, and other 
organizations enjoy greater trust, privacy and security as they conduct 
sensitive transactions online.
    For fiscal year 2011, NIST is utilizing $1.5 million in staff and 
resources to lay the ground work for the establishment of a NPO for 
NSTIC. The NPO, to be established within the Department of Commerce, 
will be responsible for bringing the public and private sectors 
together to meet this challenge. Specific responsibilities will 
include:
  --Building consensus on legal, technical, and policy frameworks 
        necessary to achieve the NSTIC vision, including ways to 
        enhance privacy, free expression and open markets;
  --Working with industry to identify where new standards or 
        collaborative efforts may be needed to enable Americans to 
        use--and businesses and other entities to accept--stronger, 
        more secure online authentication technologies;
  --Coordinating collaboration across Government stakeholders, 
        including agencies such as the General Services Administration 
        and Department of Homeland Security, as well as State and local 
        governments; and
  --Guiding NSTIC pilot projects and other NSTIC-related 
        implementations.
    This initiative was established in direct response to the 
recommendations of the White House Cyberspace Policy Review to raise 
the level of trust associated with the identities of individuals, 
organizations, services, and devices involved in online transactions.
                         nist--budget increase
    Question. The NIST increase is part of the administration's 
commitment to maintain a doubling path for three science agencies for 
future competitiveness--NSF, DOE's Office of Science, and NIST 
laboratories, providing a total of $13.9 billion, up $1.5 billion or 
12.2 percent.
    The fiscal year 2012 budget request for NIST reflects the 
administration's recognition of the important role that NIST plays in 
innovation and the impact that the research and services NIST provides 
can have on moving the Nation forward by laying the foundation for 
long-term job creation and prosperity.
    The administration believes that by sustaining investments in 
fundamental research, we can ensure that America remains at the 
forefront of scientific capability, thereby enhancing the ability to 
shape and improve our Nation's future and that of the world around us.
    The NIST fiscal year 2012 budget request assumed that the fiscal 
year 2011 request would be fully funded. At present the NIST request is 
33 percent above the fiscal year 2011 continuing resolution level. 
Given that this amount of increase is not realistic, and couldn't be 
absorbed into the agency, could you offer an opinion on what a 
realistic funding request for NIST should be?
    Answer. The increase requested for NIST in the fiscal year 2012 
President's budget recognizes the importance of science and innovation 
for the Nation's long-term economic growth and competitiveness. The 
administration's request level for NIST is executable. When the fiscal 
year 2012 President's budget was formulated, it already assumed that a 
full-year fiscal year 2011 continuing resolution would be enacted, and 
we used a fiscal year 2011 continuing resolution level as a baseline to 
develop the NIST budget. Thus, the request already reflects program 
adjustments, such as milestones and deliverables, so that the budget is 
executable. Moreover, NIST's fiscal year 2012 request is spread out 
among multiple programs, two of which contain large grant components. 
Roughly one-half of the $43.4 million requested for cybersecurity-
related activities is for grants. More importantly, a large portion of 
the 33 percent increase cited includes the $100 million in mandatory 
appropriations for the Public Safety Innovation Fund, of which about 
$84 million would be for grants.
    Question. Since we will not be able to fund this request in its 
entirety, what are the top budget priorities at NIST?
    Answer. The fiscal year 2012 President's budget request is the 
result of a rigorous review and prioritization of the agency's programs 
and activities. Core functions and services are sustained, and 
increases are requested to support critical national needs, including 
the areas of advanced manufacturing and cybersecurity, and to build and 
maintain state-of-the-art laboratory facilities essential to delivering 
quality standards research.
                           nist--hollings mep
    Question. The President's 2012 budget requests $142.6 million for 
the MEP program. This request is a $17.9 million increase more than the 
fiscal year 2010 enacted level. The MEP is a Federal-State partnership 
which requires a two-thirds financial match from non-Federal sources. 
Through its national network of MEP Centers located in every State, 
1,400 technical experts help small- and medium-sized manufacturers 
navigate economic and business challenges and connect to public and 
private resources essential for increased competitiveness and 
profitability.
    Through competitively awarded cooperative agreements, NIST MEP will 
expand the capabilities of its nationwide network of centers to 
accelerate commercialization of technological innovations, adopt 
environmentally sustainable business practices, promote renewable 
energy initiatives, foster market diversification, and connect domestic 
suppliers to manufacturers to assist manufacturers in successfully 
competing over the long term in today's complex global manufacturing 
environment.
    ExporTech helps companies enter or expand in global markets. The 
program assists your company in developing an international growth 
plan, provides experts who will vet your plan, and connects you with 
organizations that will help you move quickly beyond planning to actual 
export sales.
    Can you explain how the additional resources included in the fiscal 
year 2012 request for the MEP will be used to increase the 
competitiveness of small- and medium-sized manufacturers in the United 
States?
    Answer. Building on competitions started in fiscal year 2010, 
additional funding will be competitively awarded to MEP Centers and 
other not-for-profit organizations to focus on the development and 
expansion of next generation services to respond to manufacturers' 
challenges and position them to respond to new business opportunities. 
These services include technology innovation and commercialization, 
market diversification, supplier development, export opportunities for 
domestic manufacturers, and environmentally sustainable business 
practices.
    Question. The MEP is a partnership that requires the States to 
match Federal funding. Is this funding increase realistic when you 
consider all the belt tightening that is taking place at the State 
level? In other words, will the State be able to provide additional 
cost matching associated with the requested increase?
    Answer. NIST MEP is planning to use the authority under the 2007 
America COMPETES Act to run a competition within the MEP system of 
centers for new services and tools to respond to manufacturers needs. 
Under this competitive grant program, NIST MEP has the authority to 
issue up to $4 million without a cost-share requirement. Any 
competitive awards made above this amount would require a 50-percent 
cost share.
    Question. The MEP program and the EDA's Trade Adjustment Centers 
seem to have similar missions, i.e., to assist small manufacturers and 
improve their global competitiveness. As part of OMB's review of the 
Department, has there been any discussion on combining these two 
programs which would generate administrative savings?
    Answer. Earlier this year, the President directed Jeff Zients, CPO 
at OMB, to conduct a review of the Federal agencies and programs 
involved in trade, exports and competitiveness, including analyzing 
their scope and effectiveness, areas of overlap and duplication, unmet 
needs, and possible cost savings. When this review process is complete, 
the administration will share its findings and recommendations with the 
Congress.
    I agree with the President that we should examine options to 
reorganize the Federal Government to make it more efficient and 
responsive to support American competitiveness. I would look forward to 
working with you to address any questions or concerns you may have 
regarding this matter.
                               fisheries
    Question. I remain concerned that the Department's priorities in 
the fisheries area remain out of line with the actual needs of the 
fisheries and the billions of dollars in economic impact it represents. 
The fiscal year 2012 budget as did the fiscal year 2011 place a focus 
on implementing new management programs, specifically catch shares, 
while failing to take the steps needed in data collection to ensure we 
actually know how many fish there are to manage. I appreciate that your 
budget increases stock assessment and data collection lines to $91.5 
million, but I am confident this is merely a drop in the bucket toward 
addressing the problem. I am also concerned that Texas and the gulf as 
a whole have historically been low on the Departments priority list 
when dedicating funds to fisheries. The recreational fishery in the 
gulf alone represents $41 billion in commerce each year and 300,000 
jobs, yet year after year the gulf fisheries are largely ignored by 
your Department.
    Can I get your assurance that the Department will make data 
collection and updating stock assessments a top priority in fiscal year 
2012?
    Answer. NOAA's National Marine Fisheries Service (NMFS) considers 
data collection, for the purpose of updating stock assessments, a top 
priority in fiscal year 2012. The $15 million requested increase to the 
Expand Annual Stock Assessment line is slated to be used to:
  --improve assessments for high-priority stocks;
  --update assessments for stocks more frequently; and
  --conduct fishery-independent surveys to enable assessment of more 
        stocks, including data poor stocks, 3-5 years from now.
    NMFS also proposes to use a portion of these funds, $3 million, to 
invest in advanced technologies for fishery-independent surveys. Among 
the projects that will be supported with these funds will be near real-
time processing of survey data as it is collected at sea and more rapid 
delivery of these data to shore-based analysts conducting the stock 
assessments. Therefore, both data collection and completion of adequate 
stock assessments for fishery management will remain a priority in 
fiscal year 2012.
    Question. Can you also assure me that the fisheries in the gulf 
will be given the attention their economic impact demands of the 
Department of Commerce?
    Answer. The economic importance of the fisheries in the gulf is 
recognized at a national level and needs are addressed at a regional 
level in order to promote sustainable fisheries throughout the region. 
NOAA's NMFS is well aware of the economic value and impact of the Gulf 
of Mexico fisheries and is giving significant and focused attention to 
improve data collection and to more regularly update stock assessments. 
The following are steps in progress for addressing these issues:
  --NMFS Southeast Fisheries Science Center (SEFSC) added six FTE stock 
        assessment scientists in fiscal year 2011. They will contribute 
        to increasing the number of assessments conducted on Gulf of 
        Mexico, south Atlantic, and Caribbean stocks in future years.
  --The SEFSC dedicated the $10 million of supplemental funds received 
        from the Congress in August 2010 to support of stock 
        assessments for Gulf of Mexico stocks.
  --NMFS is testing a new dockside intercept survey design for the 
        recreational fishery that will provide a more statistically 
        sound sampling method. If the field testing is successful, 
        implementation of the design will replace current Marine 
        Recreational Fishing Statistics Survey methodology in the Gulf 
        of Mexico in fiscal year 2012.
  --A pilot of an electronic logbook and dockside validation for the 
        for-hire sector in the Gulf of Mexico is underway. The success 
        of this pilot program will result in improved timeliness of the 
        data.
  --The fiscal year 2012 President's budget includes a $15 million 
        increase to expand annual stock assessments, some of which is 
        intended for stocks in the Gulf of Mexico.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                              catch limits
    Question. The President's fiscal year 2012 funding request of $67 
million for enhanced stock assessments is an increase over the fiscal 
year 2010 and 2011 requests to ensure that annual catch limits are 
based on the best available science. I am concerned, however, that 
because of budget limitations in 2011 we won't be able to perform all 
the crucial fishery surveys in Alaska this summer.
    What assurance can you give me that the National Oceanographic and 
Atmospheric Administration (NOAA) will perform all of the fishery stock 
assessment surveys this summer? NOAA recently cancelled a Gulf of 
Alaska seismic survey and we absolutely can't lose the two other Gulf 
of Alaska ground fish surveys planned for this summer.
    Answer. As a result of the fiscal year 2011 continuing resolution, 
there were delays in the scheduled repairs to the NOAA Ship Oscar 
Dyson, which forced the Alaska Fisheries Science Center (AFSC) to 
cancel acoustic surveys for Pollock in areas off the Shumagin/Sanak and 
Bogoslof Island, and in Shelikof Strait. However, the AFSC will conduct 
the summer surveys in the Gulf of Alaska and Bering Sea as scheduled. 
Surveys include an acoustic Pollock stock assessment survey in the Gulf 
of Alaska and groundfish surveys aboard chartered vessels in both the 
Gulf of Alaska and eastern Bering Sea. These activities are funded from 
the Expand Annual Stock Assessments budget line.
                     pacific salmon treaty funding
    Question. When the Pacific Salmon Treaty was signed in 1985, the 
Congress provided the States of Alaska, Washington, Oregon, and Idaho, 
as well as the NOAA Fisheries, a combined total of $5.2 million to 
carry out the increased salmon management, research, evaluation, and 
fishery monitoring required to implement the provisions of the Treaty. 
This annual funding has barely increased over the intervening 25 years. 
Thus, the purchasing power of the original Federal appropriation made 
in 1985 has declined significantly by fiscal year 2010. This has 
required the agencies and the States to find other funding sources to 
backfill the costs of implementing the provisions of this international 
Treaty.
    With flat funding for 25 years, combined with recent losses of 
other State and Federal funding sources, it raises a serious question 
whether the United States is meeting its international obligations 
under the Treaty. Is NOAA aware of the crisis in Treaty funding? Can 
you help to make sure the United States does meet its Treaty 
obligations?
    Answer. The fiscal year 2012 President's request includes $5.7 
million for the base programs necessary to continue implementation of 
the Pacific Salmon Treaty and $3 million to implement specific 
provisions of the 2008 Chinook agreement for a total of $8.7 million to 
satisfy the mandates agreed to with Canada. The funds for the 2008 
Chinook agreement include $1.5 million for the Puget Sound Critical 
Stocks program and $1.5 million for improvements to the Coded Wire 
Tagging Program. Funding for base programs supports research projects 
conducted by NMFS and the States of Alaska, Washington, Oregon, and 
Idaho including personnel support to the Pacific Salmon Commission's 
panels and technical committees to conduct a broad range of salmon 
stock assessment and fishery monitoring programs to implement 
provisions of the Pacific Salmon Treaty.
    The requested decrease of $13.5 million for the Pacific Salmon 
Treaty is a result of fulfilling many of the commitments under the 2008 
Chinook agreement. The fiscal year 2010 and fiscal year 2011 budgets 
each included $7.5 million to partially mitigate the economic 
consequences for Alaska of reductions in allowable salmon catch, for a 
total of $15 million. As planned, the fiscal year 2012 request does not 
continue this $7.5 million for Alaska mitigation. The 2012 request also 
includes a planned reduction of $6 million in the Puget Sound Critical 
Stocks Augmentation program. That funding was utilized for the start up 
costs of hatchery and habitat projects. The Augmentation program will 
continue to support projects to assist in recovery of critical stocks 
in a manner that complements the harvest reductions provided by the 
Treaty.
               steller sea lions in the aleutian islands
    Question. NOAA recently issued a final interim rule to reduce 
commercial fishing for ground fish in the Aleutian Islands in order to 
decrease competition with the endangered western Steller sea lion. This 
action, which is now the subject of multiple lawsuits, will likely 
result in a loss of up to $66 million in revenues annually. One of the 
major issues is lack of conclusive scientific evidence showing that 
fisheries are affecting the recovery of this population.
    Given the substantial economic impacts of this action, do you 
believe that NOAA should prioritize research on the Western Population 
of Steller Sea Lions? How will the agency allocate funds to make sure 
the research is focused in the Western Aleutian Islands, which is the 
only area where the population is still declining?
    Answer. Steller Sea Lion research in the western Aleutian Islands 
will be a NOAA priority in 2011 and 2012. Several research efforts will 
further our understanding of the population dynamics of the Steller sea 
lions and the effects of interactions with fisheries. Direct fishing 
impacts are largely due to the incidental take of sea lions in fishing 
gear (drift and set gillnets, longlines, trawls, etc.). Steller sea 
lions are also indirectly threatened by fisheries because they have to 
compete for food resources and critical habitat that may be modified by 
fishing activities. Additional research on where the western population 
of Steller sea lions (SSL) breed and forage will allow NOAA to make 
more informed decisions about protective zones, catch/harvest limits, 
and other measures to ensure survival.
    Specifically in 2011, NOAA will conduct the following research that 
will support the following activities:
  --Branding pups at Agatu, western Aleutians;
  --Scouting western Aleutian sites for potential field camps to be 
        used in the 2012 breeding season;
  --Capture and satellite tagging of adult females (with pups) in 
        western Aleutians for foraging ecology;
  --Aerial surveys of SSL sites in all areas of the western SSL stock 
        (including the western Aleutians);
  --SSL brand resighting cruise between Seward and Dutch Harbor;
  --NOAA will assist Alaska Department of Fish and Game in conducting 
        extensive brand resighting at Sugarloaf Island; and
  --Brand resights from field camps at Marmot Island and Ugamak Island.
    In addition, NOAA is expecting that the North Pacific Research 
Board will likely fund our proposed food habitats study in the western 
Aleutians; and two scat collections would be compared to samples taken 
at two additional times of the year from the same area:
  --June-July 2011 samples from Agatu and western Aleutians during the 
        Tiglax cruise; and
  --October-November 2011 samples from the western Aleutian adult 
        female capture and tagging. This research will further our 
        understanding of the dynamics of the western Steller Sea Lion 
        population.
               coastal and marine spatial planning (cmsp)
    Question. One of the administration's priorities is the 
implementation of the National Ocean Policy and framework for CMSP. 
While I recognize that there are regions of the country that have user 
conflicts and want this planning tool, Alaska is not one of those 
regions and there is minimal support for this in the State. What we do 
need is environmental data collection, mapping, and integration.
    Given the small amount of funding providing for CMSP nationally, do 
you believe the agency should prioritize data collection first and only 
implement planning when there is sufficient data? Given the existing 
political opposition to this initiative, doesn't it make sense for NOAA 
to implement CMSP in regions where there is an identified need and 
support from the States, elected officials, and stakeholders?
    Answer. The CMSP Framework was designed to provide great 
flexibility with respect to implementation and allows for States, 
tribes, and stakeholders at a local level to focus on those issues that 
are highest priority in their regions.
    The foundation of CMSP is science and data. By working with 
stakeholders in the States and regions we will be able to consolidate 
data from numerous sources and present it in a geospatial context that 
is useful to decisionmakers. These new tools and data will be designed 
to inform a range of uses (including CMSP). Better access to data and 
an inclusive planning process can create transparency and 
predictability for all involved--developers, industry, coastal 
communities, and citizens.
    NOAA is committed to working with States--including the State of 
Alaska--to provide the maps, data, and science that the States and 
stakeholders need most.
                  miller freeman fishery survey vessel
    Question. The NOAA Fishery Survey vessel Miller Freeman is 44 years 
old and has suffered numerous mechanical failures and loss of sea time 
in recent years. Although the agency has planned to refurbish the 
vessel and extend its life, NOAA has not received adequate funds to do 
so.
    Is NOAA planning on decommissioning the Miller Freeman? Why hasn't 
the Miller Freeman received the funding to repair it? What is the plan 
to replace the Miller Freeman and the John Cobb, another research 
vessel that was primarily used in Alaska and recently decommissioned?
    Answer. NOAA is not ready to decide on decommissioning the Miller 
Freeman until the Material Condition Assessment (MCA) is conducted.
    NOAA has requested funding in both the fiscal year 2011 and fiscal 
year 2012 President's budget to fund high-priority repairs for Miller 
Freeman. The amount requested in the fiscal year 2012 President's 
budget is $11.6 million for repairs to the Miller Freeman and 
Ka'imimoana.
    The fiscal year 2010-fiscal year 2024 NOAA Ship Recapitalization 
Plan approved in fiscal year 2008 includes plans to replace the current 
capacity of Miller Freeman with the FSV 7. Per the Recapitalization 
Plan, FSV 7 would be delivered in fiscal year 2017, with full 
operations in fiscal year 2018. This would support Alaska Fisheries 
Science Center protected species surveys (45 days/year) and enable 
expanded ``adequate'' stock assessments for four stocks by fiscal year 
2025 and an additional four stocks by fiscal year 2030. The loss of the 
Miller Freeman days at sea in fiscal year 2011 has necessitated 
reallocation of $1.74 million from the Expand Annual Stock Assessment 
Budget Line for 118 charter vessel days at sea (50 percent of lost 
Freeman support) to meet the minimum survey requirement of the 
Southwest and Northwest Fisheries Science Centers on the west coast. 
NOAA currently has no other available assets capable of extending 
surveys into high latitude waters. FSV 7 will have higher endurance 
that will maximize time in the areas of interest and enhance multi-
mission capabilities to better understand climate change, loss of sea 
ice, and the resulting impact on the regional ecosystem.
    The NOAA Ship John Cobb, which was decommissioned in 2008, served 
NOAA for more than 35 years and provided a valued service to the Nation 
and our fishery and living marine resource research in southeast Alaska 
and in U.S. Pacific coastal waters. In lieu of a replacement vessel, 
NOAA opted to provide funding for charter vessels to meet at-sea data 
collection requirements. The fiscal year 2010 budget provided $1.6 
million for the Alaska Fisheries Science Center to charter commercial 
vessels to support research needs in southeast Alaska. With the 
addition of the advanced, acoustically quiet NOAA ship Bell M. Shimada 
in 2010, and our other west coast assets and chartering, NOAA is able 
to meet the primary mission that the Cobb did in the past. Therefore, 
NOAA does not intend to replace the John Cobb with a vessel of similar 
capabilities.
                            arctic research
    Question. The Arctic is a priority for me and Alaska, and 
obviously, for the administration, as you identified the region one of 
the nine priority objectives in the national ocean policy. It is 
critical as we move forward with energy production in the Arctic that 
we have adequate baseline information to understand the Arctic 
environment, inform management, and minimize the impacts of development 
and human activity.
    Do you feel the fiscal year 2012 budget adequately funds research 
in the Arctic? Does the Department of Commerce support the outside 
funding to fill in gaps and shortfalls in Federal funding?
    Answer. The Arctic is seeing rapid and dramatic changes that have 
national and global implications. Understanding and effectively 
managing the changing ecosystems, expectations, and opportunities in 
the Arctic requires a solid foundation of physical, atmospheric, 
ecological and socioeconomic, and other information. Yet despite the 
wealth of traditional ecological knowledge, exploration, and research 
to date, even the most basic data are lacking.
    In fiscal year 2012 and beyond, NOAA aims to strengthen its arctic 
science and stewardship, by collecting critical data to better inform 
policy options and management responses to the unique challenges in 
this fragile region. NOAA's Arctic Vision and Strategy aligns our 
capabilities in support of the efforts of our international, Federal, 
State and local partners, and within the broader context of our 
Nation's arctic policies and research goals. The strategy recognizes 
that NOAA can make the highest positive impact to arctic communities 
and sustainable economic growth by providing products and services for 
safe navigation and maritime security, oil spill response readiness, 
and environmental protection, among other things.
    The fiscal year 2012 President's budget builds upon and complements 
NOAA's existing arctic-related activities, and represents an investment 
needed to work toward implementing the framework and six strategic 
goals identified in the strategy. For example, NOAA requests an 
increase of $2.5 million to conduct 15 protected species stock 
assessments in the Arctic (harbor porpoise, and minke, beaked, and 
northern Pacific right whales) and the western Pacific (marine turtles, 
sperm, blue, false killer, and sei whales) as a way to improve NOAA's 
stewardship and management of Arctic Ocean and coastal resources. This 
information will be used to determine the impact of human activities, 
including oil and gas exploration in the Arctic, defense readiness 
training and operations in the Arctic and western Pacific, and 
commercial fishing activities in Alaska and western Pacific, on 
protected species and provide baseline data to inform management, and 
minimize the impacts of development and human activity.
    Across arctic-related activities proposed in fiscal year 2012, NOAA 
would leverage existing resources and partnerships to protect and 
understand this fragile and economically important region. Coordinating 
the myriad of international, Federal, State, and local efforts to 
understand environmental change in the Arctic, improve the stewardship 
of Arctic resources, and advance resilient Arctic communities and 
ecosystems will allow NOAA resources and capabilities to be used across 
multiple efforts. By strategically investing in its Arctic presence in 
fiscal year 2012, NOAA would improve its ability to assess and 
effectively respond to emerging changes in the Arctic environment and 
to continue efforts to identify information and data gaps requiring 
attention to further our Nation's Arctic policies and research goals.
    To access NOAA's Arctic and Vision Strategy visit: http://
www.arctic.noaa.gov/docs/NOAAArctic_V_S_2011.pdf.
                              catch shares
    Question. Another of the administration's priorities is catch 
shares. Alaska has the majority of catch share programs in the United 
States and they have been very successful in maintaining healthy stocks 
and increasing the economics of our fisheries. Because Alaska has most 
of the catch share programs, we will not receive much of the new catch 
share funding that is increased in the fiscal year 2012 budget.
    Since Alaska has most of the existing catch share programs, how can 
NOAA make sure Alaska still benefits from the new catch share funds?
    Answer. The North Pacific Regional Fishery Management Council has 
been on the cutting edge for a long time with respect to catch share 
programs. One of the recent actions the Council has approved and NMFS 
is in the process of implementing is a catch sharing plan between 
commercial and charter halibut fishermen, the Alaska Halibut Guided 
Sportfish Individual Fishing Quota (IFQ). This program would allow 
charter operators, on an annual basis, to lease halibut quota from the 
commercial sector. The fiscal year 2012 President's budget request 
includes funding to support this new program. Funding to support 
program-specific share accounting databases, electronic reporting 
systems and other infrastructure and operational needs are also part of 
the fiscal year 2012 President's budget request and will be used to 
support both the development of new and existing catch share programs 
in Alaska. Further, since the Councils decide in which fisheries they 
want to consider and implement catch share programs, the fiscal year 
2012 President's budget request includes funding for the Councils in 
support of catch share-related activities they have identified as 
important.
    In addition to the National Catch Share program, NOAA is also 
seeking to increase loan authority in fiscal year 2012 from $16 million 
to $24 million under NOAA's Fisheries Finance Program to provide quota 
share loans in support of existing catch shares program, some of which 
are in Alaska. The Magnuson-Stevens Fishery Conservation and Management 
Act (MSA) allows Councils to specify NOAA Fisheries Finance Program 
loans to assist small operators and first time buyers of catch share 
privileges. The North Pacific Council requested that the NOAA Fisheries 
Finance Program develop loan programs for the Halibut/Sablefish 
Individual Quota Share and the Crab IFQ programs, which were authorized 
in 1993 and 2011, respectively. Until 2011, this loan authority has 
only been used to support loans for quota in the halibut/sablefish 
fishery. The additional loan authority in fiscal year 2012 will 
initially support loans in the Bering Sea and Aleutian Islands King and 
Tanner Crab fisheries. These programs, as authorized under the MSA, are 
limited to entry-level fishermen and fishermen who fish from small 
boats. These programs provide a mechanism for new entrants to finance 
acquisition of quota share, part of their start-up needs, thus lowering 
the threshold for entry. For example, by providing financing to acquire 
quota share, a new entrant then may have sufficient cash flow to 
finance acquisition of a boat and permit in that fishery.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Please explain what actions the agency has taken to 
involve research institutions in Mississippi in research projects 
regarding the health of the marine ecosystem in Mississippi Sound and 
the northern Gulf of Mexico?
    Answer. The National Oceanographic and Atmospheric Administration's 
(NOAA) National Centers for Coastal Ocean Science (NCCOS), funds 
Mississippi State University to provide a suite of methods that will 
predict the path and fate of sediment and mercury in Grand Bay (a 
National Estuarine Research Reserve), from entry points to fish stocks. 
The models and data resulting from this project will enable managers 
and environmental regulators to better address mercury problems in the 
northern Gulf of Mexico by providing tools to simulate and evaluate 
alternate mitigation and mercury source reduction scenarios at sites 
throughout the gulf.
    As part of the NOAA Sea Grant, the Mississippi-Alabama Sea Grant 
Consortium (MASGC) members include the following Mississippi research 
institutions: Dauphin Island Sea Lab, Jackson State University, 
Mississippi State University, The University of Mississippi, and The 
University of Southern Mississippi. Current research projects include a 
Mississippi State University project focused on decreasing nitrate-N 
loads to coastal ecosystems in agricultural landscapes; a University of 
Southern Mississippi project focused on characterizing stormwater 
nitrogen inputs to Mississippi's coastal waters; and, a Jackson State 
University project focused on developing a habitat suitability index 
for submerged aquatic vegetation of the Mississippi coast.
    The Mississippi-Alabama Sea Grant Legal Program and the National 
Sea Grant Law Center both operate out of the University of Mississippi. 
They contribute to the field of ocean and coastal law and policy 
through research on marine laws and policies, coordinating ocean and 
coastal law researchers, and disseminating information to coastal and 
ocean policy-makers.
    In addition, NOAA provided funds to the University of Southern 
Mississippi (USM) to develop the next generation of molecular 
indicators that detect environmental stress responses in fish, 
determine population differences in stress responses, and link these 
indicators in individuals to responses at the population level. By the 
time such effects are observed, conditions may have deteriorated to 
levels that are difficult or expensive to remedy.
    In a related project, NOAA provided funds to USM to characterize 
species- and life stage-specific responses of fish to natural and 
human-caused stressors at the molecular, physiological, and organism 
levels. This information will be integrated with results from the 
previous phases of this project (such as the one above) to estimate 
possible higher-level (i.e., population and ecosystem) effects of 
exposure to common environmental stressors.
    Question. The Institute for Marine Mammal Studies (IMMS) in 
Gulfport, Mississippi, our region's leading marine mammal research, 
rescue, and public display facility, applied for a permit to take 
stranded sea lions that was published in the Federal Register 11 months 
ago. The permit has not yet been issued even though the law requires a 
decision 60 days after Federal Register publication. What is the status 
of the permit?
    Answer. Under the National Environmental Policy Act, NOAA's NMFS 
determined that the appropriate level of analysis for this application 
for take of marine mammals in accordance with the Endangered Species 
Act was an Environmental Assessment. An Environmental Assessment was 
drafted and the availability of the document was published in the 
Federal Register on April 11, 2011. The public comment period ended on 
May 11, 2011 during which 37 comments were submitted on the draft 
Environmental Assessment. These comments were complied and posted 
online at http://www.nmfs.noaa.gov/pr/permits/review.htm. The comments 
are being reviewed and analyzed for incorporation into the final 
Environmental Assessment and a decision will be made on the application 
after thorough NOAA legal review. Members of the animal welfare 
community have already notified NOAA of their opposition to issuance of 
the permit and have indicated that litigation may be pursued against 
the agency; therefore the final processing of the application will 
require additional scrutiny, therefore timing is unknown.
    Question. Additionally, IMMS has a stranding agreement with NMFS to 
assist in the rescue and rehabilitation of stranded marine mammals and 
has been an active participant in stranding response and rescue 
operations, at its own expense, for more than 25 years. This agreement 
allows IMMS to send animal tissues to other facilities for diagnostic 
work. In October 2010, IMMS filed a full report on these activities 
with NMFS. On April 7, 2011, NMFS advised IMMS that they had no idea 
the Institute was sending samples despite the October report and that 
they could no longer send samples to other research institutions for 
diagnostic analysis. Can you explain this change in policy?
    Answer. NMFS has a Stranding Agreement in place with IMMS. The 
policies under that Agreement have not changed. Articles 2 and 3 of the 
Stranding Agreement that NMFS issued to the IMMS allows for marine 
mammal parts to be sent to laboratories for medical diagnostic work 
(e.g., disease screening) without additional authorization. However, 
transferring marine mammal parts for research projects (e.g., genetics 
for stock assessments) requires by law:
  --prior notification to NMFS; and
  --assurance the researcher is authorized to receive those parts (see 
        50 CFR 216.22 and 216.37).
    In addition, the Department of Justice is pursuing civil and 
criminal cases related to the Deepwater Horizon BP oil spill, so 
samples and all records/data collected from marine mammal strandings 
that occurred in the northern Gulf of Mexico are considered potential 
evidence in these cases. NMFS is currently reviewing the IMMS' numerous 
sample transfers to determine the type of samples and purpose of the 
transfers to understand if they are categorized within the agreement or 
require prior notification. NMFS will follow up with the IMMS with 
additional information after the review is complete. Due to review by 
multiple NOAA policy and legal offices, timing is currently unknown.

                         CONCLUSION OF HEARINGS

    Senator Mikulski. The subcommittee stands in recess, 
subject to the call of the Chair.
    [Whereupon, at 11:38 a.m., Thursday, April 14, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


              MATERIAL SUBMITTED SUBSEQUENT TO THE HEARING

    [Clerk's Note.--The following testimony was received 
subsequent to the hearing for inclusion in the record.]
 Prepared Statement of David Krebs, Commercial Fisherman From Destin, 
   Florida, President of the Gulf of Mexico Reef Fish Shareholders' 
                                Alliance
    My name is David Krebs. I am honored to testify on the National 
Oceanic and Atmospheric Administration's budget, specifically in 
support of the $54 million in funding for the National Catch Share 
Program in fiscal year 2012 and in opposition to any provision that 
would prohibit funding for catch shares programs in the United States.
    I started fishing in 1969 as a teenage boy on Florida's gulf coast. 
Boats were mostly constructed of wood and commercial captains had an 
extraordinary ability to follow the contours of the sea floor with a 
paper bottom machine. The snapper boats were scattered along the gulf 
coast, mostly owned by the bigger fish houses that could afford them. 
Things started changing in the late 1970s with fiberglass boats 
starting to replace the aging wooden boats, with even a few carrying a 
Loran-A machine to navigate back to rich fishing grounds. By 1980, 
Loran-C arrived, with a much more user-friendly display that could be 
coupled to video plotters and digital fish finders. In 1981, I 
captained my first fiberglass longline vessel fishing for deepwater 
grouper and golden tilefish out of Destin, Florida. Fishing was easy in 
this new frontier of setting a longline across the bottom in 600-1,200 
feet of water; so easy that I remarked to an elder captain how easy it 
would be to capture all the fish to which he replied, ``That's right. 
That's why we must fish harder to get our share.''
               and so goes the saga of modern-day fishing
    Catch up one species and move on to the next, an endless cycle of 
boom and bust. When the grouper and tile fish played out in my area I 
switched to surface longline for tuna and swordfish, eventually leaving 
the gulf to fish in South and Central America looking for the next rich 
area.
    An early strategy by the Government was to issue permits, yet there 
was no restriction on how many or what size boat the permit was on. In 
fact, it was well into the 1990s before any permit moratorium started 
to go into place to try to govern a fiberglass fleet that wasn't 
wearing out, and that had even better technology such as GPS. So then 
came overall catch limits for the entire fleet of fishing vessels to 
try to protect the stocks. However, the fleet had been growing for 
nearly 20 years. So even with catch limits in place there was still a 
race to get your share of the resource. To address the fact that there 
were too many vessels and too few fish, there were calls for Government 
buyouts to reduce this oversized fleet. But that didn't happen, and the 
fleet just kept fishing. Today, fishermen in the Gulf of Mexico, like 
those in the Gulf of Mexico Reef Fish Shareholders' Alliance, are 
working diligently to correct this situation and improve the economics 
of the fishery and the conservation of the resource using catch shares.
                       the gulf red snapper story
    To explain the benefits of catch shares, let me tell you the story 
about gulf red snapper, a fishery that has historically been 
overfished.
    The management plan for red snapper in the Gulf of Mexico began in 
1991. It started as a pure derby fishery with an overall catch limit 
and a season that opened and closed when that quota was met. Under this 
system, each individual fisherman would race to catch as many fish as 
possible during the season. This was similar to the old halibut and 
salmon derbies in the Northwest and had about the same outcome--short 
season (less than 3 months), low prices, and a market void of domestic 
red snapper the remainder of the year. It was an unsafe, inefficient, 
and uneconomic way to manage the fishery. It also did little to improve 
the conservation of the resource.
    The next attempt was a 14-day mini-season with a 2,000-pound trip 
limit that began at the beginning of each month. This method extended 
the season to around 5 months, and was later abandoned to a 10-day 
mini-season, which included size limits. The boats would try to make a 
trip every day, regardless of weather, to get their share. The result 
was always the same: too much fish at the beginning of the month and 
none in the last 2 weeks. Fishermen were increasingly discarding 
smaller fish that did not meet the size limits and had died. When 
coupled with closed-season discards that also did not survive, the 
resource was being depleted. Again, it was an unsafe, inefficient, and 
uneconomic way to manage the fishery, and it did little to improve the 
conservation of the resource.
    As early as 2001, the increasing number of discarded fish 
associated with the size limits and closed seasons from both the 
recreational and commercial fleets began to take its toll on the 
fishery. This was due to the fact that discards that were assumed to 
have lived had not. We had to have a better system.
    The stakeholders in the fishery, at the Council level, began the 
process of developing a red snapper individual fishing quota (IFQ)--a 
form of catch share or limited access privilege program. The 
stakeholders voted on the program by referendum, and it was implemented 
in January 2007.
    The red snapper fishery is better now than I have seen in my 
lifetime. It has a longer season. It is better economically. And we are 
seeing a resurgence of red snappers. The difference was that by, 
assigning an individual his own quota, the collateral damage was 
reduced since he could now keep fish that he was discarding while he 
was fishing for other reef fish species during the other 20-day 
closures. It is my belief that an IFQ designed by the stakeholders is a 
very important tool in the fishery management strategy. It is the only 
tool that allows fishermen the individual flexibility to meet their 
needs. And since individual fishing quotas are considered a form of 
catch share, I feel that it is imperative that this tool remain in the 
budget for future consideration.
 importance of funding catch share programs such as the red snapper ifq
    The Red Snapper IFQ and other catch share programs have been proven 
to improve the management and conservation of the fishery, which was 
the intended result of such programs when the Congress authorized them 
in 2007. Both the Bush administration and the Obama administration have 
recognized the value of catch share programs, and have increasingly 
provided funding to NOAA so that the stakeholders in the fishery can 
develop and implement such programs. In fiscal years 2011 and 2012, $54 
million in funding has been requested for the National Catch Share 
Program. That funding is not only crucial to programs that are already 
on the water, such as the red snapper IFQ, but also to the development 
of new programs to further improve the management of our Nation's 
fisheries.
    Well-designed catch share programs feature improved monitoring 
systems and improved and collaborative science, so that catch shares 
quickly outperform traditional approaches, both scientifically and in 
terms of access to fish for fishermen. As discussed in the President's 
budget request, an investment in the National Catch Share Program 
represents an investment in ``improvements in fishery-dependent data 
collection systems, fishery data management, social and economic data 
collection or analysis . . . [and] stock assessments.'' These help 
improve the scientific data necessary to analyze and better manage 
fisheries.
    I urge the subcommittee to oppose provisions that would limit the 
ability of the regional fishery management councils to consider the use 
of catch share programs, and to support funding for the National Catch 
Share Program.
    Thank you again for the opportunity to testify on this important 
issue.


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2012

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
        Prepared Statement of the American Geological Institute
    To the chairwoman and members of the subcommittee: The American 
Geological Institute (AGI) supports Earth science research sustained by 
the National Science Foundation (NSF), the National Oceanic and 
Atmospheric Administration (NOAA), the National Institute of Standards 
and Technology (NIST) and the National Aeronautics and Space 
Administration (NASA). Frontier research on the Earth, energy, and the 
environment has fueled economic growth, mitigated losses and sustained 
our quality of life. The subcommittee's leadership in supporting 
geoscience-based research is even more critical as our Nation competes 
with rapidly developing countries, such as China and India, for energy, 
mineral, air, and water resources. Our Nation needs skilled 
geoscientists to help explore, assess, and develop Earth's resources in 
a strategic, sustainable, and environmentally sound manner and to help 
understand, evaluate and reduce our risks to hazards. AGI supports the 
President's budget request of $7.767 billion for NSF; $1.101 billion 
for NIST, $5.498 billion for NOAA, and $1.797 billion for Earth science 
at NASA.
    AGI is a nonprofit federation of 49 geoscientific and professional 
societies representing more than 120,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources and interaction with 
the environment.
    NSF.--AGI supports an overall budget of $7.767 billion for NSF. AGI 
greatly appreciates the Congress' support for science and technology in 
recent appropriations and through the America COMPETES Reauthorization 
Act of 2010. The forward-looking investments in NSF are fiscally 
responsible and will pay important dividends in future development that 
drives economic growth, especially in critical areas of sustainable and 
economic natural resources and reduced risks from natural hazards. 
Support for science will save jobs, create new jobs, support students, 
and provide training for a 21st century workforce.
    NSF Geosciences Directorate.--The Geosciences Directorate (GEO) is 
the principal source of Federal support for academic Earth scientists 
and their students who are seeking to understand the processes that 
sustain and transform life on this planet. About 63 percent of support 
for university-based geosciences research comes from this directorate 
and more than 14,300 people will be directly supported through GEO in 
fiscal year 2012 with thousands of others deriving support indirectly.
    The President's request for fiscal year 2012 asks for $286 million 
for Atmospheric and geospace sciences; $207 million for Earth sciences; 
$385 million for Ocean sciences; and $101 million for integrative and 
collaborative education and research within GEO. Much of the 
geosciences research budget is for understanding that is critical for 
current national needs, such as water and mineral resources, energy 
resources, environmental issues, climate change, and mitigation of 
natural hazards. AGI asks the subcommittee to strongly support these 
funding levels.
    GEO supports infrastructure and operation and maintenance costs for 
cutting-edge facilities that are essential for basic and applied 
research. Ultimately the observations and data provide knowledge that 
is used by researchers and professionals in the public, government, and 
private sector. GEO research and infrastructure helps drive economic 
growth in a sustainable manner. Geoscience-based research tools and 
academic expertise helped to end the BP Deepwater Horizon oil spill, 
saving billions of dollars for industry and untold costs to the 
environment. Research funding continues to help the gulf coast recover 
environmentally and economically.
    Among the major facilities that NSF supports, the Academic Research 
Fleet would receive $69 million; EarthScope Operations would receive 
$26 million; Incorporated Research Institutions for Seismology would 
receive $12 million; Ocean Drilling Activities would receive $45 
million; the Ocean Observatories Initiative would receive $36 million; 
and the National Center for Atmospheric Research would receive $100 
million. AGI strongly supports robust and steady funding for 
infrastructure and operation and maintenance of these major facilities.
    NSF's Office of Polar Programs (OPP) funds basic research in the 
Arctic and Antarctica that helps the United States maintain strategic 
plans, international efforts, security goals, natural resource 
assessments, cutting-edge polar technology developments and 
environmental stewardship of extreme environs. OPP's funding helps 
support researchers and students, the U.S. military, and the private 
sector. OPP is estimated to directly support almost 3,000 people in 
fiscal year 2012 and thousands of others indirectly. AGI supports the 
President's budget request of $477.4 million for this important 
program.
    Now is the time to boost geosciences research and education to fill 
the draining pipeline of skilled geoscientists and geo-engineers 
working in the energy and mining industries; the construction industry; 
the environmental industry; the risk management and insurance 
industries; the academic community; K-12 education; the Federal, State 
and local governments; and the communications and tourism industries.
    NSF Support for Earth Science Education.--The Congress can grow the 
depleted geosciences workforce; stimulate economic growth in the 
energy, natural resources, and environmental sectors; and improve 
natural resource literacy by supporting the full integration of Earth 
science information into mainstream science education at the K-12 and 
higher education levels. AGI strongly supports the Math and Science 
Partnerships, the Graduate Research Fellowships and the Research 
Experiences for Undergraduates within NSF's Education and Human 
Resources Division. These programs are effective in building a science 
and engineering workforce for the 21st century.
    Improving geoscience education, one of the goals of NSF-EHR, to 
levels of recognition similar to other scientific disciplines is 
important in the following ways:
  --Geoscience offers students subject matter that has direct 
        application to their lives and the world around them, including 
        energy, minerals, water, and environmental stewardship. All 
        students should be required to take a geoscience course in 
        primary and secondary school.
  --Geoscience exposes students to a range of interrelated scientific 
        disciplines. It is an excellent vehicle for integrating the 
        theories and methods of chemistry, physics, biology, and 
        mathematics. A robust geoscience course would make an excellent 
        capstone for applying lessons learned from earlier class work.
  --Geoscience awareness is a key element in reducing the impact of 
        natural hazards on citizens--hazards that include earthquakes, 
        volcanic eruptions, hurricanes, tornadoes, and floods. Informal 
        geoscience education that leads to reducing risks and preparing 
        for natural events should be a life-long goal.
  --Geoscience provides the foundation for tomorrow's leaders in 
        research, education, utilization and policymaking for Earth's 
        resources and our Nation's strategic, economic, sustainable, 
        and environmentally sound natural resources development. There 
        are not enough U.S.-trained geoscientists to meet current 
        demand and the gap is growing. Support for geoscience research 
        and education is necessary to stay competitive and to wisely 
        manage our natural resources.
    NOAA.--AGI supports the President's request for a budget of $5.498 
billion for NOAA. We hope the subcommittee will continue to support the 
National Weather Service; the Oceanic and Atmospheric Research program; 
the National Climate Service; and the National Environment Satellite, 
Data and Information Service. All four programs are critical for 
understanding and mitigating natural and human-induced hazards in the 
Earth system while sustaining our natural resources. These four 
programs at NOAA prevent billions of dollars of losses, keep the 
private and public sectors growing and save lives. For example, drought 
forecasts are worth up to $8 billion to the farming, transportation, 
tourism, and energy sectors while NexRad radar has prevented more than 
330 fatalities and 7,800 injuries from tornadoes since the early 1990s.
    NIST.--We support the President's request of $1.101 billion for 
NIST in fiscal year 2012. Basic research at NIST is conducted by Earth 
scientists and geotechnical engineers and used by the public and 
private sector on a daily basis. The research conducted and the 
information gained is essential for understanding climate change and 
natural hazards in order to build resilient communities and stimulate 
economic growth with reduced impact from risk. In particular, we 
support Measurements and Standards to Support Increased Energy 
Efficiency and Reduced Environmental Impact and Measurements and 
Standards to Support Advanced Infrastructure Delivery and Resilience. 
Energy efficiency and reduced environmental impact research will 
improve the health of our planet and reduce energy costs. The advanced 
infrastructure research will help to reduce the estimated average of 
$52 billion in annual losses caused by floods, fires, and earthquakes.
    NIST is the lead agency for the National Earthquake Hazard 
Reduction Program (NEHRP), but has received only a small portion of 
authorized and essential funding in the past. AGI strongly supports the 
reauthorization of NEHRP in 2012. We hope the appropriations 
subcommittee will continue to support this effective and cohesive 
program, even if the authorizing legislation takes more time to 
complete. NEHRP is an excellent example of how to coordinate different 
entities for the safety and security of all. NEHRP develops effective 
practices and policies for earthquake loss reduction and accelerates 
their implementation; improves techniques for reducing earthquake 
vulnerabilities of facilities and systems; improves earthquake hazards 
identification and risk assessment methods and their use; and improves 
the understanding of earthquakes and their effects.
    NASA.--AGI supports the vital Earth-observing programs within NASA. 
AGI strongly supports the President's request of $1.797 billion for 
Earth Science programs within the Science Mission Directorate at NASA. 
The investments are needed to implement the priorities of the National 
Academies Earth Science and Applications from Space Decadal Survey. 
NASA needs to maintain its current fleet of Earth-observing satellites, 
launch the next tier and accelerate development of the subsequent tier 
of missions. The observations and understanding about our dynamic Earth 
gained from these missions is critical and needed as soon as possible. 
Earth observations are used every day, not just for research, but for 
critical information to aid society in mundane tasks, like weather 
forecasting and emergency services, such as tracking volcanic ash 
plumes or oil spills that disrupt the economy and the environment. The 
requested increase for fiscal 2012 and proposed increases for future 
years are wise and well-planned investments that affect everyone.
    We appreciate this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record.
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a nonprofit, nonpartisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the President's fiscal year 2012 budget request for the 
National Aeronautics and Space Administration (NASA), the National 
Oceanic and Atmospheric Administration (NOAA), and the National Science 
Foundation (NSF). The AGU, on behalf of its more than 60,000 Earth and 
space scientist members, would like to respectfully requests that the 
Congress appropriates at least $1.797 billion for earth science at 
NASA, $5.498 billion overall for NOAA, and $7.767 billion overall for 
NSF.
                                  nasa
Earth Science
    AGU supports the vital Earth-observing programs within NASA. AGU 
strongly supports the President's request of $1.797 billion for Earth 
science programs within the Science Mission Directorate at NASA. The 
investments are needed to implement the priorities of the National 
Academies Earth Science and Applications from Space Decadal Survey. 
NASA needs to maintain its current fleet of Earth-observing satellites, 
launch the next tier, and accelerate development of the subsequent tier 
of missions. The observations and understanding about our dynamic Earth 
gained from these missions is critical and needed as soon as possible. 
Earth observations are used every day, not just for research, but for 
critical information to aid society in routine tasks, such as weather 
forecasting, emergency services, and tracking volcanic ash plumes or 
oil spills that disrupt the economy and the environment. The requested 
increase for fiscal year 2012 and proposed increases for future years 
are wise and well-planned investments.
Planetary Science
    AGU supports the President's request for fiscal year 2012 of $1.54 
billion for the Planetary Science programs within the Science Mission 
Directorate at NASA. Planetary science examines the origin, content, 
and evolution of the solar system and the potential for life elsewhere. 
There are more practical applications for planetary sciences as well. 
The science data from many planetary missions provides scientists with 
critical information for future human spaceflight missions, which 
furthers NASA's exploration agenda. Additionally, Robotic Mars orbiters 
are mapping natural resources such as water and minerals on Mars.
Plutonium-238
    AGU is concerned about the absence of past funding for restarting 
production of Plutonium-238 (Pu-238) and how it will negatively impacts 
NASA's planetary sciences missions. We request production of Pu-238 be 
restarted immediately, as there is no viable alternative method to 
power deep space missions (solar panels cannot produce enough 
electricity far from the Sun). Currently, NASA's only option for 
obtaining Pu-238 is to purchase it from Russia. Without Pu-238, NASA 
cannot carry out future planetary missions.
    If Pu-238 production starts immediately, there will still be a 5-
year delay before enough Pu-238 is produced to power a spacecraft. Full 
scale Pu-238 production is unlikely until 2018, which is too late to 
meet all of NASA's needs. The delay will push back 12 proposed 
planetary space missions. This delay could cause missions to reach 
prohibitively high costs, which in turn could cause job losses, 
diminish the United States leadership role in planetary science, and 
prevent us from expanding human knowledge of the universe. Given the 
magnitude of the funds necessary to regain our production capability, 
AGU strongly asks that restart production of Pu-238 be funded fully at 
the President's requested level of $10 million. AGU also supports the 
Department of Energy Office of Science request for $5.416 billion and 
the Office of Nuclear Energy Pu-238 production restart for $10 million.
Heliophysics
    AGU supports the President's request for fiscal year 2012 of $622 
million for the Heliophysics Science programs within the Science 
Mission Directorate at NASA. Heliophysics research is critical because 
it results in a better understanding of the Sun and how its activities 
affect Earth. Not only due solar activities affect Earth's climate, 
they also account for space weather, which impacts satellites, radio 
and radar transmission, gas and oil pipelines, and electrical power 
grids.
Joint Polar Satellite System (JPSS)
    AGU supports the President's request of $1.07 billion for JPSS in 
fiscal year 2012. Because the fiscal year 2011 funds that were 
necessary to launch JPSS on time were not appropriated, there will be a 
data gap beginning in 2017. It is critical that the Congress 
appropriate the President's request for JPSS in fiscal year 2012 in 
order to minimize the length of that gap.
    Polar satellites provide the only weather and climate information 
for large portions of the planet and are particularly important for a 
whole host of end users. For military planners, overseas U.S. military 
operations will be greatly affected by the data gap. JPSS will provide 
critical information for long-term forecasts, which are imperative for 
troop deployments and planning operations. Additionally, weather 
forecasts for oil and gas companies doing work in Alaska, as well as 
cargo and cruise ships carrying billions of dollars worth of goods and 
millions of passengers, will be compromised. Furthermore, our ability 
to forecast weather in Alaska will be severely compromised. Others 
impacted by a data gap include the aviation industry, as JPSS will 
observe volcanic eruptions and track the movement of ash clouds; 
agriculture, as farmers rely on polar satellites for drought, extreme 
temperature, and length of growing season information; the fishing 
industry, as fishermen check sea-surface data from polar satellites to 
find fish stocks before heading out for their daily catch; and finally 
weather forecasting, as forecasters' ability to accurately project the 
intensity and trajectory of severe weather events, such as hurricanes, 
will be greatly diminished.
National Weather Service (NWS)
    AGU hopes the subcommittee will continue to support NWS and will 
fund it at the President's request for $988 million in fiscal year 
2012. NWS is critical to protecting American lives, property, and 
commerce. Weather observations provide information that is vital for 
weather modeling and functions like accurate tornado watches and 
warnings and storm forecasting must be preserved. Furthermore, buoy and 
surface weather observations are the backbone of most of the weather 
warning systems. Because at least one-third of U.S. GDP is concentrated 
in weather-sensitive industries, it is critical that the Congress 
maintains the United States' robust weather forecasting infrastructure.
Climate Service
    AGU supports the formation of a Climate Service within NOAA and 
supports the President's request in fiscal year 2012 for $346.2 
million. The Climate Service is a budget-neutral reorganization within 
NOAA that will better integrate its functionalities in order to improve 
NOAA's ability to provide data and information to those communities 
affected by climate. As the Nation struggles to address the economic 
and national security-related impacts of climate on everything from 
agriculture to energy and transportation, it is now more important than 
ever that we leverage and coordinate our efforts to provide related 
information and scientific data. NOAA's proposed Climate Service would 
create the necessary framework to provide such support. The potential 
impacts of climate change and its influence on extreme weather events 
are pervasive and considerable. Climate change forecasts have the 
potential to provide a $507-$959 million per year benefit to the U.S. 
agriculture industry alone.
    Due to this widespread impact, there has been exponential growth in 
the demand for climate information from business, industry, 
agriculture, government, and the public. This need can only be 
addressed with easily accessible and timely scientific data and 
information about climate that helps people make informed decisions in 
their lives, businesses, and communities. While NOAA already responds 
to millions of requests annually, its distributed network of 
laboratories, data centers and programs limits the agency's ability to 
fully anticipate, develop, and deliver the needed services.
                                  nsf
    AGU supports the President's request of an overall budget of $7.767 
billion for NSF. AGU greatly appreciates the Congress' support for 
science and technology in past appropriations and through the America 
COMPETES Reauthorization Act of 2010. Investments in NSF provide for 
America's future in a responsible manner. These investments pay out 
vitally important dividends in future development that drives economic 
growth, especially in critical areas of sustainable and economic 
natural resources and reduced risks from natural hazards. Support for 
science will maintain our economic and industrial leadership in the 
global marketplace, ensure economic progress, grow jobs, and uphold 
society's advancement.
Geosciences Directorate
    The Geosciences Directorate (GEO) is the principal source of 
Federal support for academic Earth scientists and their students who 
are seeking to understand the processes that sustain and transform life 
on this planet. Approximately 63 percent of support for university-
based geosciences research comes from this directorate and more than 
14,300 people will be directly supported through GEO in fiscal year 
2012 with thousands of others deriving support indirectly.
    The President's request for fiscal year 2012 asks for $286 million 
for Atmospheric and Geospace Sciences; $207 million for Earth Sciences; 
$385 million for Ocean Sciences; and $101 million for Integrative and 
Collaborative Education and Research (ICER) within GEO. Much of the 
geosciences research budget leads to a better understanding of critical 
national needs, such as water and mineral resources, energy resources, 
environmental issues, climate change, and mitigation of natural 
hazards. AGU asks the subcommittee to strongly support these funding 
levels.
    GEO supports infrastructure, operation, and maintenance costs for 
cutting-edge facilities that are essential for basic and applied 
research. Geoscience-based research tools and academic expertise helped 
to end the BP Deepwater Horizon oil spill, saving billions of dollars 
for industry and untold costs to the environment. Among the major 
facilities that NSF supports, the Academic Research Fleet would receive 
$69 million; EarthScope Operations would receive $26 million; 
Incorporated Research Institutions for Seismology would receive $12 
million, Ocean Drilling Activities would receive $45 million; the Ocean 
Observatories Initiative would receive $36 million; and the National 
Center for Atmospheric Research would receive $100 million. AGU 
strongly supports robust and steady funding for this infrastructure as 
well as operation and maintenance of these major facilities.
Office of Polar Programs (OPP)
    NSF's OPP funds basic research in the Arctic and Antarctica that 
helps the United States maintain strategic plans, international 
efforts, security goals, natural resource assessments, cutting-edge 
polar technology developments, and environmental stewardship of extreme 
environs. OPP's funding helps support researchers and students, the 
U.S. military, and the private sector. OPP is estimated to directly 
support almost 3,000 people in fiscal year 2012 and thousands of others 
indirectly. AGU supports the President's request of $477.4 million for 
this important program.
Earth Science Education
    The geosciences workforce is aging and being quickly depleted. The 
Congress can grow this workforce, stimulate economic growth in the 
energy, natural resources and environmental sectors, and improve 
natural resource literacy by supporting the full integration of Earth 
science information into mainstream science education at the K-12 and 
higher education levels. AGU strongly supports the Math and Science 
Partnerships, the Graduate Research Fellowships and the Research 
Experiences for Undergraduates within NSF's Education and Human 
Resources (EHR) Division. These programs are effective in building a 
science and engineering workforce for the 21st century. Improving 
geoscience education, one of the goals of NSF-EHR, to levels of 
recognition similar to other scientific disciplines is critical.
    AGU appreciates this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record. We thank you for your thoughtful 
consideration of our request.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of fiscal year 2012 
appropriations for the National Science Foundation (NSF). We encourage 
the Congress to provide the $7.767 billion requested by the 
administration.
    AIBS is a nonprofit 501(c)(3) scientific association dedicated to 
advancing biological research and education for the welfare of society. 
Founded in 1947 as a part of the National Academy of Sciences, AIBS 
became an independent, member-governed organization in the 1950s. AIBS 
is sustained by a robust membership of some 200 professional societies 
and scientific organizations whose combined individual membership 
exceeds 250,000. AIBS advances its mission through coalition activities 
in research, education, and public policy; publishing the peer-reviewed 
journal BioScience and the education Web site ActionBioscience.org; 
providing scientific peer-review and advisory services to government 
agencies and other clients; convening meetings; and managing scientific 
programs.
    NSF is a vital engine that can help drive our Nation's economic 
growth. The agency's support for scientific research and education 
programs fosters innovation, improves science education, and maintains 
our scientific infrastructure. Through its competitive, peer-reviewed 
research grants, NSF is leading the development of new knowledge that 
will help to solve the most challenging problems facing society. The 
agency's education programs are preparing the next generation of 
skilled workers in science, technology, engineering, and math (STEM). 
NSF's investments in research equipment and facilities will enable our 
Nation to continue to innovate and compete globally. These efforts, 
however, require a sustained and predictable Federal investment. 
Unpredictable swings in Federal funding can disrupt research programs, 
create uncertainty in the research community, and stall the development 
of the next great idea.
    NSF is a sound investment that pays dividends. The use of peer-
review to evaluate and select the best research proposals means that 
NSF is funding the most promising research. Recent discoveries that 
stem from NSF-funded research include the development of a faster and 
less expensive method for identifying bacteria in water and food 
samples; the identification of a high-yielding biofuel that can grow on 
degraded lands; the creation of tomatoes that provide increased levels 
of the essential nutrient folate; and insight into the spread of the 
West Nile virus.
    As the primary Federal funding agency for fundamental research in 
the nonmedical sciences at our Nation's universities and colleges, NSF 
is responsible for generating new scientific discoveries, patents, and 
jobs. For many scientific disciplines, NSF is the primary funding 
source for basic research. For instance, NSF provides approximately 68 
percent of extramural Federal grant support for fundamental research in 
the areas of nonmedical and environmental biology.
    Importantly, the fiscal year 2012 budget request would allow NSF to 
fund nearly 2,000 additional research grants, thereby supporting more 
than 6,000 additional researchers and students. This added support 
would build upon the agency's central role in science and STEM 
education. In fiscal year 2010, NSF programs reached almost 300,000 
scientists, teachers, and students across the Nation. NSF provides 
vitally important research support to early career scientists, helping 
them to initiate their research programs. Support for the scientific 
training of undergraduate and graduate students is also critically 
important to our research enterprise. Students recruited into science 
through NSF programs and research experiences are our next generation 
of innovators and educators. In short, NSF grants are essential to the 
Nation's goal of sustaining our global leadership in science, 
technology, engineering and mathematics, and reigniting our economic 
engines.
    The Biological Sciences Directorate (BIO) funds research in the 
foundational disciplines within biology. These fields of study further 
our understanding of how organisms and ecosystems function. 
Additionally, BIO supports innovative interdisciplinary research that 
improves our understanding of how human social systems influence--or 
are influenced by--the environment, such as the NSF-wide Science, 
Engineering, and Education for Sustainability program. In collaboration 
with NSF's engineering and math and physical science directorates, BIO 
is working to develop new, cutting-edge research fields. For example, 
the BioMaPS program is accelerating understanding of biological 
systems, and applying that knowledge to new technologies in clean 
energy.
    The fiscal year 2012 budget request for NSF would enable the agency 
to continue to fund highly competitive grant proposals in BIO's five 
core programmatic areas:
  --molecular and cellular biosciences;
  --integrative organismal systems;
  --environmental biology;
  --biological infrastructure; and
  --emerging frontiers.
    Equally important, BIO provides essential support for our Nation's 
place-based biological research, such as field stations and natural 
science collections. Each of BIO's program areas also contribute to the 
education and training of undergraduate, graduate, and postdoctoral 
students.
    The budget includes a request for $10 million to support the 
digitization of high-priority U.S. specimen collections. We strongly 
encourage the Congress to provide at least this level of funding. This 
investment would help the scientific community ensure access to and 
appropriate curation of irreplaceable biological specimens and 
associated data, and would stimulate the development of new computer 
hardware and software, digitization technologies, and database 
management tools. For example, this effort is bringing together 
biologists, computer and information scientists, and engineers in 
multidisciplinary teams to develop innovative imaging, robotics, and 
data storage and retrieval methods. These tools will expedite the 
digitization of collections and, more than likely, contribute to the 
development of new products or services of value to other industries.
    The fiscal year 2012 budget request includes funding in the Major 
Research Equipment and Facilities Construction account for the 
continued construction of the National Ecological Observatory Network 
(NEON). Once completed, NEON will collect data across the United States 
on the effects of climate change, land use change, and invasive species 
on natural resources and biodiversity. This information will be 
valuable to scientists, resource managers, and government 
decisionmakers as they seek to better understand and manage natural 
resources.
    We encourage the subcommittee to provide the requested funding for 
the successful Graduate Research Fellowship program. The budget request 
would provide 2,000 new fellowships, which are important to our 
national effort to recruit and retain the best and brightest STEM 
students. The budget would also provide a needed $1,500 increase to the 
fellowship's education allowance, which has not changed since 1998.
    Thank you for your thoughtful consideration of this request and for 
your prior efforts on behalf of science and the National Science 
Foundation.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
                              Universities
    On behalf of the Association of Public and Land-grant Universities' 
(APLU) Board on Oceans, Atmosphere, and Climate (BOAC), and the 
national constellation of institutions of higher learning that it 
represents, we thank you for the opportunity to provide support of and 
recommendations for the proposed fiscal year 2012 budgets for the 
National Oceanic and Atmospheric Administration (NOAA), the National 
Aeronautic and Space Administration (NASA) and the National Science 
Foundation (NSF). NOAA, NASA, and NSF each play unique roles in a 
number of high-priority U.S. and international initiatives. All three 
agencies also support research at our member institutions that provides 
critical information to policymakers and communities across the 
country. That is why we strongly support the administration's request 
of $5.498 billion for NOAA; $7.8 billion for NSF; and $5.016 billion 
for NASA's science account.

    ``Although basic science can have colossal economic rewards, they 
are totally unpredictable. And therefore the rewards cannot be judged 
by immediate results. Nevertheless, the value of [Michael] Faraday's 
work today must be higher than the capitalization of all shares on the 
stock exchange.''------Margaret Thatcher, Speech to the Royal Society, 
September 27, 1988.

    ``America has been consuming its seed corn: From 1970 to 1995, 
Federal support for research in the physical sciences, as a fraction of 
gross domestic product, declined 54 percent; in engineering, 51 
percent. Annual Federal spending on mathematics, the physical sciences 
and engineering now equals only the increase in healthcare costs every 
9 weeks.''------George F. Will: ``Rev the Scientific Engine'', The 
Washington Post, January 2, 2011.

    In the late 1930s, at a time when the Federal Government did not 
fund basic research, Alfred Loomis, a wealthy New York industrialist 
and science enthusiast was the benefactor of basic research pursuits of 
the world's foremost scientists and mathematicians at his mansion, 
which was partially converted into a laboratory in Tuxedo Park, New 
York. One of the scientific breakthroughs that he fostered led to the 
development of microwave radar. Via his cousin, Mr. Simpson, the 
Secretary of War, Mr. Loomis contacted President Roosevelt who 
contacted Mr. Churchill. An enormous mismatch in aircraft and vessel 
detection capabilities resulted between the Allies and the Axis, and 
this helped to win the war. This is an example of a basic scientific 
breakthrough that to great measure is responsible for the position in 
the world order that the United States has enjoyed since World War II.
    In 1946, given the radar breakthrough and given the fact that the 
United States did not know when to cross the English Channel to stage 
D-Day, the Congress realized that the Nation needed federally funded 
weather and ocean related research and development (R&D) and created 
the Office of Naval Research; which was so successful that the 
federally funded NSF was created in 1949. Subsequently, the United 
States became the world leader in R&D, its universities and industries 
became the most advanced in the world and thus the United States became 
the leading economic power of the world. This was not happenstance. 
This was the Congress building enabling capacity for the U.S. economy 
through the aggressive funding of advanced, innovative research and 
development. Advances derived from solar, atmospheric, oceanic, 
hydrologic, environmental, and data and information harvesting have and 
will drive expansion of the U.S. economic enterprise.
    Space weather research and forecasting is a jewel at the NOAA Space 
Environment Center. Sun storms interfere with the normal operation of 
communications, can cause large-scale blackouts and could shut down the 
Nation's GPS satellite system and thus the U.S. spatial referencing 
network. Without research advances in Space Weather, the Nation's 
military defenses and security, transportation systems, commerce, and 
competitiveness will be severely compromised.
    Recently, a NASA scientist developed a new mathematical method to 
process nonlinear and nonstationary data in his basic research and 
opened up an entire new field of data analysis and information 
harvesting. He was elected to the U.S. National Academy. However, the 
scientist has chosen to retire from NASA and has joined a university in 
Taiwan where the success rate for research proposals is 80-90 percent 
versus. United States rates of 10 percent. The United States has lost a 
National Academy member to a foreign country because of scarce U.S. 
research dollars.
    While recognizing that difficult budget decisions that must be made 
for the Nation's fiscal health, the President's proposed budget for 
these three agencies will serve the Nation well in advancing science 
and technology which will subsequently undergird the economy, security 
and well-being of the citizenry of the United States. Outlays in the 
natural and earth systems' science and technology programs of NOAA, 
NSF, and NASA will serve to improve and make the Nation's surface, air 
and marine transportation safer and more efficient, advance energy 
technology, provide the scientific and technological advances to help 
the defense industry better meet its technology needs, contribute to 
advances in public health, make the country more resilient to 
environmental hazards, provide agricultural, energy, and transportation 
sectors with seasonal outlooks, and create the knowledge base upon 
which society can make wise environmental management decisions. 
Environmental data collected and distributed by NASA, NSF, and NOAA 
represent a national resource and are used by universities for 
research, education, and outreach and especially by private industry to 
produce products and services.
    Ensuring homeland security, maintaining global communications, and 
informing the public of atmospheric and marine ecological health 
threats depend upon reliable science. Forecasting the onset, duration 
and effects of solar storms, atmospheric weather events, coastal 
storms, sea-level variability, toxic blooms, and seasonal climate 
conditions are dependent on sustainable growth of the science and 
technology that NOAA, NSF, and NASA sponsor and conduct. In addition, 
the fiscal year 2012 budget request will lead to the expansion of the 
private sector weather and seasonal and annual climate derivatives 
industry and thus create new jobs.
    We next comment on aspects of the agency budgets and needs of the 
scientific community.
                                  noaa
    NOAA provides important services to all Americans, services that 
are vital to our economy, national security, surface, marine and air 
transportation, human safety, and the health of human and marine 
ecological systems. Extreme weather events, like tornadoes, hurricanes, 
oppressive heat, heavy precipitation both wet and frozen, dust storms 
and drought, clearly demonstrate both the immediate and long-term 
impacts that weather and seasonal climate can have on a region. About 
$3 trillion or one-third of the U.S. economy, including industries as 
diverse as agriculture, finance, energy, insurance, transportation, 
real estate and outdoor recreation, is highly weather and seasonal-
climate sensitive. We support the establishment of the NOAA Climate 
Service as an economic imperative as private enterprise, public 
agencies, decisionmakers, and society require seasonal and annual 
climate outlooks based on solid science.
    NOAA's support of environmental research and education via 
Cooperative Institutes and programs such as the Oceanic and Atmospheric 
Research's Sea Grant and the Center for Sponsored Coastal Ocean 
Research are critical to university research, education and outreach. 
Similarly, NOAA's role in understanding the oceans and coastal areas 
and oceanic resources under-gird coastal economies.
    We do raise a major concern, the need for increased and sustained 
support of satellite and in situ environmental observing systems. As 
reported in several prior and recent National Research Council studies, 
(Observing Weather and Climate from the Ground Up, a Nationwide Network 
of Networks, NRC, 2009), the needs are particularly acute for urbanized 
areas as well as mountain, ocean, and coastal regions. Vertical 
profiles of variables such as water vapor, winds, and temperatures are 
virtually nonexistent over land and are nonexistent over water. Over 
land, the primary recommendation is for the placement of vertical 
profilers, vertically pointing radars, acoustic sounders, and LIDARs 
that collect vertical observations of wind and temperature from the 
ground up through the lower atmosphere.
    For the oceans, the Argo network needs attention and support as it 
begins to seriously age. In the case of coastal ocean regions, 
estuaries and the Great Lakes, a key recommendation is for the build-
out and major enhancement of the existing NOAA National Data Buoy 
Center (NDBC) atmospheric and coastal ocean-observing network and the 
Joint Polar Satellite System. The data collected are critical to many 
other NOAA missions, such as understanding supply of larvae of 
commercially important fisheries and trajectories of oil spills. A 
national network of profilers would greatly improve skill scores for 
forecasts, particularly for forecasts of heavy precipitation events and 
atmospheric chemistry conditions. Likewise, an enhanced and expanded 
NDBC network would address NOAA's proposed development of an ecological 
forecasting capability and also will greatly improve the skill scores 
of forecasting ocean and coastal weather-related phenomena such as 
precipitation amounts, types, and durations of gulf and Atlantic 
Nor'easters and west coast cyclones and rogue waves. Coastal ocean 
observing, via the existing NDBC network, is challenged to keep 
operations at present levels and cannot be enhanced with modern 
observing sensors without major capitalization.
                                  nasa
    In 2007, the NRC issued the report, ``Earth and Science 
Applications from Space: National Imperatives for the Next Decade and 
Beyond''. The report found that between 2000 and 2009, funding for 
Earth Sciences (ES) had fallen substantially. ES research is absolutely 
critical to understanding climate change, such as the decline of 
Earth's ice sheets and the health of the global oceans. Thus, BOAC is 
heartened by the administration's request for NASA's expanded and 
enhanced science mission. Past investments in NASA's science mission 
have funded university research, resulting in the development of new 
instruments and technologies and in valuable advances in weather 
forecasting, climate projections, and understanding of ecosystems.
    Without the tools developed at NASA or with agency support, 
scientists and the Nation would have only a fragmentary picture of the 
interconnected functioning of the planet's oceans, atmosphere, and 
land. The NASA data archive is a trove of environmental information 
that researchers have come to depend upon. Through its support for 
young scientists and graduate students, the NASA science mission 
supports innovation. BOAC supports the NASA budget and applauds the 
special attention that the White House has paid to the restoration of 
NASA science.
    We also hope that the Congress will fund NASA to lead in developing 
and implementing a scatterometer mission; with fast community access to 
the data, capability to distinguish between wind and rain and a higher 
orbit for coverage of Alaskan waters.
                                  nsf
    BOAC supports funding of NSF, which is critical to U.S. basic 
research. NSF supplies almost two-thirds of all Federal funding for 
university-based, fundamental research in the geosciences. Geosciences 
Directorate supported research increases our ability to understand, 
forecast, and respond to and prepare for environmental events and 
changes. Through facilities such as the Oceans Observatory Initiative, 
the Integrated Ocean Drilling Program, and National Center for 
Atmospheric Research/Wyoming supercomputer, NSF provides the academic 
community with advanced capabilities that it would not be able to 
afford if conducted through individual institutions.
About APLU
    APLU (formerly National Association for State Universities and Land 
Grant Colleges) is the Nation's oldest higher education association. 
Currently, the association has more than 200 member institutions 
located in all 50 States. APLU's overriding mission is to support 
affordable, high-quality public education through efforts that enhance 
the capacity of member institutions to perform traditional and 
innovative roles in teaching, research, and public service.
About BOAC
    BOAC's primary responsibility is to advance research and education 
in the oceanic/marine and atmospheric sciences through engaging 
scholars from its member institutions and through a robust Federal 
relations program. BOAC has approximately 200 regionally distributed 
members, including some of the Nation's most eminent research 
scientists, chief executive officers of universities, oceanic, 
atmospheric and hydrologic scientists, academic deans, and directors of 
Sea Grant programs.
    Thank you for taking time to review our recommendations.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) supports adequate 
funding for staffing antitrust enforcement and oversight at the 
Department of Justice (DOJ). For the DOJ Antitrust Division we support 
the President's fiscal year 2012 request of $166 million.
    APPA is the national service organization representing the 
interests of more than 2,000 municipal and other State and locally 
owned utilities in 49 States (all but Hawaii). Collectively, public 
power utilities deliver electricity to 1 of every 7 electric consumers 
(approximately 46 million people), serving some of the Nation's largest 
cities. However, the vast majority of APPA's members serve communities 
with populations of 10,000 people or less.
    The DOJ Antitrust Division plays a critical role in monitoring and 
enforcing antitrust laws affecting the electric utility industry. With 
the repeal of the Public Utility Holding Company Act (PUHCA) included 
in the Energy Policy Act of 2005, the electric utility industry has 
experienced an increase in mergers that could result in increased 
market power in certain regions. This development, coupled with the 
volatility and uncertainty continuing to occur in wholesale electricity 
markets run by regional transmission organizations, makes the oversight 
provided by DOJ more critical than ever.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2012 funding priority within the Commerce, Justice, 
Science, and Related Agencies Subcommittee's jurisdiction.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) wishes to submit the 
following testimony on the fiscal year 2012 appropriation for the 
National Science Foundation (NSF). ASM is the largest single life 
science organization in the world with more than 38,000 members. ASM's 
mission is to enhance the science of microbiology, to better understand 
life processes and to promote the application of this knowledge for 
improved health and environmental well-being.
    ASM strongly supports the administration's fiscal year 2012 NSF 
budget proposal of nearly $7.8 billion, a 13 percent increase more than 
the fiscal year 2010 level of spending. ASM thanks Members of Congress 
for their support of NSF and asks that the Congress continue to 
recognize NSF's contributions to U.S. research and development (R&D) in 
science and engineering, by approving the President's proposed fiscal 
year 2012 budget for the agency.
    ASM recognizes the many challenges ahead in the Federal budgeting 
process. However, ASM maintains that strong investment in science and 
technology will continue to show substantial returns on Federal 
investments. Moreover, strong investments in science are essential for 
the long-term vigor and vitality of the U.S. economy.
    For more than 60 years, NSF funding has stimulated innovation in 
the United States by providing support to researchers across the 
breadth of scientific and engineering disciplines. Approximately 95 
percent of the agency's budget goes directly to support research, 
research infrastructure, and STEM education (science, technology, 
engineering, and mathematics). Importantly, three-fourths of NSF 
funding is distributed each year to U.S. colleges, universities and 
academic consortia, through merit based, competitive grants that engage 
more than 210,000 people participating in funded research and education 
programs.
    The increased budget proposed for NSF programs will strengthen the 
American Competitiveness Initiative, the President's Plan for Science 
and Innovation and the NSF's 2011-2016 strategic plan that ``envisions 
a Nation that capitalizes on new concepts in science and engineering 
and provides global leadership in advancing research and education.'' 
NSF plays a unique role in building U.S. R&D capabilities and global 
competitiveness at a time when support from other sectors is shrinking. 
The NSF is the Nation's largest source of nonmedical academic research 
funding, providing 21 percent of the total Federal budget for basic 
research.
    NSF sponsors fundamental and transformative research that supports 
new, economically critical disciplines, such as nanotechnology, 
genomics, and information technology. For some vitally important 
fields, such as computer science and environmental science, NSF is the 
dominant funding source. NSF grants catalyze scientific inquiry by a 
diverse set of recipients ranging from more than 190 Nobel laureates to 
elementary school students participating in NSF-sponsored STEM 
activities. The agency estimates that in fiscal year 2012 more than 
302,000 people will be directly involved in NSF programs, including a 
large percentage of the Nation's female and underrepresented minority 
scientists and students.
                nsf directorate for biological sciences
    ASM endorses the fiscal year 2012 request of $794.5 million for 
NSF's Directorate of Biological Sciences (BIO), roughly 11 percent more 
than the enacted fiscal year 2010 funding level. This request includes 
support for the Directorate's Emerging Frontiers Initiative, which 
recognizes high-risk, cutting-edge research with the potential to 
transform U.S. science and technology. Through Emerging Frontiers and 
its core BIO programs, NSF provides about 68 percent of Federal funding 
for basic research in life sciences at the Nation's academic 
institutions.
    Understanding living organisms and systems directly contributes to 
improving our economy, agriculture, environment, and public health. 
Recent National Research Council reports have urged creative 
applications of ``the new biology'' to solve recalcitrant problems, 
such as balancing food security with clean energy needs and 
environmental impacts. BIO-supported research is uniquely positioned to 
provide answers, and to address national priorities, including climate 
science, biotechnology and sustainable energy, as well as control of 
infectious diseases. BIO also maintains a capacity to respond rapidly 
to urgent research needs as they arise. In the past year, for example, 
NSF provided $20 million for critically needed research on the 
biological impacts of the Gulf of Mexico oil spill. The fiscal year 
2012 budget request also highlights the Directorate's research 
portfolio within the NSF-wide Science, Engineering and Education for 
Sustainability (SEES) initiative, particularly clean-energy projects 
and cross-cutting projects within the research at the interface of the 
Biological, Mathematical and Physical Sciences (BioMaPS) program.
    The fiscal year 2012 BIO appropriation will help realize two of 
NSF's strategic goals, ``Transform the Frontiers'' and ``Innovate for 
Society.'' To illustrate, BioMaPS research areas will include advanced 
manufacturing techniques related to biosensors; new nanoscale 
technologies that collect data in real time; and the use of chemistry 
and engineering to build cellular systems for more efficient 
computational networks. Also in fiscal year 2012, BIO will begin 
operations of its new National Ecological Observatory Network (NEON), 
which will collect data across the United States on the impacts of 
climate change, land use change and invasive species. NEON will be the 
first observatory of its kind, able to forecast ecological change 
nationwide over multiple decades.
    Investments in the BIO Directorate consistently advance scientific 
knowledge with potential societal or economic benefits. BIO supported 
discoveries reported in the past year include:
  --soil microbes release less than expected carbon dioxide into the 
        atmosphere during climate warming;
  --bacteria communicate with chemical signals and when a critical 
        number of signaling molecules are detected on the bacteria cell 
        surface (quorum sensing), the collective bacteria coordinate 
        their attack on an infected host (suggesting new drug 
        regimens); and
  --certain methane-metabolizing bacteria can leech copper out of the 
        environment, thereby both cleaning up toxic waste and breaking 
        down the greenhouse gas methane.
    The NSF contributes to the fields of medical, agricultural, and 
environmental microbiology, which are important to public health, food 
security, biotechnology, and much more. An example is the Ecology of 
Infectious Disease (EID) Initiative managed jointly by NSF and the 
National Institutes of Health, which supports research that combines 
ecological and biomedical methods to study interactions between human 
caused changes in the environment and the emergence and transmission of 
infectious diseases. The most recently funded EID projects include 
livestock movement in Central Africa as related to transmission of foot 
and mouth disease virus, how climate and human behavior influence the 
spread of dengue fever-carrying mosquitoes, and biological and 
environmental factors that affect the spread of wheat stripe rust 
disease. In the past year, EID-supported investigators reported results 
from studies that examined, for instance:
  --the cross-species transmission of infectious diseases using a 
        rabies model; and
  --floating aggregates of organic material (called ``marine snow'') as 
        protective transports for pathogenic microorganisms, affecting 
        water sampling outcomes and the transmission of waterborne 
        diseases.
    Annual NSF investments deliver a steady stream of discoveries that 
help fight costly infectious diseases of humans, other animals, and 
plants. Recent NSF supported research findings include:
  --Stress-response genes in tuberculosis bacteria switch the pathogen 
        into its dormant state within an infected host, increasing 
        resistance to antibiotics and host immunity.
  --The corkscrew-shape of the bacterium Helicobacter pylori, linked to 
        ulcers and gastric cancer, is specifically tied to the 
        microbe's ability to colonize the acid-laden stomach.
  --Microbial pathogens can hijack nutrient pathways in rice plants by 
        using previously undiscovered plant cell pores that transport 
        sugar out of the plant. Other researchers found a genetic 
        mutation that allows plants to better withstand drought.
  --A nanotechnology based diagnostic test for Mycoplasma pneumoniae 
        can diagnose this common type of pneumonia within minutes, 
        versus current tests that take several days.
  --An international team will use a new technology called Major 
        Histocompatibility Complexes tetramers to develop novel 
        vaccines against cattle diseases that cause estimated annual 
        losses of $40 billion in sub-Saharan Africa, to quickly screen 
        potential vaccines in the laboratory.
   nsf directorates for geosciences, engineering, mathematical, and 
                           physical sciences
    ASM supports the administration's fiscal year 2012 proposed NSF 
funding for research activities at the Engineering Directorate (ENG), 
the Geosciences Directorate (GEO) and the Mathematical and Physical 
Sciences Directorate (MPS).
    The ENG Directorate recognizes the centrality of engineering 
principles and multidisciplinary research to national priorities, 
including sustainability, the U.S. cyberinfrastructure, next-generation 
manufacturing practices and technologies that mitigate environmental 
threats. ENG programs in clean energy and advanced manufacturing will 
also contribute to the fiscal year 2012 activities in the NSF-wide 
BioMaPS investment. Within the ENG request, the Division of Chemical, 
Bioengineering, Environmental and Transport Systems (CBET) will support 
sustainability research and education related to climate, water and 
energy as part of the agency wide SEES initiative.
    Increasingly, biology, and engineering are collaborating to find 
solutions to societal, environmental, and economic challenges. Recent 
NSF funded examples are:
  --computer modeling to predict how bacteria would respond to 
        different drug doses and which doses are most effective in 
        patients, to radically shorten drug development; and
  --potential drugs against HIV identified by combining optimization 
        theory from mathematics with computational biology, with a 
        formula based on statistical thermodynamics that predicts which 
        drug structure would be most effective.
    The Geosciences Directorate provides about 68 percent of Federal 
support for basic geosciences at the Nation's academic institutions, 
and is clearly a decisive player in research and education often 
ignored by other funding sources. GEO funds studies of the atmosphere 
and the oceans that increase our understanding of climate change, 
improve water quality and offer potential prediction of natural 
disasters, such as drought and earthquakes. Major fiscal year 2012 GEO 
investments will include continued participation in the SEES 
initiative, with the Division of Earth Sciences (EAR) leading GEO 
efforts toward clean energy and contributing to sustainability research 
networks. Current EAR funding opportunities also include paleobiology 
studies of past changes in the Earth's environments that might inform 
present-day challenges. In the past year, as examples, EAR supported 
studies concluded that cyanobacteria producing oxygen helped create a 
breathable atmosphere on Earth some 2.5 billion years ago; while 
comparisons of modern microbial mats with fossilized bacterial colonies 
provide clues to ancient cell biology.
    Many of today's innovations in science and technology are powered 
by increasingly complex mathematical and statistical capabilities. The 
modest fiscal year 2012 increase proposed, however, for the MPS 
Directorate is barely adequate to sustain MPS efforts that reach across 
NSF, for example, SEES and BioMaPS programs as well as the new 
Cyberinfrastructure Framework for 21st Century Science and Engineering. 
There have been extraordinary changes in how science is done:
  --explosions of data, the mandate for faster and larger networks 
        among researchers; and
  --rapidly advancing technologies, many of which rely upon MPS-funded 
        discoveries.
    NSF provides more than 60 percent of Federal support for basic 
mathematics at U.S. colleges and universities; in certain specialties, 
the percentage is much higher. In addition, MPS frequently coordinates 
with other NSF directorates in activities such as the quest for 
renewable fuels, biosensors, and advanced imaging. MPS and BIO recently 
issued a joint solicitation for grant proposals involving 
collaborations among investigators from the biological, mathematical 
and physical sciences that ``foster new interactions that span 
interfaces between MPS and BIO.''
                               conclusion
    ASM recommends that the Congress approve the administration's 
fiscal year 2012 budget for the NSF which is the only Federal agency 
that supports all fields of science and engineering. As the principal 
sponsor of research and education in multiple disciplines, NSF 
investment undoubtedly catalyzes innovation essential our society and 
economy. The agency's focus on high-risk, interdisciplinary research 
clearly traverses the frontiers of discovery. NSF programs, such as the 
new Integrated NSF Support Promoting Interdisciplinary Research and 
Education, uniquely encourage emerging fields, including synthetic 
biology. For decades, the NSF has helped train the next generation of 
scientists, engineers and mathematicians, and partnered industry and 
academia to generate a long list of new technologies and patented 
products. Congressional approval of the fiscal year 2012 budget would 
sustain the NSF's many contributions to the Nation's scientific 
achievements.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this testimony for the official record to support the requested 
level of $7.767 billion for the National Science Foundation (NSF) for 
fiscal year 2012. ASPB and its members recognize the difficult fiscal 
environment our Nation faces, but believe that investments in 
scientific research will be a critical step toward economic recovery.
    ASPB would like to thank the subcommittee for its consideration of 
this testimony and for its strong support for the research mission of 
the NSF.
    Our testimony will discuss:
  --Plant biology research as a foundation for addressing food, fuel, 
        environment, and health concerns;
  --The rationale for robust funding for NSF to maintain a well-
        proportioned science portfolio with support for all core 
        science disciplines, including biology; and
  --The rationale for continued support for NSF education and workforce 
        development programs that provide support for the future 
        science and technical expertise critical to America's 
        competitiveness.
    ASPB is an organization of approximately 5,000 professional plant 
biology researchers, educators, graduate students, and postdoctoral 
scientists with members in all 50 States and throughout the world. A 
strong voice for the global plant science community, our mission--
achieved through work in the realms of research, education, and public 
policy--is to promote the growth and development of plant biology, to 
encourage and communicate research in plant biology, and to promote the 
interests and growth of plant scientists in general.
    food, fuel, environment, and health--plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
all life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of energy security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of biological principles that underpin improvements in the health and 
nutrition of all Americans.
    In particular, plant biology is at the interface of numerous 
scientific breakthroughs. For example, with the increase in plant 
genome sequencing and functional genomics supported by the NSF, plant 
biologists are using computer science applications to make tremendous 
strides in understanding complex biological systems ranging from single 
cells to entire ecosystems. Understanding how plants work will 
ultimately result in better and more productive crops, new sources of 
fuel, and the development of better medicines to treat diseases like 
cancer.
    Despite the fact that basic plant biology research--the kind of 
research funded by the NSF--underpins so many vital practical 
considerations, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact plants have on our economy and in addressing some of the 
Nation's most urgent challenges such as food and energy security.
                       robust funding for the nsf
    ASPB encourages the subcommittee to fund NSF at robust levels that 
would keep NSF's budget on a doubling path over the next several years.
    The fiscal year 2012 NSF budget request would fund NSF at $7.767 
billion, keeping NSF budget on a path for doubling. ASPB supports this 
request and encourages proportional funding increases across all of the 
science disciplines supported by NSF. As scientific research becomes 
increasingly interdisciplinary with permeable boundaries, a diverse 
portfolio at NSF is needed to maintain transformational research and 
innovation.
    NSF funding for plant biology specifically enables the scientific 
community to address cross-cutting research questions that could 
ultimately solve grand challenges related to a sustainable food supply, 
energy security, and improved health. The idea that support for 
research in one area will impact a variety of applications is reflected 
in the National Research Council's report ``A New Biology for the 21st 
Century''.
    The NSF Directorate for Biological Sciences is a critical source of 
funding for scientific research, providing 68 percent of the Federal 
support for nonmedical basic life sciences research at U.S. academic 
institutions. The Biological Sciences Directorate supports research 
ranging from the molecular and cellular levels to the organismal, 
ecosystem, and even biosphere levels. These investments continue to 
have significant payoffs, both in terms of the knowledge directly 
generated and in deepening collaborations and fostering innovation 
among communities of scientists.
    The Biological Sciences Directorate's Plant Genome Research Program 
(PGRP) is an excellent example of a high-impact program, which has laid 
a strong scientific research foundation for understanding plant 
genomics as it relates to energy (biofuels), health (nutrition and 
functional foods), agriculture (impact of changing climates on 
agronomic ecosystems), and the environment (plants' roles as primary 
producers in ecosystems). ASPB asks that the PGRP be restored as a 
separate funding line within the NSF budget, as in years past, and that 
the PGRP have sustained funding growth over multiple years to address 
21st century challenges. For fiscal year 2012 ASPB asks that PGRP be 
funded at the highest-possible level.
    Without significant and increased support for the Biological 
Sciences Directorate and NSF as a whole, promising fundamental research 
discoveries will be delayed and vital collaborations around the edges 
of scientific disciplines will be postponed, thus limiting the ability 
to respond to the pressing scientific problems that exist today and the 
new challenges on the horizon. Addressing these scientific priorities 
also helps improve the competitive position of the United States in a 
global marketplace.
 continued support for nsf education and workforce development programs
    NSF is a major source of funding for the education and training of 
the American scientific workforce and for understanding how educational 
innovations can be most effectively implemented. NSF's education 
portfolio impacts students at all levels, including K-12, 
undergraduate, graduate, and postgraduate. Importantly, the Foundation 
also offers programs focused on outreach to and engagement of 
underrepresented groups and of the general public.
    The Integrative Graduate Education and Research Traineeship (IGERT) 
program is just one example of NSF's commitment to education. IGERT is 
successful in fostering the development of novel programs that provide 
multidisciplinary graduate training. As discussed above, it is at the 
intersections of traditional disciplines that the greatest 
opportunities for scientific advancement can be found. ASPB encourages 
expansion of the IGERT program in order to foster the development of a 
greater number of innovative science leaders for the future.
    Furthermore, ASPB urges the subcommittee to expand NSF's fellowship 
and career development programs--such as the Postdoctoral Research 
Fellowships in Biology, the Graduate Research Fellowship (GRF) and the 
Faculty Early Career Development (CAREER) programs--and, thereby, to 
provide continuity in funding opportunities for the country's most 
promising early career scientists. Additionally, such continuity and 
the broader availability of prestigious and well-supported fellowships 
may help retain underrepresented groups in the science, technology, 
engineering, and mathematics (STEM) fields. ASPB further encourages NSF 
to develop ``transition'' awards that will support the most promising 
scientists in their transition from postdoctoral research to full-time, 
independent, tenure-track positions in America's universities. NSF 
might model such awards after those offered by the National Institutes 
of Health and initially championed by private philanthropies such as 
the Burroughs Wellcome Fund.
    ASPB urges NSF to further develop programs aimed at increasing the 
diversity of the scientific workforce by leveraging professional 
scientific societies' commitment to provide a professional home for 
scientists throughout their education and careers and to help promote 
and sustain broad participation in the sciences. Discreet focused 
training and infrastructure support programs for Hispanic Serving 
Institutions, Historically Black Colleges and Universities, and Tribal 
Colleges and Universities remain vitally important, as they foster a 
scientific workforce that reflects the U.S. population. These 
institutions are key producers of members of the STEM workforce; 
therefore, ASPB recommends that distinct funding amounts be specified 
for Hispanic Serving Institutions, Historically Black Colleges and 
Universities, and Tribal Colleges and Universities.
    ASPB urges support for education research that enhances our 
understanding of how educational innovations can be sustainably 
implemented most effectively in a variety of settings. NSF programs 
such as Transforming Undergraduate Education in STEM, Discovery 
Research K-12, and Research and Evaluation on Education in Science and 
Education provide opportunities to expand NSF's research and evaluation 
efforts to address scale-up and sustainability. Increasingly, the 
challenge is not only to understand what works but to determine how it 
can be best put into practice. ASPB encourages continued support for 
education research programs within NSF's Education and Human Resources 
portfolio with a focus on understanding how previous investments in 
educational strategies can be made most effective. ASPB also encourages 
support for implementation of the recommendations made in the recent 
NSF-sponsored report on ``Vision and Change in Undergraduate Biology 
Education: A Call to Action''.
    The National Research Council report ``A New Biology for the 21st 
Century'' has been cited numerous times in its first year in 
publication as a model of societal needs and describes our continuing 
need to press ahead. These challenges will not be resolved in a year, 
an administration, or a generation, but will take continued attention 
and investment at Federal research agencies, such as the NSF, over 
decades.
    Thank you for your consideration of our testimony on behalf of 
ASPB. Please do not hesitate to contact us if we can be of any 
assistance in the future.
                                 ______
                                 
         Prepared Statement of the American Society for Quality
    Ms. Chairwoman and distinguished members of this subcommittee, my 
name is David Spong. I represent the Foundation for the Malcolm 
Baldrige National Quality Award, Inc., and I am a lifetime member as 
well as past chair of the Board of this Foundation. I am also the 
president of the American Society for Quality (ASQ) and would like to 
make you aware of a program that may seem small in size and funding but 
is very large in the way it affects our country, its citizens, 
companies, customers, and right now maybe most importantly, jobs.
    The Baldrige Performance Excellence Program is currently funded at 
$9.6 million annually based on the enacted fiscal year 2010 budget. 
President Obama's fiscal year 2012 budget recommends reducing funding 
for the program by $2.2 million from his fiscal year 2011 proposed 
level of $9.9 million or $1.9 million less than the fiscal year 2010 
enacted level. He further recommends a study during 2012 to explore 
alternative funding for the program. I am hopeful that the Congress 
doesn't make the same mistake in its budget. I will stress today how 
well the Baldrige program addresses the urgent need to make U.S. 
organizations stronger at the lowest-possible cost as well as the 
extent to which taxpayer's dollars are leveraged toward that goal in a 
way that is truly exemplary. So, my goal is to impress upon you that 
the Baldrige Program's funding should not be cut, and it should 
continue to be managed by National Institute of Standards and 
Technology (NIST).
    The Baldrige Performance Excellence Program was established in 1987 
as a result of Public Law 100-107 with the purpose of strengthening 
U.S. competitiveness. To show the importance of strengthening our 
competitiveness, the Baldrige Program was set up within NIST, an agency 
of the Department of Commerce, which, for more than a century, has 
helped lay the foundation for innovation, economic development, and 
quality of life in America. Although the Baldrige office guides the 
overall program, the program involves a public-private partnership 
where significant contributions for the program come from the 
Foundation for the Malcolm Baldrige National Quality Award, leveraging 
current Government funding.
    The Federal funding is in fact, only a small measure of the total 
amount of hours, funding, and value contributing to the Program. Yet 
the Government support is significant as it provides the integrity, 
consistency, and continuity the program needs and without an efficient 
and effectively managed program, the entire stakeholder system would 
collapse.
    As our country continues to discuss ways to meet the economic 
challenges and global competition facing our Nation and the necessity 
to make some concessions to help solve our national debt and deficit 
problems, we already have a program that benefits the United States by 
driving economic development through increasing business productivity, 
workforce efficiency, and job creation.
    The Baldrige Program was established to promote the awareness of 
performance excellence as an important element in competitiveness. It 
was envisioned as a standard of excellence that would help U.S. 
companies achieve world-class quality. From the outset, the Congress 
anticipated how applicable the Baldrige concepts would be for 
organizations beyond the business sector, and it since has expanded the 
Award to include the education, healthcare, and nonprofit sectors. The 
reach of the Program now expands to all sectors of the U.S. economy 
including Government, which I emphasize. I know our Government could 
improve and work more efficiently by using the Baldrige criteria. 
Baldrige is now accepted as a proven methodology to manage all types of 
organizations.
    It's the only U.S. public-private partnership dedicated to 
improving U.S. organizations so they can compete globally. It educates 
business, education, healthcare, and nonprofit organizations on best 
practices in performance excellence. In fact, studies by NIST, 
universities, business organizations, and the Government Accountability 
Office have found that the benefits to organizations using performance 
excellence approaches, such as the Baldrige Criteria, include increased 
productivity, improved profitability and competitiveness, and satisfied 
employees and customers. Award recipients have found that by applying 
the Baldrige Criteria they created a culture for change and excellence 
within their organizations that ultimately improved customer service, 
workforce morale, increased growth, profitability, and 
institutionalized a process for continuous learning and improvement.
    There is a misconception that the Baldrige Performance Excellence 
Program is primarily an awards program. While the Baldrige Performance 
Excellence Program is widely known for managing the Malcolm Baldrige 
National Quality Award, its main mission is to provide education and 
global leadership in promoting performance excellence. In fact, the 
awards are only the culmination of the evaluation process that scores 
of organizations undertake each year, both at the national level 
through the Baldrige Performance Excellence Program and through many 
nonfunded parallel State and local programs. These evaluations are 
supported by the efforts of thousands of volunteer experts who help 
these organizations improve their performance and competitiveness. It 
is estimated that these volunteers, leaders from all sectors or our 
economy, contribute more than 120 hours each annually, collectively 
149,000 hours, at a conservative estimate of value at $8.8 million, to 
improving U.S. organizations, as an act of patriotic service to their 
country. So, the Award may be the most visible part of the Program, but 
the intention was not to simply give out awards, but to establish role 
model organizations that would share their successful strategies with 
other U.S. businesses.
    The Baldrige is far more than just an awards program; it's a 
culture of performance excellence. While the Program has touched 
hundreds of thousands of American citizens in overwhelmingly beneficial 
ways, it directly provides a significant economic payback to America 
far in excess of the underlying cost of the program. An October 2001 
study of the economic impact of the Baldrige Program, prepared for NIST 
by economists Albert N. Link and John T. Scott, conservatively 
estimated the net private benefits associated with the Program to the 
economy as a whole at $24.65 billion. When compared to the social costs 
of the Program of $119 million, the Baldrige Program's social benefit-
to-cost ratio is 207-to-1 (Economic Evaluation of the Baldrige National 
Quality Program). In another 2004 study, ``Building on Baldrige: 
American Quality for the 21st Century'' it states, ``more than any 
other program, the Baldrige Award is responsible for making quality a 
national priority and disseminating best practices across the United 
States.'' The Baldrige Foundation has commissioned a reprise of the 
social benefit-to-cost ratio study this year, and it is expected that 
the return on investment will be even significantly higher since the 
last time the study was done.
    The Baldrige Program is a very strong example of an appropriate use 
of taxpayer dollars, and has a long-term track record of excellent 
return on taxpayer investment for the greater good of our Nation. The 
Foundation would not be financially capable of achieving the goals and 
mission of the effort. Currently, the Foundation leverages the total 
program funding by providing to the NIST and the Federal Government 
funding on average of $1.2 million to $1.5 million annually for the 
training of examiners, printing of the criteria, the award crystals, 
and award ceremony. The Foundation cannot financially support the day-
to-day staffing required to administer all the educational benefits 
this program provides and still maintain the integrity and patriotic 
element of the program if it were privatized.
    Beyond this, countless other organizations use the Baldrige 
Performance Excellence Criteria as a framework for improving their 
operations. The program has been emulated by numerous national award 
programs throughout the world, which use the Baldrige Criteria for 
their own national quality programs. Criteria are distributed at the 
rate of more than 2 million downloads per year on the Baldrige Program 
Web site. With that in mind, the Government is contributing just $5 per 
user of the Criteria. With the network of State and local programs 
reaching thousands of organizations at the local level and the Award 
recipients sharing their best practices all across the country, the 
small Government investment is leveraged into a national network that 
helps U.S. organizations improve performance, increase innovation, and 
ensure sustainability.
    Baldrige recipients serve as model organizations from which 
everyone else can learn and emulate. Through Baldrige, ``best 
practice'' becomes something more than ``I like your idea.'' It becomes 
documented, data driven, evidence-based examples of performance 
excellence. These examples reach every sector of the economy--
manufacturing, small business, service, healthcare, education, and the 
nonprofit sector (including public service).
    The Malcolm Baldrige National Quality Award and the Baldrige Award 
recipients constitute the visible centerpiece of the Baldrige Program. 
However, the Program's enabling legislation designates it as an 
outreach and education program designed to encourage performance 
excellence not only in applicants for the Award but also in a much 
broader base of organizations that do not apply for the Award.
    The Alliance for Performance Excellence, a 501(c)(3) nonprofit that 
represents 33 Baldrige-based State quality award programs nationwide, 
strongly supports the mission and continuity of the Baldrige 
Performance Excellence Program. The number of State and local, 
regional, and sector-specific award programs has grown tremendously. In 
1991, only eight State and local award programs existed. Today, there 
are 37 State and local, regional, and sector-specific quality award 
programs. These programs have been especially successful in reaching 
out to locally based small- and medium-size organizations. The State 
and local programs have become a feeder system to the Baldrige Award. 
In the last 14 years, 45 out of the 60 Baldrige Award recipients also 
have won their State's highest-level quality award. The State and local 
programs greatly extend the reach and impact of the Baldrige Program. 
State and local programs have distributed tens of thousands of paper 
and electronic copies of the Baldrige Criteria, including 20,788 paper 
copies in 2009 alone. The criteria at the State level are Baldrige-
based, with most being word-for-word copies. This has helped the 
Baldrige Performance Excellence Program reach a widespread audience.
    In addition to the State and local network, an international 
network has evolved and as of January 2010, there were 95 international 
quality/performance excellence awards (besides the Baldrige Program), 
most of which either use the Baldrige Criteria or some derivative of 
the Criteria.
    In keeping with the continuous improvement philosophy of the 
Baldrige Program, the Criteria are updated every 2 years through a 
consensus process to stay at the leading edge of validated management 
practice. The Criteria have evolved significantly over time to help 
organizations address a dynamic environment, focus on strategy-driven 
performance, and address concerns about customer and workforce 
engagement, governance and ethics, societal responsibilities, and long-
term organizational sustainability. The Criteria have continually 
progressed toward a comprehensive, integrated systems perspective of 
organizational performance management.
    It would send an unfortunate and misguided signal if we eliminated 
or reduced a program that our Government has supported for over two 
decades as the model in performance excellence. Certainly this is not 
the right message to our U.S. business organizations, educational 
institutions, healthcare organizations, and nonprofit/government 
agencies that have learned firsthand how beneficial the Program is. 
And, with the popularity the Program has gained globally, it would not 
be a positive message to other countries.
    I respectfully urge that you vote to invest in the Baldrige 
Program. The net return on the annual investment in the Program cannot 
only be measured in positive payback dollars, but in the sustainability 
of organizational performance excellence. Once you review the facts, 
I'm sure you will agree that the $10 million appropriation for the 
program is one of the best investments taxpayers can make to promote 
economic growth, improve America's competitiveness, and contribute to 
the goal of reducing our national debt and deficit.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    The Animal Welfare Institute very much appreciates this opportunity 
to offer testimony as the subcommittee considers fiscal year 2012 
funding priorities under the Commerce, Justice, Science, and Related 
Agencies Appropriations bill. This statement addresses activities under 
the Office of Justice Programs (OJP) of the Department of Justice 
(DOJ).
    We commend the DOJ's OJP for awarding, through its Bureau of 
Justice Assistance (BJA), a grant to the Association of Prosecuting 
Attorneys (APA) for its new program of training, technical support, and 
other assistance for prosecutors, members of the law enforcement 
community, and other involved parties to enhance the prosecution of 
animal abuse and animal fighting crimes. This is a very exciting 
development and we are proud to support APA in this new effort and to 
have been active participants in the two training conferences it has 
run so far. We respectfully urge the subcommittee to continue funding 
the BJA's National Animal Cruelty and Fighting Initiative and to 
encourage the Department's ongoing interest in addressing animal-
related crimes.
    The connection between animal abuse and other forms of violence has 
been firmly established through experience and through scientific 
studies. Among the most well-documented relationships is the one that 
exists between animal cruelty and domestic violence, child abuse, and 
elder abuse. For example, up to 71 percent of victims entering domestic 
violence shelters have reported that their abusers threatened, injured, 
or killed the family pet; batterers do this to control, intimidate, and 
retaliate against their victims. In just one recent case in Florida, a 
son brutally beat his elderly mother's dog in order to intimidate and 
manipulate her. Batterers threaten, harm, or kill their children's pets 
in order to coerce them into allowing sexual abuse or to force them 
into silence about abuse.\1\
---------------------------------------------------------------------------
    \1\ The study ``I'll only help you if you have two legs'', or Why 
human services professionals should pay attention to cases involving 
cruelty to animals by Loar (1999), as cited on the Web site of the 
National Coalition Against Domestic Violence (www.ncadv.org).
---------------------------------------------------------------------------
    It has also been shown that criminals and troubled youth have high 
rates of animal cruelty during their childhoods, perpetrators were 
often victims of child abuse themselves,\2\ and animal abusers move on 
to other crimes:
---------------------------------------------------------------------------
    \2\ ``Woman's Best Friend: Pet Abuse and the Role of Companion 
Animals in the Lives of Battered Women,'' by Flynn (2000), as cited at 
www.ncadv.org.
---------------------------------------------------------------------------
  --In 1997, the Massachusetts Society for the Prevention of Cruelty to 
        Animals (MSPCA) released the results of a review of animal 
        cruelty cases it had prosecuted between 1975 and 1996. Seventy 
        percent of the individuals involved in those cases had been 
        involved in other crimes, and animal abusers were five times 
        more likely to commit a violent offense against other people.
  --Researchers have found that pet abuse is 1 of 4 significant 
        predictors of intimate partner violence.\3\
---------------------------------------------------------------------------
    \3\ Walton-Moss, et al, ``Risk factors for intimate partner 
violence and associated injury among urban women''. Journal of 
Community Health, 30(5), 377-389 (2005).
---------------------------------------------------------------------------
  --In a 2010 study commissioned by the American Society for the 
        Prevention of Cruelty to Animals (ASPCA),\4\ 78 percent of the 
        law enforcement officers surveyed ``believe that animal abusers 
        are more likely to be involved in interpersonal violence and 
        other violent crimes.''
---------------------------------------------------------------------------
    \4\ ``Public and Professional Perspectives on Animal Cruelty'', 
December 2010 (www.aspca.org).
---------------------------------------------------------------------------
    Another all-too-common connection is the one between animal 
fighting (which includes both dog fighting and cockfighting) and gangs, 
drugs, illegal guns, and other offenses. The Animal Legal and 
Historical Center at the Michigan State University College of Law 
describes dog fighting in these stark terms:

    ``The notion that dogfighting is simply an animal welfare issue is 
clearly erroneous. Until the past decade, few law enforcement officials 
or government agencies understood the scope or gravity of dogfighting. 
As these departments have become more educated about the epidemic of 
dogfighting and its nexus with gang activity, drug distribution rings, 
and gambling networks, many have implemented well-designed, 
sophisticated task forces. The magnitude of criminal activity 
concurrently taking place at the average dogfight is of such a scope as 
to warrant the involvement of a wide range of agencies, including 
local, regional, and Federal law enforcement agencies and their 
specialized divisions such as organized crime units, SWAT teams, and 
vice squads, as well as animal control agencies and child protective 
services.''

    It is also worth noting that, as part of its initiative, BJA will 
be publishing a monograph that will address prosecutors' interest in 
animal fighting, and will report the results of two End Dogfighting 
programs run by the Humane Society of the United States. Based on the 
premise that the early identification of and intervention in animal 
fighting can help prosecutors and law enforcement reduce crime and 
interrupt the cycle of violence, the End Dogfighting program seeks to 
identify and reduce animal fighting and gang influences in at-risk 
communities by fostering more positive relationships between at-risk 
youth (many of whom are already gang members) and their dogs.
    Animal fighting, whether involving dogs, roosters, or other 
animals, is barbaric and is a violent crime in the truest sense of the 
term. It causes immense suffering to countless numbers of innocent 
animals and its presence threatens the safety of the entire community. 
It is illegal under both State and Federal law, so it well serves the 
entire community for law enforcement to have the most powerful tools 
possible to eradicate it.
    At the same time, it must be remembered that animal abuse is more 
than a ``gateway'' behavior. It is also a crime in its own right. It is 
a crime everywhere in the United States, and certain egregious acts are 
felonies in 46 States and the District of Columbia. But not all laws 
are created equal; activity that constitutes a felony in one State may 
still only be a misdemeanor in another. In some States, cruelty rises 
to a felony only upon a second or third offense, or only if the animal 
dies; if he survives, no matter how severe his injuries, it is still a 
misdemeanor.
    The key to offering animals the most protection possible, however 
weak or strong the statute, lies in vigorous enforcement of the law and 
prosecution of violators. While there are many in law enforcement and 
the courts who recognize animal abuse for the violent crime that it is 
and act accordingly, there are those who do not take it seriously, 
treating it as no more urgent than a parking infraction. Others 
genuinely want to act decisively but may lack the necessary resources, 
support, or expertise. Moreover, enforcement can be complicated by the 
laws themselves--weak laws are bad enough, but additional problems may 
arise from confusion over jurisdiction or limitations in coverage--or 
by pressure to dispose of cases quickly.
    This is where BJA's National Animal Cruelty and Animal Fighting 
Initiative comes in. It recognizes that animal cruelty and animal 
fighting crimes not only victimize some of the most innocent and 
vulnerable members of society, but also create a culture of violence--
and a cadre of violent offenders--that affects children, families in 
general, and society at large. Therefore, preventing and prosecuting 
these crimes will benefit not only the animals, but the entire 
community as well by reducing the overall level of violence.
    In order to support and enhance the effectiveness of prosecutors in 
their efforts to achieve this goal, the Association of Prosecuting 
Attorneys, with BJA's support, is implementing a program to provide the 
following:
  --training conferences and webinars;
  --publications;
  --technical assistance; and
  --online resources, including:
    --a library of briefs;
    --motions;
    --search warrants;
    --legal memos; and
    --State-by-State case law.
    It has assembled an advisory council composed of prosecutors, 
investigators, law enforcement, veterinarians, psychologists, members 
of the animal protection and domestic violence communities, and others, 
to identify issues, resource needs, and strategies. It brings these 
same professionals together to provide its multidisciplinary training, 
and also calls on them individually for topic-specific Web-based 
training and materials.
    All of this is directed toward two audiences: those who still need 
to be convinced of the importance of preventing and punishing animal-
related crimes, for the sake both of the animals and of the larger 
community; and those who are dedicated to bringing strong and effective 
cases against animal abusers but may need assistance to do so.
    OJP/BJA showed great vision in recognizing that by identifying 
precursor crimes, such as animal cruelty and animal fighting, and 
ensuring adequate adjudication of such cases, our criminal justice 
system can reduce the incidence of family and community violence and 
change the paths of potential future violent offenders. The National 
Animal Cruelty and Animal Fighting Initiative sends a very strong 
message to prosecutors and law enforcement that crimes involving 
animals are to be taken seriously and pursued vigorously, and offenders 
must be held accountable.
                                 ______
                                 
    Letter From Captain Randy Boggs, For-hire Recreational Fisherman
                                                    April 14, 2011.
Hon. Barbara A. Mikulski,
Chairman, Senate Appropriations Subcommittee on Commerce, Justice, 
        Science, and Related Agencies, Washington, DC.
Hon. Kay Bailey Hutchison,
Ranking Member, Senate Appropriations Subcommittee on Commerce, 
        Justice, Science, and Related Agencies, Washington, DC.

RE: National Oceanic and Atmospheric Administration's fiscal year 2012 
        budget request
    Dear Chairman Mikulski and Ranking Member Hutchison: My name is 
Randy Wayne Boggs and I appreciate the opportunity to voice support for 
the National Oceanic and Atmospheric Administration's (NOAA) request 
for $54 million in funding for the National Catch Share Program in 
fiscal year 2012. I also oppose any effort to prohibit funding for new 
catch shares in the United States.
    As you may know, the for-hire industry, including charter and head 
boats, provides access to millions of individual anglers in the Gulf of 
Mexico every year. I own five charter boats of which I personally 
operate one. I also manage the sale of fuel, bait, and ice at SanRoc 
Cay Marina in Orange Beach, Alabama for the recreational and charter 
for hire boats. Three of our vessels are engaged in party boat/head 
boat type fishing; this is where we place an individual or a small 
group together on the boat to go fishing. Since it is a large volume of 
people, we provide access to the fishery for a very modest fee.
    In the past I have served on ad hoc and advisory panels to the Gulf 
of Mexico Fishery Management Council. I have also served as vice 
president of the Orange Beach Fishing Association, and I hold three 
college degrees. I participate in the rulemaking process for Gulf of 
Mexico fisheries as much as possible.
    Due to the Deepwater Horizon oil spill in April 2010 we are faced 
with an uncertain future. Millions of gallons of crude oil were 
released into the Gulf of Mexico in the summer months of 2010 when the 
reef fish that form the majority of our catch were spawning. It is 
unknown how the oil spill will effect or has affected the spawn of fish 
in the Gulf of Mexico. As a fisherman this is a great concern to me and 
many others. We are already facing the shortest fishing season on 
record.
    We have seen the fishing industry suffer on the Atlantic coast with 
multiple closures for the recreational and charter for hire sectors. At 
the urging of the Council we are trying to become more accountable in 
our fishery. We have been working with the Council to develop a plan 
for the charter for-hire and head boat sectors so that we will not have 
to participate in a derby style fishery where we fish 52 days 
regardless of weather, fatigue and at less than a premium price for the 
access to a premium fishery.
    We are afraid if we continue in this derby fishery our seasons and 
bag limits will become so restrictive that we will be unable to 
continue as professional fishermen and we will have to seek some other 
way to make a living.
    We have developed a plan for the head boats and are asking the 
Council for a voluntary, pilot Individual Fishing Quota (IFQ) program, 
a type of catch share, which we have seen work in the commercial red 
snapper fishing fleet in the gulf. The price they receive for their 
fish has almost doubled. They have the freedom to manage their fish and 
fishery, work when sea conditions are safe and in a manner that 
promotes sustainable fishing for generations to come.
    It has taken many years to get these programs on the agenda with 
the Council and now with the budget crises we face an even more 
uncertain future if the administrations fiscal year 2012 catch share 
budget is not passed. The head boats certainly would not mind absorbing 
a portion of the cost of these programs, but if the administration has 
no money to monitor the programs all of our work would be in vain.
    An IFQ Program for the head boats would also improve the underlying 
data used for fisheries management by making the process computerized. 
Law enforcement fisheries management data would be provided in real 
time which has proven to be the saving grace of the commercial red 
snapper IFQ Program.
    Thank you for the opportunity to testify on this issue. If there is 
any additional information that I can provide I would welcome the 
opportunity to work with this subcommittee in any way possible. It is 
imperative that we keep the $54 million catch share budget that has 
been requested in the budget for 2012. There are far too many fishermen 
that have suffered through oil spills, hurricanes, bad weather, and a 
slow process in order to become accountable fishermen to let the 
funding for these programs fall to the way side.

                                               Captain Randy Boggs.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    The Columbia River Inter-Tribal Fish Commission (CRITFC) is pleased 
to share our views on the Department of Commerce National Oceanic and 
Atmospheric Administration (NOAA) Fisheries' fiscal year 2012 budget 
and has identified the following funding needs:
  --$26.6 million for the Columbia River Mitchell Act hatchery program 
        to implement reforms of which $6.7 million (or 25 percent of 
        the enacted amount) is directed to the tribes to enhance 
        supplementation (natural stock recovery) programs;
  --$11,603,000 for the Pacific Salmon Treaty Program, of which 
        $9,759,000 is for the implementation of the 2009-2018 
        agreement, and previous base programs, and $1,844,000 is for 
        the Chinook Salmon Agreement Implementation;
  --$110 million for the Pacific Coastal Salmon Recovery Fund to 
        support on-the-ground salmon restoration activities.
    Background.--The Columbia River Inter-Tribal Fish Commission was 
founded in 1977 by the four Columbia River treaty tribes:
  --Confederated Tribes of the Umatilla Indian Reservation;
  --Confederated Tribes of the Warm Springs Reservation of Oregon;
  --Confederated Tribes and Bands of the Yakama Nation; and
  --Nez Perce Tribe.
    CRITFC provides coordination and technical assistance to the tribes 
in regional, national, and international efforts to protect and restore 
the fisheries and fish habitat.
    In 1855, the United States entered into treaties with the four 
tribes.\1\ The tribes' ceded millions of acres of our homelands to the 
United States and the United States pledged to honor our ancestral 
rights, including the right to fish. Unfortunately, a long history of 
hydroelectric development, habitat destruction and overfishing by non-
Indians brought the salmon resource to the edge of extinction with 12 
salmon and steelhead trout populations in the Columbia River basin 
listed under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    Today, the CRITFC tribes' are among the most successful fishery 
managers in the country leading restoration efforts and working with 
State, Federal, and private entities. CRITFC has, and is currently 
updating, a plan that outlines principles and objectives designed to 
halt the decline of salmon, lamprey, and sturgeon populations and 
rebuild the fisheries to levels that support tribal ceremonial, 
subsistence and commercial harvests. To achieve these objectives, the 
plan emphasizes strategies that rely on natural production, healthy 
rivers, and collaborative efforts.
    Several key regional agreements were completed in 2008. The 
Columbia Basin Fish Accords set out parameters for management of the 
Federal Columbia River Power System for fish passage. New agreements in 
United States v. Oregon and the Pacific Salmon Commission established 
fishery management criteria for fisheries ranging from the Columbia 
River to southeast Alaska. The United States v. Oregon agreement also 
contains provisions for hatchery management in the Columbia River 
Basin. The terms of all three agreements run through 2017. We have 
successfully secured other funds to support our efforts to implement 
these agreements, including funds from the Bonneville Power 
Administration (BPA), the Department of the Interior, and the Southern 
Fund of the Pacific Salmon Treaty, to name just a few. Continued 
Federal funding support is needed to accomplish the management 
objectives embodied in the agreements.
    Columbia River (Mitchell Act) Hatchery Program.--Restoring Pacific 
salmon and providing for sustainable fisheries requires using the 
Columbia River Mitchell Act hatchery program to supplement naturally 
spawning stocks and populations. To accomplish this goal, $26.6 million 
is requested for the tribal and State co-managers to jointly reform the 
Mitchell Act hatchery program. Of this amount, $6.7 million, or 25 
percent of enacted funding, will be made available to the Columbia 
River Treaty Tribes for supplementation (natural stock recovery) 
programs. The Mitchell Act program provides regional economic benefits. 
NOAA--Fisheries estimates that the program generates about $38 million 
in income and supports 870 jobs.
    Since 1982, CRITFC has called for hatchery reform to meet recovery 
needs and meet mitigation obligations. In 1991, this subcommittee 
directed that ``Mitchell Act hatcheries be operated in a manner so as 
to implement a program to release fish in the upper Columbia River 
basin above the Bonneville Dam to assist in the rebuilding of upriver 
naturally spawning salmon runs.'' Since 1991, we have made progress in 
increasing the upstream releases of salmon including Mitchell Act fish 
that have assisted the rebuilding and restoration of naturally spawning 
of upriver runs of chinook and coho. These efforts need to continue.
    We now face the challenges of managing for salmon populations 
listed for protection under the ESA, while also meeting mitigation 
obligations. The Draft Environmental Impact Statement (DEIS) for 
operation of Columbia River basin hatcheries released by NOAA in 2010 
illustrates the conundrum we face. While the DEIS, which assumes level 
funding for Mitchell Act hatcheries, points out the need for hatchery 
reform, the implementation scenarios for the proposed alternatives to 
the status quo all call for substantial reductions in hatchery 
releases. From the tribal perspective the proposed alternatives will 
not result in the delisting of salmon populations or meet mitigation 
obligations. Under the proposed alternatives the future is increased 
regulation under the ESA, resulting in more constrained fisheries along 
the west coast. The funding for the Mitchell Act program should be 
increased along with natural stock recovery program reform 
(supplementation) so that we can make progress toward ESA delisting. 
This would transition the Mitchell Act program to a much more effective 
mitigation program.
    We support hatchery reform to aid in salmon recovery, while meeting 
mitigation obligations. The CRITFC tribes are leaders in designing and 
managing hatchery facilities to aid in salmon restoration and believe 
similar practices need to be implemented throughout the basin to reform 
current hatchery production efforts. Additional funding is necessary to 
reform Mitchell Act hatcheries to accomplish conservation and 
mitigation objectives. The administration's proposed fiscal year 2012 
funding level continues years of inadequate funding. The result is 
deteriorating facilities that do not serve our objectives.
    Evidence To Support Tribal Salmon Restoration Programs Under the 
Mitchell Act.--The tribes' approach to salmon recovery is to put fish 
back in to the rivers and protect the watersheds where fish live. 
Scientific documentation of tribal supplementation success is available 
upon request. The evidence is seen by the increasing returns of salmon 
in the Columbia River Basin. Wild spring chinook salmon are returning 
in large numbers in the Umatilla, Yakima, and Klickitat tributaries. 
Coho in the Clearwater River are now abundant after Snake River coho 
were declared extinct. Fish are returning to the Columbia River Basin 
and it is built on more than 30 years of tribal projects.
    Once considered for listing under the ESA where only 20,000 fall 
chinook returned to the Hanford Reach on the Columbia River in the 
early 1980s. This salmon run has been rebuilt through the 
implementation of the Vernita Bar agreement of mid-1980s combined with 
a hatchery program that incorporated biologically appropriate salmon 
that spawn naturally upon their return to the spawning beds. Today, the 
Hanford Reach fall chinook run is one of the healthiest runs in the 
basin. Supporting fisheries in Alaska, Canada, and the mainstream 
Columbia River, more than 200,000 fall chinook destined for the Hanford 
Reach returned to the mouth of the Columbia River 2010.
    In the Snake River Basin, fall chinook has been brought back from 
the brink of extinction. Listed as threatened under the ESA, the 
estimated return of naturally spawning Snake River fall chinook 
averaged 328 adults from 1986-1992. In 1994, fewer than 2,000 Snake 
River fall chinook returned to the Columbia River Basin. Thanks to the 
Nez Perce Tribe's modern supplementation program fall chinook are 
rebounding. Snake River fall chinook are well on their way to recovery 
and ESA delisting. More than 40,000 fall chinook made it past Lower 
Granite Dam in 2010. More than 10,000 of those fish were wild, nearly 
twice the previous record return since the dam was constructed in 1975.
    Pacific Salmon Treaty Program.--CRITFC supports the U.S. Section 
recommendation of $11,603,000 for Pacific Salmon Treaty implementation. 
Of this amount, $9,759,000 is for the Pacific Salmon Treaty base 
program with Alaska, Oregon, Idaho, Washington, and NOAA to share as 
described in the U.S. Section of the Pacific Salmon Commission's budget 
justification for fiscal year 2012. In addition, we support $1,884,000 
as first provided in 1997 to carry out necessary research and 
management activities to implement the abundance based management 
approach of the Chinook Chapter to the Treaty. The recommended amount 
represents an increase of about $4.1 million for the Pacific Salmon 
Treaty program for the States to implement the provisions and 
management and technical changes adopted by the United States and 
Canada in 1999 and continuing in the 2009-2018 agreement. These funds 
are subjected annually to a strict technical review process.
    Pacific Coastal Salmon Recovery Program (PCSRF)/Watershed 
Restoration.--Beginning in 1996, additional funding has been sought by 
the State of Alaska, the Pacific Northwest States, and the treaty 
tribes to serve critical unmet needs for the conservation and 
restoration of salmon stocks shared in these tribal, State, and 
international fisheries. The PCSRF program provides a significant role 
in accomplishing the goals of this shared effort. We recommend 
restoring the PCSRF fiscal year 2012 funding level to the fiscal year 
2002 appropriated level of $110 million. Long-term economic benefits 
can be achieved by making PCSRF investments on the ground to rebuild 
sustainable, harvestable salmon populations into the future.
    The State and tribal co-managers have responded to concerns raised 
by the Congress regarding accountability and performance standards to 
evaluate and monitor the success of this coast wide program. The co-
managers have developed an extensive matrix of performance standards to 
address these concerns which includes the use of monitoring protocols 
to systematically track current and future projects basin-wide. 
Tribally sponsored watershed projects are based on the best science, 
are competently implemented and adequately monitored, and address the 
limiting factors affecting salmon restoration. Projects undertaken by 
the tribes are consistent with CRITFC's salmon restoration plan and the 
programmatic areas identified by the Congress.
    Department of Justice (DOJ).--DOJ maintains tribal government-
specific grant programs administered by the Office of Justice Programs, 
the Office of Community Oriented Policing Services and the Office on 
Violence Against Women. These programs are critically important to the 
Commission's member tribes. The importance of theses programs was 
underscored by passage of the Tribal Law and Order Act, signed into law 
on July 29, 2010. Preserving the fiscal year 2010 enacted budget for 
these programs is vital to maintaining law enforcement programs of the 
Commission and its member tribes. We also support the Yakama Nation 
request for a DOJ needs assessment grant in fiscal year 2012.
    In summary, the CRITFC and its four-member tribes have developed 
the capacity and infrastructure to lead in restoring and rebuilding 
salmon populations of the Columbia Basin. Our collective efforts 
protect our treaty reserved fishing rights and we also partner with the 
non-Indian community to provide healthy, harvestable salmon populations 
for all citizens to enjoy. This is a time when increased effort and 
participation are demanded of all of us and we ask for your continued 
support of a coordinated, comprehensive effort to restore the shared 
salmon resource of the Columbia and Snake River Basins. We will be 
pleased to provide any additional information that this subcommittee 
may require.
                                 ______
                                 
         Prepared Statement of the Coastal States Organization
    The Coastal States Organization (CSO) is a nonpartisan, nonprofit 
organization that represents the interests of the Governors of the 35 
coastal States, territories, commonwealths, and Washington, DC. 
Established in 1970, CSO focuses on legislative and policy issues 
relating to the sound management of coastal, Great Lakes, and ocean 
resources and is recognized as the trusted representative of the 
collective interests of the coastal States on coastal and ocean 
management. For fiscal year 2012, CSO supports the following coastal 
programs and funding levels within the National Oceanic and Atmospheric 
Administration (NOAA):
  --Coastal Zone Management Program (Sec. Sec. 306/306A/309)--$70 
        million.
  --Coastal and Estuarine Land Conservation Program--$25 million.
    Every American, regardless of where he or she lives, is 
fundamentally connected to our coasts, oceans, and Great Lakes. These 
valuable resources are a critical framework for commerce, recreation, 
energy, environment, and quality of life. The U.S. economy is an ocean 
and coastal economy: though Federal investment does not reflect it, the 
oceans and coasts provide an irreplaceable contribution to our Nation's 
economy and quality of life. With sectors including marine 
transportation, tourism, marine construction, aquaculture, ship and 
boat building, mineral extraction, and living marine resources, the 
U.S. ocean-based sector alone provides $138 billion to U.S. Gross 
Domestic Product and more than 2.3 million jobs to our citizens. In 
addition, the annual contribution of coastal counties is in the 
trillions of dollars, from ports and fishing to recreation and tourism. 
In 2007, our Nation's coastal counties provided $5.7 trillion to the 
economy and were home to 108.3 million people on only 18 percent of the 
U.S. land area. If these counties were their own country, they would 
have the world's second-largest economy. Coasts and oceans also add to 
the quality of life of nearly one-half of all Americans who visit the 
seashore each year; the nonmarket value of recreation alone is 
estimated at more than $100 billion.
    Today, our Nation's coasts are as vital for our future as they are 
vulnerable. As a result of their increasing draw and economic vitality, 
we are exerting more pressure on our coastal and ocean resources. This 
demand, combined with an increase in natural hazards such as sea level 
rise, hurricanes and other flooding events, can be proven to show that 
the country is in danger of losing these invaluable assets. Despite the 
difficult budgetary times, we need to provide more funding and support 
for the key programs that are on the front lines of this daily battle, 
the programs utilizing the advances in coastal and ocean science, 
research, and technology to manage our coastal and ocean resources for 
future generations.
    Programs that are engaged in these important efforts and working to 
balance the protection of coastal and ocean resources with the need for 
sustainable development include the Coastal Zone Management program and 
the Coastal and Estuarine Land Conservation Program (CELCP). These 
programs reside within NOAA and provide direct funding or services to 
the States and territories, which account for a small portion of the 
total NOAA Federal budget. The funding for these programs is very cost-
effective, as these grants are matched by the States and are used to 
leverage significantly more private and local investment in our 
Nation's coasts. Increased funding for these programs that provide on-
the-ground services to our local communities and citizens is well worth 
the investment.
        coastal zone management program (Sec. Sec. 306/306a/309)
    CSO requests that these grants be funded at a level of $70 million, 
an amount just more than fiscal year 2010 enacted levels. This funding 
will be shared among the 34 States and territories that have approved 
coastal zone management programs. Pursuant to the Coastal Zone 
Management Act (CZMA), NOAA, and the States partner to implement 
coastal zone management programs designed to balance protection of 
coastal and ocean resources with the need for sustainable development 
of coastal communities. States have the flexibility to develop 
programs, policies and strategies that are targeted to their State 
priorities while advancing national goals. Under the CZMA program, the 
States receive grants from NOAA that are matched by the States and are 
used to leverage significantly more private and local investment in our 
Nation's coastal areas. These grants have been used to reduce 
environmental impacts of coastal development, resolve conflicts between 
competing coastal uses, and provide critical assistance to local 
communities in coastal planning and resource protection.
    The CZMA State grants have essentially remained level-funded for 10 
years, resulting in a decreased capacity in the State coastal zone 
management programs and less funding being granted out to local 
communities. An increase in funding to $91 million would mean level 
funding that accounts for inflation over the last 10 years and would 
provide an additional $300,000-$800,000 for each State and territory; 
however, CSO recognizes that the fiscal climate makes this type of an 
increase difficult if not impossible. Under the requested level of $70 
million of funding, States and territories would receive between 
$850,000 and just more than $2,000,000 to carry out their coastal 
management programs based on a formula accounting for shoreline miles 
and coastal population. The additional funding would also account for 
the addition of Illinois as a State with an approved coastal program 
(which is likely during fiscal year 2012). Illinois would be eligible 
to receive the maximum allotted funds of $2,000,000. Without an 
increase, the remaining 34 States would receive less funding than in 
previous years because of the additional State demand. With an increase 
to $70 million, States would not be punished for the addition of 
Illinois and could focus on activities that address coastal water 
pollution, work to conserve and restore habitat, help plan with and 
educate communities, provide for public access to the shore, and 
prepare to adapt to changing sea and lake levels and the threat of 
increasing storms. The following are a few examples of activities in 
Maryland and Texas that CZMA State grants have funded over the last 
year. These types of examples and more can be found around the Nation.
Maryland
    CZMA funding was utilized to launch Maryland's Coastal Atlas, an 
online mapping and modeling tool used to inform management decisions 
for the Chesapeake Bay, and coastal and ocean uses. From finding the 
best location for renewable energy projects to locating sand resources 
needed for beach replenishment to helping local communities identify 
areas vulnerable to sea level rise and erosion, the Atlas will assist 
users in identifying potential conflicts so that they can then be 
avoided early in the planning process.
    In response to sea level rise concerns, Maryland invested CZMA 
funding to develop computer models to assist local communities in 
evaluation of and planning for shoreline change. They directly assisted 
Queenstown, the city of Annapolis and Worcester, Dorchester, Somerset, 
Caroline, and Anne Arundel counties to plan for the anticipated impacts 
of sea level rise. The program also conducted hands-on training for 
marine contractors on shoreline protection techniques.
Texas
    CZMA funding was used to purchase approximately 10 acres of 
woodlands, known as the Henderson Tract, for habitat preservation and 
public access and education. The Henderson Tract is adjacent to 
approximately 1,500 feet of the existing Tule Creek system, an improved 
earthen drainage conveyance that carries stormwater runoff from the 
adjacent FM 3036-North drainage basin of the Tule Creek watershed and 
from there to Little Bay and Aransas Bay. The property will be operated 
as a nature preserve, with natural, easily maintained trails, and 
features such as in-stream and off-channel pools, shallow upland ponds, 
grassy swales, and low-impact development techniques that harvest and 
beneficially use runoff for wildlife and habitat.
    The Texas General Land Office established guidelines in 2010 for 
the development of local Erosion Response Plans (ERPs) that can 
incorporate a building set-back line. The guidelines for ERPs include 
provisions for prohibition of building habitable structures seaward of 
the building set-back line, exemptions for certain construction seaward 
of the set-back line, stricter construction requirements for exempted 
construction, improvements to and protection of public beach access 
points and dunes from storm damage, and procedures for adoption of the 
plans. Development of ERPs by several local governments using CZMA 
funding is underway.
    Several years ago and appropriate at the time, a cap of 
approximately $2 million was instituted to allow for funding to spread 
more evenly across the States and territories, so as to prevent most of 
the funding from going entirely to the larger, more heavily populated 
States. But, now, more than one-half of the States have met the cap and 
no longer receive an increase in funding, despite increased overall 
funding for CZMA State grants. Therefore, CSO requests that language be 
included in the appropriations bill declaring that each State will 
receive no less than 1 percent and no more than 5 percent of the 
additional funds over and above previous appropriations. As was 
provided for in fiscal year 2010, CSO requests that language be 
included in the appropriations bill that directs NOAA to refrain from 
charging administrative costs to these grants. This is to prevent any 
undue administrative fees from NOAA from being levied on grants 
intended for States.
                                 celcp
    CSO requests $25 million for CELCP. Authorized by the Congress in 
2002, CELCP protects ``those coastal and estuarine areas with 
significant conservation, recreation, ecological, historical, or 
aesthetic values, or that are threatened by conversion from their 
natural or recreational States to other uses.'' To date, the Congress 
has appropriated nearly $255 million for CELCP. This funding has 
allowed for the completion of more than 150 conservation projects, with 
more in progress. CELCP projects in 27 of the Nation's 35 coastal 
States have already helped preserve approximately 50,000 acres of the 
Nation's coastal treasures. All Federal funding has been leveraged by 
at least an equal amount of State, local, and private investments, 
demonstrating the broad support of the program, the importance of 
coastal protection throughout the Nation, and the critical role of 
Federal funding to its success.
    The preservation of coastal and estuarine areas is critical to both 
humans and the environment. These areas shield us from storms, protect 
us from the effects of sea-level rise, filter pollutants to maintain 
water quality, provide shelter, nesting and nursery grounds for fish 
and wildlife, protect rare and endangered species and provide access to 
beaches and waterfront areas. CELCP is the only program entirely 
dedicated to the conservation of these vital coastal areas.
    The demand for CELCP funding far outstrips what has been available 
in recent years. In the last 3 years, NOAA, in partnership with the 
States, has identified more than $270 million of vetted and ranked 
projects. As demand for CELCP funding has grown, the funding has not 
kept pace. Adequate funding is needed to meet the demand of the 
increasingly high-quality projects developed by the States and 
submitted to NOAA.
    This March, the CELCP program was formally authorized as part of 
H.R. 146, the Omnibus Public Lands Management Act of 2009, once again 
showing the broad, bi-partisan support for coastal and estuarine land 
conservation. In recognition of the significant demand for CELCP 
projects, H.R. 146 authorized the program at $60 million annually.
    CSO greatly appreciates the support of the subcommittee has 
provided in the past. Its support has assisted these programs in 
working together to protect our coasts and sustain our local 
communities. We hope you will take our requests into consideration as 
you move forward in the fiscal year 2012 appropriations process.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests an appropriation of $7.8 billion for the 
National Science Foundation (NSF) in fiscal year 2012. This is the same 
funding level contained in the President's fiscal year 2012 budget 
request and recommended by the bipartisan America COMPETES 
Reauthorization Act of 2010.
    As a federation of 23 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences, including the 
research funded by NSF, through service to its member societies and 
collaborative advocacy. FASEB enhances the ability of scientists and 
engineers to improve--through their research--the health, well-being, 
and productivity of all people.
    NSF is the only Federal research agency dedicated to supporting 
basic research and education across all fields of science and 
engineering. With just 4 percent of the Federal research and 
development budget, NSF funds more than 60 percent of nonbiomedical 
life science research at academic institutions in fields such as 
mathematics, geosciences, computer science, and social sciences. NSF 
also plays a significant role in advancing biological research; 42 
Nobel Prizes have been awarded to NSF-funded scientists for 
contributions in physiology or medicine. One of these Nobel Prizes was 
awarded for work that led to the development of magnetic resonance 
imaging, which is now a key diagnostic tool in hospitals around the 
world. NSF-funded research truly creates the foundation from which new 
technologies and therapeutics emerge.
    Through its rigorous peer-review that enables experts to identify 
only the best and most-promising research to be funded, NSF has a 
history of identifying scientific talent early and funding some of 
science's most important discoveries. For example, a team of 
researchers led by a NSF-funded synthetic biologist has genetically 
engineered yeast to produce a precursor to artemisinin, an effective 
anti-malaria drug. Before this scientific breakthrough, a slow and 
expensive process was required to extract the chemical from its natural 
source, the sweet wormwood plant. Researchers hope that scaled-up 
production of yeast-derived artemisinin will eventually provide an 
adequate and affordable supply of the drug to people worldwide. Using 
this groundbreaking technique, yeast and bacteria may soon be employed 
to synthesize other therapeutics, such as vaccines. Another example of 
NSF-funded research with medical applications is the use of robotics, 
information technology, and biomedicine to develop devices that 
revolutionize surgical procedures. Robotic arms remotely controlled 
through a system of levers and 3D high-resolution images of the 
operative site are enabling surgeons to execute more precise movements, 
reducing the physical impact of operations on patients, and shortening 
recovery time. The increased accuracy of robotically enhanced surgery 
has the potential to improve the effectiveness of treatments, such as 
the removal of cancerous tumors from the eye.
    NSF is also committed to achieving excellence in science, 
technology, engineering, and math education at all levels. The agency 
supports a wide variety of initiatives aimed at preparing science 
teachers, developing innovative curricula, and engaging students in the 
process of scientific discovery. One of many NSF programs to prepare 
future scientists, the Graduate Research Fellowship Program (GRFP) 
annually awards approximately 2,000 3-year fellowships to outstanding 
graduate students pursuing advanced degrees in science, technology, 
engineering, and or mathematics. NSF graduate research fellows are 
making important scientific contributions, including research to 
improve preclinical testing of artificial heart valves and a study to 
understand how neuronal networks enable the brain to carry out its 
problem-solving functions. Past recipients of NSF GRFP awards have gone 
on to become leading scientists and Nobel Prize winners. In this way, 
NSF helps foster creative thinking in science, engineering, and 
mathematics by supporting the next generation of researchers. Moreover, 
by funding research projects and education initiatives at institutions 
across the country, NSF ensures that future generations will be able to 
meet the technical demands of 21st century jobs.
    There is wide agreement that the Nation's future is inextricably 
linked to its capacity for innovation. The United States needs an 
educated populace, a cadre of world-class scientists and engineers, and 
a well-developed research infrastructure capable of supporting 
competitively funded research projects. Recent investment in NSF 
programs has resulted in new projects, increased graduate training, and 
an expanded capacity for innovation. Reduction of that effort would 
mean that fewer university researchers would receive support for 
critical research and education projects, jeopardizing the jobs of many 
scientists, engineers, and technical personnel. The NSF budget has both 
immediate and long-term consequences for the Nation's economy, 
security, and quality of life. Strong and sustained investment in NSF 
will enable the transformational research and training essential to the 
future success and competitiveness of the United States. Furthermore, 
because of the collaborative work of science agencies and the 
increasingly interdisciplinary nature of scientific research, support 
for the Federal research and development portfolio has never been more 
important to the Nation's prosperity.
    Thank you for the opportunity to offer FASEB's support for NSF.
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) urges the Congress to 
appropriate at least $7.767 billion for the National Science Foundation 
(NSF) in fiscal year 2012, an increase of $894 million or 13 percent 
compared with the fiscal year 2010 enacted level. This funding level is 
consistent with the President's fiscal year 2012 budget request for the 
NSF and the fiscal year 2012 authorized level of $7.8 billion under the 
America COMPETES Act.
    GSA supports strong and growing investments in Earth science 
research and education at NSF and other Federal agencies. Substantial 
increases in Federal funding for Earth science research and education 
are needed to ensure the health, vitality, and security of society and 
for stewardship of Earth. These investments are necessary to address 
such issues as energy resources, water resources, climate change, and 
natural hazards. Earth science research forms the basis for training 
and educating the next generation of Earth science professionals.
    GSA, founded in 1888, is a scientific society with more than 23,000 
members from academia, government, and industry in all 50 States and 
more than 90 countries. Through its meetings, publications, and 
programs, GSA enhances the professional growth of its members and 
promotes the geosciences in the service of humankind. GSA encourages 
cooperative research among Earth, life, planetary, and social 
scientists, fosters public dialogue on geoscience issues, and supports 
all levels of Earth science education.
                               rationale
    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal investments in 
scientific research pay substantial dividends. According to the 
National Academies' report ``Rising Above the Gathering Storm (2007)'', 
``Economic studies conducted even before the information-technology 
revolution have shown that as much as 85 percent of measured growth in 
U.S. income per capita was due to technological change.'' In 2010, the 
National Academies issued an updated report, ``Above the Gathering 
Storm, Revisited'', which says:

    ``It would be impossible not to recognize the great difficulty of 
carrying out the Gathering Storm recommendations, such as doubling the 
research budget, in today's fiscal environment . . . with worthy demand 
after worthy demand confronting budgetary realities. However, it is 
emphasized that actions such as doubling the research budget are 
investments that will need to be made if the Nation is to maintain the 
economic strength to provide for its citizens healthcare, social 
security, national security, and more. One seemingly relevant analogy 
is that a non solution to making an over-weight aircraft flight worthy 
is to remove an engine.''

    Likewise, the National Commission on Fiscal Responsibility and 
Reform, headed by Erskine Bowles and Alan Simpson, said:

    ``Cut and invest to promote economic growth and keep America 
competitive. We should cut redtape and unproductive government spending 
that hinders job creation and growth. At the same time, we must invest 
in education, infrastructure, and high-value research and development 
to help our economy grow, keep us globally competitive, and make it 
easier for businesses to create jobs.''

    The Earth sciences are critical components of the overall science 
and technology enterprise. Growing investments in Earth science 
research are required to stimulate innovations that fuel the economy, 
provide security, and enhance the quality of life. Substantial 
increases in Federal funding for Earth science research are needed to 
ensure the health, vitality, and security of society and for Earth 
stewardship. Earth science research provides knowledge and data 
essential for developing policies, legislation, and regulations 
regarding land, mineral, energy, and water resources at all levels of 
government.
        broader impacts of earth science research and education
    It is critically important to significantly increase NSF's 
investments in Earth science research and education to meet challenges 
posed by human interactions with Earth's natural system and to help 
sustain these natural systems and the economy. Increased investments in 
NSF's Earth science portfolio are necessary to address such issues as 
natural hazards, energy, water resources, and climate change.
  --Natural hazards--such as earthquakes, tsunamis, volcanic eruptions, 
        floods, droughts, and hurricanes--remain a major cause of 
        fatalities and economic losses worldwide. An improved 
        scientific understanding of geologic hazards will reduce future 
        losses through better forecasts of their occurrence and 
        magnitude. The devastating earthquake in Haiti on January 12, 
        2010, that killed more than 200,000 people, the damaging 
        earthquake in New Zealand on February 21, 2011, and the small 
        volcanic eruptions in Iceland that disrupted global air travel 
        in April 2010 emphatically demonstrate the need for increased 
        NSF investments in fundamental Earth science research that 
        stimulate innovations in natural hazards monitoring and warning 
        systems.
  --Energy and mineral resources are critical to the functioning of 
        society and to national security and have positive impacts on 
        local, national, and international economies and quality of 
        life. These resources are often costly and difficult to find, 
        and new generations of geoscientists need the tools and 
        expertise to discover them. In addition, management of their 
        extraction, use, and residue disposal requires a scientific 
        approach that will maximize the derived benefits and minimize 
        the negative effects. Improved scientific understanding of 
        these resources will allow for their better management and 
        utilization while at the same time considering economic and 
        environmental issues. This is particularly significant because 
        shifting resource demands often reframe our knowledge as new 
        research--enabling technologies become available. For example, 
        widespread deployment of clean-energy technologies can reduce 
        greenhouse gas emissions, mitigate climate change, and reduce 
        dependence on foreign oil. Many emerging technologies--such as 
        wind turbines, solar cells, and electric vehicles--depend on 
        rare Earth elements and other scarce elements that currently 
        lack diversified sources of supply. China accounts for 95 
        percent of world production of rare Earth elements although it 
        has only 36 percent of identified world reserves (U.S. 
        Geological Survey, 2010). A renewed Federal commitment to 
        innovative research and education on minerals is needed to 
        address these issues.
  --The availability and quality of surface water and groundwater are 
        vital to the well-being of both society and ecosystems. Greater 
        scientific understanding of these critical resources--and 
        communication of new insights by geoscientists in formats 
        useful to decisionmakers--is necessary to ensure adequate and 
        safe water resources for the future. NSF's new program 
        solicitation on water sustainability and climate is designed to 
        address major gaps in our basic understanding of water 
        availability, quality, and dynamics, and the impact of both a 
        changing and variable climate, and human activity, on the water 
        system.
  --Forecasting the outcomes of human interactions with Earth's natural 
        systems, including climate change, is limited by an incomplete 
        understanding of geologic and environmental processes. Improved 
        understanding of these processes in Earth's history can 
        increase confidence in the ability to predict future States and 
        enhance the prospects for mitigating or reversing adverse 
        impacts to the planet and its inhabitants.
  --Research in Earth science is also fundamental to training and 
        educating the next generation of Earth science professionals.
    Increased NSF investments in Earth science education at all levels 
are needed because knowledge of the Earth sciences is essential to 
science literacy and to meeting the environmental and resource 
challenges of the 21st century.
    Earth science research and education should be a component of 
broader initiatives to increase overall public investments in science 
and technology. For example, Earth science research should be included 
in a recommendation by the National Academies to ``increase the Federal 
investment in long-term basic research by 10 percent each year over the 
next 7 years . . .'' (Rising Above the Gathering Storm, 2007). 
Likewise, implementation of the America COMPETES Act, which authorizes 
a doubling of the budgets of key science agencies in 7 years, should 
encompass Earth science research and education.
      extraordinary scientific opportunities in the earth sciences
    In October 2009, NSF's Advisory Committee for Geosciences released 
a major report, GEO Vision: Unraveling Earth's Complexities Through the 
Geosciences. ``Society stands at a crossroads. With the growing 
problems of resource depletion, energy sustainability, environmental 
degradation, and climate change, we wonder if protecting the health of 
the planet while achieving widespread economic prosperity can become a 
reality'', the report says.
    The NSF report provides a vision for the future of research in the 
geosciences as focused on fostering a sustainable future through a 
better understanding of our complex and changing planet. The report 
articulates a path to achieving its vision. It recommends a new 
emphasis on interdisciplinary research in order to achieve reasoned and 
scientifically sound insights for policymakers. The challenges ahead 
for the geosciences, the report says, are understanding and forecasting 
the behavior of a complex and evolving Earth; reducing vulnerability 
and sustaining life; and growing the geosciences workforce of the 
future. Substantial increases in resources are needed to meet these 
challenges.
    Extraordinary scientific opportunities in the Earth sciences have 
been summarized in a series of reports, including:
  --Understanding Earth's Deep Past: Lessons for Our Climate Future 
        (National Research Council, 2011).
  --Landscapes on the Edge: New Horizons for Research in Earth Surface 
        Processes (National Research Council, 2010).
  --GEO Vision: Unraveling Earth's Complexities Through the Geosciences 
        (NSF Advisory Committee for Geosciences, 2009).
  --Seismological Grand Challenges in Understanding Earth's Dynamic 
        Systems (Incorporated Research Institutions for Seismology, 
        2009).
  --Origin and Evolution of Earth: Research Questions for a Changing 
        Planet (National Research Council, 2008).
  --Hydrology of a Dynamic Earth (Consortium of Universities for the 
        Advancement of Hydrologic Science, 2007).
  --Future Research Directions in Paleontology (Paleontological Society 
        and Society for Vertebrate Paleontology, 2007).
    NSF's Earth Sciences Division regularly receives a large number of 
exciting research proposals that are highly rated for both their 
scientific merit and their broader impacts, but many meritorious 
projects have not been funded due to budget constraints. Additional 
investments in Earth science research can have significant positive 
impacts on society.
    EarthScope is producing transformative science while being 
developed on time and on budget. When this major project was being 
developed, it was widely expected that the NSF budget would experience 
a sustained period of robust growth as indicated by the NSF 
Authorization Act of 2002 and the America COMPETES Act. If NSF's budget 
growth is not robust, some members of the Earth science community are 
concerned that EarthScope expenses could put downward pressure on 
budgets and success rates for other time-sensitive research 
opportunities in the Earth sciences.
                               conclusion
    The America COMPETES Act set the stage to double the NSF budget 
over 7 years. Despite overwhelming bipartisan support for the America 
COMPETES Act, appropriations for NSF fell short of the authorized 
doubling path in the regular appropriations bills for fiscal years 
2007-2011. NSF received $3 billion in economic stimulus funds under the 
American Recovery and Reinvestment Act of 2009. This one-time injection 
of funding was very helpful, but sustained growth in NSF's budget is 
needed to achieve the objectives of the America COMPETES Act.
    GSA recommends an appropriation of at least $7.767 billion for NSF 
in fiscal year 2012, an increase of $894 million or 13 percent compared 
with the enacted level for fiscal year 2010. This funding level is 
consistent with the President's fiscal year 2012 budget request of 
$7.767 billion for the NSF and the authorized funding level of $7.8 
billion under the America COMPETES Act.
    GSA is grateful to the Senate Appropriations Subcommittee on 
Commerce, Science, Justice, and Related Agencies for its past 
leadership in increasing investments in NSF and other science agencies. 
Thank you for your thoughtful consideration of our recommendations.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
    Dear Madam Chairman: On behalf of the Institute of Makers of 
Explosives (IME), I am submitting a statement for inclusion in the 
subcommittee's hearing record regarding the proposed fiscal year 2012 
budget for the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF) regulatory program for the commercial explosives industry.
                          interest of the ime
    IME is a nonprofit association founded in 1913 to provide accurate 
information and comprehensive recommendations concerning the safety and 
security of commercial explosive materials. IME represents U.S. 
manufacturers, distributors, and motor carriers of commercial explosive 
materials and oxidizers as well as other companies that provide related 
services. The majority of IME members are ``small businesses'' as 
determined by the Small Business Administration.
    Millions of metric tons of high explosives, blasting agents, and 
oxidizers are consumed annually in the United States. These materials 
are essential to the U.S. economy. Energy production, construction, and 
other specialized applications begin with the use of commercial 
explosives. IME member companies produce 99 percent of these 
commodities. These products are used in every State and are distributed 
worldwide. The ability to manufacture, distribute, and use these 
products safely and securely is critical to this industry.
    The production, distribution, transportation, storage, and use of 
explosives are highly regulated by a myriad of Federal and State 
agencies. ATF plays a predominant role in assuring that explosives are 
identified, tracked, and stored only by authorized persons. We have 
carefully reviewed the administration's fiscal year 2012 budget request 
for ATF, and have the following comments about its potential impact on 
the commercial explosives industry.
           atf's explosives regulatory program budget request
    The administration's fiscal year 2012 budget request proposes to 
decrease resources devoted to ATF's regulation and oversight of 
explosives industries by 23 full-time equivalent (FTE), a 6 percent 
reduction, from 383 FTE and 360 FTE, for a savings of $5.9 million.\1\
---------------------------------------------------------------------------
    \1\ Fiscal Year 2012 ATF Budget Submission, page 41.
---------------------------------------------------------------------------
    We understand the current urgency to address the Federal budget 
deficit. We understand the shared sacrifice that all segments of the 
Government are asked to make to help the economy recover by spurring 
job growth and investment. Yet, Members of Congress understand that 
budgetary cuts to the bureaucracy should not cut essential services. By 
law, ATF must inspect explosives licensees and permittees at least once 
every 3 years. During the last full fiscal year, ATF conducted more 
than 4,000 such compliance inspections and identified 1,620 public 
safety violations.\2\ In addition to this workload, ATF must process 
applications for new explosives licenses and permits as well as those 
submitted for renewal of existing licenses and permits. Nearly 3,000 
applications were processed during the last full fiscal year.\3\ The 
agency must also conduct inspections of all new applicants. More than 
1,000 new applicants needed to be inspected last fiscal year.\4\ These 
are significant workload indicators. Without approved licenses and 
permits from ATF, the industry would collapse and with it major 
segments of the economy that are dependent on these products and 
materials.
---------------------------------------------------------------------------
    \2\ Fiscal Year 2012 ATF Budget Submission, page 35.
    \3\ Fiscal Year 2012 ATF Budget Submission, page 35.
    \4\ Fiscal Year 2012 ATF Budget Submission, page 35.
---------------------------------------------------------------------------
    At the same time, the Government Accountability Office (GAO) 
recently released a report identifying unnecessary duplication in 
Government programs.\5\ Among the programs highlighted were those of 
the ATF and the Federal Bureau of Investigation (FBI) that relate to 
explosives incidents. As early as 2004, duplication and overlap were 
identified in the areas of investigations, training, information 
sharing and use of databases, and laboratory forensic analysis. While 
plans for consolidating and eliminating redundancies were to begin last 
November, the GAO recommended that the Congress monitor progress to 
ensure that ``the plans have their intended effect and are enforced.''
---------------------------------------------------------------------------
    \5\ ``Opportunities to Reduce Potential Duplication in Government 
Programs, Save Tax Dollars, and Enhance Revenue'', GAO, March 2011, 
pages 101-104, http://www.gao.gov/new.items/d11318sp.pdf.
---------------------------------------------------------------------------
    The costs attributable to these duplicative explosives enforcement 
activities far exceeds the cost-savings ATF expects to realize from the 
cuts to its regulatory compliance program for the explosives industry. 
As the subcommittee considers ATF's budget request, we ask that ATF's 
ability to perform its regulatory oversight of the explosives industry 
in a timely fashion not be compromised in the push for fiscal 
discipline when other areas of duplication and overlap are ripe for 
reform.
                       atf's regulatory workload
    In the last 10 years, ATF has issued nine rulemakings of importance 
to IME (including two interim final rules). It has finalized three and 
withdrawn one. Of the five rulemakings still pending, the oldest dates 
to 2001. In the absence of a process to ensure timely rulemaking that 
is capable of keeping up with new developments and safety practices, 
industry must rely on interpretive guidance and variances from outdated 
requirements in order to conduct business. While we greatly appreciate 
the ATF's accommodations, these stop-gap measures do not afford the 
continuity and protections that rulemaking would provide the regulated 
community, nor allow the oversight necessary to ensure that all parties 
are being held to the same standard of compliance. These regulatory 
tasks are critical to the lawful conduct of the commercial enterprises 
that the ATF controls. ATF should be provided the resources to make 
timely progress in this area.
                           industry standards
    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements.\6\ We continue to fulfill this obligation through our 
development of industry best practices for safety and security, 
membership in relevant standard-setting organizations, and active 
participation in forums for training. We have offered ATF 
recommendations that we believe will enhance safety and security 
through participation in the rulemaking process, in the ATF's important 
research efforts, and in other standard-setting activities.
---------------------------------------------------------------------------
    \6\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
    In this regard, IME has spent years developing and validating a 
credible alternative to strict interpretation of quantity-distance 
tables used to determine safe setback distances from explosives. IME 
collaborated with the Department of Defense Explosives Safety Board 
(DDESB) and Canadian and U.S. regulatory agencies, including ATF. The 
result is a windows-based computer model for assessing the risk from a 
variety of commercial explosives activities called Institute of Makers 
of Explosives Safety Assessment for Risk (IMESAFR).\7\ Not only can 
IMESAFR determine the amount of risk presented, but it can also 
determine what factors drive the overall risk and what actions would 
lower risk, if necessary. The probability of events for the activities 
were based on the last 20 years experience in the United States and 
Canada and can be adjusted to account for different explosive 
sensitivities, additional security threats, and other factors that 
increase or decrease the base value. Following this effort, ATF is 
starting to recognize that this powerful assessment tool has potential 
to help the ATF meet its statutory mandate to ensure safety through 
quantity-distance limitations. ATF has taken advantage of opportunities 
to partner with IME and is evaluating existing locations with this 
risk-based approach. The benefits of risk-based modeling should be 
recognized and ATF should be provided resources to develop policies 
that allow the use such models to meet regulatory mandates.
---------------------------------------------------------------------------
    \7\ IMESAFR was built on the DDESB software model, SAFER. The DDESB 
currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities.
---------------------------------------------------------------------------
                               leadership
    The resolution of these issues may have to wait the appointment of 
a new ATF Director. ATF has been without a Director since August 2006. 
We support President Obama's nomination of Andrew L. Traver for this 
position.\8\ We hope that the Senate will act timely on this 
nomination. ATF has been too long without permanent leadership.
---------------------------------------------------------------------------
    \8\ Received in the Committee on the Judiciary, United States 
Senate, January 5, 2011, PN44.
---------------------------------------------------------------------------
                               conclusion
    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the critical 
role ATF plays in helping our industry achieve and maintain safe and 
secure workplaces. Industry and the public are dependent on ATF having 
adequate resources to fulfill its regulatory responsibilities. It is up 
to the Congress and, in particular, this subcommittee to ensure that 
ATF has the resources it needs. We strongly recommend full funding for 
ATF's explosives program.
                                 ______
                                 
              Prepared Statement of the Innocence Project
    Thank you for the opportunity to submit testimony on behalf of the 
Innocence Project to the Senate Appropriations Subcommittee on 
Commerce, Justice, Science, and Related Agencies as it considers 
program funding for fiscal year 2012. Innocence Project respectfully 
requests funding for the following programs at the described levels:
  --Paul Coverdell Forensic Sciences Improvement Grant Program (the 
        ``Coverdell Program'') at $35 million through the Department of 
        Justice, National Institute for Justice (NIJ);
  --Kirk Bloodsworth Post-Conviction DNA Testing Program (the 
        ``Bloodsworth Program'') at $5 million through the NIJ; and
  --The Capital Litigation Improvement Grant Program at $12.5 million, 
        including $10 million for the Wrongful Conviction Review 
        Program, through the Department of Justice, Bureau of Justice 
        Assistance (BJA).
    The Innocence Project represents convicted persons who seek to 
prove their innocence through postconviction DNA testing. To date, 268 
men and women have been exonerated by such testing nationwide. The 
mission of the Innocence Project is to free innocent people and prevent 
wrongful convictions through reform. Yet it is important to note that 
this work has tremendous benefit for public safety. First, every time 
DNA identifies a wrongful conviction, it enables the identification of 
the real perpetrator of those crimes. Indeed, the true perpetrators 
have been identified in more than 40 percent of the DNA exoneration 
cases. There is a double benefit from the reforms that can prevent 
wrongful convictions: they also enhance the accuracy of criminal 
investigations and prosecutions, and thus strengthen them. Because 
these programs increase public safety and access to justice, Innocence 
Project requests continued funding in fiscal year 2012.
                           coverdell program
    Recognizing the need for independent government investigations in 
the wake of forensic problems, the Congress created the forensic 
oversight provisions of the Coverdell Program, which provides State and 
local crime laboratories and other forensic facilities with much needed 
Federal funds. Specifically, in the Justice for All Act (JFAA), the 
Congress required that ``[t]o request a grant under this subchapter, a 
State or unit of local government shall submit to the Attorney General 
. . . a certification that a government entity exists and an 
appropriate process is in place to conduct independent external 
investigations into allegations of serious negligence or misconduct 
substantially affecting the integrity of the forensic results committed 
by employees or contractors of any forensic laboratory system, medical 
examiner's office, coroner's office, law enforcement storage facility, 
or medical facility in the State that will receive a portion of the 
grant amount.'' \1\
---------------------------------------------------------------------------
    \1\ 42 U.S.C. Sec. 3797k(4).
---------------------------------------------------------------------------
    The congressional mandate under the Coverdell Program was a crucial 
step toward ensuring the integrity of forensic evidence. Now, more than 
ever, as forensic science budgets find themselves on the chopping block 
in State legislatures all over the country, their very survival may be 
dependent upon these Federal funds. With such import and capacity for 
positive action, we ask that you fund the Coverdell Program at $35 
million.
                          bloodsworth program
    The Bloodsworth Program provides hope to wrongfully convicted 
inmates who might otherwise have none by helping States pursue 
postconviction DNA testing for viable claims of innocence. These funds 
already have begun to demonstrate a positive impact that has led to 
much success, one measure of which is the fact that Bloodsworth program 
funds already have enabled the exoneration of two people, with many 
more cases being actively pursued by State partnerships under this 
funding stream. Many organizational members of the national Innocence 
Network have partnered with State agencies that have received 
Bloodsworth funding.\2\ According to the Innocence Network's President, 
Keith Findley, the Bloodsworth Program ``will dramatically improve the 
ability of Innocence Network members to meet the tremendous need for 
post-conviction DNA testing. Many of the projects funded under the 
Bloodsworth Program will enable projects in various states to 
proactively search for . . . cases in which DNA testing can prove guilt 
or innocence, but which are otherwise overlooked or hidden.'' \3\
---------------------------------------------------------------------------
    \2\ The Innocence Network is an affiliation of organizations 
dedicated to providing pro bono legal and investigative services to 
individuals seeking to prove innocence of crimes for which they have 
been convicted and working to redress the causes of wrongful 
convictions.
    \3\ Strengthening Our Criminal Justice System: Extending the 
Innocence Protection Act. 111th Cong., 1st Sess., 10 (2009) (testimony 
of Keith Findley, President of the Innocence Network).
---------------------------------------------------------------------------
    The Bloodsworth Program does not fund the work of the Innocence 
Project directly. In fact, the Office of Justice Programs has 
encouraged State applicants to draft proposals that fund a range of 
entities involved in settling innocence claims, from law enforcement 
agencies to crime laboratories. Additionally, the Bloodsworth Program 
has fostered the cooperation of innocence projects and State agencies. 
For example, with its fiscal year 2008 award, the Arizona Justice 
Project, in conjunction with the Arizona Attorney General's Office, 
began the Post-Conviction DNA Testing Project. Together, they have 
canvassed the Arizona inmate population, reviewed cases, worked to 
locate evidence and filed joint requests with the court to have 
evidence released for DNA testing. In addition to identifying the 
innocent, Arizona Attorney General Terry Goddard has noted that the 
``grant enables [his] office to support local prosecutors and ensure 
that those who have committed violent crimes are identified and behind 
bars.'' \4\ Such joint efforts have followed in Connecticut, Louisiana, 
Minnesota, North Carolina, and Wisconsin.
---------------------------------------------------------------------------
    \4\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167/Arizona-receives-Federal-DNA-grant.htm 
(last visited March 11, 2011).
---------------------------------------------------------------------------
    The Bloodsworth Program is a relatively small yet powerful 
investment for States seeking to identify and free innocent people who 
were erroneously convicted. As such, we ask that you fund the 
Bloodsworth Program at $5 million.
                   wrongful conviction review program
    Particularly when DNA isn't available, or when it alone isn't 
enough to prove innocence, being able to prove one's innocence to a 
level sufficient for exoneration is even harder than ``simply'' proving 
the same with DNA evidence. These innocents languishing behind bars 
require expert representation to help navigate the complex issues that 
invariably arise in their bids for postconviction relief. And the need 
for such representation is enormous; only a small fraction of cases 
involve evidence that could be subjected to DNA testing (for example, 
it is estimated that even among murders, only 10 percent of cases have 
the kind of evidence that could be DNA tested). Thus for the wrongfully 
convicted who have strong evidence of innocence, yet no ability to use 
postconviction DNA testing to enable their freedom, the effective 
review of their cases can enable a wrongful conviction to be righted, 
and pursuit of the real perpetrator to continue.
    Realizing the imperative presented by such cases, the BJA carved-
out of its Capital Case Litigation Initiative funding to create the 
Wrongful Prosecution Review (now the Wrongful Conviction Review) 
discretionary grant program.\5\ The program provides applicants--
nonprofit organizations and public defender offices focused on 
exonerating the innocent--with support for quality, efficient 
representation in order to pursue the strongest claims of wrongful 
conviction by those for whom postconviction DNA testing is not 
available to establish their innocence.
---------------------------------------------------------------------------
    \5\ Reauthorization of the Innocence Protection Act. 111th Cong., 
1st Sess., 8 (2009) (testimony of Lynn Overmann, Senior Advisor, Office 
of Justice Programs).
---------------------------------------------------------------------------
    The program's benefits, in addition to exonerating the innocent, 
are significant: to alleviate burdens placed on the criminal justice 
system through costly and prolonged postconviction litigation and to 
identify, whenever possible, the actual perpetrator of the crime. Above 
all, though, this program forms a considerable piece of the 
comprehensive Federal package of innocence protection measures created 
in recent years; without it, a great deal of innocence claims might 
otherwise fall through the cracks. Accordingly, we urge you to fund the 
Wrongful Conviction Review Program through the BJA at $10 million.
additional notes on the department of justice's (doj) requested budget 
                          for fiscal year 2012
    DOJ's fiscal year 2012 budget request does not specifically include 
two of the above programs--the Coverdell and Bloodsworth programs. It 
is unclear from the budget request whether these programs would be 
rolled into the much broader ``DNA Initiative'' for a requested funding 
level of $110 million. Regardless, it is crucial that these two 
programs be specifically identified and funded in fiscal year 2012.
    In addition to the critical need for funding for these programs, 
especially during this time of significant economic downturn for 
States, Innocence Project is concerned about the impact that ``block-
granting'' the Bloodsworth and Coverdell programs within DOJ's DNA 
Initiative would have on the requirements and incentives that these 
programs provide to prevent wrongful convictions and ensure the 
integrity of evidence.\6\ These incentives have proven significant for 
the advancement of State policies to prevent wrongful convictions. 
Indeed, the Coverdell Program forensic oversight requirements have 
created in States nationwide entities and processes for ensuring the 
integrity of forensic evidence in the wake of the forensic scandals 
that have undermined public faith in forensic evidence. The Coverdell 
Program oversight requirements are essential to ensuring the integrity 
of forensic evidence in the wake of identified acts of forensic 
negligence or misconduct.
---------------------------------------------------------------------------
    \6\ Of course, the other section 413 programs once reauthorized and 
appropriated under section 413 will add to these incentives.
---------------------------------------------------------------------------
    Therefore, Innocence Project requests that the Congress maintain 
and specifically fund both the Bloodsworth and Coverdell programs in 
order to preserve their important incentive and performance 
requirements. Doing away with these requirements would thwart the 
intent of the Congress, which was to provide funding only to States 
that demonstrate a commitment to preventing wrongful convictions in 
those areas.
                               conclusion
    Thank you so much for your time and consideration of these 
important programs, and the opportunity to submit testimony. We look 
forward to working with the subcommittee this year.
                                 ______
                                 
    Prepared Statement of the Independent Tribal Courts Review Team
    Thank you for the opportunity to testify today and to address the 
serious funding needs that have limited and continue to hinder the 
operations of tribal judicial systems in Indian country. I am the lead 
judge representing the Independent Tribal Court Review Team. I am here 
today to provide justification for increased funding for tribal courts 
in the Department of Justice (DOJ), Office of Justice Programs for the 
tribal courts Assistance Program. We thank this subcommittee for the 
additional $10 million funding in fiscal year 2010. These funds were a 
blessing to tribes. Even minimal increases were put to good use. It is 
the strong recommendation of the Independent Tribal Courts Review Team 
that the Federal tribal courts budget be substantially increased in 
fiscal year 2012 to support the needs of tribal judicial systems.
Budget Priorities, Requests, and Recommendations
  --+$10 million increase for tribal courts above the fiscal year 2010 
        enacted level.
  --+$58.4 million authorized under the Indian Tribal Justice Act of 
        1993, Public Law 103-176, 25 U.S.C. 3601 and re-authorized in 
        the fiscal year 2000 Public Law 106-559 (no funds have been 
        appropriated to date).
    The increase will support:
  --Hiring and training of court personnel;
  --Compliance with the 2010 Tribal Law and Order Act;
  --Salary increases for existing judges and court personnel;
  --State-of-the-art technology for tribal courts;
  --Security and security systems to protect court records and privacy 
        of case information;
  --Tribal court code development; and
  --Financial code development.
Background
    DOJ provides funding to State, local, and tribal governments to 
supplement their justice systems for a broad array of activities 
including courts. Tribal courts play a ``vital role'' in tribal self-
determination and self-governance as cited in long-standing Federal 
policy and acts of the Congress. Funding levels from DOJ to support 
tribal justice systems have not met the Federal obligations.
    For the past 5 years, the Independent Court Review Team has been 
traveling throughout Indian country assessing how tribal courts are 
operating. During this time, we have completed approximately 73 court 
reviews. There is no one with more hands-on experience and knowledge 
regarding the current status of tribal courts than our review team.
    We have come into contact with every imaginable composition of 
tribe; large and small; urban and rural; wealthy and poor. What we have 
not come into contact with is any tribe whose court system is operating 
with financial resources comparable to other local and State 
jurisdictions.
Justification for Request
    Hiring and Training of Court Personnel.--Tribal courts make do with 
underpaid staff, under-experienced staff, and minimal training. (We 
have determined that hiring tribal members limits the inclination of 
staff to move away; a poor excuse to underpay staff.)
    Compliance With the 2010 Tribal Law and Order Act.--To provide 
judges, prosecutors, and public defenders, who are attorneys and who 
are barred to do ``enhanced sentencing'' in tribal courts.
    Salary Increases for Existing Judges and Court Personnel.--Salaries 
should be comparable to local and State court personnel to keep pace 
with the nontribal judicial systems and be competitive to maintain 
existing personnel.
    Tribal Courts Need State-of-the-Art Technology.--Many tribes cannot 
afford to purchase or upgrade existing court equipment unless they get 
a grant (software, computers, phone systems, tape recording machines). 
This is accompanied by training expenses and licensing fees which do 
not last after the grant ends.
    Security and Security Systems To Protect Court Records and Privacy 
of Case Information.--Most tribal courts do not even have a full-time 
bailiff, much less a state-of-the-art security system that uses locked 
doors and camera surveillance. This is a tragedy waiting to happen.
    Tribal Court Code Development.--Tribes cannot afford legal 
consultation. A small number of tribes hire on-site staff attorneys. 
These staff attorneys generally become enmeshed in economic development 
and code development does not take priority. Tribes make do with 
underdeveloped codes. The Adam Walsh Act created a hardship for tribes 
who were forced to develop codes, without funding, or have the State 
assume jurisdiction. (States have never properly overseen law 
enforcement in a tribal jurisdiction.)
    Financial Code Development.--We have rarely seen tribes with 
developed financial policies. The process of paying a bond, for 
example, varies greatly from tribe to tribe. The usual process of who 
collects it, where it is collected and how much it is, is never 
consistent among tribes.
Tribal Courts Review
    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their court systems. Tribes with even modest resources tend to 
allocate funding to courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases, 
surpassing local non-Indian courts.
    Tribal courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and Non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained judges, without doing away with 
judges who have cultural/traditional experience. Tribal court systems 
have appellate courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and tribal bar listings and fees. Perhaps most 
importantly, tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate courts and judges from political 
pressure. No longer in Indian country are judges automatically fired 
for decisions against the legislature.
    Our research indicates tribal courts are at a critical stage in 
terms of need. Nationwide, there are 184 tribes with courts that 
received $24.7 million in Federal funding in 2010.
    Assessments have indicated that the Bureau of Indian Affairs (BIA) 
only funds tribal courts at 26 percent of the funding needed to 
operate. Tribes who have economic development generally subsidize their 
tribal courts. On the flip side, tribes who cannot afford to assist in 
the financial operations of the court are tasked with doing the best 
they can with what they have even at the expense of decreasing or 
eliminating services elsewhere. This is while operating at a 
disadvantage with already overstrained resources and underserved needs 
of the tribal citizens. The assessment suggests that the smaller courts 
are both the busiest and most underfunded.
    The grant funding in the DOJ is intended to be temporary, but 
instead it is used for permanent needs; such as funding a drug court 
clerk who then is used as a court clerk with drug court duties. When 
the funding runs out, so does the permanent position. We have witnessed 
many failed drug courts, failed court management software projects (due 
to training costs), and incomplete code development projects. When the 
Justice funding runs out, so does the project.
    As a directive from the Office of Management and Budget, our 
reviews specifically examined how tribes were using Federal funding. In 
the last 5 fiscal years through fiscal year 2010 there were only two 
isolated incidents of a questionable expenditure of Federal funds. It 
is speculated that because of our limited resources, we compromise 
one's due process and invoke ``speedy trials'' violations to save 
tribal courts money. Everyone who is processed through the tribal 
judicial system is afforded their constitutional civil liberties and 
civil rights.
    We do not wish to leave an entirely negative impression about 
tribal courts. Tribal courts need an immediate, sustained, and 
increased level of funding. True. However, there are strong indications 
that the courts will put such funding to good use.
    There are tribes like the Fort Belknap Tribe of Montana whose chief 
judge manages both offices and holds court in an old dormitory that 
can't be used when it rains because water leaks into the building and 
the mold has consumed one wall. Their need exceeds 100 percent.
    There are several courts where the roofs leak when it rains and 
those court houses cannot be fixed due to lack of sufficient funds. The 
team took pictures of those damaged ceilings for the BIA hoping to have 
additional funds for the tribes to fix the damaged ceilings.
    Tribal courts have other serious needs. Tribal appellate court 
judges are mostly attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts offer jury trials. In many courts, one sustained jury trial will 
deplete the available budget. The only place to minimize expenses is to 
fire staff. Many tribal courts have defense advocates. These advocates 
are generally not law trained and do a good job protecting an 
individual's rights (including assuring speedy trial limitations are 
not violated.) However, this is a large item in court budgets and if 
the defense advocate, or prosecutor, should leave, the replacement 
process is slow.
    I come here today to tell the Congress these things. We feel it is 
our duty to come here on behalf of tribes to advocate for better 
funding. Tribes ask us to tell their stories. They open their files and 
records to us and say, ``We have nothing to hide''. Tell the Congress 
we need better facilities, more law enforcement, more detention 
facilities, more legal advice, better codes . . . the list goes on and 
on. But, as we have indicated, it all involves more funding. This 
Congress and this administration can do something great. Put your money 
where your promises have been.
National Requests
    We support the requests and recommendations of the National 
Congress of American Indians.
    On behalf of the Independent Tribal Court Review Team, thank you.
                                 ______
                                 
        Prepared Statement of the Lummi Indian Business Council
    Good morning to the distinguished subcommittee members. Thank you 
for this opportunity. I am honored to present the appropriations 
request of the Lummi Nation for fiscal year 2012 to the Department of 
Commerce. Today, I am presenting a long-term, strategic plan described 
in a sustainable set of coordinated proposals to address the prolonged 
economic and cultural disaster and the suffering of our people. This 
strategy is a comprehensive approach combining habitat restoration, 
environmental monitoring and assessment, with Lummi Hatchery 
infrastructure improvements.
           lummi nation specific total request is $11,650,000
    This funding is being requested under the 1855 Treaty of Point 
Elliot, Secretarial Order No. 3206, entitled ``American Indian Tribal 
Rights, Federal-Tribal Trust Responsibilities, and the Endangered 
Species Act (ESA), and section 312(a) of the Magnuson-Stevens Fishery 
Conservation and Management Act''.
Lummi Nation Fiscal Year 2012 Budget Requests
    +$750,000 Monitoring and Assessment Program to include:
    --Habitat restoration program support;
    --Environmental and fisheries monitoring program; and
    --Lummi Natural Resources Department policy staff support.
    +$10.9 million--Salmon/Shellfish Hatcheries:
    --$6,716,000 Lummi Bay and Skookum Hatchery Improvements; and
    --$4,184,000 Lummi Shellfish Hatchery Improvements.
                           regional requests
    The Lummi Nation supports the fiscal year 2012 requests of the 
Northwest Indian Fisheries Commission.
                           national requests
    The Lummi Nation supports the fiscal year 2012 Requests of the 
National Congress of American Indians.
   justification of requests--lummi nation specific total request is 
                              $11,650,000
    +$750,000 Monitoring and Assessment Program.
    +$10.9 Million for Lummi Hatchery Infrastructure: Stock Re-Building 
Program.--The Lummi Nation requests funding to support this strategic 
plan to eliminate the tribe's dependence upon the Frasier River Sockeye 
salmon stock and to account for lost fishing opportunities imposed by 
the ESA. The Lummi Nation appropriation requests represent an 
investment in a sustainable strategy to maintain a future moderate 
living for fishermen as guaranteed by the treaty 1855 Point Elliot 
Treaty, affirmed by the U.S. Supreme Court (1979).
    The Lummi Nation currently operates two salmon hatcheries and one 
shellfish hatchery that support tribal and nontribal fisheries in the 
region. Lummi Nation hatcheries were originally constructed utilizing 
Department of Commerce funding received from 1969-1971. Since that time 
Hatchery operations and maintenance funding from the Bureau of Indian 
Affairs has been used. At the time of construction, those hatcheries 
were cutting edge.
    Original Hatchery infrastructure needs to be repaired, replaced, or 
completely modernized. Lummi Nation fish biologists estimate that these 
facilities are now operating at 40 percent of their productive 
capacity. Through the operation of these hatcheries, the tribe annually 
produces 1 million fall Chinook salmon, 2 million Coho salmon, 6.5 
million shellfish seed, and 300,000 pounds of clams. These production 
numbers simply do not provide the fishing opportunity and associated 
economic benefits necessary to offset the financial loss caused by the 
Sockeye Salmon Fisheries Disaster. To provide sufficient salmon stock 
resources and shellfish harvest opportunities on an annual basis to the 
Lummi Fishing Fleet, the hatchery operations and associated 
infrastructure require rehabilitation.
    The hatchery infrastructure improvement plan represents an 
investment that increases the immediate annual return and is a long-
term sustainable activity.
     detailed hatchery line-itemized descriptions are listed below
Lummi Nation Skookum Creek Hatchery--$725,000
    New Raceways $725,000.--Replace originally constructed 
infrastructure that is deteriorating and falling apart.
Lummi Bay Hatchery--$5,991,000
    Nooksack River Pump Station $5,536,000.--The project will increase 
annual production by 300 percent by providing additional water to the 
hatchery. The major limiting factor to production at this facility is 
lack of freshwater. This project will ensure adequate water supply to 
achieve needed production levels.
    Rearing Pond Improvements $455,000.--Repair and pave juvenile 
rearing pond and restructure adult ladder and attraction complex.
Lummi Shellfish Hatchery--$4,184,000
    Improvements at Shellfish Hatchery $484,000.--Repair and expand 
current facility to increase seed production by improving heating and 
cooling systems, live feed production, and growout tank space
    Build a Geoduck-Specific Hatchery $2,400,000.--The current facility 
could then be dedicated to oyster and manila clam production. Increased 
seed production will increase enhancement activities on Lummi tidelands 
to create jobs for tribal harvesters and support the west coast 
shellfish industry and associated businesses.
    Repair the Seapond Tidegates $1,300,000.--Improving circulation 
within the Lummi Bay Seapond will improve production at both the 
shellfish and Lummi Bay salmon hatcheries and production of manila 
clams in the seapond.
                         background information
    The Lummi Nation is located on the northern coast of Washington 
State, and is the third-largest tribe in the State, serving a 
population of more than 5,200 people. The Lummi Nation is a fishing 
nation. We have drawn our physical and spiritual subsistence from the 
rivers, marine tidelands, and marine waters since time immemorial. 
Lummi has rights guaranteed by the 1855 Treaty of Point Elliot to 
harvest fish, shellfish, and game in our usual and accustomed area. The 
Boldt decision of 1974 re-affirmed that right, and designated Lummi as 
a co-manager of a once abundant salmon fishery. Now, the abundance of 
wild salmon is gone. In 1985, the Lummi fishing fleet landed more than 
15 million pounds of finfish and shellfish. In 2001, the combined 
harvest was approximately 3.9 million pounds. The remaining salmon 
stocks do not support tribal fisheries, and the nation is suffering 
both spiritually and economically.
    In 1973, the Endangered Species Act (ESA) was passed. ESA should 
have resulted in improved salmon habitat and more resources for salmon 
habitat restoration, but ESA has become a ``double-edged sword''. 
Today, ESA has impacted tribal hatchery production and tribal harvests 
for commercial, subsistence, and ceremonial purposes. Tribal dependence 
on salmon and the timing of economic development results in tribal 
members and tribal governments bearing a disproportionate burden for 
the conservation of listed species. Lummi Treaty fishers are directly 
impacted by the listing of Puget Sound Chinook, Bull trout, and Puget 
Sound steelhead. Secretarial Order 3206, entitled ``American Indian 
Tribal rights, Federal-Tribal Trust Responsibilities, and the 
Endangered Species Act'', specifically states that ``. . . the 
Departments will carry out their responsibilities in a manner that . . 
. strives to ensure that Indian tribes do not bear a disproportionate 
burden for the conservation of listed species . . .'' The Lummi Nation 
is actively engaged in recovering listed salmon species in our 
watershed, restoring critical habitat, and monitoring listed population 
to determine which factors adversely affect those populations and other 
critical but nonlisted species. The Lummi Nation cannot, however, 
continue to recover salmon and maintain our way of life without 
appropriations from the Federal Government.
           continuous sockeye fisheries disaster declaration
    In 2008, the Department of Commerce reissued the sockeye fishery 
disaster declaration in a statement contained in a letter to Lummi 
Nation, (see letter from Secretary, Department of Commerce, November 3, 
2001). The declaration conforms with the findings of the Congressional 
Research Services--``CRS Report to Congress, Commercial Fishery 
Disaster Assistance'', (RL-34209). For more information, see CRS Report 
RS21312, by Eugene H. Buck.
    In 2010, the Fraser River sockeye salmon run was the largest is 
recorded history. After years of sitting on the beach, the Lummi 
sockeye fleet was able to harvest sockeye salmon again. One good year, 
however, does not make up for the previous years of continuous 
fisheries disasters and associated loss of financial and cultural 
benefits. To account for the lack of a consistent sockeye salmon 
fishery and to make up for the lost fishing opportunity attributed to 
habitat degradation and subsequent salmon population crashes, the Lummi 
Nation plans to bolster both finfish and shellfish production from its 
facilities.
    Hatcheries ensure future salmon stock populations large enough to 
support our families and our way of life, until such time as the 
habitat is able to sustain harvestable levels of salmon. The Lummi 
Nation recognizes that hatcheries alone will not restore salmon stocks 
to historical levels. The Lummi Natural Resources Department allocates 
a substantial amount of time, effort, and funding to improving and 
monitoring freshwater habitat, managing and monitoring tribal harvest 
activities, and is intent upon restoring ecosystem function in the 
Nooksack River Basin.
    By improving hatchery production of shellfish, chum salmon, coho 
salmon, and Chinook salmon, the Lummi Nation will create a reliable 
backup resource to salmon fishers; decreasing tribal dependence on the 
sockeye fishery. Additionally, we seek to raise the value of these 
harvests through advanced marketing, the introduction of a fisher's 
market and shellfish growout operations for shellfish products.
                           regional requests
    The Lummi Nation supports the fiscal year 2012 requests of the 
Northwest Indian Fisheries Commission.
                           national requests
    The Lummi Nation supports the fiscal year 2012 requests of the 
National Congress of American Indians.
    On behalf of the Lummi Nation, Hy'shqe.
                                 ______
                                 
    Prepared Statement of the Marine Conservation Biology Institute
    Madam Chairwoman and members of the subcommittee: Marine 
Conservation Biology Institute (MCBI), based in Bellevue, Washington, 
is a nonprofit conservation organization whose mission is to protect 
vast areas of the ocean. We use science to identify places in peril and 
advocate for bountiful, healthy oceans for current and future 
generations. I wish to thank the members of the subcommittee for the 
opportunity to submit written testimony on the fiscal year 2012 
appropriations for the Department of Commerce, National Oceanic and 
Atmospheric Administration (NOAA).
    America's oceans provide jobs, energy resources, food, recreation 
and tourism opportunities, as well as play a vital role in our Nation's 
economy, trade, and transportation. According to the National Ocean 
Economics Program, the U.S. ocean economy contributes more than $138 
billion to our Nation's Gross Domestic Product from living marine 
resources, tourism, recreation, transportation, construction, and 
mineral extraction. Additionally, more than 2.3 million jobs in the 
United States depend on the marine environment.
    Keeping in mind the hard economic times our Nation is in, I would 
like to highlight the importance of maintaining or moderately 
increasing funds for eight of NOAA's programs.
                      hawaiian monk seal recovery
    The Hawaiian monk seal is one of the most critically endangered 
marine mammals in the world. It is also the only marine mammal whose 
entire distribution range lies within our national jurisdiction; thus 
the United States has sole responsibility for its continued survival. 
Over the last 50 years, the Hawaiian monk seal population has declined 
to an all-time low of less than 1,200 individuals. The majority of the 
Hawaiian monk seals reside in the remote Papahanaumokuakea Marine 
National Monument; however, a smaller (but growing) population resides 
in the Main Hawaiian Islands (MHI). The MHI population may serve as the 
``insurance'' population for this species.
    The recovery program has benefited greatly from the subcommittee's 
decision to more than double the funds for the program since 2008. Your 
action has created crucial momentum to protect the Hawaiian monk seal 
from extinction by enabling NOAA to establish year-round research field 
camps, conduct outreach to fishermen and the general public concerning 
the seal's ecological and cultural importance, provide urgent care and 
supplies, and continue vital research studies on disease and mortality 
mitigation.
    The administration has recommended $2.5 million for the monk seal 
account. In order to guarantee that the seal recovery effort continue 
apace, MCBI strongly recommends a minimum of $5.5 million (current 
level of funding) for continued Hawaiian monk seal recovery efforts.
             deep sea coral research and technology program
    The discovery of widespread deep sea coral ecosystems within U.S. 
waters has challenged scientists to learn the extent of these important 
ecosystems and develop strategies on how to protect them. The Deep Sea 
Coral Research and Technology Program was established by NOAA under the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act (MSRA) of 2006. NOAA is charged with mapping and monitoring 
locations where deep sea corals are likely to occur, developing 
technologies designed to reduce interactions between fishing gear and 
deep sea corals, and working with fishery management councils to 
protect coral habitats.
    MCBI was pleased to see increased funding for the National Marine 
Fisheries Service Deep Sea Coral Program to a level of $2.5 million in 
fiscal year 2010 and would like to see that level sustained in fiscal 
year 2012. Previous funding has allowed for coral habitat mapping in 
the SE Atlantic region. Sustained funding will permit the continued 
mapping of coral areas off the west coast, as well as the initiation of 
coral mapping in Alaska waters. There is a great need for habitat 
assessments to inform management and development decisions; reduced 
funding levels would severely hamper the compilation of this 
information.
                         marine debris program
    Marine debris has become one of the most widespread pollution 
problems affecting the world's oceans and waterways. Recently, much 
attention has been given by the press to the huge floating garbage 
patch in the Pacific Ocean and its impacts on ocean life and places 
like Hawaii. Research has shown that debris has serious effects on the 
marine environment, wildlife, the economy, and human health and safety. 
An estimated 4.2 million pounds of debris was recovered from U.S. 
beaches in 2009.
    Marine debris in the northwestern Hawaiian Islands (NWHI) 
contributes to avian and marine wildlife decline through ingestion and 
entanglement, and is one of the chief causes of death for the 
critically endangered Hawaiian monk seals that live there. An estimated 
700 metric tons of marine debris, primarily derelict fishing gear, was 
removed from NWHI coral reefs and beaches by NOAA between 1996 and 
2006.
    The Marine Debris Research, Prevention and Reduction Act was 
enacted in 2006 to identify, assess, reduce, and prevent marine debris 
and its effects on the marine environment. The Marine Debris Program 
has been level funded at $4 million since 2008. MCBI recommends NOAA's 
Marine Debris Program receive a minimum of $4 million in fiscal year 
2012 to maintain marine debris removal and mitigation efforts. However, 
MCBI recommends the program receive an additional $1 million to ramp up 
efforts to prevent and reduce the loss of fishing gear by the industry. 
Greater than 30 tons of derelict fishing gear is removed annually in 
the NWHI every year which causes damage to coral reefs and threatens 
the survival of many key species.
                      national marine sanctuaries
    Presently, the Office of National Marine Sanctuaries is responsible 
for managing the Nation's 13 marine sanctuaries and Papahanaumokuakea 
Marine National Monument in the northwestern Hawaiian Islands. 
Collectively, these 14 units cover more area than the National Park 
System.
    MCBI recommends $64 million to operate and maintain management 
capabilities for the National Marine Sanctuary System. This amount 
maintains fiscal year 2010 funding levels, but funnels all funds to the 
Operations, Research, and Facilities (ORF) account. This increase in 
the ORF account will allow the Office of National Marine Sanctuaries to 
fulfill its responsibilities as a leader in ocean management and 
conservation. The funding would not only restore reduced operations, 
but would also support better monitoring and enforcement, education and 
outreach programs, vessel and visitor center operations, and scientific 
research, including climate monitoring and historical ecology.
                  marine protected areas (mpa) program
    NOAA is charged with implementing Executive Order 13158, Marine 
Protected Areas, which directs Federal agencies to develop a national 
system of MPAs. These areas are critical to maintaining biological 
diversity, protecting ocean habitats, and effectively managing fish 
populations.
    Given the ongoing loss of our marine resources, the implementation 
of the Executive order has moved too slowly, partly due to insufficient 
funding. MCBI recommends $4 million for the MPA Center in fiscal year 
2011, a slight increase more than the enacted fiscal year 2010 level, 
but below the fiscal year 2004 enacted level of $4.9 million. Critical 
program needs to be addressed with these additional funds include 
developing and expanding the national system of MPAs, allowing for 
stakeholder involvement in gap analyses and regional planning efforts, 
and developing a methodology to collect data on human uses of the ocean 
throughout the country and prepare maps of where these uses occur, and 
how they conflict with one another or with marine conservation needs. 
This information is vital to decisions about managing ocean uses.
                 coral reef conservation program (crcp)
    NOAA's CRCP manages NOAA's coral reef programs including both deep 
sea corals, as directed by the Deep Sea Coral Research and Technology 
Program, and shallow water corals.
    CRCP's shallow water coral activities focus on improving 
understanding of tropical coral reef ecosystems and minimizing the 
threats to their health and viability. Due to limited resources, CRCP 
has narrowed its efforts to better understand and address the top three 
global threats:
  --climate change;
  --fishing; and
  --pollution.
    MCBI recommends $32 million to sustain and enhance the CRCP. These 
funds will aid in addressing the top three global threats by monitoring 
and forecasting climate change impacts on coral reefs, reducing 
additional threats to coral reef ecosystems, and combating land-based 
sources of pollution.
               coastal and marine spatial planning (cmsp)
    CMSP is the tool adopted to implement the President's National 
Ocean Policy (2010). CMSP is a comprehensive, integrated, ecosystem-
based approach that addresses conservation, economic activity, user 
conflict, and the sustainable use of ocean, coastal, and Great Lakes 
resources. A strong National Policy will help our Nation rebuild 
overexploited fisheries, protect endangered species, restore vulnerable 
habitats, and develop measures to address marine impacts of climate 
change, all of which will strengthen our Nation's economy.
    CMSP requires a long-term commitment, as well as adequate and 
sustained resources. MCBI is encouraged by the administration's 
recommendation of $6.7 million for CMSP, but recommends an increased 
funding level of $10 million to ensure the proper set up of key 
programs. This funding will support habitat mapping and 
characterization using existing data sets at NOAA; human-use patterns 
mapping and user conflicts analysis; identification of current 
management authorities and jurisdictions; development of decision 
support tools; initial regional planning; and coordination of multiple 
agency efforts.
                   regional ocean partnerships (rop)
    ROPs are a component of the Framework for CMSP. Coastal States have 
already established regional ocean partnerships, many of which will 
inform the regional planning bodies that will implement CMSP. These 
partnerships will be used as place-based lenses through which funding 
can be focused for marine and coastal priorities at a State and 
regional level. MCBI recommends $30 million for regional ocean 
partnerships to provide competitive grants to address priority marine 
and coastal issues within each region.
                          ocean acidification
    Ocean acidification is the process by which seawater becomes 
corrosive to calcium carbonate structures found in many of the shells 
and skeletons of marine organisms, such as oysters and corals. It is a 
major marine impact associated with elevated carbon dioxide levels in 
the atmosphere. Ocean acidification has already begun to negatively 
impact commercial and recreational fishing, as well as coastal 
communities and economies.
    The Federal Ocean Acidification Research and Monitoring (FOARAM) 
Act that passed in early 2009 calls upon NOAA to coordinate research, 
establish a monitoring program, identify and develop adaptation 
strategies and techniques, encourage interdisciplinary and 
international understanding of the impacts associated with ocean 
acidification, improve public outreach, and provide critical research 
grants to understanding the ecosystem impacts and socioeconomic effects 
of ocean acidification. Ocean acidification research was appropriated 
at $6 million in fiscal year 2010. MCBI supports the presidential 
recommendation of $11.6 million in fiscal year 2012 to more fully 
understand the impacts of ocean acidification on our coastal 
communities.
    In summary, MCBI respectfully requests that the subcommittee 
maintain or slightly augment funding for the conservation side of the 
NOAA's budget by the amounts discussed above.
                                 ______
                                 
       Prepared Statement of the Marine Fish Conservation Network
    On behalf of the nearly 200 member groups nationally who are 
dedicated to conserving marine fish and achieving sustainable 
fisheries, the Marine Fish Conservation Network (Network, or MFCN) 
submits the following testimony for the record on the fiscal year 2012 
budget for National Marine Fisheries Service (NMFS) within the National 
Oceanic and Atmospheric Administration (NOAA), Department of Commerce. 
For fiscal year 2012, the Network is asking the subcommittee to 
increase funding for core fisheries conservation and management 
programs $21.2 million more than the President's fiscal year 2012 
request in the following program areas:

                      NETWORK RECOMMENDATIONS FOR CORE FISHERIES PROGRAMS, FISCAL YEAR 2012
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    President's     MFCN fiscal
           NOAA/NMFS Fisheries Research and Management              Fiscal year     fiscal year      year 2012
                                                                   2010 enacted    2012  request      request
----------------------------------------------------------------------------------------------------------------
Expand annual stock assessments.................................            50.9            67.1            67.1
Fisheries statistics/Marine Recreational Information Program....            21.0            24.4            24.4
Fishery observers...............................................            41.0            39.1            50.0
Fisheries cooperative research..................................            17.5             7.2            17.5
Survey and monitoring projects..................................            23.7            24.2            24.2
----------------------------------------------------------------------------------------------------------------

    The Network supports the President's requested increase of $16.2 
million more than the fiscal year 2010 funding level to expand annual 
stock assessments as well as the $3.4 million increase for Fisheries 
Statistics to expand recreational fishery monitoring activities--both 
are critical to successful annual catch limit (ACL) implementation in 
U.S. fisheries in 2011 and beyond. However, the Network also seeks 
additional funding of $9 million more than fiscal year 2010 for Fishery 
Observers and seeks level funding for Cooperative Research at the 
fiscal year 2010 level of $17.5 million, for the reasons provided 
below. Investments in these interrelated activities are not only 
essential for stewardship of the Nation's fisheries resources, but for 
sustaining businesses and communities whose livelihoods depend on 
healthy fisheries.
    Information provided by these core programs reduces scientific and 
management uncertainty and enables fishery managers to make informed 
decisions when setting ACLs, a new requirement for all U.S. fisheries 
in 2011 that is intended to provide a transparent accounting mechanism 
for measuring compliance with the Magnuson-Stevens Fishery Conservation 
and Management Act (MSA or MSRA) requirements to prevent overfishing 
and rebuild overfished stocks.\1\ Therefore, we respectfully request 
the following amounts in NMFS Fisheries Management and Research 
programs for activities supporting baseline data collection, fishery 
monitoring, and stock assessment science which provide the basis for 
sustainable management and informed decisionmaking in the catch-setting 
process.
---------------------------------------------------------------------------
    \1\ Senate Report 109-229 on S. 2012 (April 4, 2006), p. 21.
---------------------------------------------------------------------------
      expand annual stock assessments--mfcn request: $67.1 million
    The requirement of the MSRA for ACLs in all U.S. fisheries by 2011 
increases the need for timely, reliable fisheries data and stock 
assessments. Quantitative stock assessments provide the scientific 
basis for setting numerical catch limits that prevent overfishing and 
optimize yield. Absent significant new funding for stock assessment 
development, many fishery ACLs will have to be specified without 
assessments or using assessments that are infrequently updated. Without 
a current knowledge base, fishery scientists and managers will have to 
exercise greater caution to account for higher uncertainty and risk of 
overfishing. Investments in stock assessments reduce uncertainty and 
enable managers to increase fishing opportunities safely.
    The President's fiscal year 2012 budget requests a significant 
increase of $16.2 million more than the fiscal year 2010 funding level 
of $50.9 million to expand annual stock assessments. The President's 
fiscal year 2012 budget request of $67.1 million for expanded stock 
assessment development will provide critically needed resources to 
assess priority stocks in the ACL implementation process, including 
additional resources in the southeast region to establish assessment 
benchmarks for post spill management of the Gulf of Mexico fisheries. 
Because the information provided by stock assessments is so vital to 
the MSA's near-term requirements and long-term goals for sustainable 
management of U.S. fisheries, the President's requested increase of 
$16.2 million to expand annual stock assessments should receive the 
highest priority for funding at the level of $67.1 million in fiscal 
year 2012.
           fisheries statistics--mfcn request: $24.4 million
    The President's fiscal year 2012 budget requests $24.4 million for 
the fisheries statistics line, an increase of $3.4 million more than 
the fiscal year 2010 enacted level. The increase is intended for the 
Marine Recreational Information Program (MRIP), the new and improved 
national data collection program for recreational saltwater fisheries 
that is intended to address the shortcomings identified in a review of 
existing recreational fisheries data collection programs by the 
National Research Council (NRC 2006).\2\ In response to this NRC review 
and new requirements in the reauthorized Magnuson-Stevens Act of 
2006,\3\ NMFS has launched a number of initiatives to implement 
improved recreational fisheries survey methods and is also completing 
the implementation of a new saltwater angler registry. Additional 
funding will be necessary to improve the precision and timeliness of 
recreational catch statistics for use in fishery management.
---------------------------------------------------------------------------
    \2\ National Research Council (2006). Review of Recreational 
Fisheries Survey Methods.
    \3\ MSA 16 U.S.C. Sec. 1881(g).
---------------------------------------------------------------------------
    The MRIP was funded at a level of approximately $9 million in 
fiscal year 2010, through the fisheries statistics and the fisheries 
research and management budget lines. NMFS has indicated that 
approximately $20 million is needed to fully implement the program, and 
the fisheries statistics line has been identified as the appropriate 
place for additional funding for MRIP. The President's fiscal year 2012 
budget requests a funding level of $24.4 million for fisheries 
statistics, reflecting an increase of $3.4 million more than the fiscal 
year 2010 funding level to increase the MRIP budget from $9 million to 
$12 million. As an incremental step toward full implementation of MRIP 
that will provide additional resources for ACL implementation in 
recreational saltwater fisheries, the President's requested funding 
level of $24.4 million for fisheries statistics is strongly recommended 
in fiscal year 2012.
       fishery observers and training--mfcn request: $50 million
    At-sea observers are the most reliable source of information about 
fishery catch, bycatch and at-sea discards, and they are a central 
pillar of the national fishery bycatch strategy.\4\ \5\ Observers also 
monitor the incidental entanglement and mortality of protected marine 
mammals, seabirds, and sea turtles. The President's fiscal year 2012 
budget requests $39.1 million to the national fishery observer program, 
a cut of nearly $2 million from the enacted fiscal year 2010 level. 
Current funding supports at-sea observer programs in 40 broadly defined 
fisheries nationwide, only 23 of which are considered by NMFS to have 
adequate levels of observer coverage. The agency's goal for observer 
coverage is approximately 85 fisheries, based on a 2004 national 
bycatch report.\6\ The President's fiscal year 2012 budget request for 
fishery observers would mean a significant loss in the already limited 
capability of the program to deploy observers where needed.
---------------------------------------------------------------------------
    \4\ NOAA/NMFS, Evaluating Bycatch: A National Approach to 
Standardized Bycatch Monitoring Programs, NOAA Technical Memorandum 
NMFS-F/SPO-66, October 2004. 108 pp.
    \5\ National Standard 9 (NS9) of the MSA requires fishery managers 
to minimize bycatch and to minimize the mortality of bycatch that 
cannot be avoided (16 U.S.C. 1851(9)). Section 303 of the MSA requires 
Fishery Management Plans to establish a standardized reporting 
methodology to assess the amount and type of bycatch occurring in the 
fishery, and to include measures consistent with NS9 to minimize 
bycatch (16 U.S.C. Sec. Sec. 1853(11)).
    \6\ See NOAA Fiscal Year 2010 Budget Request, President's 
Submission to Congress, Exhibit 13, p. 245. The full list of fisheries 
prioritized for observer coverage in 2004 can be found in: U.S. 
Department of Commerce/NOAA/NMFS, Evaluating Bycatch: A National 
Approach to Standardized Bycatch Monitoring Programs, NOAA Technical 
Memorandum NMFS-F/SPO-66, October 2004. 108 pp.
---------------------------------------------------------------------------
    To achieve adequate observer coverage in all high-priority 
fisheries and provide reliable estimates of catch and bycatch for 
management purposes in the ACL-setting process, the Network recommends 
an appropriation of at least $50 million ($9 million above the fiscal 
year 2010 enacted level) for fishery observers and observer training in 
fiscal year 2012.
   cooperative research--mfcn fiscal year 2012 budget request: $17.5 
                                million
    The Omnibus Appropriations Act of 2010 funded Cooperative Research 
at NOAA's requested fiscal year 2010 level of $17.5 million to expand a 
regionally based competitive grants program that funds partnerships 
between fishermen and scientists to advance the science and management 
of the Nation's fisheries. Grants awarded to qualifying projects 
leverage the expertise of fishermen to support the acquisition of 
fishery data, improve our understanding of fish populations, and test 
innovative fishing gear designs and other technologies which can 
increase fishery performance, reduce operational costs, enhance safety 
at sea, and save fishing jobs in coastal communities.\7\ Cooperative 
research partnerships can increase the confidence of fishermen in data 
used in decisionmaking and create employment opportunities in fishing 
communities. The President's fiscal year 2012 budget request would cut 
$10.3 million from the fiscal year 2010 enacted funding level for 
Cooperative Research. The Network believes that substantial new 
opportunities for cooperative research remain untapped, and therefore 
the Network recommends an appropriation of $17.5 million for 
Cooperative Research in fiscal year 2012.
---------------------------------------------------------------------------
    \7\ For program details, go to: http://www.st.nmfs.noaa.gov/st4/
NationalCooperativeResearch
Coordination.html.
---------------------------------------------------------------------------
           survey and monitoring--mfcn request: $24.2 million
    The Omnibus Appropriations Act of 2010 funded this program at 
NOAA's requested fiscal year 2010 level of $23.7 million, and the 
President's fiscal year 2012 budget requests $24.2 million. This budget 
line supports the collection of fishery-independent resource survey 
data as well as fishery catch data needed for developing and updating 
stock assessments in some of the Nation's most iconic and important 
fisheries, including red snapper, bluefin tuna, bluefish, striped bass, 
and Alaska pollock. The President's fiscal year 2012 request would 
maintain essential resource survey and monitoring programs that support 
the management of highly valued fisheries, therefore an appropriation 
of $24.2 million for survey and monitoring is recommended for fiscal 
year 2012.
    Maintaining adequate public investments in the management of the 
Nation's fisheries is critical to realize their full potential.\8\ 
Increased investments in these fisheries programs will improve efforts 
to set sustainable catch limits and monitor compliance, facilitate the 
rebuilding of fisheries to meet their full economic and biological 
potential, and increase fishing industry confidence in the science 
being used to make management decisions.
---------------------------------------------------------------------------
    \8\ For instance, see: Somma (2003), Pew Oceans Commission (2003), 
Sumaila and Suatoni, (2005), Dyck and Sumaila (2010).
---------------------------------------------------------------------------
    Thank you for considering our request.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Thank you for the opportunity to provide written testimony on the 
Department of Commerce fiscal year 2012 appropriations. My name is 
Billy Frank, and I am the chairman of the Northwest Indian Fisheries 
Commission (NWIFC). The NWIFC is comprised of the 20 tribes party to 
the United States vs. Washington,\1\ and we support funding for 
National Oceanic and Atmospheric Administration (NOAA)--National Marine 
Fisheries Service (NMFS) and the National Ocean Service (NOS) budgets. 
We are pleased that the budgets for these services continue to be given 
the serious attention they deserve by the administration and hope that 
the Congress will agree.
---------------------------------------------------------------------------
    \1\ United States vs. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
    In particular, we appreciate a number of the new National Ocean 
Policy initiatives that support key Federal, State, and tribal 
partnerships. The creation of the National Ocean Council and its 
Governance Advisory Coordinating Committee (GACC) represents the 
increased focus on oceans. The GACC includes three, at-large tribal 
representatives including one from the Washington Coastal Treaty Tribes 
represented by the NWIFC.
           summary of fiscal year 2012 appropriations request
NWIFC Specific Funding Requests
  --$110 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
        NMFS).
  --$20 million for the Regional Ocean Partnership Grants Program 
        (NOAA/NOS).
  --$3 million for the Pacific Salmon Treaty Chinook Annex (NOAA/NMFS).
  --$16 million for the Mitchell Act Hatchery Program, plus funding 
        required for reform projects (NOAA/NMFS).
Justification of Requests
            $110 Million for the Pacific Coastal Salmon Recovery Fund
    The Pacific Coastal Salmon Recovery Fund (PCSRF) is a multi-State, 
multi-tribe program established by the Congress in fiscal year 2000 
with a primary goal to help recover wild salmon throughout the Pacific 
Northwest and Alaska. The PCSRF seeks to aid the conservation, 
restoration, and sustainability of Pacific salmon and their habitats by 
financially supporting and leveraging local and regional efforts. 
Recognizing the need for flexibility among tribes and the States to 
respond to salmon recovery priorities in their watersheds, the Congress 
initially provided funds for salmon habitat restoration, salmon stock 
enhancement, salmon research, and implementation of the 1999 Pacific 
Salmon Treaty Agreement between the United States and Canada. PCSRF is 
making a significant contribution to the recovery of wild salmon 
throughout the region.
    The tribes' overall goal in the PCSRF program is to ``restore wild 
salmon populations. The key tribal objective is to protect and restore 
important habitat that promotes the recovery of Endangered Species Act 
(ESA) listed species and other salmon populations in Puget Sound and 
along the Washington coast that are essential for western Washington 
tribes to exercise their treaty-reserved fishing rights consistent with 
United States vs. Washington and Hoh vs. Baldrige.\2\ These funds will 
also support policy and technical capacities within tribal resource 
management departments to plan, implement, and monitor recovery 
activities.
---------------------------------------------------------------------------
    \2\ Hoh vs. Baldrige--A Federal court ruling that required 
fisheries management on a river-by-river basis.
---------------------------------------------------------------------------
    It is for these reasons that the tribes strongly support the 
Pacific Coastal Salmon Recovery budget justification which reads, in 
part, ``. . . for necessary expenses associated with the restoration of 
Pacific salmon populations . . . provided that of the funds provided 
herein the Secretary of Commerce may issue grants to the States of 
Washington, Oregon, Idaho, Nevada, California, and Alaska, and 
federally recognized tribes of the Columbia River and Pacific coast 
(including Alaska) for projects necessary for conservation of salmon 
and steelhead populations that are listed as threatened or endangered, 
or identified by a State as at-risk to be so-listed, for maintaining 
populations necessary for exercise of tribal treaty fishing rights or 
native subsistence fishing, or for conservation of Pacific coastal 
salmon and steelhead habitat, based on guidelines to be developed by 
the Secretary of Commerce.''
    The tribes have used these funds to support the scientific salmon 
recovery approach that makes this program so unique and important. 
Related to this scientific approach has been the tribal leadership and 
effort which has developed and implemented the ESA-listed Puget Sound 
Chinook Recovery Plan recently approved by NOAA.
    Unfortunately, the PCSRF monies have decreased over the past few 
years from the fiscal year 2002 amount of $110 million. Restoration of 
this line item in fiscal year 2012 to the $110 million level will 
support the original intent of the Congress and enable the Federal 
Government to fulfill its obligations to salmon recovery and the treaty 
fishing rights of the tribes.
            $20 Million for the Regional Ocean Partnership Grants 
                    Program
    The Hoh Tribe, Makah Tribe, Quileute Tribe, and the Quinault Indian 
Nation have deep connections to the marine resources off the coast of 
Washington. They have pioneered cooperative partnerships with the State 
of Washington and the Federal Government in an effort to advance the 
management practices in the coastal waters. However, to have an 
effective partnership, the tribes and their partners need additional 
funding.
    The four tribes, the State of Washington and NOAA's NOS, through 
the Marine Sanctuary Program, have formed the Intergovernmental Policy 
Council, which is intended to strengthen management partnerships 
through coordination and focus of work efforts. Through this 
partnership, the entities hope to maximize resource protection and 
management, while respecting existing jurisdictional and management 
authorities. In addition to this partnership with the Marine Sanctuary 
Program, the four tribes have proposed a mechanism by which they can 
effectively engage with the West Coast Governors' Agreement for Ocean 
Health to create a regional ocean planning group for the west coast 
that is representative of the States and sovereign tribal governments 
with an interest in the ocean.
    The four coastal tribes and the State also wish to engage in an 
ocean monitoring and research initiative to support and transition into 
an ecosystem-based fisheries management plan for the Washington coast. 
This tribal-State effort would be in collaboration with NOAA and 
consistent with regional priorities identified by a regional planning 
body. Effective management of the ocean ecosystem and its associated 
resources requires the development of baseline information against 
which changes can be measured. This initiative will expand on and 
complement existing physical and biological databases to enhance 
ecosystem-based management capabilities. In turn, this will support 
ongoing efforts by the State and tribes to become more actively engaged 
in the management of offshore fishery resources.
    For the tribes to participate in this regional ocean planning body, 
and for the tribes and State to conduct an ocean monitoring and 
research initiative off the Washington coast, they will need funding to 
support this effort. The Regional Ocean Partnership Grants program, 
within the NOS coastal management account, would be an ideal program to 
support tribal participation with the West Coast Governors' Agreement 
to address ocean governance and coastal/marine spatial planning issues.
            $3 Million for the Pacific Salmon Treaty 2008 Chinook Annex
    Adult salmon returning to most western Washington streams migrate 
through United States and Canadian waters and are harvested by 
fisherman from both countries. For years, there were no restrictions on 
the interception of returning salmon by fishermen of neighboring 
countries.
    In 1985, after two decades of discussions, the Pacific Salmon 
Treaty (PST) was created through the cooperative efforts of tribal, 
State, United States and Canadian governments, and sport and commercial 
fishing interests. The Pacific Salmon Commission was created by the 
United States and Canada to implement the treaty, which was updated in 
1999, and most recently in 2008.
    The 2008 update of the treaty gave additional protection to weak 
runs of Chinook salmon returning to Puget Sound rivers. The update 
provides compensation to Alaskan fishermen for lost fishing 
opportunities, while also funding habitat restoration in the Puget 
Sound region.
    As co-managers of the fishery resources in western Washington, 
tribal participation in implementing the PST is critical to achieve the 
goals of the treaty to protect, share and restore salmon resources. We 
support the fiscal year 2012 NOAA Fisheries budget which includes $3 
million to implement the 2008 Pacific Salmon Treaty Chinook Annex. 
Specifically, the funds would be used for Coded-Wire-Tag Program 
Improvements ($1.5 million) and Puget Sound Critical Stocks 
Augmentation ($1.5 million).
            $16 Million for the Mitchell Act Hatchery Program, Plus 
                    Funding Required for Reform Projects
    Salmon produced by the Mitchell Act hatcheries on the lower 
Columbia River are critically important in that they provide 
significant harvest opportunities for both Indian and non-Indian 
fisheries off the coast of Washington. This hatchery production is 
intended to mitigate for the lost production caused by the hydropower 
dam system on the Columbia River. This hatchery production is also 
important in that it dampens the impact of Canadian fisheries under the 
terms of the PST Chinook Annex on Puget Sound and coastal stocks. This 
funding provides for the operations of this important hatchery program 
along with required reform projects. The funding is required to 
mitigate for the Federal hydropower system on the Columbia River.
                              our message
    We generally support the administration's fiscal year 2012 budget 
with the changes noted above. The tribes strive to implement their co-
management authority and responsibility through cooperative and 
collaborative relationships with the State and local communities. The 
work the tribes do benefits all the citizens of the State of 
Washington, the region and the Nation. But the increasing challenges I 
have described and the growing demand for our participation in natural 
resource/environmental management requires increased investments of 
time, energy, and funding.
    We are sensitive to the budget challenges that the Congress faces. 
Still, we urge you to increase the allocation and appropriations that 
can support priority ecosystem management initiatives. For the sake of 
sustainable health, economies and the natural heritage of this 
resource, it is critically important for the Congress and the Federal 
Government to do even more to coordinate their efforts with State and 
tribal governments.
                               conclusion
    Clearly, western Washington tribes are leaders in protecting and 
sustaining our natural resources. The tribes possess the legal 
authority, technical and policy expertise, and effectively manage 
programs to confront the challenges that face our region and Nation.
    The tribes are strategically located in each of the major 
watersheds, and no other group of people is more knowledgeable about 
the natural resources. No one else so deeply depends on the resources 
for their cultural, spiritual and economic survival. Tribes seize every 
opportunity to coordinate with other governments and nongovernmental 
entities, to avoid duplication, maximize positive impacts, and 
emphasize the application of ecosystem management. We continue to 
participate in resource recovery and habitat restoration on an equal 
level with the State of Washington and the Federal Government because 
we understand the great value of such cooperation.
    We ask that the Congress help us in our efforts to protect and 
restore our great natural heritage and support our funding requests. 
Thank you.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance
    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2012 
appropriations for the National Science Foundation (NSF). We encourage 
the Congress to provide NSF with at least $7.767 billion in fiscal year 
2012.
    The NSF drives innovation and supports job creation by awarding 
research grants to scientists and institutions; assisting with the 
acquisition of research infrastructure and instrumentation; and 
training students and teachers. Collectively, these activities provide 
the foundation for the Nation's research enterprise, generating 
information that ultimately drives economic growth, improves human 
health, addresses energy needs, and enables sustainable management of 
our natural resources. These efforts, however, require a sustained and 
predictable Federal investment. Unpredictable swings in Federal funding 
can disrupt research programs, create uncertainty in the research 
community, and stall the development of the next great idea. The budget 
request for fiscal year 2012 would invest in these critical efforts by 
allowing NSF to fund nearly 2,000 additional research grants, thereby 
supporting more than 6,000 additional researchers and students.
    The Biological Sciences Directorate (BIO) within NSF is the primary 
Federal supporter of basic biological research, and serves a vital role 
in ensuring our Nation's continued leadership in the biological 
sciences. BIO provides roughly 68 percent of Federal grant support for 
fundamental biological research conducted at our Nation's universities 
and other nonprofit research centers, such as natural history museums. 
BIO's support of transformative research has advanced our understanding 
of complex living systems and is leading the way forward in addressing 
major challenges--conserving biodiversity, mitigating and adapting to 
climate change, and developing new bio-inspired technologies.
    Equally important, NSF provides essential support for our Nation's 
biological research infrastructure, such as natural science 
collections, university-based natural history museums, and field 
stations. These research centers enable scientists and students to 
study the basic data of life, conduct modern biological and 
environmental research, and provide undergraduate and graduate students 
with hands-on training opportunities.
    We strongly encourage the Congress to support the request for $10 
million to support the digitization of high-priority U.S. specimen 
collections. Collections play a central role in many fields of 
biological research, including disease ecology, biodiversity, and 
climate change. They also provide critical information about existing 
gaps in our knowledge of life on Earth. This investment would help the 
scientific community ensure access to and appropriate curation of 
irreplaceable biological specimens and associated data, and would 
stimulate the development of new computer hardware and software, 
digitization technologies, and database management tools. For example, 
this effort is bringing together biologists, computer and information 
scientists, and engineers in multidisciplinary teams to develop 
innovative imaging, robotics, and data storage and retrieval methods. 
These tools will expedite the digitization of collections and, more 
than likely, contribute to the development of new products or services 
of value to other industries.
    The fiscal year 2012 budget would also continue efforts to better 
understand biodiversity. Funding is included for the Dimensions of 
Biodiversity program to support cross-disciplinary research to define 
the impacts of biodiversity on ecosystem services and human well being.
    The Directorate for Geosciences (GEO) also supports research and 
student training opportunities with natural history collections. GEO 
supports cross-disciplinary research on the interactions between 
Earth's living and nonliving systems--research that has important 
implications for our understanding of climate change, water and natural 
resource management, and biodiversity.
    Within the Directorate for Education and Human Resources, the 
Informal Science Education program is advancing our understanding of 
informal science, technology, engineering, and mathematics (STEM) 
learning. This program supports projects that create tools and 
resources for STEM educators working outside of traditional classrooms. 
The program also builds professional capacity for research, 
development, and practice in the field. We urge the Congress to support 
the administration's fiscal year 2012 budget request for this program.
                               conclusion
    Continued investments in natural history collections and the 
biological sciences are critical. The President's budget request for 
NSF will help spur economic growth and innovation and continue to build 
scientific capacity at a time when our Nation is at risk of being 
outpaced by our global competitors. Please support an investment of 
$7.767 billion in NSF for fiscal year 2012.
    Thank you for your thoughtful consideration of this request and for 
your prior support of the NSF.
                           about nsc alliance
    The Natural Science Collections Alliance (NSC Alliance) is a 
nonprofit association that supports natural science collections, their 
human resources, the institutions that house them, and their research 
activities for the benefit of science and society. We are comprised of 
more than 100 institutions who are part of an international community 
of museums, botanical gardens, herbariums, universities, and other 
institutions that house natural science collections and utilize them in 
research, exhibitions, academic and informal science education, and 
outreach activities.
                                 ______
                                 
            Prepared Statement of the Pew Environment Group
    Dear Chairwoman Mikulski and Ranking Member Hutchison: We, the 
undersigned 137 organizations representing a diverse range of 
commercial and recreational fishing associations, commercial seafood 
dealers, the charter and for-hire industry, fishery dependent 
businesses and ocean conservation organizations, collectively urge the 
subcommittee and all Members of Congress to support the President's 
fiscal year 2012 National Oceanic and Atmospheric Administration budget 
request of $91.5 million for the Expand Annual Stocks Assessments and 
Fisheries Statistics line-items. We request that you make these data 
collection and analysis line items a top priority in fiscal year 2012.
    The National Marine Fisheries Service estimates that U.S. 
commercial and saltwater recreational fishing contributes more than 
$160 billion to the economy annually and supports nearly 2 million 
jobs. These industries rely on healthy fish populations, which provide 
food for our tables, offer recreational opportunities for millions of 
Americans and sustain jobs and communities on every coast. The Congress 
should invest in America's fish populations and fishing businesses by 
providing the funding necessary to ensure that managers use the best 
science possible to guide stewardship of our ocean fish resources.
     expand annual stock assessments ($67.1 million, as requested)
    Stock assessments provide the basic information that scientists use 
to determine the health of fish populations. Assessments provide 
estimates of abundance and catch levels that a fish population can 
support. Increased funding will reduce scientific and management 
uncertainty and will allow managers to set catch levels and 
accountability measures that maximize fishing opportunities while 
rebuilding those that have been determined to be overfished and 
maintaining healthy fish populations.
           fisheries statistics ($24.4 million, as requested)
    The 2006 amendments to the Magnuson-Stevens Act required the 
agency, within 2 years, to improve the quality and accuracy of their 
primary private angler data collection program. These amendments led to 
the establishment of the Marine Recreational Information Program which 
is funded primarily through the Fisheries Statistics budget line. 
Investment of funds for this line item will improve data on 
recreational catch levels and participation, and will help scientists 
to better estimate recreational fishing mortality and set more accurate 
catch limits. This program will also result in more timely decisions 
that both the regional fishery management councils and the fishing 
industry need to improve management and potentially lead to more 
fishing opportunities.
    Thank you for your consideration of our requests. Rarely does such 
a diverse group of U.S. stakeholders agree on fishery-related issues, 
but on the need to adequately fund fisheries data collection there is 
no disagreement. If we are going to have abundant fisheries, the 
Congress must provide the resources to necessary to sustainably manage 
ocean fish by ensuring that management decisions are based on timely 
and accurate information and analysis. The health of America's ocean 
fish populations and the jobs, income, recreation, seafood, and 
communities that they sustain depend on your investments in fiscal year 
2012.
National:
Berkley Conservation Institute, Pure Fishing
Blue Ocean Institute
Bonefish and Tarpon Trust
Environment America
Center for Environment, Commerce & Energy, African American 
Environmentalist Association
Environmental Defense Fund
FishWise
Greenpeace USA
Interfaith Council for the Protection of Animals and Nature
International Game Fish Association
Marine Fish Conservation Network
National Audubon Society
National Marine Sanctuary Foundation
Natural Resources Defense Council
Ocean Conservancy
Ocean Conservation Research
OCEAN Magazine
Oceana
Pew Environment Group
Plant a Fish
Reef Relief
Republicans for Environmental Protection
Sailors for the Sea
Shark Savers
Sport Fishing Magazine
Waterkeeper Alliance
West Marine
Alabama:
AAA Charters
  
Alaska:
Alaska Marine Conservation Council
  
California:
Intersea Foundation
Reef Check California
World of Diving
Delaware:
Delaware Nature Society
  
Florida:
Eric Zamora Photography
Fantastic Endeavors
Gulf Coast Conservancy
Hernando Audubon Society
Indian Riverkeeper
Just-in-Time Charters
North Swell Media
Off the Bank Charters
Palm Beach County Reef Rescue
Sanibel Captiva Conservation Foundation
Snook Foundation
St. Lucie County Conservation Alliance
Hawaii:
Hawaii Fishing & Boating Association
SeaPics.com
Maine:
Island Institute
Maine Rivers
Midcoast Fishermen's Association
Midcoast Fishermen's Cooperative
Maryland:
Backwater Angler
Center for Chesapeake Communities
Chesapeake Bay Foundation
Environment Maryland
Prime Seafood
Massachusetts:
AL Cignoli Company
Alewives Anonymous
Bach Corp
Byson Investments
Capt. John Boats
Cence Cincotti Strategies
Conservation Law Foundation
Full Armor
FV Alyson Marie
FV Karen M.
Ipswich River Watershed Association
Johnston Associates
MD Group
New England Coastal Wildlife Alliance
O'Sullivan & Associates
Plymouth Area Chamber of Commerce
New Jersey:
Environment New Jersey
Great Egg Harbor Watershed Association
SandyHook SeaLife Foundation
New York:
Alpha Dive Training
Citizens Campaign for the Environment
Coastal Water Guides
Green Drinks NYC
Integrated Electronic Systems
North Flats Guiding
Ocean Blue Divers
Riverkeeper
Swim and Scuba Tiedemann's Diving Center
North Carolina:
NC Sierra Club
Lower Neuse Riverkeeper
Upper Neuse Riverkeeper
North Carolina League of Conservation Voters
Pamlico-Tar River Foundation
White Oak-New Riverkeeper Alliance
Ohio:
Deep Blue Adventures
  
Oregon:
Northwest Environmental Advocates
  
Pennsylvania:
Juniata Valley Audubon
PennEnvironment
Rhode Island:
Big Blue Aquatic Gifts
Snapper Charters
South Carolina:
South Carolina Coastal Conservation League
  
Texas:
Circle H Outfitters
Charter Fishermen's Association
Environment Texas
Geaux Fishing Charters
Hingle's Guide Service
Reel Threel Saltwater
Underwater Expeditions
Virginia:
5 Point Norfolk Farm Market
Alchemy Redefined
Alt Daily
And Design Collective
Batten Bay Farm
Beach Flavor
Central VA Wind Energy and Manufacturing
Cherry Brothers Railing Company
Chesapeake for Change
Counseling Interventions
Croc's Eco-Bistro
Dominion Fuels
Echelon Pavers
Eco Maniac
Green Alternatives
Green Jobs Alliance
Greener Results Virginia
Hampton Roads Green Caffeine
Hampton Roads Green Drinks
ModTra Corp
MoveOn.Org-Hampton Roads
Naro Expanded Cinemas
Nuckols Tree Care
Riehl Photography and Green Irene
Sabrosa Foods
Shenandoah Riverkeeper
Solar Services-Virginia Beach
Sunrise Solar and Wind
Terra-Scapes Environmental Consulting
Treehouse Magazine
Washington:
Sustainable Fisheries Foundation
  
                                 ______
                                 
              Prepared Statement of Pew Environment Group
    The Pew Environment Group (PEG) appreciates the opportunity to 
provide testimony on the National Oceanic and Atmospheric 
Administration (NOAA) fiscal year 2012 budget request, particularly as 
it relates to implementation of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA). In order to meet the critical 
fisheries management requirements of the MSA, PEG supports the 
President's fiscal year 2012 budget request of $346.3 million for data 
collection and analysis programs at the National Marine Fisheries 
Service (NMFS). We are concerned that the current request does not 
represent the long-term investment level needed to maintain sustainable 
fisheries in the future and would like to discuss this further with the 
subcommittee. However, given current fiscal constraints we are prepared 
to support the proposed funding levels.
    In the 35 years since the law was enacted on April 13, 1976, the 
MSA has enjoyed strong bipartisan support, including the most recent 
2006 reauthorization, which was sponsored by the late Senator Ted 
Stevens and signed into law by President George W. Bush. The MSA 
provides the legal tools to sustainably manage ocean fish, one of 
America's most valuable natural resources. Healthy fish populations are 
the backbone of America's commercial and recreational saltwater fishing 
industries, which according to NMFS generated $163 billion in sales 
impacts and supported nearly 1.9 million full- and part-time jobs in 
2008 alone.\1\ For this reason, diverse stakeholders including 
commercial fishermen, recreational anglers, and environmental groups 
are united in advocating for data collection and analysis 
appropriations.
---------------------------------------------------------------------------
    \1\ National Marine Fisheries Service (NMFS), 2010, ``Fisheries 
Economics of the United States, 2008'', http://www.st.nmfs.noaa.gov/
st5/publication/index.html.
---------------------------------------------------------------------------
    Data collection programs are the lifeblood of good fisheries 
management, generating information that helps managers make informed 
decisions, and fishermen and other fishery-related businesses plan 
their investments and business actions. The Congress should support the 
following line-item requests because they are critical for maintaining 
healthy fish populations that support stable and productive fisheries:
      Expand Annual Stock Assessments.--$67.1 million as requested, an 
        increase of $16.2 million more than the fiscal year 2010 
        enacted level. Fish stock assessments are critical for setting 
        science-based annual catch limits (ACLs), a key provision of 
        the 2006 amendments, which prevent overfishing and maintain 
        productive fisheries over time. This funding would provide NMFS 
        greater capability to assess the 230 commercially and 
        recreationally important fish stocks managed by the Federal 
        Government. Timely, updated stock assessments reduce the 
        scientific uncertainty associated with ACL-setting and can help 
        fishery managers increase commercial and recreational fishing 
        opportunities while minimizing the risk of overfishing. We 
        strongly support this critical increase in funding.
      Fisheries Statistics.--$24.4 million as requested, an increase of 
        $3.4 million more than the fiscal year 2010 enacted level. This 
        budget line item supports programs that provide advice, 
        coordination, and guidance on matters related to the 
        collection, analysis, and dissemination of statistics in both 
        commercial and recreational saltwater fisheries. The Marine 
        Recreational Information Program, created to improve the 
        quality and accuracy of recreational fishing data per the 2006 
        MSA amendments, is funded primarily through this budget line-
        item. Higher quality data on marine recreational fishing, which 
        contributes $59 billion in sales impacts to the U.S. economy 
        and supports 384,000 jobs, will allow scientists to better 
        estimate fishing mortality and set ACLs more accurately, thus 
        reducing the risk of overfishing.\2\ At a time when 
        recreational fishermen and scientists agree that better data 
        are critical for both restoring fish populations and increasing 
        recreational fishing opportunities, we urge the Congress to 
        support this increase in funding.
---------------------------------------------------------------------------
    \2\ NMFS, 2010, ``Fisheries Economics of the United States, 2008'', 
http://www.st.nmfs.noaa.gov/st5/publication/
fisheries_economics_2008.html.
---------------------------------------------------------------------------
      Survey and Monitoring Projects.--$24.2 million as requested, an 
        increase of $500,000 more than the fiscal year 2010 enacted 
        level. NOAA has stated that ``many fisheries lack adequate and 
        timely monitoring of catch and fishing effort''. \3\ Survey and 
        monitoring projects provide critical support for implementation 
        of the new ACL requirement. Increased funding will improve the 
        accuracy of ACLs and increase the percentage of stocks with 
        assessments.\4\ Additional funding for fishery-independent 
        surveys, monitoring, and research will improve estimates of 
        ecosystem change, fishing mortality and population size.
---------------------------------------------------------------------------
    \3\ NOAA, ``Budget Estimates, Fiscal Year 2009, Congressional 
Submission'', p. 166. Available at http://
www.corporateservices.noaa.gov/nbo/fy09_rollout_materials/
OAA_FY09_Final_ CJ.pdf.
    \4\ NOAA, ``Technical Memorandum NMFS-F/SPO-56: Marine Fisheries 
Stock Assessment Improvement Plan: Report of the National Marine 
Fisheries Service National Task Force for Improving Fish Stock 
Assessments'', October 2001. Available at http://www.nmfs.noaa.gov/pr/
sars/improvement/pdfs/marine_fisheries_saip.pdf.
---------------------------------------------------------------------------
      Observers/Training.--$39.1 million as requested, a decrease of 
        $1.9 million from the fiscal year 2010 enacted level. Trained 
        fisheries observers provide essential data on the amount and 
        type of fish caught by fishermen, which is used for compliance 
        monitoring and scientific stock assessments.\5\ NOAA considers 
        at-sea observers the most reliable source of information about 
        fishing catch and bycatch (i.e., incidental catch of nontarget 
        ocean wildlife).\6\ Funding for observer coverage will improve 
        the quality and quantity of fisheries data, especially 
        estimates of bycatch mortality, information that is critical to 
        estimating population size and sustainable fishing levels. 
        While we have strong reservations about the proposed cut to the 
        observers/training line item because of the impact it will have 
        on these important programs, we support the proposed fiscal 
        year 2012 funding request of $39.2 million.
---------------------------------------------------------------------------
    \5\ NOAA, ``NOAA Fiscal Year 2012 President's Budget'', Chapter 2: 
National Marine Fisheries Service, p. 315-19. Available at http://
www.corporateservices.noaa.gov/nbo/fy12_presidents_ budget/
National_Marine_Fisheries_Service_FY12.pdf.
    \6\ NOAA/NMFS, Evaluating Bycatch: A National Approach to 
Standardized Bycatch Monitoring Programs, NOAA Technical Memorandum 
NMFS-F/SPO-66, October 2004. 108 pp.
---------------------------------------------------------------------------
      Cooperative Research.--$7.2 million as requested by the 
        President, a decrease of $10.3 million from the fiscal year 
        2010 enacted level. Cooperative research programs pay 
        fishermen, working under the direction of Federal scientists, 
        to collect fisheries data and test new sustainable fishing gear 
        and practices. These programs provide jobs for fishermen and 
        also enable managers to tap into their on-the-water knowledge 
        and expertise to conduct critical research programs. In 2003, 
        NMFS estimated that it would need $25.5 million for cooperative 
        research by fiscal year 2009.\7\ The President's request will 
        only meet a fraction of this identified need, and we are 
        concerned about the effect of the proposed reduction on this 
        critical program.
---------------------------------------------------------------------------
    \7\ NMFS' 2003 5-year assessment estimated the need for cooperative 
research to be $22.8 million more than fiscal year 2003 levels by 
fiscal year 2009, for a total of $25.5 million.
---------------------------------------------------------------------------
      In addition, the President's fiscal year 2012 budget request 
        transfers $6 million out of the cooperative research line item 
        and into the National Catch Share Program line item. We believe 
        that any increases for catch share programs should be made with 
        new money, not transferred from existing general research 
        programs that should be available for all fisheries. Although 
        NMFS asserts that the $6 million will be used for cooperative 
        research in catch share fisheries, there is no guarantee that 
        it will continue to be used for cooperative research in the 
        future. Taking funding from general cooperative research, where 
        it would be available for all fisheries, and restricting it to 
        only catch share fisheries, short changes the vast majority of 
        fisheries, which are not catch share fisheries.
      Fisheries Research and Management Programs.--Total of $184.3 
        million as requested, a $6.5 million decrease from the fiscal 
        year 2010 enacted level. Fisheries research and management 
        programs provide accurate and timely information and analysis 
        of the biology and population status of managed fish, as well 
        as the socioeconomics of the fisheries that depend on those 
        populations. Such information is critical for the development 
        of management measures to ensure an end to overfishing. Because 
        of their vital role, Fisheries Research and Management Programs 
        should be funded at no less than the fiscal year 2012 request 
        of $184.3 million. In NOAA's fiscal year 2012 budget request, 
        $11.4 million is transferred from the Fisheries Research and 
        Management Programs line item into the National Catch Share 
        Program line item. As with Cooperative Research, no funds from 
        this line item should be transferred to the National Catch 
        Share Program because those funds would become permanently 
        unavailable to support research and management of the vast 
        majority of federally managed fisheries that are not currently 
        in a catch share program, and may not be included in one in the 
        future.
    Good fisheries management leads to healthy fish populations, a 
stable and productive fishing industry and robust recreational 
fisheries--a win-win for conservation, anglers and marine-related 
businesses. Today, because of the MSA, fishery managers are using 
science-based catch limits that do not allow overfishing and rebuild 
depleted fish populations to healthy levels. These requirements are 
working, providing economic benefits to fishing communities and the 
Nation as a whole, and promise to provide even greater returns in the 
future.
    We cannot afford to leave the job of bringing our fish populations 
back to healthy levels unfinished--our Nation's fishermen and our fish 
resources depend on it. NMFS data indicate that 39 of the 190 assessed 
commercially and recreationally important fish stocks (about 20 
percent) are still subject to overfishing, and another 43 populations 
remain at unhealthy levels.\8\ The relatively modest investments that 
we are requesting today will lead to healthy U.S. fish populations in 
the future, which according to NMFS will catalyze a $31 billion 
increase in annual sales and support for 500,000 new U.S. jobs.\9\
---------------------------------------------------------------------------
    \8\ NMFS (December 2010). 2010 Status of U.S. Fisheries: Fourth 
Quarter Update, www.nmfs.noaa.gov/sfa/statusoffisheries/SOSmain.htm.
    \9\ Testimony of Eric Schwaab on Implementation of the Magnuson-
Stevens Conservation and Management Act before the U.S. Senate 
Committee on Commerce, Science and Transportation Subcommittee on 
Oceans, Atmosphere, Fisheries and the Coast Guard, p. 3, March 8, 2011: 
http://www.legislative.noaa.gov/112testimony.html.
---------------------------------------------------------------------------
    We ask the subcommittee to continue its support of the MSA and 
invest at least $346.3 million in fiscal year 2012 in one of America's 
most valuable natural resources, our ocean fish populations, so that 
they can continue to provide significant and growing benefits for U.S. 
taxpayers through fishing jobs, healthy oceans, local seafood, and 
vibrant coastal communities.
                                 ______
                                 
 Prepared Statement of the Regional Information Sharing Systems Program
    The Regional Information Sharing Systems (RISS) Program was 
established more than 30 years ago by the law enforcement community for 
law enforcement agencies and officers to close the gap on information 
sharing and to serve as a force multiplier in the areas of secure 
communications, intelligence sharing, and investigative support. RISS 
is a proven and cost-effective program that leverages funding to 
support thousands of local, State, Federal, and tribal law enforcement 
agencies across the Nation. It is respectfully requested that the 
Congress appropriate $45 million to RISS for fiscal year 2012. This 
amount is level with fiscal year 2010 funding.
    RISS consists of six regional centers that tailor their services to 
meet the needs of their unique regions while working together on 
nationwide initiatives. The RISS Centers provide investigative services 
to more than 8,700 law enforcement and criminal justice agencies in all 
50 States, the District of Columbia, U.S. territories, Australia, 
Canada, England, and New Zealand. Hundreds of thousands of officers 
utilize RISS resources and services each year. RISS supports efforts 
against organized and violent crime, gang activity, drug activity, 
terrorism, human trafficking, identity theft, and other regional 
priorities, while promoting officer safety.
    Through RISS's timely and accurate intelligence information and 
critical investigative support services, law enforcement and criminal 
justice agencies have increased their success exponentially. These 
results are measured in the number of career criminals that are removed 
from our communities and the reduction of illicit drugs available on 
our streets. With level funding, RISS will continue to maintain the 
following critical services and programs:
  --Operate the six RISS Centers and the RISS Technology Support 
        Center;
  --Provide investigative support services, including analytical 
        services, equipment loans, and research assistance;
  --Operate and maintain the RISS Secure Intranet (RISSNET);
  --Operate, maintain, and enhance the RISS Criminal Intelligence 
        Databases (RISSIntel) and the RISS National Gang Intelligence 
        Database (RISSGang);
  --Operate and maintain the RISS Officer Safety Event Deconfliction 
        System (RISSafe);
  --Participate in and implement goals of the sensitive but 
        unclassified (SBU)/controlled unclassified information (CUI) 
        Interoperability Initiative (SII);
  --Operate and maintain the RISS Automated Trusted Information 
        Exchange (ATIX);
  --Operate the Pawnshop Database and identify strategies to expand the 
        application; and
  --Continue to support partnerships with fusion centers.
    The Bureau of Justice Assistance (BJA), Office of Justice Programs, 
Department of Justice, provides oversight and program management for 
the RISS Program. The RISS Centers have adopted appropriate operational 
policies as well as a privacy policy that fully complies with the 
Criminal Intelligence Systems Operating Policies (28 Code of Federal 
Regulations [CFR] Part 23). RISS firmly recognizes the need to ensure 
that an individual's constitutional rights, civil liberties, civil 
rights, and privacy interests are protected throughout the intelligence 
process.
    RISSNET is an existing and proven infrastructure that connects 
disparate systems and enables users to query connected systems 
simultaneously. RISSNET resources include RISSIntel, RISSafe, RISSGang, 
RISS ATIX, the RISS Investigative Leads Bulletin Board (RISSLeads), a 
data-visualization and link-analysis tool (RISSLinks), the RISS Search 
Engine (RISSearch), the RISS Center Web sites, and secure email. More 
than 600 resources from a variety of sources are available to 
authorized users via RISSNET. The owners of these resources rely on 
RISS for its secure infrastructure and communications.
    In fiscal year 2010, more than 3.4 million records were available 
in RISSIntel. In addition, RISS experienced more than 4 million 
inquiries to RISS resources. Users query RISSIntel to obtain 
information on subjects, weapons, and addresses. Users select one or 
all connected systems and conduct a federated search. In addition to 
RISSIntel, member agencies have access to various State, regional, 
Federal, and specialized criminal justice intelligence systems 
connected to RISSNET. Almost 100 agencies are connected or pending 
connection to RISSNET, including 31 High Intensity Drug Trafficking 
Areas, 38 State agency systems, and 22 Federal and other systems, such 
as the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); the 
Federal Bureau of Investigation (FBI) Law Enforcement Online; the FBI 
National Gang Intelligence Center; the National Virtual Pointer System; 
Nlets--The International Justice and Public Safety Network; and many 
others. RISS continually strives to maximize information sharing among 
these systems and increase the number of systems connected to RISSNET. 
By connecting agencies and systems to RISSNET, rather than funding the 
build-out of infrastructure for new stand-alone information systems, 
hundreds of millions of dollars are saved and millions of data records 
are easily and quickly accessed by law enforcement at little or no cost 
to the user.
    RISSafe stores and maintains data on planned law enforcement 
events, with the goal of identifying and alerting affected agencies and 
officers of potential conflicts impacting law enforcement efforts. 
RISSafe helps prevent undercover and other operations from conflicting 
and prevents officer injuries and deaths that might otherwise have 
occurred. RISSafe was honored as 1 of 10 2010 Honorable Mention winners 
at the 23d Annual Government Computer News Awards for ``Outstanding 
Information Technology Achievement in Government.'' In addition, in 
February 2011, RISSafe achieved a milestone with the 300,000th 
operation being entered into the application. Since RISSafe's 
inception, close to 100,000 conflicts have been identified.
    The RISS Officer Safety Web site serves as a nationwide repository 
for issues related to officer safety, such as concealments, hidden 
weapons, armed and dangerous threats, officer safety videos, special 
reports, and training opportunities. At the recent International 
Association of Chiefs of Police conference, the U.S. Attorney General 
addressed officer safety, specifically announcing the VALOR Program, 
which is designed to promote officer safety and prevent injuries and 
deaths to law enforcement officers in the line of duty. RISSafe and the 
RISS Officer Safety Web site are two RISS resources available to 
support the VALOR Program's efforts.
    The RISSGang Program consists of a criminal intelligence database, 
a Web site, informational resources, and secure communications to aid 
and support gang-related investigations. The RISSGang database provides 
access to gang information, including suspects, organizations, weapons, 
photographs of gang members, and graffiti. Like RISSIntel, the RISSGang 
database provides for a federated search, including the CalGang 
database. RISS is working to connect other gang intelligence databases 
to RISSNET, such as the ATF GangNet.
    RISS ATIX is available to thousands of law enforcement and public 
safety agencies. RISS ATIX resources include Web pages that contain 
general and community-specific information. The RISS ATIX Bulletin 
Board provides secure online conferences for users to collaborate and 
post information. The Document Library provides informational and 
educational materials. ATIX secure email enables the distribution of 
alerts, SBU/CUI, and other information.
    In addition to its information-sharing resources, RISS offers a 
full complement of investigative support services and resources to 
criminal justice agencies, setting RISS apart from other information 
sharing programs. The following summarizes RISS's investigative support 
services.
    Analysis.--RISS analysts developed 37,832 analytical products in 
fiscal year 2010 for investigators and prosecutors to help increase 
their ability to identify, detect, and apprehend suspects as well as 
enhance prosecutorial success in court. These products include link-
analysis charts, crime scene diagrams, telephone toll analysis and 
financial analysis reports, digital forensics analysis, and audio and 
video enhancement services.
    Investigative Support.--RISS intelligence research staff responded 
to 102,761 requests in fiscal year 2010 to conduct database searches 
and research numerous resources.
    Equipment Loans.--Pools of highly specialized investigative and 
surveillance equipment are available for loan to member agencies for 
use in support of multijurisdictional investigations. In fiscal year 
2010, 4,992 pieces of equipment were borrowed by member agencies.
    Confidential Funds.--RISS provides funds to purchase contraband, 
stolen property, and other items of an evidentiary nature or to provide 
for other investigative expenses. RISS provided $393,186 in 
confidential funds in fiscal year 2010.
    Training.--RISS Centers sponsor or cosponsor training classes, 
meetings, and conferences that build investigative expertise for 
member-agency personnel. In fiscal year 2010, 80,204 criminal justice 
professionals received RISS training.
    Publications.--Each center develops and distributes numerous 
publications, bulletins, and reports focusing on local and nationwide 
issues. In fiscal year 2010, the RISS Centers developed 317 documents 
and distributed thousands of copies of each to law enforcement 
personnel.
    Field Services Support.--The integration of field services is 
unique to RISS, whereby individuals regularly contact law enforcement 
and public safety agencies to ensure that RISS is meeting their needs. 
RISS field staff conducted 25,653 on-site visits in fiscal year 2010 to 
train, support, and help integrate RISS services. This one-on-one 
support has resulted in trusted relationships and a program prized 
among its members.
    All criminal justice entities throughout the country are facing 
tightened budgets and limited resources. RISS's structure and diverse 
services help augment their efforts. With the assistance of RISS 
services, agencies arrested 4,563 individuals during fiscal year 2010. 
In addition, agencies seized or recovered more than $23 million in 
narcotics, property, and currency.
    RISS seeks new and strengthens existing partnerships with other law 
enforcement entities and participates on regional and national 
committees to further expand and enhance information sharing. One 
critical initiative involving RISS is the SBU/CUI Interoperability 
Initiative. RISSNET is 1 of 4 SBU/CUI networks/systems participating in 
the initiative under the auspices of the White House and the Office of 
the Program Manager, Information Sharing Environment. The goal of this 
initiative is to provide single sign-on and access to a variety of 
system-to-system enhancements within an interoperable and protected 
SBU/CUI network/system environment for local, State, Federal, and 
tribal law enforcement, regardless of agency ownership of the 
individual network/system.
    RISS also supports a number of other programs and initiatives and 
provides the secure infrastructure for law enforcement to share 
information, including the Nationwide Suspicious Activity Reporting 
(SAR) Initiative, the National Center for Missing & Exploited Children, 
the National Motor Vehicle Title Information System, the United States 
Attorneys' Offices, and the FBI's National Gang Intelligence Center. In 
addition, information is shared on threats against elected officials 
and dignitaries through the U.S. Secret Service Targeted Violence 
Information Sharing System. RISS is supported by all national law 
enforcement organizations, such as the International Association of 
Chiefs of Police, the National Sheriffs' Association, and the National 
Narcotic Officers' Associations' Coalition, as well as numerous State 
associations.
    Each RISS Center has developed partnerships and programs to meet 
the needs of its unique region. Some examples include the Project Safe 
Neighborhoods Mapping and Analysis Program, the National Identity 
Crimes Law Enforcement Network, the Cold Case Locator System, the 
Metals Theft Initiative, the Master Telephone Index, the Pawnshop 
Database, the Combat Meth Project, and the Cold Hit Outcome Project.
    RISS is recognized in the National Criminal Intelligence Sharing 
Plan and the Law Enforcement Information Sharing Program Strategy as a 
mechanism to facilitate secure information sharing. RISS has become the 
program of choice for law enforcement and criminal justice agencies 
from across the Nation.
    It is respectfully requested that the Congress appropriate $45 
million for fiscal year 2012 to enable RISS to continue to serve the 
law enforcement community by providing resources, services, and 
programs they have come to rely on. It would be counterproductive to 
require local and State RISS members to self-fund match requirements, 
as well as to reduce the amount of BJA discretionary funding. Local and 
State agencies require more, not less, funding to fight the Nation's 
crime problem. RISS is unable to make up the decrease in funding that a 
match would cause, and it has no revenue source of its own. Cutting the 
RISS appropriation by requiring a match should not be imposed on the 
program.
    RISS provides resources and capabilities to share critical 
information nationwide, serves as a secure platform for other criminal 
justice entities to share and exchange their information, and provides 
investigative support services that, in many cases, agencies would not 
otherwise receive. RISS is essential in promoting officer safety and 
creating a safer work environment for our Nation's law enforcement. 
Appropriate funding and support will enable RISS to continue its 
programs while effectively serving the criminal justice community. For 
additional information on the RISS Program, visit www.riss.net. RISS 
appreciates the support this subcommittee has continuously provided to 
the RISS Program and is grateful to provide this testimony.
                                 ______
                                 
 Prepared Statement of the Southern CATCH--South Atlantic Fishermen's 
                              Association
    Dear Chairman Mikulski, Ranking Member Hutchinson, and members of 
the subcommittee: I write on behalf of the South Atlantic Fishermen's 
Association, a new and growing organization made up of fishermen and 
seafood lovers from North Carolina to the Florida Keys. We work to 
protect the Southeast's fishing heritage by advocating for sustainable 
year-round fishing rules, collecting better fishery science, and 
connecting consumers and businesses with fishermen, to improve the 
abundance and accessibility of local seafood. We also want to pass our 
fishing heritage on to future generations.
    We strongly support the $54 million in funding for the National 
Oceanic and Atmospheric Administration's (NOAA) National Catch Share 
Program in fiscal year 2012. We oppose recent efforts to prohibit 
fishermen from considering catch share programs, because commercial 
fishermen should have the option to implement catch share programs if 
they so choose.
    Commercial fishing in the South Atlantic is an important part of 
the economy, and local fishing supports jobs and the seafood industry, 
generating more than $7 billion in annual sales and supporting 137,000 
jobs. But, current management isn't working and the commercial fishing 
industry is facing difficult times.
    What we want is management that gives commercial fishermen 
flexibility and more time on the water. Catch share programs could 
provide this freedom by enabling fishermen to stabilize their 
businesses and helping to ensure a sustainable fishery for future 
generations.
    After implementing catch shares, fishermen in the Gulf of Mexico 
were able to fish year-round and provide local, fresh product to 
consumers. Catch shares helped Gulf of Mexico fishermen cut operating 
costs and avoid market gluts that drove fish prices down. This resulted 
in a sustainable commercial fishery and profitable fishing businesses.
    South Atlantic commercial fishermen should have the opportunity to 
develop catch share programs, and a portion of the $54 million in 
funding in fiscal year 2012 for NOAA's National Catch Share Program 
would help us to do this.
    We would also like to reiterate our opposition to a recent 
amendment offered by Representative Walter Jones (R-NC) that is 
included in the final fiscal year 2011 budget agreement. This amendment 
would prohibit funding for approval of new catch share programs by the 
Gulf of Mexico, South Atlantic, Mid-Atlantic, and New England Regional 
Fishery Management Councils.
    Taking away fishermen's access to catch shares is not going to end 
the loss of fishing jobs, or put an end to fisheries closures or 
consolidation. This amendment is going to lengthen the struggle for our 
fisheries, which we cannot afford. Fishermen already feel like they 
don't have a voice in the process and this is just one more step that 
will distance fishermen from the fishery management process.
    The future of our region's commercial fishing industry is at stake. 
We need a sustainable fishery and strong fishing businesses that will 
attract future generations of fishermen. Catch shares are a management 
tool that could help us achieve this. We need the Congress to provide 
funding and the flexibility for fishermen to work with the South 
Atlantic Fishery Management Council on catch shares.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience
                              introduction
    Mr. Chairman and members of the subcommittee, my name is Susan 
Amara, Ph.D. I am the Thomas Detre Professor of Neuroscience and chair 
of the Department of Neurobiology as well as co-director of the Center 
for Neuroscience at the University of Pittsburgh and president of the 
Society for Neuroscience (SfN). My major research efforts have been 
focused on the structure, physiology, and pharmacology of a group of 
proteins in the brain that are the primary targets for addictive drugs 
including cocaine and amphetamines, for the class of therapeutic 
antidepressants, known as reuptake inhibitors, and for methylphenidate, 
which is used to treat attention deficit hyperactivity disorders.
    On behalf of the more than 41,000 members of SfN and myself, I 
would like to thank you for your past support of neuroscience research 
at the National Science Foundation (NSF). Over the past century, 
researchers have made tremendous progress in understanding cell 
biology, physiology, and chemistry of the brain. Research funded by NSF 
has made it possible to make advances in brain development, imaging, 
genomics, circuit function, computational neuroscience, neural 
engineering, and other disciplines. In this testimony, I will highlight 
how these advances have benefited taxpayers and why we should continue 
to strengthen this investment, even as the Nation makes difficult 
budget choices.
                    fiscal year 2012 budget request
    SfN supports the President's request of $7.7 billion for NSF in 
fiscal year 2012, a 13-percent increase more than fiscal year 2010. 
This level of funding will enable the field to serve the long-term 
needs of the Nation by continuing to advance science, improve health, 
and promote America's near-term and long-range economic strength by 
investing in the proven economic engine of discovery.
    Continued investment in basic research at NSF is essential to 
laying the groundwork for discoveries that will inspire scientific 
pursuit and technological innovation for future generations. Also, as 
reflected in the America COMPETES Act, aggressive investment in 
technology and scientific research is crucial to ensure America 
sustains its global leadership and competitiveness. Science is now a 
truly global enterprise that has the potential to revolutionize human 
knowledge, health, and wellness--the question is whether America will 
maintain its role leading the next generation of scientific advances.
    Resources provided to NSF will go to support the Nation's best and 
brightest researchers at the forefront of promising discoveries, to 
deserving graduate students at the start of their careers, and to 
developing advanced scientific tools and infrastructure that will be 
broadly available to the research community.
                  what is the society for neuroscience
    SfN is a nonprofit membership organization of basic scientists and 
physicians who study the brain and nervous system. Its mission is to:
  --Advance the understanding of the brain and the nervous system by 
        bringing together scientists of diverse backgrounds, by 
        facilitating the integration of research directed at all levels 
        of biological organization, and by encouraging translational 
        research and the application of new scientific knowledge to 
        develop improved disease treatments and cures.
  --Provide professional development activities, information and 
        educational resources for neuroscientists at all stages of 
        their careers, including undergraduates, graduates, and 
        postdoctoral fellows, and increase participation of scientists 
        from a diversity of cultural and ethnic backgrounds.
  --Promote public information and general education about the nature 
        of scientific discovery and the results and implications of the 
        latest neuroscience research. Support active and continuing 
        discussions on ethical issues relating to the conduct and 
        outcomes of neuroscience research.
  --Inform legislators and other policymakers about new scientific 
        knowledge and recent developments in neuroscience research and 
        their implications for public policy, societal benefit, and 
        continued scientific progress.
                          neuroscience and nsf
    Neuroscience is the study of the nervous system. It advances the 
understanding of human thought, emotion, and behavior. Neuroscientists 
use tools ranging from computers to special dyes to examine molecules, 
nerve cells, networks, brain system, and behavior. From these studies, 
we learn how the nervous system develops and functions normally and 
what goes wrong in neurological and psychiatric disorders.
    SfN supports the President's proposed increase for NSF because NSF 
research is indispensable to studying how the brain functions, how it 
controls behavior and health, and how to develop new tools to treat 
many debilitating diseases and disorders. The field of neuroscience is 
deeply interdisciplinary and interdisciplinary collaboration is the 
hallmark of NSF research. For example, NSF-funded biologists and 
neuroscientists are discovering fundamental mechanisms important to 
understanding how humans and other animals behave, develop, 
communicate, learn, and process information. Understanding the 
neuroscience of animal diversity is necessary as we confront 
environmental and agricultural changes in the future. Also, NSF-funded 
physicists, mathematicians, computer scientists, and engineers have 
conducted groundbreaking work that enables the analysis of EEG data, 
the development of advanced brain prosthetic devices, and other 
technologies that will assist in the rapid diagnosis and treatment of 
epilepsy and stroke. NSF-funded statisticians are developing new 
methods for analysis of the large amounts of genome data, on humans and 
other organisms, and developing better statistical tools for looking at 
the effects of the environment on human and animal populations. NSF-
funded chemists have developed new methods that allow for the extremely 
accurate measurement of very small amounts of brain hormones.
    As the subcommittee works to set funding levels for critical 
research initiatives for fiscal year 2012 and beyond we need to do more 
than establish a budget that is ``workable'' in the context of the 
current fiscal situation. We ask you to help establish a national 
commitment to advance the understanding of the brain and the nervous 
system--an effort that has the potential to transform the lives of 
thousands of people living with brain-based diseases and disorders. 
Help us to fulfill our commitment to overcoming the most difficult 
obstacles impeding progress, and to identifying critical new directions 
in basic neuroscience.
                     brain research and discoveries
    The power of basic science unlocks the mysteries of the human body 
by exploring the structure and function of molecules, genes, cells, 
systems, and complex behaviors. Every day, neuroscientists are 
advancing scientific knowledge and medical innovation by expanding our 
knowledge of the basic makeup of the human brain. In doing so, 
researchers exploit these findings and identify new applications that 
foster scientific discovery which can lead to new and ground-breaking 
medical treatments.
    Basic research funded by the NSF continues to be essential to 
ensuring discoveries that will inspire scientific and medical progress 
for future generations. We know from past experience that it is not 
always clear where the next critical breakthrough or innovative 
approach will come from--progress in science depends on imaginative 
curiosity-driven research that makes leaps in ways no one could have 
anticipated, and it is often identified through basic research funded 
at NSF. Where would neuroscience and cell biology be without a rainbow 
of fluorescent proteins from jellyfish? The original discovery of green 
florescent protein earned three researchers the Nobel Prize for 
chemistry in 2008 and their work is now illuminating pathways of study 
for neurological diseases and disorders. Where would cutting edge work 
in systems neuroscience be today without research on channel rhodopsins 
from algae? This discovery has blossomed into the burgeoning field of 
optogenetics and now holds promise for novel, noninvasive treatments 
for brain disorders. More than ever is it important to support and fund 
research at many levels from the most basic to translational, from the 
biological to the physical, in pursuit of human understanding and 
scientific advances.
    Indeed, many of the new findings in neuroscience can be traced back 
to fundamental work in diverse research fields that has contributed to 
new technologies of all kinds. This allows us to carry out new kinds of 
experiments not imaginable even 5-10 years ago. These discoveries have 
great potential to improve the lives of Americans and almost certainly 
would not have been made without the strong commitment to 
interdisciplinary research at NSF. The following are a few additional 
basic research success stories in neuroscience research.
Nicotine Addiction
    Although tobacco has been used legally for hundreds of years, 
nicotine addiction takes effect through pathways similar to those 
involving cocaine and heroin. During addiction, drugs activate brain 
areas that are typically involved in the motivation for other 
pleasurable rewards such as eating or drinking. These addictions leave 
the body with a strong chemical dependence that is very hard to get 
over. In fact, almost 80 percent of smokers who try to quit fail within 
their first year. The lack of a reliable cessation technique has 
profound consequences. Tobacco-related illnesses kill as many as 
440,000 Americans every year, and thus the human and economic costs of 
nicotine addiction are staggering. One out of every five U.S. deaths is 
related to smoking.
    Past Federal funding has enabled scientists to understand the 
mechanisms of nicotine addiction, enabling them to develop successful 
treatments for smoking cessation. The discoveries that lead to these 
findings started back in the 1970s, when scientists identified the 
substance in the brain that nicotine acted on to transmit its 
pleasurable effects. They found that nicotine was hijacking a receptor, 
a protein used by the brain to transmit information. This receptor, 
called the nicotinic acetylcholine receptor, regulates the release of 
another key transmitter, dopamine, which in turn acts within reward 
circuits of the brain to mediate both the positive sensations and 
eventual addiction triggered by nicotine consumption. This knowledge 
has been the basis for the development of several therapeutic 
strategies for smoking cessation: nicotine replacement, drugs that 
target nicotine receptors, as well as drugs that prevent the reuptake 
of dopamine have all been shown to increase the long-term odds of 
quitting by several fold.
    More recently, using mice genetically modified to have their 
nicotinic acetylcholine receptors contain one specific type of subunit, 
scientists determined that some kinds of receptor subunits are more 
sensitive to nicotine than others, and because each subunit is 
generated from its own gene, this discovery indicated that genetics can 
influence how vulnerable a person is to nicotine addiction. Further 
research to spot genetic risk factors and to generate genetically 
tailored treatment options is ongoing. Other studies are also testing 
whether a vaccine that blocks nicotine's effects can help discourage 
the habit. Since people who are able to quit smoking immediately lower 
their risk for certain cancers, heart disease and stroke, reliable and 
successful treatments are clearly needed. Today's continued research 
funding can make it possible for these emerging therapies to ultimately 
help people overcome the challenges of nicotine addiction.
Brain-machine Interface
    The brain is in constant communication with the body in order to 
perform every minute motion from scratching an itch to walking. 
Paralysis occurs when the link between the brain and a part of the body 
is severed, and eliminates the control of movement and the perception 
of feeling in that area. Almost 2 percent of the U.S. population is 
affected by some sort of paralysis resulting from stroke, spinal cord, 
or brain injury as well as many other causes. Previous research has 
focused on understanding the mechanisms by which the brain controls a 
movement. Research during which scientists were able to record the 
electrical communication of almost 50 nerve cells at once showed that 
multiple brain cells work together to direct complex behaviors. 
However, in order to use this information to restore motor function, 
scientists needed a way to translate the signals that neurons give into 
a language that an artificial device could understand and convert to 
movement.
    Basic science research in mice lead to the discovery that thinking 
of a motion activated nerve cells in the same way that actually making 
the movement would. Further studies showed that a monkey could learn to 
control the activity of a neuron, indicating that people could learn to 
control brain signals necessary for the operation of robotic devices. 
Thanks to these successes, brain-controlled prosthetics are being 
tested for human use. Surgical implants in the brain can guide a 
machine to perform various motor tasks such as picking up a glass of 
water. These advances, while small, are a huge improvement for people 
suffering from paralysis. Scientists hope to eventually broaden the 
abilities of such devises to include thought-controlled speech and 
more. Further research is also needed to develop noninvasive interfaces 
for human-machine communication, which would reduce the risk of 
infection and tissue damage. Understanding how neurons control movement 
has had and will continue to have profound implications for victims of 
paralysis.
    A common theme of both these examples of basic research success 
stories is that they required the efforts of basic science researchers 
discovering new knowledge, of physician scientists capable adapting 
those discoveries into better treatments for their patients and of 
companies willing to build on all of this knowledge to develop new 
medications and devices.
             the next generation of science and scientists
    Finally, another key aspect of NSF is its support for science 
education and training. SfN recognizes the leadership role that NSF 
plays in driving innovation in science education. Investment in pre-
college and collegiate science-technology-engineering-math instruction 
is vital to providing a strong pipeline of knowledgeable and motivated 
young people who will make future discoveries. Additionally, I must 
emphasize that NSF is a leading force in the development of the next 
generation of scientists through its support of training. Through NSF 
grants and cooperative agreements with colleges, universities, K-12 
school systems, and other research organizations throughout the United 
States, neuroscientists can continue to conduct the basic research that 
advances scientific knowledge and leads to tomorrow's treatments and 
cures, while mentoring and training students of all levels.
    As the subcommittee considers this year's funding levels and in 
future years, I hope that the members will consider that significant 
advancements in the biomedical sciences often come from younger 
investigators who bring new insights and approaches to bear on old or 
intractable problems. Without sustained investment, I fear that flat or 
falling funding will begin to take a toll on the imagination, energy, 
and resilience of younger investigators and I wonder about the impact 
of these events on the next generation. America's scientific 
enterprise--and its global leadership--has been built over generations, 
but without sustained investment, we could lose that leadership 
quickly, and it will be difficult to rebuild.
                               conclusion
    The field of neuroscience research holds tremendous potential for 
making great progress to understand basic biological principles and for 
addressing the numerous neurological and psychiatric illnesses that 
strike more than 100 million Americans annually. While we have made 
great strides toward understanding molecules, cells and brain 
circuitry, scientists continue to unearth how these circuits come 
together in systems to do things like record memories, illuminate 
sight, and produce language. We have entered an era in which knowledge 
of nerve cell function has brought us to the threshold of a more 
profound understanding of behavior and of the mysteries of the human 
body and mind. However, this can only be accomplished by a consistent 
and reliable funding source.
    An NSF appropriation of $7.7 billion for fiscal year 2012 is 
required to take the research to the next level in order to improve the 
health of Americans and to sustain America's global leadership in 
science. Thank you for this opportunity to testify.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                              Mathematics
    This written testimony is submitted on behalf of the Society for 
Industrial and Applied Mathematics (SIAM) to ask you to continue your 
support of the National Science Foundation (NSF) in fiscal year 2012 by 
providing NSF with $7.767 billion. In particular, we urge you to 
provide the request level for key applied mathematics and computational 
science programs in the Division of Mathematical Sciences and the 
Office of Cyberinfrastructure.
    We are submitting this written testimony for the record to the 
Subcommittee on Commerce, Justice, Science, and Related Agencies of the 
Committee on Appropriations of the United States Senate on behalf of 
SIAM.
    SIAM has approximately 13,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has more than 400 institutional members, including colleges, 
universities, corporations, and research organizations.
    First, we would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of NSF and its support for mathematics, science, and engineering 
in enabling a strong U.S. economy, workforce, and society.
    Today, we submit this testimony to ask you to continue your support 
of NSF in fiscal year 2012 and beyond. In particular, we request that 
you provide NSF with $7.767 billion, the level requested for this 
agency in the fiscal year 2012 budget request.
    As we are reminded every day, the Nation's economic strength, 
national security, and public health and welfare are being challenged 
in profound and unprecedented ways. Addressing these challenges 
requires that we confront fundamental scientific questions. 
Computational and applied mathematical sciences, the scientific 
disciplines that occupy SIAM members, are particularly critical to 
addressing U.S. competitiveness and security challenges across a broad 
array of fields:
  --medicine;
  --engineering;
  --technology;
  --biology;
  --chemistry; and
  --computer science.
    Furthermore, in the face of economic peril, Federal investments in 
mathematics, science, and engineering create and preserve good jobs; 
stimulate economic activity; and help to maintain U.S. pre-eminence in 
innovation, upon which our economy depends.
                                  nsf
    NSF provides essential Federal support of applied mathematics and 
computational science, including more than 60 percent of all Federal 
support for basic academic research in the mathematical sciences. Of 
particular importance to SIAM, NSF funding supports the development of 
new mathematical models and computational algorithms, which are 
critical to making substantial advances in such fields as climate 
modeling, energy technologies, genomics, analysis and control of risk, 
and nanotechnology. In addition, new techniques developed in 
mathematics and computing research often have direct application in 
industry. Modern life as we know it, from search engines like Google to 
the design of modern aircraft, from financial markets to medical 
imaging, would not be possible without the techniques developed by 
mathematicians and computational scientists. NSF also supports 
mathematics education at all levels, ensuring that the next generation 
of the U.S. workforce is appropriately trained to participate in 
cutting-edge technological sectors and that students are attracted to 
careers in mathematics and computing.
    Below are highlights of the main budgetary and programmatic 
components at NSF that support applied mathematics and computational 
science.
                 nsf division of mathematical sciences
    NSF's Division of Mathematical Sciences (DMS) provides the core 
support for all mathematical sciences. DMS supports areas such as:
  --algebra;
  --analysis;
  --applied mathematics;
  --combinatorics;
  --computational mathematics;
  --foundations;
  --geometry;
  --mathematical biology;
  --number theory;
  --probability;
  --statistics; and
  --topology.
    In addition, DMS supports national mathematical science research 
institutes; infrastructure, including workshops, conferences, and 
equipment; and postdoctoral, graduate, and undergraduate training 
opportunities.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, provide new ways of 
obtaining insight into the nature of complex phenomena, such as the 
power grid, software for military applications, the human body, and 
energy-efficient building systems. SIAM strongly urges you to provide 
DMS with the budget request level of $260.4 million to enable sustained 
investment by NSF in critical mathematical research and related 
mathematical education and workforce development programs.
    In particular, investment in DMS is critical because of the 
foundational and cross-cutting role that mathematics and computational 
science play in sustaining the Nation's economic competitiveness and 
national security, and in making substantial advances on societal 
challenges such as energy, the environment, and public health. NSF, 
with its support of a broad range of scientific areas, plays an 
important role in bringing U.S. expertise together in interdisciplinary 
initiatives that bear on these challenges. DMS has traditionally played 
a central role in such cross-NSF efforts, with programs supporting the 
interface of mathematics with a variety of other fields, such as 
geosciences, biology, cyber discovery, and solar energy.
    SIAM supports DMS's role in enabling interdisciplinary work and 
draws your attention to the proposed Research at the Interface of 
Biological, Mathematical, and Physical Sciences and Engineering 
(BioMaPS) Initiative, which would support research in mathematical and 
computational biology to expand our understanding of biological 
processes and inspire potentially transformative new technologies for 
manufacturing and energy. This effort is particularly timely in light 
of the challenges outlined in the 2009 National Research Council report 
on ``A New Biology for the 21st Century''. The report emphasizes the 
need for development of new information technologies and sciences and 
creation and implementation of interdisciplinary curricula, graduate 
training programs, and educator training in order to create a 
quantitative approach in biological and other sciences to tackle key 
challenges in food, environment, energy, and health.
                nsf office of cyberinfrastructure (oci)
    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF OCI focus on 
providing research communities access to advanced computing 
capabilities to convert data to knowledge and increase our 
understanding through computational simulation and prediction.
    SIAM strongly urges you to provide OCI with the budget request 
level of $236 million to invest in the computational resources and 
science needed to solve complex science and engineering problems. In 
addition, SIAM strongly endorses OCI's efforts to take on the role of 
steward for computational science across NSF, strengthening NSF support 
for relevant activities and driving universities to improve their 
research and education programs in this multidisciplinary area.
    The programs in OCI that support work on software and applications 
for the next generation of supercomputers and other cyberinfrastructure 
systems are very important to enable effective use of advances in 
hardware, to facilitate applications that tackle key scientific 
questions, and to better understand increasingly complex software 
systems. SIAM strongly supports the proposed fiscal year 2012 increase 
in funding for OCI software activities, particularly for the Software 
Institutes program, which is aimed at supporting a community of 
partnerships among academia, government laboratories, and industry for 
the development and stewardship (expansion, hardening, and maintenance) 
of sustainable end-to-end software systems. SIAM also supports the 
proposed increase in OCI data activities including data infrastructure, 
tools, and repositories. The explosion in data available to scientists 
from advances in experimental equipment, simulation techniques, and 
computer power is well known, and applied mathematics has an important 
role to play in developing the methods and tools to translate this 
shower of numbers into new knowledge.
    SIAM also supports the new agency-wide initiative, 
Cyberinfrastructure Framework for 21st Century Science and Engineering. 
This proposed program would develop comprehensive, integrated, 
sustainable, and secure cyberinfrastructure to accelerate research and 
capabilities in computational and data-intensive science and 
engineering.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a critical role of NSF and a major step that the Federal 
Government can take to ensure the future prosperity and welfare of the 
United States. Currently, the economic situation is negatively 
affecting the job opportunities for young mathematicians--at 
universities, companies, and other research organizations. It is not 
only the young mathematicians who are not being hired who will suffer 
from these cutbacks. The research community at large will suffer from 
the loss of ideas and energy that these graduate students, postdoctoral 
fellows, and early career researchers bring to the field and the 
country will suffer from the lost innovation.
    In light of this situation, SIAM strongly supports NSF's proposed 
fiscal year 2012 increases in the Graduate Research Fellowship (GRF) 
program and the Faculty Early Career Development (CAREER) program. The 
GRF program would receive $198 million which would support 2,000 new 
graduate student awards. This funding would also allow NSF to increase 
the cost of education allowance in fiscal year 2012 from $10,500 to 
$12,000, as mandated in the America COMPETES Reauthorization Act. The 
CAREER program would receive $222 million and would support an 
additional 60 CAREER awards, totaling 606 new awards for fiscal year 
2012 if funded.
                               conclusion
    We would like to conclude by thanking you again for your ongoing 
support of NSF that enables the research and education communities it 
supports, including thousands of SIAM members, to undertake activities 
that contribute to the health, security, and economic strength of the 
United States. NSF needs sustained annual funding to maintain our 
competitive edge in science and technology, and therefore we 
respectfully ask that you continue robust support of these critical 
programs by providing $7.767 billion for NSF for fiscal year 2012.
    We appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM. SIAM looks forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2012 appropriations process.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Thank you for the opportunity to offer the recommendations of The 
Nature Conservancy (TNC) on the fiscal year 2012 budget for the 
National Oceanic and Atmospheric Administration (NOAA).
    The devastating gulf oil spill last year reminded us of the immense 
human, economic, and ecological value of healthy coastal and marine 
systems. As part of the response to the spill, President Obama 
established a comprehensive national policy for the stewardship of our 
ocean, coasts, and Great Lakes, to include a framework for effective 
marine spatial planning. NOAA's programs and products directly 
contribute to this national vision. By ensuring the sound management 
and conservation of our natural resources while supporting the 
functions of major industries including transportation, energy, 
tourism, and recreational and commercial fishing, NOAA provides a vital 
service to the country.
    TNC urges the subcommittee to dispense appropriations for NOAA as 
requested in the President's budget for fiscal year 2012. As our top 
priorities, TNC supports the following funding levels for specific NOAA 
efforts:

                        [In millions of dollars]
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Regional Spatial Planning and Partnerships.............             26.8
Coral reefs............................................             27
Coastal and estuarine land conservation................             25
Habitat restoration....................................             29.9
Fisheries management:
    National Catch Share Program.......................             54
    Expand annual stock assessments....................             67.1
Pacific salmon and protected species conservation......             88.8
------------------------------------------------------------------------

                    noaa and the nature conservancy
    At more than 100 marine sites around the world, TNC has used a 
variety of strategies for marine and coastal conservation including 
habitat restoration, removal of invasive species, coastal land 
acquisition, private conservation of submerged lands, establishment of 
protected areas, management of extractive marine resources activities, 
and reduction of nutrient and toxic inputs to coastal systems.
    Over the years, and across many of these sites, NOAA has been an 
invaluable partner to TNC. NOAA programs that provide practical, 
community-oriented approaches to restoration, resource management, and 
conservation are natural fits for TNC's mission. The Coastal Services 
Center and National Estuarine Research Reserve programs educate 
hundreds of local community officials and practitioners to better ways 
to apply tools and science. In addition, NOAA's data, research, and 
monitoring of coastal and marine systems directly provide data and 
decision-support tools that inform the safe operations of industry, 
prioritize habitats for restoration, and advance science-based 
management decisions.
    The following detailed funding recommendations highlight critical 
programs that support marine, estuarine, and coastal conservation and 
restoration.
Regional Spatial Planning and Partnerships ($26.8 million)
    Coastal and Marine Spatial Planning (CMSP) ($6.8 million).--We need 
a coordinated approach and thoughtful planning that resolves conflicts, 
enhances our ability to most fully utilize oceans, and maintains 
healthy marine habitats. CMSP is a decisionmaking process that creates 
a blueprint for ocean use and conservation by bringing together diverse 
oceans users; mapping ocean activities, marine species, and habitats; 
providing a forum to proactively make informed decisions about how to 
best use our shared marine resources; and creating a coordinated way to 
allocate marine spaces and assess tradeoffs to simultaneously achieve 
multiple goals. The fiscal year 2012 President's budget proposes $6.8 
million to develop agency capability to implement CMSP, including 
creating maps of important areas and existing area-based management 
authorities, developing decision support tools, facilitating data 
integration, and supporting interagency coordination. TNC supports 
funding to conduct habitat mapping and characterization in high-
priority areas. Without adequate information on habitat types and 
distributions, science-based decisionmaking will be severely limited. 
In addition, funding is needed to identify and map existing human uses, 
as well as to analyze potential conflicts between uses and how certain 
uses may impact ecological factors.
    Regional Ocean Partnerships (ROP) ($20 million).--The fiscal year 
2012 President's budget requests $20 million for grants to Regional 
Ocean Partnerships (ROPs). The proposed funding would provide support 
to implement priority actions identified by existing and developing 
ROPs, including the Northeast Regional Ocean Council, the Mid-Atlantic 
Regional Council on Oceans, the South Atlantic Alliance, the Gulf of 
Mexico Alliance, the West Coast Governors' Agreement on Ocean Health, 
and the Council of Great Lakes Governors. These multi-State 
collaborations originated to address regional priorities such as 
habitat conservation and restoration, energy siting, coastal resilience 
to severe storms, coastal water quality, and regional data and science 
needs. Additional funding should be provided to support State and 
regional engagement in the development of CMSP, including stakeholder 
processes and consensus building tools, analysis of data and 
information, and facilitation of broad public participation in the CMSP 
process. Up to 5 percent of the funding should be available to pay for 
administration of the ROPs so that these entities can guide regional 
efforts.
Coral Reef Conservation ($27 million)
    The decline of coral reefs has significant social, cultural, 
economic, and ecological impacts on people and communities in the 
United States and around the world. As the ``rainforests of the sea'', 
coral reefs provide services estimated to be worth as much as $375 
billion each year.
    TNC works with the NOAA Coral Reef Conservation Program under a 
competitively awarded, multi-year cooperative agreement to address the 
top threats to coral reef ecosystems:
  --climate change;
  --overfishing; and
  --land-based sources of pollution.
    Together we work on developing place-based strategies; developing 
resilient marine protected area networks; measuring the effectiveness 
of management efforts; and building capacity among reef managers at the 
global scale. NOAA has undertaken a coral reef conservation priority 
setting exercise in all seven of the U.S. jurisdictions with coral reef 
resources. The $27 million would provide funding to support 
implementation of these locally driven conservation priorities and 
efforts to provide for more comprehensive mapping and data compilation 
and analysis on cold water corals in U.S. waters.
Coastal and Estuarine Land Conservation (CELCP) ($25 million)
    CELCP.--The Conservancy supports funding CELCP at $25 million for 
fiscal year 2012. To date, the Congress has appropriated funds to 
complete more than 150 conservation projects, with more in progress. 
These projects have taken place in 28 of the Nation's 35 coastal States 
have already conserved more than 45,000 acres of the Nation's coastal 
treasures. Federal funding has been issued on a competitive basis and 
leveraged by at least an equal amount of State, local, and private 
investments. Over a 3-year period, $230 million of vetted ranked 
projects were identified, yet only $74 million in funding was 
available. Funding for CELCP needs to accommodate a greater percentage 
of the overall demand for coastal acquisition projects.
Habitat Restoration ($29.9 million)
    Fisheries Habitat Restoration.--This level of funding will provide 
$23.9 million for the Community-based Restoration Program and $6 
million for the Open Rivers Initiative. These programs restore 
important natural systems that provide long-term ecological and 
economic benefits. In 2010, the Congress provided $167 million for NOAA 
habitat restoration under the American Recovery and Reinvestment Act 
(ARRA). These funds were successful in creating hundreds of jobs--an 
estimated 20.3 jobs per $1 million--and restoring important habitats 
such as oyster reefs that communities rely upon for their culture and 
economy. The competitive call for projects under the ARRA generated 
more than 800 requests for funding and showed a demand of $3 billion in 
community-driven ecological and economically significant projects. To 
address this overwhelming backlog of restoration work, we ask the 
subcommittee to support this program.
Fisheries Management ($121 million)
    The provisions of the reauthorization of the Magnuson-Stevens 
Fisheries Conservation and Management Act (MSA) in 2007 were intended 
to provide a more aggressive approach to ending overfishing in the 
United States and address destructive fishing practices in U.S. waters. 
Most U.S. fisheries have traditionally been managed under an open 
access quota system that for decades encouraged and subsidized fleet 
expansion, heavy dependence and investment on particular fishing gear, 
and shorter fishing seasons--all contributors to overfishing and other 
challenges. The requirements of the MSA have aided the United States in 
making strides in addressing these challenges and strengthening 
fisheries management; however, improvements need to continue. For 
example, the administration has recognized the need to look beyond 
traditional open-access management and in some regions implemented 
limited-entry programs. To recover fish stocks so that they provide 
food and jobs to struggling fishermen now and in the future, we need to 
move beyond limited entry and toward innovative management practices 
that consider both the impacts of fishing practices on the marine 
environment, as well as the needs of local communities that depend on 
fishing for their livelihood. Moreover, the design of many existing 
limited access fisheries in the United States need improvements to 
increase environmental and economic performance.
      National Catch Share Program ($54 million).--By giving 
        participating fishermen a stake in the benefits of a well-
        managed fishery, National Marine Fisheries Service (NMFS) aims 
        to align the incentives for resource stewardship with the 
        natural incentive for fishermen to increase their earnings with 
        a sustainable business model. Getting the design and 
        implementation of these new catch share programs right is 
        crucial to their success. For example, improved fishery 
        monitoring is imperative to successful catch share systems and 
        to meeting fundamental requirements of the MSA. Better 
        monitoring leads to better science, better science leads to 
        better management, and better management leads to better, and 
        more consistent, economic outcomes for fishing communities. 
        Monitoring, combined with clear environmental goals and 
        provisions for access for communities to adjacent fishing 
        grounds, will allow catch share programs to drive the 
        sustainable use of a public resource.
      Expand Annual Stock Assessments ($67.1 million).--The MSA 
        mandates the establishment, by 2011, of annual catch limits in 
        all fisheries to prevent overfishing. However, current lack of 
        information and assessment capacity for many fish stocks makes 
        this impossible, putting at risk both valuable fisheries and 
        the livelihoods of fishing communities across the United 
        States. Incomplete scientific information for many fish stocks 
        resulting from lack of adequate stocks assessments forces 
        fishery managers to resort to setting annual catch limits in an 
        overly conservative manner, thus limiting fishing opportunity. 
        Adequate stock assessments are essential for the sound 
        management of fisheries and the sustainability of fishing 
        resources.
Pacific Salmon and Protected Species Conservation ($88.8 million)
    Pacific Coastal Salmon Recovery Fund (PCSRF) ($65 million).--PCSRF 
has funded hundreds of successful, on-the-ground salmon conservation 
efforts. PCSRF projects are matched at a 3:1 ratio (Federal/non-
Federal) and have resulted in significant progress in protecting and 
restoring salmon across their range.
    Species Recovery Grants ($23.8 million).--Through this program, 
NMFS provides grants to States to support conservation actions that 
contribute to recovery or have direct conservation benefits for listed 
species, recently de-listed species, and candidate species that reside 
within that State. We support the President budget's request for $23.8 
million.
    Thank you for this opportunity to share with the subcommittee the 
Conservancy's priorities in NOAA's fiscal year 2012 budget.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR), I submit this testimony to the Senate Appropriations 
Subcommittee on Commerce, Justice, Science, and Related Agencies for 
the subcommittee record. UCAR is a consortium of more than 100 research 
institutions including 76 doctoral-degree-granting universities, that 
manages and operates the National Center for Atmospheric Research 
(NCAR) for the National Science Foundation (NSF).
    On behalf of the geosciences research community represented by 
UCAR, I urge the subcommittee to support the President's request for 
science funding in the fiscal year 2012 Commerce, Justice, Science, and 
Related Agencies Appropriations Act, including $7.767 billion for the 
NSF, $5.017 billion for the Science Mission Directorate of the National 
Aeronautics and Space Administration (NASA), and at least $5.498 
billion for the National Oceanic and Atmospheric Administration (NOAA).
    National Science Foundation (NSF).--Last December, I was on a team 
to evaluate China's agency equivalent to NSF. My experience was eye-
opening. The budget of the National Natural Science Foundation of China 
has increased by more than 20 percent annually since its founding in 
1986. In 1949, about 600 Chinese citizens were engaged full time in 
research and development (R&D)--by 2009, there were 51 million. This 
Asian power now has the world's fastest supercomputer and its students 
have the world's top scores in reading, mathematics, and science. China 
has launched 10 weather satellites in the past 20 years and plans to 
launch 18 more by 2020. China is investing in R&D and education in the 
same aggressive manner in which the United States invested in science 
and science education decades ago--and by doing so, we created the 
world's largest and most successful economy. If we abandon that 
approach to economic growth at the same time our competitors are 
adopting it, the consequences could be dire.
    For evidence of how NSF investments affect the economy and jobs, 
one need to look no further than the example of Sergey Brin, co-founder 
of Google, who began his work on search engines as an NSF-funded 
graduate fellow. The President's $7.767 billion fiscal year 2012 budget 
request for NSF keeps the agency on track to reach the funding 
commitment authorized in the America COMPETES Act, passed with 
bipartisan congressional support in 2010. I urge you to support this 
overall NSF request and to fund the $979 million request for NSF's 
Geosciences Directorate (GEO).
    GEO supports a broad and diverse academic field that contributes to 
our understanding of long-term weather, extreme weather, dynamics of 
water resources, effects of the Sun on the Earth, effects of space 
weather on global communications, interactions of the Earth's systems, 
energy resources, geologic hazards, and all aspects of the global 
oceans. GEO's Atmospheric and Geospace Science (AGS) program supports 
research that saves lives and property through better prediction and 
understanding of weather-related and other natural hazards such as 
tornados, hurricanes, snow storms, droughts, and solar storms. Cities, 
communities, and businesses use this research to prepare for and 
mitigate the effects of these and other hazards.
    Within GEO, I urge you to support the President's AGS fiscal year 
2012 request of $286.3 million and the $100 million request for NCAR. 
NCAR is the national hub for research for the atmospheric sciences 
community, and the entire community depends on having access to its 
facilities, data, and research collaborations. While we are supportive 
of NSF's efforts to create interdisciplinary cross-directorate 
programs, without adequate overall funding these activities come at the 
expense of base programs like NCAR. Thus, we urge you to support the 
President's full request of $100 million for NCAR as well as the 
requested additional funds to support cross-directorate activities.
    NASA: Science Mission Directorate.--The research conducted and data 
collected by NASA's Science Mission Directorate are essential to 
atmospheric sciences research and global Earth observations. I urge the 
subcommittee to support the President's fiscal year 2012 budget request 
of $5.017 billion for NASA's Science Mission Directorate, including 
$1.653 billion for earth science.
    The Orbiting Carbon Observatory 2 (OCO-2), Landsat Data Continuity 
Mission (LDCM), and the Global Precipitation Measurement (GPM) mission, 
are in preparation for launches in fiscal year 2013, and fiscal year 
2012 funding must be sustained to ensure that prior taxpayer 
investments are leveraged for the full benefit of society.
    Fiscal year 2012 will initiate the first two decadal survey 
missions, the Soil Moisture Active and Passive (SMAP) Mission, which 
will map soil moisture and freeze/thaw states from space, and the Ice, 
Cloud, and Land Elevation Satellite-2 (ICESat-2), which will quantify 
polar ice sheet contributions to sea level change and collect better 
data on the characteristics of sea ice. At the same time, it is a 
disappointment that a delay is proposed for two critical probe 
missions:
  --the Deformation, Ecosystem Structure and Dynamics of Ice (DESDynI) 
        Mission, a dedicated U.S. interferometric synthetic aperture 
        radar and light detection and ranging mission optimized for 
        studying hazards and global environmental change; and
  --the Climate Absolute Radiance and Refractivity Observatory 
        (CLARREO) Mission, which will monitor the pulse of the Earth to 
        better understand changes in long-term weather trends. We urge 
        speedy development of these valuable probes.
    NOAA.--NOAA operations save lives, protect valuable natural 
resources and property, and serve many industrial sectors. Despite 
these critical functions, year after year, NOAA is faced with an 
uncertain budgetary outlook. Now, in addition to a request that is sub-
critical, the agency is having difficulty getting approval to simply 
organize itself in a manner that is responsive to the needs of 
Americans. We must have information to deal with changes in long-term 
weather patterns that cause droughts and floods, hurricanes and 
blizzards, and affect all aspects of the economy, including national 
security. On behalf of UCAR, I ask that the subcommittee allow NOAA to 
implement the planned no cost reorganization that will provide this 
country with a much needed climate service.
    Further, I ask the subcommittee to fund NOAA at the fiscal year 
2012 request level of $5.498 billion at a minimum. This will allow NOAA 
to make progress in replacing aging weather satellites with the Joint 
Polar Satellite System (JPSS). Imagine the impacts of a single day 
without the ability to predict the weather several days out, forecasts 
upon which the economy and safety of the American people depend. JPSS 
is a national priority, with the capacity to meet civil and military 
needs for weather forecasting, storm tracking, and the study of long-
term weather trends. This investment will improve warning lead times 
for severe storms, information used by sectors such as agriculture, 
transportation, and energy production. The fiscal year 2011 budget 
eliminates funding to keep JPSS on schedule, putting the country's 
weather forecasting abilities at risk. NOAA originally planned to 
launch the first two JPSS satellites in 2014 and 2018, however, both 
launches are already delayed by at least 18 months due to the lack of 
funding in fiscal year 2011. NOAA has stated these delays will cost as 
much as $3 to $5 for every $1 not received for JPSS in fiscal year 
2011. In addition to these added costs, data gaps will exist, 
undoubtedly, beginning in 2017. To meet the increasingly dire needs of 
the Nation, JPSS must ramp up immediately before current systems fail. 
I urge the subcommittee to provide the requested $1.07 billion for JPSS 
in fiscal year 2012 within NOAA's National Environmental Satellite 
Service (NESS).
    JPSS instruments will provide critical atmospheric measurements of 
sulfur dioxide, nitrous oxide, water vapor, methane, ozone, soot, 
carbon dioxide, aerosols, and solar energy reaching the Earth's 
atmosphere and the Earth's reflected and radiated energy. These data 
were identified in 2007 as the top priority by the joint NOAA-NASA 
climate assessment of the National Research Council. The Total Solar 
Irradiance Sensor, the Clouds and Earth's Energy System and the Ozone 
Mapping and Profiler Suite-Limb sensors will provide critically 
important continual data to researchers and decisionmakers. I urge you 
to support the fiscal year 2012 request of $30.4 million within NESS 
for JPSS instruments.
    Also within NESS, the Constellation Observing System for 
Meteorology, Ionosphere, and Climate (COSMIC) program is an example of 
a cost-effective means of improving weather forecasts. The COSMIC-1 
constellation of six small satellites using GPS Radio Occultation has 
proven so successful in improving weather forecasts since its launch 5 
years ago, that NOAA is committed to transitioning it to operational 
use. Currently, approximately 1,000 weather balloons are launched in 
the world each day, typically over land. COSMIC-1 provides more global 
coverage with an additional 2,000 soundings per day that have an even 
distribution and accuracy rate over the ocean and land. COSMIC-2 will 
provide at least 8,000 soundings per day, resulting in significantly 
more accurate long-range forecasts, including tracks and intensity of 
hurricanes and typhoons. I urge the subcommittee to appropriate the 
requested $11.3 million for COSMIC-2 in fiscal year 2012. This program 
is extremely cost effective, with our partner Taiwan providing one-half 
of the costs. However, it has been delayed considerably because the 
proposed NOAA start in 2011 was not funded. Further delay could 
jeopardize the funding provided by Taiwan. This is an excellent 
leveraging opportunity that must not be lost.
    The proposed Climate Service line office will manage the 
Competitive Research Program in which NOAA funds climate science to 
advance understanding of the Earth's climate system and its 
atmospheric, oceanic, land, and snow and ice components. Grants in the 
fiscal year 2012 budget will address priority research topics in the 
areas of climate monitoring; Earth system science; modeling, analysis, 
predictions, and projections; and climate and societal interactions. I 
urge the subcommittee to provide $64 million in fiscal year 2012 for 
NOAA's Competitive Research Program.
    Office of Oceanic and Atmospheric Research (OAR).--Among OAR's 
responsibilities is the successful extramural U.S. Weather Research 
Program (USWRP). The university community plays a pivotal role in this 
research program that works in close collaboration with the National 
Weather Service (NWS) to transition research to useful weather- and 
air-quality applications. University collaboration in this work 
leverages what OAR can accomplish with minimal resources. The fiscal 
year 2011 request for USWRP was $5.5 million. I urge the subcommittee 
to appropriate $5.5 million in fiscal year 2012 for USWRP.
    NWS.--NWS is a 24/7 operation and the Nation's sole authoritative 
source for issuing warnings and forecasts related to weather, severe 
weather, and long-term weather trends. Every day for the United States, 
its territories, adjacent waters, and ocean areas the NWS provides 
vital information regarding transportation safety, marine conditions, 
fire weather, air quality, agriculture, and flooding. I urge the 
Congress' continued strong support for the critical activities of the 
NWS.
    Space Weather Prediction Center (SWPC).--In coming years, solar 
activity, including flares that release immense magnetic energy that 
can harm power grids, electronic communication, and satellite systems, 
is predicted to peak. NOAA's SWPC, part of the NWS, is the Nation's 
official source of space weather forecasts, alerts, and warnings. With 
a solar maximum expected in 2013, this is a critical time when NOAA 
must continue to provide alerts, watches, warnings, and forecasts to 
customers to ensure the Nation's infrastructure is not disrupted. I ask 
the subcommittee to provide the requested $11.6 million for NOAA's 
space weather activities in fiscal year 2012.
    I want to thank the subcommittee for its past support of Global 
Learning and Observations to Benefit the Environment (GLOBE) at $5 
million and ask that you fund its inclusion in both the NASA and NOAA 
fiscal year 2012 budgets. This proven, experiential program supports 
the collaboration of students, teachers, and scientists on inquiry-
based investigations of the environment and the Earth system involving 
more than 1 million students, 50,000 teachers, and 20,000 schools 
around the world. NASA and NOAA have both supported this important 
program for many years. In fiscal year 2011, NOAA was willingly 
directed by the Congress to rejoin the program. This renewed 
partnership between NASA and NOAA has been critical for the program and 
for the fulfillment of both agency missions relating to education. 
However, NOAA was directed to treat GLOBE as a congressionally directed 
project and to zero out NOAA's $3 million commitment to NASA for fiscal 
year 2012. We ask that those GLOBE funds of $3 million, preferably as a 
stand-alone item, or be restored from NOAA's Competitive Education 
Grants Program in order to keep this proven global education program 
operating.
    Mr. Chairman, we know that we must all become more economical, and 
I believe we are up to making the sacrifices that task entails. But I 
urge the subcommittee to give high priority to funding for science 
agencies that support our Nation's R&D, contribute to the continued 
global competitiveness of the Nation, and promote economic and job 
growth. Thank you for your attention and for this opportunity to speak 
to the Nations' scientific needs.
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
    Mr. Chairman, my name is Jeffrey Koenings, and I serve as a U.S. 
Commissioner on the Pacific Salmon Commission (PSC). The PSC was 
established in 1985 to oversee implementation of the Pacific Salmon 
Treaty (PST) between the United States and Canada. In May 2008, the PSC 
concluded bilateral negotiations that developed revised 10-year salmon 
fishing regimes to replace regimes that were expiring at the end of 
2008. The provisions of the new fisheries agreements were approved by 
the United States and Canadian governments and are being implemented 
for the 2009-2018 period. The U.S. Section recommends that the 
Congress:
  --Fund the Pacific Salmon Treaty line item of the National Marine 
        Fisheries Service (NMFS) at $9,708,000 for fiscal year 2012 an 
        increase in funding compared to $5,600,000 in recent-year 
        budgets. This funding provides support for the States of 
        Alaska, Washington, Oregon, and Idaho and the NFMS to conduct 
        the salmon stock assessment and fishery management programs 
        required to implement the PST's conservation and allocation 
        provisions for coho, sockeye, Chinook, chum, and pink salmon 
        fisheries. Included within the total amount of $9,708,000 is 
        $400,000 to continue a joint Transboundary River Salmon 
        Enhancement Program as required by the Treaty.
  --Fund the Pacific Salmon Treaty Chinook Salmon Agreement line item 
        of the NMFS for fiscal year 2012 at $1,844,000, level funding 
        from what has been provided by the Congress in recent years and 
        is included in the President's fiscal year 2012 request. This 
        funding is necessary to acquire the technical information to 
        fully implement the abundance-based Chinook salmon management 
        program provided for under the PST.
    The funding identified above is for ongoing annual programs and 
does not include new funding specifically needed for full application 
of the revised agreement for 2009-2018 that was negotiated by the PSC 
and accepted by the Governments of the United States and Canada on 
December 23, 2008. This funding was part of the NMFS fiscal year 2010 
budget, which the U.S. PSC Commissioners recommend be continued in the 
fiscal year 2012 Federal budget.
    The base PST implementation projects included in the Pacific Salmon 
Treaty line item consist of a wide range of stock assessment, fishery 
monitoring, and technical support activities for all five species of 
Pacific salmon in the fisheries and rivers from southeast Alaska to 
those of Washington, Oregon, and Idaho. The States of Alaska, 
Washington, Oregon, Idaho, the Federal NMFS, and the 24 treaty tribes 
of Washington and Oregon are charged with carrying out the salmon 
fishery stock assessment and harvest management actions required under 
the Treaty. Federal funding for these activities is provided through 
NMFS on an annual basis. The agency projects carried out under PSC 
funding are directed toward acquiring, analyzing, and sharing the 
information required to implement the salmon conservation and sharing 
principles of the Treaty. A wide range of programs for salmon stock 
size assessments, escapement enumeration, stock distribution, and catch 
and effort information collection from fisheries are represented. The 
information from many of these programs is used directly to establish 
fishing seasons, harvest levels, and accountability to the provisions 
of Treaty fishing regimes.
    The base Treaty implementation funding of approximately $5.6 
million in the fiscal year 2010 budget has essentially remained at this 
low level since the early 1990s. Since that time, the growing 
complexity of conservation-based (Federal Endangered Species Act 
compliant) fishing regimes has required vastly more stock assessment, 
fishing compliance monitoring, and technical support activities. In 
order to continue to implement the Federal PST, the States have had to 
augment Federal funding with other Federal and State support. For 
example, additional sources of funding have included Federal Anadromous 
Fish Grants, Federal Pacific Coast Salmon Recovery Funds (PCSRF), 
Federal Dingell-Johnson dollars, and State general funds. However, the 
Anadromous Fish Grants were eliminated in the Federal fiscal year 2010 
budget, use of PCSRF monies was constrained in fiscal year 2010 by new 
appropriations language, and State dollars and Dingell-Johnson grants 
were cut significantly during the current economic recession.
    The economic impact of commercial and sport fisheries has been 
measured by the U.S. Fish and Wildlife Service at approximately $2-$3 
billion per year to the States involved in the PST. To continue to 
implement the Federal PST conservation-based fishing regimes that 
contribute to the sustainability of salmon stocks and the large 
economic return to the States, the U.S. PSC members recommend an 
increase in base treaty implementation funding from the current $5.6 
million to $9,708,000.
    Effective, science-based implementation of negotiated salmon 
fishing arrangements and abundance-based management approaches for 
Chinook, southern coho, Northern Boundary and Transboundary River 
salmon fisheries includes efforts such as increased annual tagging and 
tag recovery operations and application of other emerging stock 
identification techniques. The U.S. PSC members recommend that 
$9,708,000 be provided for the NMFS Pacific Salmon Treaty line item in 
fiscal year 2012 for Treaty technical support activities. The $400,000 
that has been provided in the separate International Fisheries 
Commissions line item since 1988 for a joint Transboundary River 
enhancement program with Canada is now included in this amount. The 
recommended amount for the combined projects represents an approximate 
increase of $4,108,000 more than the amount appropriated for fiscal 
year 2010.
    Beginning in fiscal year 1998, the Congress provided $1,844,000 to 
allow for the collection of necessary stock assessment and fishery 
management information to implement a new abundance-based management 
approach for Chinook salmon coast-wide in the Treaty area. Through a 
rigorous competitive technical review process for project approval, the 
States of Alaska, Washington, Oregon, and Idaho, and the 24 treaty 
tribes are using the funding to support research and data collection 
needed for abundance-based Chinook management. The U.S. Section 
recommends level funding of $1,844,000 for fiscal year 2012 to support 
the abundance-based Chinook salmon management.
    The United States and Canada agreed in 1988 to a joint salmon 
enhancement program on the Transboundary Rivers, which are rivers 
rising in Canada and flowing to the sea through southeast Alaska. Since 
1989, the Congress has provided $400,000 annually for this effort 
through NMFS International Fisheries Commission line item under the 
Conservation and Management Operations activity. Canada provides an 
equal amount of funding and support for this bilateral program. The 
funding for the U.S. share is included in the $9,708,000 the U.S. 
Section is recommending for the fiscal year 2012 NMFS Pacific Salmon 
Treaty line item.
    This concludes the statement of the U.S. Section of the PSC 
submitted for consideration by your subcommittee. We wish to thank the 
subcommittee for the support that it has given us in the past. I will 
be pleased to answer any questions the subcommittee members may have.
  summary of program funding for the u.s.-canada pacific salmon treaty

         DEPARTMENT OF COMMERCE--PACIFIC SALMON TREATY LINE ITEM
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Fiscal year 2009 appropriation..........................      $5,610,000
Fiscal year 2010 appropriation..........................       5,600,000
Fiscal year 2012 U.S. Section recommendation............  \1\ 9,708,000
------------------------------------------------------------------------
\1\ The recommended fiscal year 2012 amount includes $400,000 provided
  for the Joint Transboundary River Enhancement Program currently funded
  under the NMFS International Fisheries Commission account.


        PACIFIC SALMON TREATY--CHINOOK SALMON AGREEMENT LINE ITEM
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Fiscal year 2009 appropriation..........................      $1,844,000
Fiscal year 2010 appropriation..........................       1,844,000
Fiscal year 2012 U.S. Section recommendation............       1,844,000
------------------------------------------------------------------------



       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

American:
    Geological Institute, Prepared Statement of the..............
      287........................................................
    Geophysical Union, Prepared Statement of the.................
      289........................................................
    Institute of Biological Sciences, Prepared Statement of the..
      292........................................................
    Public Power Association, Prepared Statement of the..........
      296........................................................
    Society:
        For:
            Microbiology, Prepared Statement of the..............
              297................................................
            Quality, Prepared Statement of the...................
              302................................................
        Of Plant Biologists, Prepared Statement of the...........
          299....................................................
Animal Welfare Institute, Prepared Statement of the..............
  304............................................................
Association of Public and Land-Grant Universities, Prepared 
  Statement of the...............................................
  293............................................................

Bolden, Charles F., Jr., Administrator, National Aeronautics and 
  Space Administration...........................................   131
    Prepared Statement of........................................   142
    Summary Statement of.........................................   136
Brown, Senator Sherrod, U.S. Senator From Ohio:..................
    Questions Submitted by.....................................189, 263
    Statement of.................................................   136
Boggs, Captain Randy, For-hire Recreational Fisherman, Letter 
  From...........................................................
  306............................................................

Coastal States Organization, Prepared Statement of the...........
  310............................................................
Cochran, Senator Thad, U.S. Senator From Mississippi, Questions 
  Submitted by.................................................195, 282
Collins, Senator Susan, U.S. Senator From Maine, Questions 
  Submitted by...................................................   127
Columbia River Inter-Tribal Fish Commission, Prepared Statement 
  of the.........................................................
  307............................................................

Federation of American Societies for Experimental Biology, 
  Prepared Statement of the......................................
  312............................................................
Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by...................................58, 181, 250

Geological Society of America, Prepared Statement of the.........
  313............................................................
Graham, Senator Lindsey, U.S. Senator From South Carolina, 
  Questions Submitted by.........................................    74

Holder, Jr., Hon. Eric H., Attorney General, Department of 
  Justice........................................................     1
    Prepared Statement of........................................     9
    Summary Statement of.........................................     6
Hutchison, Senator Kay Bailey, U.S. Senator From Texas:
    Opening Statements of......................................133, 203
    Prepared Statement of........................................   134
    Questions Submitted by............................63, 117, 197, 265
    Statements of................................................ 4, 79

Independent Tribal Courts Review Team, Prepared Statement of the.
  321............................................................
Innocence Project, Prepared Statement of the.....................
  318............................................................
Inouye, Senator Daniel K., U.S. Senator From Hawaii, Questions 
  Submitted by...................................................   249
Institute of Makers of Explosives, Prepared Statement of the.....
  316............................................................

Krebs, David, President of the Gulf of Mexico Reef Fish 
  Shareholders' Alliance, Prepared Statement of..................   285

Locke, Hon. Gary F., Secretary, Department of Commerce...........   201
    Prepared Statement of........................................   206
    Summary Statement of.........................................   204
Lummi Indian Business Council, Prepared Statement of the.........
  323............................................................

Marine Conservation Biology Institute, Prepared Statement of the.
  325............................................................
Marine Fish Conservation Network, Prepared Statement of the......
  328............................................................
Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Opening Statements of...............................1, 75, 131, 201
    Prepared Statement of........................................    77
    Questions Submitted by.................................27, 101, 242
Mueller, Hon. Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice...........................    75
    Prepared Statement of........................................    83
    Summary Statement of.........................................    81
Murkowski, Senator Lisa, U.S. Senator From Alaska, Questions 
  Submitted by.................................................200, 278

Natural Science Collections Alliance, Prepared Statement of the..
  333............................................................
Nelson, Senator Ben, U.S. Senator From Nebraska, Question 
  Submitted by..................................................60, 256
Northwest Indian Fisheries Commission, Prepared Statement of the.
  331............................................................

Pew Environment Group, Prepared Statements of the..............334, 337
Pryor, Senator Mark, U.S. Senator From Arkansas, Questions 
  Submitted by.............................................61, 184, 259

Regional Information Sharing Systems Program, Prepared Statement 
  of the.........................................................
  339............................................................

Society for:
    Industrial and Applied Mathematics, Prepared Statement of the
      346........................................................
    Neuroscience, Prepared Statement of the......................
      343........................................................
Southern CATCH--South Atlantic Fishermen's Association, Prepared 
  Statement of...................................................
  342............................................................

The Nature Conservancy, Prepared Statement of....................
  349............................................................

United States Section of the Pacific Salmon Commission, Prepared 
  Statement of the...............................................
  354............................................................
University Corporation for Atmospheric Research, Prepared 
  Statement of
  the............................................................
  351............................................................


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF COMMERCE

                         Secretary of Commerce

                                                                   Page

Activities and Capabilities That Support Catch Share Programs....   223
Additional Committee Questions...................................   242
Administrative Savings--Departmental Efficiencies................   230
And So Goes the Saga of Modern-day Fishing.......................   285
Arctic Research..................................................   281
Broadband Funding................................................   256
Calfed Biological Opinion........................................   228
Catch:
    Limits.......................................................   278
    Share:
        Program..................................................   226
        Programs.................................................   221
    Shares.....................................................253, 281
Census:
    Bureau.......................................................   242
    Lessons......................................................   267
Climate Service..................................................   246
Coastal and Marine Spatial Planning..............................   280
Commerce:
    Connect......................................................   264
    Trade Reorganization.........................................   270
Consolidation of U.S. Trade Agencies.............................   216
Cooperative Research.............................................   226
Current Industrial Reports Program and Alternatives..............   256
Cybersecurity at the Department of Commerce......................   245
Deepwater Horizon................................................   248
Department Funding Levels........................................   215
Economic Development Administration..............................   270
Fisheries........................................................   277
Government:
    Accountability Office Report.................................   230
    Reorganization...............................................   250
Gulf of Mexico Resources.........................................   265
Implementation and Operation of Specific Catch Share Programs....   223
Importance of Funding Catch Share Programs Such as the Red 
  Snapper IFQ....................................................   286
Inspector General Concerns.......................................   233
Intellectual Property............................................   232
Investments......................................................   208
Joint Polar Satellite System.....................................   249
JPSS.............................................................   238
Manufacturing....................................................   259
    Extension Partnership........................................   255
Marine Spatial Planning..........................................   224
Mid-Atlantic Fisheries Management Council........................   227
Miller Freeman Fishery Survey Vessel.............................   280
National:
    Cybersecurity................................................   245
    Export Initiative............................................   263
    Institute of Standards and Technology........................   253
    Oceanic and Atmospheric Administration Satellites............   243
NEI..............................................................   231
New England Fisheries............................................   225
NIST:
    Advanced Manufacturing Technology Consortia..................   273
    Budget Increase..............................................   276
    Cybersecurity................................................   274
    Hollings MEP.................................................   276
    Manufacturing................................................   271
NOAA:
    Satellites...................................................   268
    Stem Education...............................................   267
Pacific Salmon Treaty Funding....................................   278
Reductions.......................................................   208
Reorganization of Export-related Agencies........................   217
Salmon...........................................................   250
Specific Projects................................................   235
Statistical Agencies and Measuring Globalization.................   263
Steller Sea Lions in the Aleutian Islands........................   279
Stock Assessments................................................   224
Support Requests From Regional Fishery Management Councils for 
  Analysis and Development of New Catch Share Programs...........   223
The Gulf Red Snapper Story.......................................   285
Three Projects Focused on:.......................................
    Improving Acquisition Processes..............................   236
    Specific Challenges..........................................   237
U.S. Patent and Trademark Office.................................   244
USPTO Backlog....................................................   213
Weather Modification.............................................   269

                         DEPARTMENT OF JUSTICE

                            Attorney General

Additional Committee Questions...................................    26
Afghanistan--Fighting Narco-Terrorism--DEA.......................    47
Assist State, Local, and Tribal Law Enforcement Partners.........    11
ATF:
    Director.....................................................    41
    Gunrunner Allowing Firearms To Be Trafficked.................    73
    Long Guns Reporting..........................................    41
ATF's:
    National Integrated Ballistics Imaging Network...............    66
    NIBIN--Houston...............................................    66
Bill Allen Alaska Case...........................................    18
Bureau of Prisons Construction Funding...........................    22
Consequences of Fiscal Year 2011 Continuing Resolution...........    27
COPS and Byrne Grant Funding Reductions..........................    29
Cost of Guantanamo Bay Detainee Trials...........................    69
Curbing Lavish Spending..........................................    52
Cuts to State and Local Assistance...............................    60
Cyber Security...................................................    34
Danger Pay for:
    DEA and USMS in Mexico.......................................    46
    Mexico.......................................................    71
Defense of Marriage Act..........................................    20
Earmarks Ban--Congressional Communications.......................    51
Effect of Cuts to the COPS Program...............................    22
Effects of Fiscal Year:
    2011 Continuing Resolution:
        Funding..................................................    14
        Furloughs................................................    13
        Morale...................................................    13
        Prison Funding...........................................    13
    2010 Levels on FBI...........................................    68
Extraditions From Mexico (Drug Caucus)...........................    58
Federal Courthouse and Judicial Security.........................    42
Financial Fraud--Predatory Lending...............................    31
Fiscal Year 2012 Budget Cuts.....................................    16
Fort Hood Shootings..............................................    63
Fugitive Safe Surrender Program..................................    24
Funding for Terrorist Trials.....................................    39
Guantanamo Bay Trials............................................    15
Gun Show Loophole................................................    24
Healthcare Fraud.................................................    49
High-Capacity Ammunition Magazines...............................    23
ICE Agent Shooting in Mexico.....................................    65
Law Enforcement Wireless:
    Communications 2.............................................    67
    Technical....................................................    70
Maintain Safe Prison and Detention Facilities....................    11
Meth Labs........................................................    26
Prescription Drug Abuse Programs.................................    25
Preserve Traditional Missions....................................    10
Prisons:
    Overcrowding.................................................    55
    Thompson Prison Facility.....................................    54
    Understaffing................................................    56
Problem-Solving Courts...........................................    61
Project Gunrunner................................................14, 72
    --ATF........................................................    40
Savings and Efficiencies.........................................    12
Southwest Border Violence........................................    44
State and Local:
    Grants Management............................................    57
    Law Enforcement Cuts.........................................    72
Stopping Child Predators.........................................    31
Strengthen National Security.....................................    10
Task Forces--State and Local Law Enforcement.....................    36
The President's Announcement on Guantanamo Detainee Trials.......    63
Uncollected Court-Ordered Fines..................................    35
Violence in Fugitive Apprehension................................    37

                    Federal Bureau of investogation

Additional Committee Questions...................................   101
Brady Law........................................................    93
Budget Request for Resources in New Jersey.......................    95
Criminal Threats.................................................    87
Digital Analysis and Research Center.............................   108
Effects of Fiscal Year 2010 Levels on the FBI....................   120
Endangered Child Alert Program...................................   108
FBI:
    Academy......................................................   113
    Budget Prioritization........................................    95
Fort Hood:
    Shooting.....................................................   100
    Shootings....................................................   119
Gangs............................................................    99
Gun Show Loophole................................................    93
Hybrid Squads....................................................   120
IINI Research and Development Team...............................   108
Immigration and Customs Enforcement Agent Shooting--Process and 
  Resources......................................................   117
Impact of a Government Shutdown on FBI...........................   123
Innocence Lost...................................................   121
Innocent Images..................................................   122
Lack of Support for Southwest Border Efforts...................117, 125
Law Enforcement Partnerships.....................................   108
Misconduct of FBI Employees......................................   112
Mortgage Fraud...................................................    96
    Predatory Lending............................................   101
National Security:
    Letters......................................................   114
    Threats......................................................    84
9/11 Trial Costs to the FBI......................................   118
Other Than Mexicans..............................................   125
OTMs--Other Than Mexicans........................................   124
Offsets..........................................................    88
Online Undercover Operations.....................................   107
Operating Under a Continuing Resolution..........................    88
Operation Rescue Me..............................................   109
Port Newark and Liberty International Airport....................    94
Relationship Between Intellectual Property Theft and Crime/
  Terrorism......................................................   122
Render Safe Mission..............................................   111
Sentinel.........................................................   105
Southwest Border.................................................    97
    Funding......................................................    91
    Violence.....................................................   110
State and Local Law Enforcement--Fighting:.......................
    Terrorism....................................................   104
    Violent Crime................................................   109
Stopping:
    Human Trafficking............................................   103
    Internet Child Predators.....................................   107
Terrorist:
    Access to Guns...............................................    94
    Watchlist....................................................   114

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

2012 Continuing Resolution.......................................   163
Additional Committee Questions...................................   181
Aeronautics Research.............................................   148
Cassini Report...................................................   165
Collaboration With the Federal Aviation Administration and the 
  U.S. Air Force.................................................   190
Commercial.......................................................   135
Constellation:
    Funding......................................................   182
    Program Contract Modification................................   171
Construction and Environmental Compliance and Restoration........   158
Continuing Resolution............................................   174
Contracting and Acquisition......................................   177
Cost-Plus Contracts--Fixed-Price Contracts.......................   176
Cross-Agency Support.............................................   157
    Budget.......................................................   194
Deformation, Ecosystem, Structure and Dynamics of Ice Satellite 
  Program........................................................   183
Disposition of Orbiter Vehicles................................168, 174
ETDD.............................................................   168
Earth Departure Stage and Lander Development.....................   189
Education........................................................   156
Exploration......................................................   152
Feasibility of Developing Commercial Crew Capability.............   189
Fiscal Year 2012 Budget Request--Detailed Summary................   146
Glenn Research Center............................................   179
Hangar One.......................................................   196
Human Space Flight...............................................   135
    Safety.......................................................   199
Human-Rating Requirements........................................   178
International Space Station Continuation.........................   197
ISS Risk if Commercial Cargo is Late.............................   197
JWST.............................................................   164
Kodiak Launch Complex............................................   200
Launch Capability and Safety.....................................   181
Life and Microgravity Research...................................   198
NASA Centers.....................................................   183
    Contract Management..........................................   175
National Aeronautics and Space Administration Education..........   184
Plumbrook Testing Facility.......................................   178
Rocket Propulsion Test Infrastructure............................   195
Science..........................................................   146
    Technology, Engineering, and Mathematics Education...........   192
Space:
    Operations...................................................   154
    Technology...................................................   150
Stennis Space Center.............................................   196
STS-134 Shuttle Flight Mission...................................   179
Technology Development Program...................................   185
Ten Healthy Centers..............................................   167
Testing:
    Capability at Stennis Space Center...........................   166
    Commercial Launch Vehicles...................................   167
Unpublished Test Requirements Document...........................   189
Utilization of the Constellation Contracts.......................   172

                                   - 

</pre></body></html>
